                        C
                   INSPE TOR GEN
              AL                E
           CI




                                           RA
       E
     SP




                                               L
                                               M
    TRO




                                           RA
          LE
      UB




                                      OG

               DA                          R
                    S S E T R E LI E F P




SIGTARP                                            Office of the Special Inspector General
                                                   for the Troubled Asset Relief Program
Advancing Economic Stability Through Transparency, Coordinated Oversight, and Robust Enforcement



                                                                     Quarterly Report to Congress
                                                                                   April 30, 2014
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”), as amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
                                                                                                                                         C
                                                                                                                                    INSPE TOR GEN
                                                                                                                               AL                E
                                                                                                                          CI




                                                                                                                                                           RA
                                                                                                                      E
                                                                                                                    SP




                                                                                                                                                               L
Message from the Special Inspector General




                                                                                                                                                               M
                                                                                                                   TRO




                                                                                                                                                           RA
                                                                                                                         LE




                                                                                                                    UB




                                                                                                                                                      OG
                                                                                                                              DA                           R
                                                                                                                                    S S E T R E LI E F P

I am pleased to present the Office of the Special Inspector General for the Troubled Asset Relief Program’s
(“SIGTARP”) quarterly report. Recovery from a crisis comes in two equally important stages: immediate triage,
followed by longer-term planning and rebuilding to reduce vulnerabilities, strengthen infrastructure, and mitigate
future harm. In this second stage, there has been some progress through reforms that have been implemented, but
there is much more work to be done.

SIGTARP’s law enforcement successes restore public confidence in our financial system and help end moral hazard
by bringing consequences to those who break the law. We reduce vulnerabilities and mitigate future harm by
removing those who have already shown a willingness to break the law. Recouping funds lost to TARP-related crime
or civil violations of the law is a vital part of recovery, and SIGTARP’s investigations have already resulted in court
orders for the return of $4.77 billion to the Government and victims. TARP-related crime has a dangerous ripple
effect, hurting those beyond the immediate victims (homeowners and investors), such as American taxpayers who
funded the bailout, the Government, local communities, and our broader economy. It can contribute to the failure
of a bank, may leave a bank vulnerable to takeover, and can threaten the bank’s ability to repay TARP or pay TARP
dividends. SIGTARP works to bring justice to all victims of TARP-related crime.

SIGTARP seeks individual accountability in the form of serious jail time, particularly for senior bank officers
that put the safety of their bank and the taxpayers’ TARP investment at risk. As of April 2, 2014, SIGTARP’s
investigations have resulted in criminal charges against 188 individuals. Already 129 have been convicted with
others awaiting trial. Of those, 80 have been sentenced to prison, and 94 have industry bans/suspensions. We also
seek corporate accountability. For example, Jefferies LLC agreed to substantial corporate changes and a $25 million
penalty after a jury convicted Jefferies trader Jesse Litvak for criminally defrauding (by overcharging) customers,
including PPIP funds in TARP; and Bank of America, its former CEO and former CFO agreed to pay $32.5 million
to settle a civil action by the New York Attorney General resulting from a SIGTARP investigation into their failure
to disclose losses at Merrill Lynch and snookering the Government into an additional TARP bailout. CEO Lewis
agreed to be banned from serving as an officer or director of a public company for 3 years, and CFO Price agreed to
be banned for 18 months.

SIGTARP’s work is far from over as the long-term second stage of recovery from the crisis will take time and
continued hard work. We continue to uncover new TARP-related criminal schemes. Persistent oversight and law
enforcement by SIGTARP is necessary to restore confidence and advance economic stability through justice and
accountability. Long term full recovery from the financial crisis depends on it.


                                                 Respectfully yours,




                                                 CHRISTY L. ROMERO
                                                 Special Inspector General
CONTENTS
Executive Summary	3
Section 1
THE OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR THE
TROUBLED ASSET RELIEF PROGRAM	                                               13
  SIGTARP Creation and Statutory Authority	                                  15
  SIGTARP Oversight Activities 	                                             15
  The SIGTARP Organization	                                                  45


Section 2
TARP OVERVIEW	                                                               47
  TARP Funds Update	                                                         49
  TARP Programs Update	                                                      52
  Cost Estimates	                                                            53
  TARP Programs	                                                             56
  Housing Support Programs	                                                  63
  Financial Institution Support Programs	                                   159
  Automotive Industry Support Programs	                                     219
  Asset Support Programs	                                                   227

Section 3
BANKS AND CREDIT UNIONS IN TARP’S CDCI PROGRAM
FACE CHALLENGES	                                                             247
  Introduction	249
  CDCI Institutions Face Challenges that Could Impact Their Financial
  Stability, Ability to Lend to Small Businesses, and Ability to Repay TARP	 251
  Banks and Credit Unions in CDCI Are Not Reporting on Their Use of
  TARP Funds, Which Hinders Transparency, Oversight, and Treasury’s
  Ability to Judge Whether the Goals of the Program Are Being Met	           257
  CDCI Institutions that Missed TARP Dividends and Interest Payments 	       261

Section 4
TARP OPERATIONS AND ADMINISTRATION	                                        263
  TARP Administrative and Program Operating Expenditures	                  265
  Financial Agents	                                                        266


Section 5
SIGTARP RECOMMENDATIONS	                                                   279
  Additional Recommendations Regarding Homeowners Redefaulting
  On Modified Mortgages Under HAMP	                                         281
  Update on Recommendations Regarding the Appointing of Directors
  to the Boards of CPP and CDCI Institutions	                               283
  Recommendations Regarding Educating Homeowners About
  Mortgage Modification Fraud	                                              284

  Endnotes	310
APPENDICES
  A.	 Glossary	340
  B.	 Acronyms and Abbreviations	                                         344
  C.	 Reporting Requirements	                                             347
  D.	Transaction Detail	                                                  351
  E.	 Debt Agreements, Equity Agreements, and Dividend/Interest Payments	 494
  F.	 HAMP Modification Statistics	                                       498
  G.	Cross-Reference of Report to the Inspector General Act of 1978	      500
  H.	Public Announcements of Audits	                                      501
  I.	 Key Oversight Reports and Testimony	                                502
  J.	 Correspondence	504
  K.	 Peer Review Results	                                                509
  L.	 Organizational Chart 	                                              510
EXECUTIVE SUMMARY
4   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   5




Recovery from a crisis comes in two equally important stages: immediate triage,
followed by longer-term thoughtful planning and action to reduce vulnerabilities,
strengthen infrastructure, and mitigate future harm. With the financial system
and TARP in this second stage, there has been some progress through reforms
that have been implemented, but there is much more work to be done. Our nation
needs continued progress in eliminating a significant legacy of TARP that has
left our nation vulnerable — moral hazard — the belief by bailed-out institutions
that they can play by their own set of rules without regard for consequences.
Moral hazard is not just a concern for the largest TARP banks, but of TARP
recipients of any size who believe that they can play by a different set of rules
without consequences. Ending moral hazard requires important ongoing work by
regulators on rules to strengthen the financial system and reduce vulnerabilities,
and necessitates a change in culture by some institutions. SIGTARP has reported
on cultures at TARP institutions that were vulnerable to moral hazard, including,
for example, reports on the culture of profit-seeking and risk-taking at select large
TARP companies that left them near failure, cultures at TARP companies that
resulted in them fighting against limits on executive compensation while in TARP,
and cultures that resulted in large TARP companies pushing to exit TARP short of
capital requirements set by Federal banking regulators.
    A necessary part of the second stage of long-term crisis recovery is law
enforcement, another area where SIGTARP plays a crucial role as a criminal law
enforcement agency. Our law enforcement successes help end moral hazard by
bringing consequences to those who did not play by the rules, but instead broke the
law. This important work also reduces vulnerabilities in the financial system and
mitigates future harm by removing from the system those who have already shown
a willingness to break the law. It deters those who may contemplate breaking the
law in the future. These are the broader reasons why SIGTARP’s work matters,
whether related to a large or small TARP recipient. They matter to taxpayers who
funded the bailout. They matter to the communities TARP institutions serve. They
matter to instill confidence in the financial system, and make it stronger for the
future.
    Recouping funds lost to TARP-related crime or civil violations of the law is
a vital part of long-term recovery from the crisis, and SIGTARP’s investigations
have already resulted in court orders for the return of money to the Government
or victims (including the Government as a victim) of $4.77 billion. Not all crimes
investigated by SIGTARP will result in a direct loss to Treasury. In some cases,
bank insiders committed bank fraud by falsifying books and records that banking
regulators relied on in reviewing a bank’s TARP application, but the bank ultimately
did not receive TARP funds. For example, after uncovering that TARP-applicant
Colonial Bank was engaged in a massive fraud scheme with Taylor, Bean and
Whitaker, SIGTARP was able to prevent $550 million in TARP funds already
approved by Treasury from going to Colonial, all of which would have been lost
when the bank failed. While SIGTARP prevented the loss to Treasury, the FDIC
estimated it would suffer a $4.5 billion loss from the bank failure — a failure due
to the fraud. SIGTARP’s investigation led to prison sentences for eight senior
6   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           officers and court orders for the return of $3.5 billion. In other cases, a TARP bank
                                           may become a victim of a crime or civil fraud (by those inside or outside the bank)
                                           and suffer losses but may still be able to repay TARP or may be acquired by another
                                           bank that repays TARP. Sometimes, Treasury will suffer a loss from crime.i
                                               SIGTARP investigations also matter to the victims of TARP-related crimes and
                                           civil violations of the law. Previous SIGTARP reports have educated the public
                                           about how struggling homeowners can become victims of TARP-related crime,
                                           particularly those scammed into believing that they were applying to TARP’s
                                           HAMP program, but were instead being tricked out of their last dollars and the
                                           critical time necessary to seek other foreclosure alternatives. As a result, some
                                           even lost their homes. The HAMP program can also be a victim of these crimes if
                                           homeowners become wary to seek help from TARP. Beyond homeowners, it is not
                                           always fully understood who the victims are of other TARP-related white-collar
                                           crimes involving banks and other financial institutions. Anyone who has fallen
                                           victim to these crimes will tell you that these are not victimless crimes. SIGTARP
                                           has identified immediate victims of TARP-related crime in each of the 50 states
                                           and Washington, DC.

                                           The Dangerous Ripple Effect of TARP-related Crime
                                           TARP-related crimes (as well as civil fraud) leave many victims in their wake
                                           and have a dangerous ripple effect, hurting those beyond the immediate victims
                                           (homeowners and investors), such as taxpayers who funded the bailout, local
                                           communities, and our broader economy. Victims of TARP-related crime and civil
                                           fraud include:

                                           •	   Struggling homeowners seeking TARP assistance to keep a roof over their heads
                                           •	   TARP programs
                                           •	   TARP banks
                                           •	   Investors of TARP banks
                                           •	   Employees of TARP banks
                                           •	   Counterparties of TARP banks
                                           •	   Investors in mortgage-backed securities as part of TARP programs
                                           •	   Treasury on behalf of taxpayers who funded the TARP bailout
                                           •	   The FDIC
                                           •	   Government sponsored enterprises Fannie Mae & Freddie Mac
                                           •	   Ginnie Mae
                                           •	   The communities and small businesses TARP banks serve
                                           •	   The communities devastated by the crisis
                                           •	   The nation’s banking system and economy



                                           i Some banks have repaid the TARP investment 100% in full, and also paid dividends or interest to Treasury for taking on risk. However,
                                            not all banks paid the dividends as required and in some instances the dividends paid to Treasury did not adequately cover the risk.
                                            Treasury has realized or expects to realize losses of $4.73 billion from 29 failed or bankrupt TARP banks and 184 banks that did
                                            not fully repay TARP and Treasury took a loss on the investment. Not all of these losses will be associated with crime investigated by
                                            SIGTARP, but some will.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   7




    TARP-related crime can have a ripple effect through the financial system and
economy. One lesson learned from TARP is that our financial system is built on
institutions that are interconnected as
counterparties and investors. Fraud at
one institution in this chain spreads          TARP-related crime can have a ripple
risk to an institution’s shareholders          effect through the financial system
and counterparties. Law enforcement
is critical to the second stage of crisis      and economy.
recovery, because it makes our system
and economy less vulnerable to that
ripple effect.
    Law enforcement is also necessary to restore public confidence in our financial
system. When Treasury asked Congress for TARP authority, then-Treasury
Secretary Paulson explained that TARP was necessary to restore confidence in the
financial system. Crime in banks, particularly by insiders at banks that applied for
or received TARP, erodes the American public’s confidence in the banking system
making the banking system another victim of the crime. SIGTARP works to restore
confidence in the banking system by arresting individuals charged with committing
crime at TARP and TARP-applicant banks, assisting in their prosecution and ban
from the banking industry, and investigating and assisting in the prosecution of
corporations for their violations of the law.
    When TARP-related fraud seeps into the mortgage origination process, the
securitization process (in which mortgages are bundled into complex mortgage
backed securities), or the markets where mortgage bonds are traded, the
consequences can spread to more victims including Americans whose retirements
may be invested in these securities. An important lesson learned from the financial
crisis is that dangerously interconnected mortgage-backed securities can have a
significant impact on our economy. TARP schemes related to these investments can
jeopardize confidence in these bonds and bond markets, which, if wide-spread, can
limit credit access to American consumers, or raise their borrowing costs. They may
also raise questions about the quality of the underlying mortgages in bonds, and
can steer investors away from these securities, leading to less availability and higher
costs for qualified applicants seeking mortgages. TARP was meant to establish
broad confidence in the market, provide financial stability, and reignite the flow of
credit. However, fraud in the mortgage market can undermine each of these goals.
    SIGTARP stands committed to stamping out all crime and civil violations of the
law related to the TARP bailout at the corporate and individual level and securing
justice for all victims.

Corporate accountability: We seek corporate accountability for violations of the
law. We will refer a corporation for criminal prosecution where appropriate. Our
investigations have resulted in non-prosecution agreements and civil complaints by
prosecutors against corporations that have led to significant corporate change to
avoid future violations of the law and penalties. These penalties must be substantial
8   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           to avoid the risk that they become a cost of doing business. Some notable examples
                                           include:

                                           •	 Crime in TARP’s Public-Private Investment Program (PPIP) in which
                                              Treasury-hired fund managers bought and sold mortgage-backed securities
                                              using TARP funds, harms the Government, hinders taxpayers’ returns, hurts
                                              other investors, and could hurt the market as a whole. On January 29, 2014,
                                              as a result of SIGTARP’s investigation, mortgage broker-dealer Jefferies, LLC
                                              entered into a non-prosecution agreement with the U.S. Attorney for the
                                              District of Connecticut agreeing to substantial corporate changes and to pay
                                              a $25 million penalty, after a jury convicted Jefferies trader Jesse Litvak for
                                              criminally defrauding customers, including PPIP funds, by overcharging them
                                              for residential mortgage-backed securities by more than $2 million, which led
                                              to increased revenue for Jefferies and an increased bonus for Litvak. SIGTARP
                                              special agents arrested Litvak after conducting our investigation, which was the
                                              first criminal case brought under the President’s Residential Mortgage Backed
                                              Securities working group.
                                           •	 Violations of the securities laws by PPIP managers who were hired by Treasury
                                              for TARP also harm Treasury. The Securities and Exchange Commission and
                                              the Department of Labor settled a civil lawsuit resulting from a SIGTARP
                                              investigation with those agencies that uncovered that PPIP fund manager
                                              Western Asset Management Company, (“Western Asset”), a Legg Mason
                                              subsidiary, engaged in illegal “cross trades” that favored some clients over others.
                                              Western Asset agreed to significant corporate changes and to pay more than $21
                                              million including $1 million to be paid to Treasury.
                                           •	 Corporate fraud related to TARP can hurt shareholders and Treasury, on behalf
                                              of taxpayers who funded TARP. This month, the New York State Attorney
                                              General (“NYAG”) settled a civil lawsuit resulting from one of SIGTARP’s first
                                              investigations that sought accountability from a TARP bank for not playing by
                                              the rules, in violation of the law. Our investigation with the NYAG revealed that
                                              Bank of America and two of its top executives, former CEO Kenneth Lewis and
                                              former CFO Joe Price, duped shareholders by not disclosing massive losses at
                                              Merrill Lynch (which Bank of America was in the process of acquiring) and
                                              snookered the Federal Government into investing billions of taxpayer dollars
                                              into the company through an additional TARP investment. Bank of America
                                              and CEO Lewis agreed to pay $25 million. CEO Lewis will pay $10 million of
                                              that amount and agreed to be banned from serving as an officer or director of
                                              a public company for three years. In addition, Price agreed to pay $7.5 million
                                              and be banned as an officer or director of a public company for 18 months.
                                           •	 Civil fraud at a TARP bank related to faulty mortgages can lead to substantial
                                              losses for Government-sponsored enterprises Fannie Mae and Freddie Mac.
                                              On October 23, 2013, a Federal jury in Manhattan, New York, found Bank
                                              of America and former executive Rebecca Mairone liable for defrauding the
                                              United States in a civil fraud case brought by the U.S. Attorney’s Office for
                                              the Southern District of New York, resulting from a SIGTARP investigation.
                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   9




   Our investigation with our law enforcement partners uncovered fraud by
   Countrywide Financial Corporation and its successor, TARP recipient Bank
   of America, before and during the bank’s time in TARP. Bank of America
   originated a high volume of mortgages in a high speed process called the
   “Hustle” (for “High-Speed Swim Lane” or “HSSL”) for sale to Fannie Mae and
   Freddie Mac. Bank of America removed quality control checks that could slow
   down the process. Senior management responsible for this program made no
   changes to the “Hustle,” despite repeated warnings that eliminating toll gates
   for quality control and fraud prevention and compensating loan processors
   based on volume would result in disastrous results. The results were, in fact,
   disastrous. Based on Bank of America’s representations about underwriting
   and other quality requirements of the loans, Fannie Mae and Freddie Mac
   purchased thousands of fraudulent and otherwise defective residential mortgage
   loans that later defaulted, causing enormous losses.

Individual accountability: SIGTARP seeks individual accountability in the form
of serious jail time particularly for senior bank officers that put the safety of their
bank at risk and taxpayers’ TARP investment at risk because there must be real
consequences for breaking the law. As of April 2, 2014, SIGTARP’s investigations
have resulted in

•	 Criminal charges against 188 defendants (123 of which were senior officers at
   their institution) filed in federal courts in 20 states.
•	 Although it takes time to reach trial, already 129 of those defendants have been
   convicted, while others await trial.
•	 Of those convicted, 80 have been sentenced to prison, and others await
   sentencing.
•	 Permanent bans (or suspensions) of 94 defendants from the banking, financial
   or other industry.

    Crimes against a TARP bank bailed out with taxpayer dollars are, simply put,
crimes against taxpayers. SIGTARP has uncovered criminal schemes committed
by insiders of TARP banks or individuals outside the bank who target those
institutions. The crime typically causes losses to the bank that shareholders must
bear, including Treasury who became a shareholder in TARP banks on behalf of
taxpayers in exchange for TARP funds. These losses can be enough to threaten the
bank’s health and its ability to lend to its community.

Victims of TARP-Related Crimes at Failed Banks
TARP-related crime can contribute to the failure of a TARP bank or TARP-
applicant bank. When a bank fails, it triggers losses to the FDIC who insures
deposits. In some SIGTARP cases, courts have determined that the loss
attributable to the crime includes the expected cost to the FDIC when taking
over the bank. If the failed bank is a TARP bank, the failure typically wipes out
taxpayers’ entire TARP investment and any unpaid TARP dividends.
10   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                Beyond the bottom line, the impact
                                            on a community when a bank shuts its            Crimes against a TARP bank bailed
                                            doors can be devastating. Employees             out with taxpayer dollars are, simply
                                            become victims when their jobs are
                                            lost, an important source of lending            put, crimes against taxpayers.
                                            quickly disappears for the community
                                            served making it harder for small
                                            businesses to get necessary loans and the public to get traditional banking services.
                                            The consequences can be particularly harmful where the crime impacts a bank
                                            operating in an underserved community, a community that is then deprived of a
                                            much-needed source of lending.
                                                SIGTARP investigations have resulted in criminal charges against bank officers
                                            at failed TARP banks and TARP-applicant banks for crimes such as bank fraud,
                                            wire fraud, conspiracy, false entries in bank books, obstructing a bank examination,
                                            bribery, and money laundering. Some of the alleged criminal conduct investigated
                                            by SIGTARP at TARP banks include, for example, bank officers who hid the bank’s
                                            true deteriorating financial condition from bank regulators; bank officers who
                                            used a variety of fraudulent accounting tricks such as falsifying “call reports” on
                                            loans to hide the true financial nature of the bank; a bank officer authorizing the
                                            bank to lend to purchasers that the officer knew were straw purchasers in order to
                                            circumvent the bank’s internal controls; and a bank officer scamming the bank into
                                            closing a real estate deal in order to personally pocket hundreds of thousands of
                                            dollars.
                                                SIGTARP investigations have also resulted in criminal charges against
                                            defendants outside the bank such as real estate developers or other bank customers
                                            for defrauding TARP banks that later failed. The alleged criminal conduct included,
                                            for example, husband and wife owners of a décor store who used a second set
                                            of books that overstated accounts receivables to obtain banks loans that later
                                            defaulted; a borrower who conspired with bank officers to use straw purchasers to
                                            obtain loans for real property fraudulently when the bank would have exceeded its
                                            legal lending limit to that borrower that later defaulted; borrowers who defrauded
                                            a TARP bank by submitting false requests to draw down on loans purportedly
                                            for construction costs, money that they used for other purposes, later defaulting
                                            on the loan; and a borrower who defrauded a TARP bank by submitting a false
                                            HUD-1 form in order to obtain a bigger loan from the bank so that he could pocket
                                            hundreds of thousands of dollars.

                                            Victims of TARP-Related Crimes at Banks where Bank Did
                                            Not Fail
                                            In some cases, crimes related to TARP may leave a bank with such declining health
                                            that it becomes vulnerable to be taken over by another institution. SIGTARP
                                            uncovered that First Community Bank President Reginald Harper turned to fraud
                                            to hide past due loans owed by Troy Fouquet from the bank, its regulators, and
                                            Treasury in the bank’s TARP application. After Treasury approved First Community
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   11




Bank to receive $3.3 million in TARP funds, the bank withdrew its application
believing the funds were not needed. Harper and Fouquet’s $3 million dollar fraud
scheme, involved making sham loans to Fouquet through straw borrowers and
their cover-up lasted years. According to courtroom testimony at sentencing by
a First Community director, the losses the bank suffered as a result of the fraud
left it vulnerable to acquisition and the bank was subsequently acquired. Harper
was sentenced to 2 years in Federal prison (followed by 3 years of supervised
release) and Fouquet was sentenced to 1.5 years in Federal prison (followed by 3
years of supervised release), and they were ordered to pay First Community Bank
$570,955.
    The losses caused by crime can also threaten the ability of the bank to pay its
TARP dividends. SIGTARP along with its law enforcement partners, arrested
executives of mortgage loan originator American Mortgage Specialists, Inc.
(“AMS”), including CEO Scott Powers and executive David McMaster after
uncovering that they defrauded TARP bank BNC National Bank (“BNC”) about
the financial condition of their mortgage origination company in order to obtain
funding. The $28 million in losses BNC sustained as a result of the fraud scheme
exceeded BNC’s $20 million TARP bailout, leaving it unable to pay its TARP
dividend payments for three years. Powers was sentenced to 8 years in Federal
prison (followed by 5 years supervised release) and McMaster was sentenced
to 15 years 8 months in Federal prison (followed by 5 years supervised release).
The court ordered each defendant to pay the Government $28 million and to pay
restitution to BNC bank in that same amount.
    A defrauded TARP bank may be unable to repay the TARP investment in full.
Following a SIGTARP investigation, loan officer Christopher Tumbaga was
convicted of bank fraud and illegally receiving kickbacks for procuring loans.
Tumbaga was involved in a two-year long scheme that defrauded TARP bank
Colorado East Bank & Trust out of approximately $1.2 million. The bank was
unable to repay the full $10 million TARP investment, and Treasury sold its stake
for $9 million at a $1 million loss on the principal investment. In a separate case,
SIGTARP uncovered that Edward Polen ran a $16 million Ponzi scheme writing
insufficient fund checks to investors from accounts at TARP banks, including F&M
Bank. F&M Bank was unable to repay TARP in full and Treasury realized a $3.8
million loss on its TARP investment. Polen was sentenced to 5 years in Federal
prison (followed by 5 years supervised release).
    SIGTARP’s work is far from over as the long-term second stage of recovery from
the crisis will take time and require continued hard work. Although these examples
demonstrate patterns of crime and civil violations of the law that SIGTARP has
found, we continue to uncover new TARP-related criminal schemes. Persistent
oversight and law enforcement by SIGTARP is necessary to restore confidence and
advance economic stability by bringing justice and accountability. Long term full
recovery from the financial crisis depends on it.
12   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
              THE OFFICE OF THE SPECIAL
SECT IO N 1   INSPECTOR GENERAL FOR THE
              TROUBLED ASSET RELIEF PROGRAM
14   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   15




SIGTARP CREATION AND STATUTORY AUTHORITY
The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) was created by Section 121 of the Emergency Economic Stabilization
Act of 2008 (“EESA”) as amended by the Special Inspector General for the
Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”). Under EESA and the
SIGTARP Act, SIGTARP has the responsibility, among other things, to conduct,
supervise, and coordinate audits and investigations of the purchase, management,
and sale of assets under the Troubled Asset Relief Program (“TARP”) or as deemed
appropriate by the Special Inspector General. SIGTARP is required to report
quarterly to Congress in order to describe SIGTARP’s activities and to provide
certain information about TARP over that preceding quarter. EESA gives SIGTARP
the authorities listed in Section 6 of the Inspector General Act of 1978, including
the power to obtain documents and other information from Federal agencies and
to subpoena reports, documents, and other information from persons or entities
outside the Government.
    Under the authorizing provisions of EESA, SIGTARP is to carry out its duties
until the Government has sold or transferred all assets and terminated all insurance
contracts acquired under TARP. In other words, SIGTARP will remain “on watch”
as long as TARP assets remain outstanding.




SIGTARP OVERSIGHT ACTIVITIES
SIGTARP continues to fulfill its oversight role on multiple parallel tracks:
investigating allegations of fraud, waste, and abuse related to TARP; conducting
oversight over various aspects of TARP and TARP-related programs and activities
through 22 published audits and evaluations, and 130 recommendations as of April
10, 2014, and promoting transparency in TARP and the Government’s response to
the financial crisis as it relates to TARP.

SIGTARP Investigations Activity
SIGTARP is a white-collar law enforcement agency. As of April 2, 2014, SIGTARP
had more than 150 ongoing criminal and civil investigations, many in partnership
with other agencies in order to leverage resources. SIGTARP takes its law
enforcement mandate seriously, working hard to deliver the accountability the
American people demand and deserve. SIGTARP’s investigations have delivered
substantial results, including:

•	 criminal chargesi against 188 individuals, including 123 senior officers (CEOs,
   owners, founders, or senior executives) of their organizations
•	 criminal convictions of 129 defendants
•	 prison sentences for 80 defendants (others are awaiting sentencing)

i Criminal charges are not evidence of guilt. A defendant is presumed innocent until and unless proven guilty.
16              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 1.1                                        •	 civil cases and other actions against 64 individuals (including 50 senior officers)
     CRIMINAL CHARGES FROM                                and 55 entities (in some instances an individual will face both criminal and civil
     SIGTARP INVESTIGATIONS                               charges)
     RESULTING IN PRISON
     SENTENCES                                         •	 orders temporarily suspending or permanently banning 94 individuals from
                      2%                                  working in the banking or financial industry, working as a contractor with the
           4%          2%                                 Federal Government, or working as a licensed attorney
       4%               7%                             •	 orders of restitution and forfeiture and civil judgments and other orders
                                                          entered for $4.77 billion. This includes restitution orders entered for $4.2
            7%                   29%                      billion, forfeiture orders entered for $241.6 million, and civil judgments and
           8%                                             other orders entered for $353 million. Although the ultimate recovery of
                                                          these amounts is not known, SIGTARP has already assisted in the recovery
              15%
                          22%                             of $227.4 million. These orders happen only after conviction and sentencing
                                                          or civil resolution and many SIGTARP cases have not yet reached that stage;
        Wire and Mail Fraud
                                                          accordingly, any recoveries that may come in these cases would serve to increase
        Conspiracy to Commit Fraud                        the $227.4 million
        Bank Fraud                                     •	 savings of $553 million in TARP funds that SIGTARP prevented from going to
        State Charges (Conspiracy to collect
        upfront fees/commit grand theft)
                                                          the now-failed Colonial Bank
        False Statements and Entries
        Loan Fraud                                         SIGTARP’s investigations concern a wide range of possible violations of the
        Money Laundering
                                                       law, and result in charges including: bank fraud, conspiracy to commit fraud or to
        Bankruptcy Fraud
        Alteration of records
                                                       defraud the United States, wire fraud, mail fraud, making false statements to the
        Other                                          Government (including to SIGTARP agents), securities fraud, money laundering,
                                                       and bankruptcy fraud, among others.ii These investigations have resulted in charges
     Note: Numbers may not total due to rounding.
                                                       against defendants holding a variety of jobs, including 123 senior executives.
     FIGURE 1.2                                            Figure 1.1 represents a breakdown of criminal charges from SIGTARP
                                                       investigations resulting in prison sentences. Figure 1.2 represents a breakdown
     DEFENDANTS CONVICTED
     IN CASES FILED AS A                               of defendants convicted in cases filed as a result of SIGTARP investigations, by
     RESULT OF SIGTARP                                 employment or position of the individual. Although the majority of SIGTARP’s
     INVESTIGATIONS, BY                                investigative activity remains confidential, over the past quarter there have been
     EMPLOYEE TYPE
                                                       significant public developments in several SIGTARP investigations, described
                 4%          2%                        below.
            6%                2%
         6%
                                                       TARP-Related Investigations Activity Since the January 2014
      9%                                               Quarterly Report

                                                       Former RMBS Trader Convicted of Defrauding TARP – Jesse C. Litvak
                             71%                       On March 7, 2014, Jesse C. Litvak was convicted after a jury trial in U.S. District
                                                       Court for the District of Connecticut, on all 15 counts related to his scheme to
        Senior Executive                               defraud TARP and customers trading in residential mortgage-backed securities.
        MMS/MHA Scam                                   Victim-customers included funds that were established by the U.S. Department of
        Individual                                     the Treasury’s (“Treasury”) Public-Private Investment Program (“PPIP”). Litvak, a
        Bank Employee
                                                       former senior trader and managing director at the global securities and investment
        Straw Borrower/Investor
        Attorney                                       banking firm Jefferies, LLC (“Jefferies”), was convicted of defrauding TARP,
        Other
     Note: Numbers may not total due to rounding.      ii The prosecutors partnered with SIGTARP ultimately decide which criminal charges to bring resulting from SIGTARP’s investigations.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   17




securities fraud, and making false statements to the Federal Government. Litvak
was arrested by SIGTARP agents on January 28, 2013. Litvak is scheduled to be
sentenced on May 30, 2014. For each count of the most serious charge, securities
fraud, Litvak faces a maximum of 20 years in Federal prison.
    PPIP was intended to purchase certain troubled real estate-related securities,
including types of residential mortgage-backed securities (“RMBS”) from financial
institutions in order to allow those financial institutions to free up capital
and extend new credit. Beginning in late 2009, as part of PPIP, the Federal
Government used more than $20 billion in TARP money to fund the Public-
Private Investment Funds (“PPIF”) that would purchase the troubled securities. To
participate in the PPIP program, PPIF managers agreed to buy or sell only certain
types of RMBS, including those in which Litvak specialized. RMBS are bonds
that comprise large pools of residential mortgage loans created by banks and other
financial institutions. RMBS bonds are sold through broker-dealers, who execute
individually negotiated transactions. As a broker-dealer, only Litvak knew the sell
and buy prices of RMBS bonds. As part of his scheme, Litvak exploited this lack
of transparency by misrepresenting the seller’s asking price to the buyer as well as
the buyer’s asking price to the seller. With the fraudulent buy and sell prices, Litvak
was able to illegally increase commissions and keep the profits for Jefferies. Litvak
also created fictitious third-party sellers to sell bonds actually held in Jefferies’
inventory. This allowed Litvak to charge the buyer an extra broker commission
that Jefferies was not entitled to as Jefferies was the true owner. Through these
schemes, Litvak stole more than $2 million from numerous PPIP funds and
multiple private investment funds.
    This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
District of Connecticut, and the Federal Bureau of Investigation as part of the
Residential Mortgage-Backed Securities Working Group.

Investment Bank Agrees to Pay $25 Million for Fraudulent Trading –
Jefferies, LLC
On January 29, 2014, Jefferies, LLC (“Jefferies”), an investment bank and
broker-dealer, entered into a non-prosecution agreement with the U.S. Attorney’s
Office for the District of Connecticut relating to the firm’s purchase and sale of
residential mortgage-backed securities (“RMBS”). Jefferies agreed to pay $25
million as part of the agreement related to abuses in the trading of mortgage-
backed securities.
    In March 2009, the Department of the Treasury (“Treasury”) announced the
creation of the Public-Private Investment Program (“PPIP”), with the goal to create
partnerships with private investors to buy certain troubled real-estate securities
in the wake of the financial crisis. These partnerships, known as Public-Private
Investment Funds (“PPIF”), would invest in mortgage-backed securities using
private investments and TARP equity. In response to the financial collapse, the
Federal Government used more than $20 billion from TARP to fund the PPIFs.
Each PPIF was established and managed by a PPIP fund manager selected by
18   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Treasury. Jefferies’ Mortgage and Asset-Backed Securities Trading Group made
                                            trades in RMBS with PPIFs, among others.
                                                Starting in 2009, certain Jefferies traders fraudulently increased the profitability
                                            of certain Jefferies trades in various ways, including misrepresenting the RMBS
                                            seller’s asking price to the buyer, misrepresenting the buyer’s asking price to the
                                            seller, and concealing the fact that some bonds were being sold from Jefferies’
                                            inventory in order to charge buyers an extra commission. The difference in sale
                                            and buy prices, and the extra commission charged to customers, were illegal
                                            profits obtained through Jefferies fraudulent trading practices. Additionally, some
                                            of Jefferies management in the fixed income division were aware of the fraudulent
                                            trading practices and failed to stop it. As part of the agreement, Jefferies agreed to
                                            pay $25 million: up to $11 million to customers harmed in the fraudulent trades,
                                            at least $10 million to the Treasury, and $4 million to the U.S. Securities and
                                            Exchange Commission.
                                                Jesse C. Litvak, a former Jefferies senior trader and managing director, was
                                            convicted on March 7, 2014, for TARP fraud, securities fraud, and making false
                                            statements to the Federal Government. Litvak was arrested by SIGTARP agents on
                                            January 28, 2013, and is scheduled to be sentenced on May 30, 2014.
                                                This matter is being investigated by SIGTARP, the U.S. Attorney’s Office for
                                            the District of Connecticut, and the Federal Bureau of Investigation as part of the
                                            Residential Mortgage-Backed Securities Working Group.

                                            Bank of America and Former CEO Kenneth Lewis Enter into $25 Million
                                            Settlement with the New York Attorney General over Misrepresentations to
                                            Shareholders and the Federal Government – Lewis Banned from Industry for
                                            Three Years
                                            On March 25, 2014, Bank of America Corporation (“Bank of America”) and
                                            its former CEO, Kenneth Lewis, agreed to settle a lawsuit filed by the New
                                            York Attorney General alleging that the bank and its top executives fraudulently
                                            withheld from investors forecasted losses in excess of $9 billion at Merrill Lynch
                                            & Co., Inc. (“Merrill”) for its 2008 fourth quarter, while at the same time asking
                                            shareholders to approve a merger with Merrill. Despite concealing these forecasted
                                            losses from investors, Bank of America then immediately sought massive financial
                                            assistance from the Federal Government in the form of $20 billion in TARP funds
                                            claiming that there had been a “material adverse change” in Merrill’s financial
                                            condition over the previous three months. Bank of America continued to conceal
                                            Merrill’s forecasted losses until mid-January 2009, when disclosure of Merrill’s
                                            multibillion dollar fourth quarter loss led to a $50 billion sell-off in the shares of
                                            Bank of America. The lawsuit also alleges that Lewis and the bank’s former CFO,
                                            Joe Price, misrepresented to shareholders the impact that the merger would have
                                            on Bank of America’s future earnings.
                                                 According to settlement documents, Bank of America agreed to pay $15
                                            million to reimburse the cost of the investigation. Bank of America also agreed to
                                            create numerous corporate reforms such as creating a new corporate development
                                            committee; enhancing the audit, disclosures, enterprise risk and corporate
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   19




governance committee charters; revising the corporate governance guidelines;
and implementing and maintaining incentive compensation principles that are
published on the Bank of America website. As part of the settlement, Kenneth
Lewis agreed to a 3-year ban from serving as an officer or director of a public
company, and to pay $10 million to the State of New York for his role in the matter.
    This case was investigated by SIGTARP and the Office of the Attorney General
for the State of New York.

Senior Officers of First Failed TARP Bank Charged with Falsifying Bank’s Books
and Records Prior to TARP Application; Collapse of Bank Resulted in Loss of
More than $300 Million in TARP Funds - UCBH
On March 11, 2014, a superseding indictment in the U.S. District Court for the
Northern District of California charged two former senior executives of TARP
recipient United Commercial Bank Holdings, Inc. (“UCBH”), the first TARP bank
to fail, with securities and bank fraud that involved deceiving the FDIC, the SEC
and UCBH’s auditors by falsifying the bank’s books and records, including public
filings and financial call reports. The FDIC reviewed these public filings and call
reports as part of the bank’s application for TARP bailout funds and these records
were part of the basis of the Treasury awarding UCBH $298.7 million in Federal
taxpayer TARP funds in November 2008.
     Ebrahim Shabudin, former Executive Vice President, Chief Credit Officer,
and Chief Operating Officer, and Thomas Yu, former Senior Vice President and
manager of Credit Risk and Portfolio Management, are charged with concealing
the true health of the bank in the months prior to the bank receiving TARP funds.
Decisions on TARP applications were made by Federal banking regulators and
Treasury based on the health of the bank. Previously, these senior officers had
also been indicted for fraud related to the bank’s books after Treasury became
a shareholder in the bank with TARP funds. For the most serious offense, bank
fraud, each defendant faces a maximum of 30 years in Federal prison.
     Shabudin and Yu stand charged of participating in a scheme to hide the true
financial state of UCBH as the bank’s loan portfolio deteriorated. Shabudin and Yu
allegedly deceived the investing public, shareholders, and the FDIC by fraudulently
manipulating the bank’s books, concealing known losses from bad loans, and hiding
known decreases in the value of collateral for loans to give the impression that the
bank’s performance and condition were far better than reality.
     The failure of UCBH in November 2009, less than one year after it received
TARP funds, caused Treasury on behalf of Federal taxpayers to lose the initial
TARP investment of $298.7 million and $3.7 million in TARP dividends the bank
owed to Treasury.

Bank Executives and Co-conspirators Indicted for Their Roles in a TARP Bank
Fraud Scheme Leading to Bank Failure – Sonoma Valley Bank
On March 18, 2014, in the U.S. District Court for the Northern District of
California, an indictment was filed charging four defendants for their roles in a
bank fraud scheme that caused TARP recipient Sonoma Valley Bank (“SVB”) to
20   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            suffer over $9 million in losses and caused SVB to fail in August 2010. SVB never
                                            repaid the $8.65 million in TARP funds it received in February 2009. The Federal
                                            Deposit Insurance Corporation (“FDIC”) was named receiver.
                                                Sean Cutting, the former President and CEO of SVB, was charged with twelve
                                            counts of money laundering, six counts of wire fraud, five counts of false bank
                                            entries, one count each of conspiracy to commit wire and bank fraud, conspiracy
                                            to commit money laundering, conspiracy to misapply bank funds, bank fraud, and
                                            making false statements. Brian Melland, the former chief lending officer of SVB,
                                            was charged with twelve counts of money laundering, six counts of wire fraud,
                                            and one count each of conspiracy to commit wire and bank fraud, conspiracy to
                                            make false statements, conspiracy to commit money laundering, conspiracy to
                                            misapply bank funds, and bank fraud. Bijan Madjlessi, a commercial real estate
                                            developer, and David Lonich, Madjlessi’s attorney and business partner, were each
                                            charged with twelve counts of money laundering, five counts of making false bank
                                            entries, six counts of wire fraud, and one count each of conspiracy to commit
                                            wire and bank fraud, conspiracy to make false statements, conspiracy to commit
                                            money laundering, and bank fraud. Madjlessi and Lonich are further charged
                                            with obstructing the Federal Government’s investigation into the fraud scheme.
                                            If convicted on any of the most serious offenses, each of the defendants faces a
                                            maximum of 30 years in Federal prison. In December 2012, the FDIC issued a
                                            lifetime ban against Cutting and Melland from working in the banking industry.
                                            Cutting was also ordered by the FDIC to pay a $10,000 civil money penalty, while
                                            Melland was ordered to pay a civil money penalty of $2,500.
                                                All four defendants were arrested on April 9, 2014, by SIGTARP agents
                                            and their law enforcement partners. According to the indictment, from March
                                            2009 through September 2012, the defendants engaged in multiple bank fraud
                                            conspiracies that targeted SVB, the FDIC, and Freddie Mac.
                                                Between March 2009 and November 2009, as alleged, Melland and Cutting
                                            unscrupulously authorized more than $9 million in fraudulent loans to the other
                                            two defendants.The two SVB executives are alleged to have skirted the bank’s
                                            internal controls and defrauded SVB by authorizing the bank to lend $9.5 million
                                            to a straw purchaser so that the funds could be used by Madjlessi to repurchase
                                            part of the same condominium project for which Madjlessi had already defaulted
                                            on a construction loan. In order to help Madjlessi regain control of residential units
                                            in the project that had already been sold and to obtain financing from Freddie Mac,
                                            Cutting is alleged to have produced letters, on SVB letterhead, falsely stating that
                                            straw buyers had sufficient funds at the bank to purchase the units.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Northern District of California, the Federal Housing Financing Agency – Office
                                            of Inspector General, and the Federal Deposit Insurance Corporation – Office of
                                            Inspector General.
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   21




TARP PPIF Manager Sanctioned for Defrauding Clients – Western Asset
Management Company
On January 27, 2014, the U.S. Securities and Exchange Commission (SEC) issued
sanctions and a cease and desist order against the California based registered
investment adviser Western Asset Management Company (“Western Asset”) for
conducting illegal cross-trades of residential mortgage-backed securities (“RMBS”)
that favored certain clients over others and involved the Public-Private Investment
Fund (“PPIF”). In June 2009, Treasury selected Western Asset to establish a PPIF
as part of the Public-Private Investment Program of TARP.
    The sanctions against Western Asset include a $1 million civil monetary penalty
payable to the U.S. Department of the Treasury (“Treasury”) and $7.4 million
payable to Western Asset clients harmed by the illegal scheme.
    A “cross-trade” occurs when an investment advisor sells an RMBS security held
by one of its clients directly to one or more of its other clients without exposing
the transaction to the market. Although cross-trades can benefit clients in certain
circumstances by saving transaction costs, they also represent a potential conflict
of interest for the advisor, who has a duty to obtain the best execution prices for
both its buying and selling clients. Further, some client accounts are specifically
prohibited or restricted from engaging in cross-trades, particularly Registered
Investment Companies and accounts regulated by the Employee Retirement
Income Security Act of 1974. As a PPIF manager, Western Asset was also
prohibited from conducting cross-trades to or from the PPIF and had established
internal trading policies and procedures that explicitly prohibited cross-trades
involving the PPIF.
    During the height of the financial crisis, many Western Asset clients were
forced to liquidate RMBS securities for compliance reasons. At the same time, the
PPIF managed by Western Asset had more than $2 billion of capital available for
investment in RMBS securities. Investigators discovered that from 2007 through
2010, Western Asset had engaged in a pattern of cross-trades in violation of Section
17(a)(1) and (2) of the Investment Company Act, and Section 206(2) of the
Advisors Act and PPIF guidelines.
    To accomplish the cross-trades, Western Asset pre-arranged with a cooperating
broker-dealer to sell the RMBS securities to the broker at a price equal to the
highest current bid otherwise available. Western Asset then re-purchased the
security from the broker at a small pre-arranged markup over the sales price. The
inter-positioning of the broker-dealer in these transactions did not remove them
from the prohibitions of Section 17(a). By cross-trading the securities for the
highest bid price, instead of the average between the bid and the asking price, as
would be required under Section 17(a), Western Asset deprived its selling clients of
their share of the market savings, an amount totaling approximately $6.2 million.
    This case was investigated by SIGTARP, the U.S. Securities and Exchange
Commission, and the Department of Labor - Office of Inspector General.
22   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Owner of Sham Mortgage Relief Company Sentenced to Nine Years for
                                            Mortgage Modification Scam – American Home Recovery
                                            On March 20, 2014, Isaak Khafizov, the former owner of American Home
                                            Recovery (“AHR”), was sentenced to nine years in Federal prison followed by three
                                            years of supervised release for operating a mortgage modification scheme that
                                            defrauded hundreds of struggling homeowners and their lenders. Khavizov was also
                                            required to pay $399,999 in both forfeiture and restitution to his victims.
                                                Following a 10-day jury trial in U.S. District Court for the Southern District
                                            of New York, Khafizov was found guilty in May 2012 of conspiracy, mail fraud
                                            and wire fraud for perpetrating a scheme to defraud distressed homeowners
                                            and lenders. Khafizov founded AHR, a New York-based mortgage modification
                                            loan business, in the spring of 2008. He and AHR salespeople made fraudulent
                                            assertions to induce distressed homeowners to pay AHR thousands of dollars in
                                            up-front fees for mortgage modifications. Specifically, Khafizov and AHR informed
                                            homeowners that: they had been “pre-approved” for a mortgage modification by
                                            their lenders; AHR would ensure participation in the TARP-funded Making Home
                                            Affordable program; and AHR could obtain better interest rates and lower monthly
                                            fees on their mortgage. Khafizov and AHR falsely promised to return the up-front
                                            fees if AHR did not secure a mortgage modification desired by the homeowner.
                                            Khafizov and AHR also falsely claimed that: AHR was affiliated with Government
                                            agencies and programs established by the Emergency Economic Stabilization Act
                                            of 2008; AHR possessed unique expertise in mortgage modifications; and AHR had
                                            special relationships with lenders. Khafizov also directed distressed homeowners to
                                            stop paying their mortgages and to instead pay fees to AHR. After receiving up-front
                                            fees from the distressed homeowners, Khafizov and AHR did little or no work to try
                                            to renegotiate the homeowners’ mortgages. As a result, many AHR clients lost their
                                            homes in foreclosure by lenders and hundreds of thousands of dollars in up-front
                                            fees.
                                                In addition to Khafizov, AHR was also founded by Jaime Cassuto and David
                                            Cassuto. Each entered a guilty plea on April 2, 2012, relating to this mortgage
                                            modification scheme and are awaiting sentencing. In March 2011, Raymond
                                            Pampillonio, a former AHR employee, also pled guilty in connection with this
                                            scheme and is awaiting sentencing.
                                                This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Southern District of New York, and the Federal Bureau of Investigation.

                                            Mortgage Modification Fraudsters Sentenced to Seven Years for Defrauding
                                            Homeowners in Nationwide $4 Million Fraud Scheme – Home Owners Protection
                                            Economics, Inc.
                                            On February 20, 2014, Christopher S. Godfrey and Dennis Fischer, president
                                            and vice president, respectively, of Home Owners Protection Economics, Inc.
                                            (“HOPE”) were each sentenced to seven years in Federal prison, followed by three
                                            years of supervised release, for defrauding homeowners in a mortgage modification
                                            scam perpetrated through their company, HOPE. Additionally, on February 25,
                                            2014, Vernell Burris, Jr., manager and primary trainer of HOPE telemarketers,
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   23




was sentenced to one year and one day in Federal prison, followed by two years of
supervised release, after pleading guilty to conspiracy and wire fraud for his role in
the mortgage modification scam. On May 2, 2013, Brian M. Kelly, a telemarketer
and trainer of HOPE telemarketers, pled guilty to conspiracy, nine counts of wire
fraud, and nine counts of mail fraud. Kelly’s sentencing is scheduled for April, 24,
2014.
    In August 2011, SIGTARP agents, along with its law enforcement partners,
arrested Godfrey, Fischer, Burris, and Kelly for their roles in the mortgage
modification fraud scheme. On November 14, 2013, after a two-week trial,
a Federal jury in Massachusetts convicted Godfrey and Fischer of all counts,
including one count of conspiracy, eight counts of wire fraud, eight counts of mail
fraud, and one count of misuse of a Government seal.
    Through a series of misrepresentations, HOPE induced thousands of financially
distressed homeowners to pay up-front fees of up to $900 each in exchange
for home loan modifications, modification services, and “software licenses.” In
exchange for the fee, HOPE sent homeowners a “do-it-yourself” application
package that was nearly identical to the U.S. Government’s free application
through the Home Affordable Modification Program (“HAMP”), a Federally
funded mortgage assistance program implemented under TARP. HOPE falsely
represented to homeowners that, with HOPE’s assistance, the homeowners were
virtually guaranteed to receive a loan modification under HAMP. HOPE lulled the
distressed homeowners by telling them that HOPE had an almost perfect record of
obtaining home loan modifications. HOPE customers, however, had no advantage
in the application process and, in fact, most of their applications were denied.
Through these misrepresentations, HOPE was able to persuade thousands of
homeowners collectively to pay more than $4 million in fees to HOPE. Victims of
HOPE lived in all 50 states and Washington, DC.
    This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
District of Massachusetts, and the Computer Crime and Intellectual Property
Section of the U.S. Department of Justice’s Criminal Division.

Former Bank CEO and President Charged in Fraud Scheme – Poppi Metaxas,
Gateway Bank
On March 31, 2014, Poppi Metaxas, former Chief Executive Officer and President
of the California headquartered Gateway Bank, FSB (“Gateway”), was indicted
for conspiracy to commit bank fraud, bank fraud, and perjury in the U.S. District
Court for the Eastern District of New York. According to court documents, Metaxas
is accused of engaging in a series of financial transactions to make it appear that
Gateway took steps to improve its poor financial condition, when, in reality, those
transactions defrauded Gateway, depleted its capital and placed the institution at
financial risk. Metaxas surrendered to authorities on April 2, 2014.
    In 2008, Gateway applied for TARP funds through the Capital Purchase
Program, and, during that time, the Office of Thrift Supervision (“OTS”),
Gateway’s banking regulator, instructed Gateway to improve the bank’s
financial condition by increasing capital and reducing the number of problem/
24   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            non-performing assets. It was Metaxas’ responsibility to spearhead a plan to
                                            raise capital and ensure that a significant portion of problem assets would be
                                            sold. According to court filings, Metaxas, along with others, allegedly planned
                                            and executed a sham round-trip transaction that caused Gateway to use its own
                                            funds to subsidize a sale of Gateway’s nonperforming mortgage loans. Despite the
                                            defendant’s scheme to fraudulently improve Gateway’s financial condition, Gateway
                                            never received TARP funds.
                                                In February and March 2009, Metaxas presented to Gateway’s board for its
                                            approval a proposal to sell problem assets. Three entities, Cooper Capital Group
                                            Ltd., Empower International, Inc., and The Steve Manna Group, LLC (“the
                                            Purchasers”) had purportedly agreed to purchase Gateway’s problem assets for
                                            approximately $15 million. The sale required the Purchasers to make a 25% down
                                            payment of the purchase price with Gateway financing the remaining 75% of the
                                            sale. Metaxas and her co-conspirators allegedly had devised a scheme in which
                                            Gateway would provide the buyers with the funds necessary to satisfy the 25%
                                            down payment. Metaxas allegedly recommended that the board approve the sale
                                            without disclosing the relationship and the financing arrangement among the co-
                                            conspirators. After the board approved the sale, Metaxas allegedly caused Gateway
                                            to extend a sham loan to Ideal Mortgage Bankers Ltd. d/b/a Lend America (“Lend
                                            America”), a mortgage lender and Gateway’s largest mortgage lending client, falsely
                                            claiming that the loan was to facilitate Lend America’s need for liquidity.
                                                On March 30, 2009, Gateway transferred $3.64 million to Lend America. The
                                            funds were immediately transferred to Lend America’s payroll accounts, and then
                                            wired to the Purchasers’ accounts. The Purchasers turned around and used the
                                            funds to submit the required 25% down payment. It is alleged that Metaxas failed
                                            to disclose the true source of the down payment to the board and lied about the
                                            source of the down payment to the OTS when she testified during the formal exam
                                            process. The round-trip transaction resulted in significant losses for Gateway. In
                                            November 2009, Lend America ceased operations after receiving a court-ordered
                                            injunction that prevented it from making loans insured by the Federal Housing
                                            Administration. Gateway was forced to write off the entire loan to Lend America.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for
                                            the Eastern District of New York, the Federal Bureau of Investigation, and the
                                            Department of Housing and Urban Development Office of Inspector General.

                                            Former Bank Executive Officer Charged with Bank Fraud and Money Laundering
                                            – Gary Alan Rickenbach, One Bank & Trust, N.A.
                                            On April 2, 2014, Gary Alan Rickenbach, the former Executive Vice President
                                            and Senior Executive Vice President of One Bank & Trust, N.A., (“Onebanc”) and
                                            One Financial Corporation, was indicted in the U.S. District Court for the Eastern
                                            District of Arkansas on one count each of conspiracy to commit bank fraud,
                                            misapplication of bank monies, making false entries to deceive bank regulators,
                                            obstructing a bank regulatory examination, and money laundering. One Financial
                                            Corporation, the bank holding company for Onebanc, received $17.3 million in
                                            TARP funds through the Capital Purchase Program in June 2009.
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   25




    In April 2007, Rickenbach arranged for the approval of a $1.5 million line of
credit for an associate without going through the formal process of Onebanc’s
loan committee, according to court documents. The associate never paid back
the line of credit, leaving the bank with at least a $1.5 million loss. Beginning in
2009, Rickenbach allegedly conspired with others to make fraudulent loans and
lines of credit in an attempt to hide the loss from bank regulators. Rickenbach
also allegedly misled certain members of Onebanc’s Board of Directors concerning
the transactions and diverted funds that were due to the bank. He ultimately
misapplied the funds as payment on the loans. If convicted of the most serious
offense, conspiracy to commit money laundering, Rickenbach faces up to 20 years
in Federal prison.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Eastern District of Arkansas, Internal Revenue Service Criminal Investigation, the
Federal Bureau of Investigation, the Federal Reserve Board Office of Inspector
General, and the Federal Deposit Insurance Corporation Office of Inspector
General.

Bank Chairman Sentenced for Lying to SIGTARP Regarding Use of TARP Funds
to Purchase Luxury Vacation Property – Darryl Layne Woods, Mainstreet Bank
On March 25, 2014, Darryl Layne Woods, the former chairman, president, and
majority shareholder of Calvert Financial Corporation (“Calvert”), the bank holding
company for Mainstreet Bank (“Mainstreet”), was sentenced to eight months
detention in a halfway house followed by four months home detention for lying
about the use of TARP funds. Woods, who was also the former chairman and
chief financial officer of Mainstreet, was also ordered to pay $96,977 in restitution
to Calvert and a $10,000 fine. Woods also agreed to a ban from any future
involvement in any banking activities, including but not limited to serving as an
officer, director, employee, or affiliated party of any financial institution or agency.
In January 2009, Calvert received $1,037,000 through the TARP Capital Purchase
Program.
    On August 26, 2013, Woods pled guilty in U.S. District Court for the Western
District of Missouri to misleading SIGTARP investigators about his use of TARP
funds. On February 2, 2009, shortly after receiving $1,037,000 through the TARP
Capital Purchase Program, Woods used $381,487 of the TARP funds received
by Calvert to purchase a luxury seaside condominium in Fort Myers, Florida. In
February 2009, as part of its oversight function, SIGTARP sent letters to various
financial institutions seeking specific information about how TARP funds were
used by each institution. As president of Calvert, Woods responded to SIGTARP’s
Use of Funds Survey in a letter dated February 10, 2009, and did not disclose the
purchase of the condominium, a material misrepresentation relating to the true use
of the TARP funds.
    This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
Western District of Missouri, the Federal Bureau of Investigation, and Federal
Reserve Board Office of Inspector General.
26   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Former Delaware Bank Officer Charged in Bank Fraud Scheme – Brian D. Bailey,
                                            Wilmington Trust
                                            On February 4, 2014, Brian D. Bailey, former head of commercial real estate
                                            and Delaware market manager at TARP-recipient Wilmington Trust Company
                                            (“Wilmington Trust”) was indicted by a Federal grand jury in Wilmington,
                                            Delaware. Bailey was charged in a 14-count indictment with nine counts of
                                            bank fraud and one count each of conspiracy to commit bank fraud, conspiracy
                                            to commit bank bribery, corruptly receiving a gift for procuring a loan, corruptly
                                            providing a gift with intent to influence a bank employee, and money laundering.
                                            Wilmington Trust received $330 million in TARP funds in December 2008.
                                                The indictment alleges that Bailey engaged in a 12-year lending relationship
                                            with James A. Ladio, former chief lending officer at Artisans’ Bank (“Artisans’”) and
                                            former chief executive officer of MidCoast Community Bank (“MidCoast”), that
                                            involved bank fraud, bribery, and money laundering. According to the indictment,
                                            Bailey and Ladio approved for each other approximately 23 loans and loan
                                            modifications through their respective positions at Wilmington Trust, Artisans’, and
                                            MidCoast. The indictment further alleges that the aggregate amount of all the loan
                                            facilities was in excess of $1.5 million.
                                                As previously reported, Ladio pled guilty on December 17, 2013, to bank fraud
                                            and money laundering. He admitted to using his position at MidCoast to approve
                                            business loans to MidCoast customers when in reality he hid the fact that he was
                                            scheming to personally receive the loans for his own use. He also admitted to
                                            borrowing money from a TARP-recipient bank to fund a number of businesses and
                                            investment projects, and securing the loans with investment properties. In March
                                            2009, Ladio sold one investment property without informing the bank or using the
                                            proceeds to pay back the loans. For each count of the most serious offense, bank
                                            fraud, Ladio faces up to 30 years in prison.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            District of Delaware, the Federal Bureau of Investigation, and Internal Revenue
                                            Service Criminal Investigation.

                                            Bank Officer Admits to Bank Fraud and Approving Loans in Exchange for
                                            Kickbacks – Christopher Tumbaga, Colorado East Bank and Trust
                                            On March 24, 2014, Christopher Tumbaga, a former loan officer at Colorado
                                            East Bank and Trust (“CEBT”), pled guilty in U.S. District Court for the District
                                            of Colorado, to bank fraud and to fraudulently approving loans for co-defendant,
                                            Brian Headle, in return for illegal kickbacks. As part of his plea agreement,
                                            Tumbaga also agreed to a ban from future involvement in banking activities.
                                            Sentencing is set for September 30, 2014. For each count of the most serious
                                            offense, bank fraud, Tumbaga faces a maximum of 30 years in Federal prison.
                                                In February 2009, ColoEast Bankshares, Inc., the parent company of CEBT,
                                            received $10 million through the TARP Capital Purchase Program. The bank was
                                            later unable to pay more than $1 million in dividends it owed to taxpayers. In July
                                            2013, the U.S. Department of the Treasury sold its stake in the company at auction
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   27




for approximately $9 million. In total, approximately $2 million owed to Federal
taxpayers was lost on the investment.
    Tumbaga admitted that, from March 2009 through July 2011, he used his
position as loan officer at CEBT to fraudulently approve more than $1 million in
loans for the benefit of Headle. As part of the fraud scheme, Tumbaga admitted
that he had Headle submit materially false loan applications, which Tumbaga
approved without review. Tumbaga further admitted that he circumvented CEBT’s
limits on loans to one person by fraudulently representing that the loans were
for Headle’s company, Headle’s wife, or her company. When necessary, Tumbaga
stated that he would forge the bank president’s signature to obtain approval for the
fraudulent loans. He also admitted to withdrawing $100,000 from another bank
client’s account and giving the money to Headle. To cover that theft, Tumbaga
obtained another fraudulent loan under Headle’s name. When additional loans
were necessary to make payments on the fraudulent earlier loans, Tumbaga
admitted to obtaining fraudulent loans in the names of Headle’s parents and
step-parents. As part of his plea agreement, Tumbaga admitted to accepting over
$60,000 in kickbacks from Headle.
    Tumbaga and Headle were charged jointly on September 25, 2013. Headle
was charged with seven counts of bank fraud and eleven counts of bribing a bank
official. Headle is scheduled to stand trial on September 15, 2014.
    This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
District of Colorado, the Federal Deposit Insurance Corporation Office of
Inspector General, and the Federal Bureau of Investigation.

Borrower Sentenced to More Than Six Years for Defrauding Multiple TARP Banks
Including Failed TARP Bank GulfSouth – Lawrence Allen Wright
On January 14, 2014, Lawrence Allen Wright was sentenced to six years and three
months in Federal prison to be followed by five years of supervised release. Wright
was ordered to pay more than $3.7 million in restitution for carrying out a series of
fraud schemes against several banks, including TARP-recipients GulfSouth Private
Bank (“GulfSouth”), Regions Bank, and Bank of America. Wright pled guilty in
Federal court in Pensacola, Florida, on October 29, 2013, to charges that included
conspiracy to commit fraud, conspiracy to commit money laundering, bank fraud,
mail fraud, aggravated identity theft, and making a false statement to a Federally
insured bank.
    From November 2006 through January 2010, Wright engaged in a scheme
where an individual’s identity was used without that individual’s knowledge or
permission on mortgage and tax documents to obtain bank loans. After obtaining
the loans, Wright stopped making payments, which resulted in foreclosure on the
mortgaged properties and a civil action against the person whose identity was used
by Wright. Wright engaged in this conduct to obtain loans on several properties,
which resulted in losses to several banks. During this time, Wright also recruited
individuals to purchase unimproved lots by promising that his company, Wright &
Associates, would make the monthly loan payments. The purchasers’ incomes were
28   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            inflated on the loan applications, and ultimately, no payments were made on the
                                            loans, and the properties went into foreclosure.
                                                On October 19, 2012, GulfSouth failed, and the FDIC was named as receiver.
                                            At the time, $7.5 million in TARP funds had not been repaid. In addition, the
                                            FDIC estimates the cost to its Deposit Insurance Fund from the bank failure to be
                                            in excess of $36.1 million.
                                                This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Northern District of Florida, Internal Revenue Service Criminal Investigation,
                                            Federal Deposit Insurance Corporation Office of the Inspector General, and
                                            the Okaloosa County Sheriff’s Office as part of the Northwest Florida Financial
                                            Crimes Task Force.

                                            Former Bank Manager Pleads Guilty in Narcotics Kickback Scheme Against
                                            Failed TARP Bank – Phillip Alan Owen, Superior Bank
                                            On February 4, 2014, Phillip Alan Owen, a former branch manager of Superior
                                            Financial Services, LLC, a subsidiary of Superior Bank, entered a guilty plea
                                            in U.S. District Court for the Northern District of Alabama to conspiring with
                                            others to carry out a loan scheme against Superior Bank. Superior Bancorp, Inc.,
                                            the holding company for Superior Bank, received $69 million in TARP funds on
                                            December 5, 2008. On April 15, 2011, Superior Bank failed and the FDIC was
                                            named receiver. At that time, the $69 million in TARP funds remained unpaid.
                                                According to court documents, from September 26, 2007 through May 9, 2009,
                                            Owen used his position as bank manager to submit, certify, and approve falsified
                                            loan documents in exchange for narcotics. Owen also overvalued collateral in order
                                            to obtain approval for inflated loan amounts, unlawfully disbursed loan proceeds,
                                            and prematurely released collateral that had been used to secure loans. Owen’s
                                            role in the scheme caused the bank a loss of more than $200,000. Sentencing is
                                            scheduled for June 25, 2014. At sentencing, Owen faces up to 30 years in Federal
                                            prison.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Northern District of Alabama, and the Federal Bureau of Investigation.

                                            Missouri Businessmen Charged with Defrauding TARP Recipient Excel Bank –
                                            William Glasgow, James Crews, Michael Hilbert
                                            On January 10, 2014, the U.S. District Court for the Eastern District of Missouri
                                            unsealed two separate indictments against three Missouri businessmen charging
                                            them with bank fraud against TARP-recipient Excel Bank. William Glasgow was
                                            charged on December 11, 2013, with two counts of bank fraud. In a separate
                                            indictment, James Crews and Michael Hilbert were each indicted on two counts of
                                            bank fraud. All three defendants surrendered to authorities on January 10, 2014. If
                                            convicted, each defendant faces a maximum penalty of 30 years in Federal prison
                                            on each count. Trial dates have yet to be set.
                                               According to court documents, Glasgow was in the real estate business in
                                            Missouri, having owned a number of rental properties. Glasgow allegedly obtained
                                            two loans through Excel Bank by submitting falsified loan documents and financial
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   29




statements. Court documents state that Crews and Hilbert operated their real
estate rental business in Missouri through various entities. Crews and Hilbert
allegedly made several large fraudulent construction draw requests from Excel
Bank using escrow funds set aside for the improvement of their rental properties.
    Investors Financial Corporation, the parent company of Excel Bank, received
$4 million in TARP funds in May 2009. Excel Bank failed on October 19, 2012,
and the FDIC was named receiver. The $4 million TARP investment was never
repaid. The loss to the FDIC was $40.9 million.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Eastern District of Missouri, and the Federal Bureau of Investigation.

Former TARP Bank Official Charged for Role in Fraud Scheme – David Weimert
On February 19, 2014, David Weimert was charged in the U.S. District Court
for the Western District of Wisconsin with six counts of wire fraud for allegedly
participating in a scheme to obtain money through fraudulent pretenses. Weimert
was the Senior Vice President in Lending Administration at Anchor BanCorp
Wisconsin, Inc. (“Anchor”) and the President of Investment Directions, Inc.
(“IDI”), a wholly-owned subsidiary of Anchor. If convicted, Weimert faces a
maximum of 30 years in Federal prison on each count. A trial date has yet to be set.
    As alleged, from December 2008 through March 31, 2009, while serving in
his positions at Anchor and IDI, Weimert misrepresented and omitted material
information in order to obtain an ownership interest in a real estate partnership
called Chandler Creek and to obtain a 4% commission fee in connection with the
sale of Chandler Creek. Chandler Creek was a joint venture partnership formed
with the Burke Real Estate Group (“The Burke Group”) to develop an industrial
park in Round Rock, Texas. IDI and The Burke Group each owned a 50% interest
in Chandler Creek. To further his fraud scheme, Weimert allegedly falsely
represented in writing to the IDI Board of Directors that The Burke Group would
buy IDI’s share of Chandler Creek contingent on Weimert purchasing a minority
interest in Chandler Creek as part of the deal. Weimert failed to disclose that, in
actuality, it was only Weimert who desired the minority interest for himself. As a
result of his material misrepresentations, the IDI Board of Directors accepted The
Burke Group’s offer to purchase Chandler Creek. As part of the purchase deal,
Weimert was allegedly granted 4.785% ownership interest in Chandler Creek and
was paid a 4% commission, totaling $311,000.
    In January 2009, Anchor received $110 million in TARP funds. The U.S.
Department of the Treasury has realized a loss of $104 million of its $110 million
TARP principal investment in Anchor and has recouped the remaining $6 million
pursuant to Anchor’s “pre-packaged” Chapter 11 bankruptcy reorganization.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Western District of Wisconsin, and the Federal Bureau of Investigation.
30   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Conspirators in Real Estate Straw Purchase Fraud Scheme Sentenced – Winston
                                            and Marleen Shillingford, Robert Ilunga
                                            On January 28, 2014, in U.S. District Court for the District of Connecticut,
                                            Winston and Marleen Shillingford, husband and wife, were both sentenced for
                                            their roles in a mortgage fraud scheme that defrauded mortgage lenders, including
                                            TARP recipient banks. Winston Shillingford was sentenced to four years in Federal
                                            prison, followed by three years of supervised release. Marleen Shillingford was
                                            sentenced to three years in Federal prison, also to be followed with three years of
                                            supervised release. On January 31, 2014, their co-conspirator, Robert Ilunga, was
                                            sentenced to Federal prison for one year and six months, followed by three years of
                                            supervised release.
                                                All three defendants had previously pled guilty to conspiracy to commit wire
                                            fraud and conspiracy to commit money laundering related to their involvement in
                                            the mortgage fraud scheme.
                                                From approximately April 2004 through August 2011, the defendants conspired
                                            with others in a mortgage fraud and money laundering scheme to obtain false
                                            mortgages. Utilizing a real estate company called Waikele Properties Corporation,
                                            they and their co-conspirators purchased more than 40 multi-family and vacant
                                            properties in Bridgeport, Connecticut, on which they built new houses. The
                                            scheme involved recruiting straw purchasers for the properties who then applied
                                            for mortgages from banks, including Bank of America and other TARP banks.
                                            The defendants and their co-conspirators filed loan applications on behalf of the
                                            purchasers that materially misrepresented their employment, income, assets, and
                                            liabilities, and provided the banks with false documentation. As a result of the
                                            scheme, the defrauded financial institutions suffered more than $7 million in
                                            losses.
                                                This case was investigated by SIGTARP, the United States Attorney’s Office
                                            for the District of Connecticut, Internal Revenue Service Criminal Investigation,
                                            the Federal Bureau of Investigation, and the Department of Housing and Urban
                                            Development Office of Inspector General.

                                            Former Bank Executive Admits to Taking Kickbacks – Oxford Collection Agency
                                            On January 10, 2014, in U.S. District Court for the District of Connecticut,
                                            Michael Gesimondo pled guilty to taking kickbacks while he was a collections
                                            manager at Washington Mutual Bank (“Washington Mutual”). On September
                                            25, 2008, Washington Mutual was closed by Federal regulators, and its banking
                                            operations were sold to JPMorgan Chase & Co. in a transaction facilitated by
                                            regulators. On October 28, 2008, JPMorgan Chase & Co. received $25 billion
                                            in TARP. The TARP funds were repaid in full on June 17, 2009. According to
                                            court documents Gesimondo was in charge of outsourcing collection accounts to
                                            collection agencies. Washington Mutual had a contract with Oxford Collection
                                            Agency (“Oxford”) to collect debts owed by its consumers. Gesimondo admitted
                                            that, from May 2008 through May 2009, he received kickbacks as reward for
                                            providing Oxford with Washington Mutual’s debt collection business.
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   31




    From January 2007 through March 2011, Oxford had agreements with business
clients to collect debts, to report such collections to the clients, and to remit the
collected payments back to the clients. The clients would pay Oxford a portion of
what was collected by Oxford as a fee. During that time period, Oxford engaged in
a large fraud scheme in which it defrauded its lender, investors, and clients, while
also bribing bank officials. As previously reported, the investigation and prosecution
of the multi-year fraud scheme at Oxford has resulted in several pleas of guilty
by former Oxford officers: Richard Pinto, Chairman of the Board, Peter Pinto,
CEO and President, Patrick Pinto, executive and co-owner, Randall Silver, chief
financial officer, Charles Harris, executive vice president, and Carlos Novelli, chief
operations officer. Wilbur Tate III, the former assistant vice president in charge of
debt collection at TARP recipient U.S. Bank in Ohio also pled guilty to accepting
bribes from executives of Oxford in exchange for U.S. Bank’s business.
    The case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
District of Connecticut, Internal Revenue Service Criminal Investigation, the
Federal Bureau of Investigation, and the Connecticut Securities, Commodities and
Investor Fraud Task Force.

Perpetrators of Various Investor Fraud Schemes Plead Guilty – Marvin Solis,
Michael P. Ramdat
On January 29, 2014, Marvin Solis pled guilty in U.S. District Court for the
Northern District of California to two counts of wire fraud relating to a fraudulent
investor scheme in which illegal profits were funneled through banks that received
TARP funding. Solis was indicted on September 5, 2013, and arrested on Sep-
tember 11, 2013, by SIGTARP agents and our law enforcement partners. Solis
is scheduled to be sentenced on May 14, 2014. For each count of wire fraud, he
faces a maximum of 20 years in Federal prison.
    Solis admitted that, from September 2008 through March 2009, he told
investor clients he would help locate investment properties for them to purchase.
Instead of fulfilling his promises, Solis used their money to, among other things,
pay his own expenses and trade in the futures market.
    On February 26, 2014, Michael P. Ramdat pled guilty in U.S. District Court
for the Northern District of California to conspiracy and multiple counts of wire
fraud relating to a fraudulent investor scheme utilizing a TARP bank. As previously
reported, Ramdat and his co-conspirator, Leigh F. Fiske, were indicted by a Federal
grand jury on November 21, 2013. Fiske and Ramdat were arrested by SIGTARP
agents and their law enforcement partners on September 16, 2013, and December
2, 2013, respectively. Ramdat is scheduled to be sentenced on June 4, 2014. For
each count of wire fraud, he faces a maximum of 20 years in Federal prison.
    Ramdat admitted that from July 2008 through June 2009, he and Fiske told
investors they would help obtain lines of credit for their businesses. Ramdat
admitted that he and Fiske lied to investors by never providing any assistance to
these individuals and instead transferring the money into their own personal bank
accounts. Ramdat further admitted that they defrauded victims out of more than
$400,000 and used the profits for their own personal expenses.
32   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                              This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Northern District of California, and the Federal Bureau of Investigation.

                                            Man Charged in TARP-related Scheme to Sell Properties from HomePath
                                            Program – Greenfield Advisors, LLC
                                            On January 22, 2014, Mark Steven Thompson was charged in the U.S. District
                                            Court for the Western District of Texas with aiding and abetting wire fraud for his
                                            alleged participation in a fraud scheme to sell TARP-related properties. Thompson
                                            was arrested on January 24, 2014.
                                                According to court documents, from November 2013 through January 2014,
                                            the defendant allegedly contacted real estate investment firms and misrepresented
                                            that his affiliated companies, Greenfield Advisors, LLC, and Escrow Professionals,
                                            Inc., were authorized to sell U.S. Government held properties under the TARP
                                            program HomePath. Court documents allege that the defendant entered into
                                            contracts with individuals to purchase properties from the HomePath program
                                            when, in fact, he had no authority to enter into such contracts. The defendant
                                            would then direct the victims to use Escrow Professionals, Inc., as the escrow
                                            company for the sale. As alleged, the money, intended as earnest money and
                                            property payments, was instead funneled into bank accounts controlled by the
                                            defendant and used for his personal expenses. The defendant is accused of
                                            defrauding victims out of more than $600,000. If convicted, Thompson faces
                                            up to 20 years in Federal prison.
                                                This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Western District of Texas, and the Federal Bureau of Investigation.

                                            Sentences Resulting from TARP-Related Crimes
                                            Of the 129 defendants convicted as a result of a SIGTARP investigation, 80
                                            defendants have already been sentenced to prison for TARP-related crimes, 17
                                            were sentenced to probation, and the remainder await sentencing.
                                                The consequences for TARP-related crime are severe. The average prison
                                            sentence imposed by courts for TARP-related crime investigated by SIGTARP is
                                            66 months, which is nearly double the national average length of prison sentences
                                            involving white-collar fraud of 35 months.iii Fourteen defendants investigated
                                            by SIGTARP were sentenced to 10 years or more in Federal prison, including
                                            Lee Farkas, former chairman of mortgage company Taylor, Bean and Whitaker
                                            Mortgage Corporation LLC, who is serving a 30-year prison sentence, and
                                            Edward Woodard, former chairman of the Bank of the Commonwealth, who
                                            is serving a 23-year prison sentence. Many of the criminal schemes uncovered
                                            by SIGTARP had been ongoing for years, and involved millions of dollars and
                                            complicated conspiracies with multiple co-conspirators. On average, as a result
                                            of SIGTARP investigations, criminals convicted of crimes related to TARP’s
                                            banking programs have been sentenced to serve 74 months in prison. Criminals
                                            convicted for mortgage modification fraud schemes or other mortgage fraud related

                                            iii See the U.S. Sentencing Commission’s 2012 Sourcebook of Federal Sentencing Statistics for additional information.
                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   33




investigations by SIGTARP were sentenced to serve an average of 44 months in
prison. Criminals investigated by SIGTARP and convicted of investment schemes
such as Ponzi schemes and sales of fake TARP-backed securities were sentenced to
serve an average of 108 months in prison. Figure 1.3 shows the people sentenced
to prison, the sentences they received, and their affiliations.
34                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     FIGURE 1.3




      Lee Bentley Farkas           Edward Woodard               Stephen Fields               David McMaster               Mark Anthony McBride         Delroy Davy                    George Hranowskyj
      360 months                   276 months                   204 months                   188 months                   [deceased]                   168 months                     168 months
      3 years supervised release   5 years supervised release   5 years supervised release   5 years supervised release   170 months                   5 years supervised release     3 years supervised release
      Chairman                     President & CEO              Executive Vice President     Vice President               5 years supervised release   Omni National Bank             Owner/Operator
      Taylor, Bean and Whitaker    Bank of the Commonwealth     Bank of the Commonwealth     American Mortgage            Omni National Bank                                          345 Granby, LLC
                                                                                             Specialists Inc.




      Mark A. Conner               Eric Menden                  Robert Egan                  Mark Farhood                 Glen Alan Ward               John Farahi                    Gordon Grigg
      144 months                   138 months                   132 months                   132 months                   132 months                   120 months                     120 months
      5 years supervised release   3 years supervised release   3 years supervised release   3 years supervised release   3 years supervised release   3 years supervised release     3 years supervised release
      President                    Owner/Operator               President                    Owner                        Partner                      Investment Fund Manager        Financial Advisor and Owner
      FirstCity Bank               345 Granby, LLC              Mount Vernon Money Center    Home Advocate Trustees       Timelender                   and Operator                   ProTrust Management, Inc.
                                                                                                                                                       New Point Financial
                                                                                                                                                       Services, Inc.




      Isaak Khafizov               Scott Powers                 Robin Bruhjell Brass         Catherine Kissick            Troy Brandon Woodard         Howard Shmuckler               Clayton A. Coe
      108 months                   96 months                    96 months                    96 months                    96 months                    90 months                      87 months
      3 years supervised release   5 years supervised release   3 years supervised release   3 years supervised release   5 years supervised release   3 years supervised release     5 years supervised release
      Principle                    CEO                          Owner/Operator               Senior Vice President        Vice President               Owner/Operator                 Vice President
      American Home Recovery       American Mortgage            BBR Group, LLC               Colonial Bank                Bank of the Commonwealth     The Shmuckler Group, LLC       Senior Commercial Loan
                                   Specialists Inc.                                                                       Subsidiary                                                  Officer
                                                                                                                                                                                      FirstCity Bank




      David Tamman                 Christopher Godfrey          Dennis Fischer               Lawrence Allen Wright        Lori Macakanja               Jerry J. Williams              Desiree Brown
      84 months                    84 months                    84 months                    75 months                    72 months                    72 months                      72 months
      3 years supervised release   3 years supervised release   3 years supervised release   5 years supervised release   3 years supervised release   3 years supervised release     3 years supervised release
      Attorney                     President                    Vice President               Owner                        Housing Counselor            President, CEO, and Chairman   Treasurer
      Nixon Peabody LLP            H.O.P.E.                     H.O.P.E.                     Wright & Associates          Home Front, Inc.             Orion Bank                     Taylor, Bean and Whitaker
                                                                                                                          (a HUD-approved company)
                                                                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                                        35




Jason Sant                   Edward Shannon Polen         Adam Teague                    Francesco Mileto             Glenn Steven Rosofsky           Frederic Gladle               William Cody
72 months                    71 months                    70 months                      65 months                    [deceased]                      61 months                     60 months
2 years supervised release   5 years supervised release   5 years supervised release     5 years supervised release   63 months                       3 years supervised release    5 years supervised release
Co-owner                     Owner                        Vice President                                              3 years supervised release      Operator                      Owner/Operator
Home Advocate Trustees       Polen Lawn Care and          Appalachian Community Bank                                  Owner                           Timelender                    C&C Holdings, LLC
                             Maintenance/F&M                                                                          Federal Housing Modification
                                                                                                                      Department




Delton de Armas              Jeffrey Levine               Bernard McGarry                Richard Pinto [deceased]     Dwight Etheridge                Peter Pinto                   Winston Shillingford
60 months                    60 months                    60 months                      60 months                    50 months                       48 months                     48 months
3 years supervised release   5 years supervised release   3 years supervised release     5 years supervised release   5 years supervised release      3 years supervised release    3 years supervised release
CFO                          Executive Vice President     Chief Operatiing Officer       Chairman                     President                       President/COO                 Co-owner
Taylor, Bean and Whitaker    Omni National Bank           Mount Vernon Money Center      Oxford Collection Agency     Tivest Development &            Oxford Collection Agency      Waikele Properties Corp.
                                                                                                                      Construction, LLC




Julius Blackwelder           Paul Allen                   Brent Merriell                 Robert E. Maloney, Jr.       Cheri Fu                        Marleen Shillingford          Roger Jones
46 months                    40 months                    39 months                      39 months                    36 months                       36 months                     33 months
3 years supervised release   2 years supervised release   5 years supervised release     3 years supervised release   5 years supervised release      3 years supervised release    3 years supervised release
Manager                      CEO                                                         In-house Counsel             Owner/President                 Co-owner                      Federal Housing Modification
Friends Investment Group     Taylor, Bean and Whitaker                                   FirstCity Bank               Galleria USA                    Waikele Properties Corp.      Department




Raymond Bowman               Thomas Hebble                Michael Trap                   Tommy Arney                  Joseph D. Wheliss, Jr.          Clint Dukes                   Angel Guerzon
30 months                    30 months                    30 months                      27 months                    24 months                       24 months                     24 months
2 years supervised release   3 years supervised release   3 years supervised release     3 years supervised release   5 years supervised release      5 years supervised release    3 years supervised release
President                    Executive Vice President     Owner                          Owner                        Owner/Operator                  Owner                         Senior Vice President
Taylor, Bean and Whitaker    Orion Bank                   Federal Housing Modification   Residential Development      National Embroidery Works Inc   Dukes Auto Collision Repair   Orion Bank
                                                          Department                     Company
36                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     Reginald Harper              Thomas Fu                       Karim Lawrence                  Ziad Nabil Mohammed          Matthew Amento               Christopher Woods            Troy A. Fouquet
     24 months                    21 months                       21 months                       Al Saffar                    18 months                    18 months                    18 months
     3 years supervised release   5 years supervised release      5 years supervised release      21 months                    3 years supervised release   3 years supervised release   3 years supervised release
     President and CEO            Owner/CFO                       Loan Officer                    3 years supervised release   Owner                        Owner                        Owner
     First Community Bank         Galleria USA, Inc.              Omni National Bank              Operator                     Blue and White Management,   Blue and White Management,   Team Management, LLC
                                                                                                  Compliance Audit             Ameridream                   Ameridream                   TRISA, LLC
                                                                                                  Solutions, Inc.




     Robert Ilunga                Vernell Burris                  Gregory Flahive                 Lynn Nunes                   Carlos Peralta               Andrew M. Phalen             Sara Beth Bushore
     18 months                    12 months                       12 months                       12 months                    12 months                    12 months                    Rosengrant
     3 years probation            2 years supervised release      3 years probation               5 years supervised release   3 years supervised release   5 years probation            12 months
     Manager                      Employee                        Owner/Attorney                  Owner                        Park Avenue Bank             Operator                     3 years supervised release
     Waikele Properties Corp.     H.O.P.E.                        Flahive Law Corporation         Network Funding                                           CSFA Home Solutions          Operator
                                                                                                                                                                                         Compliance Audit
                                                                                                                                                                                         Solutions, Inc.




     Walter Bruce Harrell         Justin D. Koelle                Jacob J. Cunningham             John D. Silva                Daniel Al Saffar             Dominic A. Nolan             Teresa Kelly
     10 months                    9 months                        8 months                        8 months                     6 months                     6 months                     3 months
     3 years supervised release   5 years probation               5 years probation               5 years probation            3 years supervised release   5 years probation            3 years supervised release
     Owner                        CEO                             CEO                             Senior Official              Sales Representative         Owner                        Operations Supervisor
                                  CSFA Home Solutions             CSFA Home Solutions             CSFA Home Solutions          Compliance Audit             CSFA Home Solutions          Colonial Bank
                                                                                                                               Solutions, Inc.




     Sean Ragland                 Mark W. Shoemaker               Michael Bradley Bowen
     3 months                     1 day                           1 day
     3 years supervised release   (with credit for time served)   (with credit for time served)
     Senior Financial Analyst     5 years supervised release      5 years supervised release
     Taylor, Bean and Whitaker
                                                                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   37




Location of TARP-Related Crimes
SIGTARP has found, investigated, and supported the prosecution of TARP-related
crime throughout the nation. Our investigations have led to criminal charges
against 188 defendants (129 of whom have been convicted as of April 2, 2014,
while others await trial).iv These defendants were charged in courts in 23 states and
Washington, DC. SIGTARP investigations have identified victims of TARP-related
crimes in all 50 states and Washington, DC. Victims of TARP-related crimes
include taxpayers, the Federal Government, including Treasury and FDIC, TARP-
recipient banks, and homeowners targeted by mortgage modification scams. Figure
1.4 shows locations of U.S. Attorney’s Offices and state prosecutorial offices where
criminal charges were filed as a result of SIGTARP investigations.v




iv Criminal charges are not evidence of guilt. A defendant is presumed innocent until and unless proven guilty.
v The prosecutors partnered with SIGTARP ultimately decide the venue in which to bring criminal charges resulting from SIGTARP’s
 investigations.
38   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            FIGURE 1.4

                                            LOCATIONS WHERE CRIMINAL CHARGES WERE FILED AS A RESULT OF
                                            SIGTARP INVESTIGATIONS



                                                                                          Fargo
                                                                                                                                                                Concord
                                                                                                                                                                  Boston
                                                                                                                                     Buffalo      Brooklyn
                                                                                                           Madison                              New York       New Haven
                                                                                                                                                             Newark
                                              Sacramento                                                                 Chicago                          Philadelphia
                                                                                                                                             Wilmington
                                                                                                                               District of Columbia    Upper Marlboro
                                                San Francisco                                                                                        Alexandria
                                                                                Denver                               Springfield
                                                                                                        Kansas City
                                                                                                                                                         Norfolk
                                                                                             Jefferson City       St. Louis
                                                    Las Vegas
                                                                                                                               Nashville
                                            Los Angeles
                                                                                                               Little Rock
                                                           San Diego                                                                 Atlanta
                                                                                                                Birmingham
                                                                                                                                       Macon


                                                                                                                                      Tallahassee
                                                                                                                       New Orleans
                                                                                             San Antonio
                                                                                                                                               Tampa




                                            Birmingham, Alabama                 Macon, Georgia                                 Concord, New Hampshire
                                            Northern District of Alabama        Middle District of Georgia                     District of New Hampshire
                                            Little Rock, Arkansas               Atlanta, Georgia                               Newark, New Jersey
                                            Eastern District of Arkansas        Northern District of Georgia                   District of New Jersey
                                            Los Angeles, California             Springfield, Illinois                          Las Vegas, Nevada
                                            Central District of California      Central District of Illinois                   District of Nevada
                                            Sacramento, California              Chicago, Illinois                              Brooklyn, New York
                                            Eastern District of California      Northern District of Illinois                  Eastern District of New York
                                            Sacramento, California              Chicago, Illinois                              Buffalo, New York
                                            Superior Court of California        Circuit Court of Cook County, Illinois         Western District of New York
                                            San Francisco, California           New Orleans, Louisiana                         New York, New York
                                            Northern District of California     Eastern District of Louisiana                  Southern District of New York
                                            San Diego, California               Boston, Massachusetts                          Philadelphia, Pennsylvania
                                            Southern District of California     District of Massachusetts                      Eastern District of Pennsylvania
                                            Denver, Colorado                    Upper Marlboro, Maryland                       Nashville, Tennessee
                                            District of Colorado                Prince George’s District Court                 Middle District of Tennessee
                                            New Haven, Connecticut              St. Louis, Missouri                            San Antonio, Texas
                                            District of Connecticut             Eastern District of Missouri                   Western District of Texas
                                            Wilmington, Delaware                Kansas City, Missouri                          Alexandria, Virginia
                                            District of Delaware                Western District of Missouri                   Eastern District of Virginia
                                            Tampa, Florida                      Jefferson City, Missouri                       Madison, Wisconsin
                                            Middle District of Florida          Western District of Missouri                   Western District of Wisconsin
                                            Tallahassee, Florida                Fargo, North Dakota                            Washington, DC
                                            Northern District of Florida        District of North Dakota                       U.S. Department of Justice


                                            Note: Italics denote state cases.
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   39




Restitution and Forfeiture from TARP-Related Crimes
As of April 2, 2014, investigations conducted by SIGTARP have resulted in
more than $4.77 billion in court orders for the return of money to victims or the
Government. These orders happen only after conviction and sentencing or civil
resolution and many SIGTARP cases have not yet reached that stage; therefore,
any additional court orders would serve to increase this amount.
    Two cases in particular that SIGTARP investigated have resulted in not
only lengthy prison sentences for a number of individuals in each case but also
significant orders of forfeiture and restitution. In the Colonial Bank/Taylor, Bean
and Whitaker Mortgage Corporation (“TBW”) case, former TBW chairman Lee
Bentley Farkas spearheaded a $2.9 billion fraud scheme that contributed to the
failure of Colonial Bank, the sixth largest bank failure in U.S. history. The case
resulted in not only prison time for eight people, including Farkas, but also court-
ordered restitution of $3.5 billion and forfeiture of $38.5 million. In the Bank of
the Commonwealth (“BOC”) case, where former chairman Edward J. Woodard led
a $41 million bank fraud scheme that masked non-performing assets at BOC and
contributed to the failure of BOC in 2011, the court entered a restitution order of
$333 million and a forfeiture order of $65 million against nine defendants, each
responsible for at least a portion.
    Overall in SIGTARP cases, orders of restitution and forfeiture to victims and
the Government of numerous assets as well as seized assets pending final order
include dozens of vehicles, more than 30 properties (including businesses and
waterfront homes), more than 30 bank accounts (including a bank account located
in the Cayman Islands), bags of silver, U.S. currency, antique and collector coins
(including gold, silver, and copper coins), artwork, antique furniture, Civil War
memorabilia, NetSpend Visa and CashPass MasterCard debit cards, Western
Union money orders with the “Pay To” line blank, and the entry of money
judgments by courts against more than 20 defendants.
    Of the vehicles ordered to be forfeited (including automobiles, a tractor, water
craft, recreational and commercial vehicles) several are antique and expensive cars,
including a 1969 Shelby Mustang, a 1932 Ford Model A, a 1954 Cadillac Eldorado
convertible, a 1963 Rolls Royce, and a 1965 Shelby Cobra.
    As part of the Bank of the Commonwealth case, Thomas Arney, who pled guilty
for his role in the bank fraud scheme, agreed to forfeit the proceeds from the sale
of two antique cars to the Government: a 1948 Pontiac Silver Streak and a 1957
Cadillac Coup de Ville. Figure 1.5 includes pictures of the forfeited cars, as well as
other examples of assets seized by the Government in SIGTARP investigations.
40   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            FIGURE 1.5




                                            1957 Cadillac Coupe de Ville.                    1948 Pontiac Silver Streak.




                                            2010 Mercedes-Benz GLK 350 4Matic.               2005 Hummer H2. Estimated value in 2013:
                                            Estimated value in 2013: $29,000. (Source        $24,000. (Source Kelley Blue Book)
                                            Kelley Blue Book)




                                            Property located in Norfolk, Virginia. (Photo    1958 Mercedes-Benz Cabriolet 220. Estimated
                                            courtesy of Bill Tiernan, The Virginian-Pilot)   value in 2013: $185,000. (Source Hagerty.com)




                                                                                             19th century English painting of
                                                                                             “Royal Family,” oil on canvas.
                                                                                             Estimated appraised value:
                                                                                             $6,000.
                                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   41




Property located in Chesapeake, Virginia. (Photo   French-style gilt, bronze, and green malachite
courtesy of Bill Tiernan, The Virginian-Pilot)     columnar 16-light torchères with bronze
                                                   candelabra arms. Estimated appraised value:
                                                   $8,000.




2005 Scout Dorado. (Sold for $1,800)               Cash seized from safe, $158,000.




Alabama property ordered forfeited.                Kubota tractor.
42   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TARP-Related Prohibitions from Working in Banking and Financial
                                            Services; as a Government Contractor; or as a Licensed Attorney
                                            SIGTARP investigations not only have led to lengthy prison terms, restitution
                                            and forfeiture orders and civil judgments for TARP-related offenses, but also
                                            have resulted in senior executives being suspended or permanently banned from
                                            working in banking and financial services, as a Government contractor, or as a
                                            licensed attorney. As of April 2, 2014, SIGTARP investigations have resulted in
                                            orders temporarily suspending or permanently banning 94 individuals from working
                                            in the banking or financial industry, working as a contractor with the Federal
                                            Government, or working as a licensed attorney. Many of these people were at
                                            the highest levels of companies that applied for or received a TARP bailout. They
                                            were trusted to exercise good judgment and make sound decisions. However, they
                                            abused that trust, many times for personal benefit. The suspensions and bans
                                            remove these senior executives from the banking and financial industries in which
                                            many practiced for years. A violation of the removal, in some instances, could
                                            be a basis for further prosecution. These high-level executives, some of whom
                                            were chief executive officers, chief financial officers, or licensed attorneys, have
                                            been sanctioned in a variety of ways, many by more than one authority: (i) by a
                                            sentencing court as part of the terms of supervised release after a prison term has
                                            been served; (ii) by the executive branch of the Federal Government as a bar from
                                            engaging in a Government contract; (iii) by a Federal banking regulator, which has
                                            the authority to ban an individual from working in the banking industry; (iv) by the
                                            Securities and Exchange Commission (“SEC”), which has the authority to issue
                                            certain bans relating to working in the securities industry; (v) by a Federal court
                                            in enforcing a Federal Trade Commission (“FTC”) request to order a ban against
                                            advertising, marketing, promoting, or selling mortgage assistance or mortgage relief;
                                            and (vi) by a state bar association, which has the authority to suspend or disbar a
                                            licensed attorney.
                                                Of the 94 individuals, 46 were heads or owners of companies, including
                                            those who were chairmen, chief executive officers, and presidents of financial
                                            institutions. Most of the remaining 48 individuals were chief financial officers,
                                            senior vice presidents, chief operating officers, chief credit officers, licensed
                                            attorneys, and other senior executives.
                                                This quarter SIGTARP investigations resulted in three significant industry
                                            prohibitions that are part of a settlement agreement or a condition of a guilty plea.
                                            Former Bank of America CEO, Kenneth Lewis, agreed to a 3-year ban from serving
                                            as an officer or director of a public company in order to settle a lawsuit with the
                                            New York Attorney General concerning misrepresentations to shareholders and the
                                            Federal Government. Darryl Layne Woods, the former chairman, president, and
                                            majority shareholder of Calvert Financial Corporation agreed to a ban from any
                                            future involvement in any banking activities as part of his guilty plea for misleading
                                            SIGTARP investigators about his use of TARP funds. Christopher Tumbaga, a
                                            former loan officer at Colorado East Bank and Trust, pled guilty in U.S. District
                                            Court for the District of Colorado to bank fraud and receiving kickbacks and also
                                            agreed to a ban from any future involvement in any bank activities.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   43




    Joseph Terranova, a former senior official at Delaware-based Wilmington Trust
Company, pled guilty to conspiracy to commit bank fraud for his role in a fraud
scheme that concealed the true financial condition of the TARP recipient. As part
of his plea agreement, Terranova also agreed to a ban from any future involvement
in the industry. Edward Woodard, former president, chief executive officer, and
chairman of the board at the Bank of the Commonwealth, was not only sentenced
to 23 years in Federal prison for his role in a $41 million bank fraud scheme,
but also, once he is released from prison and begins to serve a five year term of
supervised release, he is prohibited from engaging in any aspect of the banking
business, or any similar occupation. In the $2.9 billion fraud that led to the failures
of Taylor, Bean and Whitaker Mortgage Corporation (“TBW”) and Colonial Bank,
the chief executive officer and chairman of TBW, Lee Bentley Farkas, was not only
sent to Federal prison for 30 years, but also was barred from contracting with the
Federal Government and is prohibited by the court from working in the financial or
real estate industries while he is on supervised release from Federal prison.
    The Federal Deposit Insurance Corporation (“FDIC”) issued lifetime bans
against former president, CEO, and chairman Mark Conner of failed TARP
applicant FirstCity Bank, Stockton, Georgia, and former president and CEO
Reginald Harper of failed TARP applicant First Community Bank, Hammond,
Louisiana, for engaging in unsafe and unsound banking practices and breaching
their fiduciary duty. FDIC bans prohibit these former CEOs from participating in
the conduct of the affairs of their previously affiliated banks and any bank in the
future. The bans were issued in addition to their receiving a 12-year prison term
and two-year prison term, respectively. Jerry Williams, former president, CEO,
and chairman of failed TARP applicant Orion Bank, Naples, Florida, is barred
from working in the banking industry or acting as an investment advisor while he
is on supervised release after his release from his six-year prison term. NewPoint
Financial Services, Inc. (“NewPoint”) CEO John Farahi, who engaged in a Ponzi
scheme that caused losses of $7 million to investors, including TARP-funded
banks, was not only sentenced to a 10-year prison term but also has been barred
from working for or being affiliated with any financial institution insured by FDIC
while on supervised release. Farahi was separately banned by the SEC from any
broker/dealer association. SIGTARP investigations in the civil arena have also led to
FTC actions against seven senior executives engaged in two mortgage modification
fraud schemes. Senior executives at Residential Relief Foundation and Freedom
Companies Lending have been permanently banned from advertising, marketing,
promoting, or selling mortgage assistance products or services.
    SIGTARP investigations have also led to professional bans or suspensions of
seven chief financial officers, chief operating officers, and chief credit officers
of financial institutions. As part of the terms of his supervised release following
his five-year prison sentence, TBW’s chief financial officer, Delton de Armas, is
prohibited from engaging in any aspect of the banking business, mortgage or real
estate industry, or finance for three years. Clayton Coe, FirstCity Bank’s chief
financial officer, not only was sentenced to 87 months in Federal prison but also
was banned for life from banking by the FDIC for engaging in unsafe and unsound
44          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                   banking practices and breaching his fiduciary duty. Adam Teague, former chief
                                                   credit officer of failed TARP applicant Appalachian Community Bank, Ellijay,
                                                   Georgia, was also banned for life from banking by the FDIC for engaging in unsafe
     SIGTARP’s Consumer Fraud Alert and            and unsound banking practices and breaching his fiduciary duty, in addition to
     its Armed Services Mortgage Fraud             serving a 70-month prison sentence.
     Alert are reproduced inside the back              Eleven attorneys who have been investigated by SIGTARP and its law
     cover of this report.
                                                   enforcement partners have been sanctioned by their professional licensing groups.
     For more about SIGTARP’s Hotline,             Robert Maloney, in-house counsel for FirstCity Bank, not only was sentenced
     see SIGTARP’s January 2014                    to a 39-month prison term, but also was ordered by the FDIC to be banned
     Quarterly Report, pages 255-270.              from working in the banking industry and was disbarred by the Georgia state
                                                   bar. David Tamman, outside counsel for NewPoint Financial Services, Inc., who
                                                   was sentenced to 84 months in Federal prison for his role in obstructing the
                                                   Government’s investigation, was ordered banned from appearing before the SEC
                                                   and also had his law license suspended by the California state bar association.
                                                   Co-defendants Greg Flahive, Cynthia Flahive, and Michael Kent Johnson of
                                                   the Flahive Law Corporation not only were convicted of conducting a mortgage
                                                   modification fraud scheme, but also were suspended by the California bar
                                                   association from practicing law. SIGTARP civil investigations have also led to three
                                                   attorney suspensions by the state of California: Sean Rutledge of the United Law
                                                   Group, John Michael Harrison of H.A.M.P. Resources, and Warren W. Quann of
                                                   Second Chance Negotiations. Howard Shmuckler, convicted in 2012 both in state
                                                   court in Maryland and in Federal court in Virginia for conducting a fraudulent
                                                   mortgage rescue scheme while he was the owner and CEO of The Shmuckler
                                                   Group, LLC had also held himself out as a practicing attorney. But Shmuckler,
                                                   having been previously convicted of bankruptcy fraud, had been disbarred by
                                                   the District of Columbia bar association. In addition to his criminal convictions,
                                                   Shmuckler was prohibited from practicing law without a valid law license in
                                                   Maryland and is barred by the State of Maryland Department of Labor, Licensing
                                                   and Regulation from providing credit services or foreclosure consultative services.

                                                   SIGTARP Audit Activity
                                                   SIGTARP has initiated 30 audits and six evaluations since its inception. As of
                                                   March 31, 2014, SIGTARP has issued 22 reports on audits and evaluations.
                                                   Among the ongoing audits and evaluations in process are reviews of: (i) Treasury’s
                                                   decision to waive Internal Revenue Code Section 382 for Treasury’s sales of
                                                   securities in TARP institutions; (ii) Treasury’s and the state housing finance
                                                   agencies’ implementation and execution of the Hardest Hit Fund; and (iii) the
                                                   Special Master’s 2013 executive compensation determinations at General Motors
                                                   Company and Ally Financial Inc.

                                                   SIGTARP Hotline
                                                   As a criminal law enforcement agency, SIGTARP created its Hotline as a crime tip
                                                   hotline for the American public to report and offer leads on criminal investigations
                                                   and suspected violations of criminal and civil laws in connection with TARP. As
                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   45




of March 31, 2014, the SIGTARP Hotline has received and analyzed 33,622
Hotline contacts. These contacts run the gamut from expressions of concern
over the economy to serious allegations of fraud involving TARP, and a number
of SIGTARP’s investigations were generated in connection with Hotline tips. The
SIGTARP Hotline can receive information anonymously. SIGTARP honors all
applicable whistleblower protections and will provide confidentiality to the fullest
extent possible. SIGTARP urges anyone aware of fraud, waste, or abuse involving
TARP programs or funds, whether it involves the Federal Government, state and
local entities, private firms, or individuals, to contact its representatives at 877-SIG-
2009 or www.sigtarp.gov.

Communications with Congress
One of the primary functions of SIGTARP is to ensure that members of Congress
remain adequately and promptly informed of developments in TARP initiatives
and of SIGTARP’s oversight activities. To fulfill that role, the Special Inspector
General and her staff meet regularly with and brief members of Congress and
Congressional staff. Additionally, on January 31, 2013, SIGTARP’s Deputy Chief of
Staff, Chuck Jones, and Senior Policy Advisor, Brian Sano, provided a briefing open
to all House and Senate staff on SIGTARP’s January 29, 2014, Quarterly Report
and SIGTARP’s special report entitled “Taxpayer Complaints to Hotline Help
SIGTARP Fight Fraud and Highlight Continuing Problems with TARP Housing
Programs.”
    Copies of written Congressional testimony are posted at www.sigtarp.gov/pages/
testimony.aspx.




THE SIGTARP ORGANIZATION
SIGTARP leverages the resources of other agencies, and, where appropriate and
cost-effective, obtains services through SIGTARP’s authority to contract.

Staffing and Infrastructure
SIGTARP’s headquarters are in Washington, DC, with regional offices in New York
City, Los Angeles, San Francisco, and Atlanta. As of March 31, 2014, SIGTARP
had 165 employees, plus one detailee from the Federal Housing Finance Agency
Office of Inspector General. The SIGTARP organization chart as of April 11, 2014,
can be found in Appendix L, “Organizational Chart.” SIGTARP posts all of its
reports, testimony, audits, and contracts on its website, www.sigtarp.gov.
    From its inception through March 31, 2014, SIGTARP’s website has had more
than 61.1million web “hits,” and there have been more than 5.4 million downloads
of SIGTARP’s quarterly reports. The site was redesigned in May 2012. From May
46   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            10, 2012, through March 31, 2014, there have been 195,824 page views.vi From
                                            July 1, 2012, through March 31, 2014, there have been 13,734 downloads of
                                            SIGTARP’s quarterly reports.vii

                                            Budget
                                            Figure 1.6 provides a detailed breakdown of SIGTARP’s fiscal year 2014 budget,
                                            which reflects a total operating budget of $42.4 million. The Consolidated
                                            Appropriations Act, 2014 (P.L. 113-76) provided $34.9 million in annual
                                            appropriations. The operating budget includes $34.9 million in annual
                                            appropriation and portions of SIGTARP’s initial funding that have not yet been
                                            spent.
                                               Figure 1.7 provides a detailed breakdown of SIGTARP’s fiscal year 2015
                                            proposed budget, which reflects a total operating plan of $46.1 million. This
                                            would include $34.2 million in requested annual appropriations and portions of
                                            SIGTARP’s initial funding.

                                             FIGURE 1.6                                                                FIGURE 1.7

                                             SIGTARP FY 2014                                                           SIGTARP FY 2015
                                             OPERATING PLAN                                                            PROPOSED BUDGET
                                             ($ MILLIONS, PERCENTAGE OF $42.4 MILLION)                                 ($ MILLIONS, PERCENTAGE OF $46.1 MILLION)


                                                                                                                                   Other Services
                                                     Other Services                                                                      $2.3, 5%
                                                           $1.6, 4%
                                                                                                                       Advisory Services
                                             Advisory Services                                                                     $3.2
                                                         $2.6                                                                                7%
                                                                  6%
                                                                                                                        Interagency
                                              Interagency                                       Salaries                Agreements 18%                                    Salaries
                                              Agreements        23%                   65%       and                           $8.2                              68%       and
                                                     $9.7
                                                                                                $27.6                                                                     $31.3
                                                                                                                                  Travel
                                                             Travel                                                            $1.1, 2%
                                                          $0.9, 2%




                                            vi In
                                                October 2009, Treasury started to encounter challenges with its web analytics tracking system and as a result, migrated to a new
                                              system in January 2010. SIGTARP has calculated the total number of website “hits” reported herein based on three sets of numbers:

                                              • Numbers reported to SIGTARP as of September 30, 2009
                                              • Archived numbers provided by Treasury for the period of October through December 2009
                                              • Numbers generated from Treasury’s new system for the period of January 2010 through September 2012

                                               Starting April 1, 2012, another tracking system has been introduced that tracks a different metric, “page views,” which are different
                                               than “hits” from the previous system. Moving forward, page views will be the primary metric to gauge use of the website.
                                            vii Measurement of quarterly report downloads from SIGTARP’s redesigned website did not begin until July 1, 2012.
SECT IO N 2   TARP OVERVIEW
48   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014           49




This section summarizes how the U.S. Department of the Treasury (“Treasury”) has
managed the Troubled Asset Relief Program (“TARP”). This section also reviews
TARP’s overall finances and provides updates on established TARP component
programs.




TARP FUNDS UPDATE
Initial authorization for TARP funding came through the Emergency Economic
Stabilization Act of 2008 (“EESA”), which was signed into law on October 3,
2008.1 EESA appropriated $700 billion to “restore liquidity and stability to the
financial system of the United States.”2 On December 9, 2009, the Secretary of the
Treasury (“Treasury Secretary”) exercised the powers granted him under Section
120(b) of EESA and extended TARP through October 3, 2010.3 In accordance
with Section 106(e) of EESA, Treasury may expend TARP funds after October 3,
2010, as long as it does so pursuant to obligations entered into before that date.4
     The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
Frank Act”), which became law (Public Law 111-203) on July 21, 2010, amended
the timing and amount of TARP funding.5 The upper limit of the Treasury
Secretary’s authority to purchase and guarantee assets under TARP was reduced to
$475 billion from the original $700 billion.6
     Treasury’s investment authority under TARP expired on October 3, 2010. This
means that Treasury could not make new obligations after that date. However,
                                                                                             Obligations: Definite commitments
dollars that have already been obligated to existing programs may still be expended.
                                                                                             that create a legal liability for the
As of October 3, 2010, Treasury had obligated $474.8 billion to 13 announced
                                                                                             Government to pay funds.
programs. Subsequent to the expiration of Treasury’s investment authority, Treasury
has deobligated funds, reducing obligations to $456.5 billion as of March 31,
                                                                                             Deobligations: An agency’s cancellation
2014.7 Of that amount, $423.4 billion had been spent.8 Taxpayers are owed $41.2
                                                                                             or downward adjustment of previously
billion as of March 31, 2014. According to Treasury, as of March 31, 2014, it had
                                                                                             incurred obligations.
$33.2 billion in write-offs, realized losses, or amounts currently not collectible
because of pending bankruptcies or receiverships, leaving $8.1 billion in TARP
funds outstanding.9 Treasury’s write-offs and realized losses are money that
taxpayers will never get back. Treasury generally expects the amounts currently not
collectible will also be lost.10 These amounts do not include $11.7 billion in TARP
funds spent on housing support programs, which are designed as a Government
subsidy, with no repayments to taxpayers expected.11 In the quarter ended March
31, 2014, funds that were obligated but unspent remained available to be spent on
only TARP’s housing support programs. According to Treasury, in the quarter ended
March 31, 2014, $1.2 billion of TARP funds were spent on housing programs,
leaving $26.8 billion obligated and available to be spent.12
     Table 2.1 provides a breakdown of program obligations, changes in obligations,
expenditures, principal repaid, principal refinanced, amounts still owed to taxpayers
under TARP, and obligations available to be spent as of March 31, 2014. Table
2.1 lists 10 TARP sub-programs, instead of all 13, because it excludes the Capital
 50                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                               Assistance Program (“CAP”), which was never funded, and summarizes three
                                                                               programs under “Automotive Industry Support Programs.” Table 2.2 details write-
                                                                               offs, realized losses, and amounts currently not collectible in TARP as of March 31,
                                                                               2014.

TABLE 2.1
 OBLIGATIONS, EXPENDITURES, PRINCIPAL REPAID, PRINCIPAL REFINANCED, AMOUNTS STILL OWED TO TAXPAYERS, AND
 OBLIGATIONS AVAILABLE TO BE SPENT ($ BILLIONS)
                                            Obligation                                                                                               Principal               Still Owed to
                                           After Dodd-                   Current                                             Principal             Refinanced                  Taxpayers                   Available
                                                 Frank                 Obligation             Expenditure                      Repaid               into SBLF                 under TARP                to Be Spent
 Program                               (As of 10/3/2010)         (As of 3/31/2014)         (As of 3/31/2014)         (As of 3/31/2014)         (As of 3/31/2014)         (As of 3/31/2014)a          (As of 3/31/2014)

 Housing Support
                                                  $45.6                     $38.5c                     $11.7                          NA                     $0.0                          NA                   $26.8
 Programsb
 Capital Purchase
                                                  204.9                     204.9                      204.9                   $196.0d                         2.2                     $6.7                         0.0
 Program
 Community
 Development Capital                                  0.6                       0.6                       0.2                       0.1                        0.0                       0.5                        0.0
 Initiativee
 Systemically Significant
                                                    69.8                      67.8f                     67.8                       54.4                        0.0                     13.5                         0.0
 Failing Institutions
 Targeted Investment
                                                    40.0                      40.0                      40.0                       40.0                        0.0                       0.0                        0.0
 Program
 Asset Guarantee
                                                      5.0                       5.0                       0.0                       0.0                        0.0                       0.0                        0.0
 Program
 Automotive Industry
                                                    81.8g                     79.7h                     79.7                       59.1                        0.0                     20.6                         0.0
 Support Programs
 Term Asset-Backed
                                                      4.3                       0.1i                      0.1                       0.1                        0.0                       0.0                        0.0
 Securities Loan Facility
 Public-Private
                                                    22.4                      19.6                      18.6                       18.6j                       0.0                       0.0                        0.0k
 Investment Program
 Unlocking Credit for
                                                      0.4                       0.4                       0.4                       0.4                        0.0                       0.0                        0.0
 Small Businesses
 Total                                          $474.8                    $456.5                    $423.4l                   $368.3                        $2.2                     $41.2                      $26.8
 Notes: Numbers may not total due to rounding. NA=Not applicable.
 a
      Amount taxpayers still owed includes amounts disbursed and still outstanding, plus $33.2 billion in write-offs, realized losses, and investments currently not collectible because of pending bankruptcies or
      receiverships. It does not include $11.7 billion in TARP dollars spent on housing programs. These programs are designed as Government subsidies, with no repayments to taxpayers expected.
 b
         Housing support programs were designed as a Government subsidy, with no repayment to taxpayers expected.
 c
       On March 29, 2013, Treasury deobligated $7.1 billion of the $8.1 billion that was originally allocated to the FHA Short Refinance Program.
 d
        Includes $363.3 million in non-cash conversions from CPP to CDCI, which is not included in the total of $368.3 billion in TARP principal repaid because it is still owed to TARP from CDCI. Does not include $2.2
         billion refinanced from CPP into the Small Business Lending Fund.
 e
       CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash was
        expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers. Another $100.7 million was expended for new CDCI expenditures for previous CPP participants. Of the total
        obligation, only $106 million went to non-CPP institutions.
 f
     Treasury deobligated $2 billion of an equity facility for AIG that was never drawn down.
 g
         Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.
 h
      Treasury deobligated $2.1 billion of a Chrysler credit facility that was never drawn down.
 i
   On June 28, 2012, Treasury deobligated $2.9 billion in TALF funding, reducing the total obligation to $1.4 billion. On January 23, 2013, Treasury deobligated $1.3 billion, reducing the total obligation to $0.1
   billion.
 j
    On April 10, 2012, Treasury changed its reporting methodology to reclassify as repayments of capital to the Government $958 million in receipts previously categorized as PPIP equity distributions. That $958
   million is included in this repayment total.
 k
     PPIP funds are no longer available to be spent because the three-year investment period ended during the quarter ended December 31, 2012. Total obligation of $22.4 billion and expenditure of $18.6 billion for
      PPIP includes $356.3 million of the initial obligation to The TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were invested in its PPIF. Current obligation of $19.6 billion results
      because Oaktree, BlackRock, AG GECC, Invesco and AllianceBernstein did not draw down all the committed equity and debt. The undrawn debt was deobligated, but the undrawn equity was not as of March 31,
      2014, except for Invesco.
 l
     The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash outlay.

 Sources: Treasury, Transactions Report, 3/19/2014; Treasury, Daily TARP Update, 4/1/2014; Treasury, response to SIGTARP data call, 4/9/2014.
                                                                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                                          51



TABLE 2.2
 TREASURY’S STATEMENT OF REALIZED LOSSES, WRITE-OFFS, AND AMOUNTS CURRENTLY NOT COLLECTIBLE IN TARP, AS
 OF 3/31/2014 ($ MILLIONS)
                                                                                                                               Realized Lossa,
                                                                                                                                  Write-Offsb,
                                                         Total TARP                                                             Currently Not
 TARP Program               Institution                  Investment                                                               Collectiblec                                                      Description
 Autos
                                                                                                                                                          Sold 98,461 shares and equity stake in the
                            Chrysler                                                                                                       $1,328a
                                                                                                                                                                UAW Retiree trust for $560,000,000
                                                                                                                                                           Accepted $1.9 billion as full repayment for
                            Chrysler                                                                                                         1,600b
                                                                                                                                                                               the debt of $3.5 billion
                            Chrysler Total                  $10,465                                                                        $2,928
                            GM                                                                                                               3,203a                           Treasury sold to GM at a loss
                            GM                                                                                                               7,130a                       Treasury sold to public at a loss
                                                                                                                                                                           Loss due to bankruptcy plan of
                            GM                                                                                                                  826a
                                                                                                                                                                                            restructuring
                            GM Total                        $49,500                                                                      $11,159
                                                                                                                                                            Sold 219,079 common shares at a loss in
                            Ally Financial                                                                                                      845a
                                                                                                                                                                                 a private offering
                            Ally Financial
                                                            $17,174                                                                           $845
                            Total
                                                                             Total Realized Loss, Write-Offs,
                            Total Investment               $79,693d                                                                      $14,932
                                                                             Currently Not Collectible
 CDCI
                            Premier Bancorp,
                                                                                                                                                 $7a                                Liquidation of failed bank
                            Inc.
                                                                             Total Realized Loss, Write-Offs,
                            Total Investment                     $570                                                                             $7
                                                                             Currently Not Collectible
 CPP
                            179 CPP Banks                                                                                                $1,503a,b                                       Sales and exchanges
                            Pacific Coast                                                                                                                        Bankruptcy, loss already written off by
                                                                                                                                                   4 b
                            National Bancorp                                                                                                                                                   Treasury
                            Anchor Bancorp                                                                                                                           Bankruptcy, loss already realized by
                                                                                                                                                104a
                            Wisconsin, Inc.                                                                                                                                                     Treasury
                                                                                                                                                                 Bankruptcy, loss already written off by
                            CIT Group Inc.                                                                                                   2,330b
                                                                                                                                                                                               Treasury
                            26 CPP banks
                            in bankruptcy or                                                                                                    791c              Bankruptcy or receivership in process
                            receivership
                                                                             Total Realized Loss, Write-Offs,
                            Total Investment              $204,895                                                                         $4,731
                                                                             Currently Not Collectible
 SSFI
                            AIGe                                                                                                         $13,485a                 Sale of TARP common stock at a loss
                                                                             Total Realized Loss, Write-Offs,
                            Total Investment                $67,835                                                                      $13,485
                                                                             Currently Not Collectible
 Total Realized Loss               $27,363                            Total Write-Offs             $5,002                                                  Total Currently Not Collectible                   $791
 Total TARP Investment                 $350,439                                                               Total Realized Loss, Write-Offs, Currently Not Collectible                                $33,155
 Notes: Numbers may not total due to rounding.
 a
   Includes investments reported by Treasury as realized losses. Treasury changed its reporting methodology in calculating realized losses, effective June 30, 2012. Disposition expenses are no longer
    included in calculating realized losses.
 b
       Includes investments reported by Treasury as write-offs. According to Treasury, in the time since some transactions were classified as write-offs, Treasury has changed its practices and now classifies sales
        of preferred stock at a loss as realized losses.
 c
    Includes investments reported by Treasury as currently not collectible. 26 CPP banks, or their subsidiary banks, with total CPP investments of $791 million, are currently in the process of bankruptcy or
     receivership, and while Treasury has not yet realized the losses, it expects that all of its investments in the banks will be lost.
 d
      Includes $1.5 billion investment in Chrysler Financial, $413 million ASSP investment, and $641 million AWCP investment.
 e
     Treasury has sold a total of 1.66 billion AIG common shares at a weighted average price of $31.18 per share, consisting of 1,092,169,866 TARP shares and 562,868,096 non-TARP shares based upon the
      Treasury’s pro-rata holding of those shares. The non-TARP shares are those received from the trust created by the Federal Reserve Bank of New York for the benefit of the Treasury. Receipts for non-TARP
      common stock totaled $17.55 billion and are not included in TARP collections. The realized loss reflects the price at which Treasury sold common shares in AIG and TARP’s cost basis of $43.53 per common
      share.

 Sources: Treasury, Transactions Report, 3/19/2014; Treasury, Section 105(a) Report 4/10/2014; Treasury Press Release, “Treasury Announces Agreement to Exit Remaining Stake in Chrysler Group
 LLC,” 6/2/2011, www.treasury.gov/press-center/press-releases/Pages/tg1199.aspx, accessed 4/1/2014; Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Daily TARP Update, 6/3/2013,
 6/13/2013, and 4/1/2014.
52            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     TARP PROGRAMS UPDATE
                                                     As of March 31, 2014, 177 institutions remain in TARP: 71 banks with remaining
                                                     CPP principal investments; 36 CPP banks for which Treasury now holds only
                                                     warrants to purchase stock; 69 banks and credit unions in CDCI; and Ally
                                                     Financial.13 Treasury does not consider the 36 CPP institutions in which it holds
                                                     only warrants to be in TARP, however Treasury applies all proceeds from the sale of
                                                     warrants in these banks to recovery amounts in TARP’s CPP program.14 Treasury
                                                     (and therefore the taxpayer) remains a shareholder in companies that have not
                                                     repaid the Government. Treasury’s equity ownership is largely in two forms —
     Common Stock: Equity ownership                  common and preferred stock — although it also has received debt in the form of
     entitling an individual to share in             senior subordinated debentures.
     corporate earnings and voting rights.               According to Treasury, as of March 31, 2014, 268 TARP recipients (including
                                                     255 banks and credit unions, three auto companies, nine PPIP managers, and AIG)
     Preferred Stock: Equity ownership that          had paid back all of their principal or repurchased shares, although GM, Chrysler,
     usually pays a fixed dividend before            and AIG did so at a loss to Treasury. Another 137 CPP banks refinanced into
     distributions for common stock owners           the Small Business Lending Fund (“SBLF”). In addition, eight TARP recipients
     but only after payments due to debt             (including seven banks and credit unions, and Ally Financial) had partially repaid
     holders. It typically confers no voting         their principal or repurchased their shares but remained in TARP.15 According to
     rights. Preferred stock also has priority       Treasury, as of March 31, 2014, 214 banks and credit unions have exited CPP or
     over common stock in the distribution           CDCI with less than a full repayment, including institutions whose shares have
     of assets when a bankrupt company is            been sold for less than par value (25), or at a loss at auction (159), and institutions
     liquidated.                                     that are in various stages of bankruptcy or receivership (30).16 Thirteen banks have
                                                     been sold at a profit at auction.17 Four CPP banks merged with other CPP banks.18
     Senior Subordinated Debentures:                     Figure 2.1 provides a snapshot of the cumulative expenditures, repayments,
     Debt instrument ranking below senior            and amount owed as of March 31, 2014. Taxpayers also are entitled to dividend
     debt but above equity with regard to            payments, interest, and warrants for taking on the risk of TARP investments.
     investors’ claims on company assets             According to Treasury, as of March 31, 2014, Treasury had collected $47.9 billion
     or earnings.                                    in interest, dividends, and other income, including $9.5 billion in proceeds from
                                                     the sale of warrants and stock received as a result of exercised warrants.19
                                                         Some TARP programs are scheduled to last as late as 2021. Other TARP
                                                     programs have no scheduled ending date; TARP money will remain invested
                                                     until recipients pay Treasury back or until Treasury sells its investments in the
                                                     companies. Table 2.3 provides details of exit dates and remaining Treasury
                                                     investments.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                               53




TABLE 2.3                                                                                                                            FIGURE 2.1
 STATUS OF CONTINUING TARP PROGRAMS                                                                                                  CURRENT TARP EXPENDITURES,
 Program                                                           Investment status as of 3/31/2014                                 REPAYMENTS, AND AMOUNT
                                                                                                                                     OWED ($ BILLIONS)
 Home Affordable Modification Program                              2021 to pay incentives on modifications
 Hardest Hit Fund                                                  2017 for states to use TARP funds                                  $500

 FHA Short Refinance Program                                       2020 for TARP-funded letter of credit
                                                                                                                                       400
                                                                                                                                                $423.4
                                                                   Remaining principal investments in 71 banks;
 Capital Purchase Program                                                                                                                                       $368.3
                                                                   warrants for stock in an additional 36 banks                        300

                                                                   Remaining principal investments in 69 banks/
 Community Development Capital Initiative                                                                                              200
                                                                   credit unions
 Automotive Industry Financing Program                             Remaining investment: 37% stake in Ally                             100

 Term Asset-Backed Securities Loan Facility                        2015 maturity of last loan                                                                                   $41.2
                                                                                                                                         0
 Notes: Treasury’s Ally Financial stake as of 3/31/2014 was 37%, as of 4/10/2014 it is 17%.
                                                                                                                                              TARP            TARP            Amount
 Sources: Treasury, Transactions Report, 3/19/2014; Treasury, Daily TARP Update, 4/1/2014; and Treasury, response to SIGTARP                  Expenditures    Repaymentsa     Owedb
 data call, 4/9/2014.

                                                                                                                                      Notes: As of 3/31/2014. Numbers may not total due
                                                                                                                                      to rounding.
                                                                                                                                      a
                                                                                                                                        Repayments include $196 billion for CPP, $40 billion
                                                                                                                                        for TIP, $59.1 billion for Auto Programs, $18.6 billion

COST ESTIMATES
                                                                                                                                        for PPIP, $54.4 billion for SSFI, and $0.4 billion for
                                                                                                                                        UCSB. The $196 billion for CPP repayments includes
                                                                                                                                        $363.3 million in non-cash conversion from CPP to
Several Government agencies are responsible under EESA for generating cost                                                              CDCI, which is not included in the $368.3 billion in TARP
                                                                                                                                        repayments because it is still owed to TARP from CDCI.
estimates for TARP, including the Congressional Budget Office (“CBO”), the                                                              Additionally, $2.2 billion was refinanced into SBLF.
                                                                                                                                      b
                                                                                                                                        Amount taxpayers still owed includes amounts
Office of Management and Budget (“OMB”), and Treasury, whose estimated costs                                                            disbursed and still outstanding, plus $33.2 billion in
                                                                                                                                        write-offs, realized losses, and investments currently
are audited each year by the Government Accountability Office (“GAO”). Cost                                                             not collectible because of pending bankruptcies or
                                                                                                                                        receiverships. It does not include $11.7 billion in TARP
estimates have decreased from CBO’s March 2009 cost estimate of a $356 billion                                                          dollars spent on housing programs. These programs
loss and OMB’s August 2009 cost estimate of a $341 billion loss.20                                                                      are designed as Government subsidies, with no
                                                                                                                                        repayment to taxpayers expected.
     On March 4, 2014, OMB issued the Administration’s fiscal year 2015 budget,
                                                                                                                                      Sources: Treasury, Transactions Report, 3/19/2014;
which included a TARP lifetime cost estimate of $39 billion, based largely on                                                         Treasury, Daily TARP Update, 4/1/2014.

figures from November 30, 2013.21 This was a decrease from its estimate of $47.5
billion based on December 31, 2012, data.22 According to OMB, this decrease
came largely from a smaller projected loss on the auto program, as well as from a
technical adjustment to interest income that affects the overall Federal deficit, but
has no direct affect on TARP program costs.23 The estimate also assumes principal
repayments and revenue from dividends, warrants, interest, and fees for PPIP of
$2.4 billion and for CPP of $8.3 billion.
     On April 17, 2014, CBO issued a TARP cost estimate based on its evaluation
of data as of March 12, 2014. CBO estimated the ultimate cost of TARP would be
$27 billion, up $6 billion from its estimate of $21 billion in May 2013.24 According
to CBO, the increase is due primarily to an increase in projected mortgage program
spending, offset by a decrease in the estimated costs associated with the automotive
program. CBO estimates that TARP’s largest loss will come from the mortgage
programs. CBO estimated that only $26 billion of obligated funds for housing will
be spent.
     On December 11, 2013, Treasury issued its September 30, 2013, fiscal year
audited agency financial statements for TARP, which contained a cost estimate
of $40.3 billion.25 This estimate is a decrease from Treasury’s estimate of a $59.7
54   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            billion loss as of September 30, 2012. According to Treasury, “These costs for the
                                            non-housing programs fluctuate in large part due to changes in the market prices
                                            of common stock for AIG and GM and the estimated value of the Ally stock.”26
                                            According to Treasury, the largest costs from TARP are expected to come from
                                            housing programs and from assistance to AIG and the automotive industry.27 This
                                            estimate assumes that all of the funds obligated for housing support programs will
                                            be spent.
                                                 The most recent TARP program cost estimates from each agency are listed in
                                            Table 2.4.
                                                                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   55




TABLE 2.4
 COST (GAIN) OF TARP PROGRAMS                              ($ BILLIONS)

                                                                                                        Treasury Estimate,
                                                                                                      TARP Audited Agency
 Program Name                                   CBO Estimate                 OMB Estimate              Financial Statement
     Report issued:                                4/17/2014                     3/4/2014                          12/11/2013
     Data as of:                                   3/12/2014                   11/30/2013                           9/30/2013
 Housing Support Programs                                     $26                         $37.5                              $37.7a
 Capital Purchase Program                                      (17)                         (8.3)                             (16.1)
 Systemically Significant
                                                                15                          17.4                               15.2
 Failing Institutions
 Targeted Investment Program
                                                                (8)                         (7.5)                               (8.0)
 and Asset Guarantee Program
 Automotive Industry Support
                                                                14                            20                               14.7
 Programsb
 Term Asset-Backed Securities
                                                                (1)                         (0.5)                               (0.6)
 Loan Facility
 Public-Private Investment
                                                                (3)                         (2.4)                               (2.7)
 Program
 Otherc                                                           *                             *                                   *
 Total                                                       $27   d
                                                                                         $56.3                              $40.3e
 Interest on Reestimatesf                                                                 (17.2)                                     
 Adjusted Total                                                                         $39.0e                                       
 Notes: Numbers may not total due to rounding.
 a
    According to Treasury, “The estimated lifetime cost for Treasury Housing Programs under TARP represent the total commitment
    except for the FHA Refinance Program, which is accounted for under credit reform. The estimated lifetime cost of the FHA Refinance
    Program represents the total estimated subsidy cost associated with total obligated amount.”
 b
    Includes AIFP, ASSP, and AWCP.
 c
    Consists of CDCI and UCSB, both of which are estimated between a cost of $500 million and a gain of $500 million.
 d
    The estimate is before administrative costs and interest effects.
 e
    The estimate includes interest on reestimates but excludes administrative costs.
 f
   Cumulative interest on reestimates is an adjustment for interest effects on changes in TARP subsidy costs from original subsidy
    estimates; such amounts are a component of the deficit impacts of TARP programs but are not a direct programmatic cost.

 Sources: OMB Estimate – OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2015,” 3/4/2014,
 www.whitehouse.gov/sites/default/files/omb/budget/fy2015/assets/spec.pdf, accessed 4/18/2014; CBO Estimate - CBO, “Report
 on the Troubled Asset Relief Program—April 2014,” www.cbo.gov/sites/default/files/cbofiles/attachments/45260-TARP.pdf,
 accessed 4/18/2014; Treasury Estimate — Treasury, “Office of Financial Stability–Troubled Asset Relief Program Agency Financial
 Report Fiscal Year 2013,” 12/11/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-
 11-13_Final.pdf, accessed 4/1/2014.
56   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TARP PROGRAMS
                                            TARP programs fall into four categories: housing support programs, financial
                                            institution support programs, automotive industry support programs, and asset
                                            support programs.

                                            Housing Support Programs
                                            The stated purpose of TARP’s housing support programs is to help homeowners
                                            and financial institutions that hold troubled housing-related assets. Although
                                            Treasury originally committed to use $50 billion in TARP funds for these programs,
                                            it subsequently obligated only $45.6 billion, then in March 2013, reduced its
                                            obligation to $38.5 billion.28 As of March 31, 2014, $11.7 billion (30% of obligated
                                            funds) has been expended.29 However, some of these expended funds have
                                            been used for administrative expenses by the state Housing Finance Agencies
                                            participating in the Hardest Hit Fund program or remain with them as cash on
                                            hand.

                                            •	 Making Home Affordable (“MHA”) Program — According to Treasury, this
                                               umbrella program for Treasury’s foreclosure mitigation efforts is intended to
                                               “help bring relief to responsible homeowners struggling to make their mortgage
                                               payments, while preventing neighborhoods and communities from suffering the
                                               negative spillover effects of foreclosure, such as lower housing prices, increased
                                               crime, and higher taxes.”30 MHA, for which Treasury has obligated $29.8
                                               billion of TARP funds, consists of the Home Affordable Modification Program
                                               (“HAMP”), which includes HAMP Tier 1 and HAMP Tier 2, which both modify
                                               first-lien mortgages to reduce payments; the Federal Housing Administration
                                               (“FHA”) HAMP loan modification option for FHA-insured mortgages
                                               (“Treasury/FHA-HAMP”); the U.S. Department of Agriculture Office of Rural
                                               Development (“RD”) HAMP (“RD-HAMP”); the Home Affordable Foreclosure
                                               Alternatives (“HAFA”) program; the Second Lien Modification Program
                                               (“2MP”); and the U.S. Department of Veterans Affairs (“VA”) HAMP (“VA
                                               HAMP”), which TARP does not fund.31 HAMP in turn encompasses various
                                               initiatives in addition to the modification of first-lien mortgages, including
                                               Home Price Decline Protection (“HPDP”), the Principal Reduction Alternative
                                               (“PRA”), and the Home Affordable Unemployment Program (“UP”).32
                                               Additionally, the overall MHA obligation of $29.8 billion includes $2.7 billion to
                                               support the Treasury/FHA Second-Lien Program (“FHA2LP”), which expired as
                                               of December 31, 2013. FHA2LP was to complement the FHA Short Refinance
                                               program (discussed later) and was intended to support the extinguishment
                                               of second-lien loans, but no second liens had been partially written down or
                                               extinguished under the program before it expired.33
                                                    As of March 31, 2014, MHA had expended $7.8 billion of TARP money
                                               (26% of $29.8 billion).34 Of that amount, $6.4 billion was expended on
                                               HAMP, which includes $1.2 billion expended on homeowners’ HAMP
                                               permanent modifications that later redefaulted.35 In addition, $773.4 million
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014               57




   was expended on HAFA and $555.3 million on 2MP.36 As of March 31, 2014,
   there were 469,290 active Tier 1 and 44,856 active Tier 2 permanent first-lien
   modifications under the TARP-funded portion of HAMP, an increase of 6,383
   Tier 1 and 12,474 Tier 2 active permanent modifications over the past quarter.37
   For more information, including participation numbers for each of the MHA
   programs and subprograms, see the “Housing Support Programs” discussion in
   this section.
•	 Housing Finance Agency (“HFA”) Hardest Hit Fund (“HHF”) — The stated
   purpose of this program is to provide TARP funding for “innovative measures
   to help families in the states that have been hit the hardest by the aftermath of
   the housing bubble.”38 Treasury obligated $7.6 billion for this program.39 As of
   March 31, 2014, $3.8 billion had been drawn down by the states from HHF.40
   However, as of December 31, 2013, the latest data available, only $2.3 billion
   had been spent assisting 161,783 homeowners, with the remaining $385.1
   million funds used for administrative expenses and $509.8 million as unspent
   cash-on-hand.41 For more information, see the “Housing Support Programs”
   discussion in this section.42
•	 FHA Short Refinance Program — Treasury has provided a TARP-funded
   letter of credit for up to $1 billion in loss protection on refinanced first
   liens.43 As of March 31, 2014, there have been 4,238 refinancings under the
   FHA Short Refinance program, an increase of 425 refinancings during the
   past quarter.44 For more information, see the “Housing Support Programs”
   discussion in this section.

Financial Institution Support Programs
Treasury primarily invested capital directly into financial institutions including           Systemically Significant Institutions:
banks, bank holding companies, and, if deemed by Treasury critical to the financial          Term referring to any financial
system, some systemically significant institutions.45                                        institution whose failure would impose
                                                                                             significant losses on creditors and
•	 Capital Purchase Program (“CPP”) — Under CPP, Treasury directly                           counterparties, call into question the
   purchased preferred stock or subordinated debentures in qualifying financial              financial strength of similar institutions,
   institutions.46 CPP was intended to provide funds to “stabilize and strengthen            disrupt financial markets, raise
   the U.S. financial system by increasing the capital base of an array of healthy,          borrowing costs for households and
   viable institutions, enabling them [to] lend to consumers and business[es].”47            businesses, and reduce household
   Treasury invested $204.9 billion in 707 institutions through CPP, which closed            wealth.
   to new funding on December 29, 2009.48 As of March 31, 2014, 107 of those
   institutions remained in TARP; in 36 of them, Treasury holds only warrants to
   purchase stock. Treasury does not consider these 36 institutions to be in TARP,
   however Treasury applies all proceeds from the sale of warrants in these banks
   to recovery amounts in TARP’s CPP program. As of March 31, 2014, 71 of the
   107 institutions had outstanding CPP principal investments.49 Of the 707 banks
   that received CPP investments, 636 banks no longer have outstanding principal
   investments in CPP. Nearly a quarter of the 707 banks, or 165, refinanced into
   other Government programs — 28 of them into TARP’s CDCI and 137 into
   SBLF, a non-TARP program.50 Only 241 of the banks, or 34% of the original
58            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                        707, fully repaid CPP otherwise.51 Of the other banks that have exited CPP,
                                                        four CPP banks merged with other CPP banks, Treasury sold its investments in
                                                        25 banks for less than par and its investments in 172 banks at auction (159 of
                                                        those investments sold at a loss), and 29 institutions or their subsidiary banks
                                                        failed, meaning Treasury lost its entire investment in those banks.52 As of March
                                                        31, 2014, taxpayers were still owed $6.7 billion related to CPP. According
                                                        to Treasury, it had write-offs, realized losses, and investments not currently
                                                        collectible as a result of bankruptcy of $4.7 billion in the program, leaving $2
                                                        billion in TARP funds outstanding.53 Included as not currently collectible as
                                                        a result of bankruptcy are investments in 26 CPP banks, or their subsidiary
                                                        banks, with total CPP investments of $790.5 million, that are currently in the
                                                        process of bankruptcy. While Treasury has not yet realized the loss, it expects
                                                        that all of its investments in the banks will be lost.54 According to Treasury,
                                                        $196 billion of the CPP principal (or 96%) had been repaid as of March 31,
                                                        2014. The repayment amount includes $363.3 million in preferred stock that
                                                        was converted from CPP investments into CDCI and therefore still represents
                                                        outstanding obligations to TARP. Additionally, $2.2 billion was refinanced in
                                                        2011 into SBLF, a non-TARP Government program.55
                                                             Treasury continues to manage its portfolio of CPP investments, including,
                                                        for certain struggling institutions, converting its preferred equity ownership into
                                                        a more junior form of equity ownership, often at a discount to par value (which
                                                        may result in a loss) in an attempt to preserve some value that might be lost if
                                                        these institutions were to fail. As of March 31, 2014, Treasury has held 25 sets
                                                        of auctions to sell all of its preferred stock investments in 172 banks, selling
                                                        all but 13 investments at a discounted price resulting in a loss to Treasury.56
                                                        Treasury lost a total of $991 million in the auctions, including $772.2 million
                                                        from discounts on principal investments in the institutions and $218.8 million
                                                        in forfeited unpaid dividends and interest owed by the institutions. For more
                                                        information, see the “Capital Purchase Program” discussion in this section.
                                                     •	 Community Development Capital Initiative (“CDCI”) — Under CDCI,
     Community Development Financial                    Treasury used TARP money to buy preferred stock in or subordinated debt from
     Institutions (“CDFIs”): Financial                  Community Development Financial Institutions (“CDFIs”). Treasury intended
     institutions eligible for Treasury funding         for CDCI to “improve access to credit for small businesses in the country’s
     to serve urban and rural low-income                hardest-hit communities.”57 Under CDCI, TARP made capital investments
     communities through the CDFI Fund.                 in the preferred stock or subordinated debt of eligible banks, bank holding
     CDFIs were created in 1994 by the                  companies, thrifts, and credit unions.58 Eighty-four institutions received $570.1
     Riegle Community Development and                   million in funding under CDCI.59 However, 28 of these institutions converted
     Regulatory Improvement Act.                        their existing CPP investment into CDCI ($363.3 million of the $570.1 million)
                                                        and 10 of those that converted received combined additional funding of $100.7
                                                        million under CDCI.60 Only $106 million of CDCI money went to institutions
                                                        that were not already TARP recipients. As of March 31, 2014, 69 institutions
                                                        remained in CDCI.61 As of March 31, 2014, two remaining CDCI institutions
                                                        had unpaid dividend or interest payments.62 For more information, see the
                                                        “Community Development Capital Initiative” discussion in this report.
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014          59




•	 Systemically Significant Failing Institutions (“SSFI”) Program — SSFI
   enabled Treasury to invest in systemically significant institutions to prevent
   them from failing.63 Only one firm received SSFI assistance: American
   International Group, Inc. (“AIG”).
        The Government’s rescue of AIG involved several different funding facilities
   provided by the Federal Reserve Bank of New York (“FRBNY”) and Treasury,
   with various changes to the transactions over time. Combined, Treasury and
   FRBNY committed $182 billion to bail out AIG, of which $161 billion was
   disbursed.64 That included $67.8 billion in TARP funds. Treasury’s investment
   in AIG ended on March 1, 2013.
        As reflected on Treasury’s books and records, taxpayers recouped $54.4
   billion of the $67.8 billion in TARP funds and realized losses from an
   accounting standpoint of $13.5 billion on Treasury’s sale of AIG stock.65 Due to
   a January 2011 restructuring of the FRBNY and Treasury investments, Treasury
   held common stock from both the TARP and FRBNY assistance, and, according
   to Treasury, the Government overall has made a $4.1 billion gain on the stock
   sales, and $959 million has been paid in dividends, interest, and other income.66
        On July 9, 2013, the Financial Stability Oversight Council (“FSOC”)
   announced that it had designated AIG as a systemically important nonbank
   financial company under Dodd-Frank, thereby subjecting AIG to consolidated
   supervision by the Board of Governors of the Federal Reserve System (“Federal
   Reserve”) and to enhanced prudential standards.67
        For more information, see the “Systemically Significant Failing Institutions
   Program” discussion in this section.
•	 Targeted Investment Program (“TIP”) — Through TIP, Treasury invested in
   financial institutions it deemed critical to the financial system.68 There were two        Senior Preferred Stock: Shares that
   expenditures under this program, totaling $40 billion — the purchases of $20               give the stockholder priority dividend
   billion each of senior preferred stock in Citigroup Inc. (“Citigroup”) and Bank            and liquidation claims over junior
   of America Corp. (“Bank of America”).69 Treasury also accepted common stock                preferred and common stockholders.
   warrants from each, as required by EESA. Both banks fully repaid Treasury
   for its TIP investments.70 Treasury auctioned its Bank of America warrants on              Illiquid Assets: Assets that cannot be
   March 3, 2010, and auctioned its Citigroup warrants on January 25, 2011.71 For             quickly converted to cash.
   more information on these transactions, see the “Targeted Investment Program
   and Asset Guarantee Program” discussion in this section.                                   Trust Preferred Securities (“TRUPS”):
•	 Asset Guarantee Program (“AGP”) — AGP was designed to provide                              Securities that have both equity and
   insurance-like protection for a select pool of mortgage-related or similar assets          debt characteristics, created by
   held by participants whose portfolios of distressed or illiquid assets threatened          establishing a trust and issuing debt
   market confidence.72 Treasury, the Federal Deposit Insurance Corporation                   to it.
   (“FDIC”), and the Federal Reserve offered certain loss protections in connection
   with $301 billion in troubled Citigroup assets.73 In exchange for providing
   the loss protection, Treasury received $4 billion of preferred stock that was
   later converted to trust preferred securities (“TRUPS”), and FDIC received
   $3 billion.74 On December 23, 2009, in connection with Citigroup’s TIP
   repayment, Citigroup and the Government terminated the AGP agreement and
   the Government suffered no loss. On December 28, 2012, FDIC transferred
60   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               $800 million of Citigroup TRUPS to Treasury, as a result of Citigroup’s
                                               participation in FDIC’s Temporary Liquidity Guarantee Program having closed
                                               without a loss.75 Treasury converted the TRUPS it received from FDIC into
                                               Citigroup subordinated notes and subsequently sold them for $894 million.76
                                               For more information, see the “Targeted Investment Program and Asset
                                               Guarantee Program” discussion in this section.

                                            Automotive Industry Support Programs
                                            TARP’s automotive industry support through the Automotive Industry Financing
                                            Program (“AIFP”) aimed to “prevent a significant disruption of the American
                                            automotive industry, which would pose a systemic risk to financial market stability
                                            and have a negative effect on the economy of the United States.”77 As of March 31,
                                            2014, Ally Financial Inc. (“Ally Financial”), formerly GMAC Inc., remains the only
                                            auto-related company whose stock is owned by Treasury. As of March 31, 2014,
                                            taxpayers were owed $6.5 billion, however, following the IPO on April 10, 2014,
                                            taxpayers are now owed $4.1 billion for TARP’s investment in Ally Financial. In
                                            return for its investment, as of April 10, 2014, Treasury held approximately 17%
                                            of Ally Financial’s common stock, following its sale of 95 million shares as part of
                                            Ally’s IPO. Prior to the IPO, on January 23, 2014, Treasury sold 410,000 shares of
                                            Ally Financial common stock for approximately $3 billion in a private placement,
                                            after which it owned 37% of the company’s stock.78 Treasury sold its last shares in
                                            General Motors Company (“GM”) on December 9, 2013. Separately, on March 20,
                                            2014, Treasury wrote off an $826 million administrative claim in the company’s
                                            2009 bankruptcy, ending all taxpayer involvement with GM.79
                                                 As of March 31, 2014, taxpayers have lost $11.2 billion on the principal
                                            TARP investment in GM. Taxpayers had also lost $845 million on the sale of Ally
                                            Financial’s common stock, as well as $2.9 billion on the principal TARP investment
                                            in Chrysler Holding LLC (“Chrysler”). Chrysler Financial Services Americas LLC
                                            (“Chrysler Financial”) fully repaid its TARP investment.80
                                                 Through AIFP, Treasury made emergency loans to Chrysler, Chrysler Financial,
                                            and GM. Additionally, Treasury bought senior preferred stock from Ally Financial
                                            and assisted Chrysler and GM during their bankruptcy restructurings. As of March
                                            31, 2014, $79.7 billion had been disbursed through AIFP and its subprograms,
                                            and Treasury had received $59.1 billion in principal repayments, preferred stock
                                            redemption proceeds, and stock sale proceeds. As of March 31, 2014, Treasury had
                                            received approximately $38.9 billion related to its GM investment, $10.7 billion
                                            related to its Ally Financial/GMAC investment, $8 billion related to its Chrysler
                                            investment, and $1.5 billion related to its Chrysler Financial investment.81 As of
                                            March 31, 2014, Treasury had also received approximately $5.6 billion in dividends
                                            and interest under AIFP and its two subprograms, ASSP and AWCP.82
                                                 In return for a total of $49.5 billion in loans to GM, Treasury received $6.7
                                            billion in debt in GM (which was subsequently repaid), in addition to $2.1 billion
                                            in preferred stock and a 61% common equity stake.83 Through a series of stock
                                            sales, Treasury has divested its preferred stock and all of its common stock as of
                                            December 9, 2013. Because the common stock sales all took place below Treasury’s
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014             61




break-even price, Treasury has booked a loss of $10.3 billion on the sales as of
March 31, 2014.84
     Treasury invested a total of $17.2 billion in Ally Financial, and $6.5 billion
of that remained outstanding as of March 31, 2014. On December 30, 2010,
Treasury’s investment was restructured to provide for a 74% common equity
stake, $2.7 billion in TRUPS (including amounts received in warrants that were
immediately converted into additional securities), and $5.9 billion in mandatorily
convertible preferred shares (“MCP”).85 Treasury sold the $2.7 billion in TRUPS
on March 2, 2011, resulting in a $2.5 billion principal repayment to Treasury.86
On November 20, 2013, Ally paid Treasury $5.2 billion to repurchase the $5.9
billion par value of MCP, plus a payment of $725 million to terminate the share
adjustment right (reducing Treasury’s ownership stake from 74% to 63%).87 The
November 20, 2013 repurchase represented a $5.6 billion repayment of principal,
bringing total Ally principal repayments to $8.2 billion.88 Treasury’s sale of 410,000
shares of Ally common stock on January 23, 2014, for approximately $3 billion,
brings the repayment to $10.7 billion.89 In addition, Treasury’s share sales in the
April 10, 2014, IPO are reported at $2.4 billion.90
     Treasury provided approximately $12.5 billion in loan commitments to Chrysler,
of which $2.1 billion was never drawn down.91 On July 21, 2011, Treasury sold to
Fiat for $500 million Treasury’s remaining equity ownership interest in Chrysler.92
Treasury also sold to Fiat for $60 million Treasury’s rights to receive proceeds under
an agreement with the United Auto Workers (“UAW”) retiree trust. Treasury’s
books reflect a $2.9 billion loss to taxpayers on their principal investment in
Chrysler.93 In addition, Treasury provided a $1.5 billion loan to Chrysler Financial,
which was fully repaid with interest in July 2009.94
     For more information, see the “Automotive Industry Support Programs”
discussion in this section.
     AIFP also included two subprograms:

•	 Auto Supplier Support Program (“ASSP”) — On March 19, 2009, Treasury
   committed $5 billion to ASSP to “help stabilize the automotive supply base and
   restore credit flows” with loans to GM ($290 million) and Chrysler ($123.1
   million) that were fully repaid in April 2010.95
•	 Auto Warranty Commitment Program (“AWCP”) — This program
   guaranteed Chrysler and GM vehicle warranties during the companies’
   bankruptcy with Treasury obligating $640.8 million —$360.6 million for GM
   and $280.1 million for Chrysler — both fully repaid to Treasury.96
                                                                                              Asset-Backed Securities (“ABS”): Bonds
Asset Support Programs                                                                        backed by a portfolio of consumer
The stated purpose of these programs was to support the liquidity and market value            or corporate loans (e.g., credit card,
of assets owned by financial institutions to free capital so that these firms could           auto, or small-business loans). Financial
extend more credit to support the economy. These assets included various classes              companies typically issue ABS backed
of asset-backed securities (“ABS”) and several types of loans.                                by existing loans in order to fund new
                                                                                              loans for their customers.
62             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      •	 Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was
     Servicing Advances: If borrowers’                   originally designed to increase credit availability for consumers and small
     payments are not made promptly                      businesses through a $200 billion Federal Reserve loan program. TALF provided
     and in full, mortgage servicers are                 investors with non-recourse loans secured by certain types of ABS, including
     contractually obligated to advance the              credit card receivables, auto loans, equipment loans, student loans, floor
     required monthly payment amount in                  plan loans, insurance-premium finance loans, loans guaranteed by the Small
     full to the investor. Once a borrower               Business Administration (“SBA”), residential mortgage servicing advances, and
     becomes current or the property is                  commercial mortgage-backed securities (“CMBS”).97 TALF closed to new loans
     sold or acquired through foreclosure,               in June 2010.98 TALF ultimately provided $71.1 billion in Federal Reserve
     the servicer is repaid all advanced                 financing — $59 billion with non-mortgage related ABS as collateral and $12.1
     funds.                                              billion with CMBS as collateral.99 Of that amount, $82 million remained
                                                         outstanding as of March 31, 2014.100 As of early 2013, the TALF program
     Commercial Mortgage-Backed                          collected fees totaling more than the amount of loans still outstanding.101 As
     Securities (“CMBS”): Bonds backed by                of March 31, 2014, there had been no surrender of collateral related to these
     one or more mortgages on commercial                 loans.102 For more information, see the “TALF” discussion in this section.
     real estate (e.g., office buildings, rental      •	 Public-Private Investment Program (“PPIP”) — PPIP’s goal was to restart
     apartments, hotels).                                credit markets by using a combination of private equity, matching Government
                                                         equity, and Government debt to purchase legacy securities, i.e., CMBS and
     Legacy Securities: Real estate-related              non-agency residential mortgage-backed securities (“non-agency RMBS”).103
     securities originally issued before                 Under the program, nine Public-Private Investment Funds (“PPIFs”) managed
     2009 that remained on the balance                   by private asset managers invested in non-agency RMBS and CMBS. Treasury
     sheets of financial institutions because            originally obligated $22.4 billion in TARP funds to the program and reduced
     of pricing difficulties that resulted from          the amount over time to $19.6 billion as of March 31, 2014. Together, all nine
     market disruption.                                  PPIFs drew down $18.6 billion in debt and equity financing from Treasury
                                                         funding out of the total obligation, and repaid all of it.104 As of March 31, 2014,
     Non-Agency Residential Mortgage-                    the entire PPIP portfolio had been liquidated, and six PPIP funds were legally
     Backed Securities (“non-agency                      dissolved while the other two were winding down operations.105 For more
     RMBS”): Financial instrument backed                 information, see the “Public-Private Investment Program” discussion in this
     by a group of residential real estate               section.
     mortgages (i.e., home mortgages for              •	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business
     residences with up to four dwelling                 Administration (“SBA”) Loan Support Initiative — In March 2009, Treasury
     units) not guaranteed or owned by                   officials announced that Treasury would buy up to $15 billion in securities
     a Government-sponsored enterprise                   backed by SBA loans under UCSB.106 Treasury obligated a total of $400 million
     (“GSE”) or a Government agency.                     for UCSB and made purchases of $368.1 million in 31 securities under the
                                                         program. Treasury sold the last of its UCSB securities on January 24, 2012,
                                                         ending the program with a net investment gain of about $9 million.107 For more
                                                         information, see the “Unlocking Credit for Small Businesses/Small Business
                                                         Administration Loan Support” discussion in this section.
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014             63




HOUSING SUPPORT PROGRAMS
On February 18, 2009, the Administration announced a foreclosure prevention
plan that became the Making Home Affordable (“MHA”) program, an umbrella                    Government-Sponsored Enterprises
program for the Administration’s homeowner assistance and foreclosure prevention            (“GSEs”): Private corporations created
efforts.108 MHA initially consisted of the Home Affordable Modification Program             and chartered by the Government to
(“HAMP”), a Treasury program that uses TARP funds to provide incentives for                 reduce borrowing costs and provide
mortgage servicers to modify eligible first-lien mortgages, and two initiatives at          liquidity in the market, the liabilities
the Government-sponsored enterprises (“GSEs”) that use non-TARP funds.109                   of which are not officially considered
HAMP was originally intended “to help as many as three to four million financially          direct taxpayer obligations. On
struggling homeowners avoid foreclosure by modifying loans to a level that is               September 7, 2008, the two largest
affordable for borrowers now and sustainable over the long term.”110 On June 1,             GSEs, the Federal National Mortgage
2012, HAMP expanded the pool of homeowners potentially eligible to be assisted              Association (“Fannie Mae”) and
through the launch of HAMP Tier 2; however, Treasury has not estimated the                  the Federal Home Loan Mortgage
number of homeowners that HAMP Tier 2 is intended to assist.111 On June 13,                 Corporation (“Freddie Mac”), were
2013, Treasury generally extended MHA programs for an additional two years,                 placed into Federal conservatorship.
from December 31, 2013, to December 31, 2015.112                                            They are currently being financially
    Treasury over time expanded MHA to include sub-programs. Treasury also                  supported by the Government.
allocated TARP funds to support two additional housing support efforts: TARP
funding for 19 state housing finance agencies, called the Housing Finance                   Loan Servicers: Companies that
Agency Hardest Hit Fund (“Hardest Hit Fund” or “HHF”) and a Federal Housing                 perform administrative tasks on
Administration (“FHA”) refinancing program. The HHF program is scheduled                    monthly mortgage payments until the
to expire on December 31, 2017. The FHA refinancing program, known as FHA                   loan is repaid. These tasks include
Short Refinance, is scheduled to expire on December 31, 2014.113                            billing, tracking, and collecting monthly
    Not all housing support programs are funded, or completely funded, by TARP.             payments; maintaining records of
Of the originally anticipated $75 billion cost for MHA, $50 billion was to be               payments and balances; allocating
funded by TARP, with the remainder funded by the GSEs.114 Although Treasury                 and distributing payment collections
originally committed to use $50 billion in TARP funds for these programs,                   to investors in accordance with
it subsequently obligated only $45.6 billion, and in March 2013, reduced its                each mortgage loan’s governing
obligation to $38.5 billion, which includes $29.8 billion for MHA incentive                 documentation; following up
payments, $7.6 billion for the Hardest Hit Fund, and $1 billion for FHA Short               on delinquencies; and initiating
Refinance.115                                                                               foreclosures.
    Housing support programs include the following initiatives:
                                                                                            Investors: Owners of mortgage loans
•	 Home Affordable Modification Program (“HAMP” or “HAMP Tier 1”)                           or bonds backed by mortgage loans
   — HAMP is intended to use incentive payments to encourage loan servicers                 who receive interest and principal
   (“servicers”) and investors to modify eligible first-lien mortgages so that the          payments from monthly mortgage
   monthly payments of homeowners who are currently in default or generally at              payments. Servicers manage the
   imminent risk of default will be reduced to affordable and sustainable levels.116        cash flow from borrowers’ monthly
   Incentive payments for modifications to loans owned or guaranteed by the GSEs            payments and distribute them to
   are paid by the GSEs, not TARP.117 As of March 31, 2014, there were 900,967              investors according to Pooling and
   active permanent HAMP Tier 1 modifications, 469,290 of which were under                  Servicing Agreements (“PSAs”).
   TARP, with the remainder under the GSE portion of the program.118 While
   HAMP generally refers to the first-lien mortgage modification program, it also
   includes the following subprograms:
64            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                          çç Principal Reduction Alternative (“PRA”) — PRA is intended to encourage
                                                              the use of principal reduction in modifications for eligible borrowers whose
                                                              homes are worth significantly less than the remaining outstanding balances
                                                              of their first-lien mortgage loans. It provides TARP-funded incentives to
                                                              offset a portion of the principal reduction provided by the investor.119 As of
                                                              March 31, 2014, there were 120,263 (Tier 1 and Tier 2) active permanent
                                                              modifications through PRA.120
                                                          çç Home Price Decline Protection (“HPDP”) — HPDP is intended to
                                                              encourage additional investor participation and HAMP modifications in
                                                              areas with recent price declines by providing TARP-funded incentives to
                                                              offset potential losses in home values.121 As of March 31, 2014, 217,317
                                                              (Tier 1 and Tier 2) loan modifications had been started under HPDP, and
                                                              150,313 remained active.122
                                                          çç Home Affordable Unemployment Program (“UP”) — UP is intended to
                                                              offer assistance to unemployed homeowners through temporary forbearance
                                                              of all or a portion of their payments.123 As of February 28, 2014, which
                                                              according to Treasury is the most recent data available, 5,165 borrowers
                                                              were actively participating in UP.124
                                                     •	   Home Affordable Modification Program Tier 2 (“HAMP Tier 2”) — HAMP
                                                          Tier 2 is an expansion of HAMP to permit HAMP modifications on non-owner-
                                                          occupied “rental” properties, and to allow borrowers with a wider range of
                                                          debt-to-income ratios to receive modifications.125 As of March 31, 2014, 48,706
     Short Sale: Sale of a home for less
                                                          HAMP Tier 2 modifications had become permanent, of which 44,856 remained
     than the unpaid mortgage balance.
                                                          active.126 Of Tier 2 permanent modifications started, 7,395 were previously
     A borrower sells the home and the
                                                          HAMP Tier 1 permanent modifications of which 6,381 remained active.
     investor accepts the proceeds as full
                                                     •	   Home Affordable Foreclosure Alternatives (“HAFA”) — HAFA is intended
     or partial satisfaction of the unpaid
                                                          to provide incentives to servicers, investors, and borrowers to pursue short sales
     mortgage balance, thus avoiding the
                                                          and deeds-in-lieu of foreclosure for borrowers in cases in which the borrower
     foreclosure process.
                                                          is unable or unwilling to enter or sustain a modification. Under this program,
                                                          the servicer releases the lien against the property and the investor waives all
     Deed-in-Lieu of Foreclosure: Instead
                                                          rights to seek a deficiency judgment against a borrower who uses a short sale or
     of going through foreclosure, the
                                                          deed-in-lieu when the property is worth less than the outstanding amount of the
     borrower voluntarily surrenders the
                                                          mortgage.127 As of March 31, 2014, there were 154,379 short sales or deeds-in-
     deed to the home to the investor, as
                                                          lieu under HAFA.128
     satisfaction of the unpaid mortgage
                                                     •	   Second-Lien Modification Program (“2MP”) — 2MP is intended to modify
     balance.
                                                          second-lien mortgages when a corresponding first lien is modified under
                                                          HAMP by a participating servicer.129 As of March 31, 2014, 16 servicers are
                                                          participating in 2MP.130 These servicers represent approximately 55-60% of the
                                                          second-lien servicing market.131 As of March 31, 2014, there were 82,471 active
                                                          permanently modified second liens in 2MP.132
                                                     •	   Agency-Insured Programs — These programs are similar in structure to
                                                          HAMP, but apply to eligible first-lien mortgages insured by FHA or guaranteed
                                                          by the Department of Agriculture’s Office of Rural Development (“RD”) and
                                                          the Department of Veterans Affairs (“VA”).133 Treasury provides TARP-funded
                                                          incentives to encourage modifications under the FHA and RD modification
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014          65




   programs, but not for the VA modification program. As of March 31, 2014,
   there were 137 RD-HAMP active permanent modifications, 25,143 FHA-
   HAMP active permanent modifications, and 271 VA-HAMP active permanent
   modifications.134
•	 Treasury/FHA Second-Lien Program (“FHA2LP”) — In FHA2LP, Treasury
   uses TARP funds to provide incentives to servicers and investors who agree to
   principal reduction or extinguishment of second liens associated with an FHA
   refinance.135 According to Treasury, as of December 31, 2013, the program had
   expired and no second liens had been partially written down or extinguished
   under the program.136
•	 Housing Finance Agency Hardest Hit Fund (“HHF”) — A TARP-funded
   program, HHF is intended to fund foreclosure prevention programs run by state
   housing finance agencies in states hit hardest by the decrease in home prices
   and in states with high unemployment rates. Eighteen states and Washington,
   DC, received approval for aid through the program.137 As of December 31,
   2013, the latest data available, 161,783 homeowners had received assistance
   under HHF.138
•	 FHA Short Refinance Program — This program, which is partially supported                 Underwater Mortgage: Mortgage loan
   by TARP funds, is intended to provide borrowers who are current on their                 on which a homeowner owes more
   mortgage an opportunity to refinance existing underwater mortgage loans that             than the home is worth, typically as
   are not currently insured by FHA into FHA-insured mortgages with lower                   a result of a decline in the home’s
   principal balances. Treasury has provided a TARP-funded letter of credit                 value. Underwater mortgages also are
   for up to $1 billion in loss coverage on these newly originated FHA loans.139            referred to as having negative equity.
   As of March 31, 2014, 4,238 loans had been refinanced under FHA Short
   Refinance.140

Status of TARP Funds Obligated to Housing Support
Programs
Treasury initially obligated $45.6 billion to housing support programs, which was
reduced to $38.5 billion, of which $11.7 billion, or 30%, has been expended as of
March 31, 2014.141 Of that, $1.2 billion was expended in the quarter ended March
31, 2014. However, some of the expended funds remain as cash on hand or paid
for administrative expenses at state housing finance agencies (“HFAs”) participating
in the Hardest Hit Fund program. Treasury has capped the aggregate amount
available to pay servicer, borrower, and investor incentives under MHA programs at
$29.8 billion, of which $7.8 billion (26%), has been spent as of March 31, 2014.142
Treasury allocated $7.6 billion to the Hardest Hit Fund. As of March 31, 2014,
of the $7.6 billion in TARP funds available for HHF, states had drawn down $3.8
billion.143 As of December 31, 2013, the latest date for which spending analysis
is available, the states had drawn down $3.2 billion.144 As of December 31, 2013,
states had spent $2.3 billion (31%) of those funds to assist 161,783 homeowners,
spent $385.1 million (5%) for administrative expenses, and held $509.8 million
66   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            (7%) as unspent cash-on-hand.145,i,ii Treasury originally allocated $8.1 billion for
                                            FHA Short Refinance, but deobligated $7.1 billion in March 2013.146 Of the $1
                                            billion currently allocated for FHA Short Refinance, $59.3 million has been spent,
                                            which includes $50 million held in a pre-funded reserve account to pay future
                                            claims, $9.3 million spent on administrative expenses, and $47,840 spent on one
                                            refinanced mortgage that later redefaulted.147
                                                 Table 2.5 shows the breakdown in expenditures and estimated funding
                                            allocations for these housing support programs. Figure 2.2 also shows these
                                            expenditures, as a percentage of allocations.

                                            TABLE 2.5
                                             TARP ALLOCATIONS AND EXPENDITURES BY HOUSING SUPPORT PROGRAMS,
                                             AS OF 3/31/2014 ($ BILLIONS)
                                                                                                                       ALLOCATIONS                           EXPENDITURES
                                             MHA
                                                  HAMPa
                                                      First Lien Modification                                         $19.1                                       $5.4
                                                      PRA Modification                                                    2.0                                       0.6
                                                      HPDP                                                                1.6                                       0.4
                                                      UP                                                                    —   b
                                                                                                                                                                      —
                                                                                HAMP Total                            $22.7                                       $6.4
                                                  HAFA                                                                    4.2                                       0.8
                                                  2MP                                                                     0.1                                       0.6
                                                  Treasury FHA-HAMP                                                       0.2                                         —c
                                                  RD-HAMP                                                                   —d                                        —d
                                                  FHA2LP                                                                  2.7                                         —
                                                                                  MHA Total                                         $29.8                                    $7.8
                                             HHF (Drawdown by States)               e
                                                                                                                                     $7.6                                    $3.8
                                             FHA Short Refinance                                                                     $1.0  f
                                                                                                                                                                             $0.1
                                                                                  Total                                             $38.5                                  $11.7
                                             Notes: Numbers may not total due to rounding. According to Treasury, these numbers are “approximate.”
                                             a
                                               Includes HAMP Tier 1 and HAMP Tier 2.
                                             b
                                                Treasury does not allocate TARP funds to UP.
                                             c
                                               Treasury has expended $.05 billion for the Treasury FHA-HAMP program.
                                             d
                                                Treasury has allocated $0.02 billion to the RD-HAMP program. As of March 31, 2014, $144,733 has been expended for RD-HAMP.
                                             e
                                               Not all of the funds drawn down by states have been used to assist homeowners. As of December 31, 2013, HFAs had drawn down
                                                approximately $3.2 billion, and, according to the latest data available, only $2.3 billion (31%) of TARP funds allocated for HHF have
                                                gone to help 161,783 homeowners.
                                             f
                                               This amount includes up to $25 million in fees Treasury will incur for the availability and usage of the $1 billion letter of credit.

                                             Sources: Treasury, responses to SIGTARP data calls, 1/5/2012, and 4/9/2014; Treasury, Transactions Report-Housing Programs,
                                             3/27/2014; Treasury, Daily TARP Update 4/1/2014.




                                            i According
                                                       to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                              HHF programs that are anticipated to be disbursed over the duration of their participation; HFAs [states] vary as to when and how
                                              they capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                              assistance, cash-on-hand, or undrawn funds.
                                            ii States
                                                     do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                               assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                               cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                               made.
                                                                                                                         QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   67




FIGURE 2.2

                        TARP HOUSING SUPPORT FUNDS ALLOCATED AND SPENT,
                        AS OF 3/31/2014 ($ BILLIONS)
              HAMP                                                                                                  28% spent
        $22.7 billion                                                                                               ($6.4 billion)

   Hardest Hit Fund                                        50% spenta
        $7.6 billion                                       ($3.8 billion)

              HAFA                            18% spent
         $4.2 billion                         ($0.8 billion)
                                                                                                      Funds Allocated
            FHA2LP                                                                                    Funds Spent
                                      None spent
         $2.7 billion

FHA Short Refinance            6% spent
          $1 billion           ($0.1 billion)

Treasury FHA–HAMP           27% spent
         $0.2 billion       ($0.05 billion)

                        0                  $5                    $10              $15                 $20                 $25
                                          billion               billion          billion             billion             billion

                        Notes: Numbers may not total due to rounding. HAMP includes HAMP Tier 1, HAMP Tier 2, HPDP, and PRA.
                        TARP funds are not used to support the UP program, which provides forbearance of a portion of the
                        homeowner’s mortgage payment. RD-HAMP expenditures equal $144,733 as of March 31, 2014. Treasury
                        has allocated $0.1 billion for the 2MP program. As of March 31, 2014, $0.6 billion has been expended for
                        2MP. As of December 31, 2013, the FHA2LP program had expired.
                        a
                          In this figure, Hardest Hit Funds “spent” represents the amount of funds states had drawn down as of
                          March 31, 2014. Treasury requires states to return any HHF funds drawn down but unspent after
                          December 31, 2017. According to Treasury, committed program funds are funds committed to
                          homeowners who have been approved to participate in HHF programs that are anticipated to be disbursed
                          over the duration of their participation; states vary as to when and how they capture and report
                          funds as committed. HHF funds committed for homeowner assistance are recorded variously as
                          homeowner assistance, cash-on-hand, or undrawn funds.

                        Sources: Treasury, response to SIGTARP data call, 4/9/2014.



    As of March 31, 2014, Treasury had active agreements with 86 servicers.148
That compares with 145 servicers that had agreed to participate in MHA as
of October 3, 2010.149 According to Treasury, of the $29.8 billion obligated to
participating servicers under their Servicer Participation Agreements (“SPAs”),
as of March 31, 2014, only $7.8 billion (26%) has been spent, broken down as
follows: $6.4 billion had been spent on completing permanent modifications of first
liens, including HAMP Tier 1, HAMP Tier 2, PRA, and HPDP, (514,146 of which
remain active); $555.3 million had been spent under 2MP; and $773.4 million
had been spent on incentives for short sales or deeds-in-lieu of foreclosure under
HAFA.150 Of the combined amount of incentive payments, according to Treasury,
approximately $4 billion went to pay investor or lender incentives, $2.2 billion went
to pay servicer incentives, and $1.6 billion went to pay borrower incentives.151 As
of March 31, 2014, of the $7.6 billion in TARP funds available for HHF, states
had drawn down $3.8 billion.152 As of December 31, 2013, states had drawn down
$3.2 billion and, according to the latest data available, had spent $2.3 billion
(31%) of those funds to assist 161,783 homeowners, spent $385.1 million (5%)
for administrative expenses, and held $509.8 million (7%) as unspent cash-on-
hand.153 The remaining $1 billion has been obligated under FHA Short Refinance
68   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            to purchase a letter of credit to provide up to $1 billion in first loss coverage and to
                                            pay $25 million in fees for the letter of credit.154 According to Treasury, it has paid
                                            only one claim for one default on the 4,238 loans refinanced under FHA Short
                                            Refinance. However, Treasury has pre-funded a reserve account with $50 million
                                            to pay future claims and has spent $9.3 million on administrative expenses.155 Table
                                            2.6 shows the breakdown of TARP-funded expenditures related to housing support
                                            programs (not including the GSE-funded portion of HAMP).
                                                                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   69




TABLE 2.6
 BREAKDOWN OF TARP EXPENDITURES, AS OF 3/31/2014 ($ MILLIONS)
 MHA                                                                             TARP Expenditures
     HAMP
          HAMP First Lien Modification Incentives
               Servicer Incentive Payment                                            $677.0
               Servicer Current Borrower Incentive Payment                            $16.8
               Annual Servicer Incentive Payment                                  $1,134.0
               Investor Current Borrower Incentive Payment                            $68.3
               Investor Monthly Reduction Cost Share                              $2,331.0
               Annual Borrower Incentive Payment                                  $1,134.5
               Tier 2 Incentive Payments                                              $70.6
          HAMP First Lien Modification Incentives Total                                     $5,432.3
          PRA                                                                                  $643.4
          HPDP                                                                                 $353.9
          UP                                                                                          $—a
          HAMP Program Incentives Total                                                                     $6,429.7
     HAFA Incentives
          Servicer Incentive Payment                                                                      $226.1
          Investor Reimbursement                                                                          $164.3
          Borrower Relocation                                                                             $383.0
     HAFA Incentives Total                                                                                     $773.4
     Second-Lien Modification Program Incentives
          2MP Servicer Incentive Payment                                                                    $63.5
          2MP Annual Servicer Incentive Payment                                                             $33.1
          2MP Annual Borrower Incentive Payment                                                             $30.6
          2MP Investor Cost Share                                                                         $169.2
          2MP Investor Incentive                                                                          $258.9
     Second-Lien Modification Program Incentives Total                                                         $555.3
     Treasury/FHA-HAMP Incentives
               Annual Servicer Incentive Payment                                                            $27.6
               Annual Borrower Incentive Payment                                                            $25.7
     Treasury/FHA-HAMP Incentives Total                                                                          $53.3
     RD-HAMP                                                                                                           $—b
     FHA2LP                                                                                                            $—
 MHA Incentives Total                                                                                            $7,811.7
 HHF Disbursements (Drawdowns by State HFAs)                                                                     $3,803.5
 FHA Short Refinance (Loss-Coverage)                                                                                  $59.3
 Total Expenditures                                                                                             $11,674.5
 Notes: Numbers may not total due to rounding.
 a
   TARP funds are not used to support the UP program, which provides forbearance of a portion of the homeowner’s mortgage
    payment.
 b
    RD-HAMP expenditures equal $144,733 as of March 31, 2014.

 Sources: Treasury, response to SIGTARP data call, 4/9/2014.
70            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         HAMP
                                                         According to Treasury, HAMP was intended “to help as many as three to four
                                                         million financially struggling homeowners avoid foreclosure by modifying loans to
                                                         a level that is affordable for borrowers now and sustainable over the long term.”156
                                                         Although HAMP contains several subprograms, the term “HAMP” is most often
                                                         used to refer to the HAMP First-Lien Modification Program, described below.

                                                         HAMP First-Lien Modification Program
                                                         The HAMP First-Lien Modification Program, which went into effect on April
                                                         6, 2009, modifies the terms of first-lien mortgages to provide borrowers with
     Trial Modification: Under HAMP, a
                                                         lower monthly payments. A HAMP modification consists of two phases: a trial
     period of at least three months in
                                                         modification that was designed to last three months, followed by a permanent
     which a borrower is given a chance
                                                         modification. Treasury pays incentives for active TARP (non-GSE) HAMP
     to establish that he or she can make
                                                         permanent modifications for five years.157 In designing HAMP, the Administration
     lower monthly mortgage payments and
                                                         envisioned a “shared partnership” between the Government and investors to bring
     qualify for a permanent modification.
                                                         distressed borrowers’ first lien monthly payments down to an “affordable and
                                                         sustainable” level.158 The program description immediately below refers only to the
                                                         original HAMP program, which was renamed “HAMP Tier 1,” after the launch of
     For additional information about                    HAMP Tier 2.
     what happens to HAMP permanent
     modifications after five years, please
     see the discussion, “Payment Increases              HAMP Modification Statistics
     on HAMP-Modified Mortgages to                       As of March 31, 2014, a total of 900,967 mortgages were in active HAMP Tier
     Begin in 2014,” in this section.                    1 (“HAMP”) permanent modifications under both TARP (non-GSE) and GSE
                                                         HAMP. Some 31,534 were in active trial modifications. As of March 31, 2014,
                                                         for borrowers receiving permanent modifications, 95.1% received an interest rate
                                                         reduction, 64.2% received a term extension, 34.1% received principal forbearance,
                                                         and 16.7% received principal forgiveness.159 Table 2.7 shows HAMP modification
                                                         activity, broken out by TARP and GSE loans. For more detail on redefaulted
                                                         modifications over the life of HAMP, see Table 2.10 and Figure 2.4. For more
                                                         detail on HAMP modification activity, broken out by TARP and GSE loans, see
                                                         Table F.1 in Appendix F.
                                     TABLE 2.7
                                      CUMULATIVE HAMP TIER 1 MODIFICATION ACTIVITY BY TARP/GSE, AS OF 3/31/2014
                                                                                                                Trials
                                                        Trials           Trials              Trials      Converted to          Permanents          Permanents       Permanents
                                                      Started        Cancelled              Active        Permanent            Redefaulted            Paid Off          Active
                                      TARP        1,056,233            351,618             20,770               683,845             207,784                 6,771      469,290
                                      GSE         1,060,036            428,902             10,764               620,370             169,020                19,673      431,677
                                      Total      2,116,269             780,520            31,534            1,304,215              376,804                 26,444     900,967
                                      Sources: Treasury, response to SIGTARP data call, 4/25/2014; Fannie Mae, response to SIGTARP data call, 4/24/2014.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   71




   During the quarter ending March 31, 2014, 26,943 permanent modifications
were started, which is 3,216 fewer than were started in the previous quarter and
140,277 fewer than were started in the second quarter of 2010, the quarter when
the most HAMP permanent modifications were started. Figure 2.3 shows TARP
and GSE HAMP permanent modifications started, by quarter.

FIGURE 2.3

HAMP TIER 1 PERMANENT MODIFICATIONS STARTED, BY QUARTER, 2009-2014
180,000

160,000

140,000

120,000

100,000
                                                                                             26,943 HAMP permanent
 80,000                                                                                      modifications were started in
                                                                                             the quarter ended 3/31/2014.
 60,000

 40,000

 20,000

     0
           Q1    Q2   Q3    Q4   Q1    Q2   Q3    Q4    Q1   Q2     Q3   Q4   Q1   Q2   Q3   Q4   Q1    Q2   Q3    Q4     Q1
                  2009                   2010                    2011               2012                  2013           2014

          Note: Includes TARP and GSE permanent modifications.

          Sources: Treasury, “Making Home Affordable Program Performance Report,” 1/19/2010, 4/20/2010, 7/19/2010,
          10/25/2010, 1/31/2011, 5/6/2011, 8/5/2011, 11/3/2011, 2/6/2012, 5/4/2012, 8/3/2012, 11/9/2012, 2/8/2013,
          5/10/2013, 8/9/2013, and 11/8/2013; Treasury, responses to SIGTARP data calls, 2/28/2013, 1/23/2014,
          1/24/2014, and 4/25/2014; Fannie Mae, responses to SIGTARP data calls, 1/23/2014 and 4/24/2014.




Payment Increases on HAMP–Modified Mortgages to Begin in 2014
Most homeowners who received HAMP permanent mortgage modifications saw
the interest rates on their loans cut in order to reduce their monthly payments and
make their mortgages more affordable and sustainable over the long term.160 For
the HAMP permanent modifications made in 2009, interest rates will start to go up
this year, and so will the payments, in some cases eventually by as much as $1,724
per month.161
    HAMP permanent mortgage modifications lowered homeowners’ monthly
mortgage payments to 31% of their gross monthly income through a series of
steps including extending the term of the mortgage, reducing the principal
owed, or cutting the interest rate to as low as 2%.162 The terms of HAMP
permanent modifications remain fixed for five years.163 However, after five years, a
homeowner’s mortgage interest rate can increase if the modified interest rate had
been reduced below where the national average rate was for a 30-year conforming
fixed-rate mortgage on the date of the modification.164 The average interest rate
over the last five years has generally been between 3.5% and 5.4%, and most
modifications cut rates well below that benchmark.165 After five years, the interest
72   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            rate on the modified loan can step up incrementally by up to 1% per year until it
                                            reaches that benchmark.166
                                                Of the 898,262 homeowners who had active HAMP Tier 1 permanent
                                            modifications as of February 28, 2014, 88%, or 787,762 homeowners, are
                                            scheduled for these eventual interest rate and payment increases.167 That means
                                            just 110,500 homeowners, or 12%, will not experience payment increases.168
                                            Among homeowners scheduled to have mortgage interest rate and payment
                                            increases, the median interest rate for these loans was 6.4% before modification;
                                            the median monthly payment was $1,422.169 HAMP permanent modifications
                                            reduced the median interest rate for these homeowners’ loans to 2% and the
                                            median monthly payment to $773.170 The scheduled payment increases will cause
                                            the median interest rate to rise to 4.5% and the median payment to increase to
                                            $990.171 The median rate increase will be 2.23% and the median payment increase
                                            will be $197.172 Some homeowners could eventually see their mortgage interest
                                            rates increase to as much as 5.4%; for some, payments eventually could increase by
                                            $1,724 per month; and after all payment increases, the highest mortgage payment
                                            any homeowner would pay per month would be $8,273.173 (SIGTARP’s rate and
                                            payment analysis excludes 70,860 HAMP permanent modifications that are
                                            scheduled to adjust but for which records are incomplete.)
                                                Table 2.8 shows before-modification, after-modification, and after all
                                            modification increases, median interest rates, interest rate increases, payments, and
                                            payment increases for homeowners who face interest rate and payment increases
                                            on HAMP mortgage modifications, by year. For more detail, see Table F.2 in
                                            Appendix F.
                                                                                                                         QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014       73




TABLE 2.8
 HAMP TIER 1 PERMANENT MODIFICATIONS WITH SCHEDULED PAYMENT INCREASES BY YEAR, AS OF
 2/28/2014
                                                Permanent                                                      Interest Ratea                    Monthly Paymenta
                                               Modifications
                                                        with
                         Total Active            Scheduled
   Year                   Permanent                Payment                                                                      Median                              Median
  Modified              Modifications             Increases               Modification Status                Median           Increase            Median          Increase
                                                                             Before Modification               6.50%                   —          $1,438               $—
    2009                         34,438                 32,111                 After Modification              2.00%                   —               769              —
                                                                              After All Increases             4.94%              2.78%             1,030               244
                                                                             Before Modification               6.50%                   —            1,450               —
    2010                        311,680                289,010                 After Modification              2.00%                  -—               788              —
                                                                              After All Increases             4.98%              2.58%             1,042               238
                                                                             Before Modification               6.38%                   —            1,436               —
    2011                        239,611                212,106                 After Modification              2.00%                   —               807              —
                                                                              After All Increases             4.60%              2.35%             1,042               218
                                                                             Before Modification               6.25%                   —            1,420               —
    2012                        160,284                129,009                 After Modification              2.00%                   —               747              —
                                                                              After All Increases             3.66%              1.59%                898              140
                                                                             Before Modification               6.06%                   —            1,347               —
    2013                        131,239                107,688                 After Modification              2.00%                   —               714              —
                                                                              After All Increases             3.81%              1.57%                876              147
                                                                             Before Modification               6.00%                                1,278                 
    2014                         21,010                 17,838                 After Modification              2.00%                                   706                
                                                                              After All Increases             4.37%              2.37%                901              180
                                                                             Before Modification               6.38%                                1,422               —
  All Years                     898,262                787,762                 After Modification              2.00%                                   773              —
                                                                              After All Increases             4.51%              2.23%                990              197
 Notes:
 a
   Analysis of HAMP permanent modifications with scheduled interest rate and payment increases excludes 70,860 HAMP permanent modifications with incomplete records.

 Source: SIGTARP analysis of Treasury HAMP data.
74   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Homeowners in All States Will Be Affected by Payment Increases
                                            Four states account for half of homeowners with active HAMP permanent
                                            modifications that are scheduled for interest rate and payment increases:
                                            California, Florida, New York, and Illinois.174 Homeowners in 11 jurisdictions
                                            face mortgage payment increases that are more than the $197 national median:
                                            California, Hawaii, Maryland, Massachusetts, Nevada, New Jersey, New York,
                                            Virginia, Utah, Washington, and Washington, DC.175 While 88% of homeowners
                                            nationally with HAMP-modified mortgages face scheduled interest rate and
                                            payment increases, that percentage is even higher in 18 jurisdictions: Arizona,
                                            California, Connecticut, Guam, Hawaii, Illinois, Maine, Massachusetts,
                                            Minnesota, Nevada, New Jersey, New York, Oregon, Puerto Rico, Rhode Island,
                                            the Virgin Islands, Washington, and Washington, DC.176 Table 2.9 shows, as of
                                            February 28, 2014, all active HAMP permanent modifications with scheduled
                                            monthly mortgage payment increases, by state.
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   75




TABLE 2.9
 HAMP TIER 1 PERMANENT MODIFICATIONS WITH SCHEDULED PAYMENT INCREASES,
 AS OF 2/28/2014
                                                                     Percentage         Median
                                  Total Active Permanent    of Active Permanent       Payment            Maximum
                   Total Active        Modifications With     Modifications With      Increase            Payment
                    Permanent        Scheduled Payment      Scheduled Payment          After All   Increase After
 State            Modifications                 Increases               Increase    Increasesa      All Increasesa
 Alabama                 4,802                     3,604                    75%            $95              $928
 Alaska                    405                       326                    80%            174                809
 Arizona                33,342                    29,414                    88%            186              1,208
 Arkansas                1,820                     1,468                    81%              97               789
 California            235,323                  214,610                     91%            299              1,724
 Colorado               12,519                    10,826                    86%            171              1,094
 Connecticut            11,633                    10,215                    88%            190              1,237
 Delaware                2,624                     2,226                    85%            170                834
 Florida               111,625                    97,737                    88%            162              1,168
 Georgia                31,593                    26,349                    83%            134              1,061
 Guam                        7                         7                  100%               53               173
 Hawaii                  3,562                     3,265                    92%            357              1,230
 Idaho                   3,323                     2,809                    85%            160                894
 Illinois               46,156                    40,858                    89%            174              1,072
 Indiana                 8,110                     6,321                    78%              94             1,022
 Iowa                    1,970                     1,603                    81%              91               626
 Kansas                  2,036                     1,652                    81%            103              1,042
 Kentucky                3,194                     2,562                    80%              92               865
 Louisiana               4,847                     3,806                    79%            102                793
 Maine                   2,434                     2,143                    88%            143                789
 Maryland               28,161                    24,641                    88%            242              1,174
 Massachusetts          21,208                    19,140                    90%            233              1,064
 Michigan               25,647                    21,854                    85%            121              1,273
 Minnesota              13,542                    11,879                    88%            172              1,117
 Mississippi             2,927                     2,155                    74%              87               730
 Missouri                8,433                     6,729                    80%            105                889
 Montana                 1,040                       870                    84%            170              1,074
 Nebraska                1,133                       913                    81%              88               632
 Nevada                 19,109                    17,064                    89%            212              1,042
 New Hampshire           3,879                     3,379                    87%            180                806
 New Jersey             29,071                    26,321                    91%            234              1,100
 New Mexico              3,066                     2,530                    83%            140                913
 New York               47,095                    43,474                    92%            289              1,507
                                                                                          Continued on next page
76   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                HAMP  TIER 1 PERMANENT MODIFICATIONS WITH SCHEDULED PAYMENT INCREASES,
                AS OF 2/28/2014 (CONTINUED)
                                                                                                                        Percentage                     Median
                                                                           Total Active Permanent              of Active Permanent                   Payment                Maximum
                                                      Total Active              Modifications With               Modifications With                  Increase                Payment
                                                       Permanent              Scheduled Payment                Scheduled Payment                      After All       Increase After
                State                                Modifications                       Increases                         Increase                Increasesa          All Increasesa
                North Carolina                                15,697                              12,936                              82%                  $115                 $1,060
                North Dakota                                      132                                 110                             83%                    108                     560
                Ohio                                          18,196                              15,100                              83%                     98                     886
                Oklahoma                                        2,021                              1,568                              78%                     83                     784
                Oregon                                        10,145                               9,032                              89%                    192                  1,052
                Pennsylvania                                  18,316                              15,201                              83%                    129                     890
                Puerto Rico                                     3,173                              2,967                              94%                     94                     982
                Rhode Island                                    4,276                              3,844                              90%                    193                     905
                South Carolina                                  7,981                              6,439                              81%                    117                  1,105
                South Dakota                                      293                                 244                             83%                    120                     836
                Tennessee                                       8,593                              6,687                              78%                     96                  1,075
                Texas                                         23,892                              18,830                              79%                     97                  1,169
                Utah                                            7,682                              6,616                              86%                    197                  1,023
                Vermont                                           788                                 681                             86%                    148                     853
                Virgin Islands                                        7                                  7                          100%                     183                     549
                Virginia                                      20,950                              18,213                              87%                    227                  1,118
                Washington                                    19,287                              17,185                              89%                    220                  1,155
                Washington, DC                                  1,537                              1,357                              88%                    254                  1,096
                West Virginia                                   1,160                                 941                             81%                    123                     569
                Wisconsin                                       8,097                              6,740                              83%                    124                     968
                Wyoming                                           403                                 314                             78%                    166                     829
                Total                                      898,262                             787,762                               88%                  $197                 $1,724
                a
                    Analysis of HAMP permanent modifications with scheduled interest rate and payment increases excludes 70,860 HAMP permanent modifications with incomplete records.

                Source: SIGTARP analysis of Treasury HAMP data.
                                                                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014           77




Homeowners Who Have Redefaulted on HAMP Permanent
Modifications or Are at Risk of Redefaultingiii                                                                                                  Cumulative Redefault Rate: The
As of March 31, 2014, HAMP has helped more than 900,967 homeowners avoid                                                                         total number of HAMP permanent
foreclosure through permanent mortgage modifications, but another 376,804                                                                        modifications that have redefaulted
homeowners (or 29%) fell three months behind in payments and, thus, redefaulted                                                                  (as of a specific date) divided by the
out of the program – often into a less advantageous private sector modification                                                                  total number of HAMP permanent
or even worse, into foreclosure.177 This percentage (cumulative redefault rate)                                                                  modifications started (as of the same
includes all homeowners who received HAMP permanent modifications since                                                                          specific date).
the start of the program. As of March 31, 2014, taxpayers lost $1.2 billion in
TARP funds paid to servicers and investors as incentives for 207,784 homeowners
who received TARP (non-GSE) HAMP permanent modifications and later                                                                               For more on homeowners who have
redefaulted.178 Also, as of February 28, 2014, the latest data available, 94,554                                                                 redefaulted on HAMP permanent
(11% of active HAMP permanent modifications) had missed one to two monthly                                                                       mortgages or are at risk of defaulting,
mortgage payments and, thus, are at risk of redefaulting out of the program.179                                                                  see SIGTARP’s July 2013 Quarterly
                                                                                                                                                 Report, pages 161-184.
    The longer a homeowner remains in HAMP, the more likely he or she is
to redefault out of the program, with homeowners redefaulting on the oldest
HAMP permanent modifications at a rate of 50.4%.iv As of February 28, 2014, the
latest data provided by Treasury, redefault rates of HAMP permanent mortgage
modifications that had been started in each year, since 2009, continued to increase
as the modifications age. Nearly half of all homeowners who received a HAMP
permanent modification received it in 2009 and 2010.180 As of February 28, 2014,
the latest data provided by Treasury, homeowners who received HAMP permanent
modifications in 2009 redefaulted at rates ranging from 44.3% to 50.4%.181 As of
February 28, 2014, the latest data provided by Treasury, homeowners who received
HAMP permanent modifications in 2010 redefaulted at rates ranging from 35.4%
to 42.9%.182
    Homeowners who redefaulted fell out of the HAMP program, and their
HAMP permanent modification was not sustainable. Once again, they risked
losing their homes and some may have lost their homes. Treasury reported that
of the homeowners with redefaulted loans reported by twenty-one servicers
that participated in a survey, as of February 28, 2014, the latest data provided
by Treasury, 28% of homeowners who redefaulted received an alternative
modification, usually a private sector modification, 23% of homeowners moved into
the foreclosure process, and 11% of homeowners lost their home via a short sale or
deed-in-lieu of foreclosure.183
    Since HAMP’s inception in 2009, the cumulative redefault rate for
homeowners who received permanent modifications has risen each year—from
1% at the end of 2009 to 29% at the end of the first quarter of 2014.184 Table
2.10 provides detail on the annual and cumulative number and percentage of
homeowners who received HAMP permanent modifications and have redefaulted
over the life of HAMP. Figure 2.4 provides detail on the status (active and



iii In this section, “HAMP” refers to the original HAMP First-Lien Modification Program, which Treasury later named HAMP Tier 1.
iv Treasury’s calculation of redefault rates may exclude some modifications due to missing or invalid data.
78   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                        redefaulted) over time of homeowners’ HAMP permanent modifications by the year
                                        they originated.

                                        TABLE 2.10
                                         HAMP TIER 1 PERMANENT MODIFICATION REDEFAULT ACTIVITY, AS OF 3/31/2014
                                                                               Permanents Started                          Permanents Redefaulted
                                                                                                                                                    Redefault Rate
                                                                                  Annual      Cumulative              Annual      Cumulative           Cumulative
                                                          2009                    23,633            23,633                129               129                     1%
                                                          2010                  243,262           266,895             29,015            29,144                     11%
                                                          2011                  185,254           452,149             59,080            88,224                     20%
                                         TARP             2012                  114,745           566,894             58,860          147,084                      26%
                                                          2013                    98,423          665,317             49,413          196,497                      30%
                                                          2014                    18,528          683,845             11,287          207,784                      30%
                                                          Total                683,845                             207,784
                                                          2009                    43,305            43,305                339               339                     1%
                                                          2010                  269,450           312,755             27,730            28,069                      9%
                                                          2011                  168,423           481,178             51,287            79,356                     16%
                                         GSE              2012                    87,280          568,458             49,229          128,585                      23%
                                                          2013                    43,497          611,955             33,990          162,575                      27%
                                                          2014                     8,415          620,370              6,445          169,020                      27%
                                                          Total                620,370                             169,020
                                                          2009                    66,938            66,938                468               468                     1%
                                                          2010                  512,712           579,650             56,745            57,213                     10%
                                                          2011                  353,677           933,327           110,367           167,580                      18%
                                         Total            2012                  202,025         1,135,352           108,089           275,669                      24%
                                                          2013                  141,920         1,277,272             83,403          359,072                      28%
                                                          2014                    26,943        1,304,215             17,732          376,804                      29%
                                                          Total              1,304,215                             376,804
                                         Notes: Data is as of December 31, 2009; December 31, 2010; December 31, 2011; December 31, 2012; December 31, 2013 and
                                         March 31, 2014.

                                         Sources: Treasury responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, 7/19/2013, 10/21/2013,
                                         10/23/2013, 1/23/2014, 1/24/2014 and 4/25/2014; Fannie Mae, responses to SIGTARP data calls 10/21/2013, 1/23/2014 and
                                         4/24/2014; SIGTARP Quarterly Report to Congress, 1/30/2010; SIGTARP Quarterly Report to Congress, 1/26/2011; SIGTARP Quarterly
                                         Report to Congress, 1/26/2012; SIGTARP Quarterly Report to Congress, 1/30/2013.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   79




FIGURE 2.4

ACTIVE AND REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY YEAR OF
MODIFICATION, STATUS AS OF 12/31/2009 - 3/31/2014
600,000



500,000



400,000



300,000



200,000



100,000



     0

          As of 12/31/2009   As of 12/31/2010    As of 12/31/2011      As of 12/31/2012     As of 12/31/2013     As of 3/31/2014

      Modification Year       2009        2010       2011        2012        2013        2014
      Redefaulted
      Active

      Notes: According to Treasury and Fannie Mae, reporting by HAMP permanent modification effective date did not exist until
      January 2011. Because of reporting schedules, some of the HAMP permanent modification activity reported in any year may
      include some modifications with effective dates in the following year. Data excludes all HAMP permanent modifications started
      but paid off (26,444 HAMP permanent modifications had been paid off as of 3/31/2014).

      Sources: Treasury, responses to SIGTARP data calls, 1/23/2014, 1/24/2014, and 4/25/2014; Fannie Mae, responses to
      SIGTARP data calls, 1/23/2014 and 4/24/2014; SIGTARP analysis of Treasury HAMP data.


Servicer Redefault Rates
As of March 31, 2014, of 1,172,252 homeowners’ HAMP permanent modifications
currently serviced by 10 of the largest servicers, 322,923, or 28%, subsequently
redefaulted, and three servicers account for more than half of these homeowners’
HAMP permanent modifications that redefaulted: Ocwen Loan Servicing, LLC,
with 84,045 homeowners’ permanent modifications redefaulted; Wells Fargo
Bank, N.A., with 46,371 homeowners’ permanent modifications redefaulted, and
JPMorgan Chase Bank, NA, with 45,143 homeowners’ permanent modifications
redefaulted.185 Of these 10 servicers participating in HAMP, the three servicers
with the highest percentage of homeowners’ HAMP permanent modifications made
that redefaulted were Select Portfolio Servicing, Inc. with 41% of homeowners’
permanent modifications redefaulted; Bank of America, N.A., with 31% of
homeowners’ permanent modifications redefaulted; and Ocwen Loan Servicing,
LLC, with 31% of homeowners’ permanent modifications redefaulted, as compared
with the average for the 10 of 28%.186 Table 2.11 provides data on homeowners’
HAMP permanent modifications by servicers participating in HAMP and currently
servicing the modifications listed.
80   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TABLE 2.11
                                             HOMEOWNERS’ HAMP PERMANENT MODIFICATIONS AND REDEFAULTS
                                             CURRENTLY WITHIN SERVICERS’ PORTFOLIOS, BY SERVICER, AS OF
                                             3/31/2014
                                                                                                                                                                     Percentage
                                                                                                                                    Permanent                      of Permanent
                                                                                                     Permanent                    Modifications                    Modifications
                                                                                                    Modifications                  Redefaulted                      Redefaulted
                                             Ocwen Loan Servicing, LLCa                                     273,869                         84,045                               31%
                                             Wells Fargo Bank, N.A.         b
                                                                                                            192,023                         46,371                               24%
                                             JPMorgan Chase Bank, N.A.c                                     191,438                         45,143                               24%
                                             Nationstar Mortgage LLC                                        129,965                         33,845                               26%
                                             Bank of America, N.A.         d
                                                                                                            106,388                         33,501                               31%
                                             Select Portfolio Servicing, Inc.                                 68,325                        27,883                               41%
                                             Seterus Incorporated                                             59,131                        16,573                               28%
                                             CitiMortgage Inc                                                 64,826                        15,443                               24%
                                             Green Tree Servicing LLC                                         65,318                        14,249                               22%
                                             U.S. Bank National Association                                   20,969                          5,870                              28%
                                             Other                                                          180,669                         57,571                               32%
                                             Total                                                      1,352,921                        380,494                                 28%
                                             Notes: HAMP include HAMP Tier 1 and Tier 2 modifications, including those that received assistance under the Home Price Decline
                                             Protection (“HPDP”) and Principal Reduction Alternative (“PRA”) programs. Includes both TARP and GSE modifications. Includes
                                             modifications listed by the current servicer of the loan.
                                             a
                                               Ocwen Loan Servicing, LLC includes the former Litton Loan Servicing, LLC, GMAC Mortgage, LLC, and Homeward Residential.
                                             b
                                               Wells Fargo Bank, N.A. includes Wachovia Bank, NA and Wachovia Mortgage, FSB.
                                             c
                                               JPMorgan Chase Bank, N.A. includes EMC Mortgage Corporation.
                                             d
                                               Bank of America includes the former BAC Home Loans Servicing LP, Home Loan Services, and Wilshire Credit Corporation.

                                             Sources: Treasury, response to SIGTARP data call, 4/25/2014; Fannie Mae, response to SIGTARP data call, 4/24/2014.



                                            Redefaults: Impact on Taxpayers Funding TARP
                                            Taxpayers have lost more than $1.2 billion in TARP funds paid to servicers and
                                            investors as incentives for 207,784 homeowners’ non-GSE, HAMP (Tier 1)
                                            permanent mortgage modifications that redefaulted.187 As of March 31, 2014,
                                            Treasury has distributed $6.3 billion in TARP funds for 683,845 homeowners’
                                            non-GSE, HAMP (Tier 1) permanent modifications.188 According to Treasury,
                                            $3.4 billion of that was designated for investor incentives, $1.8 billion for servicer
                                            incentives, and $1.1 billion for homeowner incentives.189 (Homeowner incentives
                                            are paid to servicers that, in turn, apply the payment to a homeowner’s mortgage).
                                            According to Treasury, 19% of those funds were paid for incentives on homeowners’
                                            HAMP permanent modifications that later redefaulted.190
                                                More than half of TARP funds that Treasury spent for HAMP permanent
                                            modifications that redefaulted were for mortgages currently serviced by three
                                            servicers, Ocwen Loan Servicing, LLC, Wells Fargo Bank, N.A., and Select
                                            Portfolio Servicing, Inc. (listed in Table 2.12).191,v Almost all (90%) of TARP

                                            v Total incentive payments by the current status of the permanent modification (active, redefaulted, or paid off) is broken out in the table
                                               by the current servicer of the loan. The incentive payment totals may not tie to the actual amount paid to the servicer as servicing
                                               transfers are not taken into account when the current servicer on the loan is used.
                                                                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014          81




funds Treasury spent for HAMP permanent modifications that redefaulted were
for mortgages currently serviced by 10 servicers (listed in Table 2.12).192 Table
2.12 shows payments for homeowners’ HAMP permanent modifications (active,
redefaulted, and paid off mortgages) that are currently within servicers’ portfolios.

TABLE 2.12
 TARP INCENTIVE PAYMENTS ON HOMEOWNERS’ HAMP PERMANENT MODIFICATIONS CURRENTLY WITHIN
 SERVICERS’ PORTFOLIOS, AS OF 3/31/2014
                                                                                                              TARP                                         Percentage of Total
                                            TARP Incentive                TARP Incentive                  Incentive                 Total TARP                 TARP Incentive
                                             Payments for                  Payments for               Payments for                    Incentive                 Payments for
                                              Permanents                    Permanents                 Permanents                Payments for                     Permanents
 Servicer Name                                      Active                  Redefaulted                    Paid Off             Permanents All                    Redefaulted 
 Ocwen Loan Servicing,
                                            $1,470,979,316                  $374,156,452                 $9,455,392             $1,854,591,159                                    20%
 LLC
 Select Portfolio Servicing,
                                                340,325,340                  151,857,902                   4,494,760                 496,678,001                                  31%
 Inc.
 Wells Fargo Bank, N.A.                         829,091,450                  151,802,182                   8,574,638                 989,468,270                                  15%
 JPMorgan Chase Bank, NA                        878,251,104                  132,890,381                   7,048,687              1,018,190,172                                   13%
 Bank of America, N.A.                          520,999,757                    98,153,424                  5,908,853                 625,062,033                                  16%
 Nationstar Mortgage LLC                        371,902,985                    72,965,480                  2,401,432                 447,269,897                                  16%
 CitiMortgage Inc                               191,651,447                    35,431,394                  3,591,539                 230,674,380                                  15%
 Specialized Loan Servicing
                                                  29,052,952                   23,880,321                     537,023                 53,470,295                                  45%
 LLC
 Carrington Mortgage
                                                  44,145,160                   19,612,586                     471,926                 64,229,672                                  31%
 Services, LLC.
 Bayview Loan Servicing
                                                  78,529,737                   18,954,103                     810,038                 98,293,878                                  19%
 LLC
 Other                                          328,070,862                  115,640,766                 15,786,917                  459,498,544                                  25%
 Total                                    $5,083,000,110               $1,195,344,989                 $59,081,203             $6,337,426,302                                      19%
 Notes: Total incentive payments by the current status of the permanent modification (active, redefaulted, or paid off) is broken out in the table by the current servicer of the loan.
 The incentive payment totals may not tie to the actual amount paid to the servicer as servicing transfers are not taken into account when the current servicer on the loan is used.
 Totals shown here exclude payments and/or drafts performed for modifications that are not currently Permanent Modifications. Totals shown here include payments under the
 HAMP Tier 1, Home Price Decline Protection (“HPDP”) and Principal Reduction Alternative (“PRA”) programs tied to these loans.

 Sources: Treasury, response to SIGTARP data call, 4/9/2014.
82   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Redefaults: Impact on States
                                            Homeowners are redefaulting throughout the nation. While the cumulative
                                            number of homeowners’ HAMP permanent modifications in certain states may not
                                            be high, some states with a relatively small number of modifications have redefault
                                            rates of 30% or more.193 For example, only 5,009 homeowners from Mississippi
                                            received HAMP permanent modifications, but these homeowners have redefaulted
                                            at a rate of 39%. Meanwhile, some states with the highest number of homeowners
                                            who have redefaulted have the lowest redefault rates. For example, California,
                                            which has the most homeowners in permanent modifications, has the highest
                                            number of homeowners who redefaulted on HAMP permanent modifications,
                                            69,681, but has one of the lowest redefault rates, 22%. (Only Guam, Puerto Rico,
                                            and the Virgin Islands have lower rates.) Florida, Illinois, and New York have the
                                            next highest number of homeowners who redefaulted, at 46,005, 22,184, and
                                            17,499, respectively. After Mississippi, in Tennessee, Alabama, and Louisiana
                                            homeowners have redefaulted at a rate of 37%. Tables 2.13-2.19 and Figure 2.5
                                            show regional and state breakdowns of the number of homeowners with HAMP
                                            permanent modifications, the number of homeowners with active permanent
                                            modifications, the number who have redefaulted on modifications, and the
                                            redefault rates.
                                                                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   83




TABLE 2.13
 REDEFAULTED HOMEOWNERS’ HAMP PERMANENT MODIFICATIONS, BY
 REGION, CUMULATIVE AS OF 3/31/2014
                                       Permanent                         Active                Redefaulted
                                      Modifications               Modifications               Modifications           Redefault Rate
 West                                         358,070                   269,266                         82,671                    23%
 Mountain West/ Plains                             71,227                   47,748                      21,268                    30%
 Southwest/ South Central                     106,450                       69,095                      34,340                    32%
 Midwest                                      203,647                   133,438                         65,642                    32%
 Mid-Atlantic/ Northeast                      287,720                   194,145                         88,205                    31%
 Southeast                                    277,101                   187,275                         84,678                    31%
 TOTAL                                    1,304,215                    900,967                      376,804                       29%
 Notes: Includes GSE and non-GSE modifications. Of HAMP permanent modifications, 26,444 loans have been paid off.

 Source: Treasury, response to SIGTARP data call, 4/25/2014.


FIGURE 2.5
REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY REGION, CUMULATIVE
AS OF 3/31/2014

     AK
                                         MOUNTAIN WEST/
                                             PLAINS
                                             21,268                                      MIDWEST                           MID-ATLANTIC/
                            WA                                                            65,642                            NORTHEAST
                                                                                                                VT    ME
                                              MT        ND                                                                    88,205
                       OR                                              MN                                                 NH
                                                                                  WI                           NY
     WEST                           ID                      SD                                                             MA
                                                                                          MI
    82,671
                                              WY
                                                                        IA                                               CT RI
                                                                                               OH         PA            NJ
                                                            NE
                              NV                                                   IL    IN                            DE
                      CA                 UT                                                             WV VA        MD
                                                   CO                   MO
                                                                 KS                           KY                    DC
               HI                                                                                        NC
                                                                                         TN
                                     AZ                           OK        AR                           SC
                                                   NM
     GU                                                                                MS AL       GA           SOUTHEAST
                                                             TX              LA                                   84,678

                                                                                                         FL           PR    VI
                                     SOUTHWEST/
                                    SOUTH CENTRAL
                                        34,340

                WEST                                                              MIDWEST
                MOUNTAIN WEST/PLAINS                                              MID-ATLANTIC/NORTHEAST
                SOUTHWEST/SOUTH CENTRAL                                           SOUTHEAST
84   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      West
      TABLE 2.14
       REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 3/31/2014
                                                                           Permanent                        Active                Redefaulted
                                                                          Modifications              Modifications               Modifications           Redefault Rate
                                                  WA         AK                        621                         405                         178                 29%
                                                             CA                  310,460                     235,793                      69,681                   22%
                  AK
                                             OR              GU                          10                           7                           2                20%
                                                             HI                      4,892                      3,571                       1,178                  24%
                                                             OR                    14,398                     10,161                        3,863                  27%
                                                             WA                    27,689                     19,329                        7,769                  28%
                         GU
                                             CA              Total              358,070                     269,266                       82,671                  23%
                                                             Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                              HI                             Source: Treasury, response to SIGTARP data call, 4/25/2014.



              WEST                                >27%
              Percentage of Redefaults            25-27%
              on HAMP Permanent                   <25%
              Modifications


      Mountain West/Plains
      TABLE 2.15
       REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 3/31/2014
                                                                           Permanent                        Active                Redefaulted
                                                                          Modifications              Modifications               Modifications           Redefault Rate

                                   MT                        CO                    17,546                     12,544                        4,305                  25%
                                              ND
                                                             ID                      4,850                      3,325                       1,367                  28%
                    ID                        SD             KS                      3,276                      2,050                       1,102                  34%
                                    WY
                                                             MT                      1,468                      1,033                          362                 25%
                                                  NE
             NV                                              ND                        209                         133                           57                27%
                         UT
                                        CO                   NE                      1,896                      1,137                          658                 35%
                                                       KS
                                                             NV                    29,712                     19,149                      10,064                   34%
                                                             SD                        483                         294                         152                 31%
            MOUNTAIN WEST/                          >27%
                                                    25-27%
            PLAINS                                  <25%
                                                             UT                    11,154                       7,684                       3,015                  27%
            Percentage of Redefaults on
            HAMP Permanent Modifications
                                                             WY                        633                         399                         186                 29%
                                                             Total                71,227                      47,748                      21,268                  30%
                                                             Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                             Source: Treasury, response to SIGTARP data call, 4/25/2014.
                                                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014           85




Southwest/South Central
TABLE 2.16
 REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 3/31/2014
                                                                       Permanent                        Active                Redefaulted
                                                                      Modifications              Modifications               Modifications           Redefault Rate

     AZ                               OK                 AR                      3,011                      1,831                       1,053                  35%
               NM                                  AR
                                                         AZ                    50,949                     33,331                      16,302                   32%
                                                   LA    LA                      7,999                      4,852                       2,946                  37%
                                 TX
                                                         NM                      4,493                      3,083                       1,280                  28%
                                                         OK                      3,304                      2,024                       1,151                  35%
                                                         TX                    36,694                     23,974                      11,608                   32%
      SOUTHWEST/                                >27%     Total              106,450                       69,095                      34,340                  32%
                                                25-27%
      SOUTH CENTRAL                             <25%     Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.
      Percentage of Redefaults
      on HAMP Permanent                                  Source: Treasury, response to SIGTARP data call, 4/25/2014.
      Modifications



Midwest
TABLE 2.17
 REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 3/31/2014
                                                                       Permanent                        Active                Redefaulted
                                                                      Modifications              Modifications               Modifications           Redefault Rate
                                                         IA                      3,337                      1,973                       1,212                  36%
             MN
                       WI                                IL                    69,348                     46,229                      22,184                   32%
                                      MI                 IN                    12,777                       8,122                       4,314                  34%
               IA
                                                         KY                      5,148                      3,195                       1,787                  35%
                            IL   IN        OH
                                                         MI                    37,933                     25,634                      11,232                   30%
                  MO
                                       KY                MN                    20,490                     13,537                        6,412                  31%
                                                         MO                    13,719                       8,436                       4,900                  36%
       MIDWEST                              >27%
                                                         OH                    27,943                     18,224                        9,096                  33%
       Percentage of Redefaults             25-27%
       on HAMP Permanent                    <25%         WI                    12,952                       8,088                       4,505                  35%
       Modifications
                                                         Total              203,647                     133,438                       65,642                  32%
                                                         Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                         Source: Treasury, response to SIGTARP data call, 4/25/2014.
86   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      Mid-Atlantic/Northeast
      TABLE 2.18
       REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 3/31/2014
                                                                             Permanent                        Active                Redefaulted
                                                                            Modifications              Modifications               Modifications           Redefault Rate
                                    VT    ME                   CT                    17,657                     11,704                        5,690                  32%

                                               NH              DC                      2,254                      1,535                          650                 29%
                               NY               MA             DE                      4,213                      2,624                       1,514                  36%
                                                     RI
                                          CT
                          PA             NJ                    MA                    31,445                     21,271                        9,510                  30%
                                        DE                     MD                    42,210                     28,262                      13,182                   31%
                    WV VA
                    WV                MD
                                     DC                        ME                      3,904                      2,452                       1,344                  34%
                                                               NH                      6,050                      3,897                       1,979                  33%
                                                               NJ                    45,249                     29,281                      15,262                   34%
             MID-ATLANTIC/                       >27%
                                                 25-27%        NY                    65,881                     47,463                      17,499                   27%
             NORTHEAST                           <25%
             Percentage of                                     PA                    29,257                     18,436                      10,154                   35%
             Redefaults on HAMP
             Permanent Modifications                           RI                      6,512                      4,308                       2,103                  32%
                                                               VA                    30,077                     20,952                        8,372                  28%
                                                               VT                      1,191                         796                         346                 29%
                                                               WV                      1,820                      1,164                          600                 33%
                                                               Total              287,720                     194,145                       88,205                  31%
                                                               Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                               Source: Treasury, response to SIGTARP data call, 4/25/2014.



      Southeast
      TABLE 2.19
       REDEFAULTED HAMP PERMANENT MODIFICATIONS, BY STATE, CUMULATIVE AS OF 3/31/2014
                                                                             Permanent                        Active                Redefaulted
                                                                            Modifications              Modifications               Modifications           Redefault Rate
                                         NC                    AL                      7,964                      4,828                       2,910                  37%
                    TN
                                     SC                        FL                  160,721                     112,296                      46,005                   29%
               MS    AL        GA                              GA                    47,880                     31,638                      15,362                   32%
                                                     PR
                                                               MS                      5,009                      2,926                       1,958                  39%
                                                          VI
                                                               NC                    24,641                     15,769                        8,208                  33%
                                         FL
                                                               PR                      4,079                      3,180                          817                 20%
                                                               SC                    12,575                       8,011                       4,221                  34%
              SOUTHEAST                         >27%
              Percentage of                     25-27%         TN                    14,225                       8,620                       5,197                  37%
              Redefaults on HAMP                <25%
                                                               VI                            7                          7                          —                  0%
              Permanent Modifications
                                                               Region             277,101                     187,275                       84,678                  31%
                                                               Notes: Includes GSE and non-GSE modifications, excludes permanent modifications paid off.

                                                               Source: Treasury, response to SIGTARP data call, 4/25/2014.
                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014         87




Starting a HAMP Tier 1 Modification
Borrowers may request participation in HAMP.194 Borrowers who have missed two
or more payments must be solicited for participation by their servicers.195 Before
offering the borrower a trial modification, also known as a trial period plan (“TPP”),
the servicer must verify the accuracy of the borrower’s income and other eligibility
criteria. In order to verify the borrower’s eligibility for a modification under the
program, borrowers must submit the following documents as part of an “initial
package.”196

•	 an MHA “request for mortgage assistance” (“RMA”) form, which provides the                     For more information on the RMA
                                                                                                 form and what constitutes hardship,
   servicer with the borrower’s financial information, including the cause of the
                                                                                                 see SIGTARP’s April 2011 Quarterly
   borrower’s hardship;                                                                          Report, page 62.
•	 signed and completed requests for Federal tax return transcripts or the most
   recent Federal income tax return, including all schedules and forms;                          For more information on the
•	 income verification documentation, such as recent pay stubs or evidence of                    Verification Policy, see SIGTARP’s
                                                                                                 April 2011 Quarterly Report, page 63.
   other sources of income; and
•	 Dodd-Frank certification (either as part of the RMA form or as a standalone                   For more about the HAMP NPV test,
   document) that the borrower has not been convicted in the past 10 years of any                see the June 18, 2012, SIGTARP
   of the following in connection with a mortgage or real estate transaction: felony             audit report “The NPV Test’s Impact
   larceny, theft, fraud, or forgery; money laundering, or tax evasion.                          on HAMP.”


    In order for a loan to be eligible for a HAMP modification, the borrower’s initial
package, consisting of the four documents described above, must be submitted by
the borrower on or before December 31, 2015. Additionally, in order to be eligible
for incentive payments, the permanent modification must be effective on or before
September 2016.197
    Participating servicers verify monthly gross income for the borrower and the
borrower’s household, as well as other eligibility criteria.198 Then, in the case of
HAMP Tier 1, the servicer follows the “waterfall” of modification steps prescribed
by HAMP guidelines to calculate the reduction in the borrower’s monthly mortgage
payment needed to achieve a 31% debt-to-income (“DTI”) ratio, that is, a payment
equal to 31% of his or her monthly gross income.199
    In the first step of that waterfall, the servicer capitalizes any unpaid interest and
fees (i.e., adds them to the outstanding principal balance). Second, the servicer
reduces the interest rate in incremental steps to as low as 2%. If the 31% DTI ratio
threshold still has not been reached, in the third step the servicer extends the term
of the mortgage to a maximum of 40 years from the modification date. If these
steps are still insufficient to reach the 31% threshold, the servicer may forbear
principal (defer its due date), subject to certain limits.200 The forbearance amount
is not interest bearing and results in a lump-sum payment due upon the earliest
of the sale date of the property, the payoff date of the interest-bearing mortgage
balance, or the maturity date of the mortgage.201
    Servicers are not required to forgive principal under HAMP. However, servicers
may forgive principal in order to lower the borrower’s monthly payment to achieve
88            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     the HAMP Tier 1 DTI ratio goal of 31% on a stand-alone basis, at any point in the
                                                     HAMP waterfall described above, or as part of PRA.202
                                                         After completing these modification calculations, all loans that meet HAMP
     Net Present Value (“NPV”) Test:                 eligibility criteria and are either deemed generally to be in imminent default or
     Compares the money generated by                 delinquent by two or more payments must be evaluated using a standardized net
     modifying the terms of the mortgage             present value (“NPV”) test that compares the NPV result for a modification to
     with the amount an investor can                 the NPV result for no modification.203 The NPV test compares the expected cash
     reasonably expect to recover in a               flow from a modified loan with the expected cash flow from the same loan with
     foreclosure sale.                               no modifications to determine which option will be more valuable to the mortgage
                                                     investor. A positive NPV test result indicates that a modified loan is more valuable
     Loan-to-Value (“LTV”) Ratio: Lending            to the investor than the existing loan. In that case, under HAMP rules, the servicer
     risk assessment ratio that mortgage             must offer the borrower a mortgage modification. If the test generates a negative
     lenders examine before approving a              result, modification is optional.204 Servicers cannot refuse to evaluate a borrower
     mortgage; calculated by dividing the            for a modification simply because the outstanding loan currently has a low loan-to-
     outstanding amount of the loan by               value (“LTV”) ratio, meaning the borrower owes less than the value of the home.
     the value of the collateral backing the         The lower the LTV ratio is, the higher the probability that a foreclosure will be
     loan. Loans with high LTV ratios are            more profitable to an investor than a modification.
     generally seen as higher risk because               Since September 1, 2011, most of the largest mortgage servicers participating
     the borrower has less of an equity              in MHA have been required to assign a single point of contact to borrowers
     stake in the property.                          potentially eligible for evaluation under HAMP, HAFA, or UP.205 The single point of
                                                     contact has the primary responsibility for communicating with the borrower about
                                                     options to avoid foreclosure, his/her status in the process, coordination of receipt of
                                                     documents, and coordination with other servicer personnel to promote compliance
                                                     with MHA timelines and requirements throughout the entire delinquency,
                                                     imminent default resolution process, or foreclosure.206

                                                     How HAMP Tier 1 First-Lien Modifications Work
                                                     Treasury intended that HAMP trial modifications would last three months.
                                                     Historically, many trial modifications have lasted longer. According to Treasury, as
                                                     of March 31, 2014, of a combined total of 31,534 active trials under both GSE and
                                                     TARP (non-GSE) HAMP, 7,118 (23%) had lasted more than six months.207
                                                         Borrowers in trial modifications may qualify for conversion to a permanent
                                                     modification as long as they make the required modified payments on time and
                                                     provide proper documentation, including a signed modification agreement.208
                                                     The terms of permanent modifications under HAMP Tier 1 remain fixed for five
                                                     years.209 After five years, the loan’s interest rate can increase if the modified interest
                                                     rate had been reduced below the 30-year conforming fixed interest rate on the date
                                                     of the initial modification. The interest rate can rise incrementally by up to 1%
                                                     per year until it reaches that rate.210 Otherwise, the modified interest rate remains
                                                     permanent.
                                                         If the borrower misses a payment during the trial or is denied a permanent
                                                     modification for any other reason, the borrower is, in effect, left with the original
                                                     terms of the mortgage. The borrower is responsible for the difference between
                                                     the original mortgage payment amount and the reduced trial payments that were
                                                     made during the trial. In addition, the borrower may be liable for late fees that were
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014     89




generated during the trial. In other words, a borrower can be assessed late fees
for failing to make the original pre-modification scheduled payments during the
trial period, even though under the trial modification the borrower is not required
to make these payments. Late fees are waived only for borrowers who receive a
permanent modification.211

What Happens When a HAMP Modification Is Denied: Servicer Obligations and
Borrower Rights
Treasury has issued guidance governing both the obligations of servicers and the
rights of borrowers in connection with the denial of loan modification requests.
Borrowers must receive a Non-Approval Notice if they are rejected for a HAMP
modification. A borrower who is not approved for HAMP Tier 1 is automatically
considered for HAMP Tier 2. If the servicer offers the borrower a HAMP Tier 2
trial, no Non-Approval Notice would be issued on the HAMP Tier 1. The Non-
Approval Notice is sent only if the HAMP Tier 2 is not offered. Borrowers can
request reconsideration or re-evaluation if they believe one or more NPV analysis
inputs is incorrect or if they experience a change in circumstance. Servicers are
obligated to have written procedures and personnel in place to respond to borrower
inquiries and disputes that constitute “escalated cases” in a timely manner.212
    Treasury’s web-based NPV calculator at www.CheckMyNPV.com can be
used by borrowers prior to applying for a HAMP modification or after a denial
of a HAMP modification. Borrowers can enter the NPV input values listed in                   For more information on HAMP
the HAMP Non-Approval Notice received from their servicer, or substitute with                servicer obligations and borrower
estimated NPV input values, to compare the estimated outcome provided by                     rights, see SIGTARP’s April 2011
CheckMyNPV.com against that on the Non-Approval Notice.                                      Quarterly Report, pages 67-76.


Modification Incentives
For new HAMP trials on or after October 1, 2011, Treasury changed the one-
time flat $1,000 incentive payment to a sliding scale based on the length of time
the loan was delinquent as of the effective date of the TPP. For loans less than or
equal to 120 days delinquent, servicers receive $1,600.213 For loans 121-210 days
delinquent, servicers receive $1,200. For loans more than 210 days delinquent,
servicers receive only $400. Starting on March 1, 2014, incentive payments for
servicers are scheduled to increase by $400.214 For borrowers whose monthly
mortgage payment was reduced through HAMP by 6% or more, servicers also
receive incentive payments of up to $1,000 annually for three years if the borrower
remains in good standing (defined as less than three full monthly payments
delinquent).215
    For HAMP Tier 1, borrowers whose monthly mortgage payment is reduced
through HAMP by 6% or more and who make monthly payments on time earn
an annual principal reduction of up to $1,000.216 The principal reduction accrues
monthly and is payable for each of the first five years as long as the borrower
remains in good standing.217 Under both HAMP Tier 1 and HAMP Tier 2, the
investor is entitled to five years of incentives that make up part of the difference
between the borrower’s new monthly payment and the old one.
90   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                          As of March 31, 2014, of the $29.8 billion in TARP funds allocated to the 86
                                                      servicers participating in MHA, 91% was allocated to 10 servicers.218 Table 2.20
                                                      shows incentive payments made to these servicer.
                   TABLE 2.20
                    TARP INCENTIVE PAYMENTS BY 10 SERVICERS, AS OF 3/31/2014
                                                                                        Incentive                    Incentive                  Incentive
                                                                                       Payments                     Payments                   Payments               Total Incentive
                                                      SPA Cap Limit                 to Borrowers                  to Investors               to Servicers                  Payments
                    Ocwen Loan
                                                    $6,478,243,478                 $297,980,678                $875,475,530                $461,047,632             $1,634,503,839
                    Servicing, LLCa
                    JPMorgan Chase
                                                      3,401,687,695                 308,157,101                  808,415,245                 415,582,725              1,532,155,071
                    Bank, NAb
                    Bank of America,
                                                      7,140,264,697                 318,937,768                  663,938,342                 396,010,448              1,378,886,558
                    N.A.c
                    Wells Fargo Bank,
                                                      5,077,541,646                 248,100,607                  632,325,600                 356,331,204              1,236,757,411
                    N.A.d
                    CitiMortgage Inc                    882,625,302                   74,572,399                 233,795,003                 113,694,151                 422,061,552
                    Select Portfolio
                                                      1,360,285,111                   85,370,773                 167,072,969                 113,345,115                 365,788,858
                    Servicing, Inc.
                    OneWest Bank                      1,516,138,915                   61,349,149                 205,703,540                   85,769,864                352,822,553
                    Nationstar
                                                      1,199,620,347                   67,236,799                 168,808,001                   98,699,084                334,743,884
                    Mortgage LLCe
                    Saxon Mortgage
                                                        100,807,086                   19,655,075                  41,738,413                   39,413,598                100,807,086
                    Services Inc
                    U.S. Bank National
                                                        180,949,541                   13,970,946                  32,187,129                   22,645,413                  68,803,488
                    Association
                    Total                       $27,338,163,818               $1,495,331,295              $3,829,459,771              $2,102,539,234               $7,427,330,300
                    Notes: Numbers may not total due to rounding. On July 1, 2012, Saxon Mortgage Services, Inc. ceased servicing operations by selling its mortgage servicing rights and
                    transferring the subservicing relationships to third-party servicers. The remaining SPA Cap Limit stated above represents the amount previously paid to Saxon Mortgage
                    Services, Inc. prior to ceasing servicing operations.
                    a
                      Ocwen Loan Servicing, LLC includes the former Litton Loan Servicing, LLC, GMAC Mortgage, LLC, and Homeward Residential.
                    b
                      JPMorgan Chase Bank, NA includes EMC Mortgage Corporation.
                    c
                      Bank of America N.A. includes the former Countrywide Home Loans Servicing, BAC Home Loans Servicing LP, Home Loan Services, and Wilshire Credit Corporation.
                    d
                      Wells Fargo Bank, N.A. includes Wachovia Bank, NA and Wachovia Mortgage, FSB.
                    e
                      Nationstar Mortgage LLC includes MorEquity, Inc and the former Aurora Loan Services LLC.

                    Source: Treasury, Transactions Report-Housing Programs, 3/27/2014.
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014      91




HAMP Tier 2
Effective June 1, 2012, HAMP Tier 2 expanded HAMP.219 As in HAMP Tier 1,
HAMP Tier 2 permits HAMP modifications on mortgages of owner-occupied
properties, but unlike HAMP Tier 1, HAMP Tier 2 also permits HAMP
modifications on mortgages of non-owner-occupied “rental” properties that are
tenant-occupied or vacant.220 Under the original HAMP (now HAMP Tier 1),
mortgage modifications for “rental” properties had been expressly excluded; HAMP
Tier 2 also allows borrowers with a wider range of debt-to-income situations to
receive modifications.221 Treasury’s stated policy objectives for HAMP Tier 2
are that it “will provide critical relief to both renters and those who rent their
homes, while further stabilizing communities from the blight of vacant and
foreclosed properties.”222 A borrower may have up to five loans with HAMP Tier 2
modifications, as well as a single HAMP Tier 1 modification on the mortgage for
his or her primary residence.223 If a borrower loses “good standing” on a HAMP
Tier 1 modification and it has either been at least one year since the effective
date of that modification or there has been a “change in circumstance,” he or she
is eligible for a HAMP Tier 2 remodification.224 Approximately 6,381 of active
HAMP Tier 2 permanent modifications were previously HAMP Tier 1 permanent
modifications.225
    According to Treasury, as of March 31, 2014, a total of 62 of the 86 servicers
with active MHA servicer agreements had fully implemented HAMP Tier 2.226 The
remaining 24 of those servicers will not implement HAMP Tier 2 because they are
in the process of terminating their servicer participation agreement, they have gone
out of business, their servicer participation agreement was signed to participate
only in FHA-HAMP, RD-HAMP, or FHA-2LP, or they are winding down their non-
GSE servicing operations.227 All 10 of the largest servicers have reported that they
had implemented HAMP Tier 2.228 According to Treasury, as of March 31, 2014,
it had paid $70.6 million in incentives in connection with 48,706 HAMP Tier 2
permanent modifications, 44,856 of which remain active.229
    According to Treasury, as of March 31, 2014, of the 68,038 HAMP Tier 2 trial
mortgage modifications started, 63,646 (94%), were for owner-occupied properties;
3,893 (6%), were for tenant-occupied properties, and 499 (1%) were for vacant
properties.230 Of owner-occupied properties that received a HAMP Tier 2 trial
modification, 14,828 trial modifications (23%) were active and 45,504 (71%) were
converted to permanent modifications, of which 41,894 (92%) were active.231 Of
owner-occupied properties that received a HAMP Tier 2 trial modification, 3,314
(5%) were cancelled, and of those that received a permanent modification, 3,464
(8%) redefaulted.232 Around 90% of tenant-occupied properties that received either
a trial or permanent HAMP Tier 2 mortgage modification have remained active,
as of March 31, 2014.233 Of vacant properties that received a HAMP Tier 2 trial
                                                                                            For SIGTARP’s recommendations for
modification, 116 (23%) were in active trial modifications, 326 (65%) were in active
                                                                                            the improvement of HAMP Tier 2,
permanent modifications, and 57 (11%) had their trial or permanent modification             see SIGTARP’s April 2012 Quarterly
cancelled.234 HAMP Tier 2 mortgage modification activity and property occupancy             Report, pages 185-189.
status is shown in Table 2.21.235
92   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                             TABLE 2.21
                              HAMP TIER 2 FIRST LIEN MODIFICATION ACTIVITY AND OCCUPANCY STATUS,
                              AS OF 3/31/2014
                                                                                                      Trials
                                                         Trials         Trials           Trials   Converted    Permanents     Permanents    Permanents
                              Property Type            Started      Cancelled           Active    Permanent    Disqualified      Paid-Off       Active
                              Borrower
                                                       63,646             3,314        14,828        45,504          3,464           146        41,894
                              Occupied
                              Tenant Occupied            3,893               189            850       2,854            204            14         2,636
                              Vacant                        499                35           116         348             22             0          326
                              Total                    68,038             3,538       15,794         48,706          3,690           160       44,856
                              Source: Treasury, response to SIGTARP data call, 4/22/2014.



                                                HAMP Tier 2 Eligibility
                                                HAMP Tier 2 expands the eligibility criteria related to a borrower’s debt-to-
                                                income ratio and also allows modifications on loans secured by “rental” properties.
                                                Owner-occupied loans that are ineligible for a HAMP Tier 1 modification due to
                                                excessive forbearance or negative NPV also may be eligible for Tier 2. Vacant rental
                                                properties are permitted in the program, as are those occupied by legal dependents,
                                                parents, or grandparents, even if no rent is charged. The program is not, however,
                                                according to Treasury, intended for vacation homes, second homes, or properties
                                                that are rented only seasonally. Additionally, loans on rental properties must be at
                                                least two payments delinquent – those in imminent default are not eligible.236
                                                    However, Treasury does not require that the property be rented. Treasury
                                                requires only that a borrower certify intent to rent the property to a tenant on a
                                                year-round basis for at least five years, or make “reasonable efforts” to do so; and
                                                does not intend to use the property as a second residence for at least five years.237
                                                According to Treasury, servicers are not typically required to obtain third-party
                                                verifications of the borrower’s rental property certification when evaluating a
                                                borrower for HAMP.238
                                                    To be considered for HAMP Tier 2, borrowers must satisfy several basic HAMP
                                                requirements: the loan origination date must be on or before January 1, 2009;
                                                the borrower must have a documented hardship; the property must conform to
                                                the MHA definition of a “single-family residence” (1-4 dwelling units, including
                                                condominiums, co-ops, and manufactured housing); the property must not be
                                                condemned; and the loan must fall within HAMP’s unpaid principal balance
                                                limitations.239 If a borrower satisfies these requirements, and in addition, the
                                                loan has never been previously modified under HAMP (except for the exceptions
                                                discussed above), the servicer is required to solicit the borrower for HAMP Tier 2.
                                                In certain other cases, the borrower may still be eligible for HAMP Tier 2, but the
                                                servicer is not required to solicit the borrower.240

                                                How HAMP Tier 2 Modifications Work
                                                As with HAMP Tier 1, HAMP Tier 2 evaluates borrowers using an NPV test that
                                                considers the value of the loan to the investor before and after a modification.
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   93




Owner-occupant borrowers are evaluated for both HAMP Tier 1 and Tier 2 in a
single process. If a borrower is eligible for both modifications, he or she will receive
a HAMP Tier 1 modification.241
    As discussed above, HAMP Tier 1 modifications are structured using a waterfall
of incremental steps that may stop as soon as the 31% post-modification DTI ratio
target is reached. In HAMP Tier 2, the proposed permanent modification must
meet two affordability requirements: (1) a post-modification DTI ratio of not less
than 25% or greater than 42% and (2) a reduction of the monthly principal and
interest payment by at least 10%. The post-modification DTI ratio range increased
in February 2013 to not less than 10% or greater than 55%. If the borrower was
previously in a HAMP Tier 1 modification (either trial or permanent), then the new
payment must be at least 10% below the previously modified payment. Because
HAMP Tier 2 does not target a specific DTI ratio, the HAMP Tier 2 waterfall is not
a series of incremental steps, but a consistent set of actions that are applied to the
loan. After these actions are applied, if the result of the NPV test is positive and the
modification also achieves the DTI and payment reduction goals, the servicer must
offer the borrower a HAMP Tier 2 modification. If the result of the HAMP Tier 2
NPV test is negative, modification is optional.242
    As in the HAMP Tier 1 waterfall, the first step in structuring a HAMP Tier 2
modification is to capitalize any unpaid interest and fees. The second step changes
the interest rate to the “Tier 2 rate,” which is the 30-year conforming fixed interest
rate on the date of the initial modification, plus a 0.5% risk adjustment. The third
step extends the term of the loan by up to 40 years from the modification effective
date. Finally, if the loan’s pre-modification mark-to-market LTV ratio is greater
than 115%, the servicer forbears principal in an amount equal to the lesser of (1)
an amount that would create a post-modification LTV ratio of 115%, or (2) an
amount equal to 30% of the post-modification principal balance. Unlike HAMP
Tier 1, there is no excessive forbearance limit in HAMP Tier 2. The HAMP Tier
2 guidelines also include several exceptions to this waterfall to allow for investor
restrictions on certain types of modifications.243
    The HAMP Tier 2 NPV model also evaluates the loan using an “alternative
modification waterfall” in addition to the one described here. This waterfall uses
principal reduction instead of forbearance. However, as in HAMP Tier 1, principal
reduction is optional. Servicers may also reduce principal on HAMP Tier 2
modifications using PRA.244
    HAMP Tier 2 incentives are the same as those for HAMP Tier 1, with some
exceptions, notably that HAMP Tier 2 modifications do not pay annual borrower or
servicer incentives.245

MHA Outreach and Borrower Intake Project
On February 14, 2013, Treasury entered into an agreement with the Neighborhood
Reinvestment Corporation, also called NeighborWorks America (“NeighborWorks”),
to launch a nationwide MHA initiative with housing counselors “in an effort to
increase the number of homeowners that successfully request assistance under
MHA.”246 NeighborWorks is a Congressionally chartered corporation that through
94           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    a national network of non-profit organizations administers housing programs,
                                                    including housing counseling.247 The initiative, called the MHA Outreach and
                                                    Borrower Intake Project, will pay $450 to housing counseling agencies for each
                                                    homeowner they worked with to submit complete applications for HAMP to
                                                    servicers.248 Treasury allocated $18.3 million in TARP funds for the project.249 As
                                                    of March 31, 2014, housing counselors have initiated HAMP application work
                                                    for 8,611 homeowners, of whom 2,765 have had their completed applications
                                                    submitted to an MHA servicer and accepted by that MHA servicer, whether or not
                                                    the borrower eventually receives a mortgage modification.250 According to Treasury,
                                                    housing counseling agencies are due $1,244,250 for those accepted applications.251
                                                    NeighborWorks has, as of March 31, 2014, requested $5.3 million in total funds,
                                                    mostly for outreach, oversight, and administration, as well as for the counseling
                                                    agency payments.252

                                                    Additional TARP-Funded MHA Housing Support Programs
                                                    From April 2009 until September 2010, Treasury announced a number of
                                                    additional MHA support programs for homeowners with non-GSE mortgages.
                                                    TARP funds have been allocated to most but not all of these additional programs.
                                                    Three of these programs fall under the umbrella of the HAMP program: the Home
                                                    Price Decline Protection (“HPDP”) program, the Home Affordable Unemployment
     For more information on these                  Program (“UP”), and the Principal Reduction Alternative (“PRA”). The remaining
     additional housing programs, see               additional MHA programs include collaborations with other Federal agencies,
     SIGTARP’s October 2013 Quarterly               programs that aim to extinguish homeowners’ second mortgages (second liens), and
     Report, pages 93-99.                           programs that offer alternatives to foreclosure. Table 2.22 provides more detail on
                                                    these programs.
                                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014              95



TABLE 2.22
 ADDITIONAL MAKING HOME AFFORDABLE (“MHA”) HOUSING SUPPORT PROGRAMS, AS OF 3/31/2014
                                                                                                Homeowners Assisted              Estimated
                                                                             Estimated Number                                          TARP              TARP
                        Date          Date                                of Homeowners to be Permanents Permanents              Allocation     Expenditures
 Program           Announced       Started   Purpose                                   Assisted   Started      Active          (In Billions)a     (In Billions)
                                             To provide incentives
 Principal                                   to investors to
 Reduction                                   modify homeowners’
                     6/3/2010   10/1/2010                                                      —      146,330c     120,263c           $2.00             $0.64
 Alternative                                 mortgages under HAMP
 (“PRA”)b                                    by reducing the principal
                                             amount owed.
                                          To provide additional
                                          TARP-funded incentives
 Home Price                               to investors to modify
 Decline                                  mortgages through
                    7/31/2009    9/1/2009                                                      —      217,317c     150,313c            1.55               0.35
 Protection                               HAMP by partially
 (“HPDP”)b                                offsetting possible
                                          losses from home price
                                          declines.
                                             To temporarily -- fully
 Home
                                             or partially -- suspend
 Affordable
                   3/26/2010d   7/1/2010e    mortgage payments                                 —       39,183f        5,165f            —g                 —g
 Unemployment
                                             for unemployed
 Program (“UP”)b
                                             homeowners.
                                             To provide TARP-
                                             funded incentives to
                                             servicers, investors,
 Home
                                             and homeowners to
 Affordable
                                             complete short sales
 Foreclosure       11/30/2009   4/5/2010h                                                      —      154,379             —            4.15               0.77
                                             and deeds-in-lieu to
 Alternatives
                                             avoid foreclosure and
 (“HAFA”)
                                             relocate homeowners
                                             unable to sustain a
                                             modified mortgage.
                                          To provide incentives
                                          to servicers, investors,
                                          and borrowers to
                                                                         “A Second Lien Program
                                          modify second
                                                                          to Reach up to 1 to 1.5
                                          mortgages (second
 Second Lien                                                                Million Homeowners,”
                                          liens) -- with a partial
 Modification                                                              according to Treasury,
                    4/28/2009   8/13/2009 or full extinguishment                                      131,179        82,471            0.13               0.56
 Program                                                                            “Making Home
                                          of the loan balance
 (“2MP”)                                                                     Affordable, Program
                                          -- for homeowners with
                                                                              Update, Fact Sheet,
                                          a corresponding first
                                                                                      4/28/2009.
                                          mortgage (first lien)
                                          that was modified under
                                          HAMP.
                                                                               “Tens of thousands
                                                                            of FHA borrowers will
                                                                           now be able to modify
                                                                           their mortgages in the
                                                                              same manner as so
 Treasury/
                                                                             many others who are
 Federal Housing
                                          To provide TARP-funded,             taking advantage of
 Administration-
                                          HAMP-like incentives                the Administration’s
 Home
                                          to servicers and               Making Home Affordable
 Affordable        7/30/2009i   8/15/2009                                                               31,378       25,143            0.23               0.05
                                          homeowners to modify            program,” according to
 Modification
                                          mortgages insured by              HUD Secretary Shaun
 Program
                                          the FHA.                          Donovan, HUD “Press
 (“Treasury/FHA-
                                                                         Release, “HUD Secretary
 HAMP”)
                                                                             Donovan Announces
                                                                                 New FHA-Making
                                                                           Home Affordable Loan
                                                                         Modification Guidelines,”
                                                                                     7/30/2009.
                                                                                                                                      Continued on next page
96              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




ADDITIONAL TARP-FUNDED MAKING HOME AFFORDABLE (“MHA”) HOUSING SUPPORT PROGRAMS,
AS OF 3/31/2014 (CONTINUED)
                                                                                                                          Homeowners Assisted                                   Estimated
                                                                                                       Estimated Number                                                               TARP                  TARP
                              Date                  Date                                            of Homeowners to be Permanents Permanents                                   Allocation         Expenditures
Program                  Announced               Started       Purpose                                           Assisted   Started      Active                               (In Billions)a         (In Billions)
Department
of Agriculture
                                                       To provide TARP-funded,
Rural
                                                       HAMP-like incentives to
Development-
                                                       servicers and borrowers
Home                     9/17/2010i          9/24/2010                                                                          —                 156                137                 0.02                     —j
                                                       for modifications of
Affordable
                                                       mortgages insured by
Modification
                                                       RD.
Program (“RD-
HAMP”)
                                                       To provide TARP-funded
Treasury/
                                                       incentives to servicers
Federal Housing
                                                       and investors to partially
Administration
                                                       or fully extinguish
Second Lien              3/26/2010i           8/6/2010                                                                          —                    0                  0                2.69                   0.00
                                                       second mortgages
Program
                                                       (second liens) for
(“Treasury/FHA-
                                                       mortgages modified and
2LP”) l
                                                       insured by the FHA.
Department                                             To provide non-TARP-
of Veterans                                            funded, HAMP-like
Affairs-Home                                           incentives to servicers
Affordable                 1/8/2010i          2/1/2010 and borrowers for                                                        —                 346                271                  —k                     —k
Modification                                           modifications of
Program (“VA                                           mortgages insured by
HAMP”)                                                 the VA.
Notes:
a
    Estimated TARP allocations are as of January 5, 2012.
b
    Program is a subprogram of the Home Affordable Modification Program (“HAMP”).
c
    Includes HAMP Tier 1 and Tier 2 modifications.
d
    In a 3/26/2010 press release, Treasury announced the concept of what was later named the “UP” program in Treasury’s May 11, 2010 Supplemental Directive.
e
    Treasury announced that servicers could implement UP before July 1, 2010.
f
   Data is as of 2/28/2014. As of 2/28/2014, 6,646 homeowners who received UP assistance subsequently received HAMP modifications.
g
    Treasury does not allocate TARP funds to UP.
h
    Treasury announced that some servicers could implement HAFA before April 5, 2010.
i
  In its April 6, 2009 Supplemental Directive, Treasury announced that “Mortgage loans insured, guaranteed or held by a Federal Government agency (e.g., FHA, HUD, VA and Rural Development) may be eligible for the
   HAMP, subject to guidance issued by the relevant agency. Further details regarding inclusion of these loans in the HAMP will be provided in a subsequent Supplemental Directive.”
j
  As of March 31, 2014, $144,733 has been expended for RD-HAMP.
k
    Treasury does not provide incentive compensation related to VA-HAMP.
l
  As of December 31, 2013, the FHA2LP program had expired.

Sources: Treasury, responses to SIGTARP data calls, 1/5/2012, 1/8/2014, 1/24/2014, 4/9/2014 and 4/25/2014; VA, responses to SIGTARP data calls, 1/8/2014 and 4/3/2014; Treasury, Making Home Affordable
Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3, 9/16/2013; Treasury, press releases, 4/28/2013, 7/31/2009, 11/30/2009, and 3/26/2010; Treasury, “Supplemental Directive 09-01:
Introduction of the Home Affordable Modification Program,” 4/6/2009; Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program -- Home Price Decline Protection Incentives,” 7/31/2009;
Treasury, “Supplemental Directive 09-09: Introduction of Home Affordable Foreclosure Alternatives -- Short Sale and Deed in Lieu of Foreclosure,” 11/30/2009; Treasury, “Supplemental Directive 09-09 Revised:
Introduction of Home Affordable Foreclosure Alternatives -- Short Sale and Deed in Lieu of Foreclosure Update,” 3/26/2010; Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification
Program (2MP),” 3/26/2010; Treasury, “Fact Sheet: FHA Program Adjustments to Support Refinancings for Underwater Homeowners,” 3/26/2010; Treasury, “HAMP Improvements Fact Sheet: Making Home Affordable
Program Enhancements to Offer More Help for Homeowners,” 3/26/2010; Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010; Treasury, “Supplemental Directive 10-05:
Home Affordable Modification Program - Modification of Loans with Principal Reduction Alternative,” 6/3/2010; Treasury, Supplemental Directive 10-10: Home Affordable Modification Program – Modifications of Loans
Guaranteed by the Rural Housing Service,” 9/17/2010; HUD, press release, 7/30/2009; VA, Circular 26-10-2, 1/8/2010; and VA, Circular 26-10-6, 5/24/2010.
                                                                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014    97




Housing Finance Agency Hardest Hit Fund (“HHF”)
More than four years ago, in February 2010, in an attempt to help families in
places hurt the most by the housing crisis, the Administration launched the TARP-
funded Housing Finance Agency Innovation Fund for the Hardest Hit Housing
Markets (“Hardest Hit Fund” or “HHF”).253 The Administration announced that
TARP funds would be used for “innovative measures to help families in the states
that have been hit the hardest by the aftermath of the housing bubble.”254 This
TARP-funded housing support program was to be developed and administered by
state housing finance agencies (“HFAs”) with Treasury’s approval and oversight.255,vi
Treasury allocated $7.6 billion in TARP funds for the HHF program and, through                                                                   For more information on HHF,
four rounds of funding in 2010, obligated these TARP funds to 18 states and                                                                      see: SIGTARP’s April 12, 2012,
the District of Columbia (“states”) – those states that Treasury deemed to have                                                                  audit report, “Factors Affecting
significant home price declines and high unemployment rates.256 Treasury approved                                                                Implementation of the Hardest
                                                                                                                                                 Hit Fund Program,” SIGTARP’s
each of the 19 states’ initial program proposals and approves any proposed changes                                                               SIGTARP’s October 2013 Quarterly
to programs.257 These proposals include estimates of the number of homeowners to                                                                 Report, pages 189-255, and
be helped through each program (some states have more than one program).258                                                                      SIGTARP’s January 29, 2014,
     The first round of HHF allocated $1.5 billion of the amount initially allocated                                                             Quarterly Report, pages 97-154.
for MHA initiatives. According to Treasury, these funds were designated for five
states where the average home price had decreased more than 20% from its peak.
The five states were Arizona, California, Florida, Michigan, and Nevada.259 Plans to
use these funds were approved by Treasury on June 23, 2010.260
     On March 29, 2010, Treasury expanded HHF to include five additional states
and increased the program’s potential funding by $600 million, bringing total
funding to $2.1 billion. The additional $600 million was designated for North
Carolina, Ohio, Oregon, Rhode Island, and South Carolina. Treasury indicated that
these states were selected because of their high concentrations of people living in
economically distressed areas, defined as counties in which the unemployment rate
exceeded 12%, on average, in 2009.261 Plans to use these funds were approved by
Treasury on August 3, 2010.262
     On August 11, 2010, Treasury pledged a third round of HHF funding of $2
billion to states with unemployment rates at or above the national average.263
The states designated to receive funding were Alabama, California, Florida,
Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi, Nevada, New Jersey,
North Carolina, Ohio, Oregon, Rhode Island, South Carolina, Tennessee, and
Washington, DC.264 Treasury approved third round proposals on September 23,
2010.265 On September 29, 2010, a fourth round of HHF funding of an additional
$3.5 billion was made available to existing HHF participants.266
     Treasury allocated the $7.6 billion in TARP funds to 18 states and the District
of Columbia and has over time approved HHF programs in several categories:267



vi Participating HFAs in HHF are from: Alabama, Arizona, California, Florida, Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi,
    Nevada, New Jersey, North Carolina, Ohio, Oregon, Rhode Island, South Carolina, Tennessee, and Washington, DC. As of March 31,
    2014, there were 68 active HHF programs run by the 19 state HFAs. According to Treasury, Illinois, New Jersey, Rhode Island and
    Washington, DC, are no longer accepting applications for assistance from homeowners because they determined that their allocated
    HHF funds would be spent on homeowners who already have been approved for HHF assistance.
98   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            •	   Unemployment assistance, including past-due payment assistance
                                            •	   Mortgage modification, including principal reduction assistance
                                            •	   Second-lien reduction assistance
                                            •	   Transition assistance, including short sale and deed-in-lieu of foreclosure
                                            •	   Demolition

                                                According to Treasury, states can reallocate funds between programs and modify
                                            existing programs as needed, with Treasury approval, until December 31, 2017.268
                                            According to Treasury, between December 31, 2013 and March 31, 2014, six states
                                            have reallocated funds, modified or eliminated existing programs, or established
                                            new HHF programs with Treasury approval, decreasing the total number of HHF
                                            programs in 18 states and Washington, DC, as of March 31, 2014, to 68, down
                                            from 69 programs as of December 31, 2014.269 According to Treasury, four states
                                            made changes to their HHF programs in February, 2014: Arizona expanded their
                                            Principal Reduction program to include severe negative equity; California defunded
                                            their Los Angeles Housing Department Principal Reduction Program; Ohio closed
                                            their application portal as of April 30, 2014, reaching their full commitment
                                            of funding. Oregon expanded its “Rebuilding America Homeownership Pilot
                                            Program.”270 On March 27, 2014, Illinois announced the introduction of a Blight
                                            Elimination Program, which would provide up to $35,000 per unit for demolition,
                                            greening and maintenance of blighted properties. Treasury has expressed support
                                            and is in the process of approving Illinois’ proposal.271

                                            States’ TARP Allocations and Spending for HHF
                                            Of the $7.6 billion in TARP funds available for HHF, states collectively had drawn
                                            down $3.8 billion (50%) as of March 31, 2014.272 As of December 31, 2013, the
                                            latest date for which spending analysis is available, states had drawn down $3.2
                                            billion (42%).273 However, not all of that has been spent on direct assistance to
                                            homeowners. States have spent $2.3 billion (31% of the $7.6 billion) to assist
                                            161,783 individual homeowners. States have spent the rest of the funds on
                                            administrative expenses or hold the money as cash-on-hand. States have spent
                                            $385.1 million (5%) on administrative expenses; and held $509.8 million (7%) as
                                            unspent cash-on-hand, as of December 31, 2013, the latest data available.274 There
                                            remains $4.4 billion (58%) in undrawn funds available for HHF, as of December
                                            31, 2013.275
                                                 As of December 31, 2013, the latest data available, in aggregate, after about
                                            three and a half years, states had spent 31% ($2.3 billion) of the $7.6 billion in
                                            TARP funds that Treasury allocated for the HHF program to provide assistance
                                            to 189,390 program participants (which translates to 161,783 individual
                                            homeowners), or 35% of the number of homeowners the states anticipated helping
                                            with HHF in 2011.276,vii


                                            vii According
                                                         to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                              programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                              and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                              cash-on-hand, or undrawn funds.
                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   99




    As of December 31, 2013, 84.9% of the HHF assistance received by
homeowners was for unemployment assistance, including past-due payment
assistance.277 As SIGTARP found in its April 2012 audit, these were the only types
of assistance for which the Government-sponsored enterprises (“GSE”s) previously
directed servicers to participate. The remaining assistance can be broken down to
14.5% for mortgage modification, including principal reduction assistance, 0.4%
for second-lien reduction assistance, and 0.2% for transition assistance.278 As of
December 31, 2013, Michigan is the only state to have spent funds ($22,890) on
demolition programs; removing and greening one property.279
    Figure 2.6 shows state uses of TARP funds obligated for HHF by percent, as of
December 31, 2013, the most recent figures available.
100   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



                       FIGURE 2.6

                       STATE USES OF $7.6 BILLION OF TARP FUNDS AVAILABLE
                       FOR HHF, BY PERCENT, AS OF 12/31/2013

                       Alabama
                       $162.5 million
                       allocated
                       Arizona
                       $267.8 million
                       allocated
                       California
                       $1,975.3 million
                       allocated
                       Florida
                       $1,057.8 million
                       allocated
                       Georgia
                       $339.3 million
                       allocated
                       Illinois
                       $445.6 million
                       allocated
                       Indiana
                       $221.7 million
                       allocated
                       Kentucky
                       $148.9 million
                       allocated
                       Michigan
                       $498.6 million
                       allocated
                       Mississippi
                       $101.9 million
                       allocated
                       Nevada
                       $194.0 million
                       allocated
                       New Jersey
                       $300.5 million
                       allocated
                       North Carolina
                       $482.8 million
                       allocated
                       Ohio
                       $570.4 million
                       allocated
                       Oregon
                       $220.0 million
                       allocated
                       Rhode Island
                       $79.4 million
                       allocated
                       South Carolina
                       $295.4 million
                       allocated
                       Tennessee
                       $217.3 million
                       allocated
                       Washington D.C.
                       $20.7 million
                       allocated
                       TOTAL
                       $7.6 billion


                                          0                        20                        40                        60                        80                       100

                                               Homeowner Assistance                             Cash-on-Hand
                                               Administrative Expenses                          Undrawn Funds

                                          Notes: According to Treasury, committed program funds are funds committed to homeowners who have been approved to
                                          participate in HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when
                                          and how they capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously
                                          as homeowner assistance, cash-on-hand, or undrawn funds. States do not publish cash-on-hand in their quarterly performance
                                          reports; cash-on-hand is the amount drawn less homeowner assistance and administrative expenses; states may also hold
                                          additional cash generated from interest earned on HHF cash balances, cash repayments of assistance from lien satisfaction
                                          recoveries, or borrower remittances received less borrower partial payments made. State spending figures as of December
                                          31, 2013, are the most recent available; Treasury has separately published March 31, 2014, figures for amounts drawn down;
                                          as of March 31, 2014, states have drawn down $3.8 billion.

                                          Sources: Treasury, Transactions Report-Housing Programs, 12/27/2013; Treasury, responses to SIGTARP data calls,
                                          7/5/2013, 10/3/2013, 10/7/2013, 10/17/2013, 1/17/2014, 1/22/2014, 1/23/2014, and 4/9/2014. Treasury, HFA
                                          Aggregate Quarterly Report Q4 2013.
                                                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   101




State Estimates of Homeowner Participation in HHF
According to Treasury, as of December 31, 2013, states had spent $2.3 billion to
help 161,783 homeowners; in the quarter ended December 31, 2013, states had
spent $338.4 million to help 16,702 homeowners.280 Each state estimates the
number of borrowers to be helped in its programs. In the beginning of 2011, states
collectively estimated that they would help 546,562 homeowners with HHF.281
Since then, with Treasury’s approval, states have changed their programs (including
reducing the estimated number of homeowners to be helped), cancelled programs,
and started new programs.282 As of December 31, 2013, the states estimated
helping 303,192 homeowners with HHF, which is 243,370 fewer homeowners
than the states estimated helping with HHF in 2011, a decline of 45%. States
collectively have reduced their estimates even from last quarter. As of September
30, 2013, the 19 states collectively estimated helping as many as 310,012
homeowners over the life of the program. By December 31, 2013, the collective
estimate had decreased by 6,820 homeowners, or 2%.283
    Importantly, the states collectively estimate that HHF will help 303,192
homeowners but fail to take into account that when states report program
participation numbers, homeowners may be counted more than once when
they receive assistance from multiple HHF programs offered in their state (as
of December 31, 2013, 14 states have more than one program). For example, a
homeowner may have lost his job, missed three months of mortgage payments,
and then sought help from his state. This homeowner might be qualified to receive
assistance from two HHF programs offered by his state, one that could help him
make up missed mortgage payments, and a second that could help him pay his
future mortgage payments while he seeks new employment. Treasury requires
states to estimate the number of people who will participate in each of their
programs, and then report the number who actually participate in each program.284
It also requires them to report the total number of individual homeowners
assisted, which is lower than the reported program participation numbers when
homeowners have participated in more than one program offered by their state.285
    As of December 31, 2013, the states reported that 189,390 homeowners
participated in HHF programs.286 However, because homeowners may participate
in more than one program, the reported program participation numbers are higher
than the total number of individual homeowners assisted. According to Treasury,
161,783 individual homeowners participated in HHF programs.287
    Table 2.23 provides each state’s estimate of the number of borrowers it projects
it will help and the actual number of borrowers helped as of December 31, 2013.viii




viii Program
            participation and homeowners assisted data does not take into account the status of the mortgage (i.e., active, delinquent,
   in foreclosure, foreclosed, or sold) of homeowners who received TARP-funded HHF assistance.
102   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 2.23
                                              HHF ESTIMATED AND ACTUAL NUMBER OF BORROWERS ASSISTED AND
                                              ASSISTANCE PROVIDED BY STATE AS OF 12/31/2013
                                                                               Estimated Number
                                                                                  of Participating
                                                                                    Households to                 Actual Borrowers
                                                                                   be Assisted by             Receiving Assistance               Assistance Provided
                                              Recipient                            12/31/2017*                as of 12/31/2013**                as of 12/31/2013**
                                              Alabama                                             5,800                             3,108                    $24,568,003
                                              Arizona                                             6,507                             2,593                      53,903,493
                                              California                                        71,766                            33,342                     543,668,924
                                              Florida                                           39,000                            13,787                     213,375,618
                                              Georgia                                           15,100                              4,431                      62,849,719
                                              Illinois                                          13,500                            11,545                     204,121,780
                                              Indiana                                           10,150                              2,722                      29,573,414
                                              Kentucky                                            5,960                             4,874                      53,458,893
                                              Michigan                                          11,477                            17,171                     126,386,728
                                              Mississippi                                         3,500                             2,042                      24,331,160
                                              Nevada                                              6,854                             4,989                      80,160,228
                                              New Jersey                                          6,500                             5,161                    127,917,304
                                              North Carolina                                    21,310                            14,943                     216,905,767
                                              Ohio                                              35,575                            15,779                     213,412,401
                                              Oregon                                            15,280                              9,388                    128,642,677
                                              Rhode Island                                        3,413                             3,059                      53,556,138
                                              South Carolina                                    19,400                              6,844                      89,897,067
                                              Tennessee                                         11,300                              5,380                      77,028,926
                                              Washington, DC                                          800                              625                     11,059,380
                                              Total                                           303,192                           161,783                $2,334,817,620
                                              Note: Estimated includes highest estimate of a range.

                                              *Source: Estimates are from the latest HFA Participation Agreements as of 12/31/2013. Later amendments are not included for
                                              consistency with Quarterly Performance reporting.

                                              States report the Estimated Number of Participating Households individually for each HHF program they operate. This column shows
                                              the totals of the individual program estimates for each state. Therefore, according to Treasury, these totals do not necessarily
                                              translate into the number of unique households that the states expect to assist because some households may participate in more
                                              than one HHF program.

                                              **Sources: Fourth Quarter 2013 HFA Performance Data quarterly reports and Fourth Quarter 2013 HFA Aggregate Quarterly Report.
                                              Both sources are as of 12/31/2013.
                                                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   103




State by State Updates
Of the 19 states participating in HHF, over time 18 have reduced their estimates
of how many homeowners will participate in HHF, most of them significantly
since their peak estimates. One state, Oregon, increased its estimate. Collectively,
since the peak in early 2011, the 19 states have reduced their estimates of how
many people they would help by 45%. Nine states have reduced their estimates by
more than 43%: Alabama (57% reduction), Arizona (46% reduction), Florida (63%
reduction), Illinois (53% reduction), Kentucky (60% reduction), Michigan (77%
reduction), Nevada (71% reduction), Ohio (44% reduction), and Rhode Island
(74% reduction).
    Collectively, as of December 31, 2013, the states have spent $2.3 billion
on direct assistance to homeowners, or 31% of the $7.6 billion in TARP funds
obligated to HHF.288,ix Of the 19 HHF states, Rhode Island has spent the highest
percentage, 67%, of its obligated funds on homeowner assistance. Indiana has
spent the lowest percentage, 13%. In addition to Indiana, six other states have
spent less than 26% of their obligated funds on assistance to homeowners:
Alabama, Arizona, Florida, Georgia, Michigan, and Mississippi. For each of the
states, the following pages review estimates of program participation and reported
numbers of homeowners who have been assisted, as well as expenditures compared
with obligated funds.
    According to Treasury, Rhode Island, Illinois, New Jersey, and Washington,
DC, are no longer accepting applications for assistance from homeowners
because they determined that their allocated HHF funds would be spent on
homeowners who already have been approved for HHF assistance.289,x Rhode
Island stopped accepting applications after January 31, 2013.290 Illinois stopped
accepting applications after September 30, 2013.291 New Jersey stopped accepting
applications after November 30, 2013.292 Washington, DC stopped accepting
applications after November 22, 2013.293




ix According
            to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
   programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
   and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
   cash-on-hand, or undrawn funds.
x According
            to Treasury, Illinois and Rhode Island are no longer accepting applications for assistance from homeowners because they
  determined that their allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
104   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Alabama’s HHF Programs
                                             Even though Treasury obligated $162,521,345 of HHF funds to Alabama,
                                             Alabama is not getting a significant amount of these funds out the door to help
                                             homeowners with HHF.294 As of December 31, 2013, the state had drawn down
                                             $34 million (21%) of those funds.295,xi As of December 31, 2013, the most recent
                                             data available, Alabama had spent $24.6 million (15% of its obligated funds) to
                                             help 3,108 individual homeowners with its HHF programs.296,xii The remaining $6
                                             million (4%) was spent on administrative expenses, and $3.4 million (2%) is held
                                             as cash-on-hand.297,xiii As of December 31, 2013, the state had three active HHF
                                             programs, one to provide unemployment assistance to homeowners, a second to
                                             modify homeowners’ mortgages, and a third to provide HHF transition assistance.
                                             At the end of 2010, Alabama estimated that it would help as many as 13,500
                                             homeowners with HHF but, as of December 31, 2013, reduced that peak estimate
                                             by 57%, to 5,800. Figure 2.7 shows, in aggregate, the number of homeowners
                                             estimated to participate in Alabama’s programs (estimated program participation),
                                             the reported number of homeowners who participated in one or more programs
                                             (program participation), and the total number of individual homeowners assisted,
                                             as of December 31, 2013. Figure 2.8 shows the number of homeowners estimated
                                             to participate in each of Alabama’s programs (estimated program participation)
                                             and the reported number of homeowners who participated in each of Alabama’s
                                             programs (program participation), as of December 31, 2013.




                                             xi Treasury
                                                        has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, Alabama had drawn
                                                down $34 million.
                                             xii According
                                                          to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                 programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                 and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                 cash-on-hand, or undrawn funds.
                                             xiii States
                                                        do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                  assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                  cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                  made.
                                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   105




FIGURE 2.7

ALABAMA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
HHF PROGRAMS, AS OF 12/31/2013
15,000

                                                        Peak estimate: 13,500
                                                        12/31/2013 estimate: 5,800
12,000                                                  12/31/2013 program participation: 3,108
                                                        Homeowners assisted: 3,108



 9,000




 6,000




 3,000




    0
         Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13


            State Estimated Program Participation                 Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range.

         Sources: States provide estimates for program participation and report program participation and
         homeowners assisted numbers. Alabama Housing Finance Authority, Proposal, 8/31/2010; Treasury
         and Alabama Housing Finance Authority, Commitment to Purchase Financial Instrument and HFA
         Participation Agreement, 9/23/2010; Alabama Housing Finance Authority, first through seventh
         Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011,
         6/28/2012, and 3/8/2013; Alabama Housing Finance Authority, Treasury Reports, Quarterly
         Performance Reports Q1 2011 - Q4 2013, no date.
106              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.8

       ALABAMA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 12/31/2013

            HARDEST HIT FOR ALABAMA'S UNEMPLOYED                                                                         SHORT SALE ASSISTANCE PROGRAM
            HOMEOWNERS (UNEMPLOYMENT)                                                                                    (TRANSITION)
             15,000                                              Peak estimate: 13,500                                   2,000                           Peak estimate: 1,500
                                                                 12/31/13 estimate: 3,100                                                                12/31/13 estimate: 1,500
             12,000
                                                                 12/31/13 program participation: 3,108                   1,500                           12/31/13 program participation: 0
              9,000
                                                                                                                         1,000
               6,000

               3,000
                                                                                                                          500

                   0                                                                                                         0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13           Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                             State Estimated Program Participation                    Program Participation                            State Estimated Program Participation                    Program Participation




            LOAN MODIFICATION ASSISTANCE PROGRAM
            (MODIFICATION)
              2,000                                    Peak estimate: 1,200
                                                       12/31/13 estimate: 1,200
              1,500                                    12/31/13 program participation: 0
              1,000

                500

                  0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                             State Estimated Program Participation                    Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. Alabama Housing Finance Authority, Proposal, 8/31/2010; Treasury and Alabama Housing
       Finance Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Alabama Housing Finance Authority, first through seventh Amendment[s] to Agreement[s],
       9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011, 6/28/2012, and 3/8/2013; Alabama Housing Finance Authority, Treasury Reports, Quarterly Performance Reports Q1 2011 - Q4
       2013, no date.
                                                                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   107




Arizona’s HHF Programs
Even though Treasury obligated $267,766,006 of HHF funds to Arizona,
Arizona is not getting a significant amount of these funds out the door to help
homeowners with HHF.298 As of December 31, 2013, the state had drawn down
$127 million (47%) of those funds.299,xiv As of December 31, 2013, the most recent
data available, Arizona had spent $53.9 million (20% of its obligated funds) to
help 2,593 individual homeowners with its HHF programs.300,xv The remaining
$11.7 million (4%) was spent on administrative expenses, and $61.3 million
(23%) is held as cash-on-hand.301,xvi As of December 31, 2013, the state had four
active HHF programs: one to modify homeowners’ mortgages with principal
reduction assistance, a second to provide HHF second-lien reduction assistance to
homeowners, a third to provide unemployment assistance to homeowners, and a
fourth to provide transition assistance to homeowners. At the end of 2010, Arizona
estimated that it would help as many as 11,959 homeowners with HHF but, as of
December 31, had reduced that peak estimate by 46%, to 6,507.
    Figure 2.9 shows, in aggregate, the number of homeowners estimated to
participate in Arizona’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
December 31, 2013. Because homeowners may participate in more than one
program, the reported program participation numbers are higher than the total
number of individual homeowners assisted. Figure 2.10 shows the number of
homeowners estimated to participate in each of Arizona’s programs (estimated
program participation) and the reported number of homeowners who participated
in each of Arizona’s programs (program participation), as of December 31, 2013.




xiv Treasury
            has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, Arizona had drawn
    down $127 million.
xv According
            to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
   programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
   and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
   cash-on-hand, or undrawn funds.
xvi States
          do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
    assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
    cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
    made.
108   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM                                                                                                  108




                                                    FIGURE 2.9

                                                    ARIZONA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
                                                    PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
                                                    HHF PROGRAMS, AS OF 12/31/2013

                                                    12,000



                                                    10,000



                                                     8,000



                                                     6,000
                                                                                       Peak estimate: 11,959
                                                                                       12/31/2013 estimate: 6,507
                                                     4,000                             12/31/2013 program participation: 2,781
                                                                                       Homeowners assisted: 2,593


                                                     2,000



                                                        0
                                                             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13


                                                                State Estimated Program Participation            Homeowners Assisted
                                                                Program Participation

                                                             Notes: Estimated includes highest estimate of a range. Program participation numbers may have
                                                             double-counted individual homeowners who received assistance from more than one program in states
                                                             that have more than one program.

                                                             Sources: States provide estimates for program participation and report program participation and
                                                             homeowners assisted numbers. Arizona (Home) Foreclosure Prevention Funding Corporation,
                                                             Proposal, no date; Treasury and Arizona (Home) Foreclosure Prevention Funding Corporation,
                                                             Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Arizona
                                                             (Home) Foreclosure Prevention Funding Corporation, first through thirteenth Amendment[s] to
                                                             Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011,
                                                             8/31/2011, 3/29/2012, 7/17/2012, 8/24/2012, 6/6/2013, 10/30/2013, and 2/27/2014;
                                                             Arizona (Home) Foreclosure Prevention Funding Corporation, Hardest Hit Fund Reporting (quarterly
                                                             performance reports), Quarterly Performance Reports Q3 2010 - Q4 2013, no date; Treasury,
                                                             responses to SIGTARP data calls, 10/3/2013 and 10/7/2013.
109                                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                                          109




      FIGURE 2.10

       ARIZONA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 12/31/2013

            PRINCIPAL REDUCTION ASSISTANCE                                                                               SECOND MORTGAGE ASSISTANCE COMPONENT
            (MODIFICATION)                                                                                               (SECOND-LIEN REDUCTION)
                                                                   Peak estimate: 7,227
                                                                                                                                                                                  Peak estimate: 1,875
                                                                   12/31/13 estimate: 1,849
             10,000                                                                                                       2,000                                                   12/31/13 estimate: 180
                                                                   12/31/13 program participation: 594
                                                                                                                                                                                  12/31/13 program participation: 148
               8,000
                                                                                                                          1,500
               6,000
                                                                                                                          1,000
               4,000
                                                                                                                           500
               2,000

                  0                                                                                                          0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                              State Estimated Program Participation                   Program Participation                              State Estimated Program Participation                   Program Participation




            UNEMPLOYMENT/UNDEREMPLOYMENT MORTGAGE                                                                        SHORT SALE ASSISTANCE COMPONENT
            ASSISTANCE COMPONENT (UNEMPLOYMENT)                                                                          (TRANSITION)
                                                                 Peak estimate: 4,140
               6,000
                                                                 12/31/13 estimate: 4,140                                 2,000                                                  Peak estimate: 1,200
               5,000                                             12/31/13 program participation: 1,960                                                                           12/31/13 estimate: 338
                                                                                                                          1,500                                                  12/31/13 program participation: 79
               4,000
               3,000                                                                                                      1,000
               2,000
                                                                                                                           500
               1,000
                  0                                                                                                          0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                              State Estimated Program Participation                   Program Participation                              State Estimated Program Participation                   Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. Arizona (Home) Foreclosure Prevention Funding Corporation, Proposal, no date; Treasury and
       Arizona (Home) Foreclosure Prevention Funding Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Arizona (Home) Foreclosure Prevention Funding
       Corporation, first through thirteenth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 1/26/2011, 3/31/2011, 5/25/2011, 8/31/2011, 3/29/2012, 7/17/2012, 8/24/2012,
       6/6/2013, 10/30/2013, and 2/27/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, Hardest Hit Fund Reporting (quarterly performance reports), Quarterly Performance Reports Q3
       2010 - Q4 2013, no date; Treasury, responses to SIGTARP data calls, 10/3/2013 and 10/7/2013.
110   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             California’s HHF Programs
                                             Even though Treasury obligated $1,975,334,096 of HHF funds to California,
                                             California is not getting a significant amount of these funds out the door to help
                                             homeowners with HHF.302 As of December 31, 2013, the state had drawn down
                                             $717.5 million (36%) of those funds.303,xvii As of December 31, 2013, the most
                                             recent data available, California had spent $543.7 (28% of its obligated funds) to
                                             help 33,342 individual homeowners with its HHF programs.304,xviii The remaining
                                             $71.7 million (4%) was spent on administrative expenses, and $102.1 million (5%)
                                             is held as cash-on-hand.305,xix As of December 31, 2013, the state had six active
                                             HHF programs: one to provide unemployment assistance to homeowners, a second
                                             and third to modify homeowners’ mortgages with principal reduction assistance, a
                                             fourth to provide HHF transition assistance to homeowners, a fifth to provide past-
                                             due payment assistance to homeowners, and a sixth to provide HHF second-lien,
                                             principal reduction assistance to homeowners. California had another program to
                                             provide transition assistance to homeowners but reduced the peak estimate for this
                                             program to zero and had not provided transition assistance to any homeowners as
                                             of December 31, 2013. California defunded the Los Angeles Housing Department
                                             Principal Reduction Program in February 2014.
                                                 At the end of 2010, California estimated that it would help as many as 101,337
                                             homeowners with HHF but, as of December 31, 2013, had reduced that peak
                                             estimate by 29%, to 71,766.
                                                 Figure 2.11 shows, in aggregate, the number of homeowners estimated to
                                             participate in California’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             December 31, 2013. Because homeowners may participate in more than one
                                             program, the reported program participation numbers are higher than the total
                                             number of individual homeowners assisted. Figure 2.12 shows the number of
                                             homeowners estimated to participate in each of California’s programs (estimated
                                             program participation) and the reported number of homeowners who participated
                                             in each of California’s programs (program participation), as of December 31, 2013.




                                             xvii Treasury
                                                           has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, California had drawn
                                                   down $967.5 million.
                                             xviii According
                                                            to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                   HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                   capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                   assistance, cash-on-hand, or undrawn funds.
                                             xix States
                                                        do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                 assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                 cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                 made.
                                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   111




FIGURE 2.11

CALIFORNIA ESTIMATED PROGRAM PARTICIPATION,
PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
ASSISTED, IN ALL HHF PROGRAMS, AS OF 12/31/2013

120,000



100,000



 80,000



 60,000

                                    Peak estimate: 101,337
                                    12/31/2013 estimate: 71,766
 40,000                             12/31/2013 program participation: 35,481
                                    Homeowners assisted: 33,342


 20,000



     0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q412 Q1’13 Q2’13 Q3’13 Q4’13


           State Estimated Program Participation           Homeowners Assisted
           Program Participation

      Notes: Estimated includes highest estimate of a range. Program participation numbers may have
      double-counted individual homeowners who received assistance from more than one program in states
      that have more than one program.

      Sources: States provide estimates for program participation and report program participation and
      homeowners assisted numbers. CalHFA Mortgage Assistance Corporation, Proposal, no date; Treasury
      and CalHFA Mortgage Assistance Corporation, Commitment to Purchase Financial Instrument and HFA
      Participation Agreement, 6/23/2010; CalHFA Mortgage Assistance Corporation, first through twelfth
      Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 8/3/2011,
      10/28/2011, 5/3/2012, 7/17/2012, 12/14/2012, 6/6/2013, 9/20/2013, and 2/27/2014; CalHFA
      Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly
      Reports,” Quarterly Performance Reports Q4 2010 - Q4 2013, no date.
112              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      FIGURE 2.12

       CALIFORNIA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 12/31/2013

            UNEMPLOYMENT MORTGAGE ASSISTANCE PROGRAM                                                                     MORTGAGE REINSTATEMENT ASSISTANCE PROGRAM
            (UNEMPLOYMENT)                                                                                               (PAST-DUE PAYMENT)
                                                               Peak estimate: 60,531
            100,000                                            12/31/13 estimate: 50,380                                 25,000                                             Peak estimate: 17,293
                                                               12/31/13 program participation: 27,315                                                                       12/31/13 estimate: 8,830
             80,000                                                                                                      20,000                                             12/31/13 program participation: 4,806
             60,000                                                                                                      15,000

             40,000                                                                                                      10,000

             20,000                                                                                                       5,000

                  0                                                                                                           0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                             State Estimated Program Participation                    Program Participation                             State Estimated Program Participation                    Program Participation




            PRINCIPAL REDUCTION PROGRAM (MODIFICATION)                                                                   TRANSITION ASSISTANCE PROGRAM
                                                                                                                         (TRANSITION)
                                                                 Peak estimate: 25,135                                                                                        Peak estimate: 6,471
             50,000                                                                                                      10,000                                               12/31/13 estimate: 460
                                                                 12/31/13 estimate: 11,560
             40,000                                              12/31/13 program participation: 2,859                    8,000
                                                                                                                                                                              12/31/13 program participation: 472

             30,000                                                                                                       6,000

             20,000                                                                                                       4,000

             10,000                                                                                                       2,000

                   0                                                                                                          0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                              State Estimated Program Participation                   Program Participation                             State Estimated Program Participation                    Program Participation




            COMMUNITY SECOND MORTGAGE PRINCIPAL                                                                          LOS ANGELES HOUSING DEPARTMENT PRINCIPAL
            REDUCTION PROGRAM (SECOND-LIEN REDUCTION)                                                                    REDUCTION PROGRAM (MODIFICATION)

                500                                                                                                        200

                375                                                                                                        150

                250                                                                                                        100       Peak estimate: 166
                          Peak estimate: 370
                                                                                                                                     12/31/13 estimate: 166
                          12/31/13 estimate: 370
                125                                                                                                         50       12/31/13 program participation: 0
                          12/31/13 program participation: 29
                  0                                                                                                           0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                             State Estimated Program Participation                    Program Participation                             State Estimated Program Participation                    Program Participation




            NEIGHBORWORKS SACRAMENTO SHORT SALE
            GATEWAY PROGRAM (TRANSITION)

                200                                                   Peak estimate: 91
                                                                      12/31/13 estimate: 0
                150                                                   12/31/13 program participation: 0

                100

                 50

                  0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                             State Estimated Program Participation                    Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. CalHFA Mortgage Assistance Corporation, Proposal, no date; Treasury and CalHFA Mortgage
       Assistance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; CalHFA Mortgage Assistance Corporation, first through twelfth Amendment[s]
       to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 8/3/2011, 10/28/2011, 5/3/2012, 7/17/2012, 12/14/2012, 6/6/2013, 9/20/2013, and 2/27/2014; CalHFA Mortgage
       Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports,” Quarterly Performance Reports Q4 2010 - Q4 2013, no date; Treasury, response to SIGTARP data call,
       10/3/2013.
                                                                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   113




Florida’s HHF Programs
Even though Treasury obligated $1,057,839,136 of HHF funds to Florida, Florida
is not getting a significant amount of these funds out the door to help homeowners
with HHF.306 As of December 31, 2013, the state had drawn down $336.3 million
(32%) of those funds.307,xx As of December 31, 2013, the most recent data available,
Florida had spent $213.4 million (20% of its obligated funds) to help 13,787
individual homeowners with its HHF programs.308,xxi The remaining $36.3 million
(3%) was spent on administrative expenses, and $86.5 million (8%) is held as cash-
on-hand.309,xxii As of December 31, 2013, the state had five active HHF programs:
one to provide unemployment assistance to homeowners, a second and third to
provide past-due payment assistance to homeowners, and a fourth and fifth to
modify homeowners’ mortgages. At the start of 2011, Florida estimated that it
would help as many as 106,000 homeowners with HHF but, as of December 31,
2013, had reduced that peak estimate by 63%, to 39,000.
    Figure 2.13 shows, in aggregate, the number of homeowners estimated to
participate in Florida’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
December 31, 2013. Because homeowners may participate in more than one
program, the reported program participation numbers are higher than the total
number of individual homeowners assisted. Figure 2.14 shows the number of
homeowners estimated to participate in each of Florida’s programs (estimated
program participation) and the reported number of homeowners who participated
in each of Florida’s programs (program participation), as of December 31, 2013.




xx Treasury
           has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, Florida had drawn down
   $411.3 million.
xxi According
             to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
    programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
    and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
    cash-on-hand, or undrawn funds.
xxii States
           do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
     assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
     cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
     made.
114   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    FIGURE 2.13

                                                    FLORIDA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
                                                    PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
                                                    HHF PROGRAMS, AS OF 12/31/2013

                                                    120,000



                                                    100,000



                                                     80,000



                                                     60,000                                Peak estimate: 106,000
                                                                                           12/31/2013 estimate: 39,000
                                                                                           12/31/2013 program participation: 23,196
                                                                                           Homeowners assisted: 13,787
                                                     40,000



                                                     20,000



                                                         0
                                                               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13


                                                                 State Estimated Program Participation            Homeowners Assisted
                                                                 Program Participation

                                                              Notes: Estimated includes highest estimate of a range. Program participation numbers may have
                                                              double-counted individual homeowners who received assistance from more than one program in states
                                                              that have more than one program.

                                                              Sources: States provide estimates for program participation and report program participation and
                                                              homeowners assisted numbers. Florida Housing Finance Corporation, Proposal, no date; Treasury and
                                                              Florida Housing Finance Corporation, Commitment to Purchase Financial Instrument and HFA
                                                              Participation Agreement, 6/23/2010; Florida Housing Finance Corporation, first through eighth
                                                              Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 5/30/2012,
                                                              9/28/2012, 5/25/2013, and 9/20/2013; Florida Housing Finance Corporation, Florida Hardest Hit
                                                              Fund (HHF) Information, Quarterly Reports, Quarterly Performance Reports Q3 2010 - Q4 2013, no
                                                              date; Treasury, response to SIGTARP data call, 10/3/2013.
                                                                                                                                        QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                                          115




FIGURE 2.14

 FLORIDA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 12/31/2013

      UNEMPLOYMENT MORTGAGE ASSISTANCE PROGRAM                                                                     MORTGAGE LOAN REINSTATEMENT PROGRAM
      (UNEMPLOYMENT)                                                                                               (PAST-DUE PAYMENT)
       100,000                                             Peak estimate: 53,000                                   100,000
                                                                                                                                                                       Peak estimate: 53,000
        80,000
                                                           12/31/13 estimate: 25,000                                80,000                                             12/31/13 estimate: 25,000
                                                           12/31/13 program participation: 11,940                                                                      12/31/13 program participation: 10,860
        60,000                                                                                                      60,000

        40,000                                                                                                      40,000

        20,000                                                                                                      20,000

             0                                                                                                          0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                       State Estimated Program Participation                    Program Participation                               State Estimated Program Participation                   Program Participation




      MODIFICATION ENABLING PILOT PROGRAM                                                                          PRINCIPAL REDUCTION PROGRAM (MODIFICATION)
      (MODIFICATION)
         2,000                                                                                                     50,000                                              Peak estimate: 10,000
                                                                                                                   40,000                                              12/31/13 estimate: 10,000
         1,500                                     Peak estimate: 1,500                                                                                                12/31/13 program participation: 394
                                                   12/31/13 estimate: 1,500                                        30,000
         1,000                                     12/31/13 program participation: 1
                                                                                                                   20,000
          500
                                                                                                                   10,000

             0                                                                                                          0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                        State Estimated Program Participation                   Program Participation                              State Estimated Program Participation                    Program Participation




      ELDERLY MORTGAGE ASSISTANCE PROGRAM
      (PAST-DUE PAYMENT)
       10,000                                              Peak estimate: 2,500
         8,000
                                                           12/31/13 estimate: 2,500
                                                           12/31/13 program participation: 1
         6,000

         4,000

         2,000

             0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                        State Estimated Program Participation                   Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range. Florida estimates that it will serve approximately 25,000 homeowners in the
 aggregate between its Unemployment Mortgage Assistance Program and its Mortgage Loan Reinstatement Program.

 Sources: States provide estimates for program participation and report program participation numbers. Florida Housing Finance Corporation, Proposal, no date; Treasury and Florida Housing Finance
 Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Florida Housing Finance Corporation, first through eighth Amendment[s] to Agreement[s],
 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 5/30/2012, 9/28/2012, 5/25/2013, and 9/20/2013; Florida Housing Finance Corporation, Florida Hardest Hit Fund (HHF) Information, Quarterly
 Reports, Quarterly Performance Reports Q3 2010 - Q4 2013, no date; Treasury, response to SIGTARP data call, 10/3/2013.
116   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Georgia’s HHF Program
                                             Even though Treasury obligated $339,255,819 of HHF funds to Georgia, Georgia
                                             is not getting a significant amount of these funds out the door to help homeowners
                                             with HHF.310 As of December 31, 2013, the state had drawn down $77.5 million
                                             (23%) of those funds.311,xxiii As of December 31, 2013, the most recent data
                                             available, Georgia had spent $62.8 million (19% of its obligated funds) to help
                                             4,431 individual homeowners with its HHF program.312,xxiv The remaining $13.9
                                             million (4%) was spent on administrative expenses, and $0.7 million (0.2%) is held
                                             as cash-on-hand.313,xxv As of December 31, 2013, the state had three active HHF
                                             programs: one to provide unemployment assistance to homeowners, a second
                                             to provide past-due payment assistance to homeowners, and a third to modify
                                             homeowners’ mortgages. At the end of 2010, Georgia estimated that it would help
                                             as many as 18,300 homeowners with HHF but, as of December 31, 2013, had
                                             reduced that peak estimate by 17%, to 15,100.314
                                                 Figure 2.15 shows the number of homeowners estimated to participate in
                                             Georgia’s program and the number of homeowners who have been assisted, as of
                                             December 31, 2013. Figure 2.16 shows the number of homeowners estimated to
                                             participate in each of Georgia’s programs (estimated program participation) and the
                                             reported number of homeowners who participated in each of Georgia’s programs
                                             (program participation), as of December 31, 2013.




                                             xxiii Treasury
                                                           has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, Georgia had drawn
                                                  down $144.4 million.
                                             xxiv According
                                                           to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                  HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                  capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                  assistance, cash-on-hand, or undrawn funds.
                                             xxv States
                                                        do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                 assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                 cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                 made.
                                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   117




FIGURE 2.15

GEORGIA’S ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
HHF PROGRAMS, AS OF 12/31/2013

20,000




15,000




                                              Peak estimate: 18,300
10,000                                        12/31/2013 estimate: 15,100
                                              12/31/2013 program participation: 4,431
                                              Homeowners assisted: 4,431



 5,000




    0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13


            State Estimated Program Participation                 Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range.

         Sources: States provide estimates for program participation and homeowners assisted numbers.
         GHFA Affordable Housing Inc., Proposal, no date; Treasury and GHFA Affordable Housing Inc.,
         Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; GHFA
         Affordable Housing Inc., first through sixth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010,
         12/16/2010, 6/28/2011, 5/3/2012, 12/12/2013, and 1/31/2014; GHFA Affordable Housing Inc.,
         HomeSafe Georgia, US Treasury Reports, Quarterly Performance Reports Q4 2010 - Q4 2013, no
         date.
118              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.16

       GEORGIA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 12/31/2013

            MORTGAGE PAYMENT ASSISTANCE                                                                                  MORTGAGE REINSTATEMENT PROGRAM
            (UNEMPLOYMENT)      Peak estimate: 18,300
                                                                                                                         (PAST-DUE PAYMENT)
             25,000                                              12/31/13 estimate: 9,100                                10,000
                                                                 12/31/13 program participation: 4,431
             20,000
                                                                                                                          7,500                           Peak estimate: 5,000
             15,000                                                                                                                                       12/31/13 estimate: 5,000
                                                                                                                          5,000                           12/31/13 program participation: 0
             10,000

               5,000
                                                                                                                          2,500

                   0                                                                                                          0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                             State Estimated Program Participation                    Program Participation                             State Estimated Program Participation                    Program Participation




            RECAST/MODIFICATION (MODIFICATION)

              2,000

              1,500                             Peak estimate: 1,000
                                                12/31/13 estimate: 1,000
              1,000                             12/31/13 program participation: 0
                500

                  0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                             State Estimated Program Participation                    Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and homeowners assisted numbers. GHFA Affordable Housing Inc., Proposal, no date; Treasury and GHFA Affordable Housing Inc.,
       Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; GHFA Affordable Housing Inc., first through sixth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010,
       12/16/2010, 6/28/2011, 5/3/2012, 12/12/2013, and 1/31/2014; GHFA Affordable Housing Inc., HomeSafe Georgia, US Treasury Reports, Quarterly Performance Reports Q4 2010 - Q4 2013, no
       date.
                                                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   119




Illinois’s HHF Programs
Even though Treasury obligated $445,603,557 of HHF funds to Illinois, Illinois is
not getting a significant amount of these funds out the door to help homeowners
with HHF.315 As of December 31, 2013, the state had drawn down $260 million
(58%) of those funds.316,xxvi As of December 31, 2013, the most recent data
available, Illinois had spent $204.1 million (46% of its obligated funds) to help
11,545 individual homeowners.317,xxvii The remaining $25.7 million (6%) was
spent on administrative expenses, and $30.2 million (7%) is held as cash-on-
hand.318,xxviii As of December 31, 2013, the state had three HHF programs: one
to provide unemployment assistance to homeowners and a second and third to
modify homeowners’ mortgages. Illinois stopped accepting new applications from
struggling homeowners seeking help from their HHF programs submitted after
September 30, 2013.319,xxix In mid-2011, Illinois estimated that it would help as
many as 29,000 homeowners with HHF but, as of December 31, 2013, reduced
that peak estimate by 53%, to 13,500.
    Figure 2.17 shows, in aggregate, the number of homeowners estimated to
participate in Illinois’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
December 31, 2013. Because homeowners may participate in more than one
program, the reported program participation numbers are higher than the total
number of individual homeowners assisted. Figure 2.18 shows the number of
homeowners estimated to participate in each of Illinois’s programs (estimated
program participation) and the reported number of homeowners who participated
in each of Illinois’s programs (program participation), as of December 31, 2013.




xxvi Treasury
             has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, Illinois had drawn down
     $310 million.
xxvii According
               to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
      HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
      capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
      assistance, cash-on-hand, or undrawn funds.
xxviii States
             do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
       assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
       balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
       payments made.
xxix According
               to Treasury, Illinois is no longer accepting applications for assistance from homeowners because it determined that its
     allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
120   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    FIGURE 2.17

                                                    ILLINOIS ESTIMATED PROGRAM PARTICIPATION, PROGRAM
                                                    PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
                                                    HHF PROGRAMS, AS OF 12/31/2013

                                                    30,000



                                                    25,000



                                                    20,000



                                                    15,000


                                                                                  Peak estimate: 29,000
                                                    10,000                        12/31/2013 estimate: 13,500
                                                                                  12/31/2013 program participation: 11,554
                                                                                  Homeowners assisted: 11,545

                                                     5,000



                                                        0
                                                              Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13


                                                                State Estimated Program Participation             Homeowners Assisted
                                                                Program Participation

                                                             Notes: Estimated includes highest estimate of a range. Program participation numbers may have
                                                             double-counted individual homeowners who received assistance from more than one program in
                                                             states that have more than one program.

                                                             Sources: States provide estimates for program participation and report program participation and
                                                             homeowners assisted numbers. Illinois Housing Development Authority, Proposal, no date; Treasury
                                                             and Illinois Housing Development Authority, Commitment to Purchase Financial Instrument and HFA
                                                             Participation Agreement, 9/23/2010; Illinois Housing Development Authority, first through ninth
                                                             Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010, 5/11/2011, 8/3/2011, 1/25/2012,
                                                             8/2/2012, 9/28/2012, 3/8/2012, and 8/9/2013; Illinois Housing Development Authority, Illinois
                                                             Hardest Hit Program, Reporting, Quarterly Performance Reports Q1 2011 - Q4 2013,
                                                             no date.
                                                                                                                                       QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                                          121




FIGURE 2.18

 ILLINOIS ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 12/31/2013

      HARDEST HIT FUND HOMEOWNER EMERGENCY                                                                         MORTGAGE RESOLUTION FUND PROGRAM
      LOAN PROGRAM (UNEMPLOYMENT)                                                                                  (MODIFICATION)

       50,000                                              Peak estimate: 27,000                                    2,000
                                                           12/31/13 estimate: 12,000
       40,000                                              12/31/13 program participation: 11,234                   1,500
                                                                                                                                                             Peak estimate: 2,000
       30,000
                                                                                                                    1,000                                    12/31/13 estimate: 1,000
       20,000                                                                                                                                                12/31/13 program participation: 143
                                                                                                                     500
       10,000

             0                                                                                                          0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                        State Estimated Program Participation                   Program Participation                              State Estimated Program Participation                   Program Participation




      HOME PRESERVATION PROGRAM (MODIFICATION)


          500

          375                     Peak estimate: 500
                                  12/31/13 estimate: 500
          250                     12/31/13 program participation: 177
          125

             0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                        State Estimated Program Participation                   Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Illinois Housing Development Authority, Proposal, no date; Treasury and Illinois Housing
 Development Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Illinois Housing Development Authority, first through ninth Amendment[s] to
 Agreement[s], 9/29/2010, 12/16/2010, 5/11/2011, 8/3/2011, 1/25/2012, 8/2/2012, 9/28/2012, 3/8/2012, and 8/9/2013; Illinois Housing Development Authority, Illinois Hardest Hit Program,
 Reporting, Quarterly Performance Reports Q1 2011 - Q4 2013, no date.
122   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Indiana’s HHF Programs
                                             Even though Treasury obligated $221,694,139 of HHF funds to Indiana, Indiana
                                             is not getting a significant amount of these funds out the door to help homeowners
                                             with HHF.320 As of December 31, 2013, the state had drawn down $66.3 million
                                             (30%) of those funds.321,xxx As of December 31, 2013, the most recent data available
                                             Indiana had spent $29.6 million (13% of its obligated funds) to help 2,722
                                             individual homeowners with its HHF programs.322,xxxi The remaining $11.7 million
                                             (5%) was spent on administrative expenses, and $25 million (11%) is held as cash-
                                             on-hand.323,xxxii As of December 31, 2013, the state had four active HHF programs:
                                             one to provide unemployment assistance to homeowners, a second to modify
                                             homeowners’ mortgages, a third to provide transition assistance to homeowners,
                                             and as of December 31, 2013, Indiana added a fourth to demolish vacant
                                             properties. At the start of 2011, Indiana estimated helping as many as 16,257
                                             homeowners with HHF but, as of December 31, 2013, reduced that peak estimate
                                             by 38%, to 10,150.
                                                 Figure 2.19 shows, in aggregate, the number of homeowners estimated to
                                             participate in Indiana’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             December 31, 2013. Figure 2.20 shows the number of homeowners estimated to
                                             participate in each of Indiana’s programs (estimated program participation) and the
                                             reported number of homeowners who participated in each of Indiana’s programs
                                             (program participation), as of December 31, 2013.




                                             xxx Treasury
                                                         has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, Indiana had drawn
                                                 down $66.3 million.
                                             xxxi According
                                                           to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                  HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                  capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                  assistance, cash-on-hand, or undrawn funds.
                                             xxxii States
                                                         do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                   assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
                                                   balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
                                                   payments made.
                                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   123




FIGURE 2.19

INDIANA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
HHF PROGRAMS, AS OF 12/31/2013

20,000




15,000




10,000


                                               Peak estimate: 16,257
                                               12/31/2013 estimate: 10,150
 5,000                                         12/31/2013 program participation: 2,722
                                               Homeowners assisted: 2,722




    0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13


            State Estimated Program Participation              Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. For its “Blight Elimination Program”
         (Demolition), Indiana neither estimated the number of homeowners it would serve nor reported the
         number of homeowners this program has served.

         Sources: States provide estimates for program participation and report program participation and
         homeowners assisted numbers. Indiana Housing and Community Development Authority, Proposal,
         9/1/2010 and (amended) 2/14/2011; Treasury and Indiana Housing and Community Development
         Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement,
         9/23/2010; Indiana Housing and Community Development Authority, first through eighth
         Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 3/9/2011, 9/28/2011, 1/25/2012,
         7/17/2012, 9/28/2012, 3/8/2013, and 12/12/2013; Indiana Housing and Community Development
         Authority, Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury, Quarterly Performance
         Reports Q2 2011 - Q4 2013, no date.
124              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.20

       INDIANA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 12/31/2013

            HARDEST HIT FUND UNEMPLOYMENT BRIDGE                                                                         HARDEST HIT FUND TRANSITION ASSISTANCE
            PROGRAM (UNEMPLOYMENT)                                                                                       PROGRAM (TRANSITION)
             25,000                                               Peak estimate: 16,257                                    200

             20,000                                               12/31/13 estimate: 8,000
                                                                  12/31/13 program participation: 2,712                    150
                                                                                                                                                           Peak estimate: 150
             15,000                                                                                                                                        12/31/13 estimate: 150
                                                                                                                           100
             10,000                                                                                                                                        12/31/13 program participation: 0
                                                                                                                            50
               5,000

                   0                                                                                                         0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13           Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                             State Estimated Program Participation                    Program Participation                            State Estimated Program Participation                    Program Participation




            HARDEST HIT FUND RECAST/MODIFICATION                                                                         HARDEST HIT FUND BLIGHT ELIMINATION PROGRAM
            PROGRAM (MODIFICATION)                                                                                       (DEMOLITION)
               2,000                                                                                                       100

               1,500                                                                                                        75
                                                      Peak estimate: 2,000                                                                              Peak estimate: 0
                                                      12/31/13 estimate: 2,000                                                                          12/31/13 estimate: 0
               1,000                                                                                                        50
                                                      12/31/13 program participation: 10                                                                12/31/13 program participation: 0
                500                                                                                                         25

                   0                                                                                                         0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13           Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                             State Estimated Program Participation                    Program Participation                            State Estimated Program Participation                    Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range. For its “Blight Elimination Program” (Demolition), Indiana neither estimated the
       number of homeowners it would serve nor reported the number of homeowners this program has served.

       Sources: States provide estimates for program participation and report program participation numbers. Indiana Housing and Community Development Authority, Proposal, 9/1/2010 and (amended)
       2/14/2011; Treasury and Indiana Housing and Community Development Authority, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Indiana Housing and
       Community Development Authority, first through eighth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 3/9/2011, 9/28/2011, 1/25/2012, 7/17/2012, 9/28/2012, 3/8/2013, and
       12/12/2013; Indiana Housing and Community Development Authority, Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury, Quarterly Performance Reports Q2 2011 - Q4 2013, no date.
                                                                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   125




Kentucky’s HHF Program
Even though Treasury obligated $148,901,875 of HHF funds to Kentucky,
Kentucky is not getting a significant amount of these funds out the door to help
homeowners with HHF.324 As of December 31, 2013, the state had drawn down
$84 million (56%) of those funds.325,xxxiii As of December 31, 2013, the most recent
data available, Kentucky had spent $53.5 million (36% of its obligated funds) to
help 4,874 individual homeowners with its HHF program.326,xxxiv The remaining
$9.3 million (6%) was spent on administrative expenses, and $21.3 million (14%)
is held as cash-on-hand.327,xxxv As of December 31, 2013, the state had one active
HHF program, to provide unemployment assistance to homeowners. At the end of
2010, Kentucky estimated that it would provide HHF unemployment assistance to
as many as 15,000 homeowners but, as of December 31, 2013, reduced that peak
estimate by 60%, to 5,960. As of December 31, 2013, Kentucky had helped 4,874
homeowners with HHF unemployment assistance.
    Figure 2.21 shows the number of homeowners estimated to participate in
Kentucky’s program and the number of homeowners who have been assisted, as of
December 31, 2013.




xxxiii Treasury
               has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, Kentucky had drawn
      down $84 million.
xxxiv According
               to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
      HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
      capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
      assistance, cash-on-hand, or undrawn funds.
xxxv States
            do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
     assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
     balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
     payments made.
126   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     FIGURE 2.21

                                                     KENTUCKY’S UNEMPLOYMENT BRIDGE PROGRAM
                                                     (UNEMPLOYMENT) ESTIMATED PROGRAM PARTICIPATION AND
                                                     HOMEOWNERS ASSISTED, AS OF 12/31/2013

                                                     15,000




                                                     12,000




                                                      9,000




                                                      6,000

                                                                             Peak estimate: 15,000
                                                                             12/31/2013 estimate: 5,960
                                                      3,000                  12/31/2013 program participation: 4,874
                                                                             Homeowners assisted: 4,874



                                                         0
                                                               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’12 Q4’13


                                                                 State Estimated Program Participation                 Homeowners Assisted


                                                              Notes: Estimated includes highest estimate of a range.

                                                              Sources: States provide estimates for program participation and homeowners assisted numbers.
                                                              Kentucky Housing Corporation, Proposal, 8/31/2010; Treasury and Kentucky Housing Corporation,
                                                              Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010;
                                                              Kentucky Housing Corporation, first through sixth Amendment[s] to Agreement[s], 9/29/2010,
                                                              12/16/2010, 3/31/2011, 9/28/2011, 3/3/2012, and 12/14/2012; Kentucky Housing Corporation,
                                                              American Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemploy-
                                                              ment Bridge Program, Quarterly Performance Reports Q4 2010 - Q4 2013, no date.
                                                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   127




Michigan’s HHF Programs
Even though Treasury obligated $498,605,738 of HHF funds to Michigan,
Michigan is not getting a significant amount of these funds out the door to help
homeowners with HHF.328 As of December 31, 2013, the state had drawn down
$162.1 million (33%) of those funds.329,xxxvi As of December 31, 2013, the most
recent data available, Michigan had spent $126.4 million (25% of its obligated
funds) to help 17,171 individual homeowners with HHF programs.330,xxxvii As of
December 31, 2013, Michigan had spent $22,890 to demolish vacant properties.
The remaining $17.9 million (4%) was spent on administrative expenses, and $17.9
million (4%) is held as cash-on-hand.331,xxxviii As of December 31, 2013, the state
had five HHF programs: one to modify homeowners mortgage, a second to modify
homeowners’ mortgages with principal reduction assistance, a third to provide
past-due payment assistance to homeowners, a fourth to unemployment assistance
to homeowners, and a fifth to demolish vacant properties. At the end of 2010,
Michigan estimated that it would help as many as 49,422 homeowners with HHF,
but, as of December 31, 2013, had reduced that peak estimate by 77%, to 11,477.
    Figure 2.22 shows, in aggregate, the number of homeowners estimated to
participate in Michigan’s programs (estimated program participation), the reported
number of homeowners who participated in one or more programs (program
participation), and the total number of individual homeowners assisted, as of
December 31, 2013. Figure 2.23 shows the number of homeowners estimated
to participate in each of Michigan’s programs (estimated program participation)
and the reported number of homeowners who participated in each of Michigan’s
programs (program participation), as of December 31, 2013.




xxxvi Treasury
              has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, Michigan had drawn
      down $180.3 million.
xxxvii According
                to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
       HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
       capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
       assistance, cash-on-hand, or undrawn funds.
xxxviii States
              do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
        assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
        balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
        payments made.
128   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    FIGURE 2.22

                                                    MICHIGAN ESTIMATED PROGRAM PARTICIPATION, PROGRAM
                                                    PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
                                                    HHF PROGRAMS, AS OF 12/31/2013

                                                    50,000




                                                    40,000




                                                    30,000




                                                    20,000

                                                                           Peak estimate: 49,422
                                                                           12/31/2013 estimate: 11,477
                                                    10,000                 12/31/2013 program participation: 17,171
                                                                           Homeowners assisted: 17,171



                                                        0
                                                              Q1’10 Q2’10 Q3’10 ,Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13


                                                                State Estimated Program Participation              Homeowners Assisted
                                                                Program Participation

                                                             Notes: Estimated includes highest estimate of a range. For its “Blight Elimination Program”
                                                             (Demolition), Michigan neither estimated the number of homeowners it would serve nor reported the
                                                             number of homeowners this program has served.

                                                             Sources: States provide estimates for program participation and report program participation and
                                                             homeowners assisted numbers. Michigan Homeowner Assistance Nonprofit Housing Corporation,
                                                             Proposal, 10/15/2010; Treasury and Michigan Homeowner Assistance Nonprofit Housing Corporation,
                                                             Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Michigan
                                                             Homeowner Assistance Nonprofit Housing Corporation, first through eighth Amendment[s] to
                                                             Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 8/3/2011, 6/28/2012, 11/15/2012,
                                                             6/6/2013, and 12/12/2013; Michigan Homeowner Assistance Nonprofit Housing Corporation,
                                                             Hardest Hit U.S. Treasury Reports, Quarterly Performance Reports Q3 2010 - Q4 2013, no date;
                                                             Treasury, response to SIGTARP data call, 10/7/2013.
                                                                                                                                       QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                                          129




FIGURE 2.23

 MICHIGAN ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 12/31/2013

      PRINCIPAL CURTAILMENT PROGRAM (MODIFICATION)                                                                 LOAN RESCUE PROGRAM (PAST-DUE PAYMENT)
                                                             Peak estimate: 3,044                                                                                     Peak estimate: 21,760
         6,000                                                                                                     25,000
                                                             12/31/13 estimate: 300                                                                                   12/31/13 estimate: 6,600
         5,000                                               12/31/13 program participation: 290                   20,000                                             12/31/13 program participation: 10,989
         4,000
                                                                                                                   15,000
         3,000
                                                                                                                   10,000
         2,000
         1,000                                                                                                      5,000

             0                                                                                                          0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                       State Estimated Program Participation                    Program Participation                             State Estimated Program Participation                    Program Participation




      UNEMPLOYMENT MORTGAGE SUBSIDY PROGRAM                                                                        MODIFICATION PLAN PROGRAM (MODIFICATION)
      (UNEMPLOYMENT)
                                                                                                                                    Peak estimate: 825
        25,000                                                                                                      1,000
                                                                                                                                    12/31/13 estimate: 295
        20,000                                                                                                                      12/31/13 program participation: 55
                                                                                                                     750
        15,000
                       Peak estimate: 24,618                                                                         500
        10,000
                       12/31/13 estimate: 4,282
                       12/31/13 program participation: 5,837                                                         250
         5,000

             0                                                                                                          0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                       State Estimated Program Participation                    Program Participation                             State Estimated Program Participation                    Program Participation




      BLIGHT ELIMINATION PROGRAM (DEMOLITION)

          200

          150                   Peak estimate: 0
                                12/31/13 estimate: 0
          100
                                12/31/13 program participation: 0
            50

             0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                       State Estimated Program Participation                    Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range. For its “Blight Elimination Program” (Demolition), Michigan neither estimated the
 number of homeowners it would serve nor reported the number of homeowners this program has served. As of December 31, 2013, Michigan is the only state to have spent funds ($22,890) on
 demolition programs; removing and greening one property.

 Sources: States provide estimates for program participation and report program participation numbers. Michigan Homeowner Assistance Nonprofit Housing Corporation, Proposal, 10/15/2010;
 Treasury and Michigan Homeowner Assistance Nonprofit Housing Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Michigan Homeowner
 Assistance Nonprofit Housing Corporation, first through eighth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 8/3/2011, 6/28/2012, 11/15/2012, 6/6/2013, and
 12/12/2013; Michigan Homeowner Assistance Nonprofit Housing Corporation, Hardest Hit U.S. Treasury Reports, Quarterly Performance Reports Q3 2010 - Q4 2013, no date; Treasury, response to
 SIGTARP data call, 10/7/2013.
130   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Mississippi’s HHF Program
                                             Even though Treasury obligated $101,888,323 of HHF funds to Mississippi,
                                             Mississippi is not getting a significant amount of these funds out the door to help
                                             homeowners with HHF.332 As of December 31, 2013, the state had drawn down
                                             $44.3 million (44%) of those funds.333,xxxix As of December 31, 2013, the most
                                             recent data available, Mississippi had spent $24.3 million (24% of its obligated
                                             funds) to help 2,042 individual homeowners with its HHF program.334,xl The
                                             remaining $6.2 million (6%) was spent on administrative expenses, and $13.8
                                             million (14%) is held as cash-on-hand.335,xli As of December 31, 2013, the state
                                             had one HHF program, to provide unemployment assistance to homeowners. At
                                             the end of 2010, Mississippi estimated that it would provide HHF unemployment
                                             assistance to as many as 3,800 homeowners, but as of December 31, 2013,
                                             reduced that peak estimate by 8%, to 3,500. As of December 31, 2013, Mississippi
                                             had provided HHF unemployment assistance to 2,042 homeowners.
                                                 Figure 2.24 shows the number of homeowners estimated to participate in
                                             Mississippi’s program and the number of homeowners who have been assisted, as
                                             of December 31, 2013.




                                             xxxix Treasury
                                                           has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, Mississippi had drawn
                                                   down $44.3 million.
                                             xl According
                                                         to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                cash-on-hand, or undrawn funds.
                                             xli States
                                                       do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                 assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                 cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                 made.
                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   131




FIGURE 2.24

MISSISSIPPI’S HOME SAVER PROGRAM (UNEMPLOYMENT)
ESTIMATED PROGRAM PARTICIPATION AND HOMEOWNERS
ASSISTED, AS OF 12/31/2013

4,000


3,500


3,000


2,500                                     Peak estimate: 3,800
                                          12/31/2013 estimate: 3,500
                                          12/31/2013 program participation: 2,042
2,000
                                          Homeowners assisted: 2,042

1,500


1,000


  500


    0
        Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13


           State Estimated Program Participation                 Homeowners Assisted


        Notes: Estimated includes highest estimate of a range.

        Sources: States provide estimates for program participation and homeowners assisted numbers.
        Mississippi Home Corporation, Proposal, 9/1/2010; Treasury and Mississippi Home Corporation,
        Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010;
        Mississippi Home Corporation, first through seventh Amendment[s] to Agreement[s], 9/29/2010,
        12/16/2010, 12/8/2011, 9/28/2011, 1/25/2012, 9/28/2012, 4/25/2013, and 9/20/2013;
        Mississippi Home Corporation, Financial Disclosures, Hardest Hit Fund, HFA Performance Data
        Report[s], Quarterly Performance Reports Q4 2010 - Q4 2013, no date.
132   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Nevada’s HHF Programs
                                             Even though Treasury obligated $194,026,240 of HHF funds to Nevada, Nevada
                                             is not getting a significant amount of these funds out the door to help homeowners
                                             with HHF.336 As of December 31, 2013, the state had drawn down $98.8 million
                                             (51%) of those funds.337,xlii As of December 31, 2013, the most recent data
                                             available, Nevada had spent $80.1 million (41% of its obligated funds) to help
                                             4,989 individual homeowners with its HHF programs.338,xliii The remaining $11.3
                                             million (6%) was spent on administrative expenses, and $7.4 million (4%) is held
                                             as cash-on-hand.339,xliv As of December 31, 2013, the state had six active HHF
                                             programs: two to provide unemployment assistance to homeowners, a third and
                                             fourth to modify homeowners’ mortgages with principal reduction assistance, a
                                             fifth for second-lien reduction assistance to homeowners, and a sixth to provide
                                             transition assistance to homeowners. In mid-2011, Nevada estimated that it would
                                             help as many as 23,556 homeowners with HHF but, as of December 31, 2013,
                                             reduced that peak estimate by 71%, to 6,854.
                                                 Figure 2.25 shows, in aggregate, the number of homeowners estimated to
                                             participate in Nevada’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             December 31, 2013. Figure 2.26 shows the number of homeowners estimated to
                                             participate in each of Nevada’s programs (estimated program participation) and the
                                             reported number of homeowners who participated in each of Nevada’s programs
                                             (program participation), as of December 31, 2013.




                                             xlii Treasury
                                                          has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, Nevada had drawn
                                                  down $98.8 million.
                                             xliii According
                                                            to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                  HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                  capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                  assistance, cash-on-hand, or undrawn funds.
                                             xliv States
                                                        do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                  assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                  cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                  made.
                                                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   133




FIGURE 2.25

NEVADA ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
HHF PROGRAMS, AS OF 12/31/2013

25,000

                                                          Peak estimate: 23,556
                                                          12/31/2013 estimate: 6,854
                                                          12/31/2013 program participation: 4,989
20,000                                                    Homeowners assisted: 4,989




15,000




10,000




 5,000




    0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13


            State Estimated Program Participation            Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. Program participation numbers may have
         double-counted individual homeowners who received assistance from more than one program in states
         that have more than one program.

         Sources: States provide estimates for program participation and report program participation and
         homeowners assisted numbers. Nevada Affordable Housing Assistance Corporation, Proposal,
         6/14/2010; Treasury and Nevada Affordable Housing Assistance Corporation, Commitment to
         Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Nevada Affordable
         Housing Assistance Corporation, first through eleventh Amendment[s] to Agreement[s], 9/23/2010,
         9/29/2010, 12/16/2010, 4/5/2011, 5/25/2011, 10/28/2011, 12/8/2011, 2/28/2012,
         6/28/2012, 9/28/2012, and 8/28/2013; Nevada Affordable Housing Assistance Corporation,
         Nevada Hardest Hit Fund, US Treasury Reports, Quarterly Performance Reports Q1 2011 - Q4 2013,
         no date.
134              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.26

       NEVADA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 12/31/2013

            PRINCIPAL REDUCTION PROGRAM (MODIFICATION)                                                                   SECOND MORTGAGE REDUCTION PLAN
                                                                                                                         (SECOND-LIEN REDUCTION)
                                                                 Peak estimate: 3,016
               6,000                                             12/31/13 estimate: 1,040                                 6,000                                                Peak estimate: 2,200
               5,000                                             12/31/13 program participation: 1,205                    5,000                                                12/31/13 estimate: 500
               4,000                                                                                                      4,000
                                                                                                                                                                               12/31/13 program participation: 404

               3,000                                                                                                      3,000
               2,000                                                                                                      2,000
               1,000                                                                                                      1,000
                  0                                                                                                           0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                             State Estimated Program Participation                    Program Participation                             State Estimated Program Participation                    Program Participation




            SHORT-SALE ACCELERATION PROGRAM                                                                              MORTGAGE ASSISTANCE PROGRAM
            (TRANSITION)                                                                                                 (UNEMPLOYMENT)
               2,000                                                                                                     25,000                                                Peak estimate: 16,969
                                                                                                                         20,000
                                                                                                                                                                               12/31/13 estimate: 4,033
               1,500                                                                                                                                                           12/31/13 program participation: 3,068
                                                                                                                         15,000
               1,000
                                 Peak estimate: 1,713                                                                    10,000
                                 12/31/13 estimate: 60
                500
                                 12/31/13 program participation: 100                                                      5,000

                   0                                                                                                          0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                              State Estimated Program Participation                   Program Participation                             State Estimated Program Participation                    Program Participation




            MORTGAGE ASSISTANCE PROGRAM ALTERNATIVE                                                                      HOME RETENTION PROGRAM (MODIFICATION)
            (UNEMPLOYMENT)
                500                                                                                                       2,000

                375                                                                                                       1,500               Peak estimate: 1,150
                                 Peak estimate: 416                                                                                           12/31/13 estimate: 1,150
                250                                                                                                       1,000
                                 12/31/13 estimate: 71                                                                                        12/31/13 program participation: 0
                125              12/31/13 program participation: 212                                                       500

                   0                                                                                                          0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                              State Estimated Program Participation                   Program Participation                             State Estimated Program Participation                    Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. Nevada Affordable Housing Assistance Corporation, Proposal, 6/14/2010; Treasury and Nevada
       Affordable Housing Assistance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 6/23/2010; Nevada Affordable Housing Assistance Corporation, first
       through eleventh Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 4/5/2011, 5/25/2011, 10/28/2011, 12/8/2011, 2/28/2012, 6/28/2012, 9/28/2012, and 8/28/2013;
       Nevada Affordable Housing Assistance Corporation, Nevada Hardest Hit Fund, US Treasury Reports, Quarterly Performance Reports Q1 2011 - Q4 2013, no date.
                                                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   135




New Jersey’s HHF Program
Even though Treasury obligated $300,548,144 of HHF funds to New Jersey,
New Jersey is not getting a significant amount of these funds out the door to help
homeowners with HHF.340 As of December 31, 2013, the state had drawn down
$190.5 million (63%) of those funds.341,xlv As of December 31, 2013, the most
recent data available, New Jersey had spent $127.9 million (43% of its obligated
funds) to help 5,161 individual homeowners with its HHF program.342,xlvi The
remaining $19.5 million (6%) was spent on administrative expenses, and $43.1
million (14%) is held as cash-on-hand.343,xlvii As of December 31, 2013, the state
had one active HHF program, to provide unemployment assistance to homeowners.
Since the end of 2010, New Jersey estimated helping 6,900 homeowners with
HHF but, as of December 31, 2013, reduced that peak estimate by 6%, to 6,500.
According to Treasury, New Jersey stopped accepting new applications from
struggling homeowners seeking help from their HHF programs submitted after
November 30, 2013.344,xlviii
    Figure 2.27 shows the number of homeowners estimated to participate in New
Jersey’s program and the number of homeowners who have been assisted, as of
December 31, 2013.




xlv Treasury
            has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, New Jersey had drawn
    down $190.5 million.
xlvi According
              to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
     HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
     capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
     assistance, cash-on-hand, or undrawn funds.
xlvii States
              do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
      assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
      balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
      payments made.
xlviii According
                  to Treasury, New Jersey is no longer accepting applications for assistance from homeowners because it determined that
       its allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
136   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     FIGURE 2.27

                                                     NEW JERSEY’S HOMEKEEPER PROGRAM (UNEMPLOYMENT)
                                                     ESTIMATED PROGRAM PARTICIPATION AND HOMEOWNERS
                                                     ASSISTED, AS OF 12/31/2013

                                                     8,000


                                                     7,000


                                                     6,000


                                                     5,000                                    Peak estimate: 6,900
                                                                                              12/31/2013 estimate: 6,500
                                                                                              12/31/2013 program participation: 5,161
                                                     4,000                                    Homeowners assisted: 5,161

                                                     3,000


                                                     2,000


                                                     1,000


                                                        0
                                                             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13


                                                                State Estimated Program Participation                 Homeowners Assisted


                                                             Notes: Estimated includes highest estimate of a range.

                                                             Sources: States provide estimates for program participation and homeowners assisted numbers. New
                                                             Jersey Housing and Mortgage Finance Agency, Proposal, 9/1/2010; Treasury and New Jersey
                                                             Housing and Mortgage Finance Agency, Commitment to Purchase Financial Instrument and HFA
                                                             Participation Agreement, 9/23/2010; New Jersey Housing and Mortgage Finance Agency, first
                                                             through sixth Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010, 8/31/2011, 1/25/2012,
                                                             8/24/2012, and 10/30/2013; New Jersey Housing and Mortgage Finance Agency, The New Jersey
                                                             HomeKeeper Program, About the Program, Performance Reports, Quarterly Performance Reports Q3
                                                             2011 - Q4 2013, no date.
                                                                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   137




North Carolina’s HHF Programs
Even though Treasury obligated $482,781,786 of HHF funds to North Carolina,
North Carolina is not getting a significant amount of these funds out the door to
help homeowners with HHF.345 As of December 31, 2013, the state had drawn
down $313.7 million (65%) of those funds.346,xlix As of December 31, 2013, the
most recent data available, North Carolina had spent $216.9 million (45% of its
obligated funds) to help 14,943 individual homeowners with its HHF programs.347,l
The remaining $40.6 million (8%) was spent on administrative expenses, and
$56.1 million (12%) is held as cash-on-hand.348,li As of December 31, 2013, the
state had four active HHF programs: two to provide unemployment assistance to
homeowners, a third to provide second-lien reduction assistance to homeowners,
and a fourth to modify homeowners’ mortgages with principal reduction. North
Carolina had another program to modify homeowners’ mortgages but reduced
the peak estimate for this program to zero and had not modified any mortgages as
of December 31, 2013. In December 2013, North Carolina replaced its inactive
Principal Reduction Recast Program with a new Modification Enabling Pilot
Program (a sixth program) and increased funds available to homeowners under its
unemployment mortgage assistance program. From mid-2011 to mid-2013, North
Carolina estimated that it would help as many as 22,290 homeowners with HHF,
but as of December 31, 2013, reduced that peak estimate to 21,310.
    Figure 2.28 shows, in aggregate, the number of homeowners estimated to
participate in North Carolina’s programs (estimated program participation), the
reported number of homeowners who participated in one or more programs
(program participation), and the total number of individual homeowners assisted,
as of December 31, 2013. Because homeowners may participate in more than
one program, the reported program participation numbers are higher than the
total number of individual homeowners assisted. Figure 2.29 shows the number
of homeowners estimated to participate in each of North Carolina’s programs
(estimated program participation) and the reported number of homeowners who
participated in each of North Carolina’s programs (program participation), as of
December 31, 2013.




xlix Treasury
             has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, North Carolina had
    drawn down $313.7 million.
l According
           to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
  programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
  and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
  cash-on-hand, or undrawn funds.
li States
         do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
   assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
   cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
   made.
138   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    FIGURE 2.28

                                                    NORTH CAROLINA ESTIMATED PROGRAM PARTICIPATION,
                                                    PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
                                                    ASSISTED, IN ALL HHF PROGRAMS, AS OF 12/31/2013

                                                     25,000




                                                     20,000

                                                                                               Peak estimate: 22,290
                                                                                               12/31/2013 estimate: 21,310
                                                     15,000                                    12/31/2013 program participation: 15,020
                                                                                               Homeowners assisted: 14,943



                                                     10,000




                                                      5,000




                                                         0
                                                               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13


                                                                 State Estimated Program Participation            Homeowners Assisted
                                                                 Program Participation

                                                              Notes: Estimated includes highest estimate of a range. Program participation numbers may have
                                                              double-counted individual homeowners who received assistance from more than one program in states
                                                              that have more than one program.

                                                              Sources: States provide estimates for program participation and report program participation and
                                                              homeowners assisted numbers. North Carolina Housing Finance Agency, Proposal, 7/23/2010;
                                                              Treasury and North Carolina Housing Finance Agency, Commitment to Purchase Financial Instrument
                                                              and HFA Participation Agreement, 8/23/2010; North Carolina Housing Finance Agency, first through
                                                              seventh Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011,
                                                              1/25/2012, 8/9/2013, and 12/12/2013; North Carolina Housing Finance Agency, Hardest Hit Fund
                                                              & Performance Reporting, Quarterly Performance Reports Q3 2010 - Q4 2013, no date; Treasury,
                                                              response to SIGTARP data call, 10/7/2013.
                                                                                                                                       QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                                          139




FIGURE 2.29

 NORTH CAROLINA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION,
 BY PROGRAM, AS OF 12/31/2013

      MORTGAGE PAYMENT PROGRAM-1                                                                                   MORTGAGE PAYMENT PROGRAM-2
      (UNEMPLOYMENT)                                                                                               (UNEMPLOYMENT)
        6,000                                                                                                      15,000
        5,000                                                                                                      12,000
        4,000                                                                                                                                    Peak estimate: 14,100
                                                                                                                    9,000                        12/31/13 estimate: 14,100
        3,000
                                                                                                                    6,000                        12/31/13 program participation: 10,825
        2,000                                                  Peak estimate: 5,750
                                                               12/31/13 estimate: 5,410                             3,000
        1,000
                                                               12/31/13 program participation: 4,100
             0                                                                                                          0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                       State Estimated Program Participation                    Program Participation                             State Estimated Program Participation                    Program Participation




      SECOND MORTGAGE REFINANCE PROGRAM                                                                            PERMANENT LOAN MODIFICATION PROGRAM
      (SECOND-LIEN REDUCTION)                                                                                      (MODIFICATION)
        2,000                                                                                                        500

        1,500                                                                                                        375

        1,000                                       Peak estimate: 2,000                                             250                                                    Peak estimate: 440
                                                    12/31/13 estimate: 1,000                                                                                                12/31/13 estimate: 0
          500                                       12/31/13 program participation: 95                               125                                                    12/31/13 program participation: 0

             0                                                                                                          0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                       State Estimated Program Participation                    Program Participation                             State Estimated Program Participation                    Program Participation




      PRINCIPAL REDUCTION RECAST PROGRAM                                                                           MODIFICATION ENABLING PILOT PROJECT
      (MODIFICATION)                                                                                               (MODIFICATION)
        2,000                                                                                                       1,000

        1,500                                                                                                        750
                                                                                                                                                        Peak estimate: 800
        1,000                                     Peak estimate: 680                                                 500                                12/31/13 estimate: 800
                                                  12/31/13 estimate: 0                                                                                  12/31/13 program participation: 0
          500                                     12/31/13 program participation: 0                                  250

             0                                                                                                          0
                 Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                        State Estimated Program Participation                   Program Participation                              State Estimated Program Participation                   Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. North Carolina Housing Finance Agency, Proposal, 7/23/2010; Treasury and North Carolina
 Housing Finance Agency, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/23/2010; North Carolina Housing Finance Agency, first through seventh Amendment[s] to
 Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012, 8/9/2013, and 12/12/2013; North Carolina Housing Finance Agency, Hardest Hit Fund & Performance Reporting,
 Quarterly Performance Reports Q3 2010 - Q4 2013, no date; Treasury, response to SIGTARP data call, 10/7/2013.
140   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Ohio’s HHF Programs
                                             Even though Treasury obligated $570,395,099 of HHF funds to Ohio, Ohio is not
                                             getting a significant amount of these funds out the door to help homeowners with
                                             HHF.349 As of December 31, 2013, the state had drawn down $270.1 million (47%)
                                             of those funds.350,lii As of December 31, 2013, the most recent data available, Ohio
                                             had spent $213.4 million (37% of its obligated funds) to help 15,779 individual
                                             homeowners with its HHF programs.351,liii The remaining $34.6 million (6%) was
                                             spent on administrative expenses, and $22.1 million (4%) is held as cash-on-
                                             hand.352,liv As of December 31, 2013, the state had eight active HHF programs: four
                                             to modify homeowners’ mortgages, a fifth to provide past-due payment assistance
                                             to homeowners, a sixth to provide unemployment assistance to homeowners, a
                                             seventh to provide transition assistance to homeowners and an eighth to demolish
                                             vacant properties. As of the quarter ending December 31, 2013, Ohio had reduced
                                             the peak estimate for one of its two transition assistance programs to zero and had
                                             not provided HHF transition assistance to any homeowners. At the end of 2010,
                                             Ohio estimated that it would help as many as 63,485 homeowners with HHF but,
                                             as of December 31, 2013, reduced that peak estimate by 44%, to 35,575.
                                                 Figure 2.30 shows, in aggregate, the number of homeowners estimated to
                                             participate in Ohio’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             December 31, 2013. Because homeowners may participate in more than one
                                             program, the reported program participation numbers are higher than the total
                                             number of individual homeowners assisted. Figure 2.31 shows the number of
                                             homeowners estimated to participate in each of Ohio’s programs (estimated
                                             program participation) and the reported number of homeowners who participated
                                             in each of Ohio’s programs (program participation), as of December 31, 2013.




                                             lii Treasury
                                                         has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, Ohio had drawn down
                                                 $321.6 million.
                                             liii According
                                                           to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                 programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                 and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                 cash-on-hand, or undrawn funds.
                                             liv States
                                                       do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                 assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                 cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                 made.
                                                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   141




FIGURE 2.30

OHIO ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
HHF PROGRAMS, AS OF 12/31/2013

80,000                                           Peak estimate: 63,485
                                                 12/31/2013 estimate: 35,575
                                                 12/31/2013 program participation: 25,068
70,000                                           Homeowners assisted: 15,779

60,000


50,000


40,000


30,000


20,000


10,000


    0
         Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13


            State Estimated Program Participation            Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. Program participation numbers may have
         double-counted individual homeowners who received assistance from more than one program in states
         that have more than one program. For its “Blight Elimination Program” (Demolition), Ohio neither
         estimated the number of homeowners it would serve nor reported the number of homeowners this
         program has served.

         Sources: States provide estimates for program participation and report program participation and
         homeowners assisted numbers. Ohio Homeowner Assistance LLC, Proposal [revised], 4/11/2011;
         Treasury and Ohio Homeowner Assistance LLC, Commitment to Purchase Financial Instrument and
         HFA Participation Agreement, 9/23/2010; Ohio Homeowner Assistance LLC, first through tenth
         Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 12/8/2011,
         12/14/2012, 3/22/2013, 8/28/2013, 12/12/2013, and 2/27/2014; Ohio Homeowner Assistance
         LLC, Save the Dream Ohio: Quarterly Reports, Quarterly Performance Reports Q4 2010 - Q4 2013, no
         date; Treasury, response to SIGTARP data call, 10/7/2013.
142            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.31

       OHIO ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 12/31/2013

           RESCUE PAYMENT ASSISTANCE PROGRAM                                                                           MORTGAGE PAYMENT ASSISTANCE PROGRAM
           (PAST-DUE PAYMENT)  Peak estimate: 21,000                                                                   (UNEMPLOYMENT)
                                                             12/31/13 estimate: 19,000                                                                                    Peak estimate: 31,900
            25,000                                           12/31/13 program participation: 13,453                    50,000                                             12/31/13 estimate: 9,375
            20,000                                                                                                     40,000                                             12/31/13 program participation: 9,842

            15,000                                                                                                     30,000

            10,000                                                                                                     20,000

             5,000                                                                                                     10,000

                 0                                                                                                         0
                     Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                           State Estimated Program Participation                   Program Participation                              State Estimated Program Participation                   Program Participation




           MODIFICATION WITH CONTRIBUTION ASSISTANCE                                                                   LIEN ELIMINATION ASSISTANCE (MODIFICATION)
           PROGRAM (MODIFICATION)
                                                                                                                                                                          Peak estimate: 2,350
             7,500                                                                                                      6,000                                             12/31/13 estimate: 700
             6,000                                                                                                      5,000                                             12/31/13 program participation: 574
                                                                                                                        4,000
             4,500
                          Peak estimate: 6,400                                                                          3,000
             3,000        12/31/13 estimate: 4,600                                                                      2,000
             1,500        12/31/13 program participation: 455
                                                                                                                        1,000
                 0                                                                                                         0
                     Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                           State Estimated Program Participation                   Program Participation                              State Estimated Program Participation                   Program Participation




           TRANSITION ASSISTANCE PROGRAM                                                                               HOMEOWNERSHIP RETENTION ASSISTANCE
           (TRANSITION)                                                                                                (MODIFICATION)
                                                                     Peak estimate: 4,900                                                                                 Peak estimate: 3,100
             6,000                                                   12/31/13 estimate: 100                             6,000                                             12/31/13 estimate: 900
             5,000                                                   12/31/13 program participation: 35                 5,000                                             12/31/13 program participation: 588
             4,000                                                                                                      4,000
             3,000                                                                                                      3,000
             2,000                                                                                                      2,000
             1,000                                                                                                      1,000
                 0                                                                                                         0
                     Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                           State Estimated Program Participation                   Program Participation                              State Estimated Program Participation                   Program Participation
                                                                                                                                    QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                                          143




OHIO ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
PROGRAM, AS OF 12/31/2013 (CONTINUED)

   HOMEOWNER STABILIZATION ASSISTANCE                                                                           SHORT REFINANCE PROGRAM
   PROGRAM (MODIFICATION)                                                                                       (TRANSITION)
                                                                                                                                                                        Peak estimate: 6,500
      6,000                                                                                                     10,000                                                  12/31/13 estimate: 0
      5,000                                                                                                      8,000                                                  12/31/13 program participation: 0
      4,000                          Peak estimate: 900
                                     12/31/13 estimate: 900                                                      6,000
      3,000
                                     12/31/13 program participation: 121                                         4,000
      2,000
      1,000                                                                                                      2,000

          0                                                                                                          0
              Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                    State Estimated Program Participation                    Program Participation                             State Estimated Program Participation                   Program Participation




   NEIGHBORHOOD INITIATIVE PROGRAM
   (DEMOLITION)
                                                             Peak estimate: 0
    10,000                                                   12/31/13 estimate: 0
     8,000                                                   12/31/13 program participation: 0

      6,000

      4,000

      2,000

          0
              Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                    State Estimated Program Participation                   Program Participation



Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range. For its “Blight Elimination Program” (Demolition), Ohio neither estimated the
number of homeowners it would serve nor reported the number of homeowners this program has served.

Sources: States provide estimates for program participation and report program participation numbers. Ohio Homeowner Assistance LLC, Proposal, 8/3/2010; Treasury and Ohio Homeowner
Assistance LLC, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 9/23/2010; Ohio Homeowner Assistance LLC, first through tenth Amendment[s] to Agreement[s],
9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 12/8/2011, 12/14/2012, 3/22/2013, 8/28/2013, 12/12/2013, and 2/27/2014; Ohio Homeowner Assistance LLC, Save the Dream Ohio:
Quarterly Reports, Quarterly Performance Reports Q4 2010 - Q4 2013, no date; Treasury, response to SIGTARP data call, 10/7/2013.
144   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Oregon’s HHF Programs
                                             Treasury obligated $220,042,786 of HHF funds to Oregon.353 As of December
                                             31, 2013, the state had drawn down $155 million (70%) of those funds.354,lv As of
                                             December 31, 2013, the most recent data available, Oregon had spent $128.6
                                             million (58% of its obligated funds) to help 9,388 individual homeowners.355,lvi The
                                             remaining $28.7 million (13%) was spent on administrative expenses, and $7.4
                                             million (3%) is held as cash-on-hand.356,lvii As of December 31, 2013, the state
                                             had four active HHF programs: two to modify homeowners’ mortgages, a third to
                                             provide unemployment assistance to homeowners, and a fourth to provide past-
                                             due payment assistance to homeowners. Oregon had another program to modify
                                             homeowners’ mortgages but had not assisted any homeowners in that program. As
                                             of December 31, 2013, Oregon had reduced the peak estimate for its transition
                                             assistance program and had not assisted any homeowners. As of mid-2010, Oregon
                                             estimated that it would help as many as 9,400 homeowners with HHF but, as of
                                             December 31, 2013, had increased that estimate to 15,280.357
                                                 Figure 2.32 shows, in aggregate, the number of homeowners estimated to
                                             participate in Oregon’s programs (estimated program participation), the reported
                                             number of homeowners who participated in one or more programs (program
                                             participation), and the total number of individual homeowners assisted, as of
                                             December 31, 2013. Because homeowners may participate in more than one
                                             program, the reported program participation numbers are higher than the total
                                             number of individual homeowners assisted. Figure 2.33 shows the number of
                                             homeowners estimated to participate in each of Oregon’s programs (estimated
                                             program participation) and the reported number of homeowners who participated
                                             in each of Oregon’s programs (program participation), as of December 31, 2013.




                                             lv Treasury has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, Oregon had drawn down
                                                $188.7 million.
                                             lvi According to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
                                                 programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
                                                 and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
                                                 cash-on-hand, or undrawn funds.
                                             lvii States
                                                        do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                  assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                  cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                  made. Oregon has spent $2.4 million on program and administrative expenses in excess of what it has drawn from Treasury, but
                                                  made up the for short fall using $9.1 million in collections from homeowners that received assistance. Including these collections,
                                                  Oregon has $7.4 million cash-on-hand.
                                                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   145




FIGURE 2.32

OREGON ESTIMATED PROGRAM PARTICIPATION, PROGRAM
PARTICIPATION, AND INDIVIDUAL HOMEOWNERS ASSISTED, IN ALL
HHF PROGRAMS, AS OF 12/31/2013

20,000                                Peak estimate: 15,280
                                      12/31/2013 estimate: 15,280
                                      12/31/2013 program participation: 12,034
                                      Homeowners assisted: 9,388

15,000




10,000




 5,000




    0
          Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13


            State Estimated Program Participation              Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. Program participation numbers may have
         double-counted individual homeowners who received assistance from more than one program in states
         that have more than one program.

         Sources: States provide estimates for program participation and report program participation and
         homeowners assisted numbers. Oregon Affordable Housing Assistance Corporation, Proposal, no
         date; Treasury and Oregon Affordable Housing Assistance Corporation, Commitment to Purchase
         Financial Instrument and HFA Participation Agreement, 8/3/2010; Oregon Affordable Housing
         Assistance Corporation, first through fourteenth Amendment[s] to Agreement[s], 9/23/2010,
         9/29/2010, 12/16/2010, 3/31/2011, 5/25/2011, 9/28/2011, 12/8/2011, 3/29/2012,
         7/17/2012, 2/6/2013, 4/25/2013, 6/6/2013, 8/28/2013, and 2/27/2014; Oregon Affordable
         Housing Assistance Corporation, Oregon Homeownership Stabilization Initiative, Reporting, Quarterly
         Performance Reports Q2 2011 - Q4 2013, no date.
146              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.33

       OREGON ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
       PROGRAM, AS OF 12/31/2013

            LOAN MODIFICATION ASSISTANCE PROGRAM                                                                         MORTGAGE PAYMENT ASSISTANCE PROGRAM
            (MODIFICATION)                                                                                               (UNEMPLOYMENT)
               6,000                                                  Peak estimate: 2,600                               15,000                     Peak estimate: 11,000
               5,000                                                  12/31/13 estimate: 0                                                          12/31/13 estimate: 11,000
                                                                                                                         12,000
                                                                      12/31/13 program participation: 0                                             12/31/13 program participation: 9.025
               4,000
                                                                                                                          9,000
               3,000
                                                                                                                          6,000
               2,000
               1,000                                                                                                      3,000

                  0                                                                                                           0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                             State Estimated Program Participation                   Program Participation                              State Estimated Program Participation                   Program Participation




            LOAN REFINANCE ASSISTANCE PROGRAM                                                                            TRANSITION ASSISTANCE PROGRAM
            (MODIFICATION)                                                                                               (TRANSITION)
                                                                     Peak estimate: 330
                500
                                                                     12/31/13 estimate: 330                               6,000                                                   Peak estimate: 2,515
                                                                     12/31/13 program participation: 108                  5,000                                                   12/31/13 estimate: 0
                375                                                                                                                                                               12/31/13 program participation: 0
                                                                                                                          4,000
                250                                                                                                       3,000
                                                                                                                          2,000
                125
                                                                                                                          1,000
                  0                                                                                                           0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                             State Estimated Program Participation                   Program Participation                              State Estimated Program Participation                   Program Participation




            LOAN PRESERVATION ASSISTANCE PROGRAM                                                                         REBUILDING AMERICAN HOMEOWNERSHIP
            (PAST-DUE PAYMENT)                                                                                           ASSISTANCE PILOT PROJECT (MODIFICATION)
                                                             Peak estimate: 4,000
               6000                                          12/31/13 estimate: 3,900                                      200                                                 Peak estimate: 50
               5000                                          12/31/13 program participation: 2,890                                                                             12/31/13 estimate: 50
                                                                                                                           150                                                 12/31/13 program participation: 11
               4000
               3000                                                                                                        100
               2000
                                                                                                                            50
               1000
                  0                                                                                                           0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                             State Estimated Program Participation                   Program Participation                              State Estimated Program Participation                   Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. Oregon Affordable Housing Assistance Corporation, Proposal, no date; Treasury and Oregon
       Affordable Housing Assistance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; Oregon Affordable Housing Assistance Corporation, first through
       fourteenth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 3/31/2011, 5/25/2011, 9/28/2011, 12/8/2011, 3/29/2012, 7/17/2012, 2/6/2013, 4/25/2013, 6/6/2013,
       8/28/2013, and 2/27/2014; Oregon Affordable Housing Assistance Corporation, Oregon Homeownership Stabilization Initiative, Reporting, Quarterly Performance Reports Q2 2011 - Q4 2013, no
       date.
                                                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   147




Rhode Island’s HHF Program
Treasury obligated $79,351,573 of HHF funds to Rhode Island.358 As of December
31, 2013, the state had drawn down $66.5 million (84%) of those funds.359,lviii As of
December 31, 2013, the most recent data available, Rhode Island had spent $53.6
million (67% of its obligated funds) to help 3,059 individual homeowners with its
HHF programs.360,lix The remaining $7.5 million (9%) was spent on administrative
expenses, and $5.4 million (7%) is held as cash-on-hand.361,lx As of December 31,
2013, the state had five HHF programs: two to modify homeowners’ mortgages
(one of which includes principal reduction assistance), a third to provide past-due
payment assistance to homeowners, a fourth to provide transition assistance to
homeowners, and a fifth to provide unemployment assistance to homeowners.
According to Treasury, Rhode Island stopped accepting new applications from
struggling homeowners seeking help from their HHF programs submitted after
January 31, 2013.362,lxi At the end of 2010, Rhode Island estimated that it would
help as many as 13,125 homeowners with HHF but, as of December 31, 2013,
reduced that peak estimate by 74%, to 3,413.
    Figure 2.34 shows, in aggregate, the number of homeowners estimated to
participate in Rhode Island’s programs (estimated program participation), the
reported number of homeowners who participated in one or more programs
(program participation), and the total number of individual homeowners assisted,
as of December 31, 2013. Because homeowners may participate in more than
one program, the reported program participation numbers are higher than the
total number of individual homeowners assisted. Figure 2.35 shows the number
of homeowners estimated to participate in each of Rhode Island’s programs
(estimated program participation) and the reported number of homeowners who
participated in each of Rhode Island’s programs (program participation), as of
December 31, 2013.




lviii Treasury
              has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, Rhode Island had drawn
      down $66.5 million.
lix According
             to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in HHF
    programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they capture
    and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner assistance,
    cash-on-hand, or undrawn funds.
lx States
           do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
   assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
   cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
   made.
lxi According
               to Treasury, Rhode Island is no longer accepting applications for assistance from homeowners because it determined that
    its allocated HHF funds would be spent on homeowners who already have been approved for HHF assistance.
148   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     FIGURE 2.34

                                                     RHODE ISLAND ESTIMATED PROGRAM PARTICIPATION,
                                                     PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
                                                     ASSISTED, IN ALL HHF PROGRAMS, AS OF 12/31/2013

                                                     15,000


                                                                                                       Peak estimate: 13,125
                                                                                                       12/31/2013 estimate: 3,413
                                                     12,000
                                                                                                       12/31/2013 program participation: 3,301
                                                                                                       Homeowners assisted: 3,059


                                                      9,000




                                                      6,000




                                                      3,000




                                                         0
                                                               Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13


                                                                 State Estimated Program Participation             Homeowners Assisted
                                                                 Program Participation

                                                              Notes: Estimated includes highest estimate of a range. Program participation numbers
                                                              may have double-counted individual homeowners who received assistance from more
                                                              than one program in states that have more than one program.

                                                              Sources: States provide estimates for program participation and report program
                                                              participation and homeowners assisted numbers. Rhode Island Housing and Mortgage
                                                              Finance Corporation, Proposal, 5/27/2010 and (amended) 7/22/2010; Treasury and
                                                              Rhode Island Housing and Mortgage Finance Corporation, Commitment to Purchase
                                                              Financial Instrument and HFA Participation Agreement, 8/3/2010; Rhode Island Housing
                                                              and Mortgage Finance Corporation, first through ninth Amendment[s] to Agreement[s],
                                                              9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012, 3/29/2012,
                                                              12/14/2012, 7/17/2013, and 1/31/2014; Rhode Island Housing and Mortgage Finance
                                                              Corporation, Hardest Hit Fund – Rhode Island, About HHFRI, Reports, Quarterly
                                                              Performance Reports Q4 2010 - Q4 2013, no date; Treasury, response to SIGTARP data
                                                              call, 10/7/2013.
                                                                                                                                      QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                                         149




FIGURE 2.35

 RHODE ISLAND ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION, BY
 PROGRAM, AS OF 12/31/2013

      LOAN MODIFICATION ASSISTANCE PROGRAM                                                                        TEMPORARY AND IMMEDIATE HOMEOWNER
      (MODIFICATION)                                                                                              ASSISTANCE (PAST-DUE PAYMENT)
        3,500                                                                                                     3,000
                                                            Peak estimate: 3,500                                                                                       Peak estimate: 2,750
        3,000                                                                                                     2,500
                                                            12/31/13 estimate: 477                                                                                     12/31/13 estimate: 681
        2,500                                               12/31/13 program participation: 442                   2,000                                                12/31/13 program participation: 657
        2,000                                                                                                     1,500
        1,500
                                                                                                                  1,000
        1,000
                                                                                                                   500
         500
            0                                                                                                         0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13           Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                      State Estimated Program Participation                    Program Participation                            State Estimated Program Participation                    Program Participation




      MOVING FORWARD ASSISTANCE (TRANSITION)                                                                      MORTGAGE PAYMENT ASSISTANCE –
                                                                Peak estimate: 875
                                                                                                                  UNEMPLOYMENT (UNEMPLOYMENT)
        1,000                                                   12/31/13 estimate: 70                             6,000
                                                                12/31/13 program participation: 65                                                                  Peak estimate: 6,000
                                                                                                                  5,000                                             12/31/13 estimate: 2,153
         750
                                                                                                                  4,000                                             12/31/13 program participation: 2,109
         500                                                                                                      3,000
                                                                                                                  2,000
         250
                                                                                                                  1,000
            0                                                                                                        0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13           Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                      State Estimated Program Participation                    Program Participation                            State Estimated Program Participation                    Program Participation




      PRINCIPAL REDUCTION PROGRAM (MODIFICATION)

         200                                                    Peak estimate: 100
                                                                9/30/13 estimate: 32
         150
                                                                9/30/13 program participation: 28
         100

          50

            0
                Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                      State Estimated Program Participation                    Program Participation



 Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

 Sources: States provide estimates for program participation and report program participation numbers. Rhode Island Housing and Mortgage Finance Corporation, Proposal, 5/27/2010 and (amended)
 7/22/2010; Treasury and Rhode Island Housing and Mortgage Finance Corporation, Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; Rhode Island Housing
 and Mortgage Finance Corporation, first through ninth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 5/25/2011, 1/25/2012, 3/29/2012, 12/14/2012, 7/17/2013, and
 1/31/2014; Rhode Island Housing and Mortgage Finance Corporation, Hardest Hit Fund – Rhode Island, About HHFRI, Reports, Quarterly Performance Reports Q4 2010 - Q4 2013, no date; Treasury,
 response to SIGTARP data call, 10/7/2013.
150   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             South Carolina’s HHF Programs
                                             Even though Treasury obligated $295,431,547 of HHF funds to South Carolina,
                                             South Carolina is not getting a significant amount of these funds out the door to
                                             help homeowners with HHF.363 As of December 31, 2013, the state had drawn
                                             down $112.5 million (38%) of those funds.364,lxii As of December 31, 2013, the
                                             most recent data available, South Carolina had spent $89.9 million (30% of its
                                             obligated funds) to help 6,844 individual homeowners with its HHF programs.365,lxiii
                                             The remaining $17.3 million (6%) was spent on administrative expenses, and
                                             $5.3 million (2%) is held as cash-on-hand.366,lxiv As of December 31, 2013, the
                                             state had four active HHF programs: one to provide unemployment assistance to
                                             homeowners, a second to provide past-due payment assistance to homeowners,
                                             a third to modify homeowners’ mortgages, and a fourth to provide transition
                                             assistance to homeowners. South Carolina ended its program to provide second-
                                             lien reduction assistance to homeowners. As of December 31, 2013, South
                                             Carolina introduced a new program to modify homeowners’ mortgages and had
                                             reduced the peak estimates to zero for its original program to modify homeowners’
                                             mortgages and its program to provide homeowners with second-lien reduction
                                             assistance. At the end of 2010, South Carolina estimated that it would help as
                                             many as 34,100 homeowners with HHF but, as of December 31, 2013, reduced
                                             that peak estimate by 43%, to 19,400.
                                                 Figure 2.36 shows, in aggregate, the number of homeowners estimated to
                                             participate in South Carolina’s programs (estimated program participation), the
                                             reported number of homeowners who participated in one or more programs
                                             (program participation), and the total number of individual homeowners assisted,
                                             as of December 31, 2013. Because homeowners may participate in more than
                                             one program, the reported program participation numbers are higher than the
                                             total number of individual homeowners assisted. Figure 2.37 shows the number
                                             of homeowners estimated to participate in each of South Carolina’s programs
                                             (estimated program participation) and the reported number of homeowners who
                                             participated in each of South Carolina’s programs (program participation), as of
                                             December 31, 2013.




                                             lxii Treasury
                                                          has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, South Carolina had
                                                  drawn down $125 million.
                                             lxiii According
                                                            to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
                                                  HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
                                                  capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
                                                  assistance, cash-on-hand, or undrawn funds.
                                             lxiv States
                                                        do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
                                                  assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
                                                  cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
                                                  made.
                                                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   151




FIGURE 2.36

SOUTH CAROLINA ESTIMATED PROGRAM PARTICIPATION,
PROGRAM PARTICIPATION, AND INDIVIDUAL HOMEOWNERS
ASSISTED, IN ALL HHF PROGRAMS, AS OF 12/31/2013

35,000


30,000


25,000


20,000


15,000
                                 Peak estimate: 34,100
                                 12/31/2013 estimate: 19,400
                                 12/31/2013 program participation: 10,452
10,000                           Homeowners assisted: 6,844


 5,000


    0
         Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13


            State Estimated Program Participation            Homeowners Assisted
            Program Participation

         Notes: Estimated includes highest estimate of a range. Program participation numbers may have
         double-counted individual homeowners who received assistance from more than one program in states
         that have more than one program.

         Sources: States provide estimates for program participation and report program participation and
         homeowners assisted numbers. SC Housing Corp., Proposal, 6/1/2010; Treasury and SC Housing
         Corp., Commitment to Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; SC
         Housing Corp., first through sixth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010,
         12/16/2010, 8/31/2011, 11/15/2012, and 10/30/2013; SC Housing Corp., SC HELP, Reports,
         Quarterly Performance Reports Q1 2011 - Q4 2013, no date.
152              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      FIGURE 2.37

       SOUTH CAROLINA ESTIMATED PROGRAM PARTICIPATION VS. PROGRAM PARTICIPATION,
       BY PROGRAM, AS OF 12/31/2013

            MONTHLY PAYMENT ASSISTANCE PROGRAM                                                                           DIRECT LOAN ASSISTANCE PROGRAM
            (UNEMPLOYMENT)                                                                                               (PAST-DUE PAYMENT)
                                                                                                                                                                           Peak estimate: 11,000
             15,000                                                                                                      15,000                                            12/31/13 estimate: 9,500
             12,000                                                                                                      12,000                                            12/31/13 program participation: 6,614

               9,000                                                                                                      9,000
                                        Peak estimate: 14,000
               6,000                    12/31/13 estimate: 6,000                                                          6,000
                                        12/31/13 program participation: 3,718
               3,000                                                                                                      3,000

                   0                                                                                                          0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                             State Estimated Program Participation                    Program Participation                             State Estimated Program Participation                    Program Participation




            HAMP ASSISTANCE PROGRAM                                                                                      PROPERTY DISPOSITION ASSISTANCE PROGRAM
            (MODIFICATION)                                                                                               (TRANSITION)
                                                                                                                                                                                Peak estimate: 6,000
               6,000                      Peak estimate: 6,000                                                            6,000
                                                                                                                                                                                12/31/13 estimate: 400
               5,000                      12/31/13 estimate: 0                                                            5,000                                                 12/31/13 program participation: 120
                                          12/31/13 program participation: 0
               4,000                                                                                                      4,000
               3,000                                                                                                      3,000
               2,000                                                                                                      2,000
               1,000                                                                                                      1,000
                   0                                                                                                          0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                             State Estimated Program Participation                    Program Participation                             State Estimated Program Participation                    Program Participation




            SECOND MORTGAGE ASSISTANCE PROGRAM                                                                           MODIFICATION ASSISTANCE PROGRAM
            (SECOND-LIEN REDUCTION)                                                                                      (MODIFICATION)
               6,000                                                  Peak estimate: 2,600                                6,000
               5,000                                                  12/31/13 estimate: 0                                5,000
                                                                      12/31/13 program participation: 0                                                         Peak estimate: 3,500
               4,000                                                                                                      4,000
                                                                                                                                                                12/31/13 estimate: 3,500
               3,000                                                                                                      3,000
                                                                                                                                                                12/31/13 program participation: 0
               2,000                                                                                                      2,000
               1,000                                                                                                      1,000
                   0                                                                                                          0
                       Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13            Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13

                             State Estimated Program Participation                    Program Participation                             State Estimated Program Participation                    Program Participation



       Notes: Programs may have been started or ended at different times. Estimated includes highest estimate of a range.

       Sources: States provide estimates for program participation and report program participation numbers. SC Housing Corp., Proposal, 6/1/2010; Treasury and SC Housing Corp., Commitment to
       Purchase Financial Instrument and HFA Participation Agreement, 8/3/2010; SC Housing Corp, first through sixth Amendment[s] to Agreement[s], 9/23/2010, 9/29/2010, 12/16/2010, 8/31/2011,
       11/15/2012, and 10/30/2013; SC Housing Corp., SC HELP, Reports, Quarterly Performance Reports Q1 2011 - Q4 2013, no date.
                                                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   153




Tennessee’s HHF Program
Even though Treasury obligated $217,315,593 of HHF funds to Tennessee,
Tennessee is not getting a significant amount of these funds out the door to help
homeowners with HHF.367 As of December 31, 2013, the state had drawn down
$95.3 million (44%) of those funds.368,lxv As of December 31, 2013, the most recent
data available Tennessee had spent $77 million (35% of its obligated funds) to help
5,380 individual homeowners.369,lxvi The remaining $12.3 million (6%) was spent
on administrative expenses, and $6 million (3%) is held as cash-on-hand.370,lxvii As
of December 31, 2013, the state had one HHF program, to provide unemployment
assistance to homeowners. At the end of 2011, Tennessee estimated that it would
provide HHF unemployment assistance to as many as 13,500 homeowners with
HHF but, as of December 31, 2013, reduced that peak estimate by 16%, to
11,300. As of December 31, 2013, Tennessee had provided HHF unemployment
assistance to 5,380 homeowners.
    Figure 2.38 shows the number of homeowners estimated to participate in
Tennessee’s program and the number of homeowners who have been assisted, as of
December 31, 2013.




lxv Treasury
            has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, Tennessee had drawn
    down $111.3 million.
lxvi According
              to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
     HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
     capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
     assistance, cash-on-hand, or undrawn funds.
lxvii States
            do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
      assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash
      balances, cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial
      payments made.
154   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                    FIGURE 2.38

                                                    TENNESSEE’S HARDEST HIT FUND PROGRAM (UNEMPLOYMENT)
                                                    ESTIMATED PROGRAM PARTICIPATIONAND HOMEOWNERS
                                                    ASSISTED, AS OF 12/31/2013

                                                    15,000




                                                    12,000




                                                     9,000

                                                                                                Peak estimate: 13,500
                                                                                                12/31/2013 estimate: 11,300
                                                                                                12/31/2013 program participation: 5,380
                                                     6,000
                                                                                                Homeowners assisted: 5,380



                                                     3,000




                                                         0
                                                              Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13


                                                                State Estimated Program Participation                 Homeowners Assisted


                                                             Notes: Estimated includes highest estimate of a range.

                                                             Sources: States provide estimates for program participation and homeowners assisted numbers.
                                                             Tennessee Housing Development Agency, Proposal, 9/1/2010; Treasury and Tennessee Housing
                                                             Development Agency, Commitment to Purchase Financial Instrument and HFA Participation Agreement,
                                                             9/23/2010; Tennessee Housing Development Agency, first through seventh Amendment[s] to
                                                             Agreement[s], 9/29/2010, 12/16/2010, 5/25/2011, 9/28/2011, 12/8/2011, 5/3/2012, and
                                                             11/15/2012; Tennessee Housing Development Agency, Keep My Tennessee Home, Reports, Quarterly
                                                             Performance Reports Q1 2011 - Q4 2013, no date.
                                                                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   155




Washington, DC’s HHF Program
Treasury obligated $20,697,198 of HHF funds to Washington, DC.371 As of
December 31, 2013, Washington, DC had drawn down $18.2 million (88%)
of those funds.372,lxviii As of December 31, 2013, the most recent data available,
Washington, DC had spent $11.1 million (53% of its obligated funds) to help
625 individual homeowners.373,lxix The remaining $2.7 million (13%) was spent
on administrative expenses and $4.5 million (22%) is held as cash-on-hand.374,lxx
As of December 31, 2013, Washington, DC had one HHF program, to provide
unemployment assistance to homeowners. At the end of 2010, Washington, DC
estimated that it would provide HHF unemployment assistance to as many as
1,000 homeowners with HHF but, as of December 31, 2013, reduced that peak
estimate by 20%, to 800. As of December 31, 2013, Washington, DC had provided
HHF unemployment assistance to 625 homeowners. Washington, DC stopped
accepting new applications after November 22, 2013.375
    Figure 2.39 shows the number of homeowners estimated to participate in
Washington, DC’s program and the number of homeowners who have been
assisted, as of December 31, 2013.




lxviii Treasury
               has separately published March 31, 2014, figures for amounts drawn down; as of March 31, 2014, Washington, DC had
       drawn down $18.2 million.
lxix According
              to Treasury, committed program funds are funds committed to homeowners who have been approved to participate in
     HHF programs that are anticipated to be disbursed over the duration of their participation; states vary as to when and how they
     capture and report funds as committed. HHF funds committed for homeowner assistance are recorded variously as homeowner
     assistance, cash-on-hand, or undrawn funds.
lxx States
           do not publish cash-on-hand in their quarterly performance reports; cash-on-hand is the amount drawn less homeowner
    assistance and administrative expenses; states may also hold additional cash generated from interest earned on HHF cash balances,
    cash repayments of assistance from lien satisfaction recoveries, or borrower remittances received less borrower partial payments
    made.
156   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     FIGURE 2.39

                                                     WASHINGTON, DC’S HOMESAVER PROGRAM (UNEMPLOYMENT)
                                                     ESTIMATED PROGRAM PARTICIPATIONAND HOMEOWNERS
                                                     ASSISTED, AS OF 12/31/2013

                                                      1000




                                                       800

                                                                                                Peak estimate: 1,000
                                                                                                12/31/2013 estimate: 800
                                                       600                                      12/31/2013 program participation: 625
                                                                                                Homeowners assisted: 625



                                                       400




                                                       200




                                                         0
                                                             Q1’10 Q2’10 Q3’10 Q4’10 Q1’11 Q2’11 Q3’11 Q4’11 Q1’12 Q2’12 Q3’12 Q4’12 Q1’13 Q2’13 Q3’13 Q4’13


                                                                State Estimated Program Participation                 Homeowners Assisted


                                                             Notes: Estimated includes highest estimate of a range.

                                                             Sources: States provide estimates for program participation and homeowners assisted numbers.
                                                             District of Columbia Housing Finance Agency, Proposal, 9/1/2010; Treasury and District of Columbia
                                                             Housing Finance Agency, Commitment to Purchase Financial Instrument and HFA Participation
                                                             Agreement, 9/23/2010; District of Columbia Housing Finance Agency, first through eighth
                                                             Amendment[s] to Agreement[s], 9/29/2010, 12/16/2010, 3/31/2011, 5/25/2011, 10/28/2011,
                                                             3/29/2012, 12/14/2012, and 9/20/2013; District of Columbia Housing Finance Agency,
                                                             HomeSaver – A Foreclosure Prevention Program, Quarterly Performance Reports Q1 2011 - Q4
                                                             2013, no date.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014        157




FHA Short Refinance Program
On March 26, 2010, Treasury and HUD announced the FHA Short Refinance
program, which gives borrowers the option of refinancing an underwater, non-
FHA-insured mortgage into an FHA-insured mortgage at 97.75% of the home’s
value. At that time, Treasury had allocated $8.1 billion to the program, but in
March 2013, because of what it characterized as low participation rates, Treasury
reduced TARP funds allocated for the FHA Short Refinance program to $1 billion
to provide loss protection to FHA through a letter of credit, plus up to $25 million
in fees for the letter of credit.376 FHA Short Refinance is voluntary for servicers.
Therefore, not all underwater borrowers who qualify may be able to participate
in the program.377 As of March 31, 2014, according to Treasury, 4,238 loans had
been refinanced under the program.378 As of March 31, 2014, Treasury has paid
$47,840 on one claim for one default under the program. According to Treasury,
only one FHA Short Refinance loan has defaulted; however, it is possible that more
                                                                                               For more information concerning
loans have defaulted but FHA has not yet evaluated the claims.379 Treasury has                 FHA Short Refinance eligibility, see
deposited $50 million into a reserve account for future claims.380 It has also spent           SIGTARP’s April 2011 Quarterly
approximately $9.3 million on administrative expenses associated with the letter of            Report, pages 85-87.
credit.381

Who Is Eligible
To be eligible for FHA Short Refinance, a homeowner must be current on the
existing first-lien mortgage or have made three successful trial period payments; be
in a negative equity position; occupy the home as a primary residence; qualify for
the new loan under standard FHA underwriting and credit score requirements; and
have an existing loan that is not insured by FHA.382 According to the Department
of Housing and Urban Development (“HUD”), it evaluates the credit risk of the
loans.383

How FHA Short Refinance Works
Servicers must first determine the current value of the home using a third-party
appraisal by a HUD-approved appraiser. The borrower is then reviewed for credit
risk and, if necessary, referred for a review to confirm that the borrower’s total
monthly mortgage payments on all liens after the refinance is not greater than
31% of the borrower’s monthly gross income and the borrower’s total household
debt is not greater than 50%.384 Next, the lien holders must forgive principal that is
more than 115% of the value of the home. In addition, the original first-lien lender
must forgive at least 10% of the unpaid principal balance of the first-lien loan,
in exchange for a cash payment for 97.75% of the current home value from the
proceeds of the refinance. The lender may maintain a subordinate second lien for
up to 17.25% of that value (for a total balance of 115% of the home’s value).385
    If a borrower defaults, the letter of credit purchased by Treasury compensates
the investor for a first percentage of losses, up to specified amounts.386 For
mortgages originated between October 1, 2012, and May 31, 2013, the letter of
credit would cover approximately 4.38 – 18.85% of the unpaid principal balance
158   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             at default.387 FHA is responsible for the remaining losses on each mortgage. Funds
                                             may be paid from the FHA Short Refinance letter of credit until the earlier of
                                             either (1) the time that the $1 billion letter of credit is exhausted, or (2) 10 years
                                             from the issuance of the letter of credit (October 2020), at which point FHA will
                                             bear all of the remaining losses.388 Treasury’s letter of credit ended on June 1, 2013.
                                             This leaves FHA solely responsible for covering any losses for mortgages originated
                                             on or after June 1, 2013, through September 30, 2014. According to Treasury,
                                             Treasury and FHA are in discussions about Treasury’s letter of credit covering
                                             losses from September 30, 2014, through December 30, 2014.389
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014          159




FINANCIAL INSTITUTION SUPPORT PROGRAMS
Treasury created six TARP programs through which it made capital investments
or asset guarantees in exchange for equity in participating financial institutions.
Three of the programs, the Capital Purchase Program (“CPP”), the Community
                                                                                               Mandatorily Convertible Preferred
Development Capital Initiative (“CDCI”), and the Capital Assistance Program
                                                                                               Stock (“MCP”): A type of preferred
(“CAP”), were open to all qualifying financial institutions. The other three, the
                                                                                               share (ownership in a company that
Systemically Significant Failing Institutions (“SSFI”) program, the Targeted
                                                                                               generally entitles the owner of the
Investment Program (“TIP”), and the Asset Guarantee Program (“AGP”), were
                                                                                               shares to collect dividend payments)
available on a case-by-case basis to institutions that needed assistance beyond that
                                                                                               that can be converted to common
available through CPP. With the expiration of TARP funding authorization, no new
                                                                                               stock under certain parameters at the
investments can be made through these six programs.
                                                                                               discretion of the company – and must
    According to Treasury, to help improve the capital structure of some struggling
                                                                                               be converted to common stock by a
TARP recipients, Treasury agreed to modify its investment in certain cases by
                                                                                               certain time.
converting the preferred stock it originally received into other forms of equity, such
as common stock or mandatorily convertible preferred stock (“MCP”).390
                                                                                               Subchapter S Corporations (“S
                                                                                               corporations”): Corporate form that
Capital Purchase Program                                                                       passes corporate income, losses,
Treasury’s stated goal for CPP was to invest in “healthy, viable institutions” as a            deductions, and credit through to
way to promote financial stability, maintain confidence in the financial system, and           shareholders for Federal tax purposes.
enable lenders to meet the nation’s credit needs.391 CPP was a voluntary program               Shareholders of S corporations report
open by application to qualifying financial institutions, including U.S.-controlled            the flow-through of income and losses
banks, savings associations, and certain bank and savings and loan holding                     on their personal tax returns and are
companies.392                                                                                  taxed at their individual income tax
    Under CPP, Treasury used TARP funds predominantly to purchase preferred                    rates.
equity interests in the financial institutions. The institutions issued Treasury senior
preferred shares that pay a 5% annual dividend for the first five years and a 9%               Subordinated Debentures: Form of debt
annual dividend thereafter. Subchapter S corporations (“S corporations”) paid an               security that ranks below other loans
initial rate of 7.7%, that increases to 13.8%. Rate increases began in the quarter             or securities with regard to claims on
ended December 31, 2013.                                                                       assets or earnings.
    In addition to the senior preferred shares, publicly traded institutions issued
Treasury warrants to purchase common stock with an aggregate market price equal
to 15% of the senior preferred share investment.393 Privately held institutions issued
warrants to Treasury to purchase additional senior preferred stock worth 5% of                 For discussion of SIGTARP’s
                                                                                               recommendations on TARP exit paths
Treasury’s initial preferred stock investment.394 According to Treasury, through CPP,
                                                                                               for community banks, see SIGTARP’s
in total Treasury purchased $204.9 billion in preferred stock and subordinated                 October 2011 Quarterly Report, pages
debentures from 707 institutions in 48 states, the District of Columbia, and Puerto            167-169.
Rico.395
                                                                                               For discussion of SIGTARP’s
                                                                                               recommendations issued on October 9,
Status of Funds                                                                                2012, regarding CPP preferred stock
As of March 31, 2014, 107 of the 707 institutions remained in CPP; in 36 of                    auctions, see SIGTARP’s October
them, Treasury holds only warrants to purchase stock. Treasury does not consider               2012 Quarterly Report, pages 180-
these 36 institutions to be in TARP, however Treasury applies all proceeds from                183.
the sale of warrants in these banks to recovery amounts in TARP’s CPP program.
As of March 31, 2014, 71 of the 107 institutions had outstanding principal
160              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                               investments. Taxpayers were still owed $6.7 billion.396 According to Treasury,
                                                               it had write-offs, realized losses, and investments currently not collectible as a
                                                               result of bankruptcy of $4.7 billion in the program, leaving $2 billion in TARP
                                                               funds outstanding. Included as investments currently not collectible are those in
                                                               26 CPP banks, or their subsidiary banks, with total CPP investments of $790.5
      FIGURE 2.40                                              million that are in the process of bankruptcy. While Treasury has not yet realized
      STATUS OF CPP RECIPIENTS,                                those losses, it expects that all of its investments in the banks will be lost.397 As of
      AS OF 3/31/2014                                          March 31, 2014, $196 billion of the CPP principal (or 96%) had been repaid.398
                               2%                              The repayment tally includes $363.3 million in preferred stock that was converted
                                                               from CPP investments into CDCI and therefore still represents outstanding
                   21%                                         obligations to TARP. Additionally, $2.2 billion was refinanced in 2011 into SBLF, a
       1%                           34%                        non-TARP Government program.399 As of March 31, 2014, Treasury had received
       4%                                                      approximately $12.1 billion in interest and dividends from CPP recipients. Treasury
       4%
                                                               also had received $7.9 billion through the sale of CPP warrants that were obtained
       4%                        12%
                       19%                                     from TARP recipients.400 For a complete list of CPP share repurchases, see
                                                               Appendix D: “Transaction Detail.”
          Fully Repaid Principal (241)
                                                                   Of the 707 banks that received CPP investments, 636 banks no longer have
          Remaining Principal Investment in CPP (71)
          Refinanced into SBLF (137)
                                                               outstanding principal investments in CPP. Nearly a quarter of the 707 banks, or
          Refinanced into CDCI (28)                            165, refinanced into other Government programs — 28 of them into TARP’s CDCI
          Sold for less than par (25)                          and 137 into the Small Business Lending Fund (“SBLF”), a non-TARP program.401
          Failed/subsidiary failed (29)                        Only 241 of the 707 banks, or 34%, fully repaid CPP principal otherwise.402 Of
          Merged (4)
                                                               the other banks that no longer have outstanding principal investments, four CPP
          Auction: Sold at loss (159)
                                                               banks merged with other CPP banks; Treasury sold its investments in 25 banks for
          Auction: Sold at profit (13)
                                                               less than par and sold at auction its investments in 172 banks (all but 13 of these
      Note: 36 banks repaid CPP principal but remain in TARP
      with Treasury holding only warrants.                     investments sold at a loss); and 29 institutions or their subsidiary banks failed,
      Source: Treasury, response to SIGTARP data call,
                                                               meaning Treasury has lost or expects to lose its entire investment in those banks.403
      4/9/2014.                                                Figure 2.40 shows the status of the 707 CPP recipients as of March 31, 2014.
                                                                   Although the 10 largest investments accounted for $142.6 billion of the
                                                               program, CPP made many smaller investments: 311 of the 707 recipients received
                                                               less than $10 million.404 None of the banks that received investments greater
                                                               than $1 billion remain in CPP. All but two of the recipients with remaining
                                                               principal investments have outstanding investments of less than $100 million,
                                                               with more than half of the banks with remaining principal investments, or 61%,
                                                               having outstanding investments of less than $10 million.405 Table 2.24 shows the
                                                               distribution of investments by amount.
                                                                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   161




TABLE 2.24
 CPP INVESTMENT SIZE BY INSTITUTION, AS OF 3/31/2014
                                                                                              Principal                Outstanding
                                                                                
                                                                                           Investmenta                   Principalb
 $10 billion or more                                                                                       6                           0
 $1 billion to $10 billion                                                                               19                            0
 $100 million to $1 billion                                                                              57                            2
 $10 million to $100 million                                                                           314                           26
 Less than $10 million                                                                                 311                           43
 Total                                                                                                 707                           71
 Notes: Data based on the institutions’ total CPP investments. There are more than 30 institutions that have received multiple
 transactions through CPP.
 a
   These numbers are based on total Treasury CPP investment since 10/28/2008.
 b
   Amount does not include those investments that have already been repaid, sold to a third party at a discount, merged out of the
    CPP portfolio, exchanged their CPP investments for an investment under CDCI, or are related to institutions that filed for bankruptcy
    protection or had a subsidiary bank fail. Figures are based on total investments outstanding. Included in those figures are the six
    banks that were converted to common shares at a discount. The outstanding amount represented is the original par value of the
    investment. Amount does not include the 137 banks that refinanced under SBLF. Amount does not include 36 institutions that have
    repaid their CPP principal but still have warrants outstanding.

 Source: Treasury, response to SIGTARP data call, 4/9/2014.



    As of March 31, 2014, of the 71 banks with remaining principal investments
in CPP, 20 were in the Southeast region, 14 were in the Midwest region, 12 were
in the Mid-Atlantic/Northeast region, 12 were in the Southwest/South Central
region, seven were in the West region, and six were in the Mountain West/Plains
region. The Southeast region and the Mid-Atlantic/Northeast region had the largest
total remaining CPP investments; $1.4 billion and $210 million, respectively.
These regions were followed in remaining CPP investments by the Midwest
region ($117.4 million), the Southwest/South Central region ($133 million), the
Mountain West/Plains region ($42.3 million), and the West region ($50.1 million).
Table 2.25 and Figure 2.41 show the geographical distribution of the banks that
remain in CPP as of March 31, 2014, by region. Tables 2.26–2.31 show the
distribution by state.
162   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                      TABLE 2.25
                                       BANKS WITH CPP PRINCIPAL REMAINING, BY REGION, AS OF 3/31/2014
                                                                                                                                 Number of Banks
                                                                          Banks with                       Principal                   with Missed            Value of Missed
                                                                          Remaining                      Investment              Dividend/Interest           Dividend/Interest
                                                                           Principal                      Remaining                     Payments                    Payments
                                       West                                               7             $50,056,000                                      6          $7,026,080
                                       Moutain West/Plains                                6              42,315,000                                      3           3,186,503
                                       Southwest/South Central                           12             132,967,000                                    10           18,662,852
                                       Midwest                                           14             117,370,000                                    10           19,633,112
                                       Mid-Atlantic/Northeast                            12             209,979,000                                      9          24,138,946
                                       Southeast                                         20        1,405,805,602                                       14           31,981,119
                                       Total                                         71       $1,958,492,602                                           52         $104,628,606



                                      FIGURE 2.41
                                      AMOUNT OF CPP PRINCIPAL INVESTMENT REMAINING, BY REGION,
                                      AS OF 3/31/2014

                                          AK
                                                                          MOUNTAIN WEST/
                                                                              PLAINS
                                                                            $42 MILLION                                     MIDWEST                       MID-ATLANTIC/
                                                              WA                                                          $117 MILLION                     NORTHEAST
                                                                               MT                                                                   VT ME $210 MILLION
                                                                                              ND
                                                         OR                                              MN                                                 NH
                                                                                                                     WI                           NY
                                                                     ID                       SD                                                             MA
                                                                                                                             MI
                                          WEST                                 WY
                                                                                                           IA                                              CT RI
                                       $50 MILLION                                                                                OH         PA           NJ
                                                                                              NE
                                                                NV                                                    IL    IN                          DE
                                                         CA               UT                                                               WV VA
                                                                                    CO                     MO                                          MD
                                                                                                   KS                            KY
                                                                                                                                            NC
                                                                                                                            TN
                                                 HI                  AZ                             OK        AR                            SC
                                                                                    NM
                                                                                                                          MS AL       GA           SOUTHEAST
                                                                                               TX               LA                                 $1.4 BILLION

                                                                                                                                            FL                 PR
                                                                      SOUTHWEST/
                                                                     SOUTH CENTRAL
                                                                      $133 MILLION

                                                      WEST                                                           MIDWEST
                                                      MOUNTAIN WEST/PLAINS                                           MID-ATLANTIC/NORTHEAST
                                                      SOUTHWEST/SOUTH CENTRAL                                        SOUTHEAST
                                                                                       QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   163




West
TABLE 2.26
 BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 3/31/2014
                                                                                            Number of Banks
                                                               Banks with       Principal         with Missed  Value of Missed
                                       WA                      Remaining      Investment    Dividend/Interest Dividend/Interest
                                                                Principal      Remaining           Payments          Payments
          AK
                                  OR                   AK              0              $0                   0                 $0
                                                       CA              7     50,056,000                    6          7,026,080
                                                       HI              0               0                   0                   0
                                                       OR              0               0                   0                   0
                                  CA                   WA              0               0                   0                   0
                                                       Total           7    $50,056,000                    6        $7,026,080
                   HI

    WEST                          >$100 million
    Principal investment          $21-$100 million
    remaining in CPP banks        $1-$20 million
                                  $0




Mountain West/Plains
TABLE 2.27
 BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 3/31/2014
                                                                                            Number of Banks
                                                               Banks with       Principal         with Missed  Value of Missed
                                                               Remaining      Investment    Dividend/Interest Dividend/Interest
                        MT             ND                       Principal      Remaining           Payments          Payments
                                                       CO              2    $15,715,000                    1          $789,865
             ID                        SD
                         WY                            ID              1       6,900,000                   1          1,786,238

                                       NE              KS              2     17,600,000                    1            610,400
     NV
                  UT                                   MT              0               0                   0                   0
                             CO
                                            KS         ND              0               0                   0                   0
                                                       NE              0               0                   0                   0
 MOUNTAIN WEST/                     >$100 million      NV              0               0                   0                   0
                                    $21-$100 million
 PLAINS                             $1-$20 million     SD              0               0                   0                   0
 Principal investment
                                    $0
 remaining in CPP banks                                UT              0               0                   0                   0
                                                       WY              1       2,100,000                   0                   0
                                                       Total           6    $42,315,000                    3        $3,186,503
164   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




        Southwest/South Central
        TABLE 2.28
         BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 3/31/2014
                                                                                                           Number of Banks
                                                                             Banks with        Principal         with Missed  Value of Missed
                                                                             Remaining       Investment    Dividend/Interest Dividend/Interest
              AZ                                 OK                           Principal       Remaining           Payments          Payments
                          NM                              AR
                                                                     AR              4     $55,017,000                    4        $7,908,175
                                                          LA         AZ              2        6,440,000                   1           559,680
                                            TX
                                                                     LA              1        2,400,000                   1           163,500
                                                                     NM              0                0                   0                 0
                                                                     OK              0                0                   0                 0
            SOUTHWEST/                            >$100 million      TX              5      69,110,000                    4        10,031,497
                                                  $21-$100 million
            SOUTH CENTRAL                         $1-$20 million     Total          12    $132,967,000                   10      $18,662,852
            Principal investment                  $0
            remaining in CPP banks




        Midwest
        TABLE 2.29
         BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 3/31/2014
                                                                                                           Number of Banks
                                                                             Banks with        Principal         with Missed  Value of Missed
                                                                             Remaining       Investment    Dividend/Interest Dividend/Interest
                   MN                                                         Principal       Remaining           Payments          Payments
                             WI                                      IA              0               $0                   0                $0
                                        MI
                     IA                                              IL              5      43,251,000                    3         8,195,418

                                  IL   IN    OH                      IN              0                0                   0                 0
                        MO                                           KY              2      41,300,000                    2         5,920,075
                                            KY
                                                                     MI              0                0                   0                 0
                                                                     MN              4      23,682,000                    3         4,404,643
              MIDWEST                        >$100 million
              Principal investment           $21-$100 million        MO              2        4,037,000                   1            70,663
              remaining in CPP               $1-$20 million
              banks                          $0                      OH              0                0                   0                 0
                                                                     WI              1        5,100,000                   1         1,042,313
                                                                     Total          14    $117,370,000                   10      $19,633,112
                                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   165




Mid-Atlantic/Northeast
TABLE 2.30
 BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 3/31/2014
                                                                                                    Number of Banks
                                                                    Banks with          Principal         with Missed  Value of Missed
                            VT    ME                                Remaining         Investment    Dividend/Interest Dividend/Interest
                                                                     Principal         Remaining           Payments          Payments
                                       NH                   CT              0                 $0                   0                 $0
                       NY               MA
                                             RI             DE              0                  0                   0                   0
                                    CT
                  PA                NJ                      MA              2        17,063,000                    1          3,015,750
                                  DE
         WV VA                   MD                         MD              6        62,043,000                    6         11,895,745
         WV
                                                            ME              0                  0                   0                   0
                                                            NH              0                  0                   0                   0
   MID-ATLANTIC/                         >$100 million      NJ              1          9,439,000                   1          2,005,788
                                         $21-$100 million
   NORTHEAST                             $1-$20 million     NY              0                  0                   0                   0
   Principal investment                  $0
   remaining in CPP banks                                   PA              1        30,407,000                    1          7,221,663
                                                            RI              0                  0                   0                   0
                                                            VA              2        91,027,000                    0                   0
                                                            VT              0                  0                   0                   0
                                                            WV              0                  0                   0                   0
                                                            Total          12     $209,979,000                     9      $24,138,946




Southeast
TABLE 2.31
 BANKS WITH CPP PRINCIPAL REMAINING, BY STATE, AS OF 3/31/2014
                                                                                                    Number of Banks
                                                                    Banks with          Principal         with Missed  Value of Missed
                                 NC                                 Remaining         Investment    Dividend/Interest Dividend/Interest
             TN
                             SC                                      Principal         Remaining           Payments          Payments

      MS               GA                                   AL              2        $4,466,000                    2          $617,295
             AL
                                             PR             FL              5        74,307,000                    5         16,195,863
                                                            GA              2        19,680,000                    2          3,753,960
                                 FL
                                                            MS              2          7,443,320                   0                   0
                                                            NC              2        64,679,000                    1          2,141,588
     SOUTHEAST                         >$100 million
                                                            PR              2      1,173,972,282                   0                   0
     Principal investment              $21-$100 million
     remaining in CPP                  $1-20 million        SC              4        43,452,000                    3          6,361,213
     banks                             $0
                                                            TN              1        17,806,000                    1          2,911,200
                                                            Total          20    $1,405,805,602                   14      $31,981,119
166               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




 TABLE 2.32
                                                                    Program Administration
  MISSED DIVIDEND/INTEREST
                                                                    Although Treasury’s investment authority for CPP has ended, Treasury still has
  PAYMENTS BY INSTITUTIONS,
  9/30/2009 TO 3/31/2014                                            significant responsibilities for managing the existing CPP portfolio, including the
  ($ MILLIONS)                                                      following:
                                                Value of
  Quarter               Number of                Unpaid             •	 collecting dividends and interest payments on outstanding investments
  End                   Institutions          Amountsa,b,c
                                                                    •	 monitoring the performance of outstanding investments
  9/30/2009                           38                $75.7
                                                                    •	 disposing of warrants as investments are repaid
  12/31/2009                          43                137.4
                                                                    •	 selling or restructuring Treasury’s investments in some troubled financial
  3/31/2010                           67                182.0          institutions
  6/30/2010d                        109                 209.7       •	 selecting observers for recipients that have missed five quarterly dividend
  9/30/2010                         137                 211.3          payments
  12/31/2010                        155                 276.4       •	 selecting directors for recipients that have missed six or more quarterly dividend
  3/31/2011                         173                 277.3          payments
  6/30/2011                         188                 320.8
  9/30/2011                         193                 356.9       Dividends and Interest
  12/31/2011                        197                 377.0
                                                                    As of March 31, 2014, Treasury had received $12.1 billion in dividends on its
                                                                    CPP investments.406 However, as of that date, missed dividend and interest
  3/31/2012                         200                 416.0
                                                                    payments by 181 institutions, including banks with missed payments that no
  6/30/2012                         203                 455.0
                                                                    longer have outstanding CPP principal investments, totaled approximately $512
  9/30/2012                         199                 480.1
                                                                    million, an increase from last quarter’s $506.9 million in missed payments from
  12/31/2012                        195                 506.2       183 institutions. Approximately $30.7 million of the unpaid amounts are non-
  3/31/2013                         192                 529.0       cumulative, meaning that the institution has no legal obligation to pay Treasury
  6/30/2013                         188                 494.9       unless the institution declares a dividend.407
  9/30/2013                         184                 501.8           More than two-thirds, or 52 of the 71 banks that had remaining CPP principal
  12/31/2013                        183                 506.9       investments as of March 31, 2014, were not current on their dividend and interest
  3/31/2014                         181                 512.0       payments to Treasury.408 The 52 banks were behind by as many as 21 payments
  Notes:                                                            and in total were overdue in payments to Treasury of $104.6 million.409 As of
    Includes unpaid cumulative dividends, non-cumulative
                                                                    March 31, 2014, 52 of the 71 banks with remaining principal investments were
  a

    dividends, and Subchapter S interest payments but
    does not include interest accrued on unpaid cumulative          overdue by at least three payments, including 48 banks that were overdue by at
    dividends.
  b
       Excludes institutions that missed payments but (i) had      least six payments.410 Of the banks with remaining principal investments that are
        fully caught up on missed payments at the end of the
        quarter reported in column 1 or (ii) had repaid their       not current on payments, 37 have unpaid dividend and interest payments that are
        investment amounts.
  c
     Includes institutions that missed payments and (i)            cumulative, and 10 have unpaid dividend payments that are non-cumulative.
      entered into a recapitalization or restructuring with
      Treasury, (ii) for which Treasury sold the CPP investment
                                                                        Table 2.32 shows the number of institutions and total unpaid amount of
      to a third party or otherwise disposed of the investment      dividend and interest payments by quarter from September 30, 2009, to March
      to facilitate the sale of the institution to a third party
      without receiving full repayment of unpaid dividends,         31, 2014. Tables 2.26–2.31 show the distribution of missed payments and value of
      (iii) filed for bankruptcy relief, or (iv) had a subsidiary
      bank fail.                                                    those payments by state.
  d
      Includes four institutions and their missed payments
      not reported in Treasury’s Capital Purchase Program
      Missed Dividends and Interest Payments Report as of
      6/30/2010 but reported in Treasury’s Dividends and
      Interest Report as of the same date. The four institutions
      are CIT, Pacific Coast National Bancorp, UCBH Holdings,
      Inc., and Midwest Banc Holdings, Inc.

  Sources: Treasury, Dividends and Interest Report,
  4/10/2014; Treasury, responses to SIGTARP data calls,
  10/7/2009, 1/12/2010, 4/8/2010, 6/30/2010,
  10/11/2011, 1/5/2012, 4/5/2012, 7/10/2012,
  10/10/2012, 1/10/2013, 4/4/2013, 7/5/2013,
  10/7/2013, 1/8/2014, 4/9/2014; SIGTARP Quarterly
  Report to Congress, 1/30/2010, 4/20/2010,
  7/21/2010, and 10/26/2010.
                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014         167




CPP Dividend Rates Increase for Remaining Banks
As the banks with remaining principal investments reach the five-year anniversary
of the date of investment, they face a dividend rate increase from 5% to 9% on the
next quarterly payment due date. For example, if the investment in a bank matured
to five years in December 2013, the payment due on the next quarterly payment
date in February 2014 will be at the 9% dividend rate (some banks structured as S
corporations face an interest rate increase from 7.7% to 13.8%). The rate increases
have already started to take place and will affect large numbers of the remaining
CPP banks throughout 2014.
    Of the 71 banks with remaining CPP principal investments, there are 26 banks
whose rates have already increased as of March 31, 2014; of them, 18 are already
behind on their dividend payments. By the May 15, 2014, payment date, rates
will increase to 9% for an additional 29 banks, of which 25 are already behind
on dividend payments. By the August 15, 2014, payment date, rates will increase
for 13 more banks, nine of which have already missed dividend payments. Rates
will increase for one more bank by November 15, 2014, and for the remaining
two banks by February 15, 2015. Table 2.33 lists the remaining banks by date of
dividend rate increase.
    As of March 31, 2014, of the 71 banks with remaining principal investments
in CPP, 52 already have overdue missed dividends and interest. For these banks,
with the increase in the dividend rate, the amount overdue to Treasury will grow           For more on SIGTARP’s October
more quickly. While all banks, regardless of size, received CPP on the same terms,         2011 recommendation regarding
the one-size-fits-all repayment terms may not fit all. Because so many of these            how Treasury should treat community
banks are not paying the 5% dividend, an increase to 9% may not have the intended          banks unable to exit TARP before the
effect of incentivizing them to exit TARP, particularly if they lack the ability to        dividend rate increase, see SIGTARP’s
                                                                                           October 2011 Quarterly Report, pages
raise capital. In October 2011, SIGTARP recommended to Treasury that it assess             167-169, and SIGTARP’s January
whether it should renegotiate the terms of its CPP contracts for those community           2012 Quarterly Report, pages 159-
banks that will not be able to exit TARP prior to the dividend rate increase.              161.
Treasury did not implement this recommendation.
168   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      TABLE 2.33
       CPP-RELATED DIVIDEND RATE INCREASES, AS OF 3/31/2014
                                                                                                                         Number
                                                                                                   Value of Missed      of Missed
                                                                    Investment      Outstanding   Dividend/Interest      Dividend
       Institution                               Location                 Date   Capital Amount          Payments       Payments
       Rate Increased 12/5/2013
       Popular, Inc.                             San Juan, PR        12/5/2008    $935,000,000
       Rate Increased 2/15/2014
       First BanCorp                             San Juan, PR        1/16/2009     238,972,282
       Hampton Roads Bankshares, Inc.            Norfolk, VA        12/31/2008      80,347,000
       FNB United Corp.                          Asheboro, NC        2/13/2009      51,500,000
       Porter Bancorp Inc.                       Louisville, KY     11/21/2008      35,000,000          $3,937,500               9
       First United Corporation                  Oakland, MD         1/30/2009      30,000,000           4,875,000              13
       Patriot Bancshares, Inc.                  Houston, TX        12/19/2008      26,038,000           4,257,240              12
       Broadway Financial Corporation            Los Angeles, CA    11/14/2008      15,000,000
                                                 Mount Pleasant,
       Tidelands Bancshares, Inc                                    12/19/2008      14,448,000           2,347,800              13
                                                 SC
       Bankers’ Bank of the West Bancorp, Inc.   Denver, CO          1/30/2009      12,639,000
       One United Bank                           Boston, MA         12/19/2008      12,063,000           2,864,963              19
       Cecil Bancorp, Inc.                       Elkton, MD         12/23/2008      11,560,000           2,312,000              16
       Community Bankers Trust Corporation       Glen Allen, VA     12/19/2008      10,680,000
       NCAL Bancorp                              Los Angeles, CA    12/19/2008      10,000,000           1,362,500              10
       Western Community Bancshares, Inc.        Palm Desert, CA    12/23/2008       7,290,000           1,390,725              14
       Idaho Bancorp                             Boise, ID           1/16/2009       6,900,000           1,692,225              18
       Greer Bancshares Incorporated             Greer, SC           1/30/2009       6,843,000
       Citizens Commerce Bancshares, Inc.        Versailles, KY       2/6/2009       6,300,000           1,459,238              17
       Patapsco Bancorp, Inc.                    Dundalk, MD        12/19/2008       6,000,000           1,226,250              15
       Rising Sun Bancorp                        Rising Sun, MD       1/9/2009       5,983,000           1,385,755              17
                                                 Rancho Santa
       CalWest Bancorp                                               1/23/2009       4,656,000             824,753              13
                                                 Margarita, CA
       Lone Star Bank                            Houston, TX          2/6/2009       3,072,000             799,622              19
                                                 Garden Grove,
       US Metro Bank                                                  2/6/2009       2,861,000             311,840               8
                                                 CA
       Goldwater Bank, N.A.                      Scottsdale, AZ      1/30/2009       2,568,000             524,700              15
       Saigon National Bank                      Westminster, CA    12/23/2008       1,549,000             412,993              20
       Calvert Financial Corporation             Ashland, MO         1/23/2009       1,037,000              56,530               4
       Rate Increases 5/15/2014
       Royal Bancshares of Pennsylvania, Inc.    Narberth, PA        2/20/2009      30,407,000           6,841,575              18
       Central Bancorp, Inc.                     Garland, TX         2/27/2009      22,500,000           3,372,188              11
       Community First Inc.                      Columbia, TN        2/27/2009      17,806,000           2,668,600              11
       Liberty Shares, Inc.                      Hinesville, GA      2/20/2009      17,280,000           3,060,720              13
       Northern States Financial Corporation     Waukegan, IL        2/20/2009      17,211,000           3,657,338              17
       White River Bancshares Company            Fayetteville, AR    2/20/2009      16,800,000           2,746,800              12
       Bank of the Carolinas Corporation         Mocksville, NC      4/17/2009      13,179,000           1,976,850              12
       HCSB Financial Corporation                Loris, SC            3/6/2009      12,895,000           1,934,250              12
       Farmers & Merchants Bancshares, Inc.      Houston, TX          3/6/2009      11,000,000             749,375               5
       Regent Bancorp, Inc.                      Davie, FL            3/6/2009       9,982,000           1,768,033              13
                                                                                                             Continued on next page
                                                                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014              169



CPP-RELATED DIVIDEND RATE INCREASES, AS OF 3/31/2014                                                     (CONTINUED)

                                                                                                                                                                               Number
                                                                                                                                                Value of Missed               of Missed
                                                                                        Investment               Outstanding                   Dividend/Interest               Dividend
Institution                                              Location                             Date            Capital Amount                          Payments                Payments
City National Bancshares Corporation                     Newark, NJ                     4/10/2009                   $9,439,000                          $1,887,800                  16
Provident Community Bancshares, Inc.                     Rock Hill, SC                  3/13/2009                     9,266,000                           1,621,550                 14
United American Bank                                     San Mateo, CA                  2/20/2009                     8,700,000                           2,245,627                 19
Private Bancorporation, Inc.                             Minneapolis, MN                2/27/2009                     8,222,000                           1,408,615                 13
Highlands Independent Bancshares, Inc.                   Sebring, FL                      3/6/2009                    6,700,000                           1,095,450                 12
Capital Commerce Bancorp, Inc.                           Milwaukee, WI                  4/10/2009                     5,100,000                              972,825                14
Pinnacle Bank Holding Company, Inc.                      Orange City, FL                  3/6/2009                    4,389,000                              837,060                14
Metropolitan Capital Bancorp, Inc.                       Chicago, IL                    4/10/2009                     4,388,000
Allied First Bancorp, Inc.                               Oswego, IL                     4/24/2009                     3,652,000                              497,675                10
Marine Bank & Trust Company                              Vero Beach, FL                   3/6/2009                    3,000,000                              531,375                13
St. Johns Bancshares, Inc.                               St. Louis, MO                  3/13/2009                     3,000,000
Freeport Bancshares, Inc.a                               Freeport, IL                     5/8/2009                    3,000,000
Prairie Star Bancshares, Inc.                            Olathe, KS                       4/3/2009                    2,800,000                              572,250                15
Citizens Bank & Trust Company                            Covington, LA                  3/20/2009                     2,400,000                              163,500                 5
CSRA Bank Corp.                                          Wrens, GA                      3/27/2009                     2,400,000                              425,100                13
Crazy Woman Creek Bancorp, Inc.                          Buffalo, WY                    2/20/2009                     2,100,000
Market Bancorporation, Inc.                              New Market, MN                 2/20/2009                     2,060,000                              392,945                14
BCB Holding Company, Inc.                                Theodore, AL                     4/3/2009                    1,706,000                              255,613                11
Maryland Financial Bank                                  Towson, MD                     3/27/2009                     1,700,000                              115,813                 5
Rate Increases 8/15/2014
U.S. Century Bank                                        Miami, FL                        8/7/2009                  50,236,000                          10,951,520                  16
Chambers Bancshares, Inc.b                               Danville, AR                   5/29/2009                   19,817,000                            1,662,667                  4
OneFinancial Corporation         c
                                                         Little Rock, AR                  6/5/2009                  17,300,000                            2,456,997                  7
Suburban Illinois Bancorp, Inc.d                         Elmhurst, IL                   6/19/2009                   15,000,000                            3,460,875                 11
Equity Bancshares, Inc. (First
                                                         Wichita, KS                    5/15/2009                   14,800,000
Community Bancshares, Inc)
Great River Holding Companye                             Baxter, MN                     7/17/2009                     8,400,000                           2,290,470                 13
Harbor Bankshares Corporation                            Baltimore, MD                  7/17/2009                     6,800,000                           1,190,000                 14
Covenant Financial Corporation                           Clarksdale, MS                   6/5/2009                    5,000,000
Duke Financial Group, Inc.           f
                                                         Minneapolis, MN                6/19/2009                     5,000,000
Community Bancshares, Inc.                               Kingman, AZ                    7/24/2009                     3,872,000
Grand Mountain Bancshares, Inc.                          Granby, CO                     5/29/2009                     3,076,000                              747,950                18
SouthFirst Bancshares, Inc.                              Sylacauga, AL                  6/12/2009                     2,760,000                              300,840                 8
Riverside Bancshares, Inc.               g
                                                         Little Rock, AR                5/15/2009                     1,100,000                                46,145                2
Rate Increases 11/15/2014
Grand Financial Corporationh                             Hattiesburg, MS                9/25/2009                     2,443,320
Rate Increases 2/15/2015
Liberty Bancshares, Inc.                                 Fort Worth, TX                 12/4/2009                     6,500,000
Wachusett Financial Services, Inc.                       Clinton, MA                  12/11/2009                      5,000,000
Notes: Numbers may not total due to rounding.
a
  Freeport Bancshares, Inc. is an S-Corporation, so its interest rate increases from 7.7% to 13.8% on the five-year anniversary of Treasury’s investment (5/8/2009).
b
  Chambers Bancshares, Inc. is an S-Corporation, so its interest rate increases from 7.7% to 13.8% on the five-year anniversary of Treasury’s investment (5/29/2009).
c
  OneFinancial Corporation is an S-Corporation, so its interest rate increases from 7.7% to 13.8% on the five-year anniversary of Treasury’s investment (6/5/2009).
d
  Suburban Illinois Bancorp, Inc. is an S-Corporation, so its interest rate increases from 7.7% to 13.8% on the five-year anniversary of Treasury’s investment (6/19/2009).
e
  Great River Holding Company is an S-Corporation, so its interest rate increases from 7.7% to 13.8% on the five-year anniversary of Treasury’s investment (7/17/2009).
f
  Duke Financial Group, Inc. is an S-Corporation, so its interest rate increases from 7.7% to 13.8% on the five-year anniversary of Treasury’s investment (6/19/2009).
g
  Riverside Bancshares, Inc. is an S-Corporation, so its interest rate increases from 7.7% to 13.8% on the five-year anniversary of Treasury’s investment (5/15/2009).
h
  Grand Financial Corporation is an S-Corporation, so its interest rate increases from 7.7% to 13.8% on the five-year anniversary of Treasury’s investment (9/25/2009).
170            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Treasury’s Policy on Missed Dividend and Interest Payments
                                                      According to Treasury, it “evaluates its CPP investments on an ongoing basis with
                                                      the help of outside advisors, including external asset managers. The external asset
                                                      managers provide a valuation for each CPP investment” that results in Treasury
                                                      assigning the institution a credit score.411 For those that have unfavorable credit
                                                      scores, including any institution that has missed more than three dividend (or
                                                      interest) payments, Treasury has stated that the “asset manager dedicates more
                                                      resources to monitoring the institution and may talk to the institution on a more
                                                      frequent basis.”412
                                                          Under the terms of the preferred shares or subordinated debentures held by
                                                      Treasury as a result of its CPP investments, in certain circumstances, such as when
                                                      a participant misses six dividend (or interest) payments, Treasury has the right to
                                                      appoint up to two additional members to the institution’s board of directors.413
                                                      These directors will not represent Treasury, but rather will have the same fiduciary
                                                      duties to shareholders as all other directors. They will be compensated by the
                                                      institution in a manner similar to other directors.414
                                                          As of March 31, 2014, of the 71 institutions with remaining principal
                                                      investments, 48 CPP institutions have missed at least six payments.415 As of March
                                                      31, 2014, Treasury had made director appointments to the boards of directors
                                                      of 16 CPP banks, as noted in Table 2.35.416 Most of those banks no longer have
      On September 30, 2013, SIGTARP                  remaining CPP principal investments. Just three of the 71 banks with remaining
      made three recommendations
      regarding appointments of directors to
                                                      principal investments have Treasury-appointed directors. On February 6, 2014,
      the boards of CPP and CDCI banks,               Treasury appointed Larry Mingledorff and Paul Clabuesch to the board of directors
      which are discussed in Section 5 of             Central Bancorp, Inc., Garland, Texas, after it had missed 12 payments totaling
      this report.                                    $3.7 million.417
                                                          For institutions that miss five or more dividend (or interest) payments, Treasury
                                                      has stated that it would seek consent from such institutions to send observers to
                                                      the institutions’ board meetings.418 As of March 31, 2014, of the 71 CPP banks
                                                      with remaining principal investments, 51 had missed at least five payments.419
                                                      According to Treasury, the observers would be selected from its Office of Financial
                                                      Stability (“OFS”) and assigned to “gain a better understanding of the institution’s
                                                      condition and challenges and to observe how the board is addressing the
                                                      situation.”420 Their participation would be “limited to inquiring about distributed
                                                      materials, presentations, and actions proposed or taken during the meetings, as
                                                      well as addressing any questions concerning” their role.421 The findings of the
                                                      observers are taken into account when Treasury evaluates whether to appoint
                                                      individuals to an institution’s board of directors.422 As of March 31, 2014, Treasury
                                                      had assigned observers to 21 current CPP recipients, as noted in Table 2.35.423
                                                          Twelve banks have rejected Treasury’s requests to send an observer to the
                                                      institutions’ board meetings.424 The banks had initial CPP investments of as much
                                                      as $27 million, have missed as many as 21 quarterly dividend payments to Treasury,
                                                      and have been overdue in dividend payments by as much as $4.1 million.425 Five of
                                                      these banks have since been sold at a loss to Treasury at auction.426 Five of these
                                                      banks have remaining CPP principal investments, three of which continue to
                                                      have missed payments.427 At 21 missed dividend payments, Saigon National Bank,
                                                                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                                   171




Westminster, California, which has never made a dividend payment, has more
missed payments than any TARP bank, yet rejected Treasury’s request to send an
observer to its board meetings.428 Table 2.34 lists the banks that rejected Treasury
observers.
     Seven of the 707 banks that received CPP investments have never made a
single dividend payment to Treasury since receiving CPP investments. Of these
seven banks, four have remaining CPP principal investments and two have exited
TARP as a result of bankruptcy. Midwest Banc Holdings, Inc., Melrose Park,
Illinois, and One Georgia Bank, Atlanta, Georgia, both exited CPP by bankruptcy.
The four remaining banks that have never made a dividend payment are: Saigon
National Bank, Westminster, California (21 missed payments); Lone Star Bank,
Houston, Texas (20); United American Bank, San Mateo, California (20); and
Grand Mountain Bankshares, Granby, Colorado (19).

TABLE 2.34
 CPP BANKS THAT REJECTED TREASURY OBSERVERS
                                                                    CPP Principal                Number of                 Value of Missed             Date of Treasury
 Institution                                                          Investment           Missed Payments                       Payments                       Request             Date of Rejection
 Intermountain Community Bancorp                                      $27,000,000                                —a                          $—                 3/11/2011                    4/12/2011
 Community Bankers Trust Corporation                                   17,680,000                                —   b
                                                                                                                                               —              10/18/2011                    11/23/2011
 White River Bancshares Company                                        16,800,000                                13                 2,975,700                   3/28/2012                    4/27/2012
 Timberland Bancorp, Inc.c                                             16,641,000                                —d                            —                6/27/2011                    8/18/2011
 Alliance Financial Services Inc.        c
                                                                       12,000,000                                12   e
                                                                                                                                    3,020,400                   3/10/2011                      5/6/2011
 Central Virginia Bankshares, Inc.f                                    11,385,000                               15g                 2,134,688                     3/9/2011                   5/18/2012
 Commonwealth Business Bankc                                             7,701,000                               10h                1,049,250                   8/13/2010                    9/20/2010
 Pacific International Bancorpi                                          6,500,000                                —j                           —                9/23/2010                   11/17/2010
 Rising Sun Bancorp                                                      5,983,000                               18                 1,467,270                   12/3/2010                    2/28/2011
 Omega Capital Corp.c                                                    2,816,000                               15k                   575,588                  12/3/2010                    1/13/2011
 Citizens Bank & Trust Company                                           2,400,000                                 5                   163,500                  9/23/2010                   11/17/2010
 Saigon National Bank                                                    1,549,000                               21                    434,088                  8/13/2010                    9/20/2010
 Notes: Numbers may not total due to rounding.
 a
    Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Intermountain Community Bancorp had 12 missed payments totaling
     $4.1 million.
 b
      Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Community Bankers had seven missed payments totaling $1.5 million.
 c
     Bank was sold at a loss at auction.
 d
     Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Timberland had eight missed payments totaling $1.7 million.
 e
     Alliance Financial Services Inc. was sold at a loss at auction and its missed payments to Treasury were not repaid.
 f
    Bank accepted and then declined Treasury’s request to have a Treasury observer attend board of directors meetings.
 g
       Central Virginia Bankshares, Inc. was sold to C&F Financial Corporation and its missed payments to Treasury were not repaid.
 h
    Commonwealth Business Bank was sold at a loss at auction and its missed payments to Treasury were not repaid.
 i
    Bank has exited the Capital Purchase Program.
 j
   Bank later became current in accrued and unpaid dividends after missing the initial scheduled payment date(s). Prior to repayment, Pacific International Bancorp had 10 missed payments totaling $0.8
   million.
 k
    Omega Capital Corp. was sold at a loss at auction and its missed payments to Treasury were not repaid.

 Source: Treasury, Dividends and Interest Report, 4/10/2014.
172   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 SIGTARP and Treasury do not use the same methodology to report unpaid
                                             dividend and interest payments. For example, Treasury generally excludes
                                             institutions from its “non-current” reporting: (i) that have completed a
                                             recapitalization, restructuring, or exchange with Treasury (though Treasury does
                                             report such institutions as non-current during the pendency of negotiations); (ii)
                                             for which Treasury sold the CPP investment to a third party, or otherwise disposed
                                             of the investment to facilitate the sale of the institution to a third party; (iii) that
                                             filed for bankruptcy relief; or (iv) that had a subsidiary bank fail.429 SIGTARP
                                             generally includes such activity in Table 2.35 under “Value of Unpaid Amounts”
                                             with the value set as of the date of the bankruptcy, restructuring, or other event
                                             that relieves the institution of the legal obligation to continue to make dividend
                                             and interest payments. If a completed transaction resulted in payment to Treasury
                                             for all unpaid dividends and interest, SIGTARP does not include the institution’s
                                             obligations under unpaid amounts. As of March 31, 2014, for all CPP banks,
                                             including those that were missing payments when they exited, 94 banks had
                                             missed at least 10 dividend (or interest) payments and 143 banks had missed five
                                             dividend (or interest) payments totaling $426.1 million.430 Table 2.35 lists CPP
                                             recipients that had unpaid dividend (or interest) payments as of March 31, 2014.
                                             For a complete list of CPP recipients and institutions making dividend or interest
                                             payments, see Appendix D: “Transaction Detail.”
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014             173




TABLE 2.35
 CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2014
                                                                        Observers
                                                            Number       Assigned
                                          Dividend or      of Missed   to Board of          Value of Missed         Value of Unpaid
 Company                                  Payment Type     Payments     Directors1               Payments2              Amounts2,3,4
 Saigon National Bank                     Non-Cumulative         21                               $434,088                 $434,088
 Lone Star Bank                           Non-Cumulative         20        ✓                       841,487                     841,487
 OneUnited Bank                           Interest               20        ✓                     3,015,750                3,015,750
 United American Bank                     Non-Cumulative         20                              2,364,165                2,364,165
 Grand Mountain Bancshares, Inc.          Cumulative             19        ✓                       789,865                     789,865
 Idaho Bancorp                            Cumulative             19        ✓                     1,786,238                1,786,238
 Royal Bancshares of Pennsylvania, Inc.   Cumulative             19        n                     7,221,663                7,221,663
 Citizens Commerce Bancshares, Inc.       Cumulative             18                              1,545,075                1,545,075
 Northern States Financial Corporation    Cumulative             18        n                     3,872,475                3,872,475
 Rising Sun Bancorp                       Cumulative             18                              1,467,270                1,467,270
 Cecil Bancorp, Inc.                      Cumulative             17        ✓                     2,456,500                2,456,500
 City National Bancshares Corporation     Cumulative             17                              2,005,788                2,005,788
 U.S. Century Bank                        Non-Cumulative         17        ✓                    11,635,990               11,635,990
 Goldwater Bank, N.A.**                   Non-Cumulative         16                                559,680                     559,680
 Patapsco Bancorp, Inc.                   Cumulative             16                              1,308,000                1,308,000
 Prairie Star Bancshares, Inc.            Cumulative             16                                610,400                     610,400
 Capital Commerce Bancorp, Inc.           Cumulative             15                              1,042,313                1,042,313
 Harbor Bankshares Corporation**          Cumulative             15                              1,445,000                1,275,000
 Market Bancorporation, Inc.              Cumulative             15                                421,013                     421,013
 Pinnacle Bank Holding Company            Cumulative             15                                896,850                     896,850
 Provident Community Bancshares, Inc.     Cumulative             15                              1,737,375                1,737,375
 Western Community Bancshares, Inc.       Cumulative             15                              1,490,063                1,490,063
 CalWest Bancorp                          Cumulative             14                                888,195                     888,195
 CSRA Bank Corp.                          Cumulative             14                                457,800                     457,800
 First United Corporation                 Cumulative             14        ✓                     5,250,000                5,250,000
 Great River Holding Company*,**          Interest               14                              2,466,660                2,466,660
 Liberty Shares, Inc.                     Cumulative             14        ✓                     3,296,160                3,296,160
 Marine Bank & Trust Company              Non-Cumulative         14                                572,250                     572,250
 Private Bancorporation, Inc.             Cumulative             14                              1,516,970                1,516,970
 Regent Bancorp, Inc    **
                                          Cumulative             14                              1,904,035                1,904,035
 Tidelands Bancshares, Inc                Cumulative             14        ✓                     2,528,400                2,528,400
 Bank of the Carolinas Corporation        Cumulative             13        ✓                     2,141,588                2,141,588
 HCSB Financial Corporation               Cumulative             13        ✓                     2,095,438                2,095,438
 Highlands Independent Bancshares,
                                          Cumulative             13                              1,186,738                1,186,738
 Inc.
                                                                                                              Continued on next page
174             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2014                              (CONTINUED)

                                                                                         Observers
                                                                             Number       Assigned
                                                         Dividend or        of Missed   to Board of          Value of Missed          Value of Unpaid
      Company                                            Payment Type       Payments     Directors1               Payments2               Amounts2,3,4
      Patriot Bancshares, Inc.                           Cumulative               13        ✓                       $4,612,010             $4,612,010
      White River Bancshares Company                     Cumulative               13                                 2,975,700              2,975,700
      BCB Holding Company, Inc.                          Cumulative               12                                  278,850                 278,850
      Central Bancorp, Inc.                              Cumulative               12        n                        3,678,750              3,678,750
      Community First, Inc.                              Cumulative               12        ✓                        2,911,200              2,911,200
      Suburban Illinois Bancorp, Inc.*,**                Interest                 12        ✓                        3,775,500              3,775,500
      Allied First Bancorp, Inc.                         Cumulative               11                                  547,443                 547,443
      NCAL Bancorp                                       Cumulative               11        ✓                        1,498,750              1,498,750
      Porter Bancorp, Inc.                               Cumulative               10        ✓                        4,375,000              4,375,000
      SouthFirst Bancshares, Inc.                        Cumulative                9                                  338,445                 338,445
      US Metro Bank   **
                                                         Non-Cumulative            9                                  350,820                 350,820
      OneFinancial Corporation            *,**
                                                         Non-Cumulative            8        ✓                        2,807,996              2,807,996
      Farmers & Merchants Bancshares,
                                                         Cumulative                6        ✓                        1,049,125                899,250
      Inc.**
      Maryland Financial Bank                            Non-Cumulative            6                                  138,975                 138,975
      Calvert Financial Corporation                      Cumulative                5                                   70,663                  70,663
      Chambers Bancshares, Inc.*,**                      Interest                  5        ✓                        2,078,334              2,078,334
      Citizens Bank & Trust Company                      Non-Cumulative            5                                  163,500                 163,500
      Riverside Bancshares, Inc.*,**                     Interest                  2                                   46,145                  46,145
      Exchanges, Sales,
      Recapitalizations, and Failed                                                                                                                   
      Banks with Missing Payments
      Blue Valley Ban Corp*****                          Cumulative               18        n                        4,893,750              4,893,750
      Pacific City Financial Corporation         *****
                                                         Cumulative               18                                 3,973,050              3,973,050
      Centrue Financial Corporation*****                 Cumulative               18        n                        6,959,475              6,959,475
      Georgia Primary Bank        *****
                                                         Non-Cumulative           18        ✓                        1,113,163              1,113,163
      Anchor BanCorp Wisconsin, Inc.****                 Cumulative               17        n                       23,604,167             23,604,167
      First Banks, Inc.*****                             Cumulative               17        n                       64,543,063             64,543,063
      Syringa Bancorp      ****
                                                         Cumulative               17        ✓                        1,853,000              1,853,000
      Central Virginia Bankshares, Inc. *****            Cumulative               15                                 2,134,688              2,134,688
      Omega Capital Corp.         *****
                                                         Cumulative               15                                  575,588                 575,588
      Rogers Bancshares, Inc.****                        Cumulative               15        n                        5,109,375              5,109,375
      Pathway Bancorp*****                               Cumulative               15                                  761,588                 761,588
      Bridgeview Bancorp, Inc.*****                      Cumulative               15        n                        7,766,250              7,766,250
      Madison Financial Corporation*****                 Cumulative               15                                  688,913                 688,913
      Midtown Bank & Trust Company**,*****               Non-Cumulative           15                                 1,067,213              1,067,213
                                                                                                                                 Continued on next page
                                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014             175




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2014                                  (CONTINUED)

                                                                                       Observers
                                                                           Number       Assigned
                                                         Dividend or      of Missed   to Board of          Value of Missed          Value of Unpaid
Company                                                  Payment Type     Payments     Directors1               Payments2               Amounts2,3,4
TCB Holding Company****                                  Cumulative             15        ✓                       $2,397,488             $2,397,488
1st FS Corporation   *****
                                                         Cumulative             14        ✓                        2,864,575              2,864,575
Dickinson Financial Corporation II             *****
                                                         Cumulative             14                                27,859,720             27,859,720
FC Holdings, Inc.*****                                   Cumulative             14                                 4,013,730              4,013,730
Ridgestone Financial Services, Inc.              *****
                                                         Cumulative             14                                 2,079,175              2,079,175
Intervest Bancshares Corporation*****                    Cumulative             14        n                        4,375,000              4,375,000
Fidelity Federal Bancorp     *****
                                                         Cumulative             14                                 1,229,924              1,229,924
Premierwest Bancorp*****                                 Cumulative             14        n                        7,245,000              7,245,000
First Southwest Bancorporation,
                                                         Cumulative             13                                  974,188                   974,188
Inc.*****
Tennessee Valley Financial Holdings,
                                                         Cumulative             13                                  531,375                   531,375
Inc.*****
First Sound Bank*****                                    Non-Cumulative         13                                 1,202,500              1,202,500
Pacific Commerce Bank**,*****                            Non-Cumulative         13                                  751,089                   695,771
Stonebridge Financial Corp.          *****
                                                         Cumulative             12        ✓                        1,794,180              1,794,180
Premier Financial Corp*,**,*****                         Interest               12                                 1,597,857              1,597,857
Citizens Bancshares Co. (MO)            ****
                                                         Cumulative             12        n                        4,086,000              4,086,000
Northwest Bancorporation, Inc.            *****
                                                         Cumulative             12                                 1,716,750              1,716,750
Plumas Bancorp*****                                      Cumulative             12        ✓                        1,792,350              1,792,350
Gold Canyon Bank    ****
                                                         Non-Cumulative         12                                  254,010                   254,010
Santa Clara Valley Bank, N.A.*****                       Non-Cumulative         12                                  474,150                   474,150
Spirit BankCorp, Inc.  *****
                                                         Cumulative             12        ✓                        4,905,000              4,905,000
Alliance Financial Services, Inc.*,*****                 Interest               12                                 3,020,400              3,020,400
First Trust Corporation    *,*****
                                                         Interest               12        n                        4,522,611              4,522,611
Eastern Virginia Bankshares, Inc.*****                   Cumulative             11        ✓                        3,300,000              3,300,000
The Queensborough Company               *****
                                                         Cumulative             11                                 1,798,500              1,798,500
Boscobel Bancorp, Inc      *,*****
                                                         Interest               11                                 1,288,716              1,288,716
Investors Financial Corporation of
                                                         Interest               11                                  922,900                   922,900
Pettis County, Inc.*
Florida Bank Group, Inc.*****                            Cumulative             11        ✓                        3,068,203              3,068,203
Reliance Bancshares, Inc.       *****
                                                         Cumulative             11        ✓                        5,995,000              5,995,000
Village Bank and Trust Financial Corp.
*****                                                    Cumulative             11        ✓                        2,026,475              2,026,475

AB&T Financial Corporation*****                          Cumulative             11                                  481,250                   481,250
Atlantic Bancshares, Inc.      *****
                                                         Cumulative             11                                  299,255                   299,255
First Financial Service Corporation*****                 Cumulative             10        ✓                        2,500,000              2,500,000
Old Second Bancorp, Inc.*****                            Cumulative             10        n                        9,125,000              9,125,000
                                                                                                                               Continued on next page
176            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2014                             (CONTINUED)

                                                                                        Observers
                                                                            Number       Assigned
                                                      Dividend or          of Missed   to Board of          Value of Missed          Value of Unpaid
      Company                                         Payment Type         Payments     Directors1               Payments2               Amounts2,3,4
      Security State Bank Holding-
                                                      Interest                   10        ✓                       $2,931,481             $2,931,481
      Company*,**,*****
      Bank of George*****                             Non-Cumulative             10                                  364,150                 364,150
      Valley Community Bank      *****
                                                      Non-Cumulative             10                                  749,375                 749,375
      Commonwealth Business Bank*****                 Non-Cumulative             10                                 1,049,250              1,049,250
      Gregg Bancshares, Inc.****                      Cumulative                  9                                  101,115                 101,115
      Metropolitan Bank Group, Inc. / NC
                                                      Cumulative                  9        ✓                       12,716,368              9,511,543
      Bancorp, Inc.***
      National Bancshares, Inc.*****                  Cumulative                  9                                 3,024,383              3,024,383
      SouthCrest Financial Group, Inc.*****           Cumulative                  9                                 1,581,863              1,581,863
      Citizens Bancorp  ****
                                                      Cumulative                  9                                 1,275,300              1,275,300
      Community Pride Bank
                                                      Interest                    9                                  803,286                 803,286
      Corporation*,**,*****
      Premier Bank Holding Company****                Cumulative                  9                                 1,164,938              1,164,938
      RCB Financial Corporation       *****
                                                      Cumulative                  9                                 1,055,520              1,055,520
      Central Federal Corporation*****                Cumulative                  8                                  722,500                 722,500
      CoastalSouth Bancshares, Inc.           *****
                                                      Cumulative                  8                                 1,687,900              1,687,900
      HMN Financial, Inc.*****                        Cumulative                  8                                 2,600,000              2,600,000
      One Georgia Bank   ****
                                                      Non-Cumulative              8                                  605,328                 605,328
      Independent Bank Corporation            ***
                                                      Cumulative                  8        ✓                       14,193,996              6,164,420
      First Intercontinental Bank*****                Non-Cumulative              8                                  697,400                 697,400
      Coloeast Bankshares, Inc.       *****
                                                      Cumulative                  8        ✓                        1,090,000              1,090,000
      Cascade Financial Corporation*****              Cumulative                  7                                 3,409,875              3,409,875
      Integra Bank Corporation     ****
                                                      Cumulative                  7                                 7,313,775              7,313,775
      Princeton National Bancorp, Inc.****            Cumulative                  7                                 2,194,763              2,194,763
      Brogan Bankshares, Inc.     *
                                                      Interest                    7                                  352,380                 352,380
      Severn Bancorp, Inc.*****                       Cumulative                  6                                 1,754,475              1,754,475
      Central Pacific Financial Corp.***,9            Cumulative                  6                                10,125,000                      —
      Coastal Banking Company, Inc.           *****
                                                      Cumulative                  6                                  995,000                 995,000
      First Reliance Bancshares, Inc.*****            Cumulative                  6                                 1,254,720              1,254,720
      FNB United Corp.***                             Cumulative                  6        ✓                        3,862,500                      —
      FPB Bancorp, Inc. (FL)****                      Cumulative                  6                                  435,000                 435,000
      Indiana Bank Corp.****                          Cumulative                  6                                  107,310                 107,310
      Naples Bancorp, Inc.*****                       Cumulative                  6                                  327,000                 327,000
      First Place Financial Corp.                     Cumulative                  6                                 5,469,525              5,469,525
      Worthington Financial Holdings, Inc.*****       Cumulative                  6                                  222,360                 222,360
                                                                                                                                Continued on next page
                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014             177




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2014                                (CONTINUED)

                                                                                     Observers
                                                                         Number       Assigned
                                                       Dividend or      of Missed   to Board of          Value of Missed          Value of Unpaid
Company                                                Payment Type     Payments     Directors1               Payments2               Amounts2,3,4
Fort Lee Federal Savings Bank****                      Non-Cumulative          6                                 $106,275                $106,275
Alarion Financial Services, Inc.          *****
                                                       Cumulative              6                                  532,560                   532,560
Community Financial Shares, Inc.                 ***
                                                       Cumulative              5                                  759,820                   759,820
Delmar Bancorp*****                                    Cumulative              5                                  613,125                   613,125
First BanCorp (PR)  ***
                                                       Cumulative              5        ✓                       42,681,526                       —
First Federal Bancshares of Arkansas,
                                                       Cumulative              5                                 1,031,250              1,031,250
Inc.*****
Flagstar Bancorp, Inc.*****                            Cumulative              5                                16,666,063             16,666,063
Midwest Banc Holdings, Inc.          5
                                                       Cumulative              5                                 4,239,200              4,239,200
Pacific Capital Bancorp***,9                           Cumulative              5                                13,547,550                       —
GulfSouth Private Bank       ****
                                                       Non-Cumulative          5                                  494,063                   494,063
Northwest Commercial Bank****                          Non-Cumulative          5                                  135,750                   135,750
IA Bancorp, Inc. **,*****
                                                       Cumulative              5                                  472,365                   393,638
CB Holding Corp.****                                   Cumulative              4                                  224,240                   224,240
Colony Bankcorp, Inc.       *****
                                                       Cumulative              4                                 1,400,000              1,400,000
First Community Bank Corporation of
                                                       Cumulative              4                                  534,250                   534,250
America*****
Green Bankshares, Inc.*****                            Cumulative              4                                 3,613,900              3,613,900
Hampton Roads Bankshares, Inc.***,9                    Cumulative              4                                 4,017,350              4,017,350
Pierce County Bancorp        ****
                                                       Cumulative              4                                  370,600                   370,600
Santa Lucia Bancorp*****                               Cumulative              4                                  200,000                   200,000
Sterling Financial Corporation (WA)***,9               Cumulative              4                                18,937,500             18,937,500
TIB Financial Corp***** ,7                             Cumulative              4                                 1,850,000              1,850,000
Community Bank of the Bay            6
                                                       Non-Cumulative          4                                   72,549                    72,549
The Bank of Currituck*****                             Non-Cumulative          4                                  219,140                   219,140
The Connecticut Bank and Trust
                                                       Non-Cumulative          4                                  246,673                   246,673
Company*****
Plato Holdings Inc.*,*****                             Interest                4                                  207,266                   207,266
Virginia Company Bank        *****
                                                       Non-Cumulative          3                                  185,903                   185,903
Blue River Bancshares, Inc.****                        Cumulative              3                                  204,375                   204,375
Community West Bancshares                *****
                                                       Cumulative              3                                  585,000                   585,000
Legacy Bancorp, Inc.****                               Cumulative              3                                  206,175                   206,175
Sonoma Valley Bancorp         ****
                                                       Cumulative              3                                  353,715                   353,715
Superior Bancorp Inc.****                              Cumulative              3                                 2,587,500              2,587,500
Tennessee Commerce Bancorp, Inc.****                   Cumulative              3                                 1,125,000              1,125,000
The South Financial Group, Inc.***** ,7                Cumulative              3                                13,012,500             13,012,500
                                                                                                                             Continued on next page
178                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2014                                                                      (CONTINUED)

                                                                                                                             Observers
                                                                                                         Number               Assigned
                                                              Dividend or                               of Missed           to Board of                  Value of Missed                      Value of Unpaid
      Company                                                 Payment Type                              Payments             Directors1                       Payments2                           Amounts2,3,4
      Treaty Oak Bancorp, Inc.*****                           Cumulative                                             3                                             $133,553                            $133,553
      Bank of Commerce           *****
                                                              Non-Cumulative                                         3                                               122,625                             122,625
      Carolina Trust Bank        *****
                                                              Non-Cumulative                                         3                                               150,000                             150,000
      Commerce National Bank                                  Non-Cumulative                                         3                                               150,000                             150,000
      Cadence Financial Corporation                *****
                                                              Cumulative                                             2                                               550,000                             550,000
      First Alliance Bancshares, Inc.*****                    Cumulative                                             2                                                 93,245                              93,245
      Pacific Coast National Bancorp               ****
                                                              Cumulative                                             2                                               112,270                             112,270
      The Baraboo Bancorporation, Inc.*****                   Cumulative                                             2                                               565,390                             565,390
      Colonial American Bank*****                             Non-Cumulative                                         2                                                 15,655                              15,655
      Fresno First Bank***                                    Non-Cumulative                                         2                                                 33,357                              33,357
      FBHC Holding Company               *,*****
                                                              Interest                                               2                                               123,127                             123,127
      Gateway Bancshares, Inc.                                Cumulative                                             2                                               163,500                             163,500
      CIT Group Inc.****,8                                    Cumulative                                             2                                          29,125,000                          29,125,000
      UCBH Holdings, Inc.****                                 Cumulative                                             1                                            3,734,213                           3,734,213
      Exchange Bank*****                                      Non-Cumulative                                         1                                               585,875                             585,875
      Tifton Banking Company             ****
                                                              Non-Cumulative                                         1                                                 51,775                              51,775
      Total                                                                                                                                                $593,864,739                        $511,959,842
      Notes: Numbers may not total due to rounding. Approximately $30.7 million of the $512 million in unpaid CPP dividend/interest payments are non-cumulative and Treasury has no legal right to missed
      dividends that are non-cumulative.

      * Missed interest payments occur when a Subchapter S recipient fails to pay Treasury interest on a subordinated debenture in a timely manner.
      ** Partial payments made after the due date.
      *** Completed an exchange with Treasury. For an exchange of mandatorily convertible preferred stock or trust preferred securities, dividend payments normally continue to accrue. For an exchange of
      mandatorily preferred stock for common stock, no additional preferred dividend payments will accrue.
      **** Filed for bankruptcy or subsidiary bank failed. For completed bankruptcy proceedings, Treasury’s investment was extinguished and no additional dividend payments will accrue. For bank failures,
      Treasury may elect to file claims with bank receivers to collect current and/or future unpaid dividends.
      ***** Treasury sold or is selling its CPP investment to the institution or a third party. No additional preferred dividend payments will accrue after a sale, absent an agreement to the contrary.

      n   Treasury has appointed one or more directors to the Board of Directors.
      ✓   Treasury has assigned an observer to the Board of Directors.

      1
        For First BanCorp and Pacific Capital Bancorp, Treasury had a contractual right to assign an observer to the board of directors. For the remainder, Treasury obtained consent from the institution to assign
         an observer to the board of directors.
      2
        Includes unpaid cumulative dividends, non-cumulative dividends, and Subchapter S interest payments but does not include interest accrued on unpaid cumulative dividends.
      3
         Excludes institutions that missed payments but (i) have fully caught-up or exchanged new securities for missed payments, or (ii) have repaid their investment amounts and exited the Capital Purchase
          Program.
      4
          Includes institutions that missed payments and (i) completed an exchange with Treasury for new securities, (ii) purchased their CPP investment from Treasury, or saw a third party purchase its CPP
           investment from Treasury, or (iii) are in, or have completed bankruptcy proceedings or its subsidiary bank failed.
      5
           For Midwest Banc Holdings, Inc., the number of missed payments is the number last reported from SIGTARP Quarterly Report to Congress 4/20/2010, prior to bankruptcy filing; missed payment
            amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
      6
        Treasury reported four missed payments by Community Bank of the Bay before it was allowed to transfer from CPP to CDCI. Upon transfer, Treasury reset the number of missed payments to zero.
      7
        For South Financial Group, Inc. and TIB Financial Corp, the number of missed payments and unpaid amounts reflect figures Treasury reported prior to the sale.
      8
            For CIT Group Inc., the number of missed payments is from the number last reported from SIGTARP Quarterly Report to Congress 1/30/2010, shortly after the bankruptcy filing; missed payment
             amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
      9
             Completed exchanges:
        - The exchange between Treasury and Hampton Roads, and the exchange between Treasury and Sterling Financial did not account for unpaid dividends. The number of missed payments and unpaid
        amounts reflect the figures Treasury reported prior to the exchange.
        - The exchange between Treasury and Central Pacific Financial Corp., and the exchange between Treasury and Pacific Capital Bancorp did account for unpaid dividends, thereby eliminating any unpaid
        amounts. The number of missed payments reflects the amount Treasury reported prior to the exchange.

      Sources: Treasury, Dividends and Interest Report, 4/10/2014; Treasury, responses to SIGTARP data calls, 1/7/2011, 4/6/2011, 7/8/2011, 10/11/2011, 1/10/2012, 4/5/2012, 7/10/2012,
      10/4/2012, 1/10/2013, 4/4/2013, 7/5/2013, 10/7/2013, 1/13/2014, 4/10/2014.
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   179




CPP Recipients: Bankrupt or with Failed Subsidiary Banks
Despite Treasury’s stated goal of limiting CPP investments to “healthy, viable
institutions,” as of March 31, 2014, 29 CPP participants had gone bankrupt or had
a subsidiary bank fail, as indicated in Table 2.36.431 As of March 31, 2014, 26 of
those banks, with total CPP investments of $790.5 million, were in the process of
bankruptcy, and while Treasury has not yet realized the loss, it expects that all of its
investments in the banks will be lost.432

Closure of Syringa Bank
On January 16, 2009, Treasury invested $8 million in Syringa Bancorp, Boise,
Idaho, (“Syringa”) through CPP in return for preferred stock and warrants.433 On
January 31, 2014, the Idaho Department of Finance, closed Syringa’s subsidiary
bank, Syringa Bank, Boise, Idaho, (“Syringa Bank”) and named the Federal Deposit
Insurance Corporation (“FDIC”) as receiver.434 FDIC entered into a purchase and
assumption agreement with Sunwest Bank, Irvine, California, to assume all of the
deposits of Syringa Bank. FDIC estimates that the cost of Syringa Bank’s failure to
the deposit insurance fund will be $4.5 million.435 All of Treasury’s investment in
Syringa is expected to be lost.436
180   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




            TABLE 2.36
             CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 3/31/2014                          ($ MILLIONS)

                                                     Initial
                                                  Invested     Investment                       Bankruptcy/
             Company                               Amount            Date            Status     Failure Datea            Subsidiary Bank
                                                                                  Bankruptcy
                                                                                proceedings
                                                                             completed with
                                                                                 no recovery                                     CIT Bank,
             CIT Group Inc., New York, NY         $2,330.0     12/31/2008                         11/1/2009
                                                                                of Treasury’s                            Salt Lake City, UT
                                                                                 investment;
                                                                             subsidiary bank
                                                                              remains active
                                                                              In bankruptcy;
             UCBH Holdings Inc.,                                                                                 United Commercial Bank,
                                                     298.7     11/14/2008    subsidiary bank      11/6/2009
             San Francisco, CA                                                                                          San Francisco, CA
                                                                                       failed
                                                                                  Bankruptcy
                                                                                proceedings
                                                                             completed with
             Pacific Coast National Bancorp,                                    no recovery                         Pacific Coast National
                                                        4.1     1/16/2009                        11/13/2009
             San Clemente, CA                                                  of Treasury’s                      Bank, San Clemente, CA
                                                                                 investment;
                                                                             subsidiary bank
                                                                                       failed
                                                                              In bankruptcy;                       Midwest Bank and Trust
             Midwest Banc Holdings, Inc.,
                                                      89.4b     12/5/2008    subsidiary bank      5/14/2010                    Company,
             Melrose Park, IL
                                                                                       failed                           Elmwood Park, IL
             Sonoma Valley Bancorp,                                          Subsidiary bank                          Sonoma Valley Bank,
                                                        8.7     2/20/2009                         8/20/2010
             Sonoma, CA                                                                failed                               Sonoma, CA
             Pierce County Bancorp,                                          Subsidiary bank                      Pierce Commercial Bank,
                                                        6.8     1/23/2009                         11/5/2010
             Tacoma, WA                                                                failed                                Tacoma, WA
             Tifton Banking Company,
                                                        3.8     4/17/2009              Failed    11/12/2010                              N/A
             Tifton, GA
             Legacy Bancorp, Inc.,                                           Subsidiary bank                                   Legacy Bank,
                                                        5.5     1/30/2009                         3/11/2011
             Milwaukee, WI                                                             failed                                  Milwaukee, WI
             Superior Bancorp, Inc.,                                         Subsidiary bank                                Superior Bank,
                                                      69.0      12/5/2008                         4/15/2011
             Birmingham, AL                                                            failed                              Birmingham, AL
             Integra Bank Corporation,                                       Subsidiary bank
                                                      83.6      2/27/2009                         7/29/2011     Integra Bank, Evansville, IN
             Evansville, IN                                                            failed
             One Georgia Bank, Atlanta, GA              5.5       5/8/2009             Failed     7/15/2011                              N/A
                                                                             Subsidiary bank                           First Peoples Bank,
             FPB Bancorp, Port Saint Lucie, FL          5.8     12/5/2008                         7/15/2011
                                                                                       failed                          Port Saint Lucie, FL
                                                                             Subsidiary bank                     Citizens Bank of Northern
             Citizens Bancorp, Nevada City, CA        10.4     12/23/2008                         9/23/2011
                                                                                       failed                   California, Nevada City, CA
                                                                             Subsidiary bank
             CB Holding Corp., Aledo, IL                4.1     5/29/2009                        10/14/2011        Country Bank, Aledo, IL
                                                                                       failed
             Tennessee Commerce Bancorp,                                     Subsidiary bank                        Tennessee Commerce
                                                      30.0     12/19/2008                         1/27/2012
             Inc., Franklin, TN                                                        failed                           Bank, Franklin, TN
             Blue River Bancshares, Inc.,                                    Subsidiary bank                                     SCB Bank,
                                                        5.0       3/6/2009                        2/10/2012
             Shelbyville, IN                                                           failed                                  Shelbyville, IN
             Fort Lee Federal Savings Bank              1.3     5/22/2009              Failed     4/20/2012                              N/A
                                                                             Subsidiary bank                       Glasgow Savings Bank,
             Gregg Bancshares, Inc.                     0.9     2/13/2009                         7/13/2012
                                                                                       failed                               Glasgow, MO
                                                                                                                   Continued on next page
                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014          181




 CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 3/31/2014                                                                  ($ MILLIONS) (CONTINUED)

                                                        Initial
                                                     Invested        Investment                                        Bankruptcy/
 Company                                              Amount               Date                        Status          Failure Datea                    Subsidiary Bank
 Premier Bank Holding Company                              $9.5      3/20/2009                 In bankruptcy              8/14/2012                                       N/A
 GulfSouth Private Bank                                     7.5      9/25/2009                           Failed         10/19/2012                                        N/A
 Investors Financial Corporation of                                                         Subsidiary bank                                                    Excel Bank,
                                                            4.0        5/8/2009                                         10/19/2012
 Pettis County, Inc.                                                                                  failed                                                   Sedalia, MO
                                                                                                                                                         First Place Bank,
 First Place Financial Corporation                         72.9      3/13/2009                 In bankruptcy            10/29/2012
                                                                                                                                                               Warren, OH
                                                                                            Subsidiary bank                                        Citizens First National
 Princeton National Bancorp                                25.1      1/23/2009                                            11/2/2012
                                                                                                      failed                                          Bank, Princeton, IL
 Gold Canyon Bank                                           1.6      6/26/2009                           Failed             4/5/2013                                      N/A
 Indiana Bank Corp.                                         1.3      4/24/2009                 In bankruptcy                4/9/2013                                      N/A
 Rogers Bancshares, Inc.                                   25.0      1/30/2009                 In bankruptcy                7/5/2013                                      N/A
                                                                                               Filed for and
 Anchor BanCorp Wisconsin Inc.                           110.0       1/30/2009            exited bankruptcy               8/12/2013                                       N/A
                                                                                                 protectionc
                                                                                            Subsidiary bank                                     Texas Community Bank,
 TCB Holding Company                                       11.7      1/16/2009                                          12/13/2013
                                                                                                      failed                                        The Woodlands, TX
                                                                                            Subsidiary bank                                                  Syringa Bank,
 Syringa Bancorp                                            8.0      1/16/2009                                            1/31/2014
                                                                                                      failed                                                      Boise, ID
 Total                                               $3,239.2                                                                                                                 
 Notes: Numbers may not total due to rounding.
 a
   Date is the earlier of the bankruptcy filing by holding company or the failure of subsidiary bank.
 b
   The amount of Treasury’s investment prior to bankruptcy was $89,874,000. On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc.
   (MBHI) for $89,388,000 of MCP, which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.
 c
   Treasury recouped $6 million of its investment once the company’s plan of reorganization became effective.

 Source: Treasury, Transactions Report, 3/19/2014.




Realized Losses, Write-offs, and Currently Not Collectible CPP
Investments
When a CPP investment is sold at a loss, or an institution that Treasury invested
in finalizes bankruptcy, Treasury records the loss as a realized loss or a write-off.
For these recorded losses, Treasury has no expectation of regaining any portion
of the lost investment. When a CPP bank or its subsidiary bank fails or enters
bankruptcy, Treasury does not record that loss until the matter is resolved.
However, Treasury generally expects that all of its investment in the bank will be
lost.437 As of September 2013, Treasury began reporting investments currently not
collectible as a result of bankruptcy or receivership together with realized losses
and write-offs; previously, it had reported those as investments still outstanding.
According to Treasury, as of March 31, 2014, Treasury had realized losses, write-
offs, and investments currently not collectible as a result of bankruptcy of $4.7
billion on its CPP investments. This total includes $8.2 million in realized losses
this quarter. Also included is $790.5 million in 26 banks that Treasury classified
this quarter as currently not collectible as a result of bankruptcy. Table 2.37 shows
all realized losses, write-offs, and investments currently not collectible as a result of
bankruptcy recorded by Treasury on CPP investments through March 31, 2014.
182   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                        TABLE 2.37
                         REALIZED LOSSES, WRITE-OFFS, AND CURRENTLY NOT COLLECTIBLE IN CPP, AS OF 3/31/2014
                         ($ MILLIONS)

                                                                         TARP
                         Institution                               Investment   Loss          Date   Description
                         Realized Losses
                         The Bank of Currituck                            $4     $2     12/3/2010 Sale of preferred stock at a loss
                         Treaty Oak Bancorp, Inc.                          3      3     2/15/2011 Sale of preferred stock at a loss
                         Cadence Financial Corporation                    44      6      3/4/2011 Sale of preferred stock at a loss
                                                                                                     Sale of subordinated
                         FBHC Holding Company                              3      2      3/9/2011
                                                                                                     debentures at a loss
                         First Federal Bancshares of Arkansas,
                                                                          17     11      5/3/2011 Sale of preferred stock at a loss
                         Inc.
                         First Community Bank Corporation of
                                                                          11      3     5/31/2011 Sale of preferred stock at a loss
                         America
                         Cascade Financial Corporation                    39     23     6/30/2011 Sale of preferred stock at a loss
                         Green Bankshares, Inc.                           72      4      9/7/2011 Sale of preferred stock at a loss
                         Santa Lucia Bancorp                               4      1    10/21/2011 Sale of preferred stock at a loss
                         Banner Corporation/Banner Bank                  124     14      4/3/2012 Sale of preferred stock at a loss 
                         First Financial Holdings Inc.                    65      8      4/3/2012 Sale of preferred stock at a loss 
                         MainSource Financial Group, Inc.                 57      4      4/3/2012 Sale of preferred stock at a loss
                         Seacoast Banking Corporation of
                                                                          50      9      4/3/2012 Sale of preferred stock at a loss
                         Florida
                         Wilshire Bancorp, Inc.                           62      4      4/3/2012 Sale of preferred stock at a loss
                         WSFS Financial Corporation                       53      4      4/3/2012 Sale of preferred stock at a loss
                         Central Pacific Financial Corp.                 135     62      4/4/2012    Sale of common stock at a loss
                         Ameris Bancorp                                   52      4     6/19/2012 Sale of preferred stock at a loss
                         Farmers Capital Corporation                      30      8     6/19/2012 Sale of preferred stock at a loss
                         First Capital Bancorp, Inc.                      11      1     6/19/2012 Sale of preferred stock at a loss
                         First Defiance Financial Corp.                   37      1     6/19/2012 Sale of preferred stock at a loss
                         LNB Bancorp, Inc.                                25      3     6/19/2012 Sale of preferred stock at a loss
                         Taylor Capital Group, Inc.                      105     11     6/19/2012    Sale of preferred stock at a loss
                         United Bancorp, Inc.                             21      4     6/19/2012 Sale of preferred stock at a loss
                         Fidelity Southern Corporation                    48      5      7/3/2012 Sale of preferred stock at a loss
                         First Citizens Banc Corp                         21      2      7/3/2012    Sale of preferred stock at a loss
                         Firstbank Corporation                            33      2      7/3/2012    Sale of preferred stock at a loss
                         Metrocorp Bancshares, Inc.                       45      1      7/3/2012    Sale of preferred stock at a loss
                         Peoples Bancorp of North Carolina, Inc.          25      2      7/3/2012    Sale of preferred stock at a loss
                         Pulaski Financial Corp.                          33      4      7/3/2012    Sale of preferred stock at a loss
                         Southern First Bancshares, Inc.                  17      2      7/3/2012    Sale of preferred stock at a loss
                         Naples Bancorp, Inc.                              4      3     7/12/2012    Sale of preferred stock at a loss
                         Commonwealth Bancshares, Inc.                    20      5      8/9/2012    Sale of preferred stock at a loss
                         Diamond Bancorp, Inc.                            20      6      8/9/2012    Sale of preferred stock at a loss
                         Fidelity Financial Corporation                   36      4      8/9/2012    Sale of preferred stock at a loss
                         Market Street Bancshares, Inc.                   20      2      8/9/2012    Sale of preferred stock at a loss
                                                                                                             Continued on next page
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   183




REALIZED LOSSES, WRITE-OFFS, AND CURRENTLY NOT COLLECTIBLE IN CPP, AS OF 3/31/2014
($ MILLIONS) (CONTINUED)

                                                 TARP
Institution                                Investment   Loss          Date   Description
CBS Banc-Corp.                                   $24     $2     8/10/2012    Sale of preferred stock at a loss
Marquette National Corporation                    36     10     8/10/2012 Sale of preferred stock at a loss
Park Bancorporation, Inc.                         23      6     8/10/2012 Sale of preferred stock at a loss
Premier Financial Bancorp, Inc.                    7      2     8/10/2012 Sale of preferred stock at a loss
Trinity Capital Corporation                       36      9     8/10/2012 Sale of preferred stock at a loss
Exchange Bank                                     43      5     8/13/2012 Sale of preferred stock at a loss
Millennium Bancorp, Inc.                           7      4     8/14/2012 Sale of preferred stock at a loss
Sterling Financial Corporation                   303    188     8/20/2012    Sale of preferred stock at a loss
BNC Bancorp                                       31      2     8/29/2012 Sale of preferred stock at a loss
First Community Corporation                       11     0.2    8/29/2012 Sale of preferred stock at a loss
First National Corporation                        14      2     8/29/2012 Sale of preferred stock at a loss
Mackinac Financial Corporation                    11     0.5    8/29/2012 Sale of preferred stock at a loss
Yadkin Valley Financial Corporation               13      5     9/18/2012 Sale of preferred stock at a loss
Alpine Banks of Colorado                          70     13     9/20/2012 Sale of preferred stock at a loss
F & M Financial Corporation (NC)                  17      1     9/20/2012 Sale of preferred stock at a loss
F&M Financial Corporation (TN)                    17      4     9/21/2012 Sale of preferred stock at a loss
First Community Financial Partners, Inc.          22      8     9/21/2012 Sale of preferred stock at a loss
Central Federal Corporation                        7      4     9/26/2012 Sale of preferred stock at a loss
Congaree Bancshares, Inc.                          3     0.6   10/31/2012 Sale of preferred stock at a loss
Metro City Bank                                    8     0.8   10/31/2012 Sale of preferred stock at a loss
Blue Ridge Bancshares, Inc.                       12      3    10/31/2012 Sale of preferred stock at a loss
Germantown Capital Corporation                     5     0.4   10/31/2012    Sale of preferred stock at a loss
First Gothenburg Bancshares, Inc.                  8     0.7   10/31/2012 Sale of preferred stock at a loss
Blackhawk Bancorp, Inc.                           10     0.9   10/31/2012 Sale of preferred stock at a loss
Centerbank                                         2     0.4   10/31/2012    Sale of preferred stock at a loss
The Little Bank, Incorporated                      8     0.1   10/31/2012    Sale of preferred stock at a loss
Oak Ridge Financial Services, Inc.                 8     0.6   10/31/2012 Sale of preferred stock at a loss
Peoples Bancshares of TN, Inc.                     4      1    10/31/2012 Sale of preferred stock at a loss
Hometown Bankshares Corporation                   10     0.8   10/31/2012    Sale of preferred stock at a loss
Western Illinois Bancshares, Inc.                 11     0.7    11/9/2012 Sale of preferred stock at a loss
Capital Pacific Bancorp                            4     0.2    11/9/2012 Sale of preferred stock at a loss
Three Shores Bancorporation, Inc.                  6     0.6    11/9/2012 Sale of preferred stock at a loss
Regional Bankshares, Inc.                          2     0.1    11/9/2012 Sale of preferred stock at a loss
Timberland Bancorp, Inc.                          17      2     11/9/2012 Sale of preferred stock at a loss
First Freedom Bancshares, Inc.                     9     0.7    11/9/2012 Sale of preferred stock at a loss
Bankgreenville Financial Corporation               1     0.1    11/9/2012 Sale of preferred stock at a loss
                                                                             Sale of subordinated
F&C Bancorp. Inc.                                  3     0.1   11/13/2012
                                                                             debentures at a loss
                                                                             Sale of subordinated
Farmers Enterprises, Inc.                         12     0.4   11/13/2012
                                                                             debentures at a loss
                                                                                     Continued on next page
184   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                         REALIZED LOSSES, WRITE-OFFS, AND CURRENTLY NOT COLLECTIBLE IN CPP, AS OF 3/31/2014
                         ($ MILLIONS) (CONTINUED)

                                                                        TARP
                         Institution                              Investment   Loss          Date   Description
                         Franklin Bancorp, Inc.                          $5     $2    11/13/2012 Sale of preferred stock at a loss
                         Sound Banking Company                            3     0.2   11/13/2012    Sale of preferred stock at a loss
                         Parke Bancorp, Inc.                             16      5    11/29/2012 Sale of preferred stock at a loss
                         Country Bank Shares, Inc.                        8     0.6   11/29/2012    Sale of preferred stock at a loss
                         Clover Community Bankshares, Inc.                3     0.4   11/29/2012 Sale of preferred stock at a loss
                         CBB Bancorp                                      4     0.3   11/29/2012 Sale of preferred stock at a loss
                         Alaska Pacific Bancshares, Inc.                  5     0.5   11/29/2012 Sale of preferred stock at a loss
                         Trisummit Bank                                   7      2    11/29/2012 Sale of preferred stock at a loss
                         Layton Park Financial Group, Inc.                3     0.6   11/29/2012    Sale of preferred stock at a loss
                         Community Bancshares of Mississippi,
                         Inc. (Community Holding Company of               1     0.1   11/30/2012 Sale of preferred stock at a loss
                         Florida, Inc.)
                         FFW Corporation                                  7     0.7   11/30/2012 Sale of preferred stock at a loss
                         Hometown Bancshares, Inc.                        2     0.1   11/30/2012 Sale of preferred stock at a loss
                         Bank of Commerce                                 3     0.5   11/30/2012 Sale of preferred stock at a loss
                         Corning Savings And Loan Association            0.6    0.1   11/30/2012 Sale of preferred stock at a loss
                         Carolina Trust Bank                              4     0.6   11/30/2012    Sale of preferred stock at a loss
                         Community Business Bank                          4     0.3   11/30/2012 Sale of preferred stock at a loss
                         KS Bancorp, Inc                                  4     0.7   11/30/2012 Sale of preferred stock at a loss
                         Pacific Capital Bancorp                        195     15    11/30/2012    Sale of common stock at a loss
                         Community West Bancshares                       16      4    12/11/2012 Sale of preferred stock at a loss
                         Presidio Bank                                   11      2    12/11/2012    Sale of preferred stock at a loss
                         The Baraboo Bancorporation, Inc.                21      7    12/11/2012 Sale of preferred stock at a loss
                         Security Bancshares of Pulaski County,
                                                                          2     0.7   12/11/2012    Sale of preferred stock at a loss
                         Inc.
                         Central Community Corporation                   22      2    12/11/2012 Sale of preferred stock at a loss
                                                                                                    Sale of subordinated
                         Manhattan Bancshares, Inc.                       3     0.1   12/11/2012
                                                                                                    debentures at a loss
                         First Advantage Bancshares, Inc.                 1     0.1   12/11/2012 Sale of preferred stock at a loss
                         Community Investors Bancorp, Inc.                3     0.1   12/20/2012 Sale of preferred stock at a loss
                         First Business Bank, National
                                                                          4     0.4   12/20/2012 Sale of preferred stock at a loss
                         Association
                         Bank Financial Services, Inc.                    1     0.1   12/20/2012 Sale of preferred stock at a loss
                                                                                                    Sale of subordinated
                         Century Financial Services Corporation          10     0.2   12/20/2012
                                                                                                    debentures at a loss
                         Hyperion Bank                                    2     0.5   12/21/2012 Sale of preferred stock at a loss
                         First Independence Corporation                   3     0.9   12/21/2012 Sale of preferred stock at a loss
                         First Alliance Bancshares, Inc.                  3      1    12/21/2012 Sale of preferred stock at a loss
                         Community Financial Shares, Inc.                 7      4    12/21/2012    Sale of preferred stock at a loss
                         Alliance Financial Services, Inc.               12      3      2/7/2013    Sale of preferred stock at a loss
                                                                                                            Continued on next page
                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   185




REALIZED LOSSES, WRITE-OFFS, AND CURRENTLY NOT COLLECTIBLE IN CPP, AS OF 3/31/2014
($ MILLIONS) (CONTINUED)

                                             TARP
Institution                            Investment   Loss         Date   Description
                                                                        Sale of subordinated
Biscayne Bancshares, Inc.                     $6    $0.2    2/8/2013
                                                                        debentures at a loss
Citizens Bancshares Co.                       25     12     2/8/2013 Sale of preferred stock at a loss
Colony Bankcorp, Inc.                         28      6     2/8/2013 Sale of preferred stock at a loss
Delmar Bancorp                                 9      3     2/8/2013 Sale of preferred stock at a loss
Dickinson Financial Corporation II           146     65     2/8/2013    Sale of preferred stock at a loss
F & M Bancshares, Inc.                         4     0.5    2/8/2013 Sale of preferred stock at a loss
First Priority Financial Corp.                 5      1     2/8/2013 Sale of preferred stock at a loss
HMN Financial, Inc.                           26      7     2/8/2013 Sale of preferred stock at a loss
Waukesha Bankshares, Inc.                      6     0.4    2/8/2013 Sale of preferred stock at a loss
FC Holdings, Inc.                             21      2    2/20/2013 Sale of preferred stock at a loss
First Sound Bank                               7      4    2/20/2013 Sale of preferred stock at a loss
                                                                        Sale of subordinated
First Trust Corporation                       18      4    2/20/2013
                                                                        debentures at a loss
National Bancshares, Inc.                     25      6    2/20/2013 Sale of preferred stock at a loss
Ridgestone Financial Services, Inc.           11      2    2/20/2013 Sale of preferred stock at a loss
Carolina Bank Holdings, Inc.                  16      1    2/21/2013 Sale of preferred stock at a loss
Santa Clara Valley Bank, N.A.                  3     0.4    3/8/2013 Sale of preferred stock at a loss
Coastal Banking Company, Inc.                 10     0.4   3/11/2013 Sale of preferred stock at a loss
CoastalSouth Bancshares, Inc.                 16      3    3/11/2013 Sale of preferred stock at a loss
First Reliance Bancshares, Inc.               15      5    3/11/2013 Sale of preferred stock at a loss
Southcrest Financial Group, Inc.              13      1    3/11/2013 Sale of preferred stock at a loss
The Queensborough Company                     12     0.3   3/11/2013 Sale of preferred stock at a loss
Old Second Bancorp, Inc.                      73     47    3/27/2013 Sale of preferred stock at a loss
Stonebridge Financial Corp.                   11      9    3/27/2013 Sale of preferred stock at a loss
Alliance Bancshares, Inc.                      3     0.1   3/28/2013 Sale of preferred stock at a loss
                                                                        Sale of subordinated
Amfirst Financial Services, Inc                5     0.2   3/28/2013
                                                                        debentures at a loss
First Southwest Bancorporation, Inc.           6     0.5   3/28/2013 Sale of preferred stock at a loss
Flagstar Bancorp, Inc.                       267     24    3/28/2013 Sale of preferred stock at a loss
United Community Banks, Inc.                 180      7    3/28/2013 Sale of preferred stock at a loss
                                                                        Exchange of preferred stock at
First Security Group, Inc.                    33     18    4/11/2013
                                                                        a loss
BancStar, Inc.                                 9     0.1   4/26/2013 Sale of preferred stock at a loss
NewBridge Bancorp                             52      1    4/29/2013    Sale of preferred stock at a loss
First Financial Service Corporation           20      9    4/29/2013    Sale of preferred stock at a loss
Guaranty Federal Bancshares, Inc.             17     0.4   4/29/2013    Sale of preferred stock at a loss
Intervest Bancshares Corporation              25      1    6/24/2013    Sale of preferred stock at a loss
First Western Financial, Inc.                 20      3    6/24/2013    Sale of preferred stock at a loss
Worthington Financial Holdings, Inc.           3     0.4   6/24/2013 Sale of preferred stock at a loss
                                                                                Continued on next page
186   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                         REALIZED LOSSES, WRITE-OFFS, AND CURRENTLY NOT COLLECTIBLE IN CPP, AS OF 3/31/2014
                         ($ MILLIONS) (CONTINUED)

                                                                        TARP
                         Institution                              Investment     Loss          Date   Description
                         Farmers & Merchants Financial
                                                                        $0.4     $0.1    6/24/2013    Sale of preferred stock at a loss
                         Corporation
                         Metropolitan Bank Group, Inc.                   82       49     6/28/2013 Sale of preferred stock at a loss
                         Alarion Financial Services, Inc.                 7       0.1    7/22/2013 Sale of preferred stock at a loss
                         Anchor Bancorp Wisconsin, Inc.                 110      104     9/27/2013    Sale of common stock at a loss
                         Centrue Financial Corporation                   33      21.8   10/18/2013 Sale of preferred stock at a loss
                         Coloeast Bankshares, Inc.                       10        1     7/22/2013 Sale of preferred stock at a loss
                         Commonwealth Business Bank                      20       0.4    7/17/2013 Sale of preferred stock at a loss
                         Crosstown Holding Company                       11       0.2    7/22/2013 Sale of preferred stock at a loss
                         Desoto County Bank                               3       0.5    9/25/2013 Sale of preferred stock at a loss
                         First Bancorp (PR)                             400       72     9/13/2013    Sale of common stock at a loss
                         First Banks, Inc.                              295      190     9/25/2013    Sale of preferred stock at a loss
                         First Intercontinental Bank                      6        3     8/12/2013 Sale of preferred stock at a loss
                         Florida Bank Group, Inc.                        20       12     8/14/2013 Sale of preferred stock at a loss
                         Mountain Valley Bancshares, Inc.                 3        —     7/22/2013 Sale of preferred stock at a loss
                         RCB Financial Corporation                        9       0.8    9/25/2013 Sale of preferred stock at a loss
                         Severn Bancorp, Inc.                            23        —     9/25/2013 Sale of preferred stock at a loss
                         Universal Bancorp                               10       0.5    8/12/2013 Sale of preferred stock at a loss
                         Virginia Company Bank                            5        2     8/12/2013 Sale of preferred stock at a loss
                         Central Virginia Bankshares, Inc.               11        8     10/1/2013 Sale of preferred stock at a loss
                         Bank of George                                   3        2    10/21/2013    Sale of preferred stock at a loss
                         Blue Valley Ban Corp                            22       0.5   10/21/2013 Sale of preferred stock at a loss
                         Spirit Bank Corp Inc.                           30       21    10/21/2013    Sale of preferred stock at a loss
                         Valley Community Bank                            6        3    10/21/2013 Sale of preferred stock at a loss
                         Monarch Community Bancorp, Inc.                  7        2    11/15/2013    Sale of common stock at a loss
                         AB&T Financial Corporation                       4       2.4   11/19/2013    Sale of preferred stock at a loss
                         Bridgeview Bancorp, Inc.                        38       28    11/19/2013    Sale of preferred stock at a loss
                         Midtown Bank & Trust Company                     5         2   11/19/2013 Sale of preferred stock at a loss
                         Village Bank and Trust Financial Corp           15        9    11/19/2013    Sale of preferred stock at a loss
                         1st Financial Services Corporation              16        8    12/31/2013 Sale of preferred stock at a loss
                         Pacific Commerce Bank                            4        2     2/10/2014 Sale of preferred stock at a loss
                         Meridian Bank                                   13        2     3/17/2014    Sale of preferred stock at a loss
                          IA Bancorp, Inc / Indus American Bank           6       0.1    3/17/2014 Sale of preferred stock at a loss
                          Community First Bancshares, Inc. (AR)          13       0.2    2/10/2014    Sale of preferred stock at a loss
                          Georgia Primary Bank                            5        3     2/10/2014    Sale of preferred stock at a loss
                         Chicago Shore Corporation                        7       0.1    3/17/2014 Sale of preferred stock at a loss
                         Total CPP Realized Losses                             $1,365                                                 
                                                                                                              Continued on next page
                                                                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   187




REALIZED LOSSES, WRITE-OFFS, AND CURRENTLY NOT COLLECTIBLE IN CPP, AS OF 3/31/2014
($ MILLIONS) (CONTINUED)

                                                                 TARP
Institution                                                Investment                      Loss                   Date      Description
Write-Offs
CIT Group Inc.                                                    $2,330               $2,330          12/10/2009 Bankruptcy
Pacific Coast National Bancorp                                            4                     4        2/11/2010          Bankruptcy
South Financial Group, Inc.         a
                                                                      347                   217          9/30/2010          Sale of preferred stock at a loss
TIB Financial Corpa                                                     37                    25         9/30/2010          Sale of preferred stock at a loss
Total CPP Write-Offs                                                                   $2,576                                                                         
Currently Not Collectibleb
UCBH Holdings Inc.                                                   $299                 $299           11/6/2009 Bankruptcy
Midwest Banc Holdings, Inc.                                             85                    85         5/14/2010 Bankruptcy
Sonoma Valley Bancorp                                                     9                     9        8/20/2010 Bankruptcy
Pierce County Bancorp                                                     7                     7        11/5/2010 Bankruptcy
Tifton Banking Company                                                    4                     4      11/12/2010 Bankruptcy
Legacy Bancorp, Inc.                                                      6                     6        3/11/2011          Bankruptcy
Superior Bancorp Inc.                                                   69                    69         4/15/2011 Bankruptcy
FPB Bancorp, Inc.                                                         6                     6        7/15/2011 Bankruptcy
One Georgia Bank                                                          6                     6        7/15/2011 Bankruptcy
Integra Bank Corporation                                                84                    84         7/29/2011 Bankruptcy
Citizens Bancorp                                                        10                    10         9/23/2011 Bankruptcy
CB Holding Corp.                                                          4                     4      10/14/2011 Bankruptcy
Tennessee Commerce Bancorp, Inc.                                        30                    30         1/27/2012          Bankruptcy
Blue River Bancshares, Inc.                                               5                     5        2/10/2012 Bankruptcy
Fort Lee Federal Savings Bank, FSB                                        1                     1        4/20/2012 Bankruptcy
Gregg Bancshares, Inc.                                                    1                     1        7/13/2012 Bankruptcy
Premier Bank Holding Company                                            10                    10         8/14/2012 Bankruptcy
GulfSouth Private Bank                                                    8                     8      10/19/2012 Bankruptcy
Investors Financial Corporation of
                                                                          4                     4      10/19/2012           Bankruptcy
Pettis County, Inc.
First Place Financial Corp.                                             73                    73       10/29/2012 Bankruptcy
Princeton National Bancorp, Inc.                                        25                    25         11/2/2012          Bankruptcy
Gold Canyon Bank                                                          2                     2          4/5/2013         Bankruptcy
Indiana Bank Corp.                                                        1                     1          4/9/2013         Bankruptcy
Rogers Bancshares, Inc                                                  25                    25           7/5/2013         Bankruptcy
TCB Holding Company                                                     12                    12       12/13/2013           Bankruptcy
Syringa Bancorp                                                           8                     8        1/31/2014          Bankruptcy
Total CPP Currently Not Collectible                                                       $791                                                                        
Total of CPP Realized Losses,
Write-Offs, and Currently Not                                                          $4,731                                                                         
Collectible
Notes: Numbers may not total due to rounding.
a
  In the time since these transactions were classified as write-offs, Treasury has changed its practices and now classifies sales of preferred stock at a loss as
   realized losses.
b
   As of September 2013, Treasury no longer counts investments currently not collectible as result of bankruptcy as “outstanding.”

Source: Treasury, Transactions Report, 3/19/2014; Treasury, response to SIGTARP data call, 4/9/2014.
188             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       Restructurings, Recapitalizations, Exchanges, and Sales of CPP
                                                       Investments
                                                       Certain CPP institutions continue to experience high losses and financial
                                                       difficulties, resulting in inadequate capital or liquidity. To avoid insolvency or
                                                       improve the quality of their capital, these institutions may ask Treasury to convert
      Undercapitalized: Condition in which a           its CPP preferred shares into a more junior form of equity or to accept a lower
      financial institution does not meet its          valuation, resulting in Treasury taking a discount or loss. If a CPP institution
      regulator’s requirements for sufficient          is undercapitalized and/or in danger of becoming insolvent, it may propose to
      capital to operate under a defined level         Treasury a restructuring (or recapitalization) plan to avoid failure (or to attract
      of adverse conditions.                           private capital) and to “attempt to preserve value” for Treasury’s investment.438
                                                       Treasury may also sell its investment in a troubled institution to a third party at
                                                       a discount in order to facilitate that party’s acquisition of a troubled institution.
                                                       According to Treasury, although it may incur partial losses on its investment in the
                                                       course of these transactions, such an outcome may be deemed necessary to avoid
                                                       the total loss of Treasury’s investment that would occur if the institution failed.439
                                                           Under these circumstances, the CPP participant asks Treasury for a formal
                                                       review of its proposal. The proposal details the institution’s recapitalization plan
                                                       and may estimate how much capital the institution plans to raise from private
                                                       investors and whether Treasury and other preferred shareholders will convert
                                                       their preferred stock to common stock. The proposal may also involve a proposed
                                                       discount on the conversion to common stock, although Treasury would not realize
                                                       any loss until it disposes of the stock.440 In other words, Treasury would not know
      Due Diligence: Appropriate level of              whether a loss will occur, or the extent of such a loss, until it sells the common
      attention or care a reasonable person            stock it receives as part of such an exchange. According to Treasury, when it
      should take before entering into an              receives such a request, it asks one of the external asset managers that it has
      agreement or a transaction with                  hired to analyze the proposal and perform due diligence on the institution.441 The
      another party. In finance, it often refers       external asset manager interviews the institution’s managers, gathers non-public
      to the process of conducting an audit            information, and conducts loan-loss estimates and capital structure analysis.
      or review of the institution before              The manager submits its evaluation to Treasury, which then decides whether to
      initiating a transaction.                        restructure its CPP investment.442
                                                           Table 2.38 shows all restructurings, recapitalizations, exchanges, and sales of
                                                       CPP investments through March 31, 2014.
                                                                                       QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                 189




TABLE 2.38
 TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 3/31/2014                                ($ MILLIONS)

                                      Investment       Original     Combined
 Company                                    Date   Investments    Investments                                                  Investment Status
 Citigroup Inc.                       10/28/2008      $2,500.0                                  Exchanged for common stock/warrants and sold
 Provident Bankshares                 11/14/2008         151.5
                                                                                        Provident preferred stock exchanged for new M&T Bank
 M&T Bank Corporation                 12/23/2008         600.0      $1,081.5a      Corporation preferred stock; Wilmington Trust preferred stock
                                                                                                      redeemed by M&T Bank Corporation; Sold
 Wilmington Trust Corporation         12/12/2008         330.0
 Popular, Inc.                         12/5/2008         935.0                                           Exchanged for trust preferred securities
 First BanCorp                          1/6/2009         400.0                            Exchanged for mandatorily convertible preferred stock
 South Financial Group, Inc.           12/5/2008         347.0                                                                               Sold
 Sterling Financial Corporation        12/5/2008         303.0                                               Exchanged for common stock, Sold
 Whitney Holding Corporation          12/19/2008         300.0                                                                               Sold
 First Banks, Inc.                    12/31/2008         295.4                                                                     Sold at auction
 Flagstar Bancorp Inc.                 1/30/2009         267.0                                                             Sold at loss in auction
 Pacific Capital Bancorp              11/21/2008         195.0                                                     Exchanged for common stock
 United Community Banks, Inc.          12/5/2008         180.0                                                             Sold at loss in auction
 Dickinson Financial Corporation II    1/16/2009         146.0                                                             Sold at loss in auction
 Central Pacific Financial Corp.        1/9/2009         135.0                                                     Exchanged for common stock
 Banner Corporation                   11/21/2008         124.0                                                             Sold at loss in auction
 BBCN Bancorp, Inc.                   11/21/2008          67.0
                                                                       122.0b    Exchanged for a like amount of securities of BBCN Bancorp, Inc.
 Center Financial Corporation         12/12/2008          55.0
 First Merchants                       2/20/2009         116.0                       Exchanged for trust preferred securities and preferred stock
 Taylor Capital Group                 11/21/2008         104.8                                                             Sold at loss in auction
 Metropolitan Bank Group Inc.          6/26/2009          71.5                   Exchanged for new preferred stock in Metropolitan Bank Group,
                                                                        81.9c 
 NC Bancorp, Inc.                      6/26/2009           6.9                                                        Inc. and later sold at loss

 Hampton Roads Bankshares             12/31/2008          80.3                                                     Exchanged for common stock
 Old Second Bancorp, Inc.              1/16/2009          73.0                                                             Sold at loss in auction
 Green Bankshares                     12/23/2008          72.3                                                                               Sold
 Independent Bank Corporation         12/12/2008          72.0                            Exchanged for mandatorily convertible preferred stock
 Alpine Banks of Colorado              3/27/2009          70.0                                                             Sold at loss in auction
 Superior Bancorp, Inc.d               12/5/2008          69.0                                           Exchanged for trust preferred securities
 First Financial Holdings Inc.         12/5/2008          65.0                                                             Sold at loss in auction
 Wilshire Bancorp, Inc.               12/12/2008          62.2                                                             Sold at loss in auction
                                                                                          Exchanged for common stock and securities purchase
 Standard Bancshares Inc.              4/24/2009          60.0               
                                                                                                                                 agreements
 MainSource Financial Group, Inc.      1/16/2009          57.0                                                             Sold at loss in auction
 WSFS Financial Corporation            1/23/2009          52.6                                                             Sold at loss in auction
 NewBridge Bancorp                    12/12/2008          52.4                                                             Sold at loss in auction
 Ameris Bancorp                       11/21/2008          52.0                                                             Sold at loss in auction
                                                                                                                         Continued on next page
190            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 3/31/2014                                 ($ MILLIONS) (CONTINUED)

                                            Investment        Original       Combined
      Company                                     Date    Investments      Investments                                              Investment Status
      Seacoast Banking Corporation of
                                            12/19/2008          $50.0                                                            Sold at loss in auction
      Florida
      Fidelity Southern Corporation         12/19/2008           48.2                                                            Sold at loss in auction
      MetroCorp Bancshares, Inc.             1/16/2009           45.0                                                            Sold at loss in auction
      Cadence Financial Corporation           1/9/2009           44.0                                                            Sold at loss in auction
      Exchange Bank                         12/19/2008           43.0                                                            Sold at loss in auction
      Crescent Financial Bancshares, Inc.     1/9/2009           24.9                    Exchanged for a like amount of securities of Crescent Financial
                                                                                $42.8e
      ECB Bancorp, Inc.                      1/16/2009           17.9                                                                  Bancshares, Inc.

      PremierWest Bancorp                    2/13/2009           41.4                                                                              Sold
      Capital Bank Corporation              12/12/2008           41.3                                                                              Sold
      Reliance Bancshares, Inc.              2/13/2009           40.0                                                                    Sold at auction
      Cascade Financial Corporation         11/21/2008           39.0                                                            Sold at loss in auction
      Bridgeview Bancorp, Inc.              12/19/2008           38.0                                                            Sold at loss in auction
      TIB Financial Corp.                    12/5/2008           37.0                                                                              Sold
      First Defiance Financial Corp.         12/5/2008           37.0                                                            Sold at loss in auction
      Fidelity Financial Corporation        12/19/2008           36.3                                                            Sold at loss in auction
      Marquette National Corporation        12/19/2008           35.5                                                            Sold at loss in auction
      Trinity Capital Corporation            3/27/2009           35.5                                                            Sold at loss in auction
      Firstbank Corporation                  1/30/2009           33.0                                                            Sold at loss in auction
      First Security Group, Inc.              1/9/2009           33.0                                                                              Sold
      Centrue Financial Corporation           1/9/2009           32.7                                                            Sold at loss in auction
      Pulaski Financial Corp                 1/16/2009           32.5                                                            Sold at loss in auction
      BNC Bancorp                            12/5/2008           31.3                                                            Sold at loss in auction
      Spirit Bank Corp. Inc.                 3/27/2009           30.0                                                            Sold at loss in auction
      Farmers Capital Bank Corporation        1/9/2009           30.0                                                            Sold at loss in auction
      Colony Bankcorp, Inc.                   1/9/2009           28.0                                                            Sold at loss in auction
      HMN Financial, Inc                    12/23/2008           26.0                                                            Sold at loss in auction
      LNB Bancorp Inc.                      12/12/2008           25.2                                                            Sold at loss in auction
      Peoples Bancorp of North Carolina,
                                            12/23/2008           25.1                                                            Sold at loss in auction
      Inc.
      Citizens Bancshares Co.                5/29/2009           25.0                                                            Sold at loss in auction
      Intervest Bancshares Corporation      12/23/2008           25.0                                                            Sold at loss in auction
      National Bancshares, Inc.              2/27/2009           24.7                                                            Sold at loss in auction
      CBS Banc-Corp                          3/27/2009           24.3                                                            Sold at loss in auction
      Eastern Virginia Bankshares, Inc.       1/9/2009           24.0                                                                    Sold at auction
      Severn Bancorp, Inc.                  11/21/2008           23.4                                                                    Sold at auction
      First Citizens Banc Corp               1/23/2009           23.2                                                            Sold at loss in auction
                                                                                                                                Continued on next page
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014              191




TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 3/31/2014                          ($ MILLIONS) (CONTINUED)

                                        Investment       Original     Combined
Company                                       Date   Investments    Investments                                      Investment Status
Park Bancorporation, Inc.                 3/6/2009         $23.2                                                   Sold at loss in auction
Premier Financial Bancorp, Inc.          10/2/2009          22.3                                                   Sold at loss in auction
Central Community Corporation            2/20/2009          22.0                                                   Sold at loss in auction
First Community Financial Partners,
                                        12/11/2009          22.0                                                   Sold at loss in auction
Inc.
Blue Valley Ban Corp                     12/5/2008          21.8                                                   Sold at loss in auction
FC Holdings, Inc.                        6/26/2009          21.0                                                   Sold at loss in auction
The Baraboo Bancorporation, Inc.         1/16/2009          20.7                                                   Sold at loss in auction
United Bancorp, Inc.                     1/16/2009          20.6                                                   Sold at loss in auction
Florida Bank Group, Inc.                 7/24/2009          20.5                                                                     Sold
Diamond Bancorp, Inc.                    5/22/2009          20.4                                                   Sold at loss in auction
Commonwealth Bancshares, Inc.            5/22/2009          20.4                                                   Sold at loss in auction
First Western Financial, Inc.             2/6/2009          20.4                                                   Sold at loss in auction
Market Street Bancshares, Inc.           5/15/2009          20.3                                                   Sold at loss in auction
BNCCORP, Inc.                            1/16/2009          20.1                                                          Sold at auction
First Financial Service Corporation       1/9/2009          20.0                                                   Sold at loss in auction
First Trust Corporation                   6/5/2009          18.0                                                   Sold at loss in auction
Southern First Bancshares, Inc.          2/27/2009          17.3                                                   Sold at loss in auction
F&M Financial Corporation (TN)           2/13/2009          17.2                                                   Sold at loss in auction
F & M Financial Corporation (NC)          2/6/2009          17.0                                                   Sold at loss in auction
Guaranty Federal Bancshares, Inc.        1/30/2009          17.0                                                   Sold at loss in auction
Timberland Bancorp Inc.                 12/23/2008          16.6                                                   Sold at loss in auction
First Federal Bankshares of
                                          3/6/2009          16.5                                                                     Sold
Arkansas, Inc.
1st Financial Services Corporation      11/14/2008          16.4                                                                     Sold
Parke Bancorp Inc.                       1/30/2009          16.3                                                   Sold at loss in auction
Pacific City Financial Corporation      12/19/2008          16.2                                                          Sold at auction
Carolina Bank Holdings, Inc.              1/9/2009          16.0                                                   Sold at loss in auction
CoastalSouth Bancshares, Inc.            8/28/2009          16.0                                                   Sold at loss in auction
Community West Bancshares               12/19/2008          15.6                                                   Sold at loss in auction
First Reliance Bancshares, Inc            3/6/2009          15.3                                                   Sold at loss in auction
Broadway Financial Corporation          11/14/2008          15.0                                           Exchanged for common stock
First Community Bancshares, Inc          5/15/2009          14.8                                                                     Sold
Village Bank and Trust Financial Corp     5/1/2009          14.7                                                   Sold at loss in auction
First National Corporation               3/13/2009          13.9                                                   Sold at loss in auction
Yadkin Valley Financial Corporation      7/24/2009          13.3                                                   Sold at loss in auction
SouthCrest Financial Group, Inc.         7/17/2009          12.9                                                                     Sold 
                                                                                                                  Continued on next page
192            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 3/31/2014    ($ MILLIONS) (CONTINUED)

                                            Investment        Original       Combined
      Company                                     Date    Investments      Investments               Investment Status
      Community First Bancshares, Inc.        4/3/2009          $12.7                              Sold at loss in auction
      Alliance Financial Services Inc.       6/26/2009           12.0                              Sold at loss in auction
      Farmers Enterprises, Inc.              6/19/2009           12.0                              Sold at loss in auction
      The Queensborough Company               1/9/2009           12.0                              Sold at loss in auction
      Plumas Bancorp                         1/30/2009           11.9                                     Sold at auction
      Central Virginia Bankshares            1/30/2009           11.4                                                Sold
      First Community Corporation           11/21/2008           11.4                              Sold at loss in auction
      Western Illinois Bancshares, Inc.     12/23/2008           11.4                              Sold at loss in auction
      First Capital Bancorp, Inc.             4/3/2009           11.0                              Sold at loss in auction
      Mackinac Financial Corporation         4/24/2009           11.0                              Sold at loss in auction
      Ridgestone Financial Services, Inc.    2/27/2009           11.0                              Sold at loss in auction
      First Community Bank Corporation
                                            12/23/2008           11.0                                                Sold
      of America
      Stonebridge Financial Corp.            1/23/2009           11.0                              Sold at loss in auction
      Security State Bank Holding
                                              5/1/2009           10.8                                     Sold at auction
      Company
      Presidio Bank                         11/20/2009           10.8                              Sold at loss in auction
      Crosstown Holding Company              1/23/2009           10.7                                     Sold at auction
      Northwest Bancorporation, Inc.         2/13/2009           10.5                                     Sold at auction
      Blackhawk Bancorp, Inc.                3/13/2009           10.0                              Sold at loss in auction
      Century Financial Services
                                             6/19/2009           10.0                              Sold at loss in auction
      Corporation
      ColoEast Bankshares, Inc.              2/13/2009           10.0                                     Sold at auction
      HomeTown Bankshares Corporation        9/18/2009           10.0                              Sold at loss in auction
      Coastal Banking Company, Inc.          12/5/2008           10.0                              Sold at loss in auction
      Universal Bancorp                      5/22/2009             9.9                                    Sold at auction
      Delmar Bancorp                         12/4/2009             9.0                             Sold at loss in auction
      RCB Financial Corporation              6/19/2009             8.9                                    Sold at auction
      First Freedom Bancshares, Inc.        12/22/2009             8.7                             Sold at loss in auction
      BancStar, Inc.                          4/3/2009             8.6                             Sold at loss in auction
      First Western Financial, Inc.           2/6/2009             8.6                             Sold at loss in auction
      Commonwealth Business Bank             1/23/2009             7.7                                    Sold at auction
      Metro City Bank                        1/30/2009             7.7                             Sold at loss in auction
      Oak Ridge Financial Services, Inc.     1/30/2009             7.7                             Sold at loss in auction
      First Gothenburg Bancshares, Inc.      2/27/2009             7.6                             Sold at loss in auction
      Country Bank Shares, Inc.              1/30/2009             7.5                             Sold at loss in auction
      The Little Bank, Incorporated         12/23/2009             7.5                             Sold at loss in auction
      First Sound Bank                      12/23/2008             7.4                                               Sold
                                                                                                  Continued on next page
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014              193




TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 3/31/2014                         ($ MILLIONS) (CONTINUED)

                                       Investment       Original     Combined
Company                                      Date   Investments    Investments                                      Investment Status
FFW Corporation                        12/19/2008          $7.3                                                   Sold at loss in auction
Millennium Bancorp, Inc.                 4/3/2009           7.3                                                                     Sold
Central Federal Corporation             12/5/2008           7.2                                                                     Sold
Community Financial Shares, Inc.        5/15/2009           7.0                                                                     Sold
TriSummit Bank                           4/3/2009           7.0                                                   Sold at loss in auction
Chicago Shore Corporation               7/31/2009           7.0                                                   Sold at loss in auction
Monarch Community Bancorp, Inc           2/6/2009           6.8                                                                     Sold
Fidelity Federal Bancorp               11/13/2009           6.7                                                          Sold at auction
Alarion Financial Services, Inc.        1/23/2009           6.5                                                          Sold at auction
First Intercontinental Bank             3/13/2009           6.4                                                          Sold at auction
Biscayne Bancshares, Inc.               6/19/2009           6.4                                                   Sold at loss in auction
Premier Financial Bancorp, Inc.         5/22/2009           6.3                                                          Sold at auction
Meridian Bank                           2/13/2009           6.2                                                   Sold at loss in auction
IA Bancorp, Inc.                        9/18/2009           6.0                                                   Sold at loss in auction
Three Shores Bancorporation, Inc.       1/23/2009           5.7                                                   Sold at loss in auction
Boscobel Bancorp Inc.                   5/15/2009           5.6                                                          Sold at auction
Waukesha Bankshares, Inc.               6/26/2009           5.6                                                   Sold at loss in auction
First Southwest Bancorporation, Inc.     3/6/2009           5.5                                                   Sold at loss in auction
Valley Community Bank                    1/9/2009           5.5                                                   Sold at loss in auction
Midtown Bank & Trust Company            2/27/2009           5.2                                                   Sold at loss in auction
Franklin Bancorp, Inc.                  5/22/2009           5.1                                                   Sold at loss in auction
AmFirst Financial Services, Inc.        8/21/2009           5.0                                                   Sold at loss in auction
Germantown Capital Corporation           3/6/2009           5.0                                                   Sold at loss in auction
Alaska Pacific Bancshares Inc.           2/6/2009           4.8                                                   Sold at loss in auction
First Priority Financial Corp.         12/18/2009           4.6                                                   Sold at loss in auction
Virginia Company Bank                   6/12/2009           4.7                                                          Sold at auction
Georgia Primary Bank                     5/1/2009           4.5                                                   Sold at loss in auction
Community Pride Bank Corporation       11/13/2009           4.4                                                          Sold at auction
CBB Bancorp                            12/20/2009           4.4                                                   Sold at loss in auction
Pinnacle Bank Holding Company, Inc.      3/6/2009           4.4                                                   Sold at loss in auction
Bank of Southern California, N.A.       4/10/2009           4.2                                                   Sold at loss in auction
Pacific Commerce Bank                  12/23/2008           4.1                                                   Sold at loss in auction
Bank of Currituck                        2/6/2009           4.0                                                                     Sold
Carolina Trust Bank                      2/6/2009           4.0                                                   Sold at loss in auction
Santa Lucia Bancorp                    12/19/2008           4.0                                                                     Sold
Capital Pacific Bancorp                12/23/2008           4.0                                                   Sold at loss in auction
Community Business Bank                 2/27/2009           4.0                                                   Sold at loss in auction
                                                                                                                 Continued on next page
194            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 3/31/2014                       ($ MILLIONS) (CONTINUED)

                                             Investment       Original       Combined
      Company                                      Date   Investments      Investments                                   Investment Status
      KS Bancorp Inc.                         8/21/2009          $4.0                                                  Sold at loss in auction
      Naples Bancorp, Inc.                    3/27/2009            4.0                                                                   Sold
      Peoples of Bancshares of TN, Inc.       3/20/2009            3.9                                                 Sold at loss in auction
      Pathway Bancorp                         3/27/2009            3.7                                                        Sold at auction
      F & M Bancshares, Inc.                  11/6/2009            3.5                                                 Sold at loss in auction
      AB&T Financial Corporation              1/23/2009            3.5                                                 Sold at loss in auction
      First Alliance Bancshares, Inc.         6/26/2009            3.4                                                 Sold at loss in auction
      Madison Financial Corporation           3/13/2009            3.4                                                        Sold at auction
      Congaree Bancshares, Inc.                1/9/2009            3.3                                                 Sold at loss in auction
      Mountain Valley Bancshares, Inc.        9/25/2009            3.3                                                        Sold at auction
      Treaty Oak Bancorp, Inc.                1/16/2009            3.3                                                                   Sold
      First Independence Corporation          8/28/2009            3.2                                                 Sold at loss in auction
      Oregon Bancorp, Inc.                    4/24/2009            3.2                                                        Sold at auction
      Sound Banking Co.                        1/9/2009            3.1                                                 Sold at loss in auction
      Alliance Bancshares, Inc.               6/26/2009            3.0                                                 Sold at loss in auction
      Bank of Commerce                        1/16/2009            3.0                                                 Sold at loss in auction
      Clover Community Bankshares, Inc.       3/27/2009            3.0                                                 Sold at loss in auction
      F & C Bancorp. Inc.                     5/22/2009            3.0                                                 Sold at loss in auction
      FBHC Holding Company                   12/29/2009            3.0                                                                   Sold
      Fidelity Resources Company              6/26/2009            3.0                       Exchanged for preferred stock in Veritex Holding
      Layton Park Financial Group, Inc.      12/18/2009            3.0                                                 Sold at loss in auction
      Tennessee Valley Financial Holdings,
                                             12/23/2008            3.0                                                        Sold at auction
      Inc.
      Berkshire Bancorp                       6/12/2009            2.9                   Exchanged for preferred stock in Customers Bancorp
      Santa Clara Valley Bank, N.A.           2/13/2009            2.9                                                 Sold at loss in auction
      Omega Capital Corp.                     4/17/2009            2.8                                                        Sold at auction
      Bank of George                          3/13/2009            2.7                                                 Sold at loss in auction
      Worthington Financial Holdings, Inc.    5/15/2009            2.7                                                 Sold at loss in auction
      Community Investors Bancorp, Inc.      12/23/2008            2.6                                                 Sold at loss in auction
      Manhattan Bancshares, Inc.              6/19/2009            2.6                                                 Sold at loss in auction
      Plato Holdings Inc.                     7/17/2009            2.5                                                 Sold at loss in auction
      Brogan Bankshares, Inc.                 5/15/2009            2.4                                                        Sold at auction
      CenterBank                               5/1/2009            2.3                                                 Sold at loss in auction
      Security Bancshares of Pulaski
                                              2/13/2009            2.2                                                 Sold at loss in auction
      County, Inc.
      Atlantic Bancshares, Inc.              12/29/2009            2.0                                                        Sold at auction
      Hometown Bancshares, Inc.               2/13/2009            1.9                                                 Sold at loss in auction
                                                                                                                     Continued on next page
                                                                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                                    195




TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 3/31/2014                                                                                ($ MILLIONS) (CONTINUED)

                                                      Investment              Original           Combined
Company                                                     Date          Investments          Investments                                                                      Investment Status
Hyperion Bank                                            2/6/2009                    $1.6                                                                                    Sold at loss in auction
Regional Bankshares Inc.                               2/13/2009                       1.5                                                                                   Sold at loss in auction
Desoto County Bank                                     2/13/2009                       1.2                                                                                             Sold at auction
First Advantage Bancshares, Inc.                       5/22/2009                       1.2                                                                                   Sold at loss in auction
Community Bancshares of MS                               2/6/2009                      1.1                                                                                   Sold at loss in auction
BankGreenville Financial Corp.                         2/13/2009                       1.0                                                                                   Sold at loss in auction
Bank Financial Services, Inc.                          8/14/2009                       1.0                                                                                   Sold at loss in auction
Corning Savings and Loan
                                                       2/13/2009                       0.6                                                                                   Sold at loss in auction
Association
Farmers & Merchants Financial
                                                       3/20/2009                       0.4                                                                                   Sold at loss in auction
Corporation
Notes: Numbers may be affected due to rounding.
a
  M&T Bank Corporation (“M&T”) has redeemed the entirety of the preferred shares issued by Wilmington Trust Corporation plus accrued dividends. In addition, M&T has also repaid Treasury’s original $600
   million investment. On August 21, 2012, Treasury sold all of its remaining investment in M&T at par.
b
      The new investment amount of $122 million includes the original investment amount in BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.) of $67 million and the original investment of Center Financial
       Corporation of $55 million.
c
   The new investment amount of $81.9 million includes the original investment amount in Metropolitan Bank Group, Inc. of $71.5 million plus the original investment amount in NC Bank Group, Inc. of $6.9
    million plus unpaid dividends of $3.5 million.
d
     The subsidiary bank of Superior Bancorp, Inc. failed on April 15, 2011. All of Treasury’s TARP investment in Superior Bancorp is expected to be lost.
e
    The new investment amount of $42.8 million includes the original investment amount in Crescent Financial Bancshares, Inc. (formerly Crescent Financial Corporation) of $24.9 million and the original
     investment of ECB Bancorp, Inc. of $17.9 million.

Source: Treasury, Transactions Report, 3/19/2014.
196           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     Treasury’s Sale of TARP Preferred Stock Investments at Auction
                                                     Overview of CPP Preferred Stock Auctions
                                                     From March 2012 through March 31, 2014, Treasury has held 24 sets of auctions
                                                     in which it has sold all of its preferred stock investments in 172 CPP banks.443
                                                     For publicly traded banks, Treasury auctioned the shares through a placement
                                                     agent and the shares were available for purchase by the general public. For private
                                                     banks, Treasury auctioned the shares directly and the auctions were accessible only
                                                     to qualified purchasers. The preferred stock for all but 13 of the banks sold at a
                                                     discounted price and resulted in losses to Treasury.444 In the 24 auction sets, the
                                                     range of discount on the investments was 1% to 83%.445 When Treasury sells all of
                                                     its preferred shares of a CPP bank, it forfeits the right to collect missed dividends
                                                     and interest payments from the bank. Of the 172 banks in which Treasury sold its
                                                     stock through the auction process, 63 were overdue on payments to Treasury.446
                                                     The $218.8 million owed to Treasury for missed payments by these 63 banks will
                                                     never be recovered.447 As of March 31, 2014, Treasury lost a total of $991 million
                                                     in the auctions, which includes $772.2 million lost on principal investments sold
                                                     at a discount and $218.8 million on forfeited missed dividends and interest owed
                                                     by these institutions.448 More than a quarter of the banks, 43 bought back some of
      On October 9, 2012, SIGTARP made               their shares at the discounted price.449 In two sets of auctions this quarter, Treasury
      three recommendations regarding                sold all of its TARP preferred investment in 10 banks.450 The two auctions this
      CPP preferred stock auctions, which            quarter accrued losses to Treasury of $30.7 million.451
      are discussed in detail in SIGTARP’s
      October 2012 Quarterly Report, pages
                                                         Table 2.39 shows details for the auctions of preferred stock in CPP banks
      180-183.                                       through March 31, 2014.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014             197




TABLE 2.39
 INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 3/31/2014
                                                                                                       Percentage
                                                                                                         of Shares
                                                                                         Discount     Repurchased              Missed
 Institution                Auction Date    Investment   Net Proceeds   Auction Loss   Percentage     by Institution        Dividends
Stonebridge Financial
                              3/15/2013    $10,973,000     $1,879,145    $9,093,855           83%                          $1,794,180
Corp.
 AB&T Financial
                            11/19/2013       3,500,000       914,215      2,585,785           74%                                481,250
 Corporation
 Bridgeview Bancorp,
                            11/19/2013      38,000,000     10,450,000    27,550,000           73%                           7,766,250
 Inc.
 Spirit Bank Corp. Inc.     11/19/2013      30,000,000      9,000,000    21,000,000           70%                           4,905,000
 Georgia Primary Bank         2/10/2014      4,500,000      1,531,145     2,968,855           66%                           1,113,163
 Old Second Bancorp,
                               3/1/2013     73,000,000     25,547,320    47,452,680           65%                           9,125,000
 Inc.a
First Banks, Inc.             8/12/2013    295,400,000    104,749,295   190,650,705           65%                          64,543,063
 Centrue Financial
                            10/21/2013      32,668,000     10,631,697    21,186,665           65%                           6,959,475
 Corporation
 Bank of George             10/21/2013       2,672,000       955,240      1,716,760           64%                                364,150
 Village Bank and Trust
                            11/19/2013      14,738,000      5,672,361     9,065,639           62%                           2,026,475
 Financial Corp
 Valley Community Bank      10/21/2013       5,500,000      2,296,800     3,203,200           58%                                749,375
 First Priority Financial
                              1/29/2013      9,175,000      4,012,094     5,162,906           56%                  
 Corp.
 First Intercontinental
                              8/12/2013      6,398,000      3,222,113     3,175,887           50%                                697,400
 Bank
 Citizens Bancshares
                              1/29/2013     24,990,000     12,679,301    12,310,699           49%                           4,086,000
 Co.
 First Financial Service
                              4/29/2013     20,000,000     10,733,778     9,266,222           46%                           2,500,000
 Corporation
 Dickinson Financial
                              1/29/2013    146,053,000     79,903,245    66,149,755           45%                          27,859,720
 Corporation II
 Midtown Bank & Trust
                            11/19/2013       5,222,000      3,133,200     2,088,800           40%             100%          1,067,213
 Company
 Virginia Company Bank        8/12/2013      4,700,000      2,843,974     1,856,026           39%                                185,903
 Delmar Bancorp               1/29/2013      9,000,000      5,453,900     3,546,100           39%                                613,125
 Pacific Commerce
                              2/10/2014      4,060,000      2,494,961     1,565,039           39%                                695,771
 Bank
 Franklin Bancorp, Inc.       11/9/2012      5,097,000      3,191,614     1,905,386           37%
 Hyperion Bank              12/20/2012       1,552,000       983,800        568,200           37%
 The Baraboo
                            12/11/2012      20,749,000     13,399,227     7,349,773           35%                                565,390
 Bancorporation, Inc.
 First Community
 Financial Partners,          9/12/2012     22,000,000     14,211,450     7,788,550           35%
 Inc.b
                                                                                                                Continued on next page
198             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 3/31/2014                       (CONTINUED)

                                                                                                               Percentage
                                                                                                                 of Shares
                                                                                                  Discount    Repurchased              Missed
      Institution               Auction Date     Investment      Net Proceeds    Auction Loss   Percentage    by Institution        Dividends
      First Reliance
                                   3/1/2013    $15,349,000        $10,327,021     $5,021,979            33%                       $1,254,720
      Bancshares, Inc.
      Security Bancshares of
                                12/11/2012        2,152,000          1,475,592       676,408            31%
      Pulaski County, Inc.
      First Alliance
                                12/20/2012        3,422,000          2,370,742     1,051,258            31%                           93,245
      Bancshares, Inc.
      First Independence
                                12/20/2012        3,223,000          2,286,675       936,325            29%
      Corporation
      Parke Bancorp, Inc.       11/30/2012       16,288,000        11,595,735      4,692,265            29%
      Marquette National
                                  7/27/2012      35,500,000        25,313,186     10,186,814            29%            31%
      Corporation
      HMN Financial, Inc.         1/29/2013      26,000,000        18,571,410      7,428,590            29%                        2,600,000
      Community West
                                12/11/2012       15,600,000        11,181,456      4,418,544            28%                          585,000
      Bancshares
      Farmers Capital Bank
                                  6/13/2012      30,000,000        21,594,229      8,405,771            28%
      Corporation
      Park Bancorporation,
                                  7/27/2012      23,200,000        16,772,382      6,427,618            28%            30%
      Inc.
      Diamond Bancorp, Inc.       7/27/2012      20,445,000        14,780,662      5,664,338            28%
      TriSummit Bank            11/30/2012        7,002,000          5,198,984     1,803,016            26%
      Commonwealth
                                  7/27/2012      20,400,000        15,147,000      5,253,000            26%            26%
      Bancshares, Inc.
      National Bancshares,
                                   2/7/2013      24,664,000        18,318,148      6,345,852            26%                        3,024,383
      Inc.
      Alliance Financial
                                  1/29/2013      12,000,000          8,912,495     3,087,505            26%                        3,020,400
      Services, Inc.
      Trinity Capital
                                  7/27/2012      35,539,000         26,396,503     9,142,497            26%
      Corporation
      Blue Ridge
                                10/31/2012       12,000,000          8,969,400     3,030,600            25%
      Bancshares, Inc.
      Peoples Bancshares of
                                10/31/2012        3,900,000          2,919,500       980,500            25%
      TN, Inc.
      First Trust Corporation      2/7/2013      17,969,000         13,612,558     4,356,442            24%                
      Colony Bankcorp, Inc.       1/29/2013      28,000,000         21,680,089     6,319,911            23%                        1,400,000
      F&M Financial
                                  9/12/2012      17,243,000         13,443,074     3,799,926            22%
      Corporation (TN)
      Layton Park Financial
                                11/30/2012        3,000,000          2,345,930       654,070            22%
      Group, Inc.
      CoastalSouth
                                   3/1/2013      16,015,000        12,606,191      3,408,809            21%                        1,687,900
      Bancshares, Inc.
      Alpine Banks of
                                  9/12/2012      70,000,000        56,430,297     13,569,703            19%
      Colorado
      Seacoast Banking
                                  3/28/2012      50,000,000         40,404,700     9,595,300            19%
      Corporation of Florida
                                                                                                                        Continued on next page
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014             199




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 3/31/2014                   (CONTINUED)

                                                                                                      Percentage
                                                                                                        of Shares
                                                                                        Discount     Repurchased              Missed
Institution                Auction Date    Investment   Net Proceeds   Auction Loss   Percentage     by Institution        Dividends
United Bancorp, Inc.         6/13/2012    $20,600,000    $16,750,221    $3,849,779            19%
CenterBank                 10/31/2012       2,250,000      1,831,250       418,750            19%
Ridgestone Financial
                              2/7/2013     10,900,000      8,876,677     2,023,323            19%                         $2,079,175
Services, Inc.
Meridian Bank                3/17/2014     12,535,000     10,328,152     2,206,848            18%                                     
Congaree Bancshares
                           10/31/2012       3,285,000      2,685,979       599,021            18%              35%
Inc.
DeSoto County Bank           9/25/2013      2,681,000      2,196,896       484,104            18%              79%                    
KS Bancorp, Inc.           11/30/2012       4,000,000      3,283,000       717,000            18%
Corning Savings and
                           11/30/2012        638,000        523,680        114,320            18%
Loan Association
Bank of Commerce           11/30/2012       3,000,000      2,477,000       523,000            17%                               122,625
First Western Financial,
                             7/27/2012     20,440,000     17,022,298     3,417,702            17%
Inc.c
Presidio Bank              12/11/2012      10,800,000      9,058,369     1,741,631            16%
Carolina Trust Bank        11/30/2012       4,000,000      3,362,000       638,000            16%                               150,000
Santa Clara Valley
                              3/1/2013      2,900,000      2,440,379       459,621            16%                               474,150
Bank, N.A.
Worthington Financial
                             6/24/2013      2,720,000      2,318,851       401,149            15%                               222,360
Holdings, Inc.
Timberland Bancorp,
                             11/9/2012     16,641,000     14,209,334     2,431,666            15%
Inc.
First Financial Holdings
                             3/28/2012     65,000,000     55,926,478     9,073,522            14%
Inc.
Clover Community
                           11/30/2012       3,000,000      2,593,700       406,300            14%
Bankshares, Inc.
Exchange Bank                7/27/2012     43,000,000     37,259,393     5,740,607            13%              47%
LNB Bancorp Inc.             6/13/2012     25,223,000     21,863,750     3,359,250            13%
First National
                             8/23/2012     13,900,000     12,082,749     1,817,251            13%
Corporation
Banner Corporation           3/28/2012    124,000,000    108,071,915    15,928,085            13%
Pulaski Financial Corp       6/27/2012     32,538,000     28,460,338     4,077,662            13%
Three Shores
                             11/9/2012      5,677,000      4,992,788       684,212            12%
Bancorporation, Inc.
Taylor Capital Group         6/13/2012    104,823,000     92,254,460    12,568,540            12%
Yadkin Valley Financial
                             9/12/2012     49,312,000     43,486,820     5,825,180            12%
Corporationd
Alaska Pacific
                           11/30/2012       4,781,000      4,217,568       563,432            12%
Bancshares, Inc.
Fidelity Financial
                             7/27/2012     36,282,000     32,013,328     4,268,672            12%              58%
Corporation
Fidelity Southern
                             6/27/2012     48,200,000     42,757,786     5,442,214            11%
Corporation
                                                                                                               Continued on next page
200            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 3/31/2014                      (CONTINUED)

                                                                                                              Percentage
                                                                                                                of Shares
                                                                                                 Discount    Repurchased              Missed
      Institution              Auction Date     Investment      Net Proceeds    Auction Loss   Percentage    by Institution        Dividends
      FC Holdings, Inc.           2/7/2013    $21,042,000        $18,685,927     $2,356,073            11%                       $4,013,730
      First Advantage
                               12/11/2012        1,177,000          1,046,621       130,379            11%
      Bancshares, Inc.
      Market Street
                                 7/27/2012      20,300,000        18,069,213      2,230,787            11%            89%
      Bancshares, Inc.
      Southern First
                                 6/27/2012      17,299,000        15,403,722      1,895,278            11%              6%
      Bancshares, Inc.
      BankGreenville
                                 11/9/2012       1,000,000            891,000       109,000            11%
      Financial Corporation
      First Southwest
                                 3/15/2013       5,500,000          4,900,609       599,391            11%                          974,188
      Bancorporation, Inc.
      Metro City Bank          10/31/2012        7,700,000          6,861,462       838,538            11%            15%
      Premier Financial
                                 7/27/2012      22,252,000        19,849,222      2,402,778            11%            46%
      Bancorp, Inc.
      First Citizens Banc
                                 6/27/2012      23,184,000        20,689,633      2,494,367            11%
      Corp
      FFW Corporation          11/30/2012        7,289,000          6,515,426       773,574            11%
      ColoEast Bankshares,
                                 7/22/2013      10,000,000          8,947,125     1,052,875            11%                        1,090,000
      Inc.
      CBS Banc-Corp.             7/27/2012      24,300,000        21,776,396      2,523,604            10%            95%
      SouthCrest Financial
                                  3/1/2013      12,900,000        11,587,256      1,312,744            10%                        1,581,863
      Group, Inc.
      Blackhawk Bancorp
                               10/31/2012       10,000,000          9,009,000       991,000            10%
      Inc.
      First Gothenburg
                               10/31/2012        7,570,000          6,822,136       747,864            10%
      Banschares, Inc.
      WSFS Financial
                                 3/28/2012      52,625,000        47,435,299      5,189,701            10%
      Corporation
      Flagstar Bancorp, Inc.     3/15/2013    266,657,000        240,627,277     26,029,723            10%                       16,666,063
      Bank Financial
                               12/20/2012        1,004,000            907,937        96,063            10%
      Services, Inc.
      Germantown Capital
                               10/31/2012        4,967,000          4,495,616       471,384             9%            25%
      Corporation, Inc.
      Farmers & Merchants
                                 6/24/2013         442,000            400,425        41,575             9%                                  
      Financial Corporation
      First Capital Bancorp,
                                 6/13/2012      10,958,000          9,931,327     1,026,673             9%            50%
      Inc.
      RCB Financial
                                 9/25/2013       8,900,000          8,073,279       826,721             9%                        1,055,520
      Corporation
      BNC Bancorp                8/23/2012      31,260,000        28,365,685      2,894,315             9%
      Bank of Southern
                               12/20/2012        4,243,000          3,850,150       392,850             9%            30%
      California, N.A.
      Country Bank Shares,
                               11/30/2012        7,525,000          6,838,126       686,874             9%
      Inc.
                                                                                                                       Continued on next page
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014           201




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 3/31/2014                  (CONTINUED)

                                                                                                     Percentage
                                                                                                       of Shares
                                                                                       Discount     Repurchased              Missed
Institution               Auction Date    Investment   Net Proceeds   Auction Loss   Percentage     by Institution        Dividends
HomeTown Bankshares
                          10/31/2012     $10,000,000     $9,093,150      $906,850             9%
Corporation
Oak Ridge Financial
                          10/31/2012       7,700,000      7,024,595       675,405             9%
Services, Inc.
First Freedom
                            11/9/2012      8,700,000      7,945,492       754,508             9%              69%
Bancshares, Inc.
Sound Banking
                            11/9/2012      3,070,000      2,804,089       265,911             9%
Company
Regional Bankshares,
                            11/9/2012      1,500,000      1,373,625       126,375             8%              47%
Inc.
Ameris Bancorp              6/13/2012     52,000,000     47,665,332     4,334,668             8%
Central Community
                          12/11/2012      22,000,000     20,172,636     1,827,364             8%
Corporation
MainSource Financial
                            3/28/2012     57,000,000     52,277,171     4,722,829             8%              37%
Group, Inc.
Waukesha Bankshares,
                            1/29/2013      5,625,000      5,161,674       463,326             8%                 
Inc.
Peoples Bancorp of
                            6/27/2012     25,054,000     23,033,635     2,020,365             8%              50%
North Carolina, Inc.
CBB Bancorp               11/30/2012       4,397,000      4,066,752       330,248             8%              35%
Carolina Bank
                             2/7/2013     16,000,000     14,811,984     1,188,016             7%                 
Holdings, Inc.
Firstbank Corporation       6/27/2012     33,000,000     30,587,530     2,412,470             7%              48%
Community Business
                          11/30/2012       3,976,000      3,692,560       283,440             7%
Bank
Capital Pacific Bancorp     11/9/2012      4,000,000      3,715,906       284,094             7%
Wilshire Bancorp, Inc.      3/28/2012     62,158,000     57,766,994     4,391,006             7%              97%
Western Illinois
                            11/9/2012     11,422,000     10,616,305       805,695             7%              89%
Bancshares, Inc.
Hometown
                          11/30/2012       1,900,000      1,766,510       133,490             7%              39%
Bancshares, Inc.
Community
Bancshares of             11/30/2012       1,050,000       977,750         72,250             7%              52%
Mississippi, Inc.
F & M Bancshares, Inc.      1/29/2013      8,144,000      7,598,963       545,037             7%                 
Community Investors
                          12/20/2012       2,600,000      2,445,000       155,000             6%              54%
Bancorp, Inc.
F & M Financial
                            9/12/2012     17,000,000     15,988,500     1,011,500             6%              84%
Corporation (NC)
Universal Bancorp           8/12/2013      9,900,000      9,312,028       587,972             6%                                   
Commonwealth
                            7/22/2013      7,701,000      7,250,414       450,586             6%            100%         $1,049,250
Business Bank
Mackinac Financial
                            8/23/2012     11,000,000     10,380,905       619,095             6%
Corporation
                                                                                                              Continued on next page
202            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 3/31/2014                      (CONTINUED)

                                                                                                              Percentage
                                                                                                                of Shares
                                                                                                 Discount    Repurchased              Missed
      Institution                Auction Date    Investment     Net Proceeds    Auction Loss   Percentage    by Institution        Dividends
      Coastal Banking
                                    3/1/2013     $9,950,000       $9,408,213       $541,787             5%                         $746,250
      Company, Inc.
      First Defiance Financial
                                   6/13/2012     37,000,000       35,084,144      1,915,856             5%            45%
      Corp.
      Alliance Bancshares,
                                   3/15/2013      2,986,000         2,831,437       154,563             5%                
      Inc.
      F&C Bancorp, Inc.            11/9/2012      2,993,000         2,840,903       152,097             5%
      AmFirst Financial
                                   3/15/2013      5,000,000         4,752,000       248,000             5%                
      Services, Inc.
      United Community
                                   3/15/2013    180,000,000      171,517,500      8,482,500             5%                
      Banks, Inc.
      Farmers Enterprises,
                                   11/9/2012     12,000,000       11,439,252        560,748             5%            99%
      Inc.
      Guaranty Federal
                                   4/29/2013     12,000,000       11,493,900        506,100             4%                                  
      Bancshares, Inc.e
      Intervest Bancshares
                                   6/24/2013     25,000,000       24,007,500        992,500             4%            25%                   
      Corporation
      Biscayne Bancshares,
                                   1/29/2013      6,400,000         6,170,630       229,370             4%            53%
      Inc.
      MetroCorp
                                   6/27/2012     45,000,000       43,490,360      1,509,640             3%            97%
      Bancshares, Inc.
      The Queensborough
                                    3/1/2013     12,000,000       11,605,572        394,428             3%                        1,798,500
      Company
      First Community
                                   8/23/2012     11,350,000       10,987,794        362,206             3%            33%
      Corporation
      Manhattan Bancshares,
                                 12/11/2012       2,639,000         2,560,541        78,459             3%            96%
      Inc.
      NewBridge Bancorp            4/29/2013     52,372,000       50,837,239      1,534,761             3%                                  
      The Little Bank,
                                 10/31/2012       7,500,000         7,285,410       214,590             3%            63%
      Incorporated
      Crosstown Holding
                                   7/22/2013     10,650,000       10,356,564        293,436             3%                                  
      Company
      BancStar, Inc.               4/29/2013      8,600,000         8,366,452       233,548             3%             12%                  
      Alarion Financial
                                   7/22/2013      6,514,000         6,338,584       175,416             3%                          532,560
      Services, Inc.
      Century Financial
                                 12/20/2012      10,000,000         9,751,500       248,500             2%
      Services Corporation
      Blue Valley Ban Corp       10/21/2013      21,750,000       21,263,017        486,983             2%                        4,893,750
      Mountain Valley
                                   7/22/2013      3,300,000         3,242,000        58,000             2%            91%                   
      Bancshares, Inc.
      IA Bancorp, Inc.             3/17/2014      5,976,000         5,863,113       112,887             2%                          472,365
      Community First
                                   2/10/2014     12,725,000       12,446,703        278,297             2%                                  
      Bancshares, Inc.
      Premier Financial Corp.      7/22/2013      6,349,000         6,270,436        78,564             1%            60%         1,597,857
                                                                                                                       Continued on next page
                                                                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                                  203




INVESTMENTS IN CPP BANKS SOLD AT A LOSS AT AUCTION, AS OF 3/31/2014                                                                        (CONTINUED)

                                                                                                                                                                     Percentage
                                                                                                                                                                       of Shares
                                                                                                                                              Discount              Repurchased                         Missed
Institution                         Auction Date               Investment              Net Proceeds                 Auction Loss            Percentage              by Institution                   Dividends
Community Pride Bank
                                        8/12/2013             $4,400,000                   $4,351,151                      $48,849                        1%                                          $803,286
Corporation
Fidelity Federal
                                        7/22/2013               6,657,000                    6,586,509                       70,491                       1%                                         1,229,924
Bancorp
Omega Capital Corp.                     7/22/2013               2,816,000                    2,791,000                       25,000                       1%                                            575,588
Plato Holdings Inc.                     4/29/2013               2,500,000                    2,478,750                       21,250                       1%                                            207,266
Chicago Shore
                                        3/17/2014               7,000,000                    6,937,000                       63,000                       1%                                                   
Corporation
Severn Bancorp, Inc.                    9/25/2013             23,393,000                   23,367,268                        25,732                       0%                                         1,754,475
Oregon Bancorp, Inc.                  10/21/2013                3,216,000                    3,216,000                                0                   0%                      78%                          
Reliance Bancshares,
                                        9/25/2013             40,000,000                   40,196,000                     (196,000)                       0%                                         5,995,000
Inc.
BNCCORP, Inc.                           3/17/2014             20,093,000                   20,114,700                       (21,700)                      0%                                                   
Tennessee Valley
                                        4/29/2013               3,000,000                    3,041,330                      (41,330)                    (1%)                                            531,375
Financial Holdings, Inc
Northwest
                                          3/1/2013            10,500,000                   10,728,783                     (228,783)                     (2%)                                         1,716,750
Bancorporation, Inc.
Madison Financial
                                      11/19/2013                3,370,000                    3,446,196                      (76,196)                    (2%)                                            688,913
Corporation
Brogan Bankshares,
                                        4/29/2013               2,400,000                    2,495,024                      (95,024)                    (4%)                                            352,380
Inc.
Plumas Bancorp                          4/29/2013             11,949,000                   12,907,297                     (958,297)                     (8%)                      58%                1,792,350
Boscobel Bancorp, Inc.                    3/1/2013              5,586,000                    6,116,943                    (530,943)                   (10%)                                          1,288,716
Eastern Virginia
                                      10/21/2013              24,000,000                   26,498,640                  (2,498,640)                    (10%)                                          3,300,000
Bankshares, Inc.
Atlantic Bancshares,
                                        2/10/2014               2,000,000                    2,275,000                    (275,000)                   (14%)                                             299,255
Inc.
Security State Bank
                                        6/24/2013             10,750,000                   12,409,261                  (1,659,261)                    (15%)                                          2,254,985
Holding Company
Pathway Bancorp                         6/24/2013               3,727,000                    4,324,446                    (597,446)                   (16%)                                             761,588
Pacific City Financial
                                      11/19/2013              16,200,000                   19,685,754                  (3,485,754)                    (22%)                       53%                3,973,050
Corporation
Total Auction Losses                                                                                             $772,160,183
Total Missed
                                                                                                                                                                                             $218,808,658
Dividends
Notes: Numbers may not total due to rounding.
a
  Treasury sold 70,028 of its shares in Old Second in the 3/1/2013 auction and the remaining 2,972 shares in the 3/15/2013 auction.
b
  Treasury additionally sold 1,100 shares of its Series C stock in First Community Financial Partners, Inc. in this auction, but its largest investment in the bank was sold in the auction that closed on
   9/12/2012, and the data for the disposition of its investment is listed under the 9/12/2012 auction in this table.
c
  Treasury sold 8,000 of its shares in First Western Financial, Inc. on 7/27/2012 and the remaining 12,440 in the 6/24/2013 auction.
d
  This institution was auctioned separately from the other set that closed on the same date because it is a publicly traded company.
e
  The original investment in Guaranty Federal Bancshares, Inc. was $17 million. The bank had previously paid down $5 million, leaving a $12 million investment remaining.

Sources: Treasury, Transactions Report, 3/19/2014; SNL Financial LLC data.
204            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      For a discussion of SIGTARP’s                   CPP Banks Refinancing into CDCI and SBLF
      August 20, 2013, recommendation                 On October 21, 2009, the Administration announced the Community
      to Treasury regarding the inclusion of
      SBLF funds as TARP repayments, see
                                                      Development Capital Initiative (“CDCI”) as another TARP-funded program.452
      SIGTARP’s October 2013 Quarterly                Under CDCI, TARP made $570.1 million in investments in 84 eligible banks and
      Report, pages 281-282.                          credit unions.453 Qualifying CPP banks applied for the new TARP program, and 28
                                                      banks were accepted. The 28 banks refinanced $355.7 million in CPP investments
      For information on TARP banks that              into CDCI.454 For more information on CDCI, see “Community Development
      refinanced into SBLF, see SIGTARP’s
      April 9, 2013, audit report, “Banks
                                                      Capital Initiative” in this section.
      that Used the Small Business Lending                 On September 27, 2010, the President signed into law the Small Business Jobs
      Fund to Exit TARP.”                             Act of 2010 (“Jobs Act”), which created the non-TARP program SBLF for Treasury
                                                      to make up to $30 billion in capital investments in institutions with less than $10
      For a detailed list of CPP banks that           billion in total assets.455 According to Treasury, it received a total of 935 SBLF
      refinanced into SBLF, see SIGTARP’s
      October 2012 Quarterly Report, pages            applications, of which 320 were TARP recipients under CPP (315) or CDCI (5).456
      88-92.                                          Treasury accepted 137 CPP participants into SBLF with financing of $2.7 billion.
                                                      The 137 banks in turn refinanced $2.2 billion of Treasury’s TARP preferred stock
      For a discussion of the impact of TARP          with the SBLF investments.457 None of the CDCI recipients were approved for
      and SBLF on community banks, see                participation.
      SIGTARP’s April 2012 Quarterly
      Report, pages 145-167.
                                                      Warrant Disposition
      For more information on warrant                 As required by EESA, Treasury received warrants when it invested in troubled
      disposition, see SIGTARP’s audit                assets from financial institutions, with an exception for certain small institutions.
      report of May 10, 2010, “Assessing
                                                      With respect to financial institutions with publicly traded securities, these warrants
      Treasury’s Process to Sell Warrants
      Received from TARP Recipients.”                 gave Treasury the right, but not the obligation, to purchase a certain number of
                                                      shares of common stock at a predetermined price.458 Because the warrants rise in
                                                      value as a company’s share price rises, they permit Treasury (and the taxpayer) to
                                                      benefit from a firm’s potential recovery.459
                                                          For publicly traded institutions, the warrants received by Treasury under
                                                      CPP allowed Treasury to purchase additional shares of common stock in a
                                                      number equal to 15% of the value of the original CPP investment at a specified
      Exercise Price: Preset price at which           exercise price.460 Treasury’s warrants constitute assets with a fair market value
      a warrant holder may purchase each              that Treasury estimates using relevant market quotes, financial models, and/or
      share. For warrants in publicly traded          third-party valuations.461 As of March 31, 2014, Treasury had not exercised any
      institutions issued through CPP, this           of these warrants.462 For privately held institutions, Treasury received warrants
      was based on the average stock price            to purchase additional preferred stock or debt in an amount equal to 5% of the
      during the 20 days before the date              CPP investment. Treasury exercised these warrants immediately.463 Unsold and
      that Treasury granted preliminary CPP           unexercised warrants expire 10 years from the date of the CPP investment.464 As
      participation approval.                         of March 31, 2014, Treasury had received $7.9 billion through the sale of CPP
                                                      warrants obtained by TARP recipients.465

                                                      Repurchase of Warrants by Financial Institutions
                                                      Upon repaying its CPP investment, a recipient may seek to negotiate with Treasury
                                                      to buy back its warrants. As of March 31, 2014, 164 publicly traded institutions
                                                      had bought back $3.9 billion worth of warrants, of which $33.3 million was
                                                      purchased this quarter. As of that same date, 275 privately held institutions, the
                                                      warrants of which had been immediately exercised, bought back the resulting
                                                                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   205




additional preferred shares for a total of $163 million, of which $3.2 million was
bought back this quarter.466 Table 2.40 lists publicly traded institutions that repaid
TARP and repurchased warrants in the quarter ended March 31, 2014. Table 2.41
lists privately held institutions that had done so in the same quarter.467


TABLE 2.40
 CPP WARRANT SALES AND REPURCHASES (PUBLIC) FOR THE QUARTER
 ENDING 3/31/2014
                                                                                            Number of                  Amount of
                                                                                             Warrants                Repurchase
 Repurchase Date              Company                                                     Repurchased              ($ Thousands)
 1/31/2014                    Virginia Commerce Bancorp, Inc.                                  2,696,203           $33,263,000.0
 Total                                                                                        2,696,203          $33,263,000.0
 Notes: Numbers may not total due to rounding. This table represents warrants for common stock issued to Treasury by publicly
 traded TARP recipients. Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an
 individual financial institution.

 Sources: Treasury, Transactions Report, 3/19/2014; Treasury, responses to SIGTARP data calls, 1/4/2011, 1/7/2011, 4/6/2011,
 7/8/2011, 10/7/2011, 10/11/2011, 1/11/2012, 4/5/2012, 7/9/2012, 10/12/2012, 4/12/2013, 7/11/2013, 10/10/2013,
 1/8/2014, and 4/11/2014.




TABLE 2.41
 CPP WARRANT SALES AND REPURCHASES (PRIVATE) FOR THE QUARTER
 ENDING 3/31/2014
                                                                                             Number of                 Amount of
                                                                                              Warrants               Repurchase
 Repurchase Date              Company                                                      Repurchased             ($ Thousands)
 3/17/14                      BNCCORP, Inc.                                                     1,005,000                   $1,005.0
 2/10/14                      Community First Bancshares, Inc.                                    636,000                       636.0
                              Chicago Shore Corporation (Delaware
 3/17/14                                                                                          350,000                       350.0
                              Place Bank)
 3/17/14                      Meridian Bank                                                       310,000                       310.0
 2/10/14                      Georgia Primary Bank                                                225,000                       225.0
 1/31/14                      Pacific Commerce Bank                                               203,000                       203.0
1/31/14                       Premier Service Bank                                                200,000                       200.0
3/17/14                       IA Bancorp, Inc / Indus American Bank                               179,000                       179.0
2/10/14                       Atlantic Bancshares, Inc.                                             98,000                        98.0
                              Kirksville Bancorp, Inc. / American Trust
3/19/14                                                                                             24,000                        24.0
                              Bank
Total                                                                                         3,230,000                    $3,230.0
 Notes: Numbers may not total due to rounding. This table represents the preferred shares held by Treasury as a result of the exercise
 of warrants issued by non-publicly traded TARP recipients. These warrants were exercised immediately upon the transaction date.
 Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.

 Sources: Treasury, Transactions Report, 3/19/2014; Treasury response to SIGTARP data call, 4/11/2014.
206   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Treasury Warrant Auctions
                                             If Treasury and the repaying institution cannot agree upon the price for the
                                             institution to repurchase its warrants, Treasury may conduct a public or private
                                             offering to auction the warrants.468 As of March 31, 2014, the combined proceeds
                                             from Treasury’s public and private warrant auctions totaled $5.5 billion.469

                                             Public Warrant Auctions
                                             In November 2009, Treasury began selling warrants via public auctions.470
                                             Through March 31, 2014, Treasury had held 26 public auctions for warrants it
                                             received under CPP, TIP, and AGP, raising a total of approximately $5.4 billion.471
                                             Treasury did not conduct any public warrant auctions this quarter.472 Final closing
                                             information for all public warrant auctions is shown in Table 2.42.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                        207



TABLE 2.42
 PUBLIC TREASURY WARRANT AUCTIONS, AS OF 3/31/2014
                                                                                                        Number of                Minimum           Selling      Proceeds to Treasury
 Auction Date                   Company                                                            Warrants Offered              Bid Price          Price                ($ Millions)
                                Bank of America A Auction (TIP)a                                          150,375,940                $7.00           $8.35                        $1,255.6
 3/3/2010
                                Bank of America B Auction (CPP)a                                          121,792,790                 1.50             2.55                           310.6
 12/10/2009                     JPMorgan Chase                                                             88,401,697                 8.00           10.75                            950.3
 5/20/2010                      Wells Fargo and Company                                                   110,261,688                 6.50             7.70                           849.0
 9/21/2010                      Hartford Financial Service Group, Inc.                                     52,093,973                10.50           13.70                            713.7
 4/29/2010                      PNC Financial Services Group, Inc.                                         16,885,192                15.00           19.20                            324.2
                                Citigroup A Auction (TIP & AGP)         a
                                                                                                          255,033,142                 0.60             1.01                           257.6
 1/25/2011
                                Citigroup B Auction (CPP)a                                                210,084,034                 0.15             0.26                             54.6
 9/16/2010                      Lincoln National Corporation                                               13,049,451                13.50           16.60                            216.6
 5/6/2010                       Comerica Inc.                                                              11,479,592                15.00           16.00                            183.7
 12/3/2009                      Capital One                                                                12,657,960                 7.50           11.75                            148.7
 11/29/2012                     M&T Bank Corporation                                                         1,218,522               23.50             1.35                             32.3
 2/8/2011                       Wintrust Financial Corporation                                               1,643,295               13.50           15.80                              26.0
 6/2/2011                       Webster Financial Corporation                                                3,282,276                5.50             6.30                             20.4
                                SunTrust A Auctionb                                                          6,008,902                2.00             2.70                             16.2
 9/22/2011
                                SunTrust B Auctionb                                                        11,891,280                 1.05             1.20                             14.2
 3/9/2010                       Washington Federal, Inc.                                                     1,707,456                5.00             5.00                             15.6
 3/10/2010                      Signature Bank                                                                  595,829              16.00           19.00                              11.3
 12/15/2009                     TCF Financial                                                                3,199,988                1.50             3.00                              9.6
 12/5/2012                      Zions Bancorporation                                                         5,789,909               23.50           26.50                               7.8
 3/11/2010                      Texas Capital Bancshares, Inc.                                                  758,086               6.50             6.50                              6.7
 2/1/2011                       Boston Private Financial Holdings, Inc.                                      2,887,500                1.40             2.20                              6.4
 5/18/2010                      Valley National Bancorp                                                      2,532,542                1.70             2.20                              5.6
 11/30/2011                     Associated Banc-Corpc                                                        3,983,308                0.50             0.90                              3.6
 6/2/2010                       First Financial Bancorp                                                         465,117               4.00             6.70                              3.1
 6/9/2010                       Sterling Bancshares Inc.                                                     2,615,557                0.85             1.15                              3.0
 Total                                                                                               1,090,695,026                                                               $5,446.4
 Notes: Numbers may not total due to rounding.
 a
   Treasury held two auctions each for the sale of Bank of America and Citigroup warrants.
 b
   Treasury held two auctions for SunTrust’s two CPP investments dated 11/14/2008 (B auction) and 12/31/2008 (A auction).
 c
   According to Treasury, the auction grossed $3.6 million and netted $3.4 million.

 Sources: The PNC Financial Services Group, Inc., “Final Prospectus Supplement,” 4/29/2010, www.sec.gov/Archives/edgar/data/713676/000119312510101032/d424b5.htm, accessed
 4/1/2014; Valley National Bancorp, “Final Prospectus Supplement,” 5/18/2010, www.sec.gov/Archives/edgar/data/714310/000119312510123896/d424b5.htm, accessed 4/1/2014; Comerica
 Incorporated, “Final Prospectus Supplement,” 5/6/2010, www.sec.gov/Archives/edgar/data/28412/000119312510112107/d424b5.htm, accessed 4/1/2014; Wells Fargo and Company, “Definitive
 Prospectus Supplement,” 5/20/2010, www.sec.gov/Archives/edgar/data/72971/000119312510126208/d424b5.htm, accessed 4/1/2014; First Financial Bancorp, “Prospectus Supplement,”
 6/2/2010, www.sec.gov/Archives/edgar/data/708955/000114420410031630/v187278_424b5.htm, accessed 4/1/2014; Sterling Bancshares, Inc., “Prospectus Supplement,” 6/9/2010,
 www.sec.gov/Archives/edgar/data/891098/000119312510136584/dfwp.htm, accessed 4/1/2014; Signature Bank, “Prospectus Supplement,” 3/10/2010, files.shareholder.com/downloads/
 SBNY/1456015611x0x358381/E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_Offering_Circular.pdf, accessed 4/1/2014; Texas Capital Bancshares, Inc., “Prospectus Supplement,”
 3/11/2010, www.sec.gov/Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.htm, accessed 4/1/2014; Bank of America, “Form 8-K,” 3/3/2010, www.sec.gov/Archives/edgar/
 data/70858/000119312510051260/d8k.htm, accessed 4/1/2014; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510045775/
 d424b2.htm, accessed 4/1/2014; Washington Federal, Inc., “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/edgar/data/936528/000119312510052062/d424b5.htm, accessed
 4/1/2014; TCF Financial, “Prospectus Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm, accessed 4/1/2014; JPMorgan Chase,
 “Prospectus Supplement,” 12/11/2009, www.sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.htm, accessed 4/1/2014; Capital One Financial, “Prospectus Supplement,”
 12/3/2009, www.sec.gov/Archives/edgar/data/927628/000119312509247252/d424b5.htm, accessed 4/1/2014; Treasury, Transactions Report, 9/30/2013; Hartford Financial Services Group,
 Prospectus Supplement to Prospectus filed with the SEC 8/4/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 4/1/2014; Treasury,
 “Treasury Announces Pricing of Public Offering to Purchase Common Stock of The Hartford Financial Services Group, Inc.,” 9/22/2010, www.treasury.gov/press-center/press-releases/Pages/tg865.
 aspx, accessed 4/1/2014; Lincoln National Corporation, Prospectus Supplement to Prospectus filed with SEC 3/10/2009, www.sec.gov/Archives/edgar/data/59558/000119312510211941/
 d424b5.htm, accessed 4/1/2014; Lincoln National Corporation, 8-K, 9/22/2010, www.sec.gov/Archives/edgar/data/59558/000119312510214540/d8k.htm, accessed 4/1/2014; Treasury, Section
 105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/
 Pages/tg1033.aspx, accessed 4/1/2014; Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 4/1/2014;
 Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 4/1/2014; Boston Private Financial Holdings, Inc.,
 Prospectus, 1/28/2011, www.sec.gov/Archives/edgar/data/821127/000119312511021392/d424b5.htm, accessed 4/1/2014; Boston Private Financial Holdings, Inc. 8-K, 2/7/2011, www.sec.
 gov/Archives/edgar/data/821127/000144530511000189/tarpwarrant020711.htm, accessed 4/1/2014; Wintrust Financial Corporation, Prospectus, 2/8/2011, www.sec.gov/Archives/edgar/
 data/1015328/000095012311011007/c62806b5e424b5.htm, accessed 4/1/2014; Treasury, Section 105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to
 Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1033.aspx, accessed 4/1/2014; Treasury, Citigroup Preliminary Prospectus – CPP
 Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004666/y89178b7e424b7.htm, accessed 4/1/2014; Citigroup, Preliminary Prospectus – TIP & AGP Warrants,
 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 4/1/2014; Treasury, responses to SIGTARP data call, 4/6/2011, 7/14/2011,
 10/5/2011, 10/11/2011, and 1/11/2012; Treasury Press Release, “Treasury Department Announces Public Offerings of Warrants to Purchase Common Stock of SunTrust Banks, Inc.,” 9/21/2011,
 www.treasury.gov/press-center/press-releases/Pages/tg1300.aspx, accessed 4/1/2014; “Treasury Department Announces Public Offering of Warrants to Purchase Common Stock of Associated Banc-
 Corp,” 11/29/2011, www.treasury.gov/press-center/press-releases/Pages/tg1372.aspx, accessed 4/1/2014; Treasury, “Treasury Department Announces Public Offering of Warrant to Purchase Common
 Stock of M&T Bank Corporation,” 12/10/2012, www.treasury.gov/press-center/press-releases/Pages/tg1793.aspx, accessed 4/1/2014; Treasury, “Treasury Department Announces Public Offering of
 Warrants to Purchase Common Stock of Zions Bancorporation,” 11/28/2012, www.treasury.gov/press-center/press-releases/Pages/tg1782.aspx, accessed 4/1/2014.
208            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Private Warrant Auctions
      Qualified Institutional Buyers (“QIB”):         On November 17, 2011, Treasury conducted a private auction to sell the warrants
      Institutions that under U.S. securities         of 17 CPP institutions for $12.7 million.473 On June 6, 2013, it conducted a second
      law are permitted to buy securities             private auction to sell the warrants of 16 banks for $13.9 million.474 Details from
      that are exempt from registration               both auctions are listed in Table 2.43. Treasury stated that private auctions were
      under investor protection laws and              necessary because the warrants did not meet the listing requirements for the major
      to resell those securities to other             exchanges, it would be more cost-effective for these smaller institutions, and that
      QIBs. Generally these institutions own          grouping the warrants of several institutions in a single auction would raise investor
      and invest at least $100 million in             interest in the warrants.475 The warrants were not registered under the Securities
      securities, or are registered broker-           Act of 1933 (the “Act”). As a result, Treasury stated that the warrants were offered
      dealers that own or invest at least $10         only in private transactions to “(1) ‘qualified institutional buyers’ as defined in
      million in securities.                          Rule 144A under the Act, (2) the issuer, and (3) a limited number of ‘accredited
                                                      investors’ affiliated with the issuer.”476
      Accredited Investors: Individuals or
      institutions that by law are considered
      financially sophisticated enough so
      that they can invest in ventures that
      are exempt from investor protection
      laws. Under U.S. securities laws, these
      include many financial companies,
      pension plans, wealthy individuals,
      and top executives or directors of the
      issuing companies.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   209




TABLE 2.43
 PRIVATE TREASURY WARRANT AUCTIONS AS OF 3/31/2014
                                                                                   Number of                   Proceeds to
 Date                       Company                                           Warrants Offered                    Treasury
 11/17/2011                 Eagle Bancorp, Inc.                                            385,434               $2,794,422
 11/17/2011                 Horizon Bancorp                                                212,188                1,750,551
 11/17/2011                 Bank of Marin Bancorp                                          154,908                1,703,984
 11/17/2011                 First Bancorp (of North Carolina)                              616,308                   924,462
 11/17/2011                 Westamerica Bancorporation                                     246,698                   878,256
 11/17/2011                 Lakeland Financial Corp                                        198,269                   877,557
 11/17/2011                 F.N.B. Corporation                                             651,042                   690,100
 11/17/2011                 Encore Bancshares                                              364,026                   637,071
 11/17/2011                 LCNB Corporation                                               217,063                   602,557
 11/17/2011                 Western Alliance Bancorporation                                787,107                   415,000
 11/17/2011                 First Merchants Corporation                                    991,453                   367,500
 11/17/2011                 1st Constitution Bancorp                                       231,782                   326,576
 11/17/2011                 Middleburg Financial Corporation                               104,101                   301,001
 11/17/2011                 MidSouth Bancorp, Inc.                                         104,384                   206,557
 11/17/2011                 CoBiz Financial Inc.                                           895,968                   143,677
 11/17/2011                 First Busey Corporation                                        573,833                     63,677
 11/17/2011                 First Community Bancshares, Inc.                                88,273                     30,600
 6/6/2013                   Banner Corporation                                             243,998                   134,201
 6/6/2013                   Carolina Trust Bank                                             86,957                     19,132
 6/6/2013                   Central Pacific Financial Corp.                                  79,288                  751,888
 6/6/2013                   Colony Bankcorp, Inc.                                          500,000                   810,000
 6/6/2013                   Community West Bancshares                                      521,158                   698,351
 6/6/2013                   Flagstar Bancorp, Inc.                                         645,138                     12,905
 6/6/2013                   Heritage Commerce Corp                                         462,963                   140,000
                            International Bancshares
 6/6/2013                                                                               1,326,238                 4,018,511
                            Corporation
 6/6/2013                   Mainsource Financial Group, Inc.                               571,906                1,512,177
 6/6/2013                   Metrocorp Bancshares, Inc.                                     771,429                2,087,368
 6/6/2013                   Old Second Bancorp, Inc.                                       815,339                   106,891
 6/6/2013                   Parke Bancorp, Inc.                                            438,906                1,650,288
 6/6/2013                   S&T Bancorp, Inc.                                              517,012                   527,361
 6/6/2013                   Timberland Bancorp, Inc.                                       370,899                1,301,856
 6/6/2013                   United Community Banks, Inc.                                   219,908                       6,677
 6/6/2013                   Yadkin Financial Corporation                                    91,178                     55,677
 6/6/2013                   Yadkin Financial Corporation                                   128,663                     20,000
 Total                                                                               14,613,817              $26,566,831
 Sources: “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-
 center/press-releases/Pages/tg1365.aspx, accessed 4/6/2014; “Treasury Completes Auction to Sell Warrants Positions,”
 6/6/2013, www.treasury.gov/press-center/press-releases/Pages/jl1972.aspx, accessed 4/6/2014.
210             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      For more information on CDCI                     Community Development Capital Initiative
      institutions that remain in TARP and
                                                       The Administration announced the Community Development Capital Initiative
      their use of TARP funds, see Section 3:
      “Banks and Credit Unions in TARP’s               (“CDCI”) on October 21, 2009. According to Treasury, the program was intended
      CDCI Program Face Challenges.”                   to help small businesses obtain credit.477 Under CDCI, TARP made $570.1
                                                       million in investments in the preferred stock or subordinated debt of 84 eligible
                                                       banks, bank holding companies, thrifts, and credit unions certified as Community
      Community Development Financial                  Development Financial Institutions (“CDFIs”) by Treasury. According to Treasury,
      Institutions (“CDFIs”): Financial                these lower-cost capital investments were intended to strengthen the capital base
      institutions eligible for Treasury funding       of CDFIs and enable them to make more loans in low and moderate-income
      to serve urban and rural low-income              communities.478 CDCI was open to certified, qualifying CDFIs or financial
      communities through the CDFI Fund.               institutions that applied for CDFI status by April 30, 2010.479
      CDFIs were created in 1994 by the                    According to Treasury, CPP-participating CDFIs that were in good standing
      Riegle Community Development and                 could exchange their CPP investments for CDCI investments.480 CDCI closed to
      Regulatory Improvement Act.                      new investments on September 30, 2010.481
                                                           Treasury invested $570.1 million in 84 institutions under the program — 36
                                                       banks or bank holding companies and 48 credit unions.482 Of the 36 investments in
                                                       banks and bank holding companies, 28 were conversions from CPP (representing
                                                       $363.3 million of the total $570.1 million); the remaining eight were not CPP
                                                       participants. Treasury provided an additional $100.7 million in CDCI funds to 10
                                                       of the banks converting CPP investments. Only $106 million of the total CDCI
                                                       funds went to institutions that were not in CPP.

                                                       Status of Funds
                                                       As of March 31, 2014, 69 institutions remained in CDCI. Fourteen institutions
                                                       have fully repaid Treasury and have exited CDCI. One institution has partially
                                                       repaid and remains in the program. No institutions exited CDCI this quarter.
                                                       Premier Bancorp, Inc., Wilmette, Illinois, previously had its subsidiary bank fail
                                                       and thus almost all of Treasury’s $6.8 million investment was lost.483
                                                          As of March 31, 2014, taxpayers were still owed $475.2 million related to
                                                       CDCI.484 According to Treasury, it had realized losses of $6.7 million in the
                                                       program that will never be recovered, leaving $468.5 million outstanding.485
                                                       According to Treasury, $94.9 million of the CDCI principal (or 17%) had been
                                                       repaid as of March 31, 2014.486 As of March 31, 2014, Treasury had received
                                                       approximately $38.3 million in dividends and interest from CDCI recipients.487
                                                       Table 2.44 lists the current status of all CDCI investments as of March 31, 2014.
                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   211




TABLE 2.44
 CDCI INVESTMENT SUMMARY, AS OF 3/31/2014
                                               Amount      Additional         Total CDCI
 Institution                                 from CPP     Investment         Investment
 Institutions Remaining in CDCI
 BancPlus Corporation                      $50,400,000   $30,514,000        $80,914,000
 Community Bancshares of Mississippi,
                                            54,600,000                       54,600,000
 Inc.
 Southern Bancorp, Inc.                     11,000,000    22,800,000         33,800,000
 Security Federal Corporation               18,000,000     4,000,000         22,000,000
 Carver Bancorp, Inc                        18,980,000                       18,980,000
 Security Capital Corporation               17,910,000                       17,910,000
 The First Bancshares, Inc.                  5,000,000    12,123,000         17,123,000
 First American International Corp.         17,000,000                       17,000,000
 State Capital Corporation                  15,750,000                       15,750,000
 Guaranty Capital Corporation               14,000,000                       14,000,000
 Citizens Bancshares Corporation             7,462,000     4,379,000         11,841,000
 M&F Bancorp, Inc.                          11,735,000                       11,735,000
 Liberty Financial Services, Inc.            5,645,000     5,689,000         11,334,000
 Mission Valley Bancorp                      5,500,000     4,836,000         10,336,000
 United Bancorporation of Alabama, Inc.     10,300,000                       10,300,000
 IBC Bancorp, Inc.                           4,205,000     3,881,000          8,086,000
 Fairfax County Federal Credit Union                                          8,044,000
 The Magnolia State Corporation                                               7,922,000
 First Eagle Bancshares, Inc.                7,875,000                        7,875,000
 Carter Federal Credit Union*                                                 6,300,000
 First Vernon Bancshares, Inc.               6,245,000                        6,245,000
 IBW Financial Corporation                   6,000,000                        6,000,000
 CFBanc Corporation                                                           5,781,000
 American Bancorp of Illinois, Inc.                                           5,457,000
 Lafayette Bancorp, Inc.                     4,551,000                        4,551,000
 Hope Federal Credit Union                                                    4,520,000
 Community Bank of the Bay                   1,747,000     2,313,000          4,060,000
 Bainbridge Bancshares, Inc.                                                  3,372,000
 Border Federal Credit Union                                                  3,260,000
 Kilmichael Bancorp, Inc.                                                     3,154,000
 PGB Holdings, Inc.                          3,000,000                        3,000,000
 Santa Cruz Community Credit Union                                            2,828,000
 Cooperative Center Federal Credit Union                                      2,799,000
 Tri-State Bank of Memphis                   2,795,000                        2,795,000
                                                                   Continued on next page
212   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                     CDCI INVESTMENT SUMMARY, AS OF 3/31/2014          (CONTINUED)

                                                                                   Amount             Additional         Total CDCI
                                     Institution                                 from CPP            Investment         Investment
                                     Institutions Remaining in CDCI
                                     Community First Guam Federal Credit
                                                                                                                        $2,650,000
                                     Union
                                     Shreveport Federal Credit Union                                                     2,646,000
                                     Pyramid Federal Credit Union                                                        2,500,000
                                     Alternatives Federal Credit Union                                                   2,234,000
                                     Virginia Community Capital, Inc.                                                    1,915,000
                                     Southern Chautauqua Federal Credit Union                                            1,709,000
                                     Tongass Federal Credit Union                                                        1,600,000
                                     D.C. Federal Credit Union                                                           1,522,000
                                     Vigo County Federal Credit Union                                                    1,229,000
                                     Opportunities Credit Union                                                          1,091,000
                                     Butte Federal Credit Union                                                          1,000,000
                                     First Legacy Community Credit Union                                                 1,000,000
                                     Lower East Side People’s Federal Credit
                                                                                                                           898,000
                                     Union
                                     Independent Employers Group Federal
                                                                                                                           698,000
                                     Credit Union
                                     Bethex Federal Credit Union                                                           502,000
                                     Community Plus Federal Credit Union                                                   450,000
                                     Liberty County Teachers Federal Credit
                                                                                                                           435,000
                                     Union
                                     Tulane-Loyola Federal Credit Union                                                    424,000
                                     Northeast Community Federal Credit
                                                                                                                           350,000
                                     Union
                                     North Side Community Federal Credit
                                                                                                                           325,000
                                     Union
                                     Genesee Co-op Federal Credit Union                                                    300,000
                                     Brooklyn Cooperative Federal Credit Union                                             300,000
                                     Union Settlement Federal Credit Union                                                 295,000
                                     Neighborhood Trust Federal Credit Union                                               283,000
                                     Prince Kuhio Federal Credit Union                                                     273,000
                                     Phenix Pride Federal Credit Union                                                     153,000
                                     Buffalo Cooperative Federal Credit Union                                              145,000
                                     Hill District Federal Credit Union                                                    100,000
                                     Episcopal Community Federal Credit
                                                                                                                           100,000
                                     Union
                                     Thurston Union of Low-Income People
                                                                                                                            75,000
                                     (TULIP) Cooperative Credit Union
                                                                                                              Continued on next page
                                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   213




CDCI INVESTMENT SUMMARY, AS OF 3/31/2014                                      (CONTINUED)

                                                                          Amount             Additional       Total CDCI
Institution                                                             from CPP            Investment       Investment
Institutions Remaining in CDCI
Renaissance Community Development
                                                                                                               $31,000
Credit Union
Faith Based Federal Credit Union                                                                                 30,000
Fidelis Federal Credit Union                                                                                     14,000
Union Baptist Church Federal Credit Union                                                                        10,000
East End Baptist Tabernacle Federal
                                                                                                                  7,000
Credit Union
Total                                                           $299,700,000          $90,535,000         $470,966,000
Institutions Fully Repaid                                                                                              
First M&F Corporation                                                $30,000,000                           $30,000,000
University Financial Corp, Inc.                                       11,926,000       $10,189,000          22,115,000
PSB Financial Corporation                                              9,734,000                              9,734,000
Freedom First Federal Credit Union                                                                            9,278,000
BankAsiana                                                                                                    5,250,000
First Choice Bank                                                      5,146,000                              5,146,000
Bancorp of Okolona, Inc.                                                                                      3,297,000
Atlantic City Federal Credit Union                                                                            2,500,000
Gateway Community Federal Credit Union                                                                        1,657,000
Southside Credit Union                                                                                        1,100,000
Brewery Credit Union                                                                                          1,096,000
UNO Federal Credit Union                                                                                       743,000
Greater Kinston Credit Union                                                                                   350,000
UNITEHERE Federal Credit Union (Workers
                                                                                                                 57,000
United Federal Credit Union)
Total                                                                $56,806,000      $10,189,000          $92,323,000
Bankrupt or with Failed Subsidiary Banks 
Premier Bancorp, Inc.                                                 $6,784,000                            $6,784,000
Total                                                                 $6,784,000                            $6,784,000
Overall Total                                                   $363,290,000         $100,724,000         $570,073,000
Notes: Numbers may not total due to rounding.

* Institution has made a partial payment on Treasury’s investment.

Source: Treasury, Transactions Report, 3/19/2014.
214           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     Missed Dividends
                                                     As of March 31, 2014, two institutions still in CDCI had unpaid dividend or
                                                     interest payments to Treasury totaling $200,300.488 As a result of a bankrupt
                                                     institution that exited CDCI without remitting its interest payments, the total value
                                                     of all missed payments equals $516,924. Treasury has the right to appoint two
                                                     directors to the board of directors of institutions that have missed eight dividends
                                                     and interest payments, whether consecutive or nonconsecutive.489 As of March 31,
      On September 30, 2013, SIGTARP                 2014, Treasury had not appointed directors to the board of any CDCI institution.490
      made a recommendation regarding the
                                                     Treasury has sent an observer to the board meetings of one institution, First Vernon
      appointment of directors to the boards
      of CDCI banks, which is discussed in           Bancshares, Inc., Vernon, Alabama, however no observer is currently attending
      Section 5 of this report.                      board meetings of this institution.491 Treasury made a request to send an observer
                                                     to the board meetings of First American International Corp., Brooklyn, New York,
                                                     in February 2013, but the institution, which remains in TARP as of March 31,
                                                     2014, rejected Treasury’s request.492 Table 2.45 lists CDCI institutions that are not
                                                     current on dividend or interest payments.

                                                     TABLE 2.45
                                                      CDCI-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF
                                                      3/31/2014
                                                                                                  Dividend or                Number of Missed   Value of Missed
                                                      Institution                                 Payment Type                      Payments          Payments
                                                      PGB Holdings, Inc.                          Cumulative                              12          $180,000
                                                      Premier Bancorp, Inc.*                      Interest                                 6           316,624
                                                      Community Bank of the Bay                   Non-Cumulative                           1            20,300
                                                      Total                                                                                          $516,924
                                                      Notes: Numbers may not total due to rounding.

                                                      * On 3/23/2012, the subsidiary bank of Premier Bancorp, Inc. failed.

                                                      Source: Treasury, Dividends and Interest Report, 4/10/2014.
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014           215




Terms for Senior Securities and Dividends
An eligible bank, bank holding company, or thrift could apply to receive capital in             Risk-Weighted Assets: Risk-based
an amount up to 5% of its risk-weighted assets. A credit union (which is a member-              measure of total assets held by
owned, nonprofit financial institution with a capital and governance structure                  a financial institution. Assets are
different from that of for-profit banks) could apply for Government funding of up               assigned broad risk categories. The
to 3.5% of its total assets — roughly equivalent to the 5% of risk-weighted assets for          amount in each risk category is then
banks.493 Participating credit unions and S corporations issued subordinated debt to            multiplied by a risk factor associated
Treasury in lieu of the preferred stock issued by other CDFI participants.494 Many              with that category. The sum of the
CDFI investments have an initial dividend rate of 2%, which increases to 9% after               resulting weighted values from each of
eight years. Participating S corporations pay an initial rate of 3.1%, which increases          the risk categories is the bank’s total
to 13.8% after eight years.495 A CDFI participating in CPP had the opportunity to               risk-weighted assets.
request to convert those shares into CDCI shares, thereby reducing the annual
dividend rate it pays the Government from 5% to as low as 2%.496 According to
Treasury, CDFIs were not required to issue warrants because of the de minimis
exception in EESA, which grants Treasury the authority to waive the warrant
requirement for qualifying institutions in which Treasury invested $100 million or
less.
    If during the application process a CDFI’s primary regulator deemed it to
be undercapitalized or to have “quality of capital issues,” the CDFI had the
opportunity to raise private capital to achieve adequate capital levels. Treasury
would match the private capital raised on a dollar-for-dollar basis, up to a total of
5% of the financial institution’s risk-weighted assets. In such cases, private investors
had to agree to assume any losses before Treasury.497
216            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      For more on SIGTARP’s September                 Systemically Significant Failing Institutions Program
      2012 recommendation to Treasury and
                                                      According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
      the Federal Reserve regarding AIG’s
      designation as a systemically important         program was established to “provide stability and prevent disruptions to financial
      financial institution, see SIGTARP’s            markets from the failure of a systemically significant institution.”498 Through
      July 2013 Quarterly Report, pages               SSFI, between November 2008 and April 2009, Treasury invested $67.8 billion
      201-203.                                        in TARP funds in American International Group, Inc. (“AIG”), the program’s sole
                                                      participant.499 AIG also received bailout funding from the Federal Reserve Bank
      For more information on AIG and how
      the company changed while under                 of New York (“FRBNY”). In January 2011, FRBNY and Treasury restructured
      TARP, see SIGTARP’s July 2012                   their agreements with AIG to use additional TARP funds and AIG funds to pay off
      Quarterly Report, pages 151-167.                amounts owed to FRBNY and transfer FRBNY’s common stock and its interests to
                                                      Treasury.500
                                                           AIG has repaid the amounts owed to both Treasury and FRBNY. Treasury’s
                                                      investment in AIG ended on March 1, 2013.501
      Special Purpose Vehicle (“SPV”):
                                                          According to Treasury, taxpayers have received full payment on FRBNY’s loans,
      A legal entity, often off-balance-
                                                      plus interest and fees of $6.8 billion; full repayment of the loans to two special
      sheet, that holds transferred assets
                                                      purpose vehicles (“SPVs”), called Maiden Lane II and Maiden Lane III, plus $8.2
      presumptively beyond the reach of the
                                                      billion in gains from securities cash flows and sales and $1.3 billion in interest;
      entities providing the assets, and that
                                                      and full payment of the insurance-business SPVs, plus interest and fees of $1.4
      is legally isolated from its sponsor or
                                                      billion.502 Treasury’s books and records reflect only the shares of AIG that Treasury
      parent company.
                                                      received in TARP, reflecting that taxpayers have recouped $54.4 billion of the
                                                      $67.8 billion in TARP funds spent and realized losses on the sale of TARP shares
                                                      from an accounting standpoint of $13.5 billion.503 However, because TARP funds
      For a more detailed description of              paid off amounts owed to FRBNY in return for stock, Treasury’s position is that the
      the AIG Recapitalization Plan, see              Government has made $4.1 billion selling AIG common shares and $959 million in
      SIGTARP’s January 2014 Quarterly                dividends, interest, and other income.504
      Report, pages 219-220.

      For more information on Treasury’s
      sales of AIG common shares and AIG’s
      buybacks of shares, see SIGTARP’s
      July 2013 Quarterly Report, page 131.

      For more information on Treasury’s
      Equity Ownership Interest in AIG, see
      SIGTARP’s January 2014 Quarterly
      Report, page 220.
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014          217




Targeted Investment Program
Treasury invested a total of $40 billion in two financial institutions, Citigroup
Inc. (“Citigroup”) and Bank of America Corp. (“Bank of America”), through the
Targeted Investment Program (“TIP”). Treasury invested $20 billion in Citigroup
on December 31, 2008, and $20 billion in Bank of America on January 16, 2009,
in return for preferred shares paying quarterly dividends at an annual rate of 8%
and warrants from each institution.505 According to Treasury, TIP’s goal was to
“strengthen the economy and protect American jobs, savings, and retirement
security [where] the loss of confidence in a financial institution could result in
significant market disruptions that threaten the financial strength of similarly
situated financial institutions.”506 Both banks repaid TIP in December 2009.507 On
March 3, 2010, Treasury auctioned the Bank of America warrants it received under
TIP for $1.24 billion.508 On January 25, 2011, Treasury auctioned the Citigroup
warrants it had received under TIP for $190.4 million.509

Asset Guarantee Program
Under the Asset Guarantee Program (“AGP”), Treasury, the Federal Deposit
Insurance Corporation (“FDIC”), the Federal Reserve, and Citigroup agreed to                Trust Preferred Securities (“TRUPS”):
provide loss protection on a pool of Citigroup assets valued at approximately $301          Securities that have both equity
billion. In return, as a premium, the Government received warrants to purchase              and debt characteristics created by
Citigroup common stock and $7 billion in preferred stock. The preferred stock was           establishing a trust and issuing debt
subsequently exchanged for trust preferred securities (“TRUPS”).510                         to it.
     Treasury received $4 billion of the TRUPS and FDIC received $3 billion.511
Although Treasury’s asset guarantee was not a direct cash investment, it exposed
taxpayers to a potential TARP loss of $5 billion. On December 23, 2009, in                  For a discussion of the basis of the
connection with Citigroup’s TIP repayment, Citigroup and Treasury terminated                decision to provide Federal assistance
the AGP agreement. Although at the time of termination the asset pool suffered              to Citigroup, see SIGTARP’s audit
a $10.2 billion loss, this number was below the agreed-upon deductible and the              report, “Extraordinary Financial
                                                                                            Assistance Provided to Citigroup,
Government suffered no loss.512                                                             Inc.,” dated January 13, 2011.
     At that time, Treasury agreed to cancel $1.8 billion of the TRUPS issued by
Citigroup, reducing the premium it received from $4 billion to $2.2 billion, in
exchange for the early termination of the loss protection. FDIC retained all of its
$3 billion in securities.513 Pursuant to that termination agreement, on December
28, 2012, FDIC transferred $800 million of those securities to Treasury because
Citigroup’s participation in FDIC’s Temporary Liquidity Guarantee Program closed
without a loss.514 On February 4, 2013, Treasury exchanged the $800 million of
securities it received from FDIC into Citigroup subordinated notes, which it then
sold for $894 million.515
     Separately, on September 29, 2010, Treasury entered into an agreement with
Citigroup to exchange the remaining $2.2 billion in Citigroup TRUPS that it then
held under AGP for new TRUPS. Because the interest rate necessary to receive
par value was below the interest rate paid by Citigroup to Treasury, Citigroup
increased the principal amount of the securities sold by Treasury by an additional
$12 million, thereby enabling Treasury to receive an additional $12 million in
218   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             proceeds from the $2.2 billion sale of the Citigroup TRUPS, which occurred on
                                             September 30, 2010.516 On January 25, 2011, Treasury auctioned the Citigroup
                                             warrants it had received under AGP for $67.2 million.517 In addition to recovering
                                             the full bailout amount, taxpayers have received $13.4 billion over the course of
                                             Citigroup’s participation in AGP, TIP, and CPP, including dividends, other income,
                                             and warrant sales.518
                                                 Bank of America announced a similar asset guarantee agreement with respect
                                             to approximately $118 billion in Bank of America assets, but the final agreement
                                             was never executed. Bank of America paid $425 million to the Government as a
                                             termination fee.519 Of this $425 million, $276 million was paid to Treasury, $92
                                             million was paid to FDIC, and $57 million was paid to the Federal Reserve.520
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014         219




AUTOMOTIVE INDUSTRY SUPPORT PROGRAMS
During the financial crisis, Treasury, through TARP, launched three automotive
industry support programs: the Automotive Industry Financing Program (“AIFP”),
the Auto Supplier Support Program (“ASSP”), and the Auto Warranty Commitment
Program (“AWCP”). According to Treasury, these programs were established “to
prevent the collapse of the U.S. auto industry, which would have posed a significant
risk to financial market stability, threatened the overall economy, and resulted in
the loss of one million U.S. jobs.”521
     On December 9, 2013, Treasury sold its remaining shares of General Motors
Company (“GM”) common stock.522 Separately, on March 20, 2014, Treasury
wrote off an $826 million administrative claim in the company’s 2009 bankruptcy,
ending all taxpayer involvement in GM.523 As of March 31, 2014, Ally Financial
Inc. (“Ally Financial”), formerly GMAC Inc., is the only remaining auto-related
company in which Treasury owns a stake, with $6.5 billion owed to taxpayers. On
January 23, 2014, Treasury sold 410,000 shares of Ally Financial common stock
for approximately $3 billion in a private placement, reducing its stake to 37% of
the company’s stock.524 Following this, on April 9, 2014, Treasury announced they
would sell 95 million shares of Ally common stock for $2.4 billion as part of an
initial public offering (IPO). Following the Ally Financial IPO, Treasury reported
that it would still hold 82,311,010 shares; reducing Treasury’s stake in Ally to about
17%.525
     As of March 31, 2014, taxpayers had lost $11.2 billion on the TARP investment
in GM from selling GM common stock at prices below the Government’s cost                      For more information on GMAC/Ally
basis, as well as from the write-off of its remaining investment in Old GM in the             Financial, see “Taxpayers Continue to
                                                                                              Own 74% of GMAC (Rebranded as
amount of $826 million, according to Treasury.526 Additionally, taxpayers lost $845           Ally Financial Inc.) from the TARP
million on the sale of Ally Financial’s common stock.527 Taxpayers also lost $2.9             Bailouts,” in SIGTARP’s January 2013
billion on Treasury’s investment in Chrysler LLC, which exited TARP in 2011. A                Quarterly Report, pages 147-164.
fourth company, Chrysler Financial Services Americas LLC (“Chrysler Financial”),
repaid all its TARP money in 2009. AWCP and ASSP were terminated in July
2009, and April 2010, respectively.
     Treasury initially obligated approximately $84.8 billion in TARP funds through
the three auto assistance programs to GM, Ally Financial, Chrysler, and Chrysler
Financial.528 Ultimately, Treasury spent $79.7 billion in TARP funds on the auto
bailout after $2.1 billion in loan commitments to Chrysler were never drawn down,
and all available funding for the ASSP program was not used.529 As of March 31,
2014, taxpayers were owed $20.6 billion, of which $14.9 billion in losses have been
realized or written off and will never be repaid, leaving $5.7 billion outstanding.530
     Treasury’s investments in AIFP and the two related programs and the
companies’ principal repayments are summarized in Table 2.46.
220   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 2.46
                                              TARP AUTOMOTIVE PROGRAM INVESTMENTS AND PRINCIPAL REPAYMENTS,
                                              AS OF 3/31/2014 ($ BILLIONS)
                                                                                                                   Ally
                                                                                            General           Financial                             Chrysler
                                                                                            Motorsa               Inc.b          Chryslerc          Financial                 Total
                                              Automotive Industry
                                                                                                                                                                                       
                                              Financing Program
                                                 Treasury Investment                           $49.5               $17.2              $10.5                $1.5              $78.6
                                                 Principal Repaid                                38.3                10.7                 7.6                1.5               58.0
                                              Auto Supplier Support
                                              Program
                                                 Treasury Investment                               0.3                                    0.1                                    0.4
                                                 Principal Repaid                                  0.3                                    0.1                                    0.4
                                              Auto Warranty
                                              Commitment Program
                                                 Treasury Investment                               0.4                                    0.3                                    0.6
                                                 Principal Repaid                                  0.4                                    0.3                                    0.6
                                              Total Treasury Investment                        $50.2              $17.2               $10.9                $1.5             $79.7
                                              Total Principal Repaid                           $38.9              $10.7                 $8.0               $1.5             $59.1
                                              Still Owed to Taxpayers                         $11.2    d
                                                                                                                   $6.5   e
                                                                                                                                        $2.9               $0.0             $20.6
                                              Realized Loss on
                                                                                           ($11.2d)               ($0.8)             ($2.9)                               ($14.9)
                                              Investment
                                              Notes: Numbers may not total due to rounding.
                                              a
                                                Principal repaid includes a series of debt payments totaling $160 million recovered from GM bankruptcy.
                                              b
                                                  Investment includes an $884 million Treasury loan to GM, which GM invested in GMAC in January 2009.
                                              c
                                                Principal repaid includes $560 million Fiat paid in July 2011 for Treasury’s remaining equity stake in Chrysler and for Treasury’s
                                                 rights under an agreement with the UAW retirement trust related to Chrysler shares.
                                              d
                                                 Realized loss on investment and amount still owed to taxpayers include the $826 million claim in GM’s bankruptcy, which Treasury
                                                  wrote off in the first quarter of 2014.
                                              e
                                                 Following Ally’s IPO on April 10, 2014, taxpayers are still owed $4.1 billion.

                                              Sources: Treasury, Transactions Report, 3/19/2014; Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Daily TARP
                                              Update, 4/1/2014.
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014       221




Automotive Industry Financing Program
AIFP, the largest of the three auto bailout programs, has not expended any
TARP funds for the automotive industry since December 30, 2009.531 Of
AIFP-related loan principal repayments and share sale proceeds, as of March
31, 2014, Treasury had received approximately $38.3 billion related to its GM
investment, $10.7 billion related to its Ally Financial/GMAC investment, $7.6
billion related to its Chrysler investment, and $1.5 billion related to its Chrysler
Financial investment.532 In addition to principal repayments, Treasury had received
approximately $5.6 billion in dividends and interest as of March 31, 2014.533

GM
Between September 26, 2013 and December 9, 2013, Treasury sold its remaining
101.3 million shares of GM common stock. As of March 31, 2014, taxpayers had
lost $11.2 billion on the investment in GM.534 Treasury provided approximately
$49.5 billion to GM through AIFP, the largest of the automotive rescue
programs.535 As a result of GM’s bankruptcy, Treasury’s investment was converted
to a 61% common equity stake in GM, $2.1 billion in preferred stock in GM, and
a $7.1 billion loan to GM ($6.7 billion through AIFP and $360.6 million through
AWCP).

Debt Repayments
As of March 31, 2014, GM had made approximately $756.7 million in dividend
and interest payments to Treasury under AIFP.536 GM repaid the $6.7 billion loan
provided through AIFP with interest, using a portion of the escrow account that
had been funded with TARP funds. What remained in escrow was released to GM
with the final debt payment by GM.537

Sales of GM Stock
In November and December 2010, GM successfully completed an initial public                   For more on the results of GM’s
offering (“IPO”) in which GM’s shareholders sold 549.7 million shares of common              November 2010 IPO, see SIGTARP’s
stock and 100 million shares of Series B mandatorily convertible preferred shares            January 2011 Quarterly Report, page
                                                                                             163.
(“MCP”) for total gross proceeds of $23.1 billion.538 As part of the IPO priced at
$33 per share, Treasury sold 412.3 million common shares for $13.5 billion in
net proceeds, reducing its number of common shares to 500.1 million and its
ownership in GM from 61% to 33%.539 On December 15, 2010, GM repurchased
Treasury’s Series A preferred stock (83.9 million shares) for total proceeds of
$2.1 billion and a capital gain to Treasury of approximately $41.9 million.540 In
early 2011, Treasury further diluted its ownership from 33% to 32% when GM
contributed 61 million of its common shares to fund GM’s pension plans.541
    After that, Treasury continued to sell GM stock, both directly to GM and in
the public markets. On December 21, 2012, Treasury sold 200 million common
shares to GM at $27.50 per share, for total proceeds of $5.5 billion.542 On January
18, 2013, Treasury announced the first of four pre-arranged written trading plans
to divest its remaining shares.543 Under the first trading plan, which ended April
222            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      17, 2013, Treasury sold 58.4 million shares at an average share price of $28.05 for
                                                      total proceeds of $1.6 billion.544 During Treasury’s second trading plan that ended
                                                      on September 13, 2013, it sold 110.3 million shares at an average share price
                                                      of $34.65, for total proceeds of $3.8 billion.545 In Treasury’s third trading plan,
                                                      ending on November 20, 2013, 70.2 million GM shares sold at an average share
                                                      price of $36.51, for proceeds of $2.6 billion.546 In the fourth and final trading plan,
                                                      between November 21, 2013, and December 9, 2013, Treasury sold its remaining
                                                      31.1 million GM shares for an average price of $38.82 per share, for proceeds of
                                                      $1.2 billion.547 In addition to the trading plans, on June 12, 2013, Treasury sold 30
                                                      million shares of common stock at $34.41 per share in a public equity offering that
                                                      raised $1 billion.548
                                                          As of March 31, 2014, taxpayers had realized losses from an accounting
                                                      standpoint of $10.3 billion on all GM common shares sold from November
                                                      2010 through December 9, 2013, according to Treasury.549 The losses are due to
                                                      Treasury’s sales of GM common shares at prices below its cost basis of $43.52
                                                      per share. In addition, Treasury’s write-off of an $826 million claim in GM’s
                                                      bankruptcy, brought the total loss to taxpayers to $11.2 billion.550

                                                      Ally Financial, formerly known as GMAC
                                                      Ally Financial is still in TARP and as of March 31, 2014, taxpayers were owed $6.5
                                                      billion for the TARP investment in it. In return for its investment, as of March 31,
                                                      2014, Treasury held approximately 37% of Ally Financial’s common stock.551 On
                                                      January 23, 2014, Treasury sold 410,000 shares of Ally Financial common stock
                                                      for approximately $3 billion in a private placement, after which its ownership stake
                                                      was reduced from 63% to 37% of the company’s stock. The stock sold at $7,375
                                                      per share.552 Following this, Treasury announced it would sell 95 million shares of
                                                      common stock for $2.4 billion in Ally’s IPO on April 10, 2014, further reducing
                                                      the taxpayer’s share to 82,311,010 shares, or 17%. These shares would need to sell
                                                      at $50 each to recover the outstanding principal owed to taxpayers of $4.1 billion.
                                                      The IPO also included an option to sell an additional 14.3 million of Treasury’s
                                                      shares.553
      For a discussion of the history and                  On November 20, 2013, Ally paid Treasury $5.2 billion to repurchase $5.938
      financial condition of Ally Financial,          billion par value of MCP, plus a payment of $725 million to terminate the share
      see SIGTARP’s January 2013
      Quarterly Report, pages 147-164.
                                                      adjustment right.554 As of March 31, 2014, Ally Financial had made three principal
                                                      payments for a total of $10.7 billion to Treasury since receiving bailout assistance
                                                      almost five years ago.555 The company also had paid a total of $3.7 billion in
                                                      quarterly dividends to Treasury through March 31, 2014, as required by the terms
                                                      of the preferred stock that Ally Financial issued to Treasury.556
                                                           Ally Financial received $17.2 billion in three separate direct injections of TARP
                                                      funds, plus a TARP-funded capital injection from GM. On December 29, 2008,
                                                      Treasury purchased $5 billion in senior preferred equity from GMAC and received
                                                      an additional $250 million in preferred shares through warrants that Treasury
                                                      exercised immediately at a cost of $2,500.557 In January 2009, Treasury loaned
                                                      GM $884 million to invest in GMAC.558 In May 2009, Treasury exchanged this
                                                      $884 million debt for a 35% common equity ownership in GMAC.559 On May 21,
                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   223




2009, Treasury made an additional investment in GMAC when it purchased $7.5
billion of MCP and received warrants that Treasury immediately exercised for an
additional $375 million in MCP at an additional cost of approximately $75,000.560
On December 30, 2009, Treasury invested another $3.8 billion in GMAC, and
Treasury received $2.5 billion in trust preferred securities (“TRUPS”) and $1.3
billion in MCP. Treasury also received warrants, which were immediately exercised,
to purchase an additional $127 million in TRUPS and $62.5 million in MCP at an
additional cost of approximately $1,270 and $12,500, respectively.561 Additionally,
Treasury converted $3 billion of its MCP into GMAC common stock, increasing
its common equity ownership from 35% to 56%.562 On May 10, 2010, GMAC
changed its name to Ally Financial Inc.563
     On December 30, 2010, Treasury announced the conversion of $5.5 billion
of its MCP in Ally Financial to common equity, increasing Treasury’s ownership
stake in Ally Financial’s common equity from 56% to 74%.564 On March 7, 2011,
Treasury sold its $2.7 billion in TRUPS in Ally Financial in a public offering,
resulting in a $2.5 billion principal repayment to Treasury.565
     Following the conversion, the private equity firm Cerberus Capital
Management, L.P. (“Cerberus”) held 8.7%, third-party investors collectively held
7.6%, an independently managed trust owned by GM held 5.9%, and GM directly
held a 4% stake in Ally Financial’s common equity.566 Later, GM’s interests were
consolidated in the trust and on December 12, 2013, GM sold its stake for $0.9
billion.567 As of March 27, 2014, Treasury held a 37% stake in Ally’s common stock,
and Third Point Loan LLC and Cerberus held 9.5% and 8.7%, respectively.568

Ally Financial Sells Some Stock in Private Placement; Repurchases Preferred
Shares from Treasury
On November 20, 2013, Ally Financial closed two transactions that reduced
Treasury’s stake in the company from 74% to 63%.569 In one transaction, Ally
Financial completed a private placement of 216,667 shares of its common stock for
an aggregate purchase price of $1.3 billion. In the other transaction, Ally Financial
repurchased from Treasury all of its MCP and also terminated Treasury’s existing
share adjustment right associated with those shares.570 Ally said it paid Treasury
$5.2 billion to repurchase $5.938 billion par value of MCP, plus a payment of $725
million to terminate the share adjustment right.571
    According to Treasury, under new agreements associated with these
transactions, Treasury had the right to designate a majority of the Ally Financial
Board of Directors as long as its ownership stake exceeded 50%, which it no longer
does.572 As of March 31, 2014, Treasury had designated six of the 11 directors.573
    On December 23, 2013, Ally Financial announced that the Federal Reserve
had granted the company financial holding company status, permitting it to engage
in a broader range of business activities, while continuing to operate its insurance
and remarketing businesses.574 In addition, on March 24, 2014 the Federal Reserve
announced that Ally Financial had passed its CCAR “stress test.”575
224   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             Ally Financial IPO
                                             On April 9, 2014, Treasury announced an initial public offering (IPO) of Ally
                                             Financial common stock, reporting that it would sell 95 million shares of Ally stock
                                             with an option for the purchase of an additional 14.3 million of Treasury’s shares.576
                                             Treasury reported that the shares would be offered at $25 per share for $2.375
                                             billion in proceeds. In addition, Treasury granted a 30-day option to purchase the
                                             additional shares, which traded on the New York stock exchange.577
                                                 Ally had announced its IPO plans as early as March 31, 2011, by filing a
                                             Form S-1 Registration statement for an IPO with the Securities and Exchange
                                             Commission (“SEC”).578 The document includes a prospectus relating to the
                                             issuance of Ally Financial common stock.579 The prospectus also outlines certain
                                             aspects of Ally Financial’s business operations and risks facing the company.580
                                                  Ally Financial disclosed additional details about its IPO in several amended
                                             Form S-1 Registration statements filed over time with the SEC, the most recent on
                                             March 27, 2014.581

                                             Ally Financial Released from Mortgage Claims of Bankrupt Subsidiary
                                             On May 14, 2012, Ally Financial announced that its mortgage subsidiary,
                                             Residential Capital, LLC, and certain of its subsidiaries (“ResCap”) filed for
                                             bankruptcy court relief under Chapter 11 of the U.S. Bankruptcy Code, and that
                                             it was exploring strategic alternatives for its international operations.582 As a result
                                             of the Chapter 11 filing, Ally Financial said that it deconsolidated ResCap from
                                             its financial statements and wrote down its equity interest in ResCap to zero.583
                                             On June 26, 2013, the U.S. Bankruptcy Court approved Ally Financial’s proposed
                                             settlement to pay $2.1 billion to the ResCap estate for release from certain
                                             mortgage claims and liabilities.584 As part of the settlement, ResCap on June 13,
                                             2013, fully repaid Ally Financial’s secured claim for $1.13 billion owed under
                                             existing credit facilities.585 Ally Financial recorded a charge of about $1.6 billion in
                                             the second quarter of 2013 related to the settlement, and said it would make its
                                             settlement payment to the ResCap estate when the reorganization plan became
                                             effective.586 The U.S. Bankruptcy Court approved the ResCap reorganization plan
                                             on December 11, 2013, marking the court’s formal approval of broad releases
                                             for all mortgage-related claims against Ally Financial. The plan became effective
                                             December 17, 2013.587

                                             Ally Financial Agrees to Sell International, Other Assets
                                             On November 21, 2012, Ally Financial announced it had reached agreements
                                             to sell its remaining international assets over time for $9.2 billion in proceeds.
                                             According to Ally Financial, that included the sale of most of its operations in
                                             Europe and Latin America to GM Financial Company, Inc. (“GM Financial”), and
                                             a 40% stake in a joint venture in China. From this, Ally Financial received $2.6
                                             billion in total proceeds.588 In June, 2013, Ally Financial said it completed the sale
                                             of its business in France, and on October 1, 2013, it said it completed the sale
                                             of its Brazil operations to GM Financial for $611 million.589 Ally Financial also
                                             has said it expects the sale of a joint venture stake in China to close in 2014.590
                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   225




In addition, it sold its Canadian auto finance operation to Royal Bank of Canada
for $4.1 billion and its Mexican insurance business to ACE Group for $865
million, in sales completed on February 1, 2013, and May 2, 2013, respectively.591
Additionally, Ally Financial’s subsidiary, Ally Bank, announced in March 2013 that
it agreed to sell its entire agency mortgage servicing rights to Ocwen Financial
and Quicken Loans.592 Both sales were completed on April 17, 2013, according to
Ally Bank, which said it received a combined $850 million in proceeds from the
transactions.593 Table 2.47 summarizes Ally Financial’s international and domestic
asset sales.

TABLE 2.47
 ALLY FINANCIAL - 2013 ASSET SALES                              ($ MILLIONS)

                               Sale Proceeds                    Buyer        Sale Closed
Ally Credit Canada,                                      Royal Bank of
                                           $4,100                                   2/1/13
ResMor Trust                                                   Canada
Ally Bank                                                      Walter
wholesale                                       N/A       Investment              2/28/13
mortgage unit                                            Management
Units in Latin
America, Europe,                           $2,600         GM Financial             4/2/13a
China
 Ally Bank                                                      Ocwen
 mortgage                                    $850            Financial,           4/17/13
 servicing                                              Quicken Loans
 ABA Seguros
                                             $865          ACE Group                5/2/13
 Insurance
 Brazilian
                                             $611         GM Financial            10/1/13
 operations
 Total Proceeds:                          $9,026                                             
 Notes: Numbers may not total due to rounding.
 a
   The closing on 4/2/2013 did not include China assets, which are expected to close in 2014.

 Sources: Ally Financial SEC filings, press releases.



Chrysler
Taxpayers suffered a $2.9 billion loss on the TARP investment in Chrysler. Through
October 3, 2010, Treasury made approximately $12.5 billion available to Chrysler:
$4 billion before bankruptcy to CGI Holding LLC, parent of Chrysler and Chrysler
Financial; $1.9 billion in financing to Chrysler during bankruptcy; and $6.6 billion
to Chrysler afterwards, in exchange for 10% of Chrysler common equity.594
     In 2010, following the bankruptcy court’s approval of Chrysler’s liquidation
plan, the $1.9 billion loan was extinguished without repayment.595 As of March 31,
2014, Treasury had recovered approximately $57.4 million from asset sales during
bankruptcy.596 Of the $4 billion lent to Chrysler’s parent company, CGI Holding
LLC, $500 million of the debt was assumed by Chrysler while the remaining $3.5
billion was held by CGI Holding LLC.597 Treasury later accepted $1.9 billion in full
satisfaction of the $3.5 billion loan.598
226   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 In spring 2011, Chrysler used the proceeds from a series of refinancing
                                             transactions and an equity call option exercised by Fiat North America LLC (“Fiat”)
                                             to repay the loans from Treasury.599
                                                 In mid-2011, Treasury sold to Fiat for $500 million Treasury’s remaining equity
                                             ownership interest in Chrysler. Treasury also sold to Fiat for $60 million Treasury’s
                                             rights to receive proceeds under an agreement with the United Auto Workers
                                             (“UAW”) retiree trust pertaining to the trust’s shares in Chrysler.600
                                                 As of July 21, 2011, the Chrysler entities had made approximately $1.2 billion
                                             in interest payments to Treasury under AIFP.601

                                             Chrysler Financial
                                             Chrysler Financial fully repaid the TARP investment, which included a Treasury
                                             loan of $1.5 billion to support Chrysler Financial’s retail lending in January
                                             2009. On July 14, 2009, Chrysler Financial fully repaid the loan in addition to
                                             approximately $7.4 million in interest payments.602 Additionally, on May 14, 2010,
                                             Treasury accepted $1.9 billion in full satisfaction of a $3.5 billion loan to CGI
                                             Holding LLC, relinquishing any claim on Chrysler Financial.603 On December
                                             21, 2010, TD Bank Group agreed to purchase Chrysler Financial from Cerberus,
                                             the owner of CGI Holding LLC, for approximately $6.3 billion completing its
                                             acquisition on April 1, 2011.604

                                             Auto Supplier Support Program (“ASSP”) and Auto Warranty
                                             Commitment Program (“AWCP”)
                                             On March 19, 2009, Treasury committed $5 billion to ASSP to “help stabilize the
                                             automotive supply base and restore credit flows,” with loans to GM ($290 million)
                                             and Chrysler ($123.1 million) fully repaid in April 2010.605
                                                AWCP guaranteed Chrysler and GM vehicle warranties during the companies’
                                             bankruptcy, with Treasury obligating $640.8 million — $360.6 million for GM and
                                             $280.1 million for Chrysler, both fully repaid to Treasury.606
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014             227




ASSET SUPPORT PROGRAMS
Three TARP programs have focused on supporting markets for specific asset
classes: the Term Asset-Backed Securities Loan Facility (“TALF”), the Public-
Private Investment Program (“PPIP”), and the Unlocking Credit for Small
Businesses (“UCSB”) program.
    TALF was designed to support asset-backed securities (“ABS”) transactions
by providing eligible borrowers $71.1 billion in non-recourse loans through the             Non-Recourse Loan: Secured loan
Federal Reserve Bank of New York (“FRBNY”) to purchase non-mortgage-backed                  in which the borrower is relieved of
ABS and commercial mortgage-backed securities (“CMBS”).607 Treasury initially               the obligation to repay the loan upon
obligated $4.3 billion in TARP funds to purchase and manage loan collateral from            surrendering the collateral.
any TALF loans that defaulted.608 As of February 6, 2013, all TARP funding for
TALF was either deobligated or repaid.609 Of the $71.1 billion in TALF loans, none          Collateral: Asset pledged by a
have defaulted and $82 million remained outstanding as of March 31, 2014.610                borrower to a lender until a loan is
    PPIP used a combination of private equity and Government equity and debt                repaid. Generally, if the borrower
through TARP to facilitate purchases of legacy mortgage-backed securities (“MBS”)           defaults on the loan, the lender gains
held by financial institutions. In July 2009, Treasury announced the selection              ownership of the pledged asset and
of nine Public-Private Investment Fund (“PPIF”) managers. Treasury originally               may sell it to satisfy the debt. In TALF,
obligated $22.4 billion in TARP funds to the program, then reduced the obligation           the ABS or CMBS purchased with
over time when several PPIFs did not use the full amounts available to them. One            the TALF loan is the collateral that is
PPIP manager, The TCW Group, Inc. (“TCW”), withdrew soon after the program                  posted with FRBNY.
began. A total of $18.6 billion in TARP funding was drawn down and fully repaid
by PPIP fund managers.611 As of March 31, 2014, the entire PPIP portfolio had
been liquidated, and six PPIP funds were legally dissolved while the other two were
winding down operations.612
    Through the UCSB loan support initiative, Treasury purchased $368.1 million
in 31 SBA 7(a) securities, which are securitized small-business loans.613 According
to Treasury, on January 24, 2012, Treasury sold its remaining securities and ended
the program with a total investment gain of about $9 million for all the securities,
including sale proceeds and payments of principal, interest, and debt.614

TALF
TALF, which was announced in November 2008, issued loans collateralized by
eligible ABS.615 According to FRBNY, TALF was “designed to increase credit
availability and support economic activity by facilitating renewed issuance of
consumer and business ABS.”616 TALF is divided into two parts:617

•	 a lending program, TALF, in which FRBNY originated and managed non-
   recourse loans to eligible borrowers using eligible ABS and CMBS as collateral.
   TALF’s lending program closed in 2010.
•	 an asset disposition facility, TALF LLC, that purchased the collateral from
   FRBNY if borrowers chose to surrender it and walk away from their loans or if
   the collateral is seized in the event of default.
228            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                          The asset disposition facility, TALF LLC, is managed by FRBNY and remains
                                                      in operation until final TALF loans mature on March 11, 2015.618 TALF loans are
                                                      non-recourse (unless the borrower has made any misrepresentations or breaches
                                                      warranties or covenants), which means that FRBNY cannot hold the borrower
                                                      liable for any losses beyond the surrender of collateral for the TALF loan.619
                                                          TALF LLC’s funding originated from a fee charged to FRBNY for the
      For a discussion of the credit rating           commitment to purchase any collateral surrendered by the borrowers. This fee was
      agency industry and an analysis of
      the impact of NRSROs on TARP
                                                      derived from the principal balance of each outstanding TALF program loan.620 As
      and the overall financial market, see           of March 31, 2014, $82 million in TALF loans was outstanding.621 According to
      SIGTARP’s October 2009 Quarterly                FRBNY, no TALF borrowers have surrendered collateral in lieu of repayment and
      Report, pages 113–148.                          consequently no collateral has been purchased by TALF LLC since its inception.622

                                                      Lending Program
      Nationally Recognized Statistical Rating        TALF’s lending program made secured loans to eligible borrowers.623 The loans
      Organization (“NRSRO”): Credit rating           were issued with terms of three or five years and were available for non-mortgage-
      agency registered with the SEC. Credit          backed ABS, newly issued CMBS, and legacy CMBS.624 The final maturity date of
      rating agencies provide their opinion           loans in the TALF portfolio is March 11, 2015.625
      of the creditworthiness of companies                To qualify as TALF collateral, the non-mortgage-backed ABS had to have
      and the financial obligations issued            underlying loans for automobile, student, credit card, or equipment debt; insurance
      by companies. The ratings distinguish           premium finance; SBA-guaranteed small business loans; or receivables for
      between investment grade and non–               residential mortgage servicing advances (“servicing advance receivables”). Collateral
      investment grade equity and debt                was also required to hold the highest investment grade credit ratings from at least
      obligations.                                    two nationally recognized statistical rating organizations (“NRSROs”).626
                                                          To qualify as TALF collateral, newly issued CMBS and legacy CMBS had to
      TALF Agent: Financial institution that          have been issued by an institution other than a Government-sponsored enterprise
      is party to the TALF Master Loan                (“GSE”) or an agency or instrumentality of the U.S. Government, offer principal
      and Security Agreement and that                 and interest payments, not be junior to other securities with claims on the same
      occasionally acts as an agent for the           pool of loans, and possess the highest long-term investment grade credit rating
      borrower. TALF agents include primary           from at least two rating agencies.627 Newly issued CMBS had to be issued on or
      and nonprimary broker-dealers.                  after January 1, 2009, while legacy CMBS were issued before that date.628

      Haircut: Difference between the value           Loan Terms
      of the collateral and the value of the          TALF participants were required to use a TALF agent to apply for a TALF loan.629
      loan (the loan value is less than the           After the collateral (the particular asset-backed security financed by the TALF loan)
      collateral value).                              was deemed eligible by FRBNY, the collateral was assigned a haircut. A haircut,
                                                      which represents the amount of money put up by the borrower (the borrower’s
      “Skin in the Game”: Equity stake in an          “skin in the game”), was required for each TALF loan.630 Haircuts for non-
      investment; down payment; the amount            mortgage-backed ABS varied based on the riskiness and maturity of the collateral,
      an investor can lose.                           and generally ranged between 5% and 16% for non-mortgage-backed ABS with
                                                      average lives of five years or less.631 The haircut for legacy and newly issued CMBS
      Custodian Bank: Bank holding the                was generally 15% but rose above that amount if the average life of the CMBS was
      collateral and managing accounts for            greater than five years.632
      FRBNY; for TALF the custodian is Bank               FRBNY lent each borrower the amount of the market price of the pledged
      of New York Mellon.                             collateral minus the haircut, subject to certain limitations.633 The borrower
                                                      delivered the collateral to the custodian bank, which collected payments generated
                                                                                                                       QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   229




by the collateral and distributed them to FRBNY (representing the borrower’s
payment of interest on the TALF loan).634 Any excess payments from the collateral
above the interest due and payable to FRBNY on the loan go to the TALF
borrower.635

TALF Loans
TALF provided a total of $71.1 billion in loans through FRBNY. Treasury initially
obligated $4.3 billion in TARP funds to purchase and manage loan collateral from
any TALF loans that defaulted.636 On January 15, 2013, Treasury and FRBNY said
the TARP-funded credit protection was no longer needed because lending fees
collected by TALF had exceeded the amount of loans still outstanding.637 As of
February 6, 2013, all TARP funding for TALF was either deobligated or repaid.638
    TALF provided $59 billion of loans to purchase non-mortgage-backed ABS
during the lending phase of the program, which ended on March 11, 2010. As of
March 31, 2014, $31.6 million was outstanding, all in student loans.639 Table 2.48
lists all TALF loans collateralized by non-mortgage-backed ABS, by ABS sector.

TABLE 2.48
 TALF LOANS BACKED BY ABS (NON-MORTGAGE-BACKED COLLATERAL)
 ($ BILLIONS)

 ABS Sector
 Auto Loans                                                                                                           $12.8
 Credit Card Receivables                                                                                               26.3
 Equipment Loans                                                                                                         1.6
 Floor Plan Loans                                                                                                        3.9
 Premium Finance                                                                                                         2.0
 Servicing Advance Receivables                                                                                           1.3
 Small-Business Loans                                                                                                    2.2
 Student Loans                                                                                                           8.9
 Total ABS                                                                                                           $59.0
 Notes: Numbers may not total due to rounding. Data as of 3/31/2014.

 Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.
 html, accessed 4/1/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/
 TALF_recent_operations.html, accessed 4/1/2014.



   TALF provided $12.1 billion of loans to purchase CMBS during the lending
phase of the program, which ended on June 28, 2010. Approximately 99% of the
loan amount was used to purchase legacy CMBS, with 1% newly issued CMBS.640
As of March 31, 2014, $50.4 million was outstanding.641 Table 2.49 includes all
TALF CMBS loans.
230            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      TABLE 2.49
                                                       TALF LOANS BACKED BY CMBS                         ($ BILLIONS)

                                                       Type of Collateral Assets
                                                       Newly Issued CMBS                                                                                                     $0.1
                                                       Legacy CMBS                                                                                                           12.0
                                                       Total CMBS                                                                                                          $12.1
                                                       Notes: Numbers may not total due to rounding. Data as of 3/31/2014.

                                                       Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.
                                                       html, accessed 4/1/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/
                                                       CMBS_recent_operations.html, accessed 4/1/2014.



                                                          TALF loans were issued with terms of three years or five years. The final ma-
                                                      turity date of the last of the five-year loans is March 11, 2015.642 The outstanding
                                                      TALF loans consist of $50.4 million in loans collateralized by CMBS and $31.6
                                                      million in loans collateralized by student loans. The remaining $82 million worth of
                                                      TALF loans will mature by the final maturity date of March 11, 2015.643
                                                          The Federal Reserve posted on its website detailed information on the 177
                                                      TALF borrowers, including the identities of the borrowers, the amounts and rates
                                                      of the loans, and details about the collateral.644
                                                          As of March 31, 2014, $71 billion in TALF loans had been repaid. According to
                                                      FRBNY, the outstanding collateral on the remaining $82 million in TALF loans was
                                                      performing as expected.645

                                                      Asset Disposition Facility
                                                      When FRBNY created TALF LLC, TARP loaned the facility $100 million.646 As of
                                                      March 31, 2014, the $100 million had been repaid in full along with $13 million in
                                                      interest, according to Treasury.647 During the remaining two years of the program,
                                                      any interest, fees, and gains collected above the remaining principal on outstanding
                                                      TALF loans will be shared by Treasury (90%) and FRBNY (10%).648 As of March
                                                      31, 2014, Treasury had received $576.6 million in additional gains and FRBNY
                                                      had received $64.1 million.649

                                                      Current Status
                                                      As of March 31, 2014, TALF LLC had assets of $105 million, which consisted of
                                                      interest and other income and fees earned from permitted investments.650 From
                                                      its February 4, 2009, formation through March 31, 2014, TALF LLC had spent
      Excess Spread: Funds left over
                                                      approximately $3.2 million on administration.651
      after required payments and other
                                                          When TALF closed for new loans in June 2010, FRBNY’s responsibilities
      contractual obligations have been met.
                                                      under the program shifted primarily to portfolio management, which includes
      In TALF it is the difference between
                                                      maintaining documentation, overseeing the custodian that is responsible for
      the periodic amount of interest paid
                                                      holding ABS collateral, calculating and collecting principal and interest on TALF
      out by the collateral and the amount
                                                      loans, disbursing excess spread to TALF borrowers, monitoring the TALF portfolio,
      of interest charged by FRBNY on the
                                                      collecting and managing collateral assets if a borrower defaults or surrenders the
      nonrecourse loan provided to the
                                                      collateral in lieu of repayment, and paying TALF LLC interest that borrowers pay
      borrower to purchase the collateral.
                                                      FRBNY on TALF loans, in excess of FRBNY’s cost of funding.652
                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014              231




Public-Private Investment Program
According to Treasury, the purpose of the Public-Private Investment Program                      Legacy Securities: Real estate-related
(“PPIP”) was to purchase legacy securities from banks, insurance companies,                      securities originally issued before
mutual funds, pension funds, and other eligible financial institutions as defined                2009 that remained on the balance
in EESA, through Public-Private Investment Funds (“PPIFs”).653 PPIFs were                        sheets of financial institutions because
partnerships, formed specifically for this program, that invested in mortgage-backed             of pricing difficulties that resulted from
securities using equity capital from private-sector investors combined with TARP                 market disruption.
equity and debt. A private-sector fund management firm oversaw each PPIF on
behalf of investors. According to Treasury, the aim of PPIP was to “restart the                  Equity: Investment that represents an
market for legacy securities, allowing banks and other financial institutions to free            ownership interest in a business.
up capital and stimulate the extension of new credit.”654
    Treasury selected nine fund management firms to establish PPIFs. One PPIP                    Debt: Investment in a business that
manager, TCW, subsequently withdrew. As of March 31, 2014, the entire PPIP                       is required to be paid back to the
portfolio had been liquidated, and six PPIP funds were legally dissolved while                   investor, usually with interest.
the other two were winding down operations. Private investors and Treasury co-
invested in the PPIFs to purchase legacy securities from financial institutions. The
fund managers raised private-sector capital. Treasury matched the private-sector
equity dollar-for-dollar and provided debt financing in the amount of the total                  For more information on the selection
combined equity. Each PPIP manager was also required to invest at least $20                      of PPIP managers, see SIGTARP’s
million of its own money in the PPIF.655 Each PPIF was approximately 75% TARP                    October 7, 2010, audit report entitled
                                                                                                 “Selecting Fund Managers for the
funded.
                                                                                                 Legacy Securities Public-Private
    Under the program, Treasury, the PPIP managers, and the private investors                    Investment Program.”
shared PPIF profits and losses on a pro rata basis based on their limited partnership
interests. Treasury also received warrants in each PPIF that gave Treasury the                   For more information on the
right to receive an extra portion of the fund’s final profits that would otherwise be            withdrawal of TCW as a PPIP
                                                                                                 manager, see SIGTARP’s January
distributed to the private investors.656                                                         2010 Quarterly Report, page 88.
    The PPIP portfolio consisted of eligible securities and cash assets. The
securities eligible for purchase by PPIFs (“eligible assets”) were non-agency
residential mortgage-backed securities (“non-agency RMBS”) and commercial
mortgage-backed securities (“CMBS”) that also met the following criteria: issued
before January 1, 2009 (legacy); rated when issued AAA or equivalent by two or
more credit rating agencies designated as nationally recognized statistical rating
organizations (“NRSROs”); secured directly by actual mortgages, leases, or other
assets, not other securities (other than certain swap positions, as determined by
Treasury); and located primarily in the United States (the loans and other assets


 Pro Rata: Refers to dividing something      Limited Partnership: Partnership in which       Non-Agency Residential Mortgage-
 among a group of participants according     there is at least one partner whose             Backed Securities (“non-agency RMBS”):
 to the proportionate share that each        liability is limited to the amount invested     Financial instrument backed by a group
 participant holds as a part of the whole.   (limited partner) and at least one partner      of residential real estate mortgages (i.e.,
                                             whose liability extends beyond monetary         home mortgages for residences with up
                                             investment (general partner).                   to four dwelling units) not guaranteed
                                                                                             or owned by a Government-sponsored
                                                                                             enterprise (“GSE”), or a Government
                                                                                             agency.
232   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             that secure the non-agency RMBS and CMBS); and purchased from financial
                                             institutions eligible for TARP participation.657

                                             PPIP Process
                                             Funds chosen to participate in PPIP raised private capital, which Treasury
                                             matched on a three to one basis (one part equity and two parts debt) up to a
                                             preset maximum set by Treasury. To obtain obligated funds, PPIP managers sent a
                                             notice to Treasury and the private investors requesting a “draw down” of portions
                                             of obligated contributions in order to purchase specific investments or to pay
                                             certain expenses and debts of the partnerships.658 After obtaining the funds, PPIP
                                             managers were required to provide monthly portfolio reports to Treasury and other
                                             investors.659

                                             PPIF Purchasing Power
                                             During the capital-raising period, the eight PPIP fund managers raised $7.4 billion
                                             of private-sector equity capital, which Treasury matched with a dollar-for-dollar
                                             obligation, for a total of $14.7 billion in equity capital. Treasury also obligated
                                             $14.7 billion of debt financing, resulting in $29.4 billion of PPIF purchasing
                                             power. PPIF fund-raising was completed in December 2009. After the capital-
                                             raising stage, Treasury obligated a total of $22.4 billion in a combination of
                                             matching equity funds and debt financing for PPIP, which included funds for
                                             TCW, which subsequently withdrew from the program. Table 2.50 shows equity
                                             and debt committed by Treasury for the eight PPIFs that actively participated in
                                             the program.
                                                                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   233




TABLE 2.50
 PUBLIC-PRIVATE INVESTMENT PROGRAM COMMITTED PURCHASING POWER                                                                   ($ BILLIONS)

                                                                                                                          Total
                                                 Private-Sector              Treasury             Treasury          Purchasing           Purchasing
 Manager                                                 Equity                Equity                 Debt              Powera           Power Used
 AG GECC PPIF Master Fund, L.P.                                 $1.2               $1.2                  $2.5                 $5.0                  90%
 AllianceBernstein Legacy
                                                                  1.2                1.2                   2.3                  4.6                 92%
 Securities Master Fund, L.P.
 BlackRock PPIF, L.P.                                             0.7                0.7                   1.4                  2.8                 76%
 Invesco Legacy Securities Master
                                                                  0.9                0.9                   1.7                  3.4                 68%
 Fund, L.P.
 Marathon Legacy Securities
 Public-Private Investment                                        0.5                0.5                   0.9                  1.9                100%
 Partnership, L.P.
 Oaktree PPIP Fund, L.P.                                          1.2                1.2                   2.3                  4.6                 48%
 RLJ Western Asset Public/Private
                                                                  0.6                0.6                   1.2                  2.5                100%
 Master Fund, L.P.
 Wellington Management Legacy
                                                                  1.1                1.1                   2.3                  4.6                100%
 Securities PPIF Master Fund, LP
 Totals for Fundsb                                             $7.4                $7.4               $14.7                 $29.4                   83%
 Notes: Numbers may not total due to rounding. All PPIP fund managers have liquidated their portfolios. Two funds were winding down operations and had
 not been legally dissolved as of March 31, 2014: AG GECC and Marathon.
 a
   Table shows the total amount of purchasing power committed and available to each PPIF during its investment period.
 b
   TCW raised $156 million in private-sector equity capital, which was matched by Treasury. Treasury also provided $200 million of debt. TCW repaid the
    total amount committed by Treasury in early 2010. This is not included in the total purchasing power.

 Sources: Treasury, Transactions Report, 3/19/2014; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP data call, 4/9/2014.
234   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                The program gave each PPIP manager up to three years (the “PPIF investment
                                             period”) from closing its first private-sector equity contribution to draw upon the
                                             TARP funds obligated for the PPIF and buy legacy securities on behalf of private
                                             and Government investors.660 During that investment period, the program sought
                                             to maintain “predominantly a long-term buy and hold strategy.”661 The investment
                                             periods for all PPIFs expired in 2012.662
                                                Subsequently, fund managers had up to five years ending in 2017 to manage
                                             and sell off the fund’s investment portfolio and return proceeds to taxpayers and
                                             investors, with the ability to extend that period under certain circumstances.663
                                             However, by June 30, 2013, all PPIP managers had liquidated their portfolios.

                                             Amounts Drawn Down
                                             The eight PPIP managers drew down a total of approximately $24.4 billion to buy
                                             legacy securities during their investment periods, spending $6.1 billion in private-
                                             sector equity capital and $18.3 billion in TARP equity and debt funding.664 The
                                             last fund’s investment period ended in December 2012.665 Treasury also disbursed
                                             $356.3 million to TCW, which TCW fully repaid in early 2010 when it withdrew
                                             from the program.666
                                                 As a group, the funds drew down and spent about 83% of the total money
                                             available to them to invest in legacy real estate-backed securities.667 All unused
                                             TARP debt financing has been deobligated by Treasury.668 Unused TARP equity
                                             financing is deobligated when each fund is legally dissolved.

                                             PPIP Fund Repayments and Liquidations
                                             Throughout the program, PPIP managers were required to make TARP payments
                                             to Treasury for debt principal, debt interest, and equity capital. Under the program,
                                             the PPIP funds also shared profits from the investments with Treasury. All PPIFs
                                             have fully repaid their TARP debt and equity financing.669 The nine PPIFs together
                                             had repaid $12.4 billion in TARP debt and $6.3 billion in TARP equity, including
                                             payments by TCW, as of March 31, 2014.
                                                 The PPIP managers wound down their portfolios as follows:

                                             •	 In June 2013, Oaktree liquidated its remaining PPIP investments.670 According
                                                to Treasury, Oaktree fully repaid Treasury’s equity investment of $555.9 million
                                                and Treasury debt of $1.1 billion, with interest. On December 31, 2013,
                                                Oaktree filed a formal certificate with the state of Delaware declaring that its
                                                PPIF had been dissolved.671
                                             •	 In June 2013, Marathon liquidated its remaining PPIP investments.672
                                                According to Treasury, Marathon fully repaid Treasury’s equity investment of
                                                $474.6 million and Treasury debt of $949 million, with interest. As of March
                                                31, 2014, Marathon had made its final distribution but had not completed
                                                dissolving the fund.673
                                             •	 In May 2013, AG GECC liquidated its remaining PPIP investments.674
                                                According to Treasury, AG GECC fully repaid Treasury’s equity investment of
                                                $1.1 billion and Treasury debt of $2.2 billion, with interest. As of March 31,
                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   235




     2014, AG GECC’s PPIF still had approximately $3.5 million in cash to pay for
     wind-down expenses.675
•	   In February 2013, Wellington liquidated its remaining PPIP investments.676
     According to Treasury, Wellington fully repaid Treasury’s equity investment of
     $1.1 billion and Treasury debt of $2.3 billion, with interest. On July 25, 2013,
     Wellington filed a formal certificate with the state of Delaware declaring that its
     PPIF had been dissolved.677
•	   In November 2012, BlackRock liquidated its remaining PPIP investments.678
     According to Treasury, BlackRock fully repaid Treasury’s equity investment of
     $528.2 million and Treasury debt of $1.1 billion, with interest.679 On December
     20, 2013, BlackRock filed a formal certificate with the state of Delaware
     declaring that its PPIF had been dissolved.680
•	   In September 2012, AllianceBernstein liquidated its remaining PPIP
     investments.681 According to Treasury, AllianceBernstein fully repaid Treasury’s
     equity investment of $1.1 billion and its Treasury debt of $2.1 billion, with
     interest.682 On August 23, 2013, AllianceBernstein filed a formal certificate with
     the state of Delaware declaring that its PPIF had been dissolved.683
•	   In October 2012, RLJ Western liquidated its remaining PPIP investments.684
     According to Treasury, RLJ Western fully repaid Treasury’s equity investment of
     $620.6 million and Treasury debt of $1.2 billion, with interest.685 On December
     31, 2012, RLJ Western filed a formal certificate with the state of Delaware
     declaring that its PPIF had been dissolved.686
•	   Invesco was the first of the PPIP funds to sell its portfolio, liquidating it in
     March 2012.687 According to Treasury, Invesco fully repaid Treasury’s equity
     investment of $581 million and Treasury debt of $1.2 billion, with interest.688
     On October 3, 2012, Invesco filed a formal certificate with the state of
     Delaware declaring that its PPIF had been dissolved.689

    In addition to repaying Treasury’s $18.6 billion capital investments, PPIP
managers paid a total of $3.5 billion in gross income payments and capital gains
to the Government through March 31, 2014, as well as $87 million in warrant
proceeds.690 Table 2.51 shows each fund’s payments to Treasury through March 31,
2014.
236   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                            TABLE 2.51
                             PPIP MANAGERS’ PAYMENTS TO TREASURY, AS OF 3/31/2014                                                         ($ MILLIONS)

                                                                                                                                                               Gross
                                                                                                                                                             Income
                                                                                                  Debt                 Debt               Equity          Payments                Equity
                                                                                              Principal             Interest             Capital         and Capital             Warrant
                             Manager                                                         Payments             Payments            Paymentsa                Gains           Paymentsb
                             AG GECC PPIF Master Fund, L.P.                                       $2,235                   $66              $1,117                 $776                  $19
                             AllianceBernstein Legacy Securities
                                                                                                    2,128                    58              1,064                   481                   12
                             Master Fund, L.P.
                             BlackRock PPIF, L.P.                                                   1,053                    34                 528                  395                   10
                             Invesco Legacy Securities Master Fund,
                                                                                                    1,162                    18                 581                  139                     3
                             L.P.
                             Marathon Legacy Securities Public-Private
                                                                                                       949                   28                 475                  364                     9
                             Investment Partnership, L.P.
                             Oaktree PPIP Fund, L.P.                                                1,111                    17                 556                  232                     6
                             RLJ Western Asset Public/Private Master
                                                                                                    1,241                    37                 621                  421                   11
                             Fund, L.P.
                             UST/TCW Senior Mortgage Securities
                                                                                                       200                  0.3                 156                    20                 0.5
                             Fund, L.P.
                             Wellington Management Legacy Securities
                                                                                                    2,299                    61              1,149                   651                   16
                             PPIF Master Fund, LP
                             Totals for All Funds                                              $12,378                   $320              $6,247              $3,479                    $87
                             Notes: Numbers may not total due to rounding. All PPIP fund managers have liquidated their portfolios. Two funds were winding down operations and had not
                             been legally dissolved as of March 31, 2014: AG GECC and Marathon.
                             a
                               In April 2012, Treasury reclassified about $1 billion in combined payments from five PPIFs as equity capital payments instead of equity distributions.
                             b
                                Treasury received equity warrants from the PPIFs, which give Treasury the right to receive a percentage of any profits that would otherwise be distributed to
                                 the private partners in excess of their contributed capital.

                             Sources: Treasury, Transactions Report, 3/19/2014; Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Dividends and Interest Report,
                             4/10/2014.
                                                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   237




Securities Purchased by PPIFs
According to their agreements with Treasury, PPIP managers invested in both
RMBS and CMBS, except for Oaktree, which invested only in CMBS.691 Figure
2.42 shows the collective value of securities held by all PPIFs at the end of each
calendar quarter from the beginning of the funds’ investment period, until all
securities were sold in the quarter ended June 30, 2013, broken down by RMBS
and CMBS.

FIGURE 2.42

INVESTMENTS BY PPIP FUNDS, 2009–2013 ($ BILLIONS)
25



20



15



10



 5



 0
     Q409 Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213


        Commercial Mortgage-Backed Securities Investments
        Residential Mortgage-Backed Securities Investments

     Notes: Numbers may not total due to rounding.

     Sources: Treasury, PPIP Quarterly Reports, December 2009, March 2010, June 2010, September 2010, December 2010,
     March 2011, June 2011, September 2011, December 2011, March 2012, June 2012, September 2012, December 2012,
     March 2013, and June 2013.


    PPIF investments were classified by underlying asset type. All non-agency
RMBS investments were considered residential because the underlying assets were
mortgages for residences with up to four dwelling units. For CMBS, the assets were
commercial real estate mortgages: office, retail, multi-family, hotel, industrial (such
as warehouses), mobile home parks, mixed-use (combination of commercial and/
or residential uses), and self-storage. Over the course of the program, the portfolio
held large concentrations of office and retail. Figure 2.43 breaks down CMBS
investment distribution by sector from December 31, 2009 through June 30, 2013.
238   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             FIGURE 2.43

                                             AGGREGATE CMBS SECTOR HOLDINGS BY MARKET VALUE, 2009–2013 ($ BILLIONS)

                                              6


                                              5


                                              4


                                              3


                                              2


                                              1


                                              0
                                                  Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                     Office                  Multifamily             Lodging/Hotel
                                                     Retail                  Industrial              Other

                                                  Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                  * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                    the best information available. Estimates do not have a material effect on the presentations in this report.

                                                  Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.


                                                Non-agency RMBS and CMBS were classified by the degree of estimated
                                             default risk (sometimes referred to as “quality”). In general, the highest-quality
                                             rankings went to mortgages with the strictest requirements regarding borrower
                                             credit, completeness of documentation, and underwriting standards. Treasury
                                             characterized the investment-quality levels of risk for the types of mortgage loans
                                             that support non-agency RMBS as follows:692

                                             •	 Prime — mortgage loan made to a borrower with good credit that generally met
                                                the lender’s strictest underwriting criteria.
                                             •	 Alt-A — mortgage loan made to a borrower with good credit but with limited
                                                documentation or other characteristics that do not meet the standards for prime
                                                loans.
                                             •	 Subprime — mortgage loan made to a borrower with a poor credit rating.
                                             •	 Option Adjustable Rate Mortgage (“Option ARM”) — mortgage loan that
                                                gave the borrower choices about how much interest and principal to pay each
                                                month, which could result in an increasing loan principal balance over time.
                                             •	 Other (RMBS) — RMBS that did not meet the definitions for prime, Alt-A,
                                                subprime, or option ARM but met the definition of “eligible assets” above.

                                                Treasury characterized CMBS according to the bond’s degree of “credit
                                             enhancement,” i.e., the percentage of the underlying mortgage pool by balance that
                                             must be written down before the bond had any losses.693
                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   239




•	 Super Senior — most senior originally rated AAA bonds in a CMBS
   securitization with the highest level of credit enhancement.
•	 AM (Mezzanine) — mezzanine-level originally rated AAA bond. Creditors
   receive interest and principal payments after super senior creditors but before
   junior creditors.694
•	 AJ (Junior) — the most junior bond in a CMBS securitization with a AAA rating
   at issuance.
•	 Other (CMBS) — CMBS that did not meet the definitions for super senior,
   AM, or AJ but met the definition of “eligible assets” above.

   Figure 2.44 and Figure 2.45 show the distribution of non-agency RMBS and
CMBS investments held in PPIP by respective risk levels from December 31,
2009, through June 30, 2013, by market value, as reported by PPIP managers.

FIGURE 2.44

AGGREGATE RMBS QUALITY BY MARKET VALUE, 2009–2013 ($ BILLIONS)

20

18

16

14

12
10

 8

 6

 4

 2

 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        Prime                   Subprime                      Other – RMBS
        Alt-A                   Option Arm

     Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
240   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             FIGURE 2.45

                                             AGGREGATE CMBS QUALITY BY MARKET VALUE, 2009–2013 ($ BILLIONS)

                                              6

                                              5


                                              4


                                              3


                                              2


                                              1


                                              0
                                                  Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                     Super Senior            AM          AJ         Other – CMBS


                                                  Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                  * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                    the best information available. Estimates do not have a material effect on the presentations in this report.

                                                  Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.


                                                Figures 2.46 and 2.47 show the distribution of non-agency RMBS and CMBS
                                             investments held in PPIP by respective risk levels from December 31, 2009,
                                             through June 30, 2013, as a percentage of market value, as reported by PPIP
                                             managers.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   241




FIGURE 2.46

AGGREGATE RMBS QUALITY AS A PERCENTAGE OF MARKET VALUE, 2009–2013

100%



80%



60%



40%



20%



 0%
       Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

          Prime                   Subprime                      Other – RMBS
          Alt-A                   Option Arm

       Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

       * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
         the best information available. Estimates do not have a material effect on the presentations in this report.

       Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.


FIGURE 2.47

AGGREGATE CMBS QUALITY AS A PERCENTAGE OF MARKET VALUE, 2009–2013

100%



80%



60%



40%


20%



 0%
       Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

          Super Senior            AJ
          AM                      Other – CMBS

       Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

       * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
         the best information available. Estimates do not have a material effect on the presentations in this report.

       Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
242   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                Non-agency RMBS and CMBS can be classified geographically, according to
                                             the states where the underlying mortgages are held. Figures 2.48 and 2.49 show
                                             the states with the greatest representation in the underlying non-agency RMBS and
                                             CMBS investments in PPIFs, as reported by PPIP managers from December 31,
                                             2009 through June 30, 2013.

                                             FIGURE 2.48

                                             AGGREGATE RMBS GEOGRAPHIC DISTRIBUTION BY MARKET VALUE, 2009–2013
                                             ($ BILLIONS)
                                             20

                                             18

                                             16

                                             14

                                             12
                                             10

                                              8

                                              6

                                              4

                                              2

                                              0
                                                  Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                     California              New York                       Other
                                                     Florida                 Virginia/New Jersey

                                                  Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers. Virginia ranked fourth
                                                  from Q4 2009 – Q2 2012 and was replaced by New Jersey from Q3 2012 forward.

                                                  * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                    the best information available. Estimates do not have a material effect on the presentations in this report.

                                                  Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   243




FIGURE 2.49

AGGREGATE CMBS GEOGRAPHIC DISTRIBUTION BY MARKET VALUE, 2009–2013
($ BILLIONS)

 6


 5


 4


 3


 2


 1


 0
     Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

        California              Texas                    Other
        New York                Florida

     Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

     * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
       the best information available. Estimates do not have a material effect on the presentations in this report.

     Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.


   Non-agency RMBS and CMBS can be classified by the delinquency of the
underlying mortgages. Figures 2.50 and 2.51 show the distribution of non-agency
RMBS and CMBS investments held in PPIP by delinquency levels, as reported by
PPIP managers from December 31, 2009, through June 30, 2013.
244   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             FIGURE 2.50

                                             AGGREGATE AVERAGE RMBS DELINQUENCIES BY MARKET VALUE, 2009–2013
                                             ($ BILLIONS)
                                             20

                                             18

                                             16

                                             14

                                             12
                                             10

                                              8

                                              6

                                              4

                                              2

                                              0
                                                  Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                     Current                 30-59 Days                    60+ Days


                                                  Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                  * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                    the best information available. Estimates do not have a material effect on the presentations in this report.

                                                  Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.


                                             FIGURE 2.51

                                             AGGREGATE AVERAGE CMBS DELINQUENCIES BY MARKET VALUE, 2009–2013
                                             ($ BILLIONS)

                                              6


                                              5


                                              4


                                              3


                                              2


                                              1


                                              0
                                                  Q409* Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312 Q412 Q113 Q213

                                                     Current                 30-59 Days                    60+ Days


                                                  Notes: Numbers affected by rounding. Calculated based on monthly data supplied by the PPIF managers.

                                                  * Certain data for this period were incomplete. In the cases where data were incomplete, SIGTARP made estimates based on
                                                    the best information available. Estimates do not have a material effect on the presentations in this report.

                                                  Sources: SIGTARP Quarterly Reports, January 2010 through July 2013, PPIF Monthly Performance Reports.
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014           245




Unlocking Credit for Small Businesses (“UCSB”)/Small
                                                                                            7(a) Loan Program: SBA loan program
Business Administration (“SBA”) Loan Support Initiative
                                                                                            guaranteeing a percentage of loans for
On March 16, 2009, Treasury announced the Unlocking Credit for Small
                                                                                            small businesses that cannot otherwise
Businesses (“UCSB”) program, which according to Treasury was designed to
                                                                                            obtain conventional loans at reasonable
encourage banks to increase lending to small businesses. Through UCSB, Treasury
                                                                                            terms.
purchased $368.1 million in securities backed by pools of loans from the Small
Business Administration’s (“SBA”) 7(a) Loan Program.695
                                                                                            Pool Assemblers: Firms authorized
    Treasury signed contracts with two pool assemblers, Coastal Securities, Inc.
                                                                                            to create and market pools of SBA-
(“Coastal Securities”), and Shay Financial Services, Inc. (“Shay Financial”), on
                                                                                            guaranteed loans.
March 2, 2010, and August 27, 2010, respectively.696 Under the governing agree-
ment, EARNEST Partners, on behalf of Treasury, purchased SBA pool certificates
                                                                                            SBA Pool Certificates: Ownership
from Coastal Securities and Shay Financial without confirming to the counterpar-
                                                                                            interest in a bond backed by SBA-
ties that Treasury was the buyer.697 From March 19, 2010, to September 28, 2010,
                                                                                            guaranteed loans.
Treasury purchased 31 floating-rate 7(a) securities from Coastal Securities and
Shay Financial for a total of approximately $368.1 million.698
    In a series of sales from June 2011 through January 2012, Treasury sold all its
SBA 7(a) securities, for total proceeds of $334.9 million, ending the program.699           For more information on SBA 7(a)
According to Treasury, over the life of the program Treasury also had received              Loan Program mechanics and
$29 million and $13.3 million in amortizing principal and interest payments,                TARP support for the program, see
                                                                                            SIGTARP’s April 2010 Quarterly
respectively.700
                                                                                            Report, pages 105-106.

                                                                                            For a full listing of the SBA 7(a)
                                                                                            securities Treasury purchased through
                                                                                            UCSB, including investment amounts,
                                                                                            sales proceeds, and other proceeds
                                                                                            received by Treasury, see SIGTARP’s
                                                                                            April 2012 Quarterly Report, page
                                                                                            134.
246   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
              BANKS AND CREDIT UNIONS IN
SECT IO N 3   TARP’S CDCI PROGRAM FACE
              CHALLENGES
248   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                                                    QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   249




INTRODUCTIONi
TARP’s Capital Purchase Program bailout of 707 banks is well known, but there
is a lesser known TARP bailout of 36 small banks and 48 credit unions called the
Community Development Capital Initiative (“CDCI”) that will likely continue
until at least 2018. Although the program itself is much smaller than CPP and
the participating institutions are small, they play a vital role in serving low-income
communities not traditionally served by larger institutions. In February 2010,
in a release announcing “New Efforts to Improve Access to Credit for Small
Businesses,” the Administration announced that CDCI would support “small
business lending in the hardest-hit rural and urban communities by making low-
cost capital available.” The announcement stated that CDCI and the non-TARP
Small Business Lending Fund were new measures as “part of an ongoing effort to
help small businesses access credit and create jobs.” This report is designed to raise
awareness of the challenges that these banks and credit unions face and the need
for careful oversight by Treasury, which oversees CDCI and taxpayer investments in
these companies.
    The financial stability of CDCI banks and credit unions must be an ongoing
concern to Treasury as a long-term investment in the financial recovery of small
businesses in underserved communities. Treasury’s oversight over the financial
stability of CDCI institutions cannot solely be viewed as ending at the time it
made TARP investments, because it made those investments with a specific and
important goal that must be measured and met to help small businesses. Treasury’s
Office of Financial Stability that administers TARP should keep careful watch
over the financial stability of these institutions the entire time they are in TARP so
that these institutions can lend to small businesses while getting themselves in a
position to repay TARP. Treasury needs to conduct adequate oversight over these
institutions to ensure that the purpose of the program, to increase small business
lending in hard hit communities, is met, and to work with CDCI institutions and
their regulators to ensure that eventually they will be able to stand on their own,
financially stable, without taxpayer assistance.
    Although announced as a separate TARP program, Treasury allowed banks
already in TARP’s CPP to apply for CDCI funds with the idea that these banks
would promote small business lending in their communities. Treasury made
the decision in 2010 that 81% of the $570.1 million in TARP money for CDCI
would go to 28 banks already in TARP’s CPP and the great majority of those
funds ($363.3 million) would be used to convert the CPP obligation to a CDCI
obligation. These 28 TARP banks in CPP that converted to CDCI got two
significant benefits. First, they got TARP funds at a cheaper cost because the
dividend they pay to Treasury decreased from 5% to 2%. Second, they got to keep
that low dividend for eight years (2018), rather than for the five-year term in CPP
(2014-2015). Only $106 million of the $570.1 million invested by CDCI went to


i The Office of the Special Inspector General for the Troubled Asset Relief Program (“SIGTARP”) is issuing this report under the
 Emergency Economic Stabilization Act. The report is based on SIGTARP internal information. It is not an audit or evaluation under the
 Inspector General Act of 1978, as amended.
250   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             institutions that were not already in TARP.701 Because these banks received a great
                                             benefit from converting to CDCI, and Treasury agreed to accept less in dividend
                                             payments, it is vitally important that Treasury ensure that these institutions earn
                                             those benefits by meeting the goal of the program to promote small business
                                             lending in their communities. Otherwise, taxpayers will have been paid less in
                                             dividend payments, with little benefit.
                                                 Unlike the smaller banks in CPP that have already faced or will soon face the
                                             dividend increase and are scrambling to raise capital or debt to repay TARP or face
                                             Treasury auctioning their shares, the banks and credit unions in CDCI could be
                                             in TARP for many years to come. Whereas in CPP the TARP dividend rate began
                                             increasing to 9% after five years (beginning in 2014 for many banks), putting
                                             pressure on banks to repay TARP, the dividend rate for CDCI banks and credit
                                             unions does not rise to 9% until 2018.
                                                 Only 14 CDCI institutions have been able to repay TARP and an additional
                                             bank exited the program via bankruptcy. The 69 banks and credit unions remaining
                                             in CDCI as of March 31, 2014, continue to face challenges that could impact
                                             their financial stability, ability to lend to small businesses in their communities,
                                             and their ability to repay TARP. Community banks continue to have difficulty in
                                             gaining access to capital. Credit unions have experienced a rise in non-performing
                                             loans, which impacts their balance sheet and capital. Eight of the remaining CDCI
                                             institutions have current enforcement actions by their Federal banking regulator.702
                                             Moreover, many of the CDCI institutions are in economically hard-hit areas
                                             around the country that are still struggling to recover from the crisis.
                                                 Because of these challenges, it is especially important that Treasury keeps a
                                             watchful eye on taxpayer investments in CDCI institutions. These small banks
                                             and credit unions do not disclose the same amount of information about their
                                             health and performance as larger banks. However, Treasury and the public have
                                             a tool designed to provide some transparency on the financial stability of these
                                             institutions. In December 2008, SIGTARP recommended that Treasury require
                                             TARP recipients to report quarterly on their use of TARP funds. While Treasury
                                             did not require CPP banks to comply with this requirement, in 2010 they began
                                             sending annual surveys to CPP banks asking for voluntary responses, and they
                                             required annual reporting for CDCI participants. Never once has Treasury received
                                             100% compliance. In other words, never in the history of the program have all the
                                             banks and credit unions in CDCI complied with the mandatory requirement to
                                             report on how they used the TARP funds. Eight banks and credit unions in CDCI
                                             have never told Treasury how they used TARP funds, despite being required to do
                                             so in the contract they signed to get the TARP money. Worse yet is that Treasury
                                             does not enforce its contract, a fact which does not go unnoticed by the CDCI
                                             institutions. The number of survey responses that CDCI institutions actually
                                             submitted to Treasury has decreased dramatically; from 83% reporting in 2010,
                                             to 74% in 2011, and only 33% in 2012.703 As a result, Treasury and the public do
                                             not know what these TARP funds were actually used for, or have access to other
                                             information requested in the surveys that could provide insight into the financial
                                             stability of these institutions.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   251




    Treasury also has access to another key piece of information that would shed
light on the financial stability of CDCI institutions, which is whether those
institutions are paying timely dividend payments to Treasury and the reason why
delinquent institutions missed dividend payments. Given the low 2% dividend
rate, missed dividends can provide important insight into a bank or credit union’s
health. This is particularly true if the institution misses five payments to Treasury,
which would trigger Treasury’s policy of sending observers to board meetings of
the institutions, or eight payments which triggers Treasury’s right to appoint two
directors to the board. Attendance at the board meetings can provide a wealth of
information to Treasury on the financial stability of the CDCI institution, which
impacts their ability to meet the program’s goals, their ability to pay dividends, and
their ability to repay TARP. However, Treasury did not request to send an observer
to one CDCI bank that had missed six payments. That bank later failed. Treasury
has failed to appoint directors to the board of one CDCI institution that had
converted from CPP and has missed 12 dividend payments. SIGTARP previously
recommended that Treasury enforce this important right that could help provide
independent and experienced board members who could provide effective internal
oversight and help detect any potential mismanagement or fraud.704




CDCI INSTITUTIONS FACE CHALLENGES THAT
COULD IMPACT THEIR FINANCIAL STABILITY,
ABILITY TO LEND TO SMALL BUSINESSES, AND
ABILITY TO REPAY TARP
Limited Access to Capital
CDCI provided capital to smaller community banks that had limited access
to capital through other means. Banks with assets under $1.5 billion do not
have access to capital from private equity firms, mutual funds, foundations,
and other institutional investors. “Capital offerings for less than $20 million to
$30 million are often too small for many institutional investors regardless of
structure or investment thesis. Institutional investors have fixed costs to cover
and deal size minimums. They simply cannot monitor an unlimited number of
small investments, no matter how promising,” according to a white paper by the
Conference of State Bank Supervisors.705 Institutional investors also want a bank to
have a business plan that allows the investors to eventually realize gains through a
stock offering or by selling the bank to a larger institution.
    Capital is a measure of a bank’s health and strength. Capital is necessary to
build stronger balance sheets and absorb unexpected losses. CDCI institutions at
the same time are expected to provide small businesses in their communities with
access to capital. Small banks in CPP continue to experience problems with access
252   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             to capital, which has become a challenge to their ability to repay TARP. CDCI
                                             institutions may face the same challenge.

                                             Rise of Non-Performing Loans at Credit Unions
                                             Credit unions, including CDCI participants, experienced slow to no loan growth
                                             between 2009 and 2011, but saw loan delinquencies and loan charge-offs
                                             increase.706 Pre-crisis, in 2006, 0.68% of credit union loans were more than 60
                                             days past due.707 By 2008 loan delinquency rates more than doubled to 1.37% and
                                             were even higher the following year at 1.82%.708 In 2011, the rate of delinquencies
                                             started to decrease slowly to 1.75%.709 In 2012, loan delinquency rates dropped to
                                             1.15%, but are still nowhere near the pre-financial crisis rate of 0.68%.710 Similarly,
                                             net loan charge-offs in 2006 accounted for 0.45% of credit union loans, and that
                                             number grew almost three-fold to 1.21% by 2009.711 As of 2012, the net charge off
                                             rate was at 0.73%, which was nearly double the 2006 rate.712

                                             Regulatory Orders
                                             Eight of the remaining 69 CDCI institutions (12%) have current enforcement
                                             actions by their Federal banking regulator.713 The enforcement actions include
                                             sanctions against personnel, formal agreements and consent orders, and sanctions
                                             due to Home Mortgage Disclosure Act (HMDA) violations. Four of those
                                             enforcement actions, including sanctions against personnel for two institutions,
                                             were issued after the institutions had received TARP funds through CDCI.714

                                             Hardest Hit Communities
                                             The CDCI recipients were specifically chosen because the communities they
                                             serve are the hardest hit rural and urban communities. This continues to present
                                             challenges as many of those communities, including states such as Mississippi,
                                             California, Illinois, Louisiana, and New York have not yet recovered. The largest
                                             concentration of CDCI outstanding funds, by far, is in the Southeast with $290
                                             million outstanding. The Mid-Atlantic/Northeast region and the Southeast
                                             continue to have the largest number of remaining CDCI institutions, 21 and 19
                                             remaining respectively. Ten CDCI institutions are in one state – Mississippi.715 The
                                             West and Mid-Atlantic/Northeast regions have a considerably larger number of
                                             CDCI credit unions than CDCI banks; 11 of the 13 remaining institutions in the
                                             West and 16 of the 21 remaining institutions in the Mid-Atlantic/Northeast region
                                             are credit unions.716 The opposite is true in the Southeast, where 16 of the 19
                                             remaining CDCI institutions are banks.717 Tables 3.1 through 3.7 show banks and
                                             credit unions remaining in CDCI by region and state as of March 31, 2014.
                                                                                                                                     QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   253




TABLE 3.1
 BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY REGION, AS OF
 3/31/2014
                                             Original              Remaining                                            Remaining          Remaining
                                          Number of                Number of                         Remaining          Number of          Number of
                                         Participants             Participants                      Investment             Banks         Credit Unions
 Mid-Atlantic/Northeast                                 24                        21                67,151,000                       5             16
 Southeast                                              22                        19           289,885,000                          16               3
 West                                                   14                        13           $26,799,000                           2             11
 Southwest/South Central                                11                         8                58,199,000                       2               6
 Midwest                                                11                         8                26,432,000                       4               4
 Mountain West/Plains                                    2                         0                             0                   0               0
 Total                                                  84                     69         $468,466,000                              29             40
 Source: Treasury, Transactions Report, 3/19/2014.


FIGURE 3.1
AMOUNT OF CDCI PRINCIPAL INVESTMENT REMAINING, BY REGION,
AS OF 3/31/2014

    AK
                                         MOUNTAIN WEST/
                                             PLAINS
                                               $0                                         MIDWEST                           MID-ATLANTIC/
                            WA                                                           $26 MILLION                         NORTHEAST
                                                                                                                 VT    ME
                                              MT             ND                                                              $67 MILLION
                       OR                                               MN                                                 NH
                                                                                   WI                           NY
   WEST                             ID                       SD                                                             MA
                                                                                           MI
$22 MILLION
                                              WY
                                                                         IA                                               CT RI
                                                                                                OH         PA            NJ
                                                             NE
                              NV                                                    IL    IN                           DE
                      CA                 UT                                                              WV VA
          GU                                       CO                    MO                                           MD
                                                                  KS                           KY
                                                                                                          NC
                                                                                          TN
           HI                        AZ                            OK        AR                           SC
                                                   NM
                                                                                        MS AL       GA          SOUTHEAST
                                                              TX              LA                               $290 MILLION

                                                                                                          FL                   PR
                                     SOUTHWEST/
                                    SOUTH CENTRAL
                                     $58 MILLION

                WEST                                                               MIDWEST
                MOUNTAIN WEST/PLAINS                                               MID-ATLANTIC/NORTHEAST
                SOUTHWEST/SOUTH CENTRAL                                            SOUTHEAST
254     SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      Mid-Atlantic/Northeast
      TABLE 3.2
       BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 3/31/2014
                                                                                  Original          Remaining                           Remaining     Remaining
                                                                               Number of            Number of               Remaining   Number of     Number of
                                                                              Participants         Participants            Investment      Banks    Credit Unions
                                  VT    ME
                                                                    CT                       1                    1           $7,000           0               1
                                             NH
                                                                    DC                       3                    3       13,303,000           2               1
                             NY               MA
                                                     RI             NJ                       2                    1           31,000           0               1
                                        CT
                        PA             NJ                           NY                      13                   12       42,660,000           2              10
                                      DE
                  WV VA
                  WV                MD                              PA                       1                    1          100,000           0               1
                                   DC
                                                                    VA                       3                    2        9,959,000           1               1
                                                                    VT                       1                    1        1,091,000           0               1
       MID-ATLANTIC/                       >$10 million             Total                  24                   21       $67,151,000           5              16
                                           $1 million-$10 million
       NORTHEAST                           $1-$1 million            Source: Treasury, Transactions Report, 3/19/2014.
       Principal investment                $0
       remaining in CDCI banks




      Southeast
      TABLE 3.3
       BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 3/31/2014
                                                                                  Original          Remaining                           Remaining     Remaining
                                                                               Number of            Number of               Remaining   Number of     Number of
                                                                              Participants         Participants            Investment      Banks    Credit Unions
                                   NC
                  TN                                                AL                       3                    3      $16,698,000           2               1
                                  SC
                                                                    GA                       2                    2       15,213,000           2               0
            MS     AL    GA
                                                PR                  MS                      12                   10      220,444,000           9               1
                                                                    NC                       3                    2       12,735,000           1               1
                                   FL                               SC                       1                    1       22,000,000           1               0
                                                                    TN                       1                    1        2,795,000           1               0
       SOUTHEAST                       >$10 million                 Total                  22                   19      $289,885,000          16               3
       Principal investment            $1 million-$10 million
                                       $1-1 million                 Source: Treasury, Transactions Report, 3/19/2014.
       remaining in CDCI
       banks                           $0
                                                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014       255




West
TABLE 3.4
 BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 3/31/2014
                                                                        Original          Remaining                              Remaining       Remaining
                                                                     Number of            Number of                Remaining     Number of       Number of
                                                                    Participants         Participants             Investment        Banks      Credit Unions
                                       WA
                                                          AK                       1                    1         $1,600,000               0                  1
          AK                                              CA                       9                    8         21,503,000               2                  6
                                  OR
                                                          GU                       1                    1          2,650,000               0                  1
                                                          HI                       2                    2            971,000               0                  2
                                                          WA                       1                    1             75,000               0                  1
                GU                                        Total                  14                   13        $26,799,000                2              11
                                 CA
                                                          Source: Treasury, Transactions Report, 3/19/2014.


                 HI

  WEST                       >$10 million
  Principal investment       $1 million-$10 million
  remaining in CDCI banks    $1-$1 million
                             $0




Southwest/South Central
TABLE 3.5
 BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 3/31/2014
                                                                        Original          Remaining                              Remaining       Remaining
                                                                     Number of            Number of                Remaining     Number of       Number of
                                                                    Participants         Participants             Investment        Banks      Credit Unions
     AZ                          OK
               NM                           AR            AR                       1                    1        $33,800,000               1                  0
                                                          AZ                       1                    1          2,500,000               0                  1
                                            LA
                            TX                            LA                       6                    4         18,204,000               1                  3
                                                          TX                       3                    2          3,695,000               0                  2
                                                          Total                  11                     8       $58,199,000                2                  6
                                                          Source: Treasury, Transactions Report, 3/19/2014.
 SOUTHWEST/                      >$10 million
                                 $1 million-$10 million
 SOUTH CENTRAL                   $1-$1 million
 Principal investment            $0
 remaining in CDCI banks
256     SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      Midwest
      TABLE 3.6
       BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 3/31/2014
                                                                                         Original          Remaining                          Remaining     Remaining
                                                                                      Number of            Number of              Remaining   Number of     Number of
                                                                                     Participants         Participants           Investment      Banks    Credit Unions
                                                                           IL                       7                    6     $25,193,000           4               2
                  MN
                             WI                                            IN                       2                    2       1,239,000           0               2
                                            MI
                                                                           MN                       1                    0               0           0               0
                   IA
                                        IN       OH                        WI                       1                    0               0           0               0
                                  IL
                       MO                                                  Total                  11                     8     $26,432,000           4               4
                                             KY
                                                                           Source: Treasury, Transactions Report, 3/19/2014.


         MIDWEST                            >$10 million
         Principal investment               $1 million -$10 million
         remaining in CDCI                  $1-$1 million
         banks                              $0




      Mountain West/Plains
      TABLE 3.7
       BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 3/31/2014
                                                                                         Original          Remaining                          Remaining     Remaining
                                                                                      Number of            Number of              Remaining   Number of     Number of
                                                                                     Participants         Participants           Investment      Banks    Credit Unions
                                  MT                  ND                   MT                       1                    0              $0           0               0
                                                                           WY                       1                    0               0           0               0
                   ID                                 SD
                                       WY                                  Total                    2                    0              $0           0               0
                                                      NE                   Source: Treasury, Transactions Report, 3/19/2014.
            NV
                        UT
                                        CO
                                                           KS


      MOUNTAIN WEST/                              >$10 million
                                                  $1 million-$10 million
      PLAINS                                      $1-$1 million
      Principal investment
                                                  $0
      remaining in CDCI banks
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   257




CDCI Recipients Need New Capital and Financial Stability to
Exit TARP
Community banks and credit unions in CDCI provide a financial lifeline to
underserved communities. Both Treasury and taxpayers have an interest in
ensuring that CDCI institutions remain financially stable so that they can help
their communities recover by loaning funds to small businesses, and eventually be
strong enough to repay TARP. Given the challenges these banks and credit unions
face, there is a need for careful oversight by Treasury over the financial stability
of the institutions to ensure that the purpose of the CDCI program, to promote
small business lending, continues to be met and to increase the likelihood that
taxpayers are repaid in full. Treasury’s oversight over the financial stability of these
institutions cannot solely be viewed in the past, as a one-time capital investment.
Treasury’s TARP investments in CDCI banks and credit unions were long-term
investments in the financial recovery of underserved communities. In addition,
to exit TARP, banks must obtain the approval of their primary Federal banking
regulator, which determines if an institution is strong enough to maintain adequate
capitalization after repaying TARP. Fourteen institutions in CDCI have repaid
TARP and one bank has exited the program as a result of bankruptcy as of March
31, 2014. Treasury must maintain careful oversight over the financial stability of
the remaining CDCI recipients the entire time they are in TARP so that these
banks and credit unions can lend to small businesses while getting themselves in a
position to repay TARP and be financially stable without taxpayer assistance.




BANKS AND CREDIT UNIONS IN CDCI ARE NOT
REPORTING ON THEIR USE OF TARP FUNDS,
WHICH HINDERS TRANSPARENCY, OVERSIGHT
AND TREASURY’S ABILITY TO JUDGE WHETHER,
THE GOALS OF THE PROGRAM ARE BEING MET
Because of the challenges CDCI institutions face, it is especially important that
Treasury keep a watchful eye on taxpayer investments in CDCI institutions. Small
banks and credit unions do not disclose the same amount of information about
their health and performance as larger banks. However, Treasury has an important
source of information about the financial stability of CDCI institutions in the
TARP requirement that these institutions respond annually to a Treasury survey
on the use of TARP funds. However, many CDCI institutions have not complied
with this requirement, refusing to provide transparency. Treasury has not enforced
the disclosure, thereby losing an important tool to gain information on the CDCI
institutions.
    Because Treasury did not put limitations in its TARP contracts with institutions
on how they could use TARP funds, one of the first recommendations that
258   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             SIGTARP made to Treasury was that Treasury require all TARP recipients to report
                                             on the actual use of TARP funds they received. As a result, when Treasury invested
                                             TARP dollars in institutions, it was entirely unclear what was done with the TARP
                                             money. TARP agreements generally did not require recipients to report or even
                                             to track internally the use of TARP funds, which posed two significant problems.
                                             First, it does not provide necessary basic transparency. It is not unreasonable to
                                             expect that American taxpayers, who were asked to fund the unprecedented bailout,
                                             and their representatives in Congress have some understanding as to how the
                                             recipients used the TARP funds. Second, the lack of transparency affects oversight
                                             because Treasury and SIGTARP cannot assess the effectiveness of TARP programs
                                             over time and are hindered in the ability to oversee certain recipients’ compliance
                                             with conditions of the TARP agreement. At the time of SIGTARP’s December 2008
                                             recommendation, Treasury refused to adopt SIGTARP’s recommendation and did
                                             not believe that “requiring reports as to how the specific funds were spent would be
                                             meaningful, since it could never be said with certainty that particular funds were
                                             used for a particular purpose.”
                                                 In February 2009, SIGTARP itself sent a survey to 360 TARP recipient banks
                                             in CPP (CDCI did not yet exist), asking them to report on their anticipated and
                                             actual use of TARP funds, a survey that had a 100% response rate. Every CPP
                                             bank responded to SIGTARP’s survey and SIGTARP found that despite Treasury’s
                                             argument that money is fungible, TARP banks were able to provide meaningful
                                             information on their use of TARP funds. Notably, 80% of the banks cited that they
                                             used the funds for lending, 40% reported that some of the TARP funds were used
                                             to maintain capital cushions, and some banks reported repaying outstanding loans,
                                             investing in mortgage-backed securities, or buying other banks. SIGTARP followed
                                             with another survey for the automotive companies bailed out by TARP and for AIG.
                                             SIGTARP posted every survey response on its website.
                                                 One year after SIGTARP’s recommendation, in December 2009, Treasury
                                             finally agreed to act on SIGTARP’s recommendation to require CPP recipients to
                                             report on the use of TARP funds. However, Treasury made compliance voluntary
                                             for CPP recipients. On March 11, 2010, following Treasury’s February 3, 2010,
                                             announcement of CDCI, SIGTARP made a related recommendation for CDCI.
                                             SIGTARP then recommended that Treasury require quarterly reporting on the
                                             use of TARP funds for CDCI participants, rather than annual reporting, to more
                                             effectively emphasize the purpose of the program. Treasury rejected quarterly
                                             reporting, but did include a requirement in CDCI contracts that the recipient
                                             annually report on the use of their TARP funds and the effects of the TARP capital
                                             on the operations and status of the TARP recipient.
                                                 Never in the history of the CDCI program have all 84 CDCI banks and credit
                                             unions complied with the contractual requirement to report annually to Treasury
                                             on their use of funds. Treasury, in other words, has never had a 100% response
                                             rate, even though SIGTARP was able to obtain a 100% response rate from 360
                                             CPP institutions in 2009. Moreover eight banks and credit unions in CDCI have
                                             never told Treasury how they used TARP funds, despite being required to do so in
                                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   259




the contract they signed to get the TARP money. Table 3.8 lists the names of these
institutions and the amount of TARP funds they received.

TABLE 3.8
 CDCI INSTITUTIONS THAT NEVER SUBMITTED USE OF FUNDS SURVEYS
                                                                      TARP
 Institution                                                    Investment   City        State
 Bancorp of Okolona, Inc.                                       $3,297,000 Okolona       MS
 D.C. Federal Credit Union                                       1,522,000 Washington    DC
 Faith Based Federal Credit Union                                  30,000    Oceanside   CA
 Greater Kinston Credit Union                                     350,000    Kinston     NC
 Neighborhood Trust Federal Credit Union                          283,000    New York    NY
 Tri-State Bank of Memphis                                       2,795,000 Memphis       TN
 Union Settlement Federal Credit Union                            295,000    New York    NY
 UNITEHERE Federal Credit Union
                                                                   57,000    New York    NY
 (Workers United Federal Credit Union)
 Source: Treasury, “Use of Capital Survey,” 2010, 2011, 2012.



    Despite this red flag, surprisingly Treasury has failed to enforce its contract and
the requirement that all CDCI banks and credit unions report on their use of TARP
funds, which likely has contributed to less and less compliance each year. Eight
institutions have never responded to the survey. While 59 institutions have failed
to respond to the survey at least once, 25 of those have failed to respond for two of
the three years. The number of CDCI institutions that have met this contractual
requirement of reporting annual use of TARP funds has decreased dramatically
from year to year. For the year 2010 survey, 14 of the 84 CDCI recipients failed
to report to Treasury on their use of TARP funds.718 For 2011, 22 of the 84 CDCI
recipients failed to report to Treasury on their use of TARP funds.719 For 2012,
the most recent annual data available, 67% (56) of the 84 recipients that had
outstanding TARP funds at any point during that year failed to report to Treasury
on their use of TARP funds.720
    Simply put, the American people have a right to know how tax dollars are
being spent. Without reporting on the use of TARP funds, Treasury, SIGTARP,
and taxpayers are left in the dark, deprived of the transparency required by the
terms of CDCI participation. Requiring institutions to report on their use of TARP
funds is fundamental to making TARP transparent to the public. In addition,
Treasury does not have access to important information that could provide
insight into the financial stability of these TARP institutions. Prior disclosures by
CDCI banks and credit unions shed light on TARP fund use and have provided
important information related to charge-offs, capital, new investments, and other
performance measures.
    The annual use of funds surveys are also a source by which Treasury can gauge
whether the CDCI program is meeting its goals. It is critical to the oversight of
CDCI that Treasury is aware of how these institutions are using TARP funds and
whether the funds are being used to best promote the long-term financial stability
260   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             of these institutions and to support small businesses in the communities they serve.
                                             The White House announcement of CDCI entitled “President Obama Announces
                                             New Efforts to Improve Access to Credit for Small Businesses” stated that CDCI
                                             was a program to support small business lending. However, Treasury, when it gave
                                             the funds, did not require CDCI institutions to lend the TARP funds to small
                                             businesses. Even though Treasury did not restrict the use of TARP funds, it can
                                             use the results of the surveys to determine whether the goal of supporting small
                                             business lending has been met. However, in its survey to CDCI recipients, Treasury
                                             does not even ask about small business lending, instead asking about lending in
                                             general. To qualify for CDCI, an institution must have been certified by Treasury
                                             that at least 60% of its lending and other economic development activities are
                                             to underserved areas. However, Treasury should not assume that any increase in
                                             lending went to small businesses. Therefore, it is unclear how Treasury measures
                                             whether CDCI recipients actually increased small business lending.
                                                 SIGTARP’s review of the CDCI survey responses showed that while
                                             approximately two-thirds of the banks responded that they either increased lending
                                             in general or did not decrease lending as much as they would have without the
                                             TARP funds, nearly one-third (29%) of the banks/credit unions in CDCI either
                                             answered “no”, left blank the lending question, or ignored Treasury’s survey.
                                             This included banks that were initially in CPP and converted to CDCI, thereby
                                             obtaining the benefit of an immediate reduction in their dividend payment rate
                                             from 5% to 2% and the ability to keep that low 2% rate for eight years rather than
                                             five years. If those institutions did not use the funds to increase small business
                                             lending, then it is unclear what they did to earn the benefit of that dividend rate
                                             reduction.
                                                 Treasury’s ability to gauge the effectiveness of the CDCI program is hindered
                                             without information from those CDCI institutions that ignored Treasury’s survey.
                                             Moreover, it is unclear whether Treasury finds it acceptable to have nearly one-
                                             third of the CDCI recipients not reporting any increase in lending in general (or at
                                             least no decrease in lending). One of these CDCI participants for example, Carter
                                             Federal Credit Union in Louisiana, which received $6.3 million in TARP funding,
                                             reported no increase in lending, instead reporting, “the CDCI program allowed us
                                             to continue offering worthwhile dividends on our members’ share accounts without
                                             having to worry that additional asset growth might drag our Net Worth ratio below
                                             the 7.00% threshold.”
                                                 TARP recipients’ reporting on how they used TARP funds also helps identify
                                             potential fraud and wrong doing. SIGTARP could use information included in
                                             the use of funds surveys in criminal investigations. In one public example, after a
                                             SIGTARP investigation, Darryl Lane Woods, the former Chairman and President
                                             of Calvert Financial Corporation, was convicted for misleading SIGTARP in its
                                             February 2009 survey about his bank’s use of TARP funds. In January 2009, the
                                             bank received $1,037,000 though CPP. SIGTARP was able to uncover that the
                                             bank used $381,487 of TARP funds, days after receiving them, to purchase a
                                             luxury seaside condominium in Fort Myers, Florida. Because Treasury had not
                                             included any restrictions on the use of TARP funds in the contract, this use of
                                                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   261




TARP funds was not prohibited. However, one week later, Woods signed a letter
responding to SIGTARP’s “use of funds” survey failing to disclose the purchase of
the condominium. As part of his plea agreement, Woods admitted that he failed to
disclose to SIGTARP that a significant portion of TARP funds had been used to
purchase the condominium.



CDCI INSTITUTIONS THAT MISSED TARP
DIVIDENDS AND INTEREST PAYMENTS
Treasury also has access to another piece of information that would shed some
light on the financial stability of CDCI institutions, which is whether those
institutions are paying timely dividend payments to Treasury, and if not, the reason
why payments were missed.721,ii Given that a 2% dividend rate (some pay 3.1%) is
very low, the fact that a bank or credit union missed paying the Treasury dividend
can provide important insight into their health. This is particularly true if multiple
payments are missed. As of March 31, 2014, two institutions had non-current
unpaid dividends or interest payments to Treasury totaling $200,300.722 Table 3.9
lists the institutions that have ever missed payments to Treasury and those that
were not current as of March 31, 2014.

TABLE 3.9
 CDCI-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2014
                                                                              Number                   Unpaid            Non-Current
                                            Dividend or                      of Missed             Dividends/             Dividends/
 Institution                                Payment Type                     Payments                 Interest               Interest
 PGB Holdings, Inc.                         Cumulative                                  12           $180,000              $180,000
 Premier Bancorp, Inc.*                     Interest                                      6            316,624                    —
 Community Bank of The
                                            Non-Cumulative                                1              20,300               20,300
 Bay
 Tri-State Bank of Memphis                  Non-Cumulative                              —a               55,900                   —
 Carver Bancorp, Inc.                       Cumulative                                  —  a
                                                                                                       284,700                    —
 First American International
                                            Cumulative                                  —a             765,000                    —
 Corp.
 First Vernon Bancshares,
                                            Cumulative                                  —a             343,475                    —
 Inc.
 Neighborhood Trust                         Credit Union
                                                                                        —a                 4,245                  —
 Federal Credit Union                       Interest
 UNITEHERE Federal Credit
                                            Credit Union
 Union (Workers United                                                                  —a                    570                 —
                                            Interest
 Federal Credit Union)
 Notes: Numbers may not total due to rounding.
 * On 3/23/2012, the subsidiary bank of Premier Bancorp, Inc. failed.

 a
     Institution later became current in accrued and unpaid dividends after missing initial scheduled payment date(s).

 Source: Treasury, Dividends and Interest Report, 4/10/2014.



ii As of March 31, 2014, Treasury has received $38.3 million in dividends and interest from CDCI recipients.
262   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 In its TARP contracts with CPP and CDCI recipients, Treasury created a
                                             right to appoint up to two directors to the boards of those institutions that miss
                                             a required number of quarterly dividend payments (six for CPP and eight for
                                             CDCI). Treasury-appointed directors have value in their independence, and their
                                             experience helps them provide effective internal oversight and a contribution to
                                             CDCI institutions that face challenges with their condition, health, or existing
                                             board. In addition, a Treasury-appointed director’s experience and expertise could
                                             also help detect any potential mismanagement or fraud.
                                                 On September 30, 2013, SIGTARP expressed concern and recommended
                                             to Treasury that Treasury enforce its important right to appoint directors to the
                                             boards of CPP and CDCI institutions. For example, although PGB Holdings, Inc.
                                             has missed more than eight TARP dividend payments, triggering Treasury’s right
                                             to appoint up to two directors to its board, Treasury has not enforced that right.723
                                             PGB was a CPP bank that got the benefit of reducing its CPP dividend rate from
                                             5% to 2% when it converted to CDCI, but now it has missed 12 of those payments.
                                             As explained in Section 5 of this report, Treasury has made some progress in
                                             implementing SIGTARP’s recommendation for CPP banks. It should continue to
                                             do so for CDCI recipients as well.
                                                 Treasury can also have a significant impact just by making it clear that it intends
                                             to enforce these rights. Treasury’s policy is to have a Treasury employee observe
                                             the board meetings of CDCI recipients that have missed five dividend payments.
                                             Attendance at the board meetings can provide a wealth of information to Treasury
                                             on the financial stability of the CDCI institutions. Treasury made a request to
                                             send an observer to the board meetings of CDCI-participant First American
                                             International Corp. in February 2013. The bank rejected Treasury’s request, but
                                             subsequently paid the missing dividends.724 Treasury has only sent an observer to
                                             the board meetings of one CDCI bank, First Vernon Bancshares Inc., and since
                                             doing that, First Vernon paid the delinquent dividends. However, CDCI participant
                                             Premier Bank failed on March 23, 2012. Despite the fact that at the time of its
                                             failure Premier Bank had already missed six TARP dividend payments, Treasury
                                             had not made a request to place a Treasury observer at its board meetings. Treasury
                                             also never placed a Treasury official to observe PGB’s board meetings despite the
                                             bank missing 12 Treasury dividend payments.
SECT IO N 4
              TARP OPERATIONS AND
              ADMINISTRATION
264   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   265




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the
operational and administrative mechanisms to carry out the Troubled Asset Relief
Program (“TARP”). EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”). OFS is responsible for
administering TARP.725 Treasury has authority to establish program vehicles, issue
regulations, directly hire or appoint employees, enter into contracts, and designate
financial institutions as financial agents of the Government.726 In addition to using
permanent and interim staff, OFS relies on contractors and financial agents for
legal services, investment consulting, accounting, and other key services.




TARP ADMINISTRATIVE AND PROGRAM OPERATING
EXPENDITURES
As of March 31, 2014, Treasury has obligated $408.9 million for TARP
administrative costs and $1.2 billion in programmatic operating expenditures for a
total of $1.6 billion since the beginning of TARP. Of that, $192.3 million has been
obligated in the year since March 31, 2013. According to Treasury, as of March 31,
2014, it had spent $357.7 million on TARP administrative costs and $1 billion on
programmatic operating expenditures, for a total of $1.4 billion since the beginning
of TARP. Of that, $221.2 million has been spent in the year since March 31,
2013.727
    Much of the work on TARP is performed by private vendors rather than
Government employees. Treasury reported that as of March 31, 2014, it employs
38 career civil servants, 61 term appointees, and 22 reimbursable detailees, for a
total of 121 full-time employees.728 Between TARP’s inception in 2008 and March
31, 2014, Treasury had retained 156 private vendors — 21 financial agents and
135 contractors — to help administer TARP.729 According to Treasury, as of March
31, 2014, 57 private vendors were active — 10 financial agents and 47 contractors,
some with multiple contracts.730 The number of private-sector staffers who provide
services under these agreements dwarfs the number of people working for OFS.
According to Fannie Mae and Freddie Mac, as of December 31, 2013, together
they had about 555 people dedicated to working on their TARP contracts.731
According to Treasury, as of December 31, 2013, or March 31, 2014 — the latest
numbers available vary due to reporting cycles — at least another 186 people were
working on other active OFS contracts, including financial agent and legal services
contracts, for a total of approximately 741 private-sector employees working on
TARP.732
    Table 4.1 provides a summary of the expenditures and obligations for TARP
administrative and programmatic operating costs through March 31, 2014. The
administrative costs are categorized as “personnel services” and “non-personnel
services.” Table 4.2 provides a summary of OFS service contracts, which include
266   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             costs to hire financial agents and contractors, and obligations through March 31,
                                             2014, excluding costs and obligations related to personnel services, travel, and
                                             transportation.

                                             TABLE 4.1
                                              TARP ADMINISTRATIVE AND PROGRAMMATIC OBLIGATIONS AND
                                              EXPENDITURES
                                                                                                              Obligations for Period Expenditures for Period
                                              Budget Object Class Title                                         Ending 3/31/2014         Ending 3/31/2014
                                              Administrative                                                                                                                        
                                                  Personnel Services                                                                                                                
                                                      Personnel Compensation & Benefits                                   $127,590,590                          $127,525,796
                                                  Total Personnel Services                                              $127,590,590                           $127,525,796
                                               
                                                  Non-Personnel Services
                                                      Travel & Transportation of Persons                                      $2,442,392                            $2,417,836
                                                      Transportation of Things                                                      11,960                                 11,960
                                                      Rents, Communications, Utilities &
                                                                                                                                  787,371                                712,609
                                                      Misc. Charges
                                                      Printing & Reproduction                                                            459                                   459
                                                      Other Services                                                        275,991,797                           224,943,190
                                                      Supplies & Materials                                                     1,849,236                              1,845,051
                                                      Equipment                                                                   253,286                                243,907
                                                      Land & Structures                                                                    —                                      —
                                                      Insurance Claims & Indemnities                                                       —                                      —
                                                      Dividends and Interest                                                             634                                   634
                                                  Total Non-Personnel Services                                          $281,337,135                           $230,175,646
                                              Total Administrative                                                      $408,927,135                           $357,701,441
                                              Programmatic                                                           $1,167,640,211                         $1,026,613,256
                                              Total Administrative and Programmatic                                  $1,576,567,936                         $1,384,314,697
                                              Notes: Numbers may not total due to rounding. The cost associated with “Other Services” under TARP Administrative Expenditures
                                              and Obligations are composed of administrative services including financial, administrative, IT, and legal (non-programmatic) support.
                                              Amounts are cumulative since the beginning of TARP.

                                              Source: Treasury, responses to SIGTARP data call, 4/9/2014 and 4/15/2014.




                                             FINANCIAL AGENTS
                                             EESA requires SIGTARP to provide biographical information for each person or
                                             entity hired to manage assets acquired through TARP.733 Treasury hired no new
                                             financial agents in the quarter ended March 31, 2014.734
                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014             267




TABLE 4.2
 OFS SERVICE CONTRACTS
                                                                                    Type of
 Date         Vendor                           Purpose                              Transaction          Obligated Value        Expended Value
              Simpson Thacher & Bartlett MNP   Legal services for the
 10/10/2008                                                                         Contract                   $931,165                $931,165
              LLP                              implementation of TARP
 10/11/2008   Ennis Knupp & Associates Inc.1   Investment and Advisory Services     Contract                   2,635,827              2,635,827
              The Bank of New York Mellon
 10/14/2008                                    Custodian                            FAA Listing              59,496,769              56,157,931
              Corporation
 10/16/2008   PricewaterhouseCoopers, LLP      Internal control services            Contract                 34,980,857              33,505,992
                                               For process mapping consultant       Interagency
 10/17/2008   Turner Consulting Group, Inc.2                                                                       9,000                       —
                                               services                             Agreement
 10/18/2008   Ernst & Young LLP                Accounting Services                  Contract                 14,550,519              13,640,626
                                               Legal services for the Capital
 10/29/2008   Hughes Hubbard & Reed LLP                                             Contract                   3,060,921              2,835,357
                                               Purchase Program
                                               Legal services for the Capital
 10/29/2008   Squire Sanders & Dempsey LLP                                          Contract                   2,687,999              2,687,999
                                               Purchase Program
 10/31/2008   Lindholm & Associates, Inc.      Human resources services             Contract                    614,963                   614,963
              Sonnenschein Nath & Rosenthal    Legal services related to auto
 11/7/2008                                                                          Contract                   2,702,441              2,702,441
              LLP4                             industry loans
                                                                                    Interagency
 11/9/2008    Internal Revenue Service         Detailees                                                          97,239                   97,239
                                                                                    Agreement
                                                                                    Interagency
 11/17/2008   Internal Revenue Service         CSC Systems & Solutions LLC2                                        8,095                    8,095
                                                                                    Agreement
              Department of the Treasury —                                          Interagency
 11/25/2008                                    Administrative Support                                        16,512,820              16,131,121
              Departmental Offices                                                  Agreement
              Trade and Tax Bureau —           IAA — TTB Development, Mgmt &        Interagency
 12/3/2008                                                                                                        67,489                   67,489
              Treasury                         Operation of SharePoint              Agreement
                                                                                    Interagency
 12/5/2008    Washington Post3                 Subscription                                                          395                       —
                                                                                    Agreement
              Sonnenschein Nath & Rosenthal    Legal services for the purchase of
 12/10/2008                                                                         Contract                    119,771                   119,771
              LLP4                             asset-backed securities
                                               Admin action to correct system
 12/10/2008   Thacher Proffitt & Wood4                                              Contract                          —                        —
                                               issue
                                                                                    Interagency
 12/15/2008   Office of Thrift Supervision     Detailees                                                        225,547                   164,823
                                                                                    Agreement
              Department of Housing and                                             Interagency
 12/16/2008                                    Detailees                                                              —                        —
              Urban Development                                                     Agreement
                                                                                    Interagency
 12/22/2008   Office of Thrift Supervision     Detailees                                                              —                        —
                                                                                    Agreement
              Cushman and Wakefield of VA
 12/24/2008                                    Painting Services for TARP Offices   Contract                       8,841                    8,841
              Inc.
                                                                                                                           Continued on next page
268          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS           (CONTINUED)

                                                                                           Type of
      Date         Vendor                             Purpose                              Transaction   Obligated Value        Expended Value
                   Securities and Exchange                                                 Interagency
      1/6/2009                                        Detailees                                                 $30,416                 $30,416
                   Commission                                                              Agreement
      1/7/2009     Colonial Parking Inc.              Lease of parking spaces              Contract             347,634                 244,017
                   Cadwalader Wickersham & Taft
      1/27/2009                                       Bankruptcy Legal Services            Contract             409,955                 409,955
                   LLP
                   Whitaker Brothers Bus Machines
      1/27/2009                                       Paper Shredder                       Contract               3,213                    3,213
                   Inc.
                   Office of the Comptroller of the                                        Interagency
      1/30/2009                                       Detailees                                                 501,118                 501,118
                   Currency                                                                Agreement
                                                      IAA — GAO required by P.L. 110-
                                                                                           Interagency
      2/2/2009     Government Accountability Office   343 to conduct certain activities                       7,459,049               7,459,049
                                                                                           Agreement
                                                      related to TARP IAA
                                                                                           Interagency
      2/3/2009     Internal Revenue Service2          Detailees                                                 242,499                 242,499
                                                                                           Agreement
                                                      Temporary Services for Document
      2/9/2009     Pat Taylor & Associates, Inc.      Production, FOIA assistance, and     Contract             692,108                 692,108
                                                      Program Support
                                                      Initiate Interim Legal Services in
      2/12/2009    Locke Lord Bissell & Liddell LLP   support of Treasury Investments      Contract             272,225                 272,225
                                                      under EESA
                                                      Homeownership Preservation           Financial
      2/18/2009    Fannie Mae                                                                               479,012,013             430,562,781
                                                      Program                              Agent
                                                      Homeownership Preservation           Financial
      2/18/2009    Freddie Mac                                                                              347,825,041             297,642,225
                                                      Program                              Agent
                                                                                           Interagency
      2/20/2009    Financial Clerk U.S. Senate        Congressional Oversight Panel                           3,394,348               3,394,348
                                                                                           Agreement
                                                                                           Interagency
      2/20/2009    Office of Thrift Supervision       Detailees                                                 203,390                 189,533
                                                                                           Agreement
                   Simpson Thacher & Bartlett MNP
      2/20/2009                                       Capital Assistance Program (I)       Contract           1,530,023               1,530,023
                   LLP
                                                      Capital Assistance Program (II)
      2/20/2009    Venable LLP                                                             Contract           1,394,724               1,394,724
                                                      Legal Services
                   Securities and Exchange                                                 Interagency
      2/26/2009                                       Detailees                                                  18,531                  18,531
                   Commission                                                              Agreement
                   Pension Benefit Guaranty                                                Interagency
      2/27/2009                                       Rothschild, Inc.                                        7,750,000               7,750,000
                   Corporation                                                             Agreement
                   The Boston Consulting Group        Management Consulting relating to
      3/6/2009                                                                             Contract             991,169                 991,169
                   Inc.                               the Auto industry
                                                      Small Business Assistance            Financial
      3/16/2009    Earnest Partners                                                                           2,947,780               2,947,780
                                                      Program                              Agent
                                                      SBA Initiative Legal Services —
      3/30/2009    Bingham McCutchen LLP5             Contract Novated from TOFS-          Contract             295,724                 143,893
                                                      09-D-0005 with McKee Nelson
                   Cadwalader Wickersham & Taft
      3/30/2009                                       Auto Investment Legal Services       Contract          17,392,800              17,392,800
                   LLP
      3/30/2009    Haynes and Boone, LLP              Auto Investment Legal Services       Contract             345,746                 345,746
                                                                                                                           Continued on next page
                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014             269




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                    Type of
Date        Vendor                             Purpose                              Transaction          Obligated Value        Expended Value
                                               SBA Initiative Legal Services
                                               — Contract Novated to TOFS-
3/30/2009   McKee Nelson LLP5                                                       Contract                   $126,631                $126,631
                                               10-D-0001 with Bingham
                                               McCutchen LLP
            Sonnenschein Nath & Rosenthal
3/30/2009                                      Auto Investment Legal Services       Contract                   1,834,193              1,834,193
            LLP4
                                               Credit Reform Modeling and
3/31/2009   FI Consulting Inc.                                                      Contract                   4,817,759              3,979,667
                                               Analysis
                                                                                    Interagency
4/3/2009    American Furniture Rentals Inc.3   Furniture Rental 1801                                              35,190                   25,812
                                                                                    Agreement
            The Boston Consulting Group        Management Consulting relating to
4/3/2009                                                                            Contract                   4,100,195              4,099,923
            Inc.                               the Auto industry
                                                                                    Interagency
4/17/2009   Bureau of Engraving and Printing   Detailee for PTR Support                                           45,822                   45,822
                                                                                    Agreement
4/17/2009   Herman Miller Inc.                 Aeron Chairs                         Contract                      53,799                   53,799
                                                                                    Financial
4/21/2009   AllianceBernstein LP               Asset Management Services                                     50,180,673              48,952,777
                                                                                    Agent
                                                                                    Financial
4/21/2009   FSI Group, LLC                     Asset Management Services                                     27,569,450              27,438,003
                                                                                    Agent
            Piedmont Investment Advisors,                                           Financial
4/21/2009                                      Asset Management Services                                     12,961,866              12,912,419
            LLC                                                                     Agent
                                                                                    Interagency
4/30/2009   State Department                   Detailees                                                              —                        —
                                                                                    Agreement
                                                                                    Interagency
5/5/2009    Federal Reserve Board              Detailees                                                          48,422                   48,422
                                                                                    Agreement
            Department of the Treasury —       “Making Home Affordable” Logo        Interagency
5/13/2009                                                                                                            325                     325
            U.S. Mint                          search                               Agreement
                                               Executive Search and recruiting
5/14/2009   Knowledgebank Inc.2                Services — Chief Homeownership       Contract                    124,340                   124,340
                                               Officer
                                               Freedom of Information Act (FOIA)
                                               Analysts to support the Disclosure
5/15/2009   Phacil Inc.                                                             Contract                      90,304                   90,304
                                               Services, Privacy and Treasury
                                               Records
            Securities and Exchange                                                 Interagency
5/20/2009                                      Detailees                                                        430,000                   430,000
            Commission                                                              Agreement
                                                                                    Interagency
5/22/2009   Department of Justice — ATF        Detailees                                                        243,778                   243,772
                                                                                    Agreement
                                               Legal services for work under
5/26/2009   Anderson, McCoy & Orta             Treasury’s Public-Private            Contract                   2,287,423              2,287,423
                                               Investment Funds (PPIF) program
                                               Legal services for work under
            Simpson Thacher & Bartlett MNP
5/26/2009                                      Treasury’s Public-Private            Contract                   7,849,026              3,526,454
            LLP
                                               Investment Funds (PPIF) program
                                                                                    Interagency
6/9/2009    Gartner, Inc.                      Financial Management Services                                      89,436                   89,436
                                                                                    Agreement
                                               Federal Consulting Group             Interagency
6/29/2009   Department of the Interior                                                                            49,000                   49,000
                                               (Foresee)                            Agreement
                                                                                                                           Continued on next page
270          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS           (CONTINUED)

                                                                                        Type of
      Date         Vendor                            Purpose                            Transaction     Obligated Value        Expended Value
      7/8/2009     Judicial Watch6                   Litigation Settlement              Other Listing           $1,500                  $1,500
                                                     Executive search services for
      7/17/2009    Korn/Ferry International          the OFS Chief Investment Officer   Contract                74,023                  74,023
                                                     position
                   Cadwalader Wickersham & Taft
      7/30/2009                                      Restructuring Legal Services       Contract             1,278,696               1,278,696
                   LLP
      7/30/2009    Debevoise & Plimpton LLP          Restructuring Legal Services       Contract                 1,650                    1,650
                   Fox, Hefter, Swibel, Levin &
      7/30/2009                                      Restructuring Legal Services       Contract                26,493                  26,493
                   Carol, LLP
                                                                                        Interagency
      8/10/2009    Department of Justice             Detailees                                                  63,109                  54,679
                                                                                        Agreement
                   National Aeronautics and Space                                       Interagency
      8/10/2009                                      Detailees                                                 140,889                 140,889
                   Administration (NASA)                                                Agreement
                                                     Executive Compensation Data
      8/18/2009    Mercer (US) Inc.                                                     Contract                 3,000                    3,000
                                                     Subscription
                                                                                        Interagency
      8/25/2009    Department of Justice             Detailees                                                  63,248                  63,248
                                                                                        Agreement
      9/2/2009     Knowledge Mosaic Inc.             SEC filings subscription service   Contract                 5,000                    5,000
                                                     Executive Compensation Data
      9/10/2009    Equilar, Inc.                                                        Contract                59,990                  59,990
                                                     Subscription
      9/11/2009    PricewaterhouseCoopers, LLP       PPIP compliance                    Contract             3,647,526               3,559,089
                                                                                        Interagency
      9/18/2009    Treasury Franchise Fund — BPD     Administrative Support                                    436,054                 436,054
                                                                                        Agreement
      9/28/2009    Judicial Watch6                   Litigation Settlement              Other Listing            2,146                    2,146
                                                                                        Interagency
      9/30/2009    Immixtechnology Inc.3             EnCase eDiscovery ProSuite                                210,184                       —
                                                                                        Agreement
                                                                                        Interagency
      9/30/2009    Immixtechnology Inc.3             Guidance Inc.                                             108,000                       —
                                                                                        Agreement
      9/30/2009    NNA INC.                          Newspaper Delivery                 Contract                 8,220                    8,220
                                                     SNL Unlimited, a web-based
      9/30/2009    SNL Financial LC                                                     Contract               460,000                 460,000
                                                     financial analytics service
                   Department of the Treasury —                                         Interagency
      11/9/2009                                      Administrative Support                                 18,239,373              17,772,584
                   Departmental Offices                                                 Agreement
                                                                                        Interagency
      12/16/2009   Internal Revenue Service          Detailees                                                      —                        —
                                                                                        Agreement
                                                                                        Financial
      12/22/2009   Avondale Investments, LLC         Asset Management Services                                 772,657                 772,657
                                                                                        Agent
                                                                                        Financial
      12/22/2009   Bell Rock Capital, LLC            Asset Management Services                               2,839,498               2,818,929
                                                                                        Agent
                                                     Document Production services and
      12/22/2009   Hughes Hubbard & Reed LLP                                            Contract             1,653,289                 869,755
                                                     Litigation Support
                                                                                        Financial
      12/22/2009   KBW Asset Management, Inc.        Asset Management Services                               4,937,433               4,937,433
                                                                                        Agent
                                                                                        Financial
      12/22/2009   Lombardia Capital Partners, LLC   Asset Management Services                               3,217,866               3,217,866
                                                                                        Agent
                   Paradigm Asset Management                                            Financial
      12/22/2009                                     Asset Management Services                               4,260,808               4,227,758
                   Co., LLC                                                             Agent
                                                                                                                          Continued on next page
                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014             271




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                    Type of
Date         Vendor                             Purpose                             Transaction          Obligated Value        Expended Value
             Raymond James (f/k/a Howe                                              Financial
12/22/2009                                      Asset Management Services                                      $432,068                $432,068
             Barnes Hoefer & Arnett, Inc.)                                          Agent
             Howe Barnes Hoefer & Arnett,
12/23/2009                                      Asset Management Services           FAA Listing                3,124,094              3,124,094
             Inc.
                                                IAA — GAO required by P.L.110-
                                                                                    Interagency
1/14/2010    Government Accountability Office   343 to conduct certain activities                              7,304,722              7,304,722
                                                                                    Agreement
                                                related to TARP
             Association of Government
1/15/2010                                       CEAR Program Application            Contract                       5,000                    5,000
             Accountants
                                                                                    Interagency
2/16/2010    Internal Revenue Service           Detailees                                                         52,742                   52,742
                                                                                    Agreement
                                                FNMA IR2 assessment — OFS
2/16/2010    The MITRE Corporation              task order on Treasury MITRE        Contract                    730,192                   730,192
                                                Contract
                                                                                    Interagency
2/18/2010    Treasury Franchise Fund — BPD      Administrative Support                                         1,221,140              1,221,140
                                                                                    Agreement
3/8/2010     Qualx Corporation                  FOIA Support Services               Contract                    549,518                   549,518
             Department of the Treasury —                                           Interagency
3/12/2010                                       Administrative Support                                          671,731                   671,731
             Departmental Offices                                                   Agreement
                                                                                    Interagency
3/22/2010    Gartner, Inc.                      Financial Management Services                                     73,750                   73,750
                                                                                    Agreement
             Federal Maritime Commission                                            Interagency
3/26/2010                                       Detailees                                                       158,600                   158,600
             (FMC)                                                                  Agreement
             Morgan Stanley & Co.                                                   Financial
3/29/2010                                       Disposition Agent Services                                   16,685,290              16,685,290
             Incorporated                                                           Agent
                                                                                    Interagency
4/2/2010     Financial Clerk U.S. Senate        Congressional Oversight Panel                                  4,797,556              4,797,556
                                                                                    Agreement
4/8/2010     Squire Sanders & Dempsey LLP       Housing Legal Services              Contract                   1,229,350                  918,224
4/12/2010    Hewitt EnnisKnupp, Inc.  1
                                                Investment Consulting Services      Contract                   5,468,948              4,458,789
                                                Data and Document Management
4/22/2010    Digital Management Inc.                                                Contract                          —                        —
                                                Consulting Services
                                                Data and Document Management
4/22/2010    MicroLink LLC                                                          Contract                 17,260,533              14,828,510
                                                Consulting Services
                                                Data and Document Management
4/23/2010    RDA Corporation                                                        Contract                   8,799,246              8,075,082
                                                Consulting Services
                                                                                    Interagency
5/4/2010     Internal Revenue Service           Detailees                                                          1,320                    1,320
                                                                                    Agreement
                                                                                    Financial
5/17/2010    Lazard Fréres & Co. LLC            Transaction Structuring Services                             14,222,312              14,222,312
                                                                                    Agent
             Reed Elsevier Inc (dba             Accurint subscription service for
6/24/2010                                                                           Contract                       8,208                    8,208
             LexisNexis)                        one year — 4 users
                                                Financial Institution Management
             The George Washington
6/30/2010                                       & Modeling — Training course        Contract                       5,000                    5,000
             University
                                                (J.Talley)
                                                Program Compliance Support
7/21/2010    Navigant Consulting Inc.                                               Contract                   3,774,673                  990,689
                                                Services
                                                Program Compliance Support
7/21/2010    Regis & Associates PC                                                  Contract                   1,933,557              1,187,248
                                                Services
                                                                                                                           Continued on next page
272          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                          Type of
      Date         Vendor                            Purpose                              Transaction   Obligated Value        Expended Value
                                                     Program Compliance Support
      7/22/2010    Ernst & Young LLP                                                      Contract          $9,221,175              $5,488,418
                                                     Services
                                                     Program Compliance Support
      7/22/2010    PricewaterhouseCoopers, LLP                                            Contract                  —                        —
                                                     Services
      7/22/2010    Schiff Hardin LLP                 Housing Legal Services               Contract              97,526                  97,526
      7/27/2010    West Publishing Corporation       Subscription Service for 4 users     Contract               6,664                    6,664
                                                     Omnibus procurement for legal
      8/6/2010     Alston & Bird LLP                                                      Contract             232,482                 232,482
                                                     services
                   Cadwalader Wickersham & Taft      Omnibus procurement for legal
      8/6/2010                                                                            Contract           7,046,853               3,611,991
                   LLP                               services
                   Fox, Hefter, Swibel, Levin &      Omnibus procurement for legal
      8/6/2010                                                                            Contract             227,415                 150,412
                   Carol, LLP                        services
                                                     Omnibus procurement for legal
      8/6/2010     Haynes and Boone, LLP                                                  Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Hughes Hubbard & Reed LLP                                              Contract           2,446,277               1,315,510
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Love & Long LLP                                                        Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Orrick Herrington Sutcliffe LLP                                        Contract                  —                        —
                                                     services
                   Paul, Weiss, Rifkind, Wharton &   Omnibus procurement for legal
      8/6/2010                                                                            Contract          12,743,975               6,661,619
                   Garrison LLP                      services
                                                     Omnibus procurement for legal
      8/6/2010     Perkins Coie LLP                                                       Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Seyfarth Shaw LLP                                                      Contract                  —                        —
                                                     services
                   Shulman, Rogers, Gandal, Pordy    Omnibus procurement for legal
      8/6/2010                                                                            Contract             367,641                 213,347
                   & Ecker, PA                       services
                   Sullivan Cove Reign Enterprises   Omnibus procurement for legal
      8/6/2010                                                                            Contract                  —                        —
                   JV                                services
                                                     Omnibus procurement for legal
      8/6/2010     Venable LLP                                                            Contract             498,290                    1,150
                                                     services
      8/12/2010    Knowledge Mosaic Inc.             SEC filings subscription service     Contract               5,000                    5,000
                   Department of Housing and                                              Interagency
      8/30/2010                                      Detailees                                                  29,915                       —
                   Urban Development                                                      Agreement
                                                     One-year subscription (3 users) to
                                                     the CQ Today Breaking News &
      9/1/2010     CQ-Roll Call Inc.                 Schedules, CQ Congressional &        Contract               7,500                    7,500
                                                     Financial Transcripts, CQ Custom
                                                     Email Alerts
                                                     SBA 7(a) Security Purchase
      9/17/2010    Bingham McCutchen LLP5                                                 Contract              11,177                  11,177
                                                     Program
                                                     Program Operations Support
                                                     Services to include project
      9/27/2010    Davis Audrey Robinette            management, scanning and             Contract           4,482,164               3,611,521
                                                     document management and
                                                     correspondence
                                                                                                                          Continued on next page
                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014             273




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                     Type of
Date         Vendor                             Purpose                              Transaction          Obligated Value        Expended Value
                                                GSA Task Order for procurement
                                                books — FAR, T&M, Government
9/30/2010    CCH Incorporated                                                        Contract                      $2,430                  $2,430
                                                Contracts Reference, World Class
                                                Contracting
                                                                                     Interagency
10/1/2010    Financial Clerk U.S. Senate        Congressional Oversight Panel                                   5,200,000              2,777,752
                                                                                     Agreement
10/8/2010    Management Concepts Inc.           Training Course — CON 217            Contract                       1,025                   1,025
10/8/2010    Management Concepts Inc.           Training Course — CON 216            Contract                       1,025                   1,025
10/8/2010    Management Concepts Inc.           Training Course — CON 218            Contract                       2,214                   2,214
10/8/2010    Management Concepts Inc.           Training Course — 11107705           Contract                         995                     995
10/8/2010    Management Concepts Inc.           Training Course — Analytic Boot      Contract                       1,500                   1,500
10/8/2010    Management Concepts Inc.           Training Course — CON 218            Contract                       2,214                   2,214
10/8/2010    Management Concepts Inc.           Training Course — CON 217            Contract                       1,025                   1,025
10/8/2010    Management Concepts Inc.           Training Course — CON 218            Contract                       2,214                   2,214
             Hispanic Association of Colleges
10/14/2010                                      Detailees                            Contract                      12,975                  12,975
             & Universities
                                                IAA — GAO required by P.L. 110-
                                                                                     Interagency
10/26/2010   Government Accountability Office   343 to conduct certain activities                               5,600,000              3,738,195
                                                                                     Agreement
                                                related to TARP
                                                FNMA IR2 assessment — OFS
                                                task order on Treasury MITRE
11/8/2010    The MITRE Corporation              Contract for cost and data           Contract                   2,288,166              1,850,677
                                                validation services related to
                                                HAMP FA
                                                Structuring and Disposition          Financial
11/18/2010   Greenhill & Co., Inc.                                                                              6,139,167              6,139,167
                                                Services                             Agent
                                                Acquisition Support Services —
12/2/2010    Addx Corporation                   PSD TARP (action is an order         Contract                   1,311,314              1,299,002
                                                against BPA)
             Reed Elsevier Inc. (dba            Accurint subscription services one
12/29/2010                                                                           Contract                         684                     684
             LexisNexis)                        user
                                                                                     Interagency
1/5/2011     Canon U.S.A. Inc.                  Administrative Support                                             12,937                  12,013
                                                                                     Agreement
                                                Structuring and Disposition          Financial
1/18/2011    Perella Weinberg Partners & Co.                                                                    5,542,473              5,542,473
                                                Services                             Agent
                                                                                     Interagency
1/24/2011    Treasury Franchise Fund — BPD      Administrative Support                                          1,090,860              1,090,860
                                                                                     Agreement
             Association of Government
1/26/2011                                       CEAR Program Application             Contract                       5,000                   5,000
             Accountants
                                                Mentor Program Training (call
2/24/2011    ESI International Inc.                                                  Contract                      20,758                  20,758
                                                against IRS BPA)
             Department of the Treasury —                                            Interagency
2/28/2011                                       Administrative Support                                        13,523,880              13,001,815
             Departmental Offices                                                    Agreement
                                                Executive Compensation Data
3/3/2011     Equilar, Inc.                                                           Contract                      59,995                  59,995
                                                Subscription
                                                Executive Compensation Data
3/10/2011    Mercer (US) Inc.                                                        Contract                       7,425                   3,600
                                                Subscription
                                                                                                                            Continued on next page
274          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS              (CONTINUED)

                                                                                           Type of
      Date         Vendor                              Purpose                             Transaction   Obligated Value        Expended Value
      3/22/2011    Harrison Scott Publications Inc.    Subscription Service                Contract              $5,894                  $5,894
                                                                                           Interagency
      3/28/2011    Fox News Network LLC7               Litigation Settlement                                    121,000                 121,000
                                                                                           Agreement
                   Federal Reserve Bank of New                                             Interagency
      4/20/2011                                        Oversight Services                                     1,300,000               1,004,063
                   York (FRBNY) HR                                                         Agreement
      4/26/2011    PricewaterhouseCoopers, LLP         Financial Services Omnibus          Contract           5,805,636               4,707,096
      4/27/2011    ASR Analytics LLC                   Financial Services Omnibus          Contract           5,356,872               2,321,865
      4/27/2011    Ernst & Young LLP                   Financial Services Omnibus          Contract           1,756,616                 630,835
      4/27/2011    FI Consulting, Inc.                 Financial Services Omnibus          Contract           3,954,123               2,939,173
      4/27/2011    Lani Eko & Company CPAs LLC         Financial Services Omnibus          Contract              50,000                       —
      4/27/2011    MorganFranklin Corporation          Financial Services Omnibus          Contract           1,187,957                 454,848
      4/27/2011    Oculus Group, Inc.                  Financial Services Omnibus          Contract           3,643,643               2,446,801
      4/28/2011    Booz Allen Hamilton, Inc.           Financial Services Omnibus          Contract           1,034,953                  31,789
      4/28/2011    KPMG LLP                            Financial Services Omnibus          Contract              50,000                       —
                   Office of Personnel Management
                                                                                           Interagency
      4/28/2011    (OPM) — Western Management          Leadership Training                                       21,300                       —
                                                                                           Agreement
                   Development Center
                   Reed Elsevier Inc (dba              Accurint subscriptions by
      5/31/2011                                                                            Contract              10,262                  10,262
                   LexisNexis)                         LexisNexis for 5 users
                                                       Five (5) user subscriptions to
      5/31/2011    West Publishing Corporation         CLEAR by West Government            Contract               7,515                    7,515
                                                       Solutions
                                                       One year subscription to the
                                                       CQ Today Breaking News &
      6/9/2011     CQ-Roll Call Inc.                   Schedules, CQ Congressional &       Contract               7,753                    7,753
                                                       Financial Transcripts, CQ Custom
                                                       Email Alerts
                                                       Anti-Fraud Protection and
      6/17/2011    Winvale Group LLC                                                       Contract             711,698                 664,590
                                                       Monitoring Subscription Services
                   Department of the Treasury —                                            Interagency
      6/21/2011                                        Administrative Support                                   660,601                 660,601
                   Departmental Offices                                                    Agreement
                   Internal Revenue Service —                                              Interagency
      7/28/2011                                        Detailee                                                  84,234                  84,234
                   Procurement                                                             Agreement
                                                                                           Interagency
      9/9/2011     Financial Management Service        FMS — NAFEO                                               22,755                  22,755
                                                                                           Agreement
                                                       MHA Felony Certification
      9/12/2011    ADC LTD NM                                                              Contract             447,799                 339,489
                                                       Background Checks (BPA)
                   ABMI — All Business Machines,       4 Level 4 Security Shredders and
      9/15/2011                                                                            Contract               4,392                    4,392
                   Inc                                 Supplies
                                                       National Business Center, Federal   Interagency
      9/29/2011    Department of the Interior                                                                    78,000                  51,000
                                                       Consulting Group                    Agreement
                                                       Renewing TD010-F-249 SEC filings
      9/29/2011    Knowledge Mosaic Inc.                                                   Contract               4,200                    4,200
                                                       Subscription Service
                                                                                           Interagency
      10/4/2011    Internal Revenue Service            Detailees                                                168,578                  84,289
                                                                                           Agreement
                   ABMI — All Business Machines,       4 Level 4 Security Shredders and
      10/20/2011                                                                           Contract               4,827                    4,827
                   Inc.                                Supplies
                                                                                                                           Continued on next page
                                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014             275




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                        Type of
Date         Vendor                               Purpose                               Transaction          Obligated Value        Expended Value
11/3/2011    Judicial Watch6                      Litigation Settlement                 Other Listing                   $850                    $850
11/18/2011   Qualx Corporation                    FOIA Support Services                 Contract                      68,016                   68,016
                                                                                        Financial
11/29/2011   Houlihan Lokey, Inc.                 Transaction Structuring Services                               12,050,000              11,225,000
                                                                                        Agent
                                                  Pre-Program and Discovery
12/20/2011   The Allison Group LLC                                                      Contract                      19,065                   19,065
                                                  Process Team Building
                                                                                        Interagency
12/30/2011   Department of the Treasury           Administrative Support                                            901,433                   899,268
                                                                                        Agreement
             Department of the Treasury —                                               Interagency
12/30/2011                                        Administrative Support                                         15,098,746              10,127,276
             Departmental Offices                                                       Agreement
                                                  IAA — GAO required by P.L. 110-
                                                                                        Interagency
1/4/2012     Government Accountability Office     343 to conduct certain activities                                2,500,000              2,475,937
                                                                                        Agreement
                                                  related to TARP IAA
             Office of Personnel Management       Office of Personnel Management
                                                                                        Interagency
1/5/2012     (OPM) — Western Management           (OPM) — Western Management                                          31,088                       —
                                                                                        Agreement
             Development Center                   Development Center
                                                  ABS/MBS Data Subscription
2/2/2012     Moody’s Analytics Inc.                                                     Contract                   2,637,775              2,472,275
                                                  Services
                                                  Structuring and Disposition           Financial
2/7/2012     Greenhill & Co., LLC                                                                                  1,680,000              1,680,000
                                                  Services                              Agent
2/14/2012    Association of Govt Accountants      CEAR Program Application              Contract                       5,000                    5,000
2/27/2012    Diversified Search LLC               CPP Board Placement Services          Contract                    346,112                   296,112
3/6/2012     Integrated Federal Solutions, Inc.   TARP Acquisition Support (BPA)        Contract                   2,148,649              1,963,102
                                                  National Business Center, Federal     Interagency
3/14/2012    Department of Interior                                                                                   57,500                   57,500
                                                  Consulting Group                      Agreement
             Department of the Treasury —                                               Interagency
3/30/2012                                         Administrative Support                                           1,137,451              1,137,451
             Departmental Offices WCF                                                   Agreement
3/30/2012    E-Launch Multimedia, Inc.            Subscription Service                  Contract                          —                        —
                                                  Maintenance Agreement for Canon
4/2/2012     Cartridge Technology, Inc.                                                 Contract                      15,692                   14,384
                                                  ImageRunner
                                                  Executive Compensation Data
5/10/2012    Equilar Inc.                                                               Contract                      44,995                   44,995
                                                  Subscription
                                                                                        Interagency
6/12/2012    Department of Justice                Detailees                                                        1,737,884                  267,991
                                                                                        Agreement
6/15/2012    Qualx Corporation                    FOIA Support Services                 Contract                    104,112                   104,112
                                                  Subscription for Anti Fraud Unit to
6/30/2012    West Publishing Corporation                                                Contract                       8,660                    8,660
                                                  Perform Background Research
7/26/2012    Knowledge Mosaic Inc.                SEC filings subscription service      Contract                       4,750                    4,750
                                                                                        Interagency
8/1/2012     Internal Revenue Service             Training                                                             4,303                    4,303
                                                                                        Agreement
                                                  Subscription to Commercial
8/3/2012     Harrison Scott Publications Inc.                                           Contract                       3,897                    3,897
                                                  Mortgage Alert Online Service
                                                  Administrative Resource Center        Interagency
9/19/2012    Treasury Franchise Fund — BPD                                                                          826,803                   826,803
                                                  (ARC)                                 Agreement
                                                  Data Subscription Services for
9/28/2012    SNL Financial LC                     Financial, Regulatory, and Market     Contract                    180,000                   180,000
                                                  Data and Services
                                                                                                                               Continued on next page
276          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS           (CONTINUED)

                                                                                         Type of
      Date         Vendor                             Purpose                            Transaction   Obligated Value        Expended Value
                                                                                         Interagency
      11/19/2012   Government Accountability Office   Oversight services                                   $4,800,000              $3,155,093
                                                                                         Agreement
                   Association of Government
      12/13/2012                                      CEAR Program Application           Contract               5,000                    5,000
                   Accountants
                   Department of the Treasury —                                          Interagency
      12/19/2012                                      Administrative Support                               12,884,241              11,303,093
                   Departmental Offices                                                  Agreement
                                                                                         Financial
      1/1/2013     Lazard Fréres & Co. LLC            Asset Management Services                             2,708,333               2,708,333
                                                                                         Agent
                                                                                         Financial
      1/1/2013     Lazard Fréres & Co. LLC            Legal Advisory                                        6,750,000               5,625,000
                                                                                         Agent
                                                      Executive Compensation Data
      2/13/2013    Mercer (US) Inc.                                                      Contract               4,050                       —
                                                      Subscription
      2/14/2013    Neighborhood Investment Corp       Foreclosure Prevention under MHA   Contract          18,262,000               5,239,313
                   Department of the Treasury —                                          Interagency
      3/4/2013                                        Administrative Support                                1,159,268               1,159,268
                   Departmental Offices WCF                                              Agreement
                   Department of Housing and                                             Interagency
      3/7/2013                                        Research and Analysis Services                          499,348                 444,381
                   Urban Development                                                     Agreement
      3/26/2013    Bloomberg Finance L.P.             Subscription                       Contract               5,400                    5,400
                                                                                         Interagency
      3/28/2013    Treasury Acquisition Institute     Legal Advisory                                           21,000                       —
                                                                                         Agreement
                                                                                         Interagency
      5/1/2013     Internal Revenue Service           Legal Services                                           88,854                  88,854
                                                                                         Agreement
                                                      Executive Compensation Data
      5/10/2013    Equilar Inc.                                                          Contract              45,995                  45,995
                                                      Subscription
      6/13/2013    West Publishing Corporation        Subscription                       Contract               8,131                    8,131
      8/1/2013     Evolution Management Inc.          Outplacement Services for OFS      Contract              26,670                  24,420
      8/20/2013    Knowledge Mosaic Inc               SEC Filings subscription service   Contract               4,500                    4,500
                                                                                         Interagency
      8/27/2013    Bureau of Public Debt — ARC        Administrative Support                                       —                        —
                                                                                         Agreement
                                                                                         Interagency
      8/28/2013    Bureau of Public Debt — ARC        Administrative Support                                3,575,805                       —
                                                                                         Agreement
                                                                                         Interagency
      9/25/2013    Treasury Franchise Fund — BPD      Administrative Support                                   46,832                       —
                                                                                         Agreement
                                                      Financial Data Subscription
      9/26/2013    SNL Financial                      Services — Information             Contract             200,000                 200,000
                                                      Technology
                                                                                         Interagency
      9/27/2013    Treasury Franchise Fund — BPD      Administrative Support                                  644,988                 322,499
                                                                                         Agreement
                   Department of the Treasury —                                          Interagency
      11/22/2013                                      Administrative Support                                8,821,234               1,563,905
                   Departmental Offices                                                  Agreement
                                                                                         Interagency
      11/22/2013   Internal Revenue Service           Legal Services                                          107,185                    9,311
                                                                                         Agreement
                                                                                         Interagency
      11/25/2013   Treasury Franchise Fund — BPD      Administrative Support                                1,862,792                 931,394
                                                                                         Agreement
                   Association of Government
      12/12/2013                                      CEAR Program Application           Contract               5,000                    5,000
                   Accountants
                                                                                         Interagency
      12/16/2013   Department of Justice              Legal Services                                        1,459,000                       —
                                                                                         Agreement
                                                                                                                         Continued on next page
                                                                                                                               QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                                      277




OFS SERVICE CONTRACTS                        (CONTINUED)

                                                                                                                       Type of
Date                 Vendor                                          Purpose                                           Transaction                    Obligated Value                  Expended Value
                                                                                                                       Interagency
3/5/2014             Department of Justice                           Legal Services                                                                         $2,000,000                                    $—
                                                                                                                       Agreement
                     Department of the Treasury —                                                                      Interagency
3/12/2014                                                            Administrative Support                                                                   2,705,893                                     —
                     DO OCIO                                                                                           Agreement
                                                                     On-line Subscription Service
3/24/2014            Mercer (US) Inc.                                                                                  Contract                                      4,472                                  —
                                                                     Executive Compensation Data
Total                                                                                                                                               $1,470,801,740                    $1,274,448,629
Notes: Numbers may not total due to rounding. Table 4.2 includes all vendor contracts administered under Federal Acquisition Regulations, interagency agreements, and financial agency agreements
entered into in support of OFS since the beginning of the program. The table does not include salary, benefits, travel, and other non-contract related expenses. For some contracts, $0 is obligated if no task
orders have been awarded and so those contracts are not reflected in this table.
1
  EnnisKnupp Contract TOFS-10-D-0004, was novated to Hewitt EnnisKnupp (TOFS-10-D-0004).
2
  Awarded by other agencies on behalf of OFS and are not administered by PSD.
3
  Awarded by other branches within the PSD pursuant to a common Treasury service level and subject to a reimbursable agreement with OFS.
4
  Thacher Proffitt & Wood, Contract TOS09-014B, was novated to Sonnenschein Nath & Rosenthal (TOS09-014C).
5
  McKee Nelson Contract, TOFS-09-D-0005, was novated to Bingham McCutchen.
6
  Judicial Watch is a payment in response to a litigation claim. No contract or agreement was issued to Judicial Watch.
7
  Fox News Network LLC is a payment in response to a litigation claim. No contract or agreement was issued to Fox News Network LLC.

Source: Treasury, response to SIGTARP data call, 4/15/2014.
278   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
S ECT I O N 5   SIGTARP RECOMMENDATIONS
280   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   281




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations
to the U.S. Department of the Treasury (“Treasury”) and other Federal agencies
related to the Troubled Asset Relief Program (“TARP”) to facilitate transparency
and effective oversight and to prevent fraud, waste, and abuse. SIGTARP has made
130 recommendations in its quarterly reports to Congress and its audit reports.
This section discusses developments with respect to SIGTARP’s recommendations
and, in the table at the end of this section, summarizes all of SIGTARP’s
recommendations and notes the extent of implementation.




ADDITIONAL RECOMMENDATIONS REGARDING
HOMEOWNERS REDEFAULTING ON MODIFIED
MORTGAGES UNDER HAMP
SIGTARP is committed to ensuring TARP is efficient and effective. Indeed, this
is a critical function of an inspector general, along with the mission to prevent
fraud, waste, and abuse. SIGTARP has and continues to make recommendations
to Treasury concerning TARP for these reasons. For example, over the past year, we
raised concerns and made several recommendations to Treasury about the support
provided to homeowners through HAMP, TARP’s signature housing program.
    Not all homeowners are getting the sustainable relief Treasury promised
through HAMP. Although, as of March 31, 2014, HAMP has helped more
than 900,967 homeowners avoid foreclosure through sustainable permanent
modifications, another 376,804 homeowners fell three months behind in their
payments, thereby redefaulting, and prematurely falling out of the program as a
result. SIGTARP remains concerned that the level of redefaults has increased at an
alarming rate, leaving those homeowners more at risk of foreclosure.
    While Treasury has made progress in implementing SIGTARP’s April 2013
recommendation to analyze and determine the causes of HAMP redefaults,
homeowners in HAMP continue to struggle. In fact, since SIGTARP made that
recommendation, more than 80,000 homeowners have redefautled out of HAMP,
including 6,557 homeowners from the end of January 2014 to the end of February
2014.
    SIGTARP is concerned that homeowners who redefault out of HAMP may not
receive the full benefits of HAMP support paid for taxpayers. The TARP funds that
Treasury uses for HAMP are actually spent as incentive payments that Treasury
makes to mortgage servicers, investors, and homeowners. For example, to reward
homeowners for maintaining good standing in a HAMP permanent modification,
Treasury pays a “Pay-for-Performance Success Payment” of $1,000 (or less, in
certain circumstances) on the anniversary of the time the homeowner entered into
that modification. Treasury also pays the mortgage servicer an identical payment of
$1,000 in TARP funds on that anniversary (for up to three years).
282   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                  However, there is an imbalance between the amounts Treasury pays to servicers
                                             and investors compared to homeowners. As of December 31, 2013, whereas
                                             Treasury paid investors $3 billion and mortgage servicers $1.76 billion in TARP
                                             funds, homeowners had received only approximately $1 billion in TARP funds as
                                             incentive payments. In other words, of the $422.2 billion in TARP funds spent by
                                             Treasury, only $1 billion went to homeowners. Additionally, although Treasury has
                                             used TARP funds on several occasions to increase the amount of incentives paid
                                             to servicers (doubling the amount) and investors (tripling the amount), it has never
                                             increased homeowner HAMP incentives.
                                                  Moreover, the homeowner incentives in HAMP do not actually go directly or
                                             immediately to homeowners themselves. Rather, Treasury makes those incentive
                                             payments to the servicer, for the benefit of the homeowner, to be applied as a credit
                                             to reduce the principal balance owed on the mortgage.
                                                  Although HAMP’s incentive-based payment structure was apparently designed
                                             to help homeowners build equity faster, some struggling homeowners may not have
                                             the luxury of time. Instead, they need more immediate action to avoid redefaulting
                                             and losing their homes. HAMP’s incentives may not be immediately helping
                                             homeowners with HAMP permanent modifications in the short term stay current
                                             on their mortgage payments. In fact, as of March 31, 2014, taxpayers lost $1.2
                                             billion in TARP funds paid to servicers and investors for the 376,804 homeowners
                                             who later redefautled. In other words, in those instances, taxpayers’ HAMP money
                                             enriched mortgage servicers and investors, without helping homeowners.
                                                  As Treasury continues to explore the reasons why homeowners are redefaulting
                                             from HAMP, Treasury could provide more immediate relief to homeowners still
                                             struggling to make ends meet. Specifically, Treasury should increase the amount
                                             of incentive payments to homeowners and apply homeowners’ incentives to reduce
                                             their out-of-pocket costs.
                                                  While some homeowners who received TARP assistance through HAMP
                                             continue to struggle to stay in their homes, approximately 74% of the $22.7 billion
                                             in TARP funds Treasury set aside to spend on HAMP sits unused and unspent.
                                             Treasury should be equally willing to spend unused HAMP funds to increase the
                                             incentive payment to homeowners, providing more direct and immediate relief to
                                             try to curb redefaults. Treasury clearly has the resources to do so.
                                                  Additionally, Treasury could act now to try to curb redefaults by applying
                                             the homeowner incentive to the mortgage payment rather than the outstanding
                                             balance. As a result, Treasury could reduce homeowners’ out-of pocket costs in
                                             the short term. That may give some homeowners much-needed breathing room to
                                             remain current on their HAMP modification payments. Otherwise, the incentive
                                             payment goes to reducing the principal balance and only benefits the homeowner
                                             when the home is sold or refinanced, if foreclosure does not happen first.
                                                  To address the issue of redefaults by giving homeowners in HAMP additional
                                             incentives to stay in HAMP, and to address the imbalance of HAMP incentive
                                             payments, on April 7, 2014, SIGTARP recommended:
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   283




Treasury should increase the amount of the annual incentive payment paid
to each homeowner who remains in HAMP. Treasury should require the
mortgage servicer to apply the annual incentive payment earned by the
homeowner to reduce the amount of money that the homeowner must pay to
the servicer for the next month’s mortgage payment (or monthly payments if
the incentive exceeds the monthly mortgage payment), rather than to reduce
the outstanding principal balance of the mortgage.
    SIGTARP looks forward to continuing its work with Treasury on implementing
SIGTARP’s crucial recommendations concerning redefaults. As Treasury
continues its review into the causes of redefaults, Treasury should, as SIGTARP
recommended, take action to address whether and how servicers’ conduct may
contribute to redefaults. For example, Treasury should permanently withhold,
reduce, and/or claw back incentive payments to servicers who fail to perform at
acceptable levels in HAMP.




UPDATE ON RECOMMENDATIONS REGARDING
THE APPOINTING OF DIRECTORS TO THE BOARDS
OF CPP AND CDCI INSTITUTIONS
On September 30, 2013, SIGTARP expressed its concern to Treasury that Treasury
was not enforcing its contractual right to appoint directors to the boards of Capital
Purchase Program (“CPP”) and Community Development Capital Initiative
(“CDCI”) institutions. SIGTARP recommended that Treasury, instead, should
aggressively enforce its contractual right to appoint directors in order to protect
taxpayers’ TARP investments and to preserve the strength of these community
banks and their ability to make credit available to their communities. Additionally,
SIGTARP noted that Treasury-appointed directors could use their knowledge and
experience to prevent TARP dollars from being wasted, or even root out fraud.
    Even though Treasury recognized the value of having Treasury-selected
directors at TARP banks that had missed multiple TARP dividend payments,
Treasury had rarely exercised and actually appeared to be abandoning its efforts
to enforce that right. In fact, at the time SIGTARP made its recommendation in
September 2013, only three then-remaining CPP banks had Treasury–appointed
directors and Treasury had not exercised its right to appoint a director nearly a year,
last doing so in December 2012. Overall, Treasury had only appointed directors
at 15 CPP banks, even though there had been at least 132 banks that had missed
enough dividend payments throughout the history of TARP to warrant a Treasury-
appointed director.
    As a result, SIGTARP issued three recommendations calling upon Treasury
to use this important tool to protect taxpayers’ long-term investments in TARP
banks by promoting the fiscal health of lenders and their ability to meet the credit
needs of our nation and local communities. Specifically, SIGTARP recommended
284   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             that Treasury: (1) enforce its right to appoint directors for CPP institutions that
                                             have failed to pay six or more quarterly TARP dividend or interest payments; (2)
                                             prioritize the appointing of directors to the board of CPP institutions that have
                                             rejected Treasury’s requests to send officials to observe board meetings, that have
                                             failed to pay a large number of TARP dividend payments or owe the largest amount
                                             of delinquent TARP dividends, or that are currently subject to an order from their
                                             Federal banking regulator, particularly orders related to the health or condition
                                             of the bank or its board of directors (and to use information learned by Treasury
                                             observers in assisting prioritization of banks to which Treasury should appoint
                                             directors); (3) enforce its right to appoint directors to CDCI institutions that have
                                             failed to pay eight or more TARP quarterly dividend or interest payments.
                                                 After Treasury responded to SIGTARP, in an October 28, 2013 letter rejecting
                                             SIGTARP’s recommendations, SIGTARP again emphasized the importance and
                                             value of enforcing this right in SIGTARP’s January 29, 2014 Quarterly Report.
                                             SIGTARP stressed that, despite Treasury’s focus on selling its investments in banks
                                             in TARP banks, Treasury should act upon, rather than give up this important right.
                                             Doing so would promote TARP’s and CPP’s goals of enabling lenders to meet
                                             credit needs of our nation and local communities, ensuring local communities have
                                             access to loans from TARP banks who support them.
                                                 Following SIGTARP’s repeated efforts, Treasury recently agreed with SIGTARP
                                             and took encouraging steps towards implementing SIGTARP’s recommendation.
                                             In February 2014, Treasury appointed two directors to Central Bancorp, Inc.
                                             Additionally, in March 2014, Treasury requested that two TARP banks, Chambers
                                             Bancshares and Farmers & Merchants, allow Treasury observers to attend board
                                             meetings to monitor whether directors should be appointed to the boards of those
                                             institutions as well. SIGTARP looks forward to continuing its work with Treasury
                                             on implementing these important recommendations. Treasury should prioritize its
                                             decisions to appoint directors, based on the goals of TARP and CPP, and in light
                                             of issues that raise the most concern, especially considering banks that actually
                                             rejected Treasury observers, as SIGTARP recommended. In addition, as SIGTARP
                                             recommended, Treasury should also continue to consider appointing directors to
                                             struggling CDCI institutions.




                                             RECOMMENDATIONS REGARDING EDUCATING
                                             HOMEOWNERS ABOUT MORTGAGE MODIFICATION
                                             FRAUD
                                             SIGTARP has taken, and continues to take a 360 degree approach to combating
                                             mortgage modification fraud that includes law enforcement, homeowner
                                             education, and homeowner protection initiatives. Under that approach, SIGTARP
                                             has uncovered, investigated, and assisted in the prosecution of criminals that
                                             viewed HAMP as an opportunity to line their own pockets by taking advantage
                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   285




of unsuspecting homeowners who are seeking to apply to lower their mortgages
through HAMP. Nationwide, homeowners have lost millions of dollars and
many have been forced into foreclosure as a result of this predatory fraud. These
crimes also hurt the credibility of the Government and HAMP, possibly scaring
homeowners away from receiving real help through legitimate TARP programs.
For example, in some instances, we have found that some homeowner victims
erroneously believe they are actually communicating with Treasury representatives.
That is because some of these fraudsters are even more brazen and masquerade
as the Government, lurking behind logos or seals resembling Treasury’s seal or the
Making Home Affordable logo, or use the word HAMP in their website name to
deceive homeowners into believing their legitimacy.
    SIGTARP learned from these criminal investigations that because the Internet
is generally the place where homeowners first look when seeking assistance with
their mortgage payment, this is exactly where they are most often targeted in
TARP-related rescue fraud scams. The Internet also allows fraudsters to increase
the size and scope of their scams, allowing them to shut down and start up again
quickly, and operate from anywhere, hurting victims all over the country.
    Rather than being a weapon fraudsters use to cheat homeowners, the Internet,
especially Treasury’s HAMP-related websites, should serve as a tool to empower
Americans still struggling to stay in their homes. As co-chairs of the Rescue
Fraud Working Group of the President’s Financial Fraud Enforcement Task
Force, SIGTARP, Treasury, and the Department of Justice must stand together
to combat this type of rescue fraud. SIGTARP and Treasury have already worked
together to police the Internet for websites bearing the hallmarks of mortgage
modification fraud and also have worked to educate homeowners so that they can
arm themselves with legitimate information to avoid falling prey to these rescue
fraud scams. For example, SIGTARP and Treasury have provided information at
homeowner outreach events and in December 2011, as co-chairs of the Rescue
Fraud Working Group, collaborating with the Consumer Financial Protection
Bureau, a member of the working group, SIGTARP and Treasury issued a
Consumer Fraud Alert listing the hallmarks of these horrific scams.
    Recently, to continue our joint efforts to prevent these frauds, SIGTARP made
the following recommendation to Treasury:

To educate homeowners and help them avoid becoming victims to mortgage
modification fraud, Treasury should prominently display all of the information
containing in the Consumer Fraud Alert “Tips For Avoiding Mortgage
Modification Scams” created jointly by SIGTARP, Treasury and the Consumer
Financial Protection Bureau on the home page of websites related to HAMP,
including Treasury’s TARP website and the “Making Home Affordable”
website along with simple and direct information on SIGTARP’s mission and
how to contact SIGTARP’s hotline if they suspect mortgage modification
fraud.
   Prominently featuring the information in our joint Consumer Fraud Alert
on HAMP-related websites helps preserve the integrity of HAMP, protects
286   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             homeowners from this type of rescue fraud by putting them on alert, and serves as
                                             a strong statement of Treasury’s commitment to combatting mortgage modification
                                             fraud.
                                                  After discussing this recommendation with Treasury officials, Treasury added
                                             a link to the Consumer Fraud Alert on the MHA website. Although we commend
                                             Treasury’s efforts to implement SIGTARP’s recommendation in a timely manner,
                                             the page containing the link is confusing because it lists four different tips to
                                             avoid scams with a link to view additional tips. Given that SIGTARP and Treasury
                                             worked together to develop the tips, it does not make sense that Treasury would
                                             list different tips in the text and then link to the Consumer Fraud Alert. Treasury
                                             should prominently display all of the information contained in the Consumer Fraud
                                             Alert on these websites, to avoid causing additional confusion to homeowners.
SIGTARP RECOMMENDATIONS TABLE
                                                                                               Partially                    Not
           Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
  1    *   Treasury should include language in the automobile industry
           transaction term sheet acknowledging SIGTARP’s oversight
                                                                                 X                                                       
           role and expressly giving SIGTARP access to relevant
           documents and personnel.
  2    *   Treasury should include language in new TARP agreements                                                                             Although Treasury has made
           to facilitate compliance and oversight. Specifically, SIGTARP                                                                       substantial efforts to comply with
           recommends that each program participant should (1)                                                                                 this recommendation in many of
           acknowledge explicitly the jurisdiction and authority of                                                                            its agreements, there have been
           SIGTARP and other oversight bodies, as relevant, to oversee                                                                         exceptions, including in its agreements
           compliance of the conditions contained in the agreement                                                                             with servicers in MHA.
           in question, (2) establish internal controls with respect to                            X                                     
           that condition, (3) report periodically to the Compliance
           department of the Office of Financial Stability (“OFS-
           Compliance”) regarding the implementation of those controls
           and its compliance with the condition, and (4) provide a
           signed certification from an appropriate senior official to
           OFS-Compliance that such report is accurate.
  3    *   All existing TARP agreements, as well as those governing
           new transactions, should be posted on the Treasury website            X                                                       
           as soon as possible.
  4    *   Treasury should require all TARP recipients to report on the                                                                        While Treasury has required CDCI
           actual use of TARP funds.                                                                                                           participants to report on their actual
                                                                                                                                               use of TARP funds, no other TARP
                                                                                                   X                                     
                                                                                                                                               recipients were required to do so.
                                                                                                                                               Treasury made the reporting by CPP
                                                                                                                                               recipients only voluntary.
  5    *   Treasury quickly determines its going-forward valuation
                                                                                 X                                                       
           methodology.
  6    *   Treasury begins to develop an overall investment strategy to
           address its portfolio of stocks and decide whether it intends         X                                                       
           to exercise warrants of common stock.
  7    *   In formulating the structure of TALF, Treasury should                                                                               The Federal Reserve adopted
           consider requiring, before committing TARP funds to the                                                                             mechanisms that address this
           program, that certain minimum underwriting standards and/                                                                           recommendation.
                                                                                 X                                                       
           or other fraud prevention mechanisms be put in place with
           respect to the ABS and/or the assets underlying the ABS
           used for collateral.
  8    *   Agreements with TALF participants should include an
           acknowledgment that: (1) they are subject to the oversight
           of OFS-Compliance and SIGTARP, (2) with respect to any
           condition imposed as part of TALF, that the party on which
                                                                                                                            X            
           the condition is imposed is required to establish internal
           controls with respect to each condition, report periodically
                                                                                                                                                                                         QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014




           on such compliance, and provide a certification with respect
           to such compliance.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                         287
                                                                                                                                                                                        288
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                   Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
  9    *   Treasury should give careful consideration before agreeing                                                                          This recommendation was
           to the expansion of TALF to include MBS without a full review                                                                       implemented with respect to CMBS,
                                                                                 X                                                       
           of risks that may be involved and without considering certain                                                                       and the Federal Reserve did not
           minimum fraud protections.                                                                                                          expand TALF to RMBS.
 10    *   Treasury should oppose any expansion of TALF to legacy                                                                              This recommendation was
           MBS without significant modifications to the program to                                                                             implemented with respect to CMBS,
                                                                                 X                                                       
           ensure a full assessment of risks associated with such an                                                                           and the Federal Reserve did not
           expansion.                                                                                                                          expand TALF to RMBS.
 11        Treasury should formalize its valuation strategy and begin                                                                          Treasury has formalized its valuation
           providing values of the TARP investments to the public.               X                                                             strategy and regularly publishes its
                                                                                                                                               estimates.
 12    *   Treasury and the Federal Reserve should provide to                                                                                  On December 1, 2010, the Federal
           SIGTARP, for public disclosure, the identity of the borrowers                                                                       Reserve publicly disclosed the
           who surrender collateral in TALF.                                                                                                   identities of all TALF borrowers and
                                                                                                                                        X      that there had been no surrender of
                                                                                                                                               collateral. SIGTARP will continue to
                                                                                                                                               monitor disclosures if a collateral
                                                                                                                                               surrender takes place.
 13    *   In TALF, Treasury should dispense with rating agency                                                                                The Federal Reserve announced that
           determinations and require a security-by-security screening                                                                         RMBS were ineligible for TALF loans,
                                                                                                                                                                                        SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           for each legacy RMBS. Treasury should refuse to participate                                                                         rendering this recommendation moot.
           if the program is not designed so that RMBS, whether new
           or legacy, will be rejected as collateral if the loans backing                                                               X
           particular RMBS do not meet certain baseline underwriting
           criteria or are in categories that have been proven to be
           riddled with fraud, including certain undocumented subprime
           residential mortgages.
 14    *   In TALF, Treasury should require significantly higher haircuts                                                                      This recommendation was
           for all MBS, with particularly high haircuts for legacy RMBS,                                                                       implemented with respect to CMBS,
                                                                                 X                                                       
           or other equally effective mitigation efforts.                                                                                      and the Federal Reserve did not
                                                                                                                                               expand TALF to RMBS.
 15    *   Treasury should require additional anti-fraud and credit                                                                            The Federal Reserve adopted
           protection provisions, specific to all MBS, before                                                                                  mechanisms that address this
           participating in an expanded TALF, including minimum                  X                                                             recommendation with respect to
           underwriting standards and other fraud prevention                                                                                   CMBS, and did not expand TALF to
           measures.                                                                                                                           RMBS.
 16    *   Treasury should design a robust compliance protocol with
           complete access rights to all TALF transaction participants                                                      X            
           for itself, SIGTARP, and other relevant oversight bodies.
 17    *   Treasury should not allow Legacy Securities PPIFs to invest
           in TALF unless significant mitigating measures are included           X                                                       
           to address these dangers.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
 18    *   All TALF modeling and decisions, whether on haircuts or any
           other credit or fraud loss mechanisms, should account for
           potential losses to Government interests broadly, including            X                                                      
           TARP funds, and not just potential losses to the Federal
           Reserve.
 19    *   Treasury should address the confusion and uncertainty on
           executive compensation by immediately issuing the required            X                                                       
           regulations.
 20    *   Treasury should significantly increase the staffing levels of                                                                       According to Treasury, OFS-Compliance
           OFS-Compliance and ensure the timely development and                                                                                has increased its staffing level and has
           implementation of an integrated risk management and                                     X                                           contracted with four private firms to
           compliance program.                                                                                                                 provide additional assistance to OFS-
                                                                                                                                               Compliance.
 21    *   Treasury should require CAP participants to (1) establish an                                                                        Treasury closed the program with
           internal control to monitor their actual use of TARP funds, (2)                                                                     no investments having been made,
           provide periodic reporting on their actual use of TARP funds,                                                                       rendering this recommendation moot.
           (3) certify to OFS-Compliance, under the penalty of criminal
           sanction, that the report is accurate, that the same criteria
                                                                                                                                        X
           of internal controls and regular certified reports should be
           applied to all conditions imposed on CAP participants, and
           (4) acknowledge explicitly the jurisdiction and authority of
           SIGTARP and other oversight bodies, as appropriate, to
           oversee conditions contained in the agreement.
 22    *   Treasury should impose strict conflict-of-interest rules upon                                                                       Treasury has adopted some significant
           PPIF managers across all programs that specifically address                                                                         conflict-of-interest rules related to this
           whether and to what extent the managers can (1) invest                                                                              recommendation, but has failed to
           PPIF funds in legacy assets that they hold or manage on                                 X                                           impose other significant safeguards.
           behalf of themselves or their clients or (2) conduct PPIF
           transactions with entities in which they have invested on
           behalf of themselves or others.
 23    *   Treasury should require that all PPIF fund managers (1)                                                                             Treasury’s agreements with PPIF
           have stringent investor-screening procedures, including                                                                             managers include investor-screening
           comprehensive “Know Your Customer” requirements at least                                                                            procedures such as “Know Your
           as rigorous as that of a commercial bank or retail brokerage                                                                        Customer” requirements. Treasury
           operation to prevent money laundering and the participation                                                                         has agreed that it will have access to
           of actors prone to abusing the system, and (2) be required                              X                                           any information in a fund manager’s
           to provide Treasury with the identities of all the beneficial                                                                       possession relating to beneficial
           owners of the private interests in the fund so that Treasury                                                                        owners. However, Treasury did not
           can do appropriate diligence to ensure that investors in the                                                                        impose an affirmative requirement
           funds are legitimate.                                                                                                               that managers obtain and maintain
                                                                                                                                               beneficial owner information.
 24    *   Treasury should require PPIP managers to provide most
           favored nation clauses to PPIF equity stakeholders, to
                                                                                 X                                                       
                                                                                                                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014




           acknowledge that they owe Treasury a fiduciary duty, and to
           adopt a robust ethics policy and compliance apparatus.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                            289
                                                                                                                                                                                          290
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
 25        Treasury should require servicers in MHA to submit third-                                                                           Treasury has decided to
           party verified evidence that the applicant is residing in the                                                                       adopt this important SIGTARP
           subject property before funding a mortgage modification.                                            X                               recommendation. SIGTARP will monitor
                                                                                                                                               Treasury’s implementation of the
                                                                                                                                               recommendation.
 26    *   In MHA, Treasury should require a closing-like procedure                                                                            Treasury rejected SIGTARP’s
           be conducted that would include (1) a closing warning                                                                               recommendation for a closing-like
           sheet that would warn the applicant of the consequences                                                                             procedure. However, since this
           of fraud; (2) the notarized signature and thumbprint of each                                                                        recommendation was issued, Treasury
           participant; (3) mandatory collection, copying, and retention                                                                       has taken several actions to prevent
           of copies of identification documents of all participants in                                                                        fraud on the part of either MHA
           the transaction; (4) verbal and written warnings regarding                              X                                           servicers or applicants.
           hidden fees and payments so that applicants are made fully
           aware of them; (5) the benefits to which they are entitled
           under the program (to prevent a corrupt servicer from
           collecting payments from the Government and not passing
           the full amount of the subsidies to the homeowners); and (6)
           the fact that no fee should be charged for the modification.
 27    *   Additional anti-fraud protections should be adopted in MHA                                                                          Treasury has taken steps to
           to verify the identity of the participants in the transaction                                                                       implement policies and conduct
           and to address the potential for servicers to steal from                                                                            compliance reviews to address this
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           individuals receiving Government subsidies without applying                                                                         recommendation. However, it remains
                                                                                                   X                                     
           them for the benefit of the homeowner.                                                                                              unclear if Treasury has an appropriate
                                                                                                                                               method to ensure the irregularities
                                                                                                                                               identified in the compliance reviews are
                                                                                                                                               resolved.
 28    *   In MHA, Treasury should require the servicer to compare                                                                             Treasury has rejected SIGTARP’s
           the income reported on a mortgage modification application                                                                          recommendation and does not require
           with the income reported on the original loan applications.                                                                         income reported on the modification
                                                                                                                            X            
                                                                                                                                               application to be compared to
                                                                                                                                               income reported on the original loan
                                                                                                                                               application.
 29    *   In MHA, Treasury should require that verifiable, third-party
           information be obtained to confirm an applicant’s income              X                                                       
           before any modification payments are made.
 30    *   In MHA, Treasury should defer payment of the $1,000                                                                                 Rather than deferring payment of the
           incentive to the servicer until after the homeowner has                                                                             incentive until after the homeowner
           verifiably made a minimum number of payments under the                                                                              has verifiably made a minimum
           mortgage modification program.                                                                                                      number of payments on its permanent
                                                                                                                            X            
                                                                                                                                               modification, Treasury will pay the
                                                                                                                                               incentive after the servicer represents
                                                                                                                                               that the homeowner has made three
                                                                                                                                               payments during the trial period.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
 31    *   In MHA, Treasury should proactively educate homeowners
           about the nature of the program, warn them about
                                                                                 X                                                       
           modification rescue fraudsters, and publicize that no fee is
           necessary to participate in the program.
 32    *   In MHA, Treasury should require its agents to keep track of                                                                         While Treasury’s program
           the names and identifying information for each participant in                                                                       administrator, Fannie Mae, has
           each mortgage modification transaction and to maintain a                                                                            developed a HAMP system of record
           database of such information.                                                                                                       that maintains servicers’ names,
                                                                                                                                               investor group (private, portfolio, GSE),
                                                                                                                                               and participating borrowers’ personally
                                                                                                   X                                     
                                                                                                                                               identifiable information, such as
                                                                                                                                               names and addresses, the database
                                                                                                                                               is not constructed to maintain other
                                                                                                                                               information that may assist in detecting
                                                                                                                                               insiders who are committing large-
                                                                                                                                               scale fraud.
 33    *   Treasury should require the imposition of strict information                                                                        Treasury has refused to adopt this
           barriers or “walls” between the PPIF managers making                                                                                significant anti-fraud measure designed
           investment decisions on behalf of the PPIF and those                                                             X                  to prevent conflicts of interest. This
           employees of the fund management company who manage                                                                                 represents a material deficiency in the
           non-PPIF funds.                                                                                                                     program.
 34    *   Treasury should periodically disclose PPIF trading activity                                                                         Treasury has committed to publish
           and require PPIF managers to disclose to SIGTARP, within                                                                            on a quarterly basis certain high-
           seven days of the close of the quarter, all trading activity,                                                                       level information about aggregated
           holdings, and valuations so that SIGTARP may disclose                                                                               purchases by the PPIFs, but not
           such information, subject to reasonable protections, in its                                                                         within seven days of the close of the
                                                                                                                            X            
           quarterly reports.                                                                                                                  quarter. Treasury has not committed
                                                                                                                                               to providing full transparency to show
                                                                                                                                               where public dollars are invested by
                                                                                                                                               requiring periodic disclosure of every
                                                                                                                                               trade in the PPIFs.
 35        Treasury should define appropriate metrics and an                                                                                   Treasury has stated that it has
           evaluation system should be put in place to monitor the                                                                             developed risk and performance
           effectiveness of the PPIF managers, both to ensure they                                                                             metrics. However, more than four
           are fulfilling the terms of their agreements and to measure                                                                         years into the program, it is still not
                                                                                                   X                                     
           performance.                                                                                                                        clear how Treasury will use these
                                                                                                                                               metrics to evaluate the PPIP managers
                                                                                                                                               and take appropriate action as
                                                                                                                                               recommended by SIGTARP.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014
                                                                                                                                                                                           291
                                                                                                                                                                                           292
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
 36    *   The conditions that give Treasury “cause” to remove a                                                                               Treasury has refused to adopt this
           PPIF manager should be expanded to include a manager’s                                                                              recommendation, relying solely
           performance below a certain standard benchmark, or if                                                                               on Treasury’s right to end the
           Treasury concludes that the manager has materially violated                                                                         investment period after 12 months.
                                                                                                                             X           
           compliance or ethical rules.                                                                                                        That timeframe has already expired.
                                                                                                                                               Treasury’s failure to adopt this
                                                                                                                                               recommendation potentially puts
                                                                                                                                               significant Government funds at risk.
 37    *   Treasury should require PPIF managers to disclose to
           Treasury, as part of the Watch List process, not only
                                                                                 X                                                       
           information about holdings in eligible assets but also
           holdings in related assets or exposures to related liabilities.
 38        Treasury should require PPIF managers to obtain and                                                                                 Treasury has agreed that it can have
           maintain information about the beneficial ownership of all of                                                                       access to any information in a fund
           the private equity interests, and Treasury should have the                                                                          manager’s possession relating to
           unilateral ability to prohibit participation of private equity                                                                      beneficial owners. However, Treasury is
           investors.                                                                                                                          not making an affirmative requirement
                                                                                                                                               that managers obtain and maintain
                                                                                                                            X            
                                                                                                                                               beneficial owner information. Treasury
                                                                                                                                               will not adopt the recommendation
                                                                                                                                               to give itself unilateral ability to deny
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                                                               access to or remove an investor,
                                                                                                                                               stating that such a right would deter
                                                                                                                                               participation.
 39    *   Treasury and FRBNY should (1) examine Moody’s assertions                                                                            Treasury and the Federal Reserve have
           that some credit rating agencies are using lower standards                                                                          discussed concerns about potential
           to give a potential TALF security the necessary AAA rating                                                                          overrating or rating shopping with the
           and (2) develop mechanisms to ensure that acceptance of               X                                                             rating agencies, and have agreed to
           collateral in TALF is not unduly influenced by the improper                                                                         continue to develop and enhance risk
           incentives to overrate that exist among the credit agencies.                                                                        management tools and processes,
                                                                                                                                               where appropriate.
 40    *   Treasury should more explicitly document the vote of each
           Investment Committee member for all decisions related to              X                                                       
           the investment of TARP funds.
 41    *   Treasury should improve existing control systems to
           document the occurrence and nature of external phone calls
           and in-person meetings about actual and potential recipients          X                                                       
           of funding under the CPP and other similar TARP-assistance
           programs to which they may be part of the decision making.
 42    *   The Secretary of the Treasury should direct the Special
           Master to work with FRBNY officials in understanding AIG
           compensation programs and retention challenges before
                                                                                 X                                                       
           developing future compensation decisions that may affect
           both institutions’ ability to get repaid by AIG for Federal
           assistance provided.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
 43    *   Treasury should establish policies to guide any similar                                                                             Treasury stated that it does not
           future decisions to take a substantial ownership position in                                                                        anticipate taking a substantial
           financial institutions that would require an advance review                                                                  X      percentage ownership position in any
           so that Treasury can be reasonably aware of the obligations                                                                         other financial institution pursuant to
           and challenges facing such institutions.                                                                                            EESA.
 44    *   Treasury should establish policies to guide decision making                                                                         Treasury has agreed to work closely
           in determining whether it is appropriate to defer to another                                                                        with other Federal agencies that are
                                                                                                   X                                     
           agency when making TARP programming decisions where                                                                                 involved in TARP.
           more than one Federal agency is involved.
 45        Treasury should rectify the confusion that its own                                                                                  Despite SIGTARP’s repeated
           statements have caused for HAMP by prominently disclosing                                                                           highlighting of this essential
           its goals and estimates (updated over time, as necessary)                                                                           transparency and effectiveness
                                                                                                                            X            
           of how many homeowners the program will help through                                                                                measure, Treasury has refused to
           permanent modifications and report monthly on its progress                                                                          disclose clear and relevant goals and
           toward meeting that goal.                                                                                                           estimates for the program.
 46        Treasury should develop other performance metrics                                                                                   Although Treasury has increased its
           and publicly report against them to measure over time                                                                               reporting of servicer performance, it
           the implementation and success of HAMP. For example,                                                                                has not identified goals for each metric
           Treasury could set goals and publicly report against those                                                                          and measured performance against
           goals for servicer processing times, modifications as a                                 X                                           those goals. Treasury has not set an
           proportion of a servicer’s loans in default, modifications                                                                          acceptable metric for redefaults.
           as a proportion of foreclosures generally, rates of how
           many borrowers fall out of the program prior to permanent
           modification, and re-default rates.
 47        Treasury should undertake a sustained public service
           campaign as soon as possible, both to reach additional
           borrowers who could benefit from the program and to arm
                                                                                 X                                                       
           the public with complete, accurate information — this will
           help to avoid confusion and delay, and prevent fraud and
           abuse.
 48        Treasury should reconsider its position that allows servicers
           to substitute alternative forms of income verification based                                                     X            
           on subjective determinations by the servicer.
 49        Treasury should re-examine HAMP’s structure to ensure that                                                                          Treasury has adopted some programs
           it is adequately minimizing the risk of re-default stemming                                                                         to assist underwater mortgages to
           from non-mortgage debt, second liens, partial interest rate                             X                                           address concerns of negative equity
           resets after the five-year modifications end, and from many                                                                         but has not addressed other factors
           borrowers being underwater.                                                                                                         contained in this recommendation.
 50        Treasury should institute careful screening before putting
           additional capital through CDCI into an institution with
           insufficient capital to ensure that the TARP matching funds           X                                                       
           are not flowing into an institution that is on the verge of
           failure.
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                          293
                                                                                                                                                                                           294
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
 51        Treasury should develop a robust procedure to audit and
           verify the bona fides of any purported capital raise in CDCI
                                                                                 X                                                       
           and to establish adequate controls to verify the source,
           amount and closing of all claimed private investments.
 52        Treasury should revise CDCI terms to clarify that Treasury
           inspection and copy rights continue until the entire CDCI
           investment is terminated. Additionally, consistent with
           recommendations made in connection with other TARP                    X                                                       
           programs, the terms should be revised to provide expressly
           that SIGTARP shall have access to the CDFI’s records equal
           to that of Treasury.
 53        Treasury should consider more frequent surveys of a CDCI
           participant’s use of TARP funds than annually as currently
                                                                                                                            X            
           contemplated. Quarterly surveys would more effectively
           emphasize the purpose of CDCI.
 54        Treasury should ensure that more detail is captured by                                                                              Treasury has indicated that it has
           the Warrant Committee meeting minutes. At a minimum,                                                                                implemented this recommendation.
           the minutes should include the members’ qualitative                                                                                 Although the detail of the minutes
                                                                                 X                                                       
           considerations regarding the reasons bids were accepted or                                                                          has improved, Treasury is still not
           rejected within fair market value ranges.                                                                                           identifying how each member of the
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                                                               committee casts his or her vote.
 55        Treasury should document in detail the substance of                                                                                 Treasury has agreed to document the
           all communications with recipients concerning warrant                                                                               dates, participants, and subject line of
                                                                                                                            X            
           repurchases.                                                                                                                        calls. It has refused to document the
                                                                                                                                               substance of such conversations.
 56    *   Treasury should develop and follow guidelines and internal                                                                          Treasury has adopted procedures
           controls concerning how warrant repurchase negotiations                                                                             designed to address this
           will be pursued, including the degree and nature of                                                                                 recommendation, including a policy to
           information to be shared with repurchasing institutions                                                                             discuss only warrant valuation inputs
           concerning Treasury’s valuation of the warrants.                                                                                    and methodologies prior to receiving
                                                                                                                                               a bid, generally to limit discussion
                                                                                                                                               to valuation ranges after receiving
                                                                                                   X                                     
                                                                                                                                               approval from the Warrant Committee,
                                                                                                                                               and to note the provision of any added
                                                                                                                                               information in the Committee minutes.
                                                                                                                                               However, Treasury believes that its
                                                                                                                                               existing internal controls are sufficient
                                                                                                                                               to ensure adequate consistency in the
                                                                                                                                               negotiation process.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
 57    *   Treasury should promptly take steps to verify TARP                                                                                  Although Treasury largely continues
           participants’ conformance to their obligations, not only by                                                                         to rely on self-reporting, stating
           ensuring that they have adequate compliance procedures                                                                              that it only plans to conduct testing
           but also by independently testing participants’ compliance.                                                                         where they have particular concerns
                                                                                                   X                                           as to a TARP recipient’s compliance
                                                                                                                                               procedures or testing results, it has
                                                                                                                                               conducted independent testing of
                                                                                                                                               compliance obligations during some
                                                                                                                                               compliance reviews.
 58    *   Treasury should develop guidelines that apply consistently                                                                          Treasury states that it has developed
           across TARP participants for when a violation is sufficiently                                                                       guidance and provided that guidance
           material to merit reporting, or in the alternative require that                                                                     to the exceptional assistance
           all violations be reported.                                                                                                         participants that were remaining in
                                                                                                                                               TARP as of June 30, 2011. Treasury
                                                                                                   X                                     
                                                                                                                                               has not addressed other factors
                                                                                                                                               contained in this recommendation,
                                                                                                                                               citing its belief that materiality should
                                                                                                                                               be subject to a fact and circumstances
                                                                                                                                               review.
 59        For each HAMP-related program and subprogram, Treasury                                                                              Treasury has provided anticipated
           should publish the anticipated costs and expected                                                                                   costs, but not expected participation.
           participation in each and that, after each program is                                   X                                     
           launched, it report monthly as to the program’s performance
           against these expectations.
 60    *   Treasury should re-evaluate the voluntary nature of its                                                                             Treasury plans to maintain the
           principal reduction program and, irrespective of whether it                                                                         voluntary nature of the program,
           is discretionary or mandatory, consider changes to better                                                                           providing an explanation that on its
                                                                                                                                        X
           maximize its effectiveness, ensure to the greatest extent                                                                           face seems unpersuasive to SIGTARP.
           possible the consistent treatment of similarly situated                                                                             SIGTARP will continue to monitor
           borrowers, and address potential conflict of interest issues.                                                                       performance.
 61        Treasury should adopt a uniform appraisal process across
           all HAMP and HAMP-related short-sale and principal                                                               X            
           reduction programs consistent with FHA’s procedures.
 62    *   Treasury should reconsider the length of the minimum term                                                                           For more than a year, Treasury
           of HAMP’s unemployment forbearance program.                                                                                         refused to adopt this recommendation,
                                                                                                                                               even though average U.S. terms of
                                                                                                                                               unemployment were lengthening.
                                                                                                                                               However, in July 2011, the
                                                                                 X                                                       
                                                                                                                                               Administration announced a policy
                                                                                                                                               change, and Treasury has extended the
                                                                                                                                               minimum term of the unemployment
                                                                                                                                               program from three months to 12
                                                                                                                                               months, effective October 1, 2011.
                                                                                                                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                           295
                                                                                                                                                                                         296
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
 63        Treasury should launch a broad-based information
           campaign, including public service announcements in target
           markets that focus on warnings about potential fraud, and              X                                                      
           include conspicuous fraud warnings whenever it makes
           broad public announcements about the HAMP program.
 64        When Treasury considers whether to accept an existing CPP
           participant into SBLF, because conditions for many of the
           relevant institutions have changed dramatically since they
           were approved for CPP, Treasury and the bank regulators               X                                                       
           should conduct a new analysis of whether the applying
           institution is sufficiently healthy and viable to warrant
           participation in SBLF.
 65        When Treasury conducts the new analysis of an institution’s                                                                         Treasury refused to adopt this
           health and viability, the existing CPP preferred shares should                                                                      recommendation, citing its belief
           not be counted as part of the institution’s capital base.                                                                           that current CPP participants may be
                                                                                                                                               unfairly disadvantaged in their SBLF
                                                                                                                                               applications if their existing CPP
                                                                                                                            X            
                                                                                                                                               investments are not counted as part
                                                                                                                                               of their capital base, and that SBLF
                                                                                                                                               “already provides substantial hurdles
                                                                                                                                               that CPP recipients must overcome”
                                                                                                                                                                                         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                                                               that don’t apply to other applicants.
 66        Treasury should take steps to prevent institutions that are                                                                         Treasury refused to adopt this
           refinancing into the SBLF from CPP from securing windfall                                                                           recommendation, suggesting that
           dividend reductions without any relevant increase in lending.                                                                       its adoption would subvert the will
                                                                                                                                               of Congress and that SIGTARP’s
                                                                                                                            X            
                                                                                                                                               recommendation “may not be helpful”
                                                                                                                                               because “it is unclear that using this
                                                                                                                                               statutorily mandated baseline will lead
                                                                                                                                               to anomalies.”
 67    *   Treasury, as part of its due diligence concerning any
           proposed restructuring, recapitalization, or sale of its CPP
           investment to a third party, should provide to SIGTARP the            X                                                       
           identity of the CPP institution and the details of the proposed
           transaction.
 68    *   When a CPP participant refinances into SBLF and seeks
           additional taxpayer funds, Treasury should provide to
                                                                                 X                                                       
           SIGTARP the identity of the institution and details of the
           proposed additional SBLF investment.
 69    *   OFS should adopt the legal fee bill submission standards                                                                            Treasury told SIGTARP that OFS has
           contained in the FDIC’s Outside Counsel Deskbook, or                                                                                created new guidance using the FDIC’s
           establish similarly detailed requirements for how law                                                                               Outside Counsel Deskbook and other
                                                                                 X                                                       
           firms should prepare legal fee bills and describe specific                                                                          resources.
           work performed in the bills, and which costs and fees are
           allowable and unallowable.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
 70    *   OFS should include in its open legal service contracts                                                                              Treasury told SIGTARP that OFS has
           detailed requirements for law firms on the preparation and                                                                          distributed its new guidance to all
           submission of legal fee bills, or separately provide the                                                                            law firms currently under contract to
           instructions to law firms and modify its open contracts,                                                                            OFS. Treasury further stated that OFS
                                                                                                               X                         
           making application of the instructions mandatory.                                                                                   will work with Treasury’s Procurement
                                                                                                                                               Services Division to begin modifying
                                                                                                                                               base contracts for OFS legal services
                                                                                                                                               to include those standards as well.
 71    *   OFS should adopt the legal fee bill review standards                                                                                Treasury told SIGTARP that OFS has
           and procedures contained in the FDIC’s Outside Counsel                                                                              held training on its newly adopted
           Deskbook, or establish similarly specific instructions and                                                                          guidance prescribing how legal fee bills
           guidance for OFS COTRs to use when reviewing legal fee                                                                              should be prepared with OFS COTRs
           bills, and incorporate those instructions and guidance into                                                                         and other staff involved in the review
           OFS written policies.                                                                                                               of legal fee bills, and that the OFS
                                                                                 X                                                             COTRs will begin reviewing invoices in
                                                                                                                                               accordance with its new guidance for
                                                                                                                                               periods starting with March 2011. OFS
                                                                                                                                               also stated that it incorporated relevant
                                                                                                                                               portions of its training on the new legal
                                                                                                                                               fee bill review standards into written
                                                                                                                                               procedures.
 72    *   OFS should review previously paid legal fee bills to                                                                                Although Treasury previously agreed
           identify unreasonable or unallowable charges, and seek                                                                              to implement this recommendation,
           reimbursement for those charges, as appropriate.                                                                                    Treasury only reviewed the legal fee
                                                                                                                                               bills for one of the five law firms that
                                                                                                                            X                  SIGTARP had already described as
                                                                                                                                               unreasonable. Treasury refuses to
                                                                                                                                               seek any reimbursement for those
                                                                                                                                               charges. See also Recommendation
                                                                                                                                               81 concerning this issue.
 73    *   Treasury should establish detailed guidance and internal                                                                            Treasury made important changes to
           controls governing how the MHA Servicer Compliance                                                                                  its servicer assessments by including
           Assessment will be conducted and how each compliance                                                                                metrics for the ratings, including
           area will be weighted.                                                                                                              several quantitative metrics. However,
                                                                                                                                               qualitative metrics to assess the
                                                                                                   X                                     
                                                                                                                                               servicer’s internal controls in the
                                                                                                                                               three ratings categories remain, and
                                                                                                                                               guidelines or criteria for rating the
                                                                                                                                               effectiveness of internal controls are
                                                                                                                                               still necessary.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014
                                                                                                                                                                                           297
                                                                                                                                                                                          298
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                     Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
 74    *   Treasury should ensure that more detail is captured by                                                                              Minutes of recent MHA Compliance
           the MHA Compliance Committee meeting minutes. At a                                                                                  Committee meetings contain brief
           minimum, the minutes should include MHA-C’s proposed                                                                                explanations of servicer assessment
           rating for each servicer, the committee members’ qualitative                                                                        rating decisions. However, these
           and quantitative considerations regarding each servicer’s                                                                           minutes do not explain the Committee’s
           ratings, the votes of each committee member, the final                                  X                                           deliberations in detail, do not indicate
           rating for each servicer, justification for any difference in                                                                       how members voted beyond a tally of
           that rating with MHA-C’s proposed rating, and any follow-                                                                           the votes, and do not discuss follow-up
           up including escalation to Treasury’s Office of General                                                                             actions or escalation.
           Counsel or the Assistant Secretary and the outcomes of that
           escalation.
 75    *   Treasury should require that MHA servicer communications                                                                            Treasury has refused to adopt
           with homeowners relating to changes in the status or                                                                                this recommendation, saying it
           terms of a homeowner’s modification application, trial or                                                                           already requires a loan servicer to
           permanent modification, HAFA agreement, or any other                                                                                communicate in writing with a borrower
           significant change affecting the homeowner’s participation in                                                                       an average of 10 times. However,
           the MHA program, be in writing.                                                                                  X                  most written requirements apply to
                                                                                                                                               a HAMP application and Treasury’s
                                                                                                                                               response fails to address homeowners
                                                                                                                                               who receive miscommunication from
                                                                                                                                               servicers on important milestones or
                                                                                                                                                                                          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                                                               changes.
 76    *   Treasury should establish benchmarks and goals for                                                                                  Treasury told SIGTARP that it already
           acceptable program performance for all MHA servicers,                                                                               established benchmarks in this area,
           including the length of time it takes for trial modifications to                                                                    including that trial periods should last
           be converted into permanent modifications, the conversion                                                                           three to four months, and escalated
           rate for trial modifications into permanent modifications,                                                                          cases should be resolved in 30
           the length of time it takes to resolve escalated homeowner                                                                          days. If these are the benchmarks
                                                                                                                            X            
           complaints, and the percentage of required modification                                                                             for acceptable performance, many
           status reports that are missing.                                                                                                    servicers have missed the mark.
                                                                                                                                               Also, Treasury has yet to establish
                                                                                                                                               a benchmark for conversion rates
                                                                                                                                               from trial modifications to permanent
                                                                                                                                               modifications.
 77    *   Treasury should publicly assess the top 10 MHA servicers’                                                                           Treasury has rejected this
           program performance against acceptable performance                                                                                  recommendation, saying only
           benchmarks in the areas of: the length of time it takes                                                                             that it would “continue to develop
           for trial modifications to be converted into permanent                                                                              and improve the process where
           modifications, the conversion rate for trial modifications                                                       X                  appropriate.”
           into permanent modifications, the length of time it takes
           to resolve escalated homeowner complaints, and the
           percentage of required modification status reports that are
           missing.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                   Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
 78    *   Treasury must ensure that all servicers participating in MHA                                                                        Treasury has rejected this important
           comply with program requirements by vigorously enforcing                                                                            recommendation, stating that it
           the terms of the servicer participation agreements, including                                                                       believes that the remedies enacted
           using all financial remedies such as withholding, permanently                                                                       have been appropriate and that
                                                                                                                             X           
           reducing, and clawing back incentives for servicers who                                                                             appropriate transparency exists.
           fail to perform at an acceptable level. Treasury should be
           transparent and make public all remedial actions taken
           against any servicer.
 79        Treasury should specifically determine the allowability of                                                                          Treasury neither agreed nor disagreed
           $7,980,215 in questioned, unsupported legal fees and                                                                                with the recommendation.
           expenses paid to the following law firms: Simpson Thacher
           & Bartlett LLP ($5,791,724); Cadwalader Wickersham &                                                             X            
           Taft LLP ($1,983,685); Locke Lord Bissell & Liddell LLP
           ($146,867); and Bingham McCutchen LLP (novated from
           McKee Nelson LLP, $57,939).
 80        The Treasury contracting officer should disallow and seek                                                                           Treasury neither agreed nor disagreed
           recovery from Simpson Thacher & Bartlett LLP for $91,482                                                                            with the recommendation.
           in questioned, ineligible fees and expenses paid that were
           not allowed under the OFS contract. Specifically, those are
                                                                                                                            X            
           $68,936 for labor hours billed at rates in excess of the
           allowable maximums set in contract TOFS-09-0001, task
           order 1, and $22,546 in other direct costs not allowed
           under contract TOFS-09-007, task order 1.
 81        Treasury should promptly review all previously paid legal fee                                                                       Treasury only reviewed the legal fee
           bills from all law firms with which it has a closed or open                                                                         bills for one of the five law firms that
           contract to identify unreasonable or unallowable charges                                                         X                  SIGTARP had already described as
           and seek reimbursement for those charges, as appropriate.                                                                           unreasonable. Treasury refuses to seek
                                                                                                                                               any reimbursements for those charges.
 82        Treasury should require in any future solicitation for legal                                                                        Treasury neither agreed nor disagreed
           services multiple rate categories within the various partner,                                                                       with the recommendation.
           counsel, and associate labor categories. The additional                                                          X            
           labor rate categories should be based on the number of
           years the attorneys have practiced law.
 83        Treasury should pre-approve specified labor categories and                                                                          Treasury neither agreed nor disagreed
           rates of all contracted legal staff before they are allowed to                                                   X                  with the recommendation.
           work on and charge time to OFS projects.
 84    *   Treasury, in consultation with Federal banking regulators,                                                                          Treasury responded that it continues
           should develop a clear TARP exit path to ensure that                                                                                its efforts to wind down CPP through
           as many community banks as possible repay the TARP                                                                                  repayments, restructuring, and sales.
           investment and prepare to deal with the banks that cannot.                                                                          Treasury has not addressed the criteria
                                                                                                               X                         
           Treasury should develop criteria pertaining to restructurings,                                                                      for these divestment strategies or
           exchanges, and sales of its TARP investments (including any                                                                         consulted with regulators.
           discount of the TARP investment, the treatment of unpaid
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014




           TARP dividend and interest payments, and warrants).
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                          299
                                                                                                                                                                                         300
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
 85    *   Treasury should assess whether it should renegotiate the                                                                            Treasury rejected this recommendation
           terms of its Capital Purchase Program contracts for those                                                                           without ever addressing why.
           community banks that will not be able to exit TARP prior                                                          X           
           to the dividend rate increase in order to help preserve the
           value of taxpayers’ investments.
 86        Treasury should protect borrower personally identifiable                                                                            Treasury has said it will adopt this
           information (“PII”) and other sensitive borrower information                                                                        recommendation in part. Treasury did
           compiled for the Hardest Hit Fund (“HHF”) by: (1) requiring                                                                         not agree to review each HFA’s policies
           that within 90 days, all Housing Finance Agencies (and                                                                              and procedures to determine if they
           their contractors) (“HFAs”) participating in HHF develop                                                                            are effective. Also, Treasury did not
           and implement effective policies and procedures to ensure                                                                           require notification within 24 hours or
           protection against unauthorized access, use, and disposition                                                                        notification to SIGTARP. SIGTARP will
           of PII and other sensitive borrower information; (2) Treasury                                                                       monitor Treasury’s efforts to implement
           reviewing each HFA’s policies and procedures to determine                                                                           the recommendation.
           if they are effective, and taking such action as is required to                                     X                         
           ensure effectiveness; (3) requiring that all parties granted
           access to borrower information should be made aware
           of restrictions on copying and disclosing this information;
           (4) requiring annual certification by HFAs to Treasury that
           they are in compliance with all applicable laws, policies
           and procedures pertaining to borrower information; and (5)
                                                                                                                                                                                         SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           requiring that HFAs promptly notify Treasury and SIGTARP
           within 24 hours, when a breach of security has occurred
           involving borrower information.
 87    *   To ensure that the Office of the Special Master consistently                                                                        OSM began memorializing in its
           grants exceptions to the $500,000 cash salary cap, the                                                                              records justifications for exceptions.
           Office of the Special Master should substantiate each                                                                               However, SIGTARP found in its review
           exception requested and whether the requests demonstrate                                                                            of the 2012 determinations that those
                                                                                                                            X            
           or fail to demonstrate “good cause.”                                                                                                records do not substantiate each
                                                                                                                                               exception requested and whether the
                                                                                                                                               request for an exception demonstrates
                                                                                                                                               or fails to demonstrate “good cause.”
 88    *   The Office of the Special Master should better document
           its use of market data in its calculations. At a minimum, the
           Office of the Special Master should prospectively document
           which companies and employees are used as comparisons
                                                                                 X                                                       
           in its analysis of the 50th percentile of the market, and
           it should also maintain records and data so that the
           relationship between its determinations and benchmarks are
           clearly understood.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
 89    *   The Office of the Special Master should develop more                                                                                Treasury has not agreed to implement
           robust policies, procedures, or guidelines to help ensure                                                                           this important recommendation.
           that its pay determination process and its decisions are
           evenhanded. These measures will improve transparency
                                                                                                                             X           
           and help the Office of the Special Master consistently apply
           the Interim Final Rule principles of “appropriate allocation,”
           “performance-based compensation,” and “comparable
           structures and payments.”
 90        In order to allow for effective compliance and enforcement                                                                          Treasury responded to this
           in HAMP Tier 2, Treasury should require that the borrower                                                                           recommendation by requiring that
           prove that the property has been rented and is occupied                                                                             borrowers certify that they intend to
           by a tenant at the time the borrower applies for a loan                                                                             rent the property for at least five years
           modification, as opposed to requiring only a certification                                                                          and that they will make reasonable
           that the borrower intends to rent the property. As part of                                                                          efforts to rent. This does not go
           the Request for Mortgage Assistance (“RMA”) application                                                                             far enough. Requiring only a self-
           for HAMP Tier 2, the borrower should provide the servicer                                                                           certification, under penalty of perjury,
           with a signed lease and third-party verified evidence of                                                                            without a strong compliance and
                                                                                                                            X            
           occupancy in the form of documents showing that a renter                                                                            enforcement regime to ensure that the
           lives at the property address, such as a utility bill, driver’s                                                                     intent is carried out and the property
           license, or proof of renter’s insurance. In the case of                                                                             is actually rented, leaves the program
           multiple-unit properties under one mortgage Treasury should                                                                         vulnerable to risks that TARP funds
           require that the borrower provide the servicer with evidence                                                                        will pay investors for modifications for
           that at least one unit is occupied by a tenant as part of the                                                                       mortgages on vacation homes that are
           RMA.                                                                                                                                not rented, and may delay, as opposed
                                                                                                                                               to prevent, foreclosures and increase
                                                                                                                                               HAMP redefault rates.
 91        To continue to allow for effective compliance and                                                                                   Treasury rejected this
           enforcement in HAMP Tier 2 after the trial modification has                                                                         recommendation, stating that eligibility
           started, Treasury should require that, prior to conversion                                                                          is not retested prior to conversion.
           of a trial modification to a permanent modification, the                                                                            This does not go far enough. Requiring
           borrower certify under penalty of perjury that none of the                                                                          only a self-certification, without a
           occupancy circumstances stated in the RMA have changed.                                                                             strong compliance and enforcement
                                                                                                                                               regime to ensure that the intent
                                                                                                                            X                  is carried out and the property is
                                                                                                                                               actually rented, leaves the program
                                                                                                                                               vulnerable to risks that TARP funds
                                                                                                                                               will pay investors for modifications for
                                                                                                                                               mortgages on vacation homes that are
                                                                                                                                               not rented, and may delay, as opposed
                                                                                                                                               to prevent, foreclosures and increase
                                                                                                                                               HAMP redefault rates.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014
                                                                                                                                                                                           301
                                                                                                                                                                                            302
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
 92        To prevent a property that has received a HAMP Tier 2                                                                               Treasury told SIGTARP that
           modification from remaining vacant for an extended period                                                                           implementing this recommendation
           of time after a lease expires or a tenant vacates,                                                                                  would create significant additional
           (a) Treasury should require that borrowers immediately notify                                                                       procedures and documentation
           their servicer if the property has remained vacant for more                                                                         requirements. With no compliance
           than three months.                                                                                                                  regime to determine that a renter is in
           (b) Treasury should require servicers to provide monthly                                                                            place, the program remains vulnerable
           reports to Treasury of any properties that have remained                                                          X                 to TARP funds being paid to modify
           vacant for more than three months.                                                                                                  mortgages that do not fit within the
           (c) Treasury should bar payment of TARP-funded incentives                                                                           intended expansion of the program.
           to any participant for a loan modification on a property that
           has been reported vacant for more than three months, until
           such time as the property has been re-occupied by a tenant
           and the borrower has provided third-party verification of
           occupancy.
 93        In order to protect against the possibility that the extension                                                                      Treasury has not implemented this
           and expansion of HAMP will lead to an increase in mortgage                                                                          recommendation. It is important
           modification fraud,                                                                                                                 that Treasury educate as many
           (a) Treasury should require that servicers provide the                                                                              homeowners as possible with accurate
           SIGTARP/CFPB/Treasury Joint Task Force Consumer Fraud                                                                               information about HAMP in an effort to
           Alert to all HAMP-eligible borrowers as part of their monthly                                                                       prevent mortgage modification fraud.
                                                                                                                                                                                            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           mortgage statement until the expiration of the application
                                                                                                                            X            
           period for HAMP Tier 1 and 2.
           (b) Treasury should undertake a sustained public service
           campaign as soon as possible both to reach additional
           borrowers who could potentially be helped by HAMP Tier 2
           and to arm the public with complete, accurate information
           about the program to avoid confusion and delay, and to
           prevent fraud and abuse.
 94        Given the expected increase in the volume of HAMP                                                                                   Treasury has not implemented this
           applications due to the implementation of HAMP Tier 2,                                                                              recommendation. Treasury has not
           Treasury should convene a summit of key stakeholders to                                                                             held a summit of all key stakeholders
                                                                                                                            X            
           discuss program implementation and servicer ramp-up and                                                                             to make the program roll-out efficient
           performance requirements so that the program roll-out is                                                                            and effective.
           efficient and effective.
 95        To ensure servicer compliance with HAMP Tier 2 guidelines                                                                           Treasury said that it will include metrics
           and assess servicer performance,                                                                                                    in the future. SIGTARP will continue to
           (a) Treasury should include additional criteria in its servicer                                                                     monitor Treasury’s implementation of
           compliance assessments that measure compliance with the                                                                             this recommendation.
           program guidelines and requirements of HAMP Tier 2.
                                                                                                                X                        
           (b) Treasury should develop and publish separate metrics
           related to HAMP Tier 2 in the compliance results and
           program results sections of the quarterly Making Home
           Affordable (“MHA”) servicer assessments of the Top 10 MHA
           servicers.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
 96        To allow for assessment of the progress and success                                                                                 Treasury has rejected this
           of HAMP Tier 2, Treasury should set meaningful and                                                                                  recommendation. Treasury’s refusal
           measurable goals, including at a minimum the number of                                                                              to provide meaningful and measurable
           borrowers Treasury estimates will be helped by HAMP Tier                                                          X                 goals leaves it vulnerable to
           2. Treasury should unambiguously and prominently disclose                                                                           accusations that it is trying to avoid
           its goals and report monthly on its progress in meeting                                                                             accountability.
           these goals.
 97        Treasury should set meaningful and measurable                                                                                       Treasury has not implemented this
           performance goals for the Hardest Hit Fund program                                                                                  recommendation. It is important that
           including, at a minimum, the number of homeowners                                                                                   Treasury sets meaningful goals and
           Treasury estimates will be helped by the program, and                                                            X                  metrics to identify program successes
           measure the program’s progress against those goals.                                                                                 and set-backs, in order to change the
                                                                                                                                               program as necessary, and to provide
                                                                                                                                               transparency and accountability.
 98        Treasury should instruct state housing finance agencies                                                                             Treasury issued letters to five housing
           in the Hardest Hit Fund to set meaningful and measurable                                                                            finance agencies requiring those
           overarching and interim performance goals with appropriate                                                                          states to provide an action plan with
           metrics to measure progress for their individual state                                                                              measurable interim and overall goals,
           programs.                                                                                                                           including benchmarks, to improve the
                                                                                                                                               level of homeowner assistance under
                                                                                                   X                                     
                                                                                                                                               the HHF program. Treasury should
                                                                                                                                               fully adopt SIGTARP’s recommendation
                                                                                                                                               with the remaining 14 housing finance
                                                                                                                                               agencies in the HHF program. SIGTARP
                                                                                                                                               will continue to monitor implementation
                                                                                                                                               of this recommendation.
 99        Treasury should set milestones at which the state housing                                                                           Treasury issued letters to five housing
           finance agencies in the Hardest Hit Fund must review the                                                                            finance agencies requiring those
           progress of individual state programs and make program                                                                              states to provide an action plan with
           adjustments from this review.                                                                                                       measurable interim and overall goals,
                                                                                                                                               including benchmarks, to improve the
                                                                                                                                               level of homeowner assistance under
                                                                                                   X                                     
                                                                                                                                               the HHF program. Treasury should
                                                                                                                                               fully adopt SIGTARP’s recommendation
                                                                                                                                               with the remaining 14 housing finance
                                                                                                                                               agencies in the HHF program. SIGTARP
                                                                                                                                               will continue to monitor implementation
                                                                                                                                               of this recommendation.
100        Treasury should publish on its website and in the Housing                                                                           Treasury has only partially implemented
           Scorecard on a quarterly basis the total number of                                                                                  this recommendation. Treasury
           homeowners assisted, funds drawn down by states, and                                                                                recently started publishing some
           dollars expended for assistance to homeowners, assistance                                                                           aggregated data on its website.
           committed to homeowners, and cash on hand, aggregated                                   X                                           However, Treasury does not publish all
           by all state Hardest Hit Fund programs.                                                                                             of the data SIGTARP recommended nor
                                                                                                                                                                                         QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014




                                                                                                                                               does Treasury publish any data at all
                                                                                                                                               concerning the Hardest Hit Fund in the
                                                                                                                                               Housing Scorecard.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                         303
                                                                                                                                                                                            304
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
101        Treasury should develop an action plan for the Hardest                                                                              Treasury has rejected this
           Hit Fund that includes steps to increase the numbers of                                                                             recommendation. It is important that
           homeowners assisted and to gain industry support for                                                                                Treasury change the status quo and
           Treasury-approved HHF programs. Treasury should set                                                                                 fulfill its role as steward over TARP
           interim metrics for how many homeowners it intends to                                                                               programs, make determinations of
           assist in a Treasury-defined time period in each particular                                                                         which programs are successful and
           program (such as principal reduction, second lien reduction,                                                                        which programs are not working, and
                                                                                                                             X           
           or reinstatement). If Treasury cannot achieve the desired                                                                           ensure that HHF funds are reaching
           level of homeowners assisted in any one program area in                                                                             homeowners. This may include
           the defined time period, Treasury should put the funds to                                                                           putting the funds toward programs
           better use toward programs that are reaching homeowners.                                                                            that are more successful at reaching
                                                                                                                                               homeowners. It is unacceptable to
                                                                                                                                               delegate all of this responsibility to the
                                                                                                                                               states.
102        Treasury should stop allowing servicers to add a risk                                                                               Treasury has not implemented this
           premium to Freddie Mac’s discount rate in HAMP’s net                                                                                recommendation. The addition of a
           present value test.                                                                                                                 risk premium reduces the number
                                                                                                                                               of otherwise qualified homeowners
                                                                                                                            X            
                                                                                                                                               Treasury helps through HAMP. Treasury
                                                                                                                                               should implement this recommendation
                                                                                                                                               to increase assistance to struggling
                                                                                                                                                                                            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                                                                               homeowners.
103        Treasury should ensure that servicers use accurate                                                                                  Treasury has not implemented this
           information when evaluating net present value test results                                                                          recommendation. Servicer errors using
           for homeowners applying to HAMP and should ensure that                                                                              NPV inputs and the lack of properly
           servicers maintain documentation of all net present value                                                                           maintained records on NPV inputs have
                                                                                                                            X            
           test inputs. To the extent that a servicer does not follow                                                                          diminished compliance and placed the
           Treasury’s guidelines on input accuracy and documentation                                                                           protection of homeowner’s rights to
           maintenance, Treasury should permanently withhold                                                                                   challenge servicer error at risk.
           incentives from that servicer.
104        Treasury should require servicers to improve their                                                                                  Treasury has not implemented
           communication with homeowners regarding denial of a                                                                                 this recommendation. Servicers’
           HAMP modification so that homeowners can move forward                                                                               failure to communicate denial in
           with other foreclosure alternatives in a timely and fully                                                                           a timely manner can have serious
                                                                                                                            X            
           informed manner. To the extent that a servicer does not                                                                             consequences because a delay may
           follow Treasury’s guidelines on these communications,                                                                               prevent homeowners from finding other
           Treasury should permanently withhold incentives from that                                                                           foreclosure alternatives sooner.
           servicer.
105        Treasury should ensure that more detail is captured by the                                                                          Treasury has not implemented this
           Making Home Affordable Compliance Committee meeting                                                                                 recommendation. SIGTARP found a
           minutes regarding the substance of discussions related to                                                                           lack of detail in Treasury’s meeting
           compliance efforts on servicers in HAMP. Treasury should                                                                            minutes and because Treasury failed
                                                                                                                            X            
           make sure that minutes clearly outline the specific problems                                                                        to document its oversight, SIGTARP
           encountered by servicers, remedial options discussed, and                                                                           was unable to verify Treasury’s role
           any requisite actions taken to remedy the situation.                                                                                in the oversight of servicers or its
                                                                                                                                               compliance agent Freddie Mac.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                    Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
106        In order to protect taxpayers who funded TARP against any                                                                           Neither Treasury nor the Federal
           future threat that might result from LIBOR manipulation,                                                                            Reserve has agreed to implement this
           Treasury and the Federal Reserve should immediately                                                                                 recommendation despite Treasury
           change any ongoing TARP programs including, without                                                                                 telling SIGTARP that it “share[s
           limitation, PPIP and TALF, to cease reliance on LIBOR.                                                                              SIGTARP’s] concerns about the
                                                                                                                             X                 integrity” of LIBOR, and the Federal
                                                                                                                                               Reserve telling SIGTARP that it agreed
                                                                                                                                               that “recent information regarding the
                                                                                                                                               way the LIBOR has been calculated has
                                                                                                                                               created some uncertainty about the
                                                                                                                                               reliability of the rate.”
107        In order to protect taxpayers who invested TARP funds                                                                               On July 8, 2013, the Financial Stability
           into AIG to the fullest extent possible, Treasury and the                                                                           Oversight Council unanimously voted
           Federal Reserve should recommend to the Financial Stability                                                                         to designate AIG as systemically
                                                                                 X                                                       
           Oversight Council that AIG be designated as a systemically                                                                          important.
           important financial institution so that it receives the
           strongest level of Federal regulation.
108        In order to fulfill Treasury’s responsibility to wind down its                                                                      Treasury has not agreed to implement
           TARP Capital Purchase Program investments in a way that                                                                             this important recommendation.
           protects taxpayer interests, before allowing a TARP bank
           to purchase Treasury’s TARP shares at a discount to the
           TARP investment (for example as the successful bidder
           at auction), Treasury should undertake an analysis, in                                                           X            
           consultation with Federal banking regulators, to determine
           that allowing the bank to redeem its TARP shares at a
           discount to the TARP investment outweighs the risk that the
           bank will not repay the full TARP investment. Treasury should
           document that analysis and consultation.
109        In order to fulfill Treasury’s responsibility to wind down its                                                                      Treasury has not agreed to implement
           TARP investments in a way that promotes financial stability                                                                         this important recommendation.
           and preserves the strength of our nation’s community
           banks, Treasury should undertake an analysis in consultation
           with Federal banking regulators that ensures that it is exiting
           its Capital Purchase Program investments in a way that
           satisfies the goals of CPP, which are to promote financial
           stability, maintain confidence in the financial system and                                                       X            
           enable lending. This financial stability analysis of a bank’s
           exit from TARP should determine at a minimum: (1) that the
           bank will remain healthy and viable in the event of an auction
           of Treasury’s preferred shares; and (2) that the bank’s exit
           from TARP does not have a negative impact on the banking
           industry at a community, state, regional, and national level.
           Treasury should document that analysis and consultation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
                                                                                                                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014
                                                                                                                                                                                          305
                                                                                                                                                                                           306
SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                  Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
110        Treasury should better document its decision whether or not                                                                         Treasury has not agreed to implement
           to auction its preferred shares in a TARP bank to adequately                                                                        this important recommendation, but
           reflect the considerations made for each bank and detailed                                                                          is reviewing its practices in light of
                                                                                                                             X           
           rationale.                                                                                                                          SIGTARP’s recommendations. SIGTARP
                                                                                                                                               will monitor Treasury’s efforts to
                                                                                                                                               implement this recommendation.
111    *   Each year, Treasury should reevaluate total compensation                                                                            Treasury has not agreed to implement
           for those employees at TARP exceptional assistance                                                                                  this important recommendation.
                                                                                                                            X            
           companies remaining in the Top 25 from the prior year,
           including determining whether to reduce total compensation.
112    *   To ensure that Treasury effectively applies guidelines aimed                                                                        Treasury has not agreed to implement
           at curbing excessive pay and reducing risk taking, Treasury                                                                         this important recommendation.
                                                                                                                            X            
           should develop policies, procedures, and criteria for
           approving pay in excess of Treasury guidelines.
113    *   Treasury should independently analyze whether good cause                                                                            Treasury has not agreed to implement
           exists to award a Top 25 employee a pay raise or a cash                                                                             this important recommendation.
           salary over $500,000. To ensure that the Office of the
           Special Master has sufficient time to conduct this analysis,                                                     X            
           Treasury should allow OSM to work on setting Top 25 pay
           prior to OSM’s receiving the company pay proposals, which
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




           starts the 60-day timeline.
114    *   To be consistent with Treasury’s Interim Final Rule that the                                                                        Treasury made some progress
           portion of performance-based compensation compared                                                                                  in implementing this important
           to total compensation should be greater for positions that                                                                          recommendation by including long-term
           exercise higher levels of responsibility, Treasury should                                                                           restricted stock in the 2013 Treasury-
           return to using long-term restricted stock for employees,                                           X                               approved pay packages. It is important
           particularly senior employees such as CEOs.                                                                                         that Treasury continue to address this
                                                                                                                                               recommendation by using long-term
                                                                                                                                               restricted stock in pay packages going
                                                                                                                                               forward.
115        Treasury should conduct in-depth research and analysis to                                                                           Treasury has agreed to implement this
           determine the causes of redefaults of HAMP permanent                                                                                important recommendation. Treasury
           mortgage modifications and the characteristics of loans                                                                             told SIGTARP that it is in the process
           or the homeowner that may be more at risk for redefault.                                                                            of conducting the recommended
           Treasury should require servicers to submit any additional                                                                          research. SIGTARP will monitor
                                                                                                               X                         
           information that Treasury needs to conduct this research                                                                            Treasury’s efforts to implement the
           and analysis. Treasury should make the results of this                                                                              recommendation.
           analysis public and issue findings based on this analysis,
           so that others can examine, build on, and learn from this
           research.
116        As a result of the findings of Treasury’s research and                                                                              Treasury has agreed to consider this
           analysis into the causes of HAMP redefaults, and                                                                                    important recommendation, based on
           characteristics of redefaults, Treasury should modify                                                                        X      the results of research it is conducting.
           aspects of HAMP and the other TARP housing programs in                                                                              SIGTARP will monitor Treasury’s efforts
           ways to reduce the number of redefaults.                                                                                            to implement the recommendation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP RECOMMENDATIONS TABLE                     (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                     Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
117        Treasury should require servicers to develop and use                                                                                Treasury has agreed to implement
           an “early warning system” to identify and reach out to                                                                              this important recommendation and
           homeowners that may be at risk of redefaulting on a                                                                                 is considering taking further action.
                                                                                                                             X           
           HAMP mortgage modification, including providing or                                                                                  SIGTARP will monitor Treasury’s efforts
           recommending counseling and other assistance and                                                                                    to implement the recommendation.
           directing them to other TARP housing programs.
118        In the letter Treasury already requires servicers to send to                                                                        Treasury has agreed to implement
           homeowners who have redefaulted on a HAMP modification                                                                              this important recommendation and
           about possible options to foreclosure, Treasury should                                                                              is considering taking further action.
           require the servicers to include other available alternative                                                                        SIGTARP will monitor Treasury’s efforts
           assistance options under TARP such as the Hardest Hit                                                                               to implement the recommendation.
                                                                                                                            X            
           Fund and HAMP Tier 2, so that homeowners can move
           forward with other alternatives, if appropriate, in a timely
           and fully informed manner. To the extent that a servicer
           does not follow Treasury’s rules in this area, Treasury should
           permanently withhold incentives from that servicer.
119        Treasury and the Federal banking regulators should                                                                                  Treasury has not agreed to implement
           improve coordination when collaborating on current and                                                                              this important recommendation.
           future initiatives by (1) defining the roles of all participants
           at the outset of collaborative efforts by creating precise
           and directed governing documents (i.e., charters) that
           clearly address the responsibilities of each entity; and (2)                                                     X            
           jointly documenting processes and procedures, including
           flowcharts, risk management tools, and reporting systems
           to ensure that objectives are met. Each participant should
           sign off to demonstrate their understanding of, and
           agreement with, these procedures.
120        To increase small-business lending by former TARP banks
           participating in SBLF, Treasury should work with the banks                                                                          Treasury has not agreed to implement
                                                                                                                            X
           to establish new, achievable plans to increase lending going                                                                        this important recommendation.
           forward.
121        To preserve the amount of capital former TARP banks                                                                                 Treasury has not agreed to implement
           participating in SBLF have to lend, the primary Federal                                                                             this important recommendation.
           banking regulators (the Federal Reserve, FDIC, or OCC)
                                                                                                                            X            
           should not approve dividend distributions to common
           shareholders of former TARP banks that have not effectively
           increased small-business lending while in SBLF.
122        In order to prevent confusion, promote transparency, and                                                                            Treasury has not agreed to implement
           present taxpayers who funded TARP with clear and accurate                                                                           this important recommendation.
           reporting, when Treasury discusses the amount of TARP
           funds (or CPP funds) recovered or repaid, Treasury should                                                        X            
           not count the $2.1 billion in TARP investments that Treasury
           refinanced into the Small Business Lending Fund, which is
           outside of TARP.
                                                                                                                                                                                         QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                         307
                                                                                                                                                                                       308
SIGTARP RECOMMENDATIONS TABLE                  (CONTINUED)

                                                                                               Partially                    Not
           Recommendation                                                   Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
123        To ensure that homeowners in HAMP get sustainable relief                                                                            Treasury has not agreed to implement
           from foreclosure, Treasury should research and analyze                                                                              this important recommendation.
           whether and to what extent the conduct of HAMP mortgage
           servicers may contribute to homeowners redefaulting on                                                            X           
           HAMP permanent mortgage modifications. To provide
           transparency and accountability, Treasury should publish its
           conclusions and determinations.
124        Treasury should establish an achievable benchmark for a                                                                             Treasury has made progress toward
           redefault rate on HAMP permanent mortgage modifications                                                                             implementing this recommendation.
           that represents acceptable program performance and                                                                                  In Treasury’s quarterly “MHA Servicer
           publicly report against that benchmark.                                                                                             Assessment,” published in its October
                                                                                                                                               2013 “Making Home Affordable
                                                                                                                                               Performance Report,” Treasury
                                                                                                                                               included a new servicer performance
                                                                                                               X                         
                                                                                                                                               metric, assessing whether seven HAMP
                                                                                                                                               servicers complied with Treasury’s
                                                                                                                                               guidelines concerning homeowners’
                                                                                                                                               HAMP modifications that servicers
                                                                                                                                               disqualified. SIGTARP looks forward
                                                                                                                                               to working with Treasury to fully
                                                                                                                                               implement this recommendation.
                                                                                                                                                                                       SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




125        Treasury should publicly assess and report quarterly on                                                                             Treasury has not agreed to implement
           the status of the ten largest HAMP servicers in meeting                                                                             this important recommendation.
           Treasury’s benchmark for an acceptable homeowner
           redefault rate on HAMP permanent mortgage modifications,
           indicate why any servicer fell short of the benchmark,
                                                                                                                            X            
           require the servicer to make changes to reduce the
           number of homeowners who redefault in HAMP, and use
           enforcement remedies including withholding, permanently
           reducing, or clawing back incentive payments for any
           servicer that fails to comply in a timely manner.
126        To protect the investment taxpayers made through TARP in                                                                            Treasury has made some progress
           community banks and to ensure that these banks continue                                                                             implementing this important
           to lend in their communities which is a goal of TARP’s Capital                                                                      recommendation. See discussion in
                                                                                                                X                        
           Purchase Program, Treasury should enforce its right to                                                                              this section.
           appoint directors for CPP institutions that have failed to pay
           six or more quarterly TARP dividend or interest payments.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                        Continued on next page
SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                              Partially                    Not
           Recommendation                                                     Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
127        In enforcing its right to appoint directors to the board                                                                           Treasury has not agreed to implement
           of CPP institutions that have failed to pay six or more                                                                            this important recommendation. See
           quarterly dividend or interest payments, Treasury should                                                                           discussion in this section.
           prioritize appointing directors to the board of those CPP
           institutions that meet one or more of the following criteria:
           (1) rejected Treasury’s request to send officials to observe
           board meetings; (2) have failed to pay a large number of
           TARP dividend payments or that owe the largest amount
                                                                                                                            X           
           of delinquent TARP dividends; or (3) is currently subject to
           an order from their Federal banking regulator, particularly
           orders related to the health or condition of the bank or
           its board of directors. In addition, Treasury should use
           information learned from Treasury officials that have
           observed the bank’s board meetings to assist in prioritizing
           its determination of banks to which Treasury should appoint
           directors.
128        To protect the investment taxpayers made in TARP and to                                                                            Treasury has not agreed to implement
           ensure that institutions continue to lend in low and moderate                                                                      this important recommendation. See
           income communities which is the goal of TARP’s Community                                                                           discussion in this section.
           Development Capital Initiative, Treasury should enforce its                                                     X            
           right to appoint directors to CDCI institutions that have failed
           to pay eight or more TARP quarterly dividend (or interest)
           payments.
129        Treasury should increase the amount of the annual incentive                                                                        See discussion in this section.
           payment paid to each homeowner who remains in HAMP.
           Treasury should require the mortgage servicer to apply
           the annual incentive payment earned by the homeowner
           to reduce the amount of money that the homeowner must                                                                       X
           pay to the servicer for the next month’s mortgage payment
           (or monthly payments if the incentive exceeds the monthly
           mortgage payment), rather than to reduce the outstanding
           principal balance of the mortgage.
130        To educate homeowners and help them avoid becoming                                                                                 See discussion in this section.
           victims to mortgage modification fraud, Treasury should
           prominently display all of the information containing in
           the Consumer Fraud Alert: “Tips For Avoiding Mortgage
           Modification Scams” created jointly by SIGTARP, Treasury,
           and the Consumer Financial Protection Bureau on the home                                                                    X
           page of websites related to HAMP, including Treasury’s TARP
           website and the “Making Home Affordable” website along
           with simple and direct information on SIGTARP’s mission and
           how to contact SIGTARP’s hotline if they suspect mortgage
           modification fraud.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.
                                                                                                                                                                                     QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014
                                                                                                                                                                                     309
                     ENDNOTES
310            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      1.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 1.
      2.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, pp. 2, 16.
      3.	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit
             Strategy for TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 4/1/2014.
      4.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 9.
      5.	    Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-203, 7/21/2010, pp. 1, 759.
      6.	    Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009, §202; Dodd-Frank Wall Street Reform and Consumer Protection Act,
             P.L. 111-203, 7/21/2010, §1302.
      7.	    Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
             04.01.2014.pdf, accessed 4/2/2014.
      8.	    Treasury, Section 105(a) Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20Monthly%20
             Report%20to%20Congress.pdf, accessed 4/10/2014.
      9.	    Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/Daily_TARP_Update%20-%2004.01.2014.pdf, accessed 4/2/2014.
      10.	   Treasury, replies to SIGTARP data calls, various.
      11.	   Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
             04.01.2014.pdf, accessed 4/2/2014.
      12.	   Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
             04.01.2014.pdf, accessed 4/2/2014.
      13.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
             Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, response to SIGTARP data call, 4/9/2014.
      14.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
             Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      15.	   Treasury, Section 105(a) Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20Monthly%20
             Report%20to%20Congress.pdf, accessed 4/10/2014; Treasury, response to SIGTARP data call, 4/9/2014.
      16.	   Treasury, response to SIGTARP data call, 4/9/2014.
      17.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
             Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, response to SIGTARP data call, 4/9/2014.
      18.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
             Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      19.	   Treasury, Section 105(a) Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20Monthly%20
             Report%20to%20Congress.pdf, accessed 4/10/2014.
      20.	   CBO, “Director’s Blog: Troubled Asset Relief Program,” 4/17/2009, www.cbo.gov/publication/24884, accessed 4/1/2014; OMB, “Analytical
             Perspectives: Budget of the U.S. Government – Fiscal Year 2011,” 2/1/2010, www.gpoaccess.gov/usbudget/fy11/pdf/spec.pdf, accessed 4/1/2014.
      21.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2015,” 3/4/2014, www.whitehouse.gov/sites/default/files/
             omb/budget/fy2015/assets/topics.pdf, accessed 3/11/2014.
      22.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2014,” 4/10/2013, www.whitehouse.gov/sites/default/files/
             omb/budget/fy2014/assets/econ_analyses.pdf, accessed 3/11/2014.
      23.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2015,” 3/4/2014, www.whitehouse.gov/sites/default/files/
             omb/budget/fy2015/assets/topics.pdf, accessed 3/11/2014.
      24.	   CBO, “Report on the Troubled Asset Relief Program—April 2014,” www.cbo.gov/sites/default/files/cbofiles/attachments/45260-TARP.
             pdf, accessed 4/18/2014; CBO, “Report on the Troubled Asset Relief Program—May 2013,” www.cbo.gov/sites/default/files/cbofiles/
             attachments/44256_TARP.pdf, accessed 4/1/2014.
      25.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2013,”12/11/2013, www.treasury.
             gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 4/1/2014.
      26.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2013,”12/11/2013, www.treasury.
             gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 4/1/2014.
      27.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2013,”12/11/2013, www.treasury.
             gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 4/1/2014.
      28.	   Treasury, response to SIGTARP data call, 4/9/2014.
      29.	   Treasury, response to SIGTARP data call, 4/9/2014.
      30.	   Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.treasury.gov/
             press-center/press-releases/Pages/tg48.aspx, accessed 4/1/2014.
      31.	   Treasury, “Office of Financial Stability, Agency Financial Report —Troubled Asset Relief Program, Fiscal Year 2013,” 12/11/2013, www.treasury.
             gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed 4/1/2014.
      32.	   Treasury, “Home Affordable Modification Program — Programs,” no date, www.hmpadmin.com/portal/programs/index.jsp, accessed 4/1/2014;
             Treasury, “Principal Reduction Alternative (PRA),” no date, www.makinghomeaffordable.gov/programs/lower-payments/Pages/pra.aspx, accessed
             4/1/2014; Treasury, “Treasury Announces Home Price Decline Protection Incentives,” 7/31/2009, www.hmpadmin.com/portal/news/docs/2009/
             hpdprelease073109.pdf, accessed 4/1/2014.
      33.	   Treasury, response to SIGTARP data call, 4/9/2014.
      34.	   Treasury, response to SIGTARP data call, 4/9/2014.
      35.	   Treasury, response to SIGTARP data call, 4/9/2014.
      36.	   Treasury, response to SIGTARP data call, 4/9/2014.
      37.	   Treasury, responses to SIGTARP data calls, 4/22/2014 and 4/25/2014.
      38.	   The White House, “President Obama Announces Help for Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/
             president-obama-announces-help-hardest-hit-housing-markets, accessed 4/1/2014.
                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014               311


39.	   Treasury, response to SIGTARP data call, 4/9/2014.
40.	   Treasury, response to SIGTARP data call, 4/9/2014.
41.	   Treasury, response to SIGTARP data call, 4/9/2014.
42.	   Treasury, response to SIGTARP data call, 4/9/2014.
43.	   Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
       AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
       Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 4/1/2014.
44.	   Treasury, response to SIGTARP data call, 4/25/2014.
45.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 3.
46.	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
       cpp/Pages/capitalpurchaseprogram.aspx, accessed 4/1/2014.
47.	   Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
       programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 4/1/2014.
48.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
       Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
49.	   Treasury, response to SIGTARP data call, 4/9/2014.
50.	   Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/
       reports/Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
51.	   Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/
       reports/Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
52.	   Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/
       reports/Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
53.	   Treasury, Section 105(a) Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20Monthly%20
       Report%20to%20Congress.pdf, accessed 4/10/2014; Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/
       reports/Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
54.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
       Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, response to SIGTARP data call, 4/9/2014.
55.	   Treasury, Section 105(a) Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20Monthly%20
       Report%20to%20Congress.pdf, accessed 4/10/2014; Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/
       reports/Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, response to
       SIGTARP data call, 4/9/2014.
56.	   Treasury, response to SIGTARP data call, 4/9/2014.
57.	   Treasury, response to SIGTARP draft report, 10/8/2010.
58.	   Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
       investment-programs/cdci/Pages/Overview.aspx, accessed 4/1/2014.
59.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
       Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
60.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
       Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
61.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
       Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
62.	   Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
       Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
63.	   Treasury, “Programs,” 5/7/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Pages/default.aspx, accessed
       4/1/2014.
64.	   Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
       9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 4/1/2014.
65.	   Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
       04.01.2014.pdf, accessed 4/2/2014.
66.	   Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
       04.01.2014.pdf, accessed 4/2/2014.
67.	   Treasury Press Release, “Financial Stability Oversight Council Makes First Nonbank Financial Company Designations to Address Potential
       Threats to Financial Stability,” 7/9/2013, www.treasury.gov/press-center/press-releases/Pages/jl2004.aspx, accessed 4/1/2014.
68.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
       OFS%20AFR%2009_24.pdf, accessed 4/1/2014.
69.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
       Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
70.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
       Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
71.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
       Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
72.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
       OFS%20AFR%2009_24.pdf, accessed 4/1/2014.
73.	   Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.treasury.gov/press-
       center/press-releases/Pages/hp1358.aspx, accessed 4/1/2014.
74.	   U.S. Senate, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Authorization to Provide Residual
       Financing to Citigroup, Inc. For a Designated Asset Pool,” 11/23/2008, www.banking.senate.gov/public/_files/Sec129ReportCitigroupDec12008.
       pdf, accessed 4/1/2014.
312             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      75.	    Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
              TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 4/1/2014.
      76.	    Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
              TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 4/1/2014.
      77.	    Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20
              Programs/aifp/Documents_Contracts_Agreements/AIFP_guidelines.pdf, accessed 4/1/2014.
      78.	    Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
              Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury Press Release, “Taxpayers to Receive $3.0 Billion from Sale of
              Ally Financial Common Stock,” 1/16/2014, www.treasury.gov/press-center/press-releases/Pages/jjl2258.aspx, accessed 4/1/2014.
      79.	    Treasury response to SIGTARP data call, 4/9/14; Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/reports/
              Documents/Daily_TARP_Update%20-%2004.01.2014.pdf, accessed 4/2/2014, Treasury, “Office of Financial Stability – Troubled Asset Relief
              Program Agency Financial Report Fiscal Year 2013,” 12/11/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/AFR_
              FY2013_TARP-12-11-13_Final.pdf, accessed 4/1/2014.
      80.	    Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/
              reports/Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, Daily TARP
              Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%2004.01.2014.pdf, accessed
              4/2/2014.
      81.	    Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
              Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      82.	    Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
              Dividends%20Interest%20Report.pdf, accessed 4/10/2014; Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-
              stability/reports/Documents/Daily_TARP_Update%20-%2004.01.2014.pdf, accessed 4/2/2014.
      83.	    Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
              Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      84.	    Treasury, response to SIGTARP data call, 4/9/2014.
      85.	    Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
              Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, response to SIGTARP data call, 4/9/2014.
      86.	    Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
              Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, response to SIGTARP data call, 4/9/2014.
      87.	    Treasury, Blog Posting, “Taxpayers Are One Step Closer to Exiting Ally,” www.treasury.gov/connect/blog/Pages/Taxpayers-are-One-Step-Closer-
              to-Exiting-Ally.aspx, accessed 4/4/2014; Ally Financial Press Release, “Ally Announces Private Placement of Common Stock and Plan to
              Repurchase Securities from U.S. Treasury,” 8/20/2013, media.ally.com/2013-08-20-Ally-Announces-Private-Placement-of-Common-Stock-and-
              Plan-to-Repurchase-Securities-from-U-S-Treasury, accessed 4/1/2014.
      88.	    Treasury, Daily TARP Update, 1/2/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
              1.2.2014.pdf, accessed 4/2/2014.
      89.	    Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
              Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-
              stability/reports/Documents/Daily_TARP_Update%20-%2004.01.2014.pdf, accessed 4/2/2014.
      90.	    Treasury Press Release, “Taxpayers to Recover $2.375 Billion from Ally Initial Public Offering,” 4/10/2014, www.treasury.gov/press-center/press-
              releases/Pages/jl2351.aspx, accessed 4/21/2014.
      91.	    Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
              Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, response to SIGTARP data call, 4/9/2014.
      92.	    Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
              tg1253.aspx, accessed 4/4/2014.
      93.	    Treasury, Section 105(a) Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20Monthly%20
              Report%20to%20Congress.pdf, accessed 4/11/2014.
      94.	    Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
              Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, response to SIGTARP data call, 4/9/2014.
      95.	    Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
              Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, response to SIGTARP data call, 4/9/2014.
      96.	    Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
              Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      97.	    Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 4/1/2014.
      98.	    FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 4/1/2014.
      99.	    FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
              4/1/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/
              TALF_recent_operations.html, accessed 4/1/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/
              markets/cmbs_operations.html, accessed 4/1/2014; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS, Recent Operations,” no date,
              www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed 4/1/2014; FRBNY, response to SIGTARP data call, 4/8/2014.
      100.	   FRBNY, response to SIGTARP data call, 4/8/2014.
      101.	   Treasury Press Release, “Treasury Announces Full Repayment with Interest for Investment Through TALF Financial Crisis Response Program
              Designed to Unlock Credit for Consumers, Businesses,” 1/15/2013, www.treasury.gov/press-center/press-releases/Pages/tg1821.aspx, accessed
              4/1/2014.
      102.	   FRBNY, response to SIGTARP data call, 4/8/2014.
      103.	   Treasury Press Release, “Treasury Department Releases Details on Public Private Partnership Investment Program,” 3/23/2009, www.treasury.
              gov/press-center/press-releases/Pages/tg65.aspx, accessed 4/1/2014.
      104.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
              Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, response to SIGTARP data call, 4/9/2014.
                                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                 313


105.	 Treasury, response to SIGTARP data call, 4/9/2014.
106.	 Treasury Press Release, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/
      tg58.aspx, accessed 4/1/2014.
107.	 Treasury Press Release, “Treasury Completes Wind Down of TARP Small Business Program, Realizes $8 Million Gain for Taxpayers,”1/25/2012,
      www.treasury.gov/press-center/press-releases/Pages/tg1398.aspx, accessed 4/1/2014.
108.	 Obama, Barack, “Remarks by the President on the Home Mortgage Crisis,” 2/18/2009, www.whitehouse.gov/the_press_office/Remarks-by-the-
      President-on-the-mortgage-crisis/, accessed 4/1/2014.
109.	 Treasury Press Release, “Homeowner Affordability and Stability Plan: Executive Summary,” 2/18/2009, www.treasury.gov/press-center/press-
      releases/Pages/tg33.aspx, accessed 4/1/2014.
110.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
111.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
112.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
113.	 Treasury, response to SIGTARP data call, 6/25/2013.
114.	 Congressional Budget Office, “Report on the Troubled Asset Relief Program,” 3/2010, www.cbo.gov/sites/default/files/cbofiles/ftpdocs/112xx/
      doc11227/03-17-tarp.pdf, accessed 4/1/2014.
115.	 Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
      04.01.2014.pdf, accessed 4/1/2014; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 4/1/2014.
116.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 4/1/2014.
117.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 4/1/2014.
118.	 Treasury, response to SIGTARP data call, 4/25/2014; Fannie Mae, response to SIGTARP data call, 4/24/2014.
119.	 Fannie Mae, response to SIGTARP vetting draft, 10/6/2010.
120.	 Treasury, response to SIGTARP data call, 4/25/2014.
121.	 Treasury, “Secretaries Geithner, Donovan Announce New Details of Making Home Affordable Program, Highlight Implementation Progress,”
      5/14/2009, www.treasury.gov/press-center/press-releases/Pages/tg131.aspx, accessed 4/1/2014.
122.	 Treasury, response to SIGTARP data call, 4/9/2014.
123.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
124.	 Treasury, response to SIGTARP data call, 4/25/2014.
125.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
126.	 Treasury, response to SIGTARP data call, 4/22/2014.
127.	 Treasury, “Home Affordable Foreclosure Alternatives Program: Overview,” no date, www.hmpadmin.com/portal/programs/foreclosure_
      alternatives.jsp, accessed 4/1/2014.
128.	 Treasury, response to SIGTARP data call, 4/25/2014.
129.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
130.	 Treasury, response to SIGTARP data call, 4/9/2014.
131.	 Treasury, response to SIGTARP data call, 4/9/2014.
132.	 Treasury, response to SIGTARP data call, 4/25/2014.
133.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014; Department of Veterans Affairs, “Revised VA Making Home
      Affordable Program, Circular 26-10-6,” 7/5/2012, www.benefits.va.gov/HOMELOANS/circulars/26_10_6_change1.pdf, accessed 4/1/2014.
134.	 VA, response to SIGTARP data call, 4/3/2014; Treasury, response to SIGTARP data call, 4/25/2014.
135.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 4/1/2014.
136.	 Treasury, response to SIGTARP data call, 4/9/2014.
137.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 4/1/2014.
138.	 Treasury, responses to SIGTARP data call, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.
      treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20
      -%203.18.14.pdf, accessed 4/1/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.
      hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 4/1/2014; Arizona (Home) Foreclosure Prevention Funding Corporation,
      “Hardest Hit Fund Reporting [quarterly performance reports],” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed
      4/1/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports,” no date,
      keepyourhomecalifornia.org/quarterly-reports/, accessed 4/1/2014; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF)
      Information, Quarterly Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 4/1/2014;
      GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/
      treasuryReports.asp, accessed 4/1/2014; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.
      illinoishardesthit.org/spv-7.aspx, accessed 4/1/2014; Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund,
      Quarterly Reports to the U.S. Treasury,” no date, www.877gethope.org/reports/, accessed 4/1/2014; Kentucky Housing Corporation, “American
      Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date,
      www.kyhousing.org/page.aspx?id=3165, accessed 4/1/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest
      Hit U.S. Treasury Reports,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 4/1/2014;
      Mississippi Home Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.
314             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



              com/about%20mhc/disclosures.htm, accessed 4/1/2014; Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund,
              US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/, accessed 4/1/2014; New Jersey Housing and Mortgage Finance Agency, “The
              New Jersey HomeKeeper Program, About the Program, Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed
              4/1/2014; North Carolina Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.
              ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 4/1/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly
              Reports,” ohiohome.org/savethedream/quarterlyreports.aspx, accessed 4/1/2014; Oregon Affordable Housing Assistance Corporation, “Oregon
              Homeownership Stabilization Initiative, Reporting,” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 4/1/2014; Rhode Island
              Housing and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_
              Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa7b_10737418238_10737418240_btnlink, accessed 4/1/2014; SC Housing
              Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/Reports.aspx, accessed 4/1/2014; Tennessee Housing Development Agency,
              “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.org/news-and-reports/, accessed 4/1/2014; District of Columbia Housing
              Finance Agency, “HomeSaver – A Foreclosure Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/
              ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed 4/1/2014; SIGTARP analysis of HFA quarterly performance reports.
      139.	   Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
              AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
              Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 4/1/2014.
      140.	   Treasury, response to SIGTARP data call, 4/25/2014.
      141.	   Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
              04.01.2014.pdf, accessed 4/1/2014; Treasury, response to SIGTARP data call, 4/9/2014.
      142.	   Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
              04.01.2014.pdf, accessed 4/1/2014; Treasury, response to SIGTARP data call, 4/9/2014.
      143.	   Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/
              financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 4/1/2014.
      144.	   Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014.
      145.	   Treasury, responses to SIGTARP data calls, 7/5/2013, 10/3/2013, 10/17/2013, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly
              Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20
              HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama,
              Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 4/1/2014; Arizona (Home) Foreclosure
              Prevention Funding Corporation, “Hardest Hit Fund Reporting [quarterly performance reports],” no date, www.azhousing.gov/ShowPage.
              aspx?ID=405&CID=11, accessed 4/1/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics,
              Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 4/1/2014; Florida Housing Finance Corporation,
              “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.
              aspx?PAGE=0277, accessed 4/1/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.
              state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 4/1/2014; Illinois Housing Development Authority, “Illinois
              Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 4/1/2014; Indiana Housing and Community
              Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date, www.877gethope.org/reports/,
              accessed 4/1/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled Asset Relief Program,
              Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed 4/1/2014;
              Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.gov/
              mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 4/1/2014; Mississippi Home Corporation, “Financial Disclosures,
              Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 4/1/2014;
              Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.
              nv.gov/, accessed 4/1/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
              Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 4/1/2014; North Carolina Housing Finance Agency, “Hardest
              Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
              4/1/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
              accessed 4/1/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no date,
              www.oregonhomeownerhelp.org/en/reporting, accessed 4/1/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit
              Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580
              fa7b_10737418238_10737418240_btnlink, accessed 4/1/2014; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/
              Reports.aspx, accessed 4/1/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.
              org/news-and-reports/, accessed 4/1/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention
              Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/
              Default.aspx, accessed 4/1/2014; SIGTARP analysis of HFA quarterly performance reports.
      146.	   Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
              04.01.2014.pdf, accessed 4/1/2014; Treasury, Daily TARP Update, 4/1/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/
              Daily%20TARP%20Update%20-%2004%2001%202013.pdf, accessed 4/1/2014; Treasury, briefing to SIGTARP and other Federal agency staff,
              3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-
              stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/Citi%20Amendment%201%20to%20Facility%20Purchase%20
              Agreement.pdf, accessed 4/1/2014.
      147.	   Treasury, response to SIGTARP data call, 4/9/2014.
      148.	   Treasury, response to SIGTARP data call, 4/9/2014.
      149.	   SIGTARP, “Quarterly Report to Congress,” 10/26/2010, www.sigtarp.gov/Quarterly%20Reports/October2010_Quarterly_Report_to_Congress.
              pdf, accessed 4/1/2014; Treasury, response to SIGTARP data call, 4/9/2014.
      150.	   Treasury, responses to SIGTARP data calls, 4/9/2014 and 4/25/2014.
      151.	   Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 4/1/2014; Treasury, response to SIGTARP data call, 4/9/2014.
                                                                                         QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014              315


152.	 Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Transactions Report-Housing Programs, 3/27/2014, www.treasury.gov/initiatives/
      financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2003.27.2014.pdf, accessed 4/1/2014.
153.	 Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.
      treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20
      -%203.18.14.pdf, accessed 4/1/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.
      hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 4/1/2014; Arizona (Home) Foreclosure Prevention Funding Corporation,
      “Hardest Hit Fund Reporting [quarterly performance reports],” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed
      4/1/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports,” no date,
      keepyourhomecalifornia.org/quarterly-reports/, accessed 4/1/2014; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF)
      Information, Quarterly Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 4/1/2014;
      GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/
      treasuryReports.asp, accessed 4/1/2014; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.
      illinoishardesthit.org/spv-7.aspx, accessed 4/1/2014; Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund,
      Quarterly Reports to the U.S. Treasury,” no date, www.877gethope.org/reports/, accessed 4/1/2014; Kentucky Housing Corporation, “American
      Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date,
      www.kyhousing.org/page.aspx?id=3165, accessed 4/1/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest
      Hit U.S. Treasury Reports,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 4/1/2014;
      Mississippi Home Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.
      com/about%20mhc/disclosures.htm, accessed 4/1/2014; Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund,
      US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/, accessed 4/1/2014; New Jersey Housing and Mortgage Finance Agency, “The
      New Jersey HomeKeeper Program, About the Program, Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed
      4/1/2014; North Carolina Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.
      ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 4/1/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly
      Reports,” ohiohome.org/savethedream/quarterlyreports.aspx, accessed 4/1/2014; Oregon Affordable Housing Assistance Corporation, “Oregon
      Homeownership Stabilization Initiative, Reporting,” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 4/1/2014; Rhode Island
      Housing and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_
      Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa7b_10737418238_10737418240_btnlink, accessed 4/1/2014; SC Housing
      Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/Reports.aspx, accessed 4/1/2014; Tennessee Housing Development Agency,
      “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.org/news-and-reports/, accessed 4/1/2014; District of Columbia Housing
      Finance Agency, “HomeSaver – A Foreclosure Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/
      ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed 4/1/2014; SIGTARP analysis of HFA quarterly performance reports.
154.	 Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
      AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
      Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 4/1/2014.
155.	 Treasury, responses to SIGTARP data calls, 4/9/2014 and 4/25/2014.
156.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
157.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
158.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
159.	 Treasury, response to SIGTARP data call, 4/22/2014.
160.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010;
      SIGTARP analysis of Treasury HAMP data.
161.	 SIGTARP analysis of Treasury HAMP data.
162.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
163.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
164.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
165.	 Freddie Mac, “Primary Mortgage Market Survey Archives,” www.freddiemac.com/pmms/pmms_archives.html, accessed 4/1/2014; SIGTARP
      analysis of Treasury HAMP data.
166.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
167.	 SIGTARP analysis of Treasury HAMP data.
168.	 SIGTARP analysis of Treasury HAMP data.
169.	 SIGTARP analysis of Treasury HAMP data.
170.	 SIGTARP analysis of Treasury HAMP data.
171.	 SIGTARP analysis of Treasury HAMP data.
172.	 SIGTARP analysis of Treasury HAMP data.
173.	 SIGTARP analysis of Treasury HAMP data.
174.	 SIGTARP analysis of Treasury HAMP data.
175.	 SIGTARP analysis of Treasury HAMP data.
176.	 SIGTARP analysis of Treasury HAMP data.
177.	 Treasury, response to SIGTARP data call, 4/25/2014; Fannie Mae, response to SIGTARP data call, 4/24/2014; OCC, “Mortgage Metrics Report,
      Fourth Quarter 2013,” 3/27/2014, www.occ.gov/publications/publications-by-type/other-publications-reports/index-mortgage-metrics.html,
      accessed 4/21/2014; In its “Mortgage Metrics Report, Fourth Quarter 2013,” OCC compared a snapshot of HAMP permanent modifications
316             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



              and private modifications, from the fourth quarter of 2011 through the third quarter of 2013, between three and 15 months after the
              modifications became effective, and 60 or more days late on payments.
      178.	   Treasury, responses to SIGTARP data calls, 4/9/2014 and 4/25/2014.
      179.	   SIGTARP analysis of Treasury HAMP data.
      180.	   Treasury, responses to SIGTARP data calls, 4/19/2013, 5/23/2013, 7/19/2013, 10/21/2013,10/23/2013, 1/24/2014 and 4/25/2014; Fannie Mae,
              responses to SIGTARP data calls, 4/19/2013, 5/2212013, 10/21/2013, 10/23/2013 and 4/24/2014.
      181.	   Treasury, “HAMP Redefault Tables 1-16-March 2014,” accessed 4/25/2014.
      182.	   Treasury, “HAMP Redefault Tables 1-16-March 2014,” accessed 4/25/2014.
      183.	   Treasury, responses to SIGTARP data calls, 4/18/2014.
      184.	   Treasury, responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, 4/19/2013, 5/23/2013,
              10/21/2013,10/23/2013,1/24/2014 and 4/25/2014; Fannie Mae, responses to SIGTARP data calls, 4/19/2013, 5/22/2013, 10/21/2013,1/23/2014
              and 4/24/2014.
      185.	   Treasury, response to SIGTARP data call, 4/25/2014; Fannie Mae, response to SIGTARP data call, 4/24/2014.
      186.	   Treasury, response to SIGTARP data call, 4/25/2014; Fannie Mae, response to SIGTARP data call, 4/24/2014.
      187.	   Treasury, responses to SIGTARP data calls, 4/9/2014 and 4/25/2014; Fannie Mae, response to SIGTARP data call, 4/24/2014.
      188.	   Treasury, responses to SIGTARP data calls, 4/9/2014 and 4/25/2014; Fannie Mae, response to SIGTARP data call, 4/24/2014.
      189.	   Treasury, response to SIGTARP data call, 4/9/2014.
      190.	   Treasury, response to SIGTARP data call, 4/9/2014.
      191.	   Treasury, response to SIGTARP data call, 4/9/2014.
      192.	   Treasury, response to SIGTARP data call, 4/9/2014.
      193.	   Treasury, response to SIGTARP data call, 4/25/2014.
      194.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
      195.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
      196.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
      197.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
      198.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
      199.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
      200.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
      201.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
      202.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
      203.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
      204.	   SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
              Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 4/1/2014.
      205.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
      206.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
      207.	   Treasury, response to SIGTARP data call, 4/25/2014; Fannie Mae, response to SIGTARP data call, 4/24/2014.
      208.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
      209.	   SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
              Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 4/1/2014.
      210.	   SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
              Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 4/1/2014.
      211.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
      212.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
      213.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
      214.	   Treasury, “Supplemental Directive 13-08, Making Home Affordable Program – Borrower Post-Modification Counseling and Servicer Incentives,”
              9/30/2013, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1308.pdf, accessed 4/1/2014.
      215.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
      216.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014              317


217.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
218.	 Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Transactions Report-Housing Programs, 12/27/2012, www.treasury.gov/initiatives/
      financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2012.pdf, accessed 4/1/2014.
219.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
220.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
221.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
222.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
      Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 4/1/2014.
223.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
224.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
225.	 Treasury, response to SIGTARP data call, 4/22/2014.
226.	 Treasury, response to SIGTARP data call, 4/9/2014.
227.	 Treasury, response to SIGTARP data call, 4/9/2014.
228.	 Treasury, response to SIGTARP data call, 11/2/2012.
229.	 Treasury, responses to SIGTARP data calls, 4/9/2014 and 4/22/2014.
230.	 Treasury, response to SIGTARP data call, 4/22/2014.
231.	 Treasury, response to SIGTARP data call, 4/22/2014.
232.	 Treasury, response to SIGTARP data call, 4/22/2014.
233.	 Treasury, response to SIGTARP data call, 4/22/2014.
234.	 Treasury, response to SIGTARP data call, 4/22/2014.
235.	 Treasury, response to SIGTARP data call, 4/22/2014.
236.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
237.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
238.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
239.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
240.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
241.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
242.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
243.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
244.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
245.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014.
246.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
      www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
      4/1/2014.
247.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
      www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
      4/1/2014.
248.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.3,” 9/16/2013, www.
      hmpadmin.com/portal/programs/docs/hamp_servicer/mhahandbook_43.pdf, accessed 4/1/2014; NeighborWorks, “Making Home
      Affordable Outreach and Intake Project Funding Announcement, Revised,” 3/7/2013, www.nw.org/network/foreclosure/documents/
      MHAOutreachandIntakeProjectFundingAnnouncementRevised3713.pdf, accessed 4/1/2014; NeighborWorks, “Making Home Affordable
      Outreach and Intake Project Eligible Applicant Briefing for NeighborWorks Organizations,” 3/6/2013.
249.	 Treasury, “MEMORANDUM OF AGREEMENT Between the U.S. Department of the Treasury and NeighborWorks America,” 2/14/2013,
      www.treasury.gov/initiatives/financial-stability/Documents/NeighborWorks%20America%20Memorandum%20of%20Agreement.pdf, accessed
      4/1/2014.
250.	 Treasury, response to SIGTARP data call, 4/9/2014.
251.	 Treasury, response to SIGTARP data call, 4/9/2014.
252.	 Treasury, response to SIGTARP data call, 4/9/2014.
253.	 The White House, “Help for the Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/help-hardest-hit-housing-
      markets, accessed 4/1/2014; Treasury, “White House: Help for the Hardest Hit Housing Markets,” 2/19/2010, www.makinghomeaffordable.gov/
      about-mha/latest-news/Pages/pr_02192010.aspx, accessed 4/1/2014.
318            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      254.	 The White House, “Help for the Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/help-hardest-hit-housing-
            markets, accessed 4/1/2014; Treasury, “White House: Help for the Hardest Hit Housing Markets,” 2/19/2010, www.makinghomeaffordable.gov/
            about-mha/latest-news/Pages/pr_02192010.aspx, accessed 4/1/2014.
      255.	 Treasury, responses to SIGTARP data calls, 10/7/2013 and 10/17/2013; The White House, “Help for the Hardest Hit Housing Markets,”
            2/19/2010, www.whitehouse.gov/the-press-office/help-hardest-hit-housing-markets, accessed 4/1/2014; www.treasury.gov/initiatives/financial-
            stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 4/1/2014; Treasury, “White House: Help for the Hardest Hit
            Housing Markets,” 2/19/2010, www.makinghomeaffordable.gov/about-mha/latest-news/Pages/pr_02192010.aspx, accessed 4/1/2014; Treasury,
            “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/
            Pages/Archival-information.aspx, accessed 4/1/2014; Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.makinghomeaffordable.
            gov/about-mha/latest-news/Pages/pr_03052010.aspx, accessed 4/1/2014; Treasury, “HFA Hardest-Hit Fund Frequently Asked Questions,”
            3/5/3010, www.makinghomeaffordable.gov/programs/Documents/HFA%20FAQ%20--%20030510%20FINAL%20(Clean).pdf, accessed
            4/1/2014; Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.
            gov/press-center/press-releases/Pages/tg618.aspx, accessed 4/1/2014; Treasury, “Hardest Hit Fund Program Guidelines Round 2,” 3/29/2010,
            www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 4/1/2014; Treasury,
            “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling with
            Unemployment,” 8/11/2010, www.treasury.gov/press-center/press-releases/Pages/tg1042.aspx, accessed 4/1/2014; Treasury, “Hardest Hit
            Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/HFA%20
            Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 4/1/2014; Treasury, “Obama Administration Approves State Plans for
            Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” 6/23/2010, www.treasury.gov/press-center/press-releases/Pages/
            tg757.aspx, accessed 4/1/2014; Treasury, “Obama Administration Approves State Plans For $600 million of ‘Hardest Hit Fund’ Foreclosure
            Prevention Assistance,” 8/4/2010, www.treasury.gov/press-center/press-releases/Pages/tg813.aspx, accessed 4/1/2014; Treasury, Transactions
            Report, 9/29/2010, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-1-10%20Transactions%20Report%20as%20of%20
            9-29-10.pdf, accessed 4/1/2014; Treasury, “HFA Hardest-Hit Fund Program Summary,” 11/3/2010, www.ncsha.org/system/files/resources/Treas_
            Overview_11.03.10.pdf, accessed 4/1/2014.
      256.	 Treasury, “HFA Hardest-Hit Fund Frequently Asked Questions,” 3/5/3010, www.makinghomeaffordable.gov/programs/Documents/HFA%20
            FAQ%20--%20030510%20FINAL%20(Clean).pdf, accessed 4/1/2014; Treasury, “Administration Announces Second Round of Assistance
            for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-center/press-releases/Pages/tg618.aspx, accessed 4/1/2014; Treasury,
            “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling with
            Unemployment,” 8/11/2010, www.treasury.gov/press-center/press-releases/Pages/tg1042.aspx, accessed 4/1/2014; Treasury, Transactions Report,
            9/29/2010, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-1-10%20Transactions%20Report%20as%20of%209-29-10.pdf,
            accessed 4/1/2014.
      257.	 Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
            hhf/Pages/Archival-information.aspx, accessed 4/1/2014; Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.makinghomeaffordable.
            gov/about-mha/latest-news/Pages/pr_03052010.aspx, accessed 4/1/2014; Treasury, “Hardest Hit Fund Program Guidelines Round 2,”
            3/29/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 4/1/2014;
            Treasury, “Hardest Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
            Documents/HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 4/1/2014; Treasury, “Obama Administration
            Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” 6/23/2010, www.treasury.gov/press-center/
            press-releases/Pages/tg757.aspx, accessed 4/1/2014; Treasury, “Obama Administration Approves State Plans For $600 million of ‘Hardest
            Hit Fund’ Foreclosure Prevention Assistance,” 8/4/2010, www.treasury.gov/press-center/press-releases/Pages/tg813.aspx, accessed 4/1/2014;
            Treasury, “HFA Hardest-Hit Fund Program Summary,” 11/3/2010, www.ncsha.org/system/files/resources/Treas_Overview_11.03.10.pdf, accessed
            4/1/2014.
      258.	 Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
            hhf/Pages/Archival-information.aspx, accessed 4/1/2014; Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.makinghomeaffordable.
            gov/about-mha/latest-news/Pages/pr_03052010.aspx, accessed 4/1/2014; Treasury, “Hardest Hit Fund Program Guidelines Round 2,”
            3/29/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 4/1/2014;
            Treasury, “Hardest Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
            Documents/HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 4/1/2014; Treasury, “Obama Administration
            Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” 6/23/2010, www.treasury.gov/press-center/
            press-releases/Pages/tg757.aspx, accessed 4/1/2014; Treasury, “Obama Administration Approves State Plans For $600 million of ‘Hardest
            Hit Fund’ Foreclosure Prevention Assistance,” 8/4/2010, www.treasury.gov/press-center/press-releases/Pages/tg813.aspx, accessed 4/1/2014;
            Treasury, “HFA Hardest-Hit Fund Program Summary,” 11/3/2010, www.ncsha.org/system/files/resources/Treas_Overview_11.03.10.pdf,
            accessed 4/1/2014; Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements, Amendments, and Initial Program
            Guidelines,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed
            4/1/2014; SIGTARP analysis of HFA participation agreements and amendments.
      259.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
            6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 4/1/2014.
      260.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
            6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 4/1/2014.
      261.	 Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-
            center/press-releases/Pages/tg618.aspx, accessed 4/1/2014.
      262.	 National Council of State Housing Agencies, “Hardest Hit Foreclosure Initiative,” no date, www.ncsha.org/advocacy-issues/hardest-hit-
            foreclosure-initiative, accessed 4/1/2014.
      263.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
            with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
            4/1/2014.
                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014               319


264.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure Prevention Programs to Help Homeowners Struggling
      With Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
      4/1/2014.
265.	 Treasury, Transactions Report-Housing Programs, 12/27/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2012.27.2012.pdf, accessed 4/1/2014.
266.	 Treasury, “TARP: Two Year Retrospective,” 10/5/2010, pp. 76, 98, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_
      reports/Documents/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 4/1/2014.
267.	 Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014 and 4/9/2014; Treasury, “Hardest Hit Fund, Archived Program Information,
      Participation Agreements, Amendments, and Initial Program Guidelines,” no date, www.treasury.gov/initiatives/financial-stability/TARP-
      Programs/housing/hhf/Pages/Archival-information.aspx, accessed 4/1/2014; SIGTARP analysis of HFA participation agreements and
      amendments.
268.	 Treasury, “Hardest Hit Fund: Program Purpose and Overview,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
      hhf/Pages/default.aspx, accessed 4/1/2014.
269.	 Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014 and 4/9/2014.
270.	 Treasury, Monthly Report to Congress, 2/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/January%202014%20
      Monthly%20Report%20to%20Congress.pdf, accessed 4/21/2014; Treasury, response to SIGTARP data call, 4/9/2014.
271.	 Treasury, Monthly Report to Congress, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Monthly%20Report%20to%20Congress.pdf, accessed 4/21/2014.
272.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014
      and 4/9/2014.
273.	 Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014 and 4/9/2014.
274.	 Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
      date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
      Report%20-%203.18.14.pdf, accessed 4/1/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.
      hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 4/1/2014; Arizona (Home) Foreclosure Prevention Funding Corporation,
      “Hardest Hit Fund Reporting [quarterly performance reports],” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed
      4/1/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports,” no date,
      keepyourhomecalifornia.org/quarterly-reports/, accessed 4/1/2014; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF)
      Information, Quarterly Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 4/1/2014;
      GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/
      treasuryReports.asp, accessed 4/1/2014; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.
      illinoishardesthit.org/spv-7.aspx, accessed 4/1/2014; Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund,
      Quarterly Reports to the U.S. Treasury,” no date, www.877gethope.org/reports/, accessed 4/1/2014; Kentucky Housing Corporation, “American
      Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date,
      www.kyhousing.org/page.aspx?id=3165, accessed 4/1/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest
      Hit U.S. Treasury Reports,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 4/1/2014;
      Mississippi Home Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.
      com/about%20mhc/disclosures.htm, accessed 4/1/2014; Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund,
      US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/, accessed 4/1/2014; New Jersey Housing and Mortgage Finance Agency, “The
      New Jersey HomeKeeper Program, About the Program, Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed
      4/1/2014; North Carolina Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.
      ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 4/1/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly
      Reports,” ohiohome.org/savethedream/quarterlyreports.aspx, accessed 4/1/2014; Oregon Affordable Housing Assistance Corporation, “Oregon
      Homeownership Stabilization Initiative, Reporting,” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 4/1/2014; Rhode Island
      Housing and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_
      Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa7b_10737418238_10737418240_btnlink, accessed 4/1/2014; SC Housing
      Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/Reports.aspx, accessed 4/1/2014; Tennessee Housing Development Agency,
      “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.org/news-and-reports/, accessed 4/1/2014; District of Columbia Housing
      Finance Agency, “HomeSaver – A Foreclosure Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/
      ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed 4/1/2014; SIGTARP analysis of HFA quarterly performance reports.
275.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
      and 4/9/2014.
276.	 Treasury, response to SIGTARP data call, 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/
      initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.
      pdf, accessed 4/1/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.
      com/resources/treasury_reporting.aspx, accessed 4/1/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund
      Reporting [quarterly performance reports],” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 4/1/2014; CalHFA
      Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.
      org/quarterly-reports/, accessed 4/1/2014; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly
      Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 4/1/2014; GHFA Affordable
      Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.
      asp, accessed 4/1/2014; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.
      org/spv-7.aspx, accessed 4/1/2014; Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports
      to the U.S. Treasury,” no date, www.877gethope.org/reports/, accessed 4/1/2014; Kentucky Housing Corporation, “American Recovery and
320             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



              Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.
              org/page.aspx?id=3165, accessed 4/1/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury
              Reports,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 4/1/2014; Mississippi Home
              Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/
              disclosures.htm, accessed 4/1/2014; Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,”
              no date, nevadahardesthitfund.nv.gov/, accessed 4/1/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper
              Program, About the Program, Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 4/1/2014; North Carolina Housing
              Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_
              funds.aspx, accessed 4/1/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/
              quarterlyreports.aspx, accessed 4/1/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization
              Initiative, Reporting,” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 4/1/2014; Rhode Island Housing and Mortgage Finance
              Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=1
              0737418256&ekmensel=c580fa7b_10737418238_10737418240_btnlink, accessed 4/1/2014; SC Housing Corp, “SC HELP, Reports,” no
              date, www.schelp.gov/Resources/Reports.aspx, accessed 4/1/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home,
              Reports,” no date, www.keepmytnhome.org/news-and-reports/, accessed 4/1/2014; District of Columbia Housing Finance Agency, “HomeSaver
              – A Foreclosure Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/
              QuarterlyReports/tabid/219/Default.aspx, accessed 4/1/2014; SIGTARP analysis of HFA quarterly performance reports.
      277.	   Treasury, response to SIGTARP data call, 4/9/2014.
      278.	   Treasury, response to SIGTARP data call, 4/9/2014.
      279.	   Treasury, response to SIGTARP data call, 4/9/2014.
      280.	   Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.
              treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20
              -%203.18.14.pdf, accessed 4/1/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.
              hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 4/1/2014; Arizona (Home) Foreclosure Prevention Funding Corporation,
              “Hardest Hit Fund Reporting [quarterly performance reports],” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed
              4/1/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports,” no date,
              keepyourhomecalifornia.org/quarterly-reports/, accessed 4/1/2014; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF)
              Information, Quarterly Reports,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 4/1/2014;
              GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/
              treasuryReports.asp, accessed 4/1/2014; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.
              illinoishardesthit.org/spv-7.aspx, accessed 4/1/2014; Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund,
              Quarterly Reports to the U.S. Treasury,” no date, www.877gethope.org/reports/, accessed 4/1/2014; Kentucky Housing Corporation, “American
              Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date,
              www.kyhousing.org/page.aspx?id=3165, accessed 4/1/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest
              Hit U.S. Treasury Reports,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 4/1/2014;
              Mississippi Home Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.
              com/about%20mhc/disclosures.htm, accessed 4/1/2014; Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund,
              US Treasury Reports,” no date, nevadahardesthitfund.nv.gov/, accessed 4/1/2014; New Jersey Housing and Mortgage Finance Agency, “The
              New Jersey HomeKeeper Program, About the Program, Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed
              4/1/2014; North Carolina Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.
              ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 4/1/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly
              Reports,” ohiohome.org/savethedream/quarterlyreports.aspx, accessed 4/1/2014; Oregon Affordable Housing Assistance Corporation, “Oregon
              Homeownership Stabilization Initiative, Reporting,” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 4/1/2014; Rhode Island
              Housing and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_
              Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa7b_10737418238_10737418240_btnlink, accessed 4/1/2014; SC Housing
              Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/Reports.aspx, accessed 4/1/2014; Tennessee Housing Development Agency,
              “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.org/news-and-reports/, accessed 4/1/2014; District of Columbia Housing
              Finance Agency, “HomeSaver – A Foreclosure Prevention Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/
              ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed 4/1/2014; SIGTARP analysis of HFA quarterly performance reports.
      281.	   Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements and Initial Program Guidelines,” no date, www.treasury.
              gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 4/1/2014; SIGTARP analysis of HFA
              participation agreements and amendments.
      282.	   Treasury, “Hardest Hit Fund, Archived Program Information, Participation Agreements and Initial Program Guidelines,” no date, www.treasury.
              gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 4/1/2014; SIGTARP analysis of HFA
              participation agreements and amendments.
      283.	   Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014.
      284.	   Treasury, “Hardest Hit Fund Program Guidelines Round 1,” 2/19/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
              housing/hhf/Pages/Archival-information.aspx, accessed 4/1/2014; Treasury, “Hardest Hit Fund Program Guidelines Round 2,” 3/29/2010, www.
              treasury.gov/initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 4/1/2014; Treasury, “Hardest
              Hit Fund Program Guidelines Round 3,” 8/11/2010, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/
              HFA%20Proposal%20Guidelines%20Third%20Funding%20FINAL.pdf, accessed 4/1/2014; Treasury, “Hardest Hit Fund, Archived Program
              Information, Aggregate Program Data and Agreements (Proposals, Participation Agreements, and Amendments),” no date, www.treasury.gov/
              initiatives/financial-stability/TARP-Programs/housing/hhf/Pages/Archival-information.aspx, accessed 4/1/2014; Alabama Housing Finance
              Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
              4/1/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting [quarterly performance reports],”
              no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 4/1/2014; CalHFA Mortgage Assistance Corporation, “Keep Your
                                                                                        QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014             321


      Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 4/1/2014;
      Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports” no date, apps.floridahousing.
      org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 4/1/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
      Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 4/1/2014; Illinois Housing
      Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 4/1/2014;
      Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
      www.877gethope.org/reports/, accessed 4/1/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
      Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
      4/1/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
      gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 4/1/2014; Mississippi Home Corporation, “Financial Disclosures,
      Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 4/1/2014;
      Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.
      nv.gov/, accessed 4/1/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
      Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 4/1/2014; North Carolina Housing Finance Agency, “Hardest
      Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
      4/1/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
      accessed 4/1/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no date,
      www.oregonhomeownerhelp.org/en/reporting, accessed 4/1/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit
      Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580
      fa7b_10737418238_10737418240_btnlink, accessed 4/1/2014; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/
      Reports.aspx, accessed 4/1/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.
      org/news-and-reports/, accessed 4/1/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention
      Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/
      Default.aspx, accessed 4/1/2014; SIGTARP analysis of HFA quarterly performance reports.
285.	 Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
      Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Alabama Housing Finance
      Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
      4/1/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting [quarterly performance reports],”
      no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 4/1/2014; CalHFA Mortgage Assistance Corporation, “Keep Your
      Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 4/1/2014;
      Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.
      org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 4/1/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
      Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 4/1/2014; Illinois Housing
      Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 4/1/2014;
      Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
      www.877gethope.org/reports/, accessed 4/1/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
      Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
      4/1/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
      gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 4/1/2014; Mississippi Home Corporation, “Financial Disclosures,
      Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 4/1/2014;
      Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.
      nv.gov/, accessed 4/1/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
      Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 4/1/2014; North Carolina Housing Finance Agency, “Hardest
      Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
      4/1/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
      accessed 4/1/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no date,
      www.oregonhomeownerhelp.org/en/reporting, accessed 4/1/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit
      Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580
      fa7b_10737418238_10737418240_btnlink, accessed 4/1/2014; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/
      Reports.aspx, accessed 4/1/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.
      org/news-and-reports/, accessed 4/1/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention
      Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/
      Default.aspx, accessed 4/1/2014; SIGTARP analysis of HFA quarterly performance reports.
286.	 Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
      Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Alabama Housing Finance
      Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
      4/1/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting [quarterly performance reports],”
      no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 4/1/2014; CalHFA Mortgage Assistance Corporation, “Keep Your
      Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 4/1/2014;
      Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.
      org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 4/1/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
      Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 4/1/2014; Illinois Housing
      Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 4/1/2014;
      Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
      www.877gethope.org/reports/, accessed 4/1/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
      Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
      4/1/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
322             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



              gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 4/1/2014; Mississippi Home Corporation, “Financial Disclosures,
              Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 4/1/2014;
              Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.
              nv.gov/, accessed 4/1/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
              Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 4/1/2014; North Carolina Housing Finance Agency, “Hardest
              Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
              4/1/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
              accessed 4/1/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no date,
              www.oregonhomeownerhelp.org/en/reporting, accessed 4/1/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit
              Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580
              fa7b_10737418238_10737418240_btnlink, accessed 4/1/2014; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/
              Reports.aspx, accessed 4/1/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.
              org/news-and-reports/, accessed 4/1/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention
              Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/
              Default.aspx, accessed 4/1/2014; SIGTARP analysis of HFA quarterly performance reports.
      287.	   Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
              Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Alabama Housing Finance
              Authority, “Hardest Hit Alabama, Treasury Reports,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed
              4/1/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting [quarterly performance reports],”
              no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 4/1/2014; CalHFA Mortgage Assistance Corporation, “Keep Your
              Home California, Reports & Statistics, Quarterly Reports,” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 4/1/2014;
              Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF) Information, Quarterly Reports,” no date, apps.floridahousing.
              org/StandAlone/FHFC_ECM/ContentPage.aspx?PAGE=0277, accessed 4/1/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US
              Treasury Reports,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 4/1/2014; Illinois Housing
              Development Authority, “Illinois Hardest Hit Program, Reporting,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 4/1/2014;
              Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury,” no date,
              www.877gethope.org/reports/, accessed 4/1/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled
              Asset Relief Program, Kentucky Unemployment Bridge Program [quarterly reports],” no date, www.kyhousing.org/page.aspx?id=3165, accessed
              4/1/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports,” no date, www.michigan.
              gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 4/1/2014; Mississippi Home Corporation, “Financial Disclosures,
              Hardest Hit Fund, HFA Performance Data Report[s],” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 4/1/2014;
              Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports,” no date, nevadahardesthitfund.
              nv.gov/, accessed 4/1/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program,
              Performance Reports,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 4/1/2014; North Carolina Housing Finance Agency, “Hardest
              Hit Fund™ & Performance Reporting, …Quarterly Reports,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
              4/1/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports,” ohiohome.org/savethedream/quarterlyreports.aspx,
              accessed 4/1/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting,” no date,
              www.oregonhomeownerhelp.org/en/reporting, accessed 4/1/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit
              Fund – Rhode Island, About HHFRI, REPORTS,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580
              fa7b_10737418238_10737418240_btnlink, accessed 4/1/2014; SC Housing Corp, “SC HELP, Reports,” no date, www.schelp.gov/Resources/
              Reports.aspx, accessed 4/1/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports,” no date, www.keepmytnhome.
              org/news-and-reports/, accessed 4/1/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention
              Program[quarterly performance reports],” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/
              Default.aspx, accessed 4/1/2014; SIGTARP analysis of HFA quarterly performance reports.
      288.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date,
              www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
              Report%20-%203.18.14.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 7/5/2013, 10/17/2013, 1/17/2014 and 4/9/2014.
      289.	   Treasury, responses to SIGTARP data calls, 10/7/2013, 10/17/2013, 1/17/2014 and 4/9/2014; Rhode Island Housing and Mortgage Finance
              Corporation, “HHFRI News,” no date, www.hhfri.org, accessed 4/1/2014; Illinois Housing Development Authority, “Welcome to the Illinois
              Hardest Hit Program,” no date, www.illinoishardesthit.org, accessed 4/1/2014; New Jersey Housing and Mortgage Finance Agency, “The New
              Jersey HomeKeeper Program,” no date, www.njhomekeeper.com, accessed 4/1/2014.
      290.	   Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Rhode Island Housing and Mortgage Finance Corporation, “HHFRI
              News,” no date, www.hhfri.org, accessed 4/1/2014.
      291.	   Treasury, responses to SIGTARP data calls, 10/7/2013, 1/17/2014 and 4/9/2014; Illinois Housing Development Authority, “Welcome to the
              Illinois Hardest Hit Program,” no date, www.illinoishardesthit.org, accessed 4/1/2014.
      292.	   Treasury, responses to SIGTARP data calls, 10/7/2013, 1/17/2014 and 4/9/2014; New Jersey Housing and Mortgage Finance Agency, “The New
              Jersey HomeKeeper Program,” no date, www.njhomekeeper.com/, accessed 4/1/2014.
      293.	   Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014.
      294.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
      295.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and
              4/9/2014.
      296.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
              4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014               323


        date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
        Report%20-%203.18.14.pdf, accessed 4/1/2014; Alabama Housing Finance Authority, “Hardest Hit Alabama, Treasury Reports, 2013, 4th
        Quarter,” no date, www.hardesthitalabama.com/resources/treasury_reporting.aspx, accessed 4/1/2014; SIGTARP analysis of Alabama Housing
        Finance Authority quarterly performance report.
297.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and
        4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
        housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Alabama Housing
        Finance Authority, “Hardest Hit Alabama, Treasury Reports, 2013, 4th Quarter,” no date, www.hardesthitalabama.com/resources/treasury_
        reporting.aspx, accessed 4/1/2014; SIGTARP analysis of Alabama Housing Finance Authority HFA quarterly performance report.
298.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
299.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
        and 4/9/2014.
300.	   Treasury, responses to SIGTARP data calls, 7/5/2013, 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.
        gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014;
        Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.
        treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20
        -%203.18.14.pdf, accessed 4/1/2014; Arizona (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting, Hardest
        Hit Fund-4th Quarter 2013,” no date, www.azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 4/1/2014; SIGTARP analysis of Arizona
        (Home) Foreclosure Prevention Funding Corporation quarterly performance report.
301.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 7/5/2013, 10/7/2013,
        1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-
        Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Arizona
        (Home) Foreclosure Prevention Funding Corporation, “Hardest Hit Fund Reporting, Hardest Hit Fund-4th Quarter 2013,” no date, www.
        azhousing.gov/ShowPage.aspx?ID=405&CID=11, accessed 4/1/2014; SIGTARP analysis of Arizona (Home) Foreclosure Prevention Funding
        Corporation quarterly performance report.
302.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
303.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
        and 4/9/2014.
304.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
        treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
        4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
        date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
        Report%20-%203.18.14.pdf, accessed 4/1/2014; CalHFA Mortgage Assistance Corporation, “Keep Your Home California, Reports & Statistics,
        Quarterly Reports, 2013, Fourth Quarter (Period ending 12/31/13),” no date, keepyourhomecalifornia.org/quarterly-reports/, accessed 4/1/2014;
        SIGTARP analysis of CalHFA Mortgage Assistance Corporation quarterly performance report.
305.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and
        4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
        housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; CalHFA Mortgage
        Assistance Corporation, “Keep Your Home California, Reports & Statistics, Quarterly Reports, 2013, Fourth Quarter (Period ending 12/31/13),”
        no date, keepyourhomecalifornia.org/quarterly-reports, accessed 4/1/2014; SIGTARP analysis of CalHFA Mortgage Assistance Corporation
        quarterly performance report.
306.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
307.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014
        and 4/9/2014.
308.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013,
        www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf,
        accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4
        2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20
        Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF)
        Information, Quarterly Reports, HHF QTR Report ending 12/31/13,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.
        aspx?PAGE=0277, accessed 4/1/2014; SIGTARP analysis of Florida Housing Finance Corporation quarterly performance report.
309.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013,
        www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf,
        accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4
        2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20
        Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Florida Housing Finance Corporation, “Florida Hardest Hit Fund (HHF)
        Information, Quarterly Reports, HHF QTR Report ending 12/31/13,” no date, apps.floridahousing.org/StandAlone/FHFC_ECM/ContentPage.
        aspx?PAGE=0277, accessed 4/1/2014; SIGTARP analysis of Florida Housing Finance Corporation quarterly performance report.
324            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      310.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
      311.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014
            and 4/9/2014.
      312.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
            4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
            date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
            Report%20-%203.18.14.pdf, accessed 4/1/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports, December 2013
            Report,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 4/1/2014; SIGTARP analysis of GHFA
            Affordable Housing Inc. quarterly performance report.
      313.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
            4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
            date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
            Report%20-%203.18.14.pdf, accessed 4/1/2014; GHFA Affordable Housing Inc., “HomeSafe Georgia, US Treasury Reports, December 2013
            Report,” no date, www.dca.state.ga.us/housing/homeownership/programs/treasuryReports.asp, accessed 4/1/2014; SIGTARP analysis of GHFA
            Affordable Housing Inc. quarterly performance report.
      314.	 Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
            Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; GHFA Affordable Housing
            Inc., “HomeSafe Georgia, US Treasury Reports, December 2013 Report,” no date, www.dca.state.ga.us/housing/homeownership/programs/
            treasuryReports.asp, accessed 4/1/2014; SIGTARP analysis of GHFA Affordable Housing Inc. quarterly performance report.
      315.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
      316.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014
            and 4/9/2014.
      317.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
            4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
            date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
            Report%20-%203.18.14.pdf, accessed 4/1/2014; Illinois Housing Development Authority, “Illinois Hardest Hit Program, Reporting, Illinois HHF
            Fourth Quarter Performance Report 2013,” no date, www.illinoishardesthit.org/spv-7.aspx, accessed 4/1/2014; SIGTARP analysis of Illinois
            Housing Development Authority quarterly performance report.
      318.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and
            4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
            housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Illinois Housing
            Development Authority, “Illinois Hardest Hit Program, Reporting, Illinois HHF Fourth Quarter Performance Report 2013,” no date, www.
            illinoishardesthit.org/spv-7.aspx, accessed 4/1/2014; SIGTARP analysis of Illinois Housing Development Authority quarterly performance report.
      319.	 Treasury, responses to SIGTARP data calls, 10/7/2013, 10/17/2013, 1/17/2014 and 4/9/2014; Illinois Housing Development Authority,
            “Welcome to the Illinois Hardest Hit Program,” no date, www.illinoishardesthit.org/, accessed 4/1/2014.
      320.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
      321.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014
            and 4/9/2014.
      322.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
            4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
            date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
            Report%20-%203.18.14.pdf, accessed 4/1/2014; Indiana Housing and Community Development Authority, “Indiana’s Hardest Hit Fund,
            Quarterly Reports to the U.S. Treasury, Indiana’s Hardest Hit Fund Quarterly Report (Q4) 2013 as submitted to Treasury February 28, 2014,”
            no date, www.877gethope.org/reports/, accessed 4/1/2014; SIGTARP analysis of Indiana Housing and Community Development Authority
            quarterly performance report.
      323.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and
            4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
            housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Indiana Housing and
            Community Development Authority, “Indiana’s Hardest Hit Fund, Quarterly Reports to the U.S. Treasury, Indiana’s Hardest Hit Fund Quarterly
            Report (Q4) 2013 as submitted to Treasury February 28, 2014,” no date, www.877gethope.org/reports/, accessed 4/1/2014; SIGTARP analysis of
            Indiana Housing and Community Development Authority quarterly performance report.
      324.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
      325.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014
            and 4/9/2014.
                                                                                        QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014             325


326.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
      4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
      date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
      Report%20-%203.18.14.pdf, accessed 4/1/2014; Kentucky Housing Corporation, “American Recovery and Reinvestment Act and Troubled Asset
      Relief Program, Kentucky Unemployment Bridge Program, Unemployment Bridge Program 4th Quarter 2013 Report,” no date, www.kyhousing.
      org/page.aspx?id=3165, accessed 4/1/2014; SIGTARP analysis of Kentucky Housing Corporation quarterly performance report.
327.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and
      4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
      housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Kentucky Housing
      Corporation, “American Recovery and Reinvestment Act and Troubled Asset Relief Program, Kentucky Unemployment Bridge Program,
      Unemployment Bridge Program 4th Quarter 2013 Report,” no date, www.kyhousing.org/page.aspx?id=3165, accessed 4/1/2014; SIGTARP
      analysis of Kentucky Housing Corporation quarterly performance report.
328.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
329.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014
      and 4/9/2014.
330.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
      4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
      date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
      Report%20-%203.18.14.pdf, accessed 4/1/2014; Michigan Homeowner Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury
      Reports, Quarter End 12/31/2013,” no date, www.michigan.gov/mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed
      4/1/2014; SIGTARP analysis of Michigan Homeowner Assistance Nonprofit Housing Corporation quarterly performance report.
331.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and
      4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
      housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Michigan Homeowner
      Assistance Nonprofit Housing Corporation, “Hardest Hit U.S. Treasury Reports, Quarter End 12/31/2013,” no date, www.michigan.gov/
      mshda/0,4641,7-141-45866_62889_47905-250571--,00.html, accessed 4/1/2014; SIGTARP analysis of Michigan Homeowner Assistance
      Nonprofit Housing Corporation quarterly performance report.
332.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
333.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014
      and 4/9/2014.
334.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
      4/1/2014; Treasury, responses to SIGTARP data calls,1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
      date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
      Report%20-%203.18.14.pdf, accessed 4/1/2014; Mississippi Home Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance
      Data Report, 4th Quarter 2013,” no date, www.mshomecorp.com/about%20mhc/disclosures.htm, accessed 4/1/2014; SIGTARP analysis of
      Mississippi Home Corporation quarterly performance report.
335.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and
      4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
      housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Mississippi Home
      Corporation, “Financial Disclosures, Hardest Hit Fund, HFA Performance Data Report, 4th Quarter 2013,” no date, www.mshomecorp.com/
      about%20mhc/disclosures.htm, accessed 4/1/2014; SIGTARP analysis of Mississippi Home Corporation quarterly performance report.
336.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
337.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014
      and 4/9/2014.
338.	 Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
      4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
      date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
      Report%20-%203.18.14.pdf, accessed 4/1/2014; Nevada Affordable Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury
      Reports, 4Qtr. 2013,” no date, nevadahardesthitfund.nv.gov/, accessed 4/1/2014; SIGTARP analysis of Nevada Affordable Housing Assistance
      Corporation quarterly performance report.
339.	 Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
      Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and
      4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
      housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Nevada Affordable
326             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



              Housing Assistance Corporation, “Nevada Hardest Hit Fund, US Treasury Reports, 4Qtr. 2013,” no date, nevadahardesthitfund.nv.gov/,
              accessed 4/1/2014; SIGTARP analysis of Nevada Affordable Housing Assistance Corporation quarterly performance report.
      340.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
      341.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014
              and 4/9/2014.
      342.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
              4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
              date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
              Report%20-%203.18.14.pdf, accessed 4/1/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey HomeKeeper Program,
              About the Program, Performance Reports, New Jersey Fourth Quarter 2013 Performance Report,” no date, www.njhomekeeper.com/spv-55.aspx,
              accessed 4/1/2014; SIGTARP analysis of New Jersey Housing and Mortgage Finance Agency quarterly performance report.
      343.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and
              4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
              housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; New Jersey Housing
              and Mortgage Finance Agency, “The New Jersey HomeKeeper Program, About the Program, Performance Reports, New Jersey Fourth Quarter
              2013 Performance Report,” no date, www.njhomekeeper.com/spv-55.aspx, accessed 4/1/2014; SIGTARP analysis of New Jersey Housing and
              Mortgage Finance Agency quarterly performance report.
      344.	   Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; New Jersey Housing and Mortgage Finance Agency, “The New Jersey
              HomeKeeper Program,” no date, www.njhomekeeper.com/, accessed 4/1/2014.
      345.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
      346.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, and
              1/17/2014 and 4/9/2014.
      347.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
              4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
              date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
              Report%20-%203.18.14.pdf, accessed 4/1/2014; North Carolina Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting,
              …Quarterly Reports, Quarter 4 – October – December 2013,” no date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed
              4/1/2014; SIGTARP analysis of North Carolina Housing Finance Agency quarterly performance report.
      348.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and
              4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
              housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; North Carolina
              Housing Finance Agency, “Hardest Hit Fund™ & Performance Reporting, …Quarterly Reports, Quarter 4 – October – December 2013,” no
              date, www.ncforeclosureprevention.gov/hardest_hit_funds.aspx, accessed 4/1/2014; SIGTARP analysis of North Carolina Housing Finance
              Agency quarterly performance report.
      349.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
      350.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014
              and 4/9/2014.
      351.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
              4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
              date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
              Report%20-%203.18.14.pdf, accessed 4/1/2014; Ohio Homeowner Assistance LLC, “Save the Dream Ohio: Quarterly Reports, Fourth Quarter
              2013 Report” ohiohome.org/savethedream/quarterlyreports.aspx, accessed 4/1/2014; SIGTARP analysis of Ohio Homeowner Assistance LLC
              quarterly performance report.
      352.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and
              4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
              housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Ohio Homeowner
              Assistance LLC, “Save the Dream Ohio: Quarterly Reports, Fourth Quarter 2013 Report” ohiohome.org/savethedream/quarterlyreports.aspx,
              accessed 4/1/2014; SIGTARP analysis of Ohio Homeowner Assistance LLC quarterly performance report.
      353.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
      354.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014
              and 4/9/2014.
      355.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
                                                                                          QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014             327


        4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
        date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
        Report%20-%203.18.14.pdf, accessed 4/1/2014; Oregon Affordable Housing Assistance Corporation, “Oregon Homeownership Stabilization
        Initiative, Reporting, OHSI Quarter 4 2013 Report (October - December 2013),” no date, www.oregonhomeownerhelp.org/en/reporting,
        accessed 4/1/2014; SIGTARP analysis of Oregon Affordable Housing Assistance Corporation quarterly performance report.
356.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014, and
        4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
        housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Oregon Affordable
        Housing Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting, OHSI Quarter 4 2013 Report (October -
        December),” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 4/1/2014; SIGTARP analysis of Oregon Affordable Housing
        Assistance Corporation quarterly performance report.
357.	   Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/
        Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Oregon Affordable Housing
        Assistance Corporation, “Oregon Homeownership Stabilization Initiative, Reporting, OHSI Quarter 4 2013 Report (October - December
        2013),” no date, www.oregonhomeownerhelp.org/en/reporting, accessed 4/1/2014; “Hardest Hit Fund, Archived Program Information,
        Participation Agreements, Amendments, and Initial Program Guidelines,” no date, www.treasury.gov/initiatives/financial-stability/TARP-
        Programs/housing/hhf/Pages/Archival-information.aspx, accessed 4/1/2014; SIGTARP analysis of HFA participation agreements and
        amendments.
358.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
359.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014
        and 4/9/2014.
360.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
        treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
        4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
        date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
        Report%20-%203.18.14.pdf, accessed 4/1/2014; Rhode Island Housing and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode
        Island, About HHFRI, REPORTS, Q4 2013,” no date, www.hhfri.org/HHFRI_Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa
        7b_10737418238_10737418240_btnlink, accessed 4/1/2014; SIGTARP analysis of Rhode Island Housing and Mortgage Finance Corporation
        quarterly performance report.
361.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014
        and4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
        housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Rhode Island Housing
        and Mortgage Finance Corporation, “Hardest Hit Fund – Rhode Island, About HHFRI, REPORTS, Q4 2013,” no date, www.hhfri.org/HHFRI_
        Dynamic_Content.aspx?id=10737418256&ekmensel=c580fa7b_10737418238_10737418240_btnlink, accessed 4/1/2014; SIGTARP analysis
        of Rhode Island Housing and Mortgage Finance Corporation quarterly performance report.
362.	   Treasury, responses to SIGTARP data calls, 7/5/2013, 10/7/2013, 10/17/2013, 1/17/2014, and 4/9/2014; Rhode Island Housing and Mortgage
        Finance Corporation, “HHFRI News,” no date, www.hhfri.org, accessed 4/1/2014.
363.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
364.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014
        and 4/9/2014.
365.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
        treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
        4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
        date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
        Report%20-%203.18.14.pdf, accessed 4/1/2014; SC Housing Corp, “SC HELP, Reports, Quarter ending December 31, 2013,” no date, www.
        schelp.gov/Resources/Reports.aspx, accessed 4/1/2014; SIGTARP analysis of SC Housing Corp quarterly performance report.
366.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and
        4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
        housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; SC Housing Corp, “SC
        HELP, Reports, Quarter ending December 31, 2013,” no date, www.schelp.gov/Resources/Reports.aspx, accessed 4/1/2014; SIGTARP analysis
        of SC Housing Corp quarterly performance report.
367.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
368.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
        Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014,
        and 4/9/2014.
369.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
        treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
        4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
        date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
328             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



              Report%20-%203.18.14.pdf, accessed 4/1/2014; Tennessee Housing Development Agency, “Keep My Tennessee Home, Reports, Fourth Quarter
              2013 Report,” no date, www.keepmytnhome.org/news-and-reports/, accessed 4/1/2014; SIGTARP analysis of Tennessee Housing Development
              Agency quarterly performance report.
      370.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and
              4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
              housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; Tennessee Housing
              Development Agency, “Keep My Tennessee Home, Reports, Fourth Quarter 2013 Report,” no date, www.keepmytnhome.org/news-and-reports/,
              accessed 4/1/2014; SIGTARP analysis of Tennessee Housing Development Agency quarterly performance report.
      371.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014.
      372.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 10/3/2013, 1/17/2014
              and 4/9/2014.
      373.	   Treasury, responses to SIGTARP data calls, 7/5/2013 and 10/17/2013; Treasury, Transactions Report-Housing Programs, 12/27/2013, www.
              treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed
              4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no
              date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20
              Report%20-%203.18.14.pdf, accessed 4/1/2014; District of Columbia Housing Finance Agency, “HomeSaver – A Foreclosure Prevention
              Program[quarterly performance reports], DCHFA HomeSaver Program – December 31, 2013 Quarterly Report,” www.dchfa.org/DCHFAHome/
              Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/Default.aspx, accessed 4/1/2014; SIGTARP analysis of District of Columbia
              Housing Finance Agency quarterly performance report.
      374.	   Treasury, Transactions Report-Housing Programs, 12/27/2013, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
              Transactions%20Report%20as%20of%2012.27.2013.pdf, accessed 4/1/2014; Treasury, responses to SIGTARP data calls, 1/17/2014 and
              4/9/2014; Treasury, “HFA Aggregate Quarterly Report Q4 2013,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/
              housing/Documents/FINAL%20Q4%202013%20HFA%20Aggregate%20Report%20-%203.18.14.pdf, accessed 4/1/2014; District of Columbia
              Housing Finance Agency, “HomeSaver – A Foreclosure Prevention Program [quarterly performance reports], DCHFA HomeSaver Program –
              December 31, 2013 Quarterly Report,” www.dchfa.org/DCHFAHome/Homebuyers/ForeclosurePrevention/QuarterlyReports/tabid/219/Default.
              aspx, accessed 4/1/2014; SIGTARP analysis of District of Columbia Housing Finance Agency quarterly performance report.
      375.	   Treasury, responses to SIGTARP data calls, 1/17/2014 and 4/9/2014.
      376.	   Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013; Treasury, “AMENDMENT NO.1 TO FACILITY PURCHASE
              AGREEMENT,” 3/4/2013, www.treasury.gov/initiatives/financial-stability/TARP-Programs/housing/mha/Documents_Contracts_Agreements/
              Citi%20Amendment%201%20to%20Facility%20Purchase%20Agreement.pdf, accessed 4/1/2014.
      377.	   Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/25/2010, www.makinghomeaffordable.gov/news/
              latest/Documents/FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 4/1/2014.
      378.	   Treasury, response to SIGTARP data call, 4/25/2014.
      379.	   Treasury, response to SIGTARP data call, 4/9/2014.
      380.	   Treasury, response to SIGTARP data call, 4/9/2014.
      381.	   Treasury, response to SIGTARP data call, 4/9/2014.
      382.	   HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 4/1/2014; HUD,
              response to SIGTARP draft, 1/10/2011.
      383.	   HUD, response to SIGTARP vetting draft, 1/19/2011.
      384.	   HUD, response to SIGTARP draft report, 1/10/2011.
      385.	   HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
              letters/mortgagee/files/10-23ml.pdf, accessed 4/1/2014.
      386.	   HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
              letters/mortgagee/files/10-23ml.pdf, accessed 4/1/2014; HUD, response to SIGTARP draft report, 3/31/2011.
      387.	   Treasury, response to SIGTARP data call, 4/9/2014.
      388.	   Treasury, response to SIGTARP data call, 1/11/2013; Treasury, briefing to SIGTARP and other Federal agency staff, 3/8/2013.
      389.	   Treasury, response to SIGTARP data call, 4/25/2014.
      390.	   Treasury conference call, 3/19/2009.
      391.	   Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
              programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
      392.	   Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
              programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 7/13/2012.
      393.	   Treasury, Security Purchase Agreement Standard Terms, 4/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-
              programs/cpp/Documents/spa.pdf, accessed 4/1/2014.
      394.	   Treasury, “TARP Capital Purchase Program (Non-Public QFIs, excluding S Corps and Mutual Organizations),” 7/22/2012, www.treasury.gov/
              initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/Documents/Term%20Sheet%20-%20Private%20C%20Corporations.
              pdf, accessed 4/1/2014.
      395.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
              Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      396.	   Treasury, response to SIGTARP data call, 4/9/2014.
      397.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
              Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, response to SIGTARP data call, 4/9/2014.
      398.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
              Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014              329


399.	 Treasury, Section 105(a) Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20Monthly%20
      Report%20to%20Congress.pdf, accessed 4/10/2014; Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, response to
      SIGTARP data call, 4/9/2014.
400.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
401.	 Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
402.	 Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
403.	 Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
404.	 Treasury, response to SIGTARP data call, 4/9/2014.
405.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
406.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
407.	 Treasury, response to SIGTARP data call 4/10/2014; Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-
      stability/reports/Documents/March%202014%20Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
408.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
409.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
410.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
411.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 4/1/2014.
412.	 Treasury, response to SIGTARP data call, 4/10/2014; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
      no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20
      Observer%20Fact%20Sheet.pdf, accessed 4/1/2014.
413.	 Treasury, response to SIGTARP data call 4/10/2014; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
      no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20
      Observer%20Fact%20Sheet.pdf, accessed 4/1/2014.
414.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
      4/1/2014.
415.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
416.	 Treasury, response to SIGTARP data call, 4/10/2014.
417.	 Treasury, response to SIGTARP data call, 4/10/2014.
418.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
      4/1/2014.
419.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
420.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
      4/1/2014.
421.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
      4/1/2014.
422.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/TARP-Programs/bank-investment-programs/cap/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed
      4/1/2014.
423.	 Treasury, response to SIGTARP data call, 4/10/2014.
424.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
425.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
426.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
427.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
428.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
429.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
330            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      430.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
            Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
      431.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      432.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, response to SIGTARP data call, 4/9/2014.
      433.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      434.	 FDIC, “Sunwest Bank, Irvine, California, Assumes All of the Deposits of Syringa Bank, Boise Idaho,” 1/31/2014, www.fdic.gov/news/news/
            press/2014/pr14007.html, accessed 4/15/2014.
      435.	 FDIC, “Sunwest Bank, Irvine, California, Assumes All of the Deposits of Syringa Bank, Boise Idaho,” 1/31/2014, www.fdic.gov/news/news/
            press/2014/pr14007.html, accessed 4/15/2014.
      436.	 Treasury, response to SIGTARP data call, 4/18/2014.
      437.	 Treasury, responses to SIGTARP data calls, various
      438.	 Treasury conference call, 3/19/2010; Treasury, response to SIGTARP data call, 4/9/2014.
      439.	 Treasury conference call, 3/19/2010.
      440.	 Treasury, response to SIGTARP draft report, 1/14/2012.
      441.	 Treasury conference call, 3/19/2010.
      442.	 Treasury conference call, 3/19/2010.
      443.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      444.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      445.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      446.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
            Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
      447.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
            Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
      448.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      449.	 SNL Financial LLC data.
      450.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      451.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      452.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2009, www.whitehouse.gov/the-press-office/
            remarks-president-small-business-initiatives-landover-md, accessed 4/1/2014.
      453.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      454.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      455.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 2.
      456.	 Treasury, response to SIGTARP data call, 10/5/2011.
      457.	 Treasury, response to SIGTARP data call, 10/5/2011.
      458.	 Treasury, “Glossary,” no date, www.treasury.gov/initiatives/financial-stability/glossary/Pages/default.aspx, accessed 4/3/2014.
      459.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/reports/Documents/TARP%20Warrants%20
            Report%20Aug2011.pdf, accessed 4/1/2014.
      460.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 4/1/2014.
      461.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 4/1/2014.
      462.	 Treasury, response to SIGTARP data call, 4/11/2014.
      463.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 4/1/2014.
      464.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/reports/Documents/TARP%20Warrants%20
            Report%20Aug2011.pdf, accessed 4/1/2014; Treasury, response to SIGTARP data call, 4/11/2014.
      465.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      466.	 Treasury, response to SIGTARP data call, 4/11/2014.
      467.	 Treasury, response to SIGTARP data call, 4/11/2014.
      468.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 4/1/2014.
      469.	 Treasury, response to SIGTARP data call, 4/11/2014.
      470.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
            www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 4/1/2014.
                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                331


471.	 Treasury, response to SIGTARP data call 4/11/2014; Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
472.	 Treasury, response to SIGTARP data call, 4/11/2014.
473.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
      releases/Pages/tg1365.aspx, accessed 4/1/2014.
474.	 Treasury, “Treasury Completes Auction to Sell Warrant Positions,” 6/6/2013, www.treasury.gov/press-center/press-releases/Pages/jl1972.aspx,
      accessed 4/1/2014.
475.	 Treasury conference call, 11/10/2011.
476.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
      releases/Pages/tg1365.aspx, accessed 4/1/2014.
477.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2009, www.whitehouse.gov/the-press-office/
      remarks-president-small-business-initiatives-landover-md, accessed 4/4/2014.
478.	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/
      cdci/Pages/faqs.aspx, accessed 4/4/2014; Treasury, Section 105(a) Report, 3/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-
      room/reports/105/Documents105/Monthly%20Report_February2010.pdf, accessed 4/4/2014; Treasury Press Release, “Treasury Announces
      Special Financial Stabilization Initiative Investments of $570 Million in Community Development Financial Institutions in Underserved Areas,”
      9/30/2010, www.treasury.gov/press-center/press-releases/Pages/tg885.aspx, accessed 4/4/2014.
479.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
      2010%20105(a)%20report_final.pdf, accessed 4/4/2014.
480.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
      investment-programs/cdci/Pages/default.aspx, accessed 4/4/2014.
481.	 Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community
      Development Financial Institutions in Underserved Areas,” 9/30/2010, www.cdfifund.gov/docs/2010/tarp/FINAL%20CDCI-TARP%20
      Release%209-30-10.pdf, accessed 4/4/2014.
482.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/4/2014.
483.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/4/2014.
484.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/4/2014.
485.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/4/2014.
486.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/4/2014.
487.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
488.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
489.	 Treasury, “Summary of Terms of CDCI Senior Preferred Terms,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
      investment-programs/cdci/Documents/CDCI20Bank-Thrift20Term20Sheet20042610.pdf, accessed 4/4/2014.
490.	 Treasury, response to SIGTARP data call, 4/9/2014.
491.	 Treasury, response to SIGTARP data call, 4/9/2014.
492.	 Treasury, response to SIGTARP data call, 4/15/2014.
493.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 4/4/2014.
494.	 Treasury, “Application Guidelines for TARP Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cdci/Documents/Bank20Thrift20CDCI20Application20Updated20Form.pdf, accessed 4/4/2014.
495.	 Treasury, “Community Development Capital Initiative CDFI Credit Unions Senior Securities - Term Sheet,” no date, www.treasury.gov/
      initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20Credit20Union20Term20Sheet20042610.pdf, accessed
      4/4/2014; Treasury, “Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities - Term Sheet,” no date,
      www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20S20Corp20Term20Sheet.pdf, accessed
      4/4/2014.
496.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 4/4/2014.
497.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 4/4/2014.
498.	 Department of Treasury Budget in Brief FY 2010, no date, p. 72, www.treasury.gov/about/budget-performance/budget-in-brief/Documents/
      FY2010BIB-Complete.pdf, accessed 4/1/2014.
499.	 Treasury, response to SIGTARP data call, 1/8/2010.
500.	 Federal Reserve Board - Credit and Liquidity Programs and the Balance Sheet, no date. www.federalreserve.gov/monetarypolicy/bst_
      supportspecific.htm Accessed 4/15/2014.
501.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
502.	 Treasury, Treasury Notes, “Infographic: Overall $182 Billion Committed to Stabilize AIG During the Financial Crisis is Now Fully Recovered,”
      9/11/2012, www.treasury.gov/connect/blog/Pages/aig-182-billion.aspx, accessed 4/1/2014; FRBNY, “Summary of Maiden Lane II LLC Waterfall
      Allocation,” 5/29/2012, www.newyorkfed.org/markets/maidenlane/xls/MLIItransactiondata.xls, accessed 4/1/2014; FRBNY, “Summary of Maiden
      Lane III LLC Waterfall Allocation,” 11/23/2012, www.newyorkfed.org/markets/maidenlane/xls/MLIIItransactiondata.xls, accessed 4/1/2014.
332            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      503.	 Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
            04.01.2014.pdf, accessed 4/2/2014.
      504.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/
            financial-stability/reports/Documents/Daily_TARP_Update%20-%2004.01.2014.pdf, accessed 4/1/2014; Treasury, response to SIGTARP data
            call, 4/9/2014; Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%20
            2014%20Dividends%20Interest%20Report.pdf, accessed 4/15/2014.
      505.	 Treasury, “Securities Purchase Agreement,” 12/29/2008, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/
            Documents_Contracts_Agreements/Citigroup_12312008.pdf, accessed 4/4/2014; Treasury, “Securities Purchase Agreement,” 1/15/2009, www.
            treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/Documents_Contracts_Agreements/BAC%20III%20Binder.pdf,
            accessed 4/4/2014.
      506.	 Treasury, “Guidelines for Targeted Investment Program,” 1/2/2009, www.treasury.gov/press-center/press-releases/Pages/hp1338.aspx, accessed
            4/4/2014.
      507.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
            December%20105(a)_final_1-11-10.pdf, accessed 4/4/2014.
      508.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/4/2014.
      509.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/4/2014.
      510.	 Treasury, “Exchange Agreement,” 6/9/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
            Documents/Citigroup%20Exchange%20Agreement.pdf, accessed 4/4/2014; Citigroup, 424(b)(7), 1/24/2011, www.sec.gov/Archives/edgar/
            data/831001/000095012311004665/y89177b7e424b7.htm, accessed 4/4/2014.
      511.	 Citigroup, 8-K, 1/16/2009, www.sec.gov/Archives/edgar/data/831001/000095010309000098/dp12291_8k.htm, accessed 4/4/2014.
      512.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
            Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 4/4/2014.
      513.	 Treasury, “Citigroup Termination Agreement,” 12/23/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
            Documents/Citi%20AGP%20Termination%20Agreement%20-%20Fully%20Executed%20Version.pdf, accessed 4/4/2014.
      514.	 Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
            TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 4/4/2014.
      515.	 Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of $894 Million, Providing an Additional Profit for Taxpayers on
            TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-releases/Pages/tg1841.aspx, accessed 4/4/2014.
      516.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
            Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 4/4/2014.
      517.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/4/2014.
      518.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
            December%20105(a)_final_1-11-10.pdf, accessed 4/4/2014; Treasury, “Treasury Prices Sale of Citigroup Subordinated Notes for Proceeds of
            $894 Million, Providing an Additional Profit for Taxpayers on TARP Citigroup Investment,” 2/5/2013, www.treasury.gov/press-center/press-
            releases/Pages/tg1841.aspx, accessed 4/4/2014.
      519.	 Bank of America, 8-K, 9/22/2009, www.sec.gov/Archives/edgar/data/70858/000119312509195594/d8k.htm, accessed 4/4/2014.
      520.	 Bank of America, “Termination Agreement,” 9/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
            Documents/BofA%20-%20Termination%20Agreement%20-%20executed.pdf, accessed 4/4/2014.
      521.	 Treasury, Auto Industry, no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/automotive-programs/pages/default.aspx,
            accessed 4/1/2014.
      522.	 Treasury Press Release, “Treasury Sells Final Shares of GM Common Stock,” 12/9/2013, www.treasury.gov/press-center/press-releases/Pages/
            jl2236.aspx, accessed 4/1/2014.
      523.	 Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
            04.01.2014.pdf, accessed 4/2/2014; Treasury, Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal
            Year 2013, 12/11/13, www.treasury.gov/initiatives/financial-stability/reports/Documents/AFR_FY2013_TARP-12-11-13_Final.pdf, accessed
            4/1/2014.
      524.	 Treasury Press Release, “Taxpayers to Receive $3.0 Billion from Sale of Ally Financial Common Stock,” 1/16/2014, www.treasury.gov/press-
            center/press-releases/Pages/jjl2258.aspx, accessed 4/1/2014.
      525.	 Treasury Press Release, “Taxpayers to Recover $2.375 Billion from Ally Initial Public Offering,” 4/9/2014, www.treasury.gov/press-center/
            press-releases/Pages/jl2351.aspx, accessed on 4/10/2014; Ally Financial, Amendment No. 11 to Form S-1 Registration Statement, 3/27/2014,
            www.sec.gov/Archives/edgar/data/40729/000119312514117494/d651440ds1a.htm, accessed 4/10/2014; Treasury Press Release, “Treasury
            Announces Initial Public Offering of Ally Financial Common Stock,” 3/27/2014, www.treasury.gov/press-center/press-releases/Pages/jl2335.aspx,
            accessed 4/11/2014.
      526.	 Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/Daily_TARP_Update%20-%2004.01.2014.pdf, accessed 4/2/2014.
      527.	 Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/Daily_TARP_Update%20-%2004.01.2014.pdf, accessed 4/2/2014.
      528.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/4/2014.
      529.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, “Office of Financial Stability: Agency Financial Report
            - Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2010%20
            OFS%20AFR%20Nov%2015.pdf, accessed 4/1/2014.
                                                                                             QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014                333


530.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/
      financial-stability/reports/Documents/Daily_TARP_Update%20-%2004.01.2014.pdf, accessed 4/2/2014; Treasury, response to SIGTARP data
      call, 4/9/2014.
531.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
532.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
533.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Dividends%20Interest%20Report.pdf, accessed 4/11/2014.
534.	 Treasury Press Release, “Treasury Sells Final Shares of GM Common Stock,” 12/9/2013, www.treasury.gov/press-center/press-releases/Pages/
      jl2236.aspx, accessed 4/1/2014; Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Transactions Report, 3/19/2014, www.treasury.
      gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed
      4/3/2014; Treasury Press Release, “Treasury Announces Plan to Sell Additional General Motors Common Stock,” 9/26/2013, www.treasury.gov/
      press-center/press-releases/Pages/jl2173.aspx, accessed 4/1/2014.
535.	 Treasury, Section 105(a) Report, 1/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/December%202013%20
      Monthly%20Report%20to%20Congress.pdf, accessed 4/1/2014. Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-
      stability/reports/Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
536.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Dividends%20Interest%20Report.pdf, accessed 4/11/2014.
537.	 General Motors, 10-Q, 8/16/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510189968/d10q.htm, accessed 4/1/2014.
538.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 4/1/2014.
539.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 4/1/2014; Treasury
      Press Release, “Taxpayers Receive Additional $1.8 Billion in Proceeds from GM IPO: Exercise of Over-allotment Option Brings Total Taxpayer
      Proceeds from GM IPO to $13.5 Billion,” 12/2/2010, www.treasury.gov/press-center/press-releases/Pages/tg992.aspx, accessed 4/1/2014; GM
      Press Release, “General Motors Company Prices Public Offering of Common and Preferred Stock,” 11/17/2010, media.gm.com/content/media/
      be/de/opel/news.detail.html/content/Pages/news/be/de/2010/OPEL/1117_pricing_eu.html, accessed 4/1/2014.
540.	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
      www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 4/1/2014.
541.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 4/1/2014.
542.	 Treasury Press Release, “Treasury Announces Intent to Fully Exit GM Investment Within the Next 12-15 Months,” 12/19/2012, www.treasury.
      gov/press-center/press-releases/Pages/tg1810.aspx, accessed 4/1/2014.
543.	 Treasury Press Release, “Treasury Commences Plan to Sell General Motors Common Stock,” 1/18/2013, www.treasury.gov/press-center/press-
      releases/Pages/tg1826.aspx, accessed 4/1/2014.
544.	 Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
545.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury Press Release, “Treasury Announces Next Step in Plan to
      Sell General Motors Common Stock,” 5/6/2013, www.treasury.gov/press-center/press-releases/Pages/jl1926.aspx, accessed 4/1/2014; Treasury,
      response to SIGTARP data call, 4/9/2014.
546.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
547.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
548.	 Treasury Press Release, “Taxpayers to Receive $1.03 Billion from Sale of GM Common Stock,” 6/6/2013, www.treasury.gov/press-center/press-
      releases/Pages/jl1976.aspx, accessed 4/1/2014.
549.	 Treasury, response to SIGTARP data call, 4/9/2014; Treasury, Section 105(a) Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/March%202014%20Monthly%20Report%20to%20Congress.pdf, accessed 4/11/2014.
550.	 Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
      04.01.2014.pdf, accessed 4/2/2014.
551.	 Treasury Press Release, “Treasury Announces Initial Public Offering of Ally Financial Common Stock,”3/27/2014, www.treasury.gov/press-
      center/press-releases/Pages/jl2335.aspx, accessed on 4/11/2014; Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-
      stability/reports/Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
552.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014, Treasury Press Release, “Taxpayers to Receive $3.0 Billion from Sale of
      Ally Financial Common Stock,” 1/16/2014, www.treasury.gov/press-center/press-releases/Pages/jjl2258.aspx, accessed 4/3/2014.
553.	 Treasury Press Release, “Taxpayers to Recover $2.375 Billion from Ally Initial Public Offering,” 4/9/2014, www.treasury.gov/press-center/
      press-releases/Pages/jl2351.aspx, accessed on 4/10/2014; Treasury Press Release, “Treasury Announces Initial Public Offering of Ally Financial
      Common Stock,” 3/27/2014, www.treasury.gov/press-center/press-releases/Pages/jl2335.aspx, accessed on 4/11/2014.
554.	 Ally Financial Press Release, “Ally Announces Private Placement of Common Stock and Plan to Repurchase Securities from U.S. Treasury,”
      8/20/2013, media.ally.com/2013-08-20-Ally-Announces-Private-Placement-of-Common-Stock-and-Plan-to-Repurchase-Securities-from-U-S-
      Treasury, accessed 4/1/2014.
555.	 Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
      04.01.2014.pdf, accessed 4/2/2014; Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/
      Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
556.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Dividends%20Interest%20Report.pdf, accessed 4/11/2014.
334            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      557.	 Ally Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 4/1/2014.
      558.	 Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 4/1/2014.
      559.	 Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 4/1/2014.
      560.	 Ally Financial, 8-K, 5/22/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 4/1/2014; Treasury, Section
            105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20
            Report_final.pdf, accessed 4/1/2014.
      561.	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 4/1/2014.
      562.	 Treasury, Section 105(a) Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 4/1/2014.
      563.	 Ally Financial, 8-K, 5/3/2010, www.sec.gov/Archives/edgar/data/40729/000114420410025354/v183596_8-k.htm, accessed 4/1/2014.
      564.	 Treasury Press Release, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
            center/press-releases/Pages/tg1014.aspx, accessed 4/1/2014.
      565.	 Treasury Press Release, “Treasury Announces Public Offering of Ally Financial Inc. TruPs,” 3/1/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1081.aspx, accessed 4/1/2014.
      566.	 Ally Financial, Form S-1 Registration Statement, 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.htm, accessed
            1/7/2014.
      567.	 GM Press Release, “GM Announces Sale of Equity Stake in Ally Financial,” 12/12/2013, media.gm.com/content/media/us/en/gm/news.detail.
            html/content/Pages/news/us/en/2013/Dec/1212-ally.html, accessed 1/7/2014.
      568.	 Ally Financial, Amendment No. 8 to Form S-1 Registration Statement, 7/9/2013, www.sec.gov/Archives/edgar/
            data/40729/000119312513285728/d388008ds1a.htm, accessed 4/1/2014; Ally Financial, Amendment No. 11 to Form S-1 Registration
            Statement, 3/27/2014, www.sec.gov/Archives/edgar/data/40729/000119312514117494/d651440ds1a.htm, accessed 4/1/2014; GM Press
            Release, “GM Announces Sale of Equity Stake in Ally Financial,” 12/12/2013, media.gm.com/content/media/us/en/gm/news.detail.html/content/
            Pages/news/us/en/2013/Dec/1212-ally.html, accessed 4/1/2014.
      569.	 Ally, Press Release, “Ally Financial Completes Private Placement and Repays U.S. Treasury $5.9 Billion,” 11/20/2013, media.ally.com/2013-
            11-20-Ally-Financial-Completes-Private-Placement-and-Repays-U-S-Treasury-5-9-Billion, accessed 4/1/2014; Treasury, Transactions Report,
            3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-
            14_INVESTMENT.pdf, accessed 4/3/2014; Ally Financial Press Release, “Ally Announces Private Placement of Common Stock and Plan to
            Repurchase Securities from U.S. Treasury,” 8/20/2013, media.ally.com/2013-08-20-Ally-Announces-Private-Placement-of-Common-Stock-and-
            Plan-to-Repurchase-Securities-from-U-S-Treasury, accessed 4/1/2014.
      570.	 Ally, Press Release, “Ally Financial Completes Private Placement and Repays U.S. Treasury $5.9 Billion,” 11/20/2013, media.ally.com/2013-11-
            20-Ally-Financial-Completes-Private-Placement-and-Repays-U-S-Treasury-5-9-Billion, accessed 4/1/2014; Ally Financial Press Release, “Ally
            Announces Private Placement of Common Stock and Plan to Repurchase Securities from U.S. Treasury,” 8/20/2013, media.ally.com/2013-08-
            20-Ally-Announces-Private-Placement-of-Common-Stock-and-Plan-to-Repurchase-Securities-from-U-S-Treasury, accessed 4/1/2014.
      571.	 Ally, Press Release, “Ally Financial Completes Private Placement and Repays U.S. Treasury $5.9 Billion,” 11/20/2013, media.ally.com/2013-11-
            20-Ally-Financial-Completes-Private-Placement-and-Repays-U-S-Treasury-5-9-Billion, accessed 4/1/2014.
      572.	 Treasury, response to SIGTARP data call, 4/9/2014.
      573.	 Treasury, response to SIGTARP data call, 4/9/2014.
      574.	 Ally Press Release, “Ally Financial Granted Financial Holding Company Status,” 12/23/2013, media.ally.com/2013-12-23-Ally-Financial-
            Granted-Financial-Holding-Company-Status, accessed 4/1/2014.
      575.	 Federal Reserve Board Press Release, 3/24/2014, www.federalreserve.gov/newsevents/press/bcreg/bcreg20140320a1.pdf, accessed on 4/1/2014.
      576.	 Treasury Press Release, “Taxpayers to Recover $2.375 Billion from Ally Initial Public Offering,” 4/9/2014, www.treasury.gov/press-center/
            press-releases/Pages/jl2351.aspx, accessed on 4/10/2014; Treasury Press Release, “Treasury Announces Initial Public Offering of Ally Financial
            Common Stock,” 3/27/2014, www.treasury.gov/press-center/press-releases/Pages/jl2335.aspx, accessed on 4/11/2014.
      577.	 Treasury Press Release, “Taxpayers to Recover $2.375 Billion from Ally Initial Public Offering,” 4/9/2014, www.treasury.gov/press-center/press-
            releases/Pages/jl2351.aspx, accessed on 4/10/2014; Ally Financial Press Release, “Ally Financial Launches Initial Public Offering of Common
            Stock,” 3/27/2014, media.ally.com/2014-03-27-Ally-Financial-Launches-Initial-Public-Offering-of-Common-Stock, accessed on 4/1/2014
      578.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
            Public Offering,” 3/31/2011, media.ally.com/index.php?s=43&item=453, accessed 4/1/2014.
      579.	 Ally Financial, Amendment No. 11 to Form S-1 Registration Statement, 3/27/2014, www.sec.gov/Archives/edgar/
            data/40729/000119312514117494/d651440ds1a.htm, accessed 4/1/2014.
      580.	 Ally Financial, Form S-1 Registration Statement, 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.htm, accessed
            4/1/2014.
      581.	 Ally Financial, Amendment No. 1 to Form S-1 Registration Statement, 5/17/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll
            ?FetchFilingHTML1?ID=7940925&SessionID=u1r1FjMCVRNlLm7, accessed 4/1/2014; Ally Financial, Amendment No. 2 to Form S-1
            Registration Statement, 6/3/2011, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID=7978010&SessionID=y
            WV1FqvBONn9GA7, accessed 4/1/2014; Ally Financial, Amendment No. 3 to Form S-1 Registration Statement, 6/28/2011, www.sec.gov/
            Archives/edgar/data/40729/000119312511175943/ds1a.htm, accessed 4/1/2014; Ally Financial, Amendment No. 4 to Form S-1 Registration
            Statement, 8/18/2011, www.sec.gov/Archives/edgar/data/40729/000119312511226269/ds1a.htm, accessed 4/1/2014; Ally Financial,
            Amendment No. 5 to Form S-1 Registration Statement, 12/2/2011, www.sec.gov/Archives/edgar/data/40729/000119312511328749/
            d167661ds1a.htm, accessed 4/1/2014; Ally Financial, Amendment No. 6 to Form S-1 Registration Statement, 4/12/2012, www.sec.gov/
            Archives/edgar/data/40729/000119312512159940/d167661ds1a.htm, accessed 4/1/2014; Ally Financial, Amendment No. 7 to Form S-1
            Registration Statement, 10/5/2012, www.sec.gov/Archives/edgar/data/40729/000119312512416511/d388008ds1a.htm, accessed 4/1/2014; Ally
            Financial, Amendment No. 8 to Form S-1 Registration Statement, 7/9/2013, www.sec.gov/Archives/edgar/data/40729/000119312513285728/
            d388008ds1a.htm, accessed 4/1/2014; Ally Financial, Amendment No. 9 to Form S-1 Registration Statement, 12/23/2013, www.sec.gov/
            Archives/edgar/data/40729/000119312513482886/d611675ds1a.htm, accessed 4/1/2014; Ally Financial, Amendment No. 10 to Form S-1
                                                                                            QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014              335


        Registration Statement, 3/3/2013, www.sec.gov/Archives/edgar/data/40729/000119312514080365/d651440ds1a.htm, accessed 4/1/2014; Ally
        Financial, Amendment No. 11 to Form S-1 Registration Statement, 3/27/2014, www.sec.gov/Archives/edgar/data/40729/000119312514117494/
        d651440ds1a.htm, accessed 4/1/2014.
582.	   Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
        Treasury,” 5/14/2012, media.ally.com/index.php?s=43&item=543, accessed 4/1/2014.
583.	   Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
        Treasury,” 5/14/2012, media.ally.com/index.php?s=43&item=543, accessed 4/1/2014; Ally Financial, 10-Q, 8/3/2012, www.sec.gov/Archives/
        edgar/data/40729/000004072912000020/gjm2012063010q.htm, accessed 4/1/2014.
584.	   In Re Residential Capital, LLC, Case No. 12-12020, U.S. Bankruptcy Court for the Southern District of New York, Order Granting Debtors’
        Motion for an Order Under Bankruptcy Code Sections 105(A) and 363(B) Authorizing the Debtors to Enter into a Plan Support Agreement
        with Ally Financial Inc., the Creditors’ Committee, and Certain Consenting Claimants, 6/26/2013, www.rescaprmbssettlement.com/docs/4098.
        pdf, accessed 4/1/2014.
585.	   Ally Financial Press Release, “Ally Financial Marks Next Step in Implementing the Comprehensive ResCap Settlement,” 5/23/2013, media.ally.
        com/2013-05-23-Ally-Financial-Marks-Next-Step-in-Implementing-the-Comprehensive-ResCap-Settlement, accessed 4/1/2014.
586.	   Ally Financial Press Release, “Ally Financial Reports Preliminary Second Quarter 2013 Financial Results,” 7/31/2013, media.ally.com/2013-07-
        31-Ally-Financial-Reports-Preliminary-Second-Quarter-2013-Financial-Results, accessed 4/1/2014.
587.	   In re: Residential Capital LLC, et. al., U.S. Bankruptcy Court for the Southern District of New York, Case No.12-12020, “Notice
        of Entry of Confirmation Order Confirming the Second Amended Joint Chapter 11 Plan Proposed by Residential Capital, LLC,
        et. al., and the Official Committee of Unsecured Creditors and Occurrence of Effective Date,” 12/17/2013, www.kccllc.net/
        documents/1212020/1212020131217000000000007.pdf, accessed 4/1/2014; Ally Press Release, “ResCap Plan of Reorganization Approved by
        U.S. Bankruptcy Court”, media.ally.com/2013-12-11-ResCap-Plan-of-Reorganization-Approved-by-U-S-Bankruptcy-Court, accessed 4/1/2014.
588.	   Ally Financial Press Release, “Ally Financial Completes Sale of Majority of European and Latin American Operations,” 4/2/2013, media.ally.
        com/2013-04-02-Ally-Financial-Completes-Sale-of-Majority-of-European-and-Latin-American-Operations, accessed 4/1/2014.
589.	   Ally Financial Press Release, “Ally Financial Completes Sale Of Operations In Brazil,” 10/2/2013, media.ally.com/2013-10-01-Ally-Financial-
        Completes-Sale-of-Operations-in-Brazil, accessed 4/1/2014.
590.	   Ally Financial, 10-K, 3/3/2014, www.sec.gov/Archives/edgar/data/40729/000004072914000007/gjm2013123110k.htm, accessed 4/1/2014; Ally
        Financial Press Release, “Ally Financial Reports Preliminary Second Quarter 2013 Financial Results,” 7/31/2013, media.ally.com/2013-07-31-
        Ally-Financial-Reports-Preliminary-Second-Quarter-2013-Financial-Results, accessed 4/10/2014.
591.	   Ally Financial Press Release, “Ally Financial Completes Sale of Canadian Operations,” 2/1/2013, media.ally.com/index.
        php?s=20295&item=122599, accessed 4/1/2014; Ally Financial Press Release, “Ally Financial Completes Sale of Mexican Insurance Business,”
        5/2/2013, media.ally.com/2013-05-02-Ally-Financial-Completes-Sale-of-Mexican-Insurance-Business, accessed 4/1/2014.
592.	   Ally Financial Press Release, “Ally Bank Reaches Agreement to Sell Remaining Mortgage Servicing Rights,” 3/21/2013, media.ally.com/2013-03-
        21-Ally-Bank-Reaches-Agreement-to-Sell-Remaining-Mortgage-Servicing-Rights, accessed 4/1/2014.
593.	   Ally Financial Press Release, “Ally Bank Completes Sales of Mortgage Servicing Rights,” 4/17/2013, media.ally.com/2013-04-17-Ally-Bank-
        Completes-Sales-of-Mortgage-Servicing-Rights, accessed 4/1/2014.
594.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
        Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
595.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
        Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
596.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
        Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
597.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
        Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
598.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
        Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
599.	   Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
        media.chrysler.com/newsrelease.do;jsessionid=4FB3EE642102E222D6CEAC20ADF7C090?&id=10922&mid=1, accessed 4/1/2014; Treasury
        Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.aspx,
        accessed 4/1/2014.
600.	   Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
        tg1253.aspx, accessed 4/1/2014.
601.	   Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
        Dividends%20Interest%20Report.pdf, accessed 4/11/2014.
602.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
        Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/
        initiatives/financial-stability/reports/Documents/March%202014%20Dividends%20Interest%20Report.pdf, accessed 4/11/2014.
603.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
        Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
604.	   TD Bank Press Release, “TD Bank Group to acquire Chrysler Financial,” 12/21/2010, mediaroom.tdbank.com/index.
        php?s=30379&item=94198, accessed 4/2/2014; TD Auto Finance LLC, 8-K, 4/5/2011, www.sec.gov/Archives/edgar/
        data/1337471/000095012311032930/y90599e8vk.htm, accessed 4/1/2014; Banking Business Review, “TD Bank closes acquisition of Chrysler
        Financial,” 4/1/2011, retailbanking.banking-business-review.com/news/td-bank-closes-acquisition-of-chrysler-financial-040411, accessed
        4/1/2014.
605.	   Treasury Press Release, “Treasury Announces Auto Supplier Support Programs,” 3/19/2009, www.treasury.gov/press-center/press-releases/
        pages/tg64.aspx, accessed 4/2/2014; Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/
        Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014; Treasury, Section 105(a)
        Report, 6/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20
336             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



            Report_final.pdf, accessed 4/1/2014.
      606.	 Treasury, Office of Financial Stability: Agency Financial Report - Fiscal Year 2010, 11/15/2010, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 4/1/2014; Treasury, Transactions Report,
            3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_
            INVESTMENT.pdf, accessed 4/3/2014.
      607.	 Federal Reserve Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 4/15/2014.
      608.	 Federal Reserve Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 4/1/2014.
      609.	 Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
            04.01.2014.pdf, accessed 4/2/2014; Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/
            Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      610.	 FRBNY, response to SIGTARP data call, 4/9/2014.
      611.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      612.	 Treasury, response to SIGTARP data call, 4/9/2014.
      613.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      614.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      615.	 Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),”
            11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 4/1/2014.
      616.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
            accessed 4/1/2014.
      617.	 Federal Reserve, “Lending Facilities to Support Overall Market Liquidity,” March 2010, www.federalreserve.gov/monetarypolicy/clbs_
            lendingfacilities_201003.htm, accessed 4/1/2014.
      618.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
      619.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 4/1/2014.
      620.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
            accessed 4/1/2014.
      621.	 FRBNY, response to SIGTARP data call, 4/9/2014.
      622.	 FRBNY, response to SIGTARP data call, 4/9/2014.
      623.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 4/1/2014.
      624.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 4/1/2014.
      625.	 FRBNY, response to SIGTARP data call, 4/9/2014.
      626.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 4/1/2014.
      627.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 4/1/2014.
      628.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 4/1/2014.
      629.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 4/1/2014.
      630.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 4/1/2014; Federal Reserve, “Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet”,
            December 2009, www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport200912.pdf, accessed 4/1/2014.
      631.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 4/1/2014.
      632.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 4/1/2014.
      633.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 4/1/2014.
      634.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 4/1/2014.
      635.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
      636.	 Federal Reserve Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 4/1/2014.
      637.	 Federal Reserve, “Quarterly Report on Federal Reserve Balance Sheet Developments”, March 2013, www.federalreserve.gov/monetarypolicy/
            files/quarterly_balance_sheet_developments_report_201303.pdf, accessed 4/1/2014.
      638.	 Treasury, Daily TARP Update, 4/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20-%20
            04.01.2014.pdf, accessed 4/2/2014; Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/
            Documents/3-21-14%20Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      639.	 FRBNY, response to SIGTARP data call, 4/9/2014.
      640.	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 4/1/2014;
            FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed
            4/1/2014.
      641.	 FRBNY, response to SIGTARP data call, 4/9/2014.
                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014               337


642.	 FRBNY, response to SIGTARP data call, 4/9/2014.
643.	 FRBNY, response to SIGTARP data call, 4/9/2014.
644.	 Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF),” 12/1/2010, www.federalreserve.gov/newsevents/reform_talf.htm,
      accessed 4/1/2014.
645.	 FRBNY, response to SIGTARP data call, 4/9/2014.
646.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
647.	 Treasury Press Release, “Treasury Announces Full Repayment with Interest for Investment Through TALF Financial Crisis Response Program
      Designed to Unlock Credit for Consumers, Businesses,” 1/15/2013, www.treasury.gov/press-center/press-releases/Pages/tg1821.aspx, accessed
      4/1/2014.
648.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009, among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
      States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
      Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/talf/Documents/SPV-Sec-Agt.pdf,
      accessed 4/1/2014.
649.	 FRBNY, response to SIGTARP data call, 4/9/2014; Treasury, response to SIGTARP data call, 4/9/2014.
650.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 1/2/2014, www.federalreserve.gov/releases/h41/, accessed 4/1/2014.
651.	 FRBNY, response to SIGTARP data call, 4/9/2014.
652.	 FRBNY, response to SIGTARP data call, 4/9/2014.
653.	 Treasury, “Public-Private Investment Program,” 3/23/2009, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.
      pdf, accessed 4/2/2014.
654.	 Treasury Press Release, “Treasury Department Provides Updated Guidance,” 4/6/2009, www.treasury.gov/press-center/press-releases/Pages/tg82.
      aspx, accessed 4/2/2014.
655.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 4/2/2014.
656.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/
      ppip/Pages/purpose-and-overview.aspx, accessed 4/2/2014.
657.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 4/2/2014.
658.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 4/2/2014.
659.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 4/2/2014; Treasury, “Amended and Restated
      Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/
      Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 4/2/2014.
660.	 Treasury, “Legacy Securities Program,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/ppip/
      Pages/Program-Status.aspx, accessed 4/2/2014.
661.	 Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009, www.treasury.
      gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 4/2/2014.
662.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
663.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20%28redacted%29.pdf, accessed 4/2/2014.
664.	 Treasury, response to SIGTARP data call, 4/9/2014.
665.	 Treasury, response to SIGTARP data call, 4/9/2014.
666.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
667.	 Treasury, response to SIGTARP data call, 4/9/2014.
668.	 Treasury, response to SIGTARP data call, 4/9/2014.
669.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
670.	 PPIP fund managers’ reports for June 2013 submitted to Treasury and SIGTARP, 7/15/2013.
671.	 Treasury, response to SIGTARP data call, 4/9/2014.
672.	 PPIP fund managers’ reports for June 2013 submitted to Treasury and SIGTARP, 7/15/2013.
673.	 Treasury, response to SIGTARP data call, 4/9/2014.
674.	 PPIP fund managers’ monthly reports for May 2013 submitted to Treasury and SIGTARP, 6/17/2013.
675.	 Treasury, response to SIGTARP data call, 4/9/2014.
676.	 PPIP fund managers’ monthly reports for February 2013 submitted to Treasury and SIGTARP, 3/15/2013.
677.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of Wellington
      Management Legacy Securities PPIF (Offshore), L.P., 7/25/2013, Authentication No. 0616264, File No. 4709656.
678.	 BlackRock press release, “BlackRock Liquidates Public-Private Investment Partnership at a 23.5% Internal Rate of Return to Treasury,”
      12/5/2012, www.businesswire.com/news/home/20121205006450/en/BlackRock-Liquidates-Public-Private-Investment-Partnership-23.5-
      Internal, accessed 4/2/2014; BlackRock PPIP monthly report for November 2012 submitted to Treasury and SIGTARP, 12/14/2012.
679.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
680.	 Treasury, response to SIGTARP data call, 4/9/2014.
681.	 AllianceBernstein L.P. Press Release, “AllianceBernstein Liquidates Public-Private Investment Partnership at an 18.7% Internal Rate of Return
      for Treasury,” 10/9/2012, phx.corporate-ir.net/phoenix.zhtml?c=60983&p=irol-newsArticle&ID=1743175&highlight=, accessed 4/2/2014;
338            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



            AllianceBernstein PPIP monthly report for September 2012, submitted to Treasury and SIGTARP, 10/15/2012.
      682.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      683.	 Treasury, response to SIGTARP data call, 4/9/2014.
      684.	 RLJ Western press release, “RLJ Western Asset Management Liquidates Public Private Investment Partnership at a 23.9% Internal Rate of
            Return for Treasury,” 11/20/2012, www.prnewswire.com/news-releases/rlj-western-asset-management-liquidates-public-private-investment-
            partnership-at-a-239-internal-rate-of-return-for-treasury-180138341.html#, accessed 4/2/2014; RLJ Western PPIP monthly report for
            November 2012, submitted to Treasury and SIGTARP, 11/15/2012.
      685.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of RLJ Western Asset
            Public/Private Master Fund, L.P., 12/31/2012, Authentication No. 0107881, File No. 4735099.
      686.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of RLJ Western Asset
            Public/Private Master Fund, L.P., 12/31/2012, Authentication No. 0107881, File No. 4735099.
      687.	 Invesco Press Release, “Public-Private Investment Partnership Liquidates, 18.3% Internal Rate of Return to Treasury,” 4/3/2012, www.invesco.
            com/site/global/pdf/invest/media/press_releases/2012_04_03.pdf, accessed 4/2/2014; Invesco PPIP monthly report for March 2012, submitted
            to Treasury and SIGTARP, 4/16/2012.
      688.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      689.	 Delaware Secretary of State, Division of Corporations, Certificate of Cancellation of Certificate of Limited Partnership of Invesco Legacy
            Securities Master Fund, L.P., 10/3/2012, Authentication No. 9893096, File No. 4722688.
      690.	 Treasury, response to SIGTARP data call, 4/9/2014.
      691.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.pdf,
            accessed 4/2/2014.
      692.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended September 30, 2012,” 10/17/2012, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/External%20Report%20-%2009-12%20vFinal.pdf, accessed 4/2/2014.
      693.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended September 30, 2012,” 10/17/2012, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/External%20Report%20-%2009-12%20vFinal.pdf, accessed 4/2/2014.
      694.	 Congressional Oversight Panel, “August Oversight Report, The Continued Risk of Troubled Assets,” 8/11/2009, www.gpo.gov/fdsys/pkg/CPRT-
            111JPRT51601/pdf/CPRT-111JPRT51601.pdf, accessed 4/2/2014.
      695.	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press- center/press-releases/Pages/tg58.aspx,
            accessed 1/3/2014; SBA, “Q&A for Small Business Owners,” no date, www.sbaonline.sba.gov/idc/groups/public/documents/sba_homepage/
            recovery_act_faqs.pdf, accessed 4/4/2014.
      696.	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010,
            www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20Purchase%20Agreement%20
            (Execution%20Version).pdf, accessed 4/4/2014; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued
            by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/
            Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).pdf,
            accessed 4/4/2014.
      697.	 Treasury Press Release, “Treasury Announces Sale of Six SBA 7(a) Securities,” 6/8/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1203.aspx, accessed 4/4/2014; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA
            Pool Assemblers,” signed 3/2/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20
            Purchase%20Agreement%20(Execution%20Version).pdf, accessed 4/4/2014; Treasury, “Master Purchase Agreement for SBA Pooled Certificates
            and Senior Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-
            programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20
            MPA%20(73485877_2).pdf, accessed 4/4/2014.
      698.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/4/2014.
      699.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/4/2014.
      700.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
            Dividends%20Interest%20Report.pdf, accessed 4/10/2014.
      701.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
            Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
      702.	 SNL Financial LLC data.
      703.	 Treasury, “Annual Use of Capital Survey,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/use-of-
            capital/Pages/default.aspx, accessed 3/28/2014.
      704.	 Treasury, response to SIGTARP data call, 4/9/2014.
      705.	 “Community Banks and Capital: Assessing a Community Bank’s Need and Access to Capital in the Face of Market and Regulatory Challenges,”
            Conference of State Bank Supervisors white paper, December 2011, www.csbs.org/news/csbswhitepapers/Documents/CSBS-CommunityBanksC
            apitalWhitePaper120811.pdf, accessed 3/28/2014.
      706.	 CUNA, “Frequently Requested Bank and Credit Union Comparisons,” www.cuna.org/Research-And-Strategy/Credit-Union-Data-And-Statistics/
            Credit-Union-Versus-Bank-Comparisons/, accessed 3/28/2014.
      707.	 CUNA, “Frequently Requested Bank and Credit Union Comparisons,” www.cuna.org/Research-And-Strategy/Credit-Union-Data-And-Statistics/
            Credit-Union-Versus-Bank-Comparisons/, accessed 3/28/2014.
      708.	 CUNA, “Frequently Requested Bank and Credit Union Comparisons,” www.cuna.org/Research-And-Strategy/Credit-Union-Data-And-Statistics/
            Credit-Union-Versus-Bank-Comparisons/, accessed 3/28/2014.
      709.	 CUNA, “Frequently Requested Bank and Credit Union Comparisons,” www.cuna.org/Research-And-Strategy/Credit-Union-Data-And-Statistics/
                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014              339


      Credit-Union-Versus-Bank-Comparisons/, accessed 3/28/2014.
710.	 CUNA, “Frequently Requested Bank and Credit Union Comparisons,” www.cuna.org/Research-And-Strategy/Credit-Union-Data-And-Statistics/
      Credit-Union-Versus-Bank-Comparisons/, accessed 3/28/2014.
711.	 CUNA, “Frequently Requested Bank and Credit Union Comparisons,” www.cuna.org/Research-And-Strategy/Credit-Union-Data-And-Statistics/
      Credit-Union-Versus-Bank-Comparisons/, accessed 3/28/2014.
712.	 CUNA, “Frequently Requested Bank and Credit Union Comparisons,” www.cuna.org/Research-And-Strategy/Credit-Union-Data-And-Statistics/
      Credit-Union-Versus-Bank-Comparisons/, accessed 3/28/2014.
713.	 SNL Financial LLC data.
714.	 SNL Financial LLC data.
715.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
716.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
717.	 Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
      Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
718.	 Treasury, “Annual Use of Capital Survey,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/use-of-
      capital/Pages/default.aspx, accessed 3/28/2014.
719.	 Treasury, “Annual Use of Capital Survey,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/use-of-
      capital/Pages/default.aspx, accessed 3/28/2014.
720.	 Treasury, “Annual Use of Capital Survey,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/use-of-
      capital/Pages/default.aspx, accessed 3/28/2014.
721.	 Treasury, “CDCI: FAQS,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cdci/Pages/faqs.aspx#cdci_
      faq, accessed 3/28/2014.
722.	 Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
      Dividends%20Interest%20Report.pdf, accessed 4/11/2014
723.	 Treasury, “CDCI: Summary of Terms,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cdci/Pages/
      documents.aspx, accessed 3/28/2014.
724.	 Treasury, response to SIGTARP data call, 4/16/2014.
725.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
726.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
727.	 Treasury, response to SIGTARP data call, 4/9/2014 and 4/15/2014.
728.	 Treasury, response to SIGTARP data call, 4/9/2014.
729.	 Treasury, response to SIGTARP data call, 4/9/2014.
730.	 Treasury, response to SIGTARP data call, 4/9/2014.
731.	 Fannie Mae, response to SIGTARP data call, 4/9/2014; Freddie Mac, response to SIGTARP data call, 4/9/2014.
732.	 Treasury, response to SIGTARP data call, 4/11/2014.
733.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
734.	 Treasury, response to SIGTARP data call, 4/15/2014.
340        APPENDIX A I GLOSSARY I APRIL 30, 2014




 APPENDICES
 GLOSSARY
 This appendix provides a glossary of terms that are used in the context of this report.

 7(a) Loan Program: SBA loan program guaranteeing                   Debt: Investment in a business that is required to be paid
 a percentage of loans for small businesses that cannot             back to the investor, usually with interest.
 otherwise obtain conventional loans at reasonable terms.
                                                                    Deed-in-Lieu of Foreclosure: Instead of going through
 Accredited Investors: Individuals or institutions that             foreclosure, the borrower voluntarily surrenders the deed
 by law are considered financially sophisticated enough             to the home to the investor as satisfaction of the unpaid
 so that they can invest in ventures that are exempt from           mortgage balance.
 investor protection laws. Under U.S. securities laws, these
                                                                    Deobligations: An agency’s cancellation or downward
 include many financial companies, pension plans, wealthy
                                                                    adjustment of previously incurred obligations.
 individuals, and top executives or directors of the issuing
 companies.                                                         Due Diligence: Appropriate level of attention or care a
                                                                    reasonable person should take before entering into an
 Asset-Backed Securities (“ABS”): Bonds backed by a
                                                                    agreement or a transaction with another party. In finance, it
 portfolio of consumer or corporate loans (e.g., credit card,
                                                                    often refers to the process of conducting an audit or review of
 auto, or small-business loans). Financial companies typically
                                                                    the institution before initiating a transaction.
 issue ABS backed by existing loans in order to fund new loans
 for their customers.                                               Equity: Investment that represents an ownership interest in
                                                                    a business.
 Collateral: Asset pledged by a borrower to a lender until a
 loan is repaid. Generally, if the borrower defaults on the loan,   Excess Spread: Funds left over after required payments and
 the lender gains ownership of the pledged asset and may sell       other contractual obligations have been met. In TALF it is
 it to satisfy the debt. In TALF, the ABS or CMBS purchased         the difference between the periodic amount of interest paid
 with the TALF loan is the collateral that is posted with           out by the collateral and the amount of interest charged by
 FRBNY.                                                             FRBNY on the nonrecourse loan provided to the borrower to
                                                                    purchase the collateral.
 Commercial Mortgage-Backed Securities (“CMBS”):
 Bonds backed by one or more mortgages on commercial real           Exercise Price: Preset price at which a warrant holder
 estate (e.g., office buildings, rental apartments, hotels).        may purchase each share. For warrants in publicly traded
                                                                    institutions issued through CPP, this was based on the
 Common Stock: Equity ownership entitling an individual to
                                                                    average stock price during the 20 days before the date that
 share in corporate earnings and voting rights.
                                                                    Treasury granted preliminary CPP participation approval.
 Community Development Financial Institutions
                                                                    Government-Sponsored Enterprises (“GSEs”): Private
 (“CDFIs”): Financial institutions eligible for Treasury
                                                                    corporations created and chartered by the Government to
 funding to serve urban and rural low-income communities
                                                                    reduce borrowing costs and provide liquidity in the market,
 through the CDFI Fund. CDFIs were created in 1994
                                                                    the liabilities of which are not officially considered direct
 by the Riegle Community Development and Regulatory
                                                                    taxpayer obligations. On September 7, 2008, the two largest
 Improvement Act.
                                                                    GSEs, the Federal National Mortgage Association (“Fannie
 Cumulative Redefault Rate: The total number of HAMP                Mae”) and the Federal Home Loan Mortgage Corporation
 permanent modifications that have redefaulted (as of               (“Freddie Mac”), were placed into Federal conservatorship.
 a specific date) divided by the total number of HAMP               They are currently being financially supported by the
 permanent modifications started (as of the same specific           Government.
 date).
                                                                    Haircut: Difference between the value of the collateral and
 Custodian Bank: Bank holding the collateral and managing           the value of the loan (the loan value is less than the collateral
 accounts for FRBNY; for TALF the custodian is Bank of New          value).
 York Mellon.
                                                                                      GLOSSARY I APPENDIX A I APRIL 30, 2014      341




Illiquid Assets: Assets that cannot be quickly converted to      Net Present Value (“NPV”) Test: Compares the money
cash.                                                            generated by modifying the terms of the mortgage with the
                                                                 amount an investor can reasonably expect to recover in a
Investors: Owners of mortgage loans or bonds backed by
                                                                 foreclosure sale.
mortgage loans who receive interest and principal payments
from monthly mortgage payments. Servicers manage the cash        Non-Agency Residential Mortgage-Backed Securities
flow from borrowers’ monthly payments and distribute them        (“non-agency RMBS”): Financial instrument backed by
to investors according to Pooling and Servicing Agreements       a group of residential real estate mortgages (i.e., home
(“PSAs”).                                                        mortgages for residences with up to four dwelling units) not
                                                                 guaranteed or owned by a Government-sponsored enterprise
Legacy Securities: Real estate-related securities originally
                                                                 (“GSE”) or a Government Agency.
issued before 2009 that remained on the balance sheets
of financial institutions because of pricing difficulties that   Non-Recourse Loan: Secured loan in which the borrower is
resulted from market disruption.                                 relieved of the obligation to repay the loan upon surrendering
                                                                 the collateral.
Limited Partnership: Partnership in which there is at least
one partner whose liability is limited to the amount invested    Obligations: Definite commitments that create a legal
(limited partner) and at least one partner whose liability       liability for the Government to pay funds.
extends beyond monetary investment (general partner).
                                                                 Pool Assemblers: Firms authorized to create and market
Loan Servicers: Companies that perform administrative            pools of SBA-guaranteed loans.
tasks on monthly mortgage payments until the loan is
                                                                 Preferred Stock: Equity ownership that usually pays a fixed
repaid. These tasks include billing, tracking, and collecting
                                                                 dividend before distributions for common stock owners but
monthly payments; maintaining records of payments and
                                                                 only after payments due to debt holders. It typically confers
balances; allocating and distributing payment collections to
                                                                 no voting rights. Preferred stock also has priority over
investors in accordance with each mortgage loan’s governing
                                                                 common stock in the distribution of assets when a bankrupt
documentation; following up on delinquencies; and initiating
                                                                 company is liquidated.
foreclosures.
                                                                 Pro Rata: Refers to dividing something among a group of
Loan-to-Value (“LTV”) Ratio: Lending risk assessment ratio
                                                                 participants according to the proportionate share that each
that mortgage lenders examine before approving a mortgage;
                                                                 participant holds as a part of the whole.
calculated by dividing the outstanding amount of the loan
by the value of the collateral backing the loan. Loans with      Qualified Institutional Buyers (“QIB”): Institutions that
high LTV ratios are generally seen as higher risk because the    under U.S. securities law are permitted to buy securities that
borrower has less of an equity stake in the property.            are exempt from registration under investor protection laws
                                                                 and to resell those securities to other QIBs. Generally these
Mandatorily Convertible Preferred Stock (“MCP”): A type
                                                                 institutions own and invest at least $100 million in securities,
of preferred share (ownership in a company that generally
                                                                 or are registered broker-dealers that own or invest at least $10
entitles the owner of the shares to collect dividend payments)
                                                                 million in securities.
that can be converted to common stock under certain
parameters at the discretion of the company — and must be        Risk-Weighted Assets: Risk-based measure of total assets
converted to common stock by a certain time.                     held by a financial institution. Assets are assigned broad
                                                                 risk categories. The amount in each risk category is then
Nationally Recognized Statistical Rating Organization
                                                                 multiplied by a risk factor associated with that category. The
(“NRSRO”): Credit rating agency registered with the
                                                                 sum of the resulting weighted values from each of the risk
SEC. Credit rating agencies provide their opinion of the
                                                                 categories is the bank’s total risk-weighted assets.
creditworthiness of companies and the financial obligations
issued by companies. The ratings distinguish between             SBA Pool Certificates: Ownership interest in a bond backed
investment grade and non-investment grade equity and debt        by SBA-guaranteed loans.
obligations.
342        APPENDIX A I GLOSSARY I APRIL 30, 2014




 Senior Preferred Stock: Shares that give the stockholder          Trial Modification: Under HAMP, a period of at least three
 priority dividend and liquidation claims over junior preferred    months in which a borrower is given a chance to establish
 and common stockholders.                                          that he or she can make lower monthly mortgage payments
                                                                   and qualify for a permanent modification.
 Senior Subordinated Debentures: Debt instrument ranking
 below senior debt but above equity with regard to investors’      Trust Preferred Securities (“TRUPS”): Securities that have
 claims on company assets or earnings.                             both equity and debt characteristics, created by establishing a
                                                                   trust and issuing debt to it.
 Servicing Advances: If borrowers’ payments are not made
 promptly and in full, mortgage servicers are contractually        Undercapitalized: Condition in which a financial institution
 obligated to advance the required monthly payment amount          does not meet its regulator’s requirements for sufficient
 in full to the investor. Once a borrower becomes current          capital to operate under a defined level of adverse conditions.
 or the property is sold or acquired through foreclosure, the
                                                                   Underwater Mortgage: Mortgage loan on which a
 servicer is repaid all advanced funds.
                                                                   homeowner owes more than the home is worth, typically as a
 Short Sale: Sale of a home for less than the unpaid mortgage      result of a decline in the home’s value. Underwater mortgages
 balance. A borrower sells the home and the investor accepts       also are referred to as having negative equity.
 the proceeds as full or partial satisfaction of the unpaid
 mortgage balance, thus avoiding the foreclosure process.
 Skin in the Game: Equity stake in an investment; down
 payment; the amount an investor can lose.
 Special Purpose Vehicle (“SPV”): A legal entity, often off-
 balance-sheet, that holds transferred assets presumptively
 beyond the reach of the entities providing the assets, and that
 is legally isolated from its sponsor or parent company.
 Subchapter S Corporations (“S corporations”): Corporate
 form that passes corporate income, losses, deductions, and
 credit through to shareholders for Federal tax purposes.
 Shareholders of S corporations report the flow-through of
 income and losses on their personal tax returns and are taxed
 at their individual income tax rates.
 Subordinated Debentures: Form of debt security that ranks
 below other loans or securities with regard to claims on assets
 or earnings.
 Systemically Significant Institutions: Term referring to any
 financial institution whose failure would impose significant
 losses on creditors and counterparties, call into question the
 financial strength of similar institutions, disrupt financial
 markets, raise borrowing costs for households and businesses,
 and reduce household wealth.
 TALF Agent: Financial institution that is party to the TALF
 Master Loan and Security Agreement and that occasionally
 acts as an agent for the borrower. TALF agents include
 primary and nonprimary broker-dealers.
                                                                                                      GLOSSARY I APPENDIX A I APRIL 30, 2014   343




Sources:
Board of Governors of the Federal Reserve System, “Bank Holding Companies,” no date, www.
fedpartnership.gov/bank-life-cycle/manage-transition/bank-holding-companies.cfm, accessed
4/2/2014.
Federal Reserve Board, Federal Reserve Banks Operating Circular No. 9: Treasury Investments and
Collateral Securing Public Funds and Financial Interests of the Government, www.frbservices.org/
files/regulations/pdf/operating_circular_9_072513.pdf, accessed 4/2/2014.
FCIC, glossary, no date, www.fcic.gov/resource/glossary, accessed 4/2/2014.
FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_
card_securitization/glossary.html, accessed 4/2/2014.
FDIC, “FDIC Law, Regulations, Related Acts,” no date, www.fdic.gov/regulations/laws/
rules/2000-4600.html, accessed 4/2/2014.
FRBNY, “TALF FAQ’s,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html, accessed 4/2/2014.
SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
3/25/2010, www.sigtarp.gov/Audit%20Reports/Factors_Affecting_Implementation_of_the_Home_
Affordable_Modification_Program.pdf, accessed 4/2/2014.
GAO, “Principles of Federal Appropriations Law, Third Edition, Volume II,” 1/2004, www.gao.gov/
special.pubs/d06382sp.pdf, p. 7-3, accessed 4/2/2014.
GAO, “Troubled Asset Relief Program Treasury Needs to Strengthen Its Decision-Making Process
on the Term Asset-Backed Securities Loan Facility,” 2/2010, www.gao.gov/new.items/d1025.
pdf, accessed 4/2/2014; GAO, “Troubled Asset Relief Program: Third Quarter 2010 Update of
Government Assistance Provided to AIG and Description of Recent Execution of Recapitalization
Plan,” 1/20/2011, www.gao.gov/new.items/d1146.pdf, accessed 4/2/2014.
IRS, “Glossary of Offshore Terms,” no date, www.irs.gov/Businesses/Small-Businesses-&-Self-
Employed/Abusive-Offshore-Tax-Avoidance-Schemes-Glossary-of-Offshore-Terms, accessed
4/2/2014.
Making Home Affordable base NPV model documentation v5.01, updated 10/1/2012, www.
hmpadmin.com/portal/programs/docs/hamp_servicer/npvmodeldocumentationv501.pdf, pp. 23-24,
accessed 4/2/2014.
SBA, “Notice of Changes to SBA Secondary Market Program,” 9/21/2004, archive.sba.gov/idc/
groups/public/documents/sba_program_office/bank_notice_of_changes.htm, accessed 4/2/2014.
SEC, “NRSRO,” no date, www.sec.gov/answers/nrsro.htm, accessed 4/2/2014.
Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
4/2/2014.
Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,” 3/16/2009, www.treasury.gov/press-
center/press-releases/Pages/tg58.aspx, accessed 4/2/2014.
Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and
Government Reform,” 10/28/2009, www.treasury.gov/press-center/press-releases/Pages/tg334.
aspx, accessed 4/2/2014.
Treasury, “Supplemental Directive 10-14: Making Home Affordable Program - Principal Reduction
Alternative Update,” 10/15/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
sd1014.pdf, accessed 4/2/2014.
Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.
treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed 4/2/2014.
U.S. Census Bureau, “Residential Finance Survey, Glossary Of RFS Terms And Definitions,” no date,
www.census.gov/hhes/www/rfs/glossary.html#l, accessed 4/2/2014.
U.S. Department of Housing and Urban Development, “Glossary,” no date, www.hud.gov/offices/hsg/
sfh/buying/glossary.cfm, accessed 4/2/2014.
344           APPENDIX B I ACRONYMS AND ABBREVIATIONS I APRIL 30, 2014




      ACRONYMS AND ABBREVIATIONS

                    2MP      Second Lien Modification Program                                 DTI    debt-to-income
                     ABS     asset-backed securities                                        EESA     Emergency Economic Stabilization Act of 2008
                the “Act” Securities Act of 1933                                   Eligible Assets   securities eligible for purchase by PPIFs
                     AGP Asset Guarantee Program                                      Fannie Mae     Federal National Mortgage Association
                     AHR     American Home Recovery                                          FDIC    Federal Deposit Insurance Corporation
                     AIFP    Automotive Industry Financing Program                                   Federal Deposit Insurance Corporation Office of
                                                                                        FDIC OIG
                                                                                                     Inspector General
                      AIG    American International Group, Inc.
                                                                                  Federal Reserve    Board of Governors of the Federal Reserve System
      Ally, Ally Financial   Ally Financial Inc.
                                                                                              FHA    Federal Housing Administration
                    AMS      American Mortgage Specialists, Inc.
                                                                                         FHA2LP      Treasury/FHA Second-Lien Program
                  Anchor Anchor BanCorp Wisconsin, Inc.
                                                                                              Fiat   Fiat North America LLC
                Artisans’ Artisans’ Bank
                                                                                                     Office of Inspector General-Board of Governors of
                    ASSP Auto Supplier Support Program                                   FRB OIG
                                                                                                     the Federal Reserve System
                   AWCP      Auto Warranty Commitment Program
                                                                                          FRBNY      Federal Reserve Bank of New York
       Bank of America Bank of America Corporation
                                                                                     Freddie Mac     Federal Home Loan Mortgage Corporation
                     BNC     BNC National Bank
                                                                                            FSOC     Financial Stability Oversight Council or the Council
                     BOC     Bank of the Commonwealth
                                                                                              FTC    Federal Trade Commission
       The Burke Group       Burke Real Estate Group
                                                                                             GAO     Government Accountability Office
                 Calvert     Calvert Financial Corporation
                                                                                         Gateway     Gateway Bank, FSB
                     CAP Capital Assistance Program
                                                                                              GM     General Motors Company
                     CBO     Congressional Budget Office
                                                                                     GM Financial    General Motors Financial Company, Inc.
                    CDCI     Community Development Capital Initiative
                                                                                              GSE    Government-sponsored enterprise
                    CDFI     Community Development Financial Institution
                                                                                        GulfSouth GulfSouth Private Bank
                    CEBT     Colorado East Bank and Trust
                                                                                            HAFA     Home Affordable Foreclosure Alternatives program
                     CEO     chief executive officer
                                                                                                     Home Affordable Modification Program; HAMP
                                                                                           HAMP
               Cerberus      Cerberus Capital Management, L.P.                                       Tier 1
                     CFO     chief financial officer                                 HAMP Tier 2     Home Affordable Modification Program Tier 2
                Chrysler     Chrysler Holding LLC                                             HFA    Housing Finance Agency
      Chrysler Financial     Chrysler Financial Services Americas LLC                         HHF    Hardest Hit Fund
                             Council of the Inspectors General on Integrity and   HHF or Hardest
                    CIGIE                                                                        Housing Finance Agency Hardest Hit Fund
                             Efficiency                                                 Hit Fund
               Citigroup     Citigroup Inc.                                                 HOPE     Home Owners Protection Economics, Inc.
                   CMBS      commercial mortgage-backed securities                          HPDP     Home Price Decline Protection
      Coastal Securities Coastal Securities, Inc.                                            HUD     Department of Housing and Urban Development
                     CPP Capital Purchase Program                                              IDI   Investment Directions, Inc.
                             Department of Education Office of Inspector                 Jefferies Jefferies, Inc.
                  DE OIG
                             General
                                                                                         Jobs Act    Small Business Jobs Act of 2010
                             Dodd-Frank Wall Street Reform and Consumer
        Dodd-Frank Act                                                                        IPO initial public offering
                             Protection Act
                                                                                 ACRONYMS AND ABBREVIATIONS I APPENDIX B I APRIL 30, 2014              345




 Lend America Ideal Mortgage Bankers Ltd. (d/b/a Lend America)                         SBLF    Small Business Lending Fund
           LTV    loan-to-value                                                         SEC    Securities and Exchange Commission
          M&T     M&T Bank Corporation                                             servicers loan servicers
    Mainstreet Mainstreet Bank                                            servicing advance receivables for residential mortgage servicing
                                                                                 receivables advances
          MBS     mortgage-backed securities
                                                                             Shay Financial    Shay Financial Services, Inc.
          MCP mandatorily convertible preferred shares
                                                                                               Office of the Special Inspector General for the
        Merrill   Merrill Lynch & Co. Inc.                                         SIGTARP
                                                                                               Troubled Asset Relief Program
          MHA     Making Home Affordable program
                                                                                               Special Inspector General for the Troubled Asset
                                                                               SIGTARP Act
     MidCoast     MidCoast Community Bank, Inc.                                                Relief Program Act of 2009
                  Neighborhood Reinvestment Corporation and                  Small Business
NeighborWorks                                                                               Jobs Act of 2010
                  NeighborWorks America                                            Jobs Act
     NewPoint NewPoint Financial Services, Inc.                                         SPA Servicer Participation Agreements
  Non-Agency Non-Agency Residential Mortgage-Backed                                     SPV    special purpose vehicle
       RMBS Securities
                                                                                        SSFI   Systemically Significant Failing Institutions program
          NPV     net present value
                                                                                        SVB    Sonoma Valley Bank
       NRSRO      nationally recognized statistical rating organization
                                                                                    Syringa    Syringa Bancorp
         NYAG     New York State Attorney General
                                                                               Syringa Bank    Syringa Bank
          OFS     Office of Financial Stability
                                                                                       TALF    Term Asset-Backed Securities Loan Facility
          OMB     Office of Management and Budget
                                                                                       TARP    Troubled Asset Relief Program
     OneBanc One Bank & Trust, N.A.
                                                                                        TBW Taylor, Bean and Whitaker Mortgage Corporation
   Option ARM     Option Adjustable Rate Mortgage
                                                                                        TCB    TCB Holding Company, The Woodlands, Texas
          OTS     Office of Thrift Supervision
                                                                                        TCW The TCW Group, Inc.
        Oxford    Oxford Collection Agency
                                                                                         TIP Targeted Investment Program
            PII   personally identifiable information
                                                                                        TPP trial period plan
          PPIF    Public-Private Investment Fund
                                                                                   Treasury Department of the Treasury
          PPIP Public-Private Investment Program
                                                                                               Department of Treasury Office of Inspector
                                                                               Treasury OIG
          PRA     Principal Reduction Alternative                                              General
          PSA     Pooling and Servicing Agreements                                 Treasury
                                                                                            Secretary of the Treasury
                                                                                  Secretary
                  Cooper Capital Group, Ltd., Empower International,
the Purchasers
                  Inc., The Steve Manna Group, LLC                           Treasury/FHA-     HAMP Loan Modification Option for FHA-insured
                                                                                     HAMP      Mortgages
           QIB    Qualified Institutional Buyers
                                                                                     TRUPS     trust preferred securities
                  Department of Agriculture Office of Rural
           RD
                  Development                                                                  Tennesse Valley Authority's Office of the Inspector
                                                                                    TVA OIG
                                                                                               General
                  Department of Agriculture Office of Rural
     RD-HAMP
                  Development HAMP                                                      UAW    United Auto Workers
       ResCap Residential Capital, LLC                                                UCBH     United Commercial Bank Holdings, Inc.
          RMA request for mortgage assistance                                          UCSB    Unlocking Credit for Small Businesses
        RMBS      residential mortgage-backed securities                                  UP   Home Affordable Unemployment Program
                  Railroad Retirement Board Office of Inspector                           VA   Department of Veterans Affairs
      RRB OIG
                  General
                                                                                               Department of Veterans Affairs Home Affordable
                                                                                   VA HAMP
S corporations subchapter S corporations                                                       Modification Program
          SBA Small Business Administration
346         APPENDIX B I ACRONYMS AND ABBREVIATIONS I APRIL 30, 2014




           Washington
                      Washington Mutual Bank
               Mutual
        Western Asset Western Asset Management Company
      Wilmington Trust   Wilmington Trust Company
                                                                                             REPORTING REQUIREMENTS I APPENDIX C I APRIL 30, 2014         347




REPORTING REQUIREMENTS
This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121, as well as a cross-reference to related
data presented in this report and prior reports. Italic style indicates narrative taken verbatim from source documents.

#     EESA        EESA Reporting       Treasury Response to SIGTARP Data Call                                                          SIGTARP Report
      Section     Requirement                                                                                                          Section
1     Section     A description of     Treasury’s authority to make new financial commitments under TARP ended on October 3,           Section 2: “TARP
      121(c)(A)   the categories of    2010.                                                                                           Overview”
                  troubled assets      Accordingly, the Secretary of the Treasury has not purchased or otherwise procured any
                  purchased or                                                                                                         Appendix D:
                                       troubled assets under TARP since that date.
                  otherwise procured                                                                                                   “Transaction
                  by the Treasury      Below are program descriptions from Treasury’s website, www.treasury.gov/initiatives/           Detail”
                  Secretary.           financial-stability/Pages/default.aspx, as of 7/11/2013, or as otherwise noted:
                                       CPP: The Capital Purchase Program (CPP) was launched to stabilize the financial system
                                       by providing capital to viable financial institutions of all sizes throughout the nation.
                                       Without a viable banking system, lending to businesses and consumers could have frozen
                                       and the financial crisis might have spiraled further out of control.
                                       AIG (otherwise known as Systemically Significant Failing Institutions (“SSFI”): At the height
                                       of the financial crisis in September 2008, American International Group (AIG) was on
                                       the brink of failure. At the time, AIG was the largest provider of conventional insurance
                                       in the world. Millions depended on it for their life savings and it had a huge presence
                                       in many critical financial markets, including municipal bonds. AIG’s failure would have
                                       been devastating to global financial markets and the stability of the broader economy.
                                       Therefore, the Federal Reserve and Treasury acted to prevent AIG’s disorderly failure.
                                       AGP: Under the Asset Guarantee Program (AGP), the government supported institutions
                                       whose failure would have caused serious harm to the financial system and the broader
                                       economy. It involved supporting the value of certain assets held by qualifying financial
                                       institutions by agreeing to absorb a portion of losses on those assets. AGP was
                                       conducted jointly by Treasury, the Federal Reserve, and the FDIC and was used in
                                       conjunction with other forms of exceptional assistance. … Two institutions received
                                       assistance under the AGP - Bank of America and Citigroup.
                                       TIP: The Targeted Investment Program (TIP) was created to help stabilize institutions
                                       considered systemically significant, to prevent broader disruption of financial markets.
                                       Under the TIP, Treasury purchased $20 billion in preferred stock from two institutions,
                                       Citigroup Inc. and Bank of America.
                                       TALF: The Term Asset-Backed Securities Loan Facility (TALF) is a joint program with the
                                       Federal Reserve. The program was launched in March 2009 with the aim of helping to
                                       restart the asset-backed securitization (ABS) markets that provide credit to consumers
                                       and small businesses. … Under this program, the Federal Reserve Bank of New York
                                       made non-recourse loans to buyers of AAA-rated asset-backed securities to help stimulate
                                       consumer and business lending. Treasury used TARP funds to provide credit support for
                                       these loans.
                                       PPIP: On March 23, 2009, Treasury announced the Legacy Securities Public-Private
                                       Investment Program (PPIP), which was designed to support market functioning and
                                       facilitate price discovery in the markets for legacy Commercial Mortgage-Backed
                                       Securities (CMBS) and non-agency Residential Mortgage-Backed Securities (RMBS).
                                       CDCI: Treasury created the Community Development Capital Initiative (CDCI) on February
                                       3, 2010 to help viable certified Community Development Financial Institutions (CDFIs)
                                       and the communities they serve cope with effects of the financial crisis. Under this
                                       program, CDFI banks, thrifts, and credit unions received investments of capital. Eighty-four
                                       institutions received investments totaling approximately $570 million.
348       APPENDIX C I REPORTING REQUIREMENTS I APRIL 30, 2014




      #   EESA        EESA Reporting          Treasury Response to SIGTARP Data Call                                                        SIGTARP Report
          Section     Requirement                                                                                                           Section
                                              SBLF: Established by the Small Business Jobs Act of 2010 (the Act), the Small Business
                                              Lending Fund (SBLF) is a dedicated fund designed to provide capital to qualified
                                              community banks and community development loan funds (CDLFs) in order to encourage
                                              small business lending. The purpose of the SBLF is to encourage Main Street banks and
                                              small businesses to work together, help create jobs, and promote economic growth in
                                              communities across the nation.
                                              SBA 7(a) Securities Purchase Program (formerly known as UCSB): Treasury launched the
                                              SBA 7(a) Securities Purchase Program to help unlock credit for small businesses. Under
                                              this program, Treasury purchased securities backed by the government guaranteed
                                              portion of SBA 7(a) small business loans and provided additional liquidity to the market in
                                              order to increase overall small business lending.
                                              AIFP: The Automotive Industry Financing Program (AIFP) was launched in December
                                              2008 to prevent the uncontrolled liquidation of Chrysler and General Motors (GM) and the
                                              collapse of the U.S. auto industry.
                                              ASSP: The Automotive Supplier Support Program was created to ensure that auto
                                              suppliers received compensation for their services and products, regardless of the
                                              condition of the auto companies that purchase their products.a
                                              AWCP: Treasury provided loans to protect warranties on new vehicles purchased from GM
                                              and Chrysler during their restructuring periods.a
                                              HAMP (a program under MHA): The Home Affordable Modification Program’s goal is to
                                              offer homeowners who are at risk of foreclosure reduced monthly mortgage payments
                                              that are affordable and sustainable over the long-term. HAMP was designed to help
                                              families who are struggling to remain in their homes and show: documented financial
                                              hardship and an ability to make their monthly mortgage payments after a modification.
                                              HAMP is a voluntary program that supports servicers’ efforts to modify mortgages,
                                              while protecting taxpayers’ interests. To protect taxpayers, MHA housing initiatives have
                                              pay-for-success incentives. This means that funds are spent only when transactions are
                                              completed and only as long as those contracts remain in place. Therefore, funds will be
                                              disbursed over many years.
      2   Section     A listing of the        Treasury’s authority to make new financial commitments under TARP ended on October 3,         Appendix D:
          121(c)(B)   troubled assets         2010.                                                                                         “Transaction
                      purchased in each       Information on all transactions as well as additional information about these programs and
                                                                                                                                            Detail”
                      such category           related purchases is available in TARP Transactions Reports and Monthly 105(a) Reports
                      described under         to Congress posted at www.treasury.gov/initiatives/financial-stability/reports/Pages/
                      Section 121(c)(A).      default.aspx.
      3   Section     An explanation          Treasury’s authority to make new financial commitments under TARP ended on October 3,         Section 2: “TARP
          121(c)(C)   of the reasons          2010.                                                                                         Overview”
                      the Treasury
                      Secretary deemed                                                                                                      Appendix C:
                      it necessary to                                                                                                       “Reporting
                      purchase each such                                                                                                    Requirements”
                      troubled asset.                                                                                                       of prior SIGTARP
                                                                                                                                            Quarterly Reports
                                                                                                                                            to Congress
      4   Section     A listing of each       Treasury’s authority to make new financial commitments under TARP ended on October 3,         Appendix D:
          121(c)(D)   financial institution   2010.                                                                                         “Transaction
                      from which such                                                                                                       Detail”
                      troubled assets         Information on all transactions as well as additional information about these programs and
                      were purchased.         related purchases is available in TARP Transactions Reports and Monthly 105(a) Reports
                                              to Congress posted at www.treasury.gov/initiatives/financial-stability/reports/Pages/
                                              default.aspx.
                                                                                                                     REPORTING REQUIREMENTS I APPENDIX C I APRIL 30, 2014                         349




#       EESA             EESA Reporting             Treasury Response to SIGTARP Data Call                                                                              SIGTARP Report
        Section          Requirement                                                                                                                                    Section
5       Section          A listing of               There have been no new PPIP fund managers hired between June 30, 2013 and                                           Section 2:
        121(c)(E)        and detailed               March 31, 2014.                                                                                                     “Public-Private
                         biographical                                                                                                                                   Investment
                         information on each                                                                                                                            Program”
                         person or entity
                         hired to manage                                                                                                                                Appendix C:
                         such troubled                                                                                                                                  “Reporting
                         assets.                                                                                                                                        Requirements”
                                                                                                                                                                        of prior SIGTARP
                                                                                                                                                                        Quarterly Reports
                                                                                                                                                                        to Congress
6       Section          A current estimate         Treasury published its most recent valuation of TARP investments on 4/10/2014, in its                               Table C.1;
        121(c)(F)        of the total amount        March 2014 Monthly Report to Congress, which will be available on Treasury’s public                                 Section 2:
                         of troubled assets         website at the following link: www.treasury.gov/initiatives/financial-stability/reports/                            “TARP Overview”
                         purchased pursuant         Pages/Monthly-Report-to-Congress.aspx.
                         to any program                                                                                                                                 Appendix D:
                         established under                                                                                                                              “Transaction
                         Section 101, the                                                                                                                               Detail”
                         amount of troubled
                         assets on the books
                         of Treasury, the
                         amount of troubled
                         assets sold, and
                         the profit and loss
                         incurred on each
                         sale or disposition
                         of each such
                         troubled assets.
7       Section          A listing of the           Treasury’s authority to make new financial commitments under TARP ended on October 3,                               Section 2:
        121(c)(G)        insurance contracts        2010. As such, Treasury cannot issue any new insurance contracts after this date.                                   “TARP Overview”
                         issued under
                         Section 102.                                                                                                                                   Section 2:
                                                                                                                                                                        “Targeted
                                                                                                                                                                        Investment
                                                                                                                                                                        Program and
                                                                                                                                                                        Asset Guarantee
                                                                                                                                                                        Program”
8       Section          A detailed                 Treasury’s authority to make new financial commitments under TARP ended on October 3,                               Table C.1;
        121(f)           statement of               2010.
                         all purchases,                                                                                                                                 Section 2:
                                                    Treasury provides information about TARP obligations, expenditures, and revenues in
                         obligations,                                                                                                                                   “TARP Overview”
                                                    TARP Transactions Reports available on Treasury’s public website at www.treasury.gov/
                         expenditures,
                                                    initiatives/financial-stability/Pages/default.aspx.
                         and revenues                                                                                                                                   Section 4:
                         associated with            Information on obligations and expenditures is also available in the Daily TARP Update                              “TARP
                         any program                reports available on Treasury’s public website at: www.treasury.gov/initiatives/financial-                          Operations and
                         established by the         stability/reports/Pages/Daily-TARP-Reports.aspx.                                                                    Administration”
                         Secretary of the
                         Treasury under                                                                                                                                 Appendix D:
                         Sections 101 and                                                                                                                               “Transaction
                         102.                                                                                                                                           Detail”
Notes:
a
  Description is as of 7/11/2013.

Sources: Program Descriptions: Treasury, “TARP Programs,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/Pages/default.aspx#, accessed 4/1/2014; ASSP: “Treasury Announces Auto
Suppliers Support Program,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/tg64.aspx, accessed 4/1/2014; AWCP: “Obama Administration’s New Warrantee Commitment Program,”
no date, www.whitehouse.gov/assets/documents/Warrantee_Commitment_Program.pdf, accessed 4/1/2014; TALF: Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF) Frequently Asked
Questions,” 3/3/2009, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 4/1/2014; SBLF: Small Business Lending Act, P.L. 111-240, 9/27/2010, www.gpo.
gov/fdsys/pkg/PLAW-111publ240/html/PLAW-111publ240.htm, accessed 4/1/2014; MHA “Making Home Affordable Updated Detailed Description Update,” 11/23/2012, www.treasury.gov/initiatives/
financial-stability/TARP-Programs/housing/mha/Pages/default.aspx, accessed 4/1/2014.
350            APPENDIX C I REPORTING REQUIREMENTS I APRIL 30, 2014




      TABLE C.1
       TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS                                                                                    ($ BILLIONS)
       (NUMBERS IN PARENTHESES REPRESENT REPAYMENTS AND REDUCTIONS IN EXPOSURE)

                                                                                                                       Obligations
                                                                                                                       After Dodd-                     Current
                                                                                                                             Frank                  Obligations
                                                                                                                             (As of                      (As of                                       On Treasury’s
                                                                                       Total Funding                  10/3/2010)                   3/31/2014)                      Expended                 Booksa
       Housing Support Programs                                                                 $70.6b                          $45.6                       $38.5c                        $11.7                     $—d
                                                                                                204.9
       Capital Purchase Program (“CPP”)                                                                                         204.9                       204.9                         204.9                     6.7
                                                                                               (196.0)e
                                                                                                    0.6
       Community Development Capital Initiative (“CDCI”)                                                                            0.6                         0.6f                          0.2                   0.5
                                                                                                   (0.1)
                                                                                                  69.8
       Systemically Significant Failing Institutions (“SSFI”)                                                                     69.8                        67.8h                         67.8                   13.5
                                                                                                 (56.4)g
                                                                                                  40.0
       Targeted Investment Program (“TIP”)                                                                                        40.0                        40.0                          40.0                    0.0
                                                                                                 (40.0)
                                                                                                301.0
       Asset Guarantee Program (“AGP”)                                                                                              5.0                         5.0                           0.0                   0.0
                                                                                               (301.0)
                                                                                                  81.8j
       Automotive Industry Support Programs (“AIFP”)i                                                                             81.8                        79.7                          79.7                   20.6
                                                                                                 (61.2)
                                                                                                  71.1
       Term Asset-Backed Securities Loan Facility (“TALF”)                                                                          4.3                         0.1                           0.1                   0.0
                                                                                                   (0.1)k
                                                                                                  29.8
       Public-Private Investment Program (“PPIP”)                                                                                 22.4                        19.6                          18.6                    0.0m
                                                                                                 (18.6)l
                                                                                                    0.4n
       Unlocking Credit for Small Businesses (“UCSB”)                                                                               0.4                         0.4                           0.4                   0.0
                                                                                                   (0.4)
       Total                                                                                 $868.9                           $474.8                     $456.5                       $423.4o                   $41.2
       Notes: Numbers may not total due to rounding.
       a
            “On Treasury’s Books” includes amounts disbursed and still outstanding of $8.1 billion, plus write-offs, realized losses, and investments currently not collectible because of pending bankruptcies or
             receiverships, totaling $33.2 billion. It does not include $11.7 billion in TARP dollars spent on housing programs. These programs are designed as Government subsidies, with no repayments to taxpayers
             expected.
       b
              Program was initially announced as a $75 billion initiative funded through TARP. Treasury reduced the commitment from $50 billion to an obligation of $45.6 billion; therefore, including the $25 billion
               estimated to be spent by the GSE’s, the total program amount is $70.6 billion.
       c
             On March 29, 2013, Treasury deobligated $7.1 billion of the $8.1 billion that was originally allocated to the FHA Short Refinance Program.
       d
              Housing support programs were designed as a Government subsidy, with no repayment to taxpayers expected.
       e
             Includes $363.3 million in non-cash conversions from CPP to CDCI, which is not included in the total of $368.3 billion in TARP principal repaid because it is still owed to TARP from CDCI. Does not include
              $2.2 billion refinanced from CPP into the Small Business Lending Fund.
       f
          CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash
          was expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers. Another $100.7 million was expended for new CDCI expenditures for previous CPP participants.
          Of the total obligation, only $106 million went to non-CPP institutions.
       g
               The $56.4 billion in reduced exposure and repayments for SSFI includes the cancellation of the series G capital facility. Does not include AIG investment proceeds from the sale of AIG stock that Treasury
               received from the AIG credit facility trust in the January 2011 recapitalization.
       h
            Treasury deobligated $2 billion of an equity facility for AIG that was never drawn down.
       i
          Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.
       j
          Treasury deobligated $2.1 billion of a Chrysler credit facility that was never drawn down.
       k
           On June 28, 2012, Treasury deobligated $2.9 billion in TALF funding, reducing the total obligation to $1.4 billion. On January 23, 2013, Treasury deobligated $1.3 billion, reducing the total obligation to
            $0.1 billion.
       l
         On April 10, 2012, Treasury changed its reporting methodology to reclassify as repayments of capital to the Government $958 million in receipts previously categorized as PPIP equity distributions. That
         $958 million is included in this repayment total.
       m
                PPIP funds are no longer available to be spent because the three-year investment period ended during the quarter ended December 31, 2012. Total obligation of $22.4 billion and expenditure of $18.6
                billion for PPIP includes $356.3 million of the initial obligation to The TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were invested in its PPIF. Current obligation of
                $19.6 billion results because Oaktree, BlackRock, AG GECC, Invesco and AllianceBernstein did not draw down all the committed equity and debt. The undrawn debt was deobligated, but the undrawn
                equity was not as of March 31, 2014, except for Invesco.
       n
            Treasury reduced commitment from $15 billion to an obligation of $400 million.
       o
               The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash outlay.

       Sources: Repayments data: Treasury, Transactions Report, 3/19/2014; Treasury, Daily TARP Update, 4/1/2014.
TRANSACTION DETAIL
TABLE D.1
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014
                                                                                                                                         Number     Average Price                                                 Stock Price       Current
Transaction                                                                Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividend/Interest
Date        Institution             Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales    3/31/14        Warrants     Paid to Treasury
12/23/2008                                               $13,433,242.67                                                        $0.00
           1st Constitution
10/27/2010 Bancorp, Cranbury,          $12,000,000.00                            $12,000,000.00                                           12,000       $1,000.00                                                    $10.39                       $1,106,666.67
           NJ11
11/22/2011                                                                                                                                                                                         $326,576.00
2/13/2009                               $4,400,000.00    $11,748,156.44                                                        $0.00
           1st Enterprise
12/11/2009 Bank, Los Angeles,           $6,000,000.00                                                                                                                                                               $22.00                       $1,128,156.44
           CA8,14,18,44
9/1/2011                                                                         $10,400,000.00                                           10,400       $1,000.00                                   $220,000.00
11/14/2008 1st FS Corporation,                            $9,229,948.97                                                        $0.00
           Hendersonville,             $16,369,000.00                                                                                                                                                               $0.38                        $1,229,948.97
12/31/2013 NC102                                                                  $8,000,000.00                                           16,369         $488.70     ($8,369,000.00)

1/23/2009                                               $125,480,000.00                                                        $0.00
           1st Source
12/29/2010 Corporation, South         $111,000,000.00                           $111,000,000.00                                          111,000       $1,000.00                                                    $32.09                     $10,730,000.00
           Bend, IN11
3/9/2011                                                                                                                                                                                          $3,750,000.00
3/13/2009 1st United                                     $10,870,902.67                                                        $0.00
           Bancorp, Inc.,              $10,000,000.00                                                                                                                                                               $7.66                         $370,902.67
11/18/2009 Boca Raton, FL8,11,14                                                 $10,000,000.00                                           10,000       $1,000.00                                   $500,000.00

1/23/2009                                                 $1,274,909.59                                                        $0.00
11/19/2013                                                                          $815,100.00                                            2,964         $275.00     ($2,148,900.00)
             AB&T Financial
1/6/2014     Corporation,               $3,500,000.00                                                ($50,000.00)                                                                                                   $0.40                         $360,694.44
             Gastonia, NC
2/10/2014                                                                           $150,621.36                                              536         $281.00       ($385,378.64)
3/19/2014                                                                                             ($1,506.21)
1/30/2009    Adbanc, Inc,                                $15,071,769.00                                                        $0.00
                                       $12,720,000.00                                                                                                                                                                                            $1,715,769.00
7/21/2011    Ogallala, NE8,14,44                                                 $12,720,000.00                                           12,720       $1,000.00                                   $636,000.00
1/23/2009                                                 $7,674,004.73                                                        $0.00
7/19/2013    Alarion Financial                                                      $877,729.70                                              893         $982.90         ($15,270.30)
             Services, Inc.,            $6,514,000.00                                                                                                                                                                                             $998,056.89
7/22/2013    Ocala, FL8,14                                                        $5,524,880.90                                            5,621         $982.90         ($96,119.10)             $337,363.35
9/12/2013                                                                                            ($64,026.11)
2/6/2009                                                  $5,130,973.44                                                        $0.00
11/28/2012                                                                          $208,870.74                                              234         $892.60         ($25,129.26)
           Alaska Pacific
11/29/2012 Bancshares, Inc.,            $4,781,000.00                             $4,058,697.67                                            4,547         $892.60       ($488,302.33)                                $25.69                        $913,405.03
           Juneau, AK
1/11/2013                                                                                            ($42,675.67)
3/26/2013                                                                                             ($7,324.33)
6/26/2009                                                 $3,581,397.27                                                        $0.00
3/27/2013    Alliance                                                                                                                                                                              $94,153.69
             Bancshares, Inc.,          $2,986,000.00                                                                                                                                                                                             $611,059.81
3/28/2013    Dalton, GA                                                           $2,856,437.46                                            2,986         $956.60       ($129,562.54)               $44,746.31
4/9/2013                                                                                             ($25,000.00)
12/19/2008                                               $28,356,360.00                                                        $0.00
             Alliance Financial
5/13/2009    Corporation,              $26,918,000.00                            $26,918,000.00                                           26,918       $1,000.00                                                    $24.46                        $538,360.00
             Syracuse, NY11
6/17/2009                                                                                                                                                                                         $900,000.00
6/26/2009                                                 $9,806,136.60                                                        $0.00
2/6/2013     Alliance Financial                                                   $3,375,945.00                                         4,500,000          $0.75     ($1,124,055.00)
             Services Inc., Saint      $12,000,000.00                                                                                                                                                                                             $388,741.80
2/7/2013     Paul, MN14,15                                                        $5,626,575.00                                         7,500,000          $0.75     ($1,873,425.00)              $504,900.00
3/26/2013                                                                                            ($90,025.20)
             Allied First
4/24/2009    Bancorp, Inc.,             $3,652,000.00       $409,753.00                                                $3,652,000.00                                                                                $0.80                         $409,753.00
             Oswego, IL8
3/27/2009                                                $73,129,160.69                                                        $0.00
                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




9/18/2012    Alpine Banks                                                           $280,115.76                                              344         $814.30         ($63,884.24)
             of Colorado,
9/19/2012                              $70,000,000.00                             $6,559,920.24                                            8,056         $814.30     ($1,496,079.76)                                                           $13,407,113.69
             Glenwood Springs,
9/20/2012    CO8,14                                                              $50,160,264.00                                           61,600         $814.30    ($11,439,736.00)             $3,291,750.00
11/16/2012                                                                                          ($570,003.00)
                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                   351
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                             (CONTINUED)                                                                                                                                                                               352
                                                                                                                                              Number     Average Price                                                        Stock Price       Current
Transaction                                                                    Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                       as of      Outstanding   Dividend/Interest
Date        Institution                Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)         Gain4     Warrant Sales    3/31/14        Warrants     Paid to Treasury
1/30/2009    AMB Financial                                    $4,387,576.45                                                        $0.00
             Corp., Munster,               $3,674,000.00                                                                                                                                                                        $7.05                         $529,576.45
9/22/2011    IN8,14,45                                                                $3,674,000.00                                             3,674       $1,000.00                                          $184,000.00

3/6/2009     AmeriBank                                        $2,960,021.33                                                        $0.00
             Holding Company,              $2,492,000.00                                                                                                                                                                                                      $343,021.33
9/15/2011    Collinsville, OK8,14,44                                                  $2,492,000.00                                             2,492       $1,000.00                                          $125,000.00

1/9/2009                                                   $3,803,257,308.33                                                       $0.00
             American Express
6/17/2009    Company,                  $3,388,890,000.00                          $3,388,890,000.00                                          3,388,890      $1,000.00                                                           $90.03                     $74,367,308.33
             New York, NY11
7/29/2009                                                                                                                                                                                                   $340,000,000.00
5/29/2009    American Premier                                 $2,052,682.49                                                        $0.00
             Bancorp,                      $1,800,000.00                                                                                                                                                                                                      $162,682.49
1/26/2011    Arcadia, CA8,11,14                                                       $1,800,000.00                                             1,800       $1,000.00                                           $90,000.00

1/9/2009     American State                                   $7,220,141.67                                                        $0.00
             Bancshares, Inc.,             $6,000,000.00                                                                                                                                                                                                      $920,141.67
11/2/2011    Great Bend, KS8,11,14                                                    $6,000,000.00                                             6,000       $1,000.00                                          $300,000.00

11/21/2008                                                   $59,637,438.67                                                        $0.00
             Ameris Bancorp,
6/19/2012                                 $52,000,000.00                             $48,391,200.00     ($725,868.00)                          52,000         $930.60      ($3,608,800.00)                                      $23.30                       $9,302,106.67
             Moultrie, GA
8/22/2012                                                                                                                                                                                                     $2,670,000.00
12/19/2008                                                   $24,601,666.66                                                        $0.00
                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




             AmeriServ
8/11/2011    Financial, Inc,              $21,000,000.00                             $21,000,000.00                                            21,000       $1,000.00                                                           $3.85                        $2,776,666.66
             Johnstown, PA45
11/2/2011                                                                                                                                                                                                      $825,000.00
8/21/2009                                                     $6,523,255.00                                                        $0.00
3/26/2013                                                                               $359,040.00                                           374,000           $0.96         ($14,960.00)
             AmFirst Financial
3/27/2013    Services, Inc.,               $5,000,000.00                              $2,112,000.00                                          2,200,000          $0.96         ($88,000.00)                                                                   $1,511,380.00
             McCook, NE14,15
3/28/2013                                                                             $2,328,960.00                                          2,426,000          $0.96         ($97,040.00)                     $259,875.00
4/9/2013                                                                                                 ($48,000.00)
1/30/2009    Anchor BanCorp                                   $6,000,000.00                                                        $0.00
             Wisconsin Inc.,             $110,000,000.00                                                                                                                                                                        $18.75
9/27/2013    Madison, WI94                                                            $6,000,000.00                                         60,000,000          $0.10    ($104,000,000.00)

1/30/2009                                                     $9,643,136.33                                                        $0.00
             Annapolis Bancorp,
4/18/2012    Inc. Annapolis,               $8,152,000.00                              $4,076,000.00                                             4,076       $1,000.00                                                           $13.40
             MD11,90
3/6/2013                                                                              $4,076,000.00                                             4,076       $1,000.00
11/21/2008                                                  $596,539,172.32                                                        $0.00
4/6/2011     Associated                                                             $262,500,000.00                                           262,500       $1,000.00
             Banc-Corp, Green            $525,000,000.00                                                                                                                                                                        $18.06                     $68,104,166.67
9/14/2011    Bay, WI11                                                              $262,500,000.00                                           262,500       $1,000.00
12/6/2011                                                                                                                                                                                                     $3,435,005.65
12/29/2009                                                    $2,503,554.78                                                        $0.00
2/7/2014     Atlantic                                                                 $1,950,000.00                                             1,950       $1,150.00                         $292,500.00       $95,031.02
             Bancshares, Inc.,             $2,000,000.00                                                                                                                                                                        $2.40                         $122,724.78
2/10/2014    Bluffton, SC8,17                                                            $50,000.00                                                50       $1,150.00                           $7,500.00       $10,798.98
3/19/2014                                                                                                ($25,000.00)
2/27/2009    Avenue Financial                                 $8,798,415.33                                                        $0.00
             Holdings, Inc.,               $7,400,000.00                                                                                                                                                                                                     $1,028,415.33
9/15/2011    Nashville, TN8,14,44                                                     $7,400,000.00                                             7,400       $1,000.00                                          $370,000.00

1/30/2009                                                     $7,563,057.15                                                        $0.00
             Avidbank Holdings,
7/31/2013    Inc./Peninsula Bank           $6,000,000.00                              $6,000,000.00                                             6,000       $1,000.00                                                                                        $1,372,276.03
             Holding Co.11
8/28/2013                                                                                                                                                                                                      $190,781.12
3/13/2009    BancIndependent,                                $24,841,411.03                                                        $0.00
             Inc., Sheffield,             $21,100,000.00                                                                                                                                                                                                     $2,686,411.03
7/14/2011    AL8,44                                                                  $21,100,000.00                                            21,100       $1,000.00                                         $1,055,000.00

7/10/2009    Bancorp Financial,                              $15,595,736.93                                                        $0.00
             Inc., Oak Brook,             $13,669,000.00                                                                                                                                                                                                     $1,516,736.93
8/18/2011    IL8,17,44                                                               $13,669,000.00                                            13,669       $1,000.00                                          $410,000.00

12/19/2008                                                   $32,341,666.66                                                        $0.00
             Bancorp Rhode
8/5/2009     Island, Inc.,                $30,000,000.00                             $30,000,000.00                                            30,000       $1,000.00                                                                                         $941,666.66
             Providence, RI11
9/30/2009                                                                                                                                                                                                     $1,400,000.00
                                                                                                                                                                                                                                                      Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                            (CONTINUED)
                                                                                                                                              Number     Average Price                                                  Stock Price       Current
Transaction                                                                   Capital Repayment /                        Remaining Capital   of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding    Dividend/Interest
Date        Institution             Investment Amount      Total Cash Back2 Disposition / Auction2,4     Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    3/31/14        Warrants      Paid to Treasury
2/20/2009    BancPlus                                       $54,607,399.33                                                          $0.00
             Corporation,              $48,000,000.00                                                                                                                                                                                                   $4,207,399.33
9/29/2010    Ridgeland, MS8,11,14                                                   $48,000,000.00                                             48,000       $1,000.00                                   $2,400,000.00

4/3/2009                                                    $10,701,460.58                                                          $0.00
4/26/2013    BancStar, Inc.,                                                            $98,267.00                                                100         $982.70          ($1,733.00)
                                         $8,600,000.00                                                                                                                                                                                                  $1,908,669.65
4/29/2013    Festus, MO8,14                                                          $8,352,695.00                                              8,500         $982.70       ($147,305.00)                $426,338.55
5/31/2013                                                                                                 ($84,509.62)
12/19/2008 BancTrust Financial                              $60,451,155.74                                                          $0.00
           Group, Inc.,                $50,000,000.00                                                                                                                                                                     $25.35         730,994      $10,436,155.74
2/15/2013 Mobile, AL83                                                              $50,000,000.00                                             50,000       $1,000.00                                     $15,000.00

8/14/2009                                                     $1,114,680.76                                                         $0.00
12/19/2012                                                                             $451,600.92                                                486         $929.20         ($34,399.08)
           Bank Financial
12/20/2012 Services, Inc.,               $1,004,000.00                                 $481,335.96                                                518         $929.20         ($36,664.04)                $23,500.00                                     $183,243.88
           Eden Prairie, MN8,14
1/11/2013                                                                                                  ($9,329.37)
3/26/2013                                                                                                 ($15,670.63)
10/28/2008                          $15,000,000,000.00   $26,599,663,040.28                                                         $0.00
1/9/2009     Bank of America        $10,000,000,000.00
             Corporation,                                                                                                                                                                                                 $17.20                    $1,293,750,000.00
12/9/2009    Charlotte, NC6,7,11                                                $25,000,000,000.00                                           1,000,000     $25,000.00
3/9/2010                                                                                                                                                                                              $305,913,040.28
1/16/2009                                                     $3,087,573.33                                                         $0.00
             Bank of Commerce,
11/30/2012                               $3,000,000.00                               $2,502,000.00                                              3,000         $834.00       ($498,000.00)                $100,100.00                                     $510,473.33
             Charlotte, NC8,14
1/11/2013                                                                                                 ($25,000.00)
11/14/2008                                                  $19,564,027.78                                                          $0.00
             Bank of Commerce
9/27/2011    Holdings,                 $17,000,000.00                               $17,000,000.00                                             17,000       $1,000.00                                                     $6.14                         $2,439,027.78
             Redding, CA44
10/26/2011                                                                                                                                                                                               $125,000.00
3/13/2009                                                     $1,233,940.00                                                         $0.00
             Bank of George,
10/21/2013                               $2,672,000.00                                 $955,240.00                                              2,672         $357.50     ($1,716,760.00)                 $23,709.00                                     $279,991.00
             Las Vegas, NV8
1/6/2014                                                                                                  ($25,000.00)
12/5/2008                                                   $30,155,095.11                                                          $0.00
             Bank of Marin
3/31/2009    Bancorp,                  $28,000,000.00                               $28,000,000.00                                             28,000       $1,000.00                                                     $45.06                         $451,111.11
             Novato, CA11
11/23/2011                                                                                                                                                                                              $1,703,984.00
10/28/2008                                                $3,231,416,666.67                                                         $0.00
             Bank of New York
6/17/2009    Mellon,                 $3,000,000,000.00                           $3,000,000,000.00                                           3,000,000      $1,000.00                                                     $35.29                      $95,416,666.67
             New York, NY11
8/5/2009                                                                                                                                                                                              $136,000,000.00
             Bank of the
             Carolinas
4/17/2009                              $13,179,000.00         $1,039,677.00                                                $13,179,000.00                                                                                 $0.50          475,204        $1,039,677.00
             Corporation,
             Mocksville, NC
12/12/2008                                                  $81,004,166.67                                                          $0.00
             Bank of the
11/4/2009    Ozarks, Inc.,             $75,000,000.00                               $75,000,000.00                                             75,000       $1,000.00                                                     $68.06                        $3,354,166.67
             Little Rock, AR11
11/24/2009                                                                                                                                                                                              $2,650,000.00
             Bankers’ Bank of
1/30/2009    the West Bancorp,         $12,639,000.00         $3,598,065.85                                                $12,639,000.00                                                                                                               $3,598,065.85
             Inc., Denver, CO8
1/23/2009    BankFirst Capital         $15,500,000.00       $18,492,469.25                                                          $0.00                                                                                                               $2,217,469.25
             Corporation,
9/8/2011     Macon, MS8,14,44                                                       $15,500,000.00                                             15,500       $1,000.00                                    $775,000.00

2/13/2009                                                     $1,100,653.50                                                         $0.00
11/9/2012    BankGreenville,                                                           $900,000.00                                              1,000         $900.00       ($100,000.00)                 $21,880.50
                                         $1,000,000.00                                                                                                                                                                                                   $203,773.00
1/11/2013    Greenville, SC8,14                                                                            ($9,000.00)
                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




3/26/2013                                                                                                 ($16,000.00)
11/21/2008                                                 $129,079,862.47                                                          $0.00
             Banner
4/3/2012     Corporation, Walla       $124,000,000.00                              $109,717,680.00     ($1,645,765.20)                        124,000         $884.80    ($14,282,320.00)                                 $41.21                      $20,873,746.67
             Walla, WA
6/12/2013                                                                                                                                                                                                $134,201.00
                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                         353
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                            (CONTINUED)                                                                                                                                                                      354
                                                                                                                                           Number     Average Price                                                 Stock Price       Current
Transaction                                                                   Capital Repayment /                     Remaining Capital   of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividend/Interest
Date        Institution               Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales    3/31/14        Warrants     Paid to Treasury
2/6/2009     Banner County                                     $942,411.42                                                       $0.00
             Ban Corporation,               $795,000.00                                                                                                                                                                                             $107,411.42
7/28/2011    Harrisburg, NE8,14,44                                                     $795,000.00                                             795       $1,000.00                                    $40,000.00

1/16/2009                                                   $20,037,514.11                                                       $0.00
             Bar Harbor
2/24/2010    Bankshares,                 $18,751,000.00                             $18,751,000.00                                          18,751       $1,000.00                                                    $38.35                       $1,036,514.11
             Bar Harbor, ME12,16
7/28/2010                                                                                                                                                                                            $250,000.00
11/14/2008                                                $3,293,353,918.53                                                      $0.00
             BB&T Corp.,
6/17/2009    Winston-Salem,           $3,133,640,000.00                          $3,133,640,000.00                                           3,134    $1,000,000.00                                                   $40.17                     $92,703,516.67
             NC11
7/22/2009                                                                                                                                                                                          $67,010,401.86
             BCB Holding
4/3/2009     Company, Inc.,               $1,706,000.00        $173,507.50                                               $1,706,000.00                                                                                                              $173,507.50
             Theodore, AL8
12/23/2008                                                  $13,371,500.00                                                       $0.00
             BCSB Bancorp, Inc.,
1/26/2011                                $10,800,000.00                             $10,800,000.00                                          10,800       $1,000.00                                                    $24.68                       $1,129,500.00
             Baltimore, MD11
4/19/2013                                                                                                                                                                                           $1,442,000.00
1/30/2009                                                    $7,263,316.66                                                       $0.00
7/6/2011                                                                             $1,500,000.00                                           1,500       $1,000.00
                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




10/19/2011 Beach Business                                                            $1,500,000.00                                           1,500       $1,000.00
           Bank, Manhattan                $6,000,000.00                                                                                                                                                               $9.18                         $963,316.66
3/7/2012   Beach, CA8,11,14                                                          $1,500,000.00                                           1,500       $1,000.00
6/6/2012                                                                             $1,200,000.00                                           1,200       $1,000.00
6/27/2012                                                                              $300,000.00                                             300       $1,000.00                                   $300,000.00
6/12/2009  Berkshire Bancorp,                                $3,444,478.21                                                       $0.00
           Inc./Customers
9/19/2011 Bancorp, Inc.,                  $2,892,000.00                                       $0.00                                          2,892       $1,000.00                                                                                  $407,478.21
           Phoneixville,
12/28/2011 PA8,11,14                                                                 $2,892,000.00                                           2,892       $1,000.00                                   $145,000.00

12/19/2008                                                  $41,917,777.78                                                       $0.00
             Berkshire Hills
5/27/2009    Bancorp, Inc.,              $40,000,000.00                             $40,000,000.00                                          40,000       $1,000.00                                                    $25.88                        $877,777.78
             Pittsfield, MA11
6/24/2009                                                                                                                                                                                           $1,040,000.00
2/13/2009    Bern Bancshares,                                $1,172,062.50                                                       $0.00
                                            $985,000.00                                                                                                                                                               $7.20                         $137,062.50
9/1/2011     Inc., Bern, KS8,14,44                                                     $985,000.00                                             985       $1,000.00                                    $50,000.00
4/24/2009  Birmingham                     $1,635,000.00      $3,803,022.67                                                       $0.00
           Bloomfield
12/18/2009 Bancshares, Inc,               $1,744,000.00                                                                                                                                                               $5.95                         $342,022.67
           Birmingham,
7/28/2011 MI8,14,18,44                                                               $3,379,000.00                                           3,379       $1,000.00                                    $82,000.00

6/19/2009                                                    $8,271,975.28                                                       $0.00
             Biscayne
2/7/2013     Bancshares, Inc.,                                                       $2,532,140.00                                        2,600,000          $0.97         ($67,860.00)               $64,158.97
                                          $6,400,000.00                                                                                                                                                                                            $1,896,838.16
2/8/2013     Coconut Grove,                                                          $3,700,820.00                                        3,800,000          $0.97         ($99,180.00)              $140,347.75
             FL15,17
3/26/2013                                                                                              ($62,329.60)
3/13/2009                                                   $11,459,461.11                                                       $0.00
10/29/2012 Blackhawk                                                                   $186,550.00                                             205         $910.00         ($18,450.00)
           Bancorp, Inc.,                $10,000,000.00                                                                                                                                                               $13.00                       $1,980,211.11
10/31/2012 Beloit, WI8,14                                                            $8,913,450.00                                           9,795         $910.00       ($881,550.00)               $470,250.00
1/11/2013                                                                                              ($91,000.00)
5/22/2009                                                    $6,127,326.35                                                       $0.00
             Blackridge
6/27/2012    Financial, Inc.,             $5,000,000.00                              $2,250,000.00                                           2,250       $1,000.00                                                                                  $877,326.35
             Fargo, ND8,14
9/12/2012                                                                            $2,750,000.00                                           2,750       $1,000.00                                   $250,000.00
3/6/2009                                                    $11,938,437.34                                                       $0.00
           Blue Ridge
10/29/2012 Bancshares, Inc.,                                                            $19,630.00                                              26         $755.00          ($6,370.00)
                                         $12,000,000.00                                                                                                                                                               $15.99                       $2,427,244.00
10/31/2012 Independence,                                                             $9,040,370.00                                          11,974         $755.00     ($2,933,630.00)               $541,793.34
           MO8,14
1/11/2013                                                                                              ($90,600.00)
3/6/2009     Blue River                                        $529,105.00                                                       $0.00
             Bancshares, Inc.,            $5,000,000.00                                                                                                                                                               $0.03                         $529,105.00
2/10/2012    Shelbyville, IN8,64,97                                                                                                                                    ($5,000,000.00)

                                                                                                                                                                                                                                            Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                        (CONTINUED)
                                                                                                                                        Number     Average Price                                                      Stock Price       Current
Transaction                                                               Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding   Dividend/Interest
Date        Institution            Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)         Gain4   Warrant Sales    3/31/14        Warrants     Paid to Treasury
12/5/2008                                               $21,261,845.65                                                        $0.00
10/18/2013 Blue Valley Ban                                                       $3,177,232.50                                            3,250         $977.60         ($72,767.50)
           Corp, Overland             $21,750,000.00                                                                                                                                                                    $6.30          111,083        $211,458.33
10/21/2013 Park, KS                                                             $18,085,785.00                                           18,500         $977.60       ($414,215.00)
1/6/2014                                                                                           ($212,630.18)

4/17/2009    BNB Financial                               $9,776,051.62                                                        $0.00
             Services
                                       $7,500,000.00                                                                                                                                                                                                 $1,901,051.62
             Corporation,
8/30/2013    New York, NY8                                                       $7,500,000.00                                            7,500       $1,000.00                                        $375,000.00

12/5/2008                                               $35,140,666.12                                                        $0.00
             BNC Bancorp,
8/29/2012                             $31,260,000.00                            $28,797,649.80     ($431,964.75)                         31,260         $921.20     ($2,462,350.20)                                     $17.33                       $5,835,061.07
             Thomasville, NC
9/19/2012                                                                                                                                                                                              $939,920.00
2/27/2009    BNC Financial                               $5,673,920.75                                                        $0.00
             Group, Inc., New          $4,797,000.00                                                                                                                                                                                                  $636,920.75
8/4/2011     Canaan, CT8,14,44                                                   $4,797,000.00                                            4,797       $1,000.00                                        $240,000.00

1/16/2009                                               $27,153,074.91                                                        $0.00
             BNCCORP, Inc.,
3/14/2014                             $20,093,000.00                               $143,000.00                                              143       $1,001.10                            $154.44      $30,037.50      $13.25                       $6,032,118.22
             Bismarck, ND8
3/17/2014                                                                       $19,950,000.00                                           19,950       $1,001.10                          $21,546.00    $976,218.75
3/6/2009     BOH Holdings, Inc.,                        $11,783,777.44                                                        $0.00
                                      $10,000,000.00                                                                                                                                                                                                 $1,283,777.44
7/14/2011    Houston, TX8,14,44                                                 $10,000,000.00                                           10,000       $1,000.00                                        $500,000.00
5/15/2009                                                $6,947,457.50                                                        $0.00
3/8/2013     Boscobel Bancorp,                                                                                                                                                                         $232,180.54
             Inc, Boscobel,            $5,586,000.00                                                                                                                                                                                                  $468,624.00
3/11/2013    WI14,15                                                             $5,586,000.00                                         5,586,000          $1.11                         $592,730.46    $129,709.80
4/9/2013                                                                                            ($61,787.30)
11/21/2008                                             $171,224,745.48                                                        $0.00
1/13/2010    Boston Private                                                     $50,000,000.00                                           50,000       $1,000.00
             Financial Holdings,     $154,000,000.00                                                                                                                                                                    $13.53                     $11,022,222.23
6/16/2010    Inc., Boston, MA11                                                $104,000,000.00                                          104,000       $1,000.00
2/7/2011                                                                                                                                                                                              $6,202,523.25
12/23/2008                                              $27,872,582.22                                                        $0.00
2/23/2011    Bridge Capital                                                     $15,000,000.00                                           15,000       $1,000.00
             Holdings, San Jose,      $23,864,000.00                                                                                                                                                                    $23.76                       $2,613,582.22
3/16/2011    CA11                                                                $8,864,000.00                                            8,864       $1,000.00
4/20/2011                                                                                                                                                                                             $1,395,000.00
12/19/2008                                              $13,447,811.37                                                        $0.00
           Bridgeview
11/19/2013 Bancorp, Inc.,             $38,000,000.00                            $10,450,000.00                                           38,000         $275.00    ($27,550,000.00)                    $709,155.81                                   $2,393,155.56
           Bridgeview, IL8
1/6/2014                                                                                           ($104,500.00)
11/14/2008 Broadway Financial          $9,000,000.00       $810,416.67                                               $15,000,000.00
           Corporation,
                                                                                                                                                                                                                        $1.12                         $810,416.67
               Angeles,
12/4/2009 Los9,10,18,65,96,99          $6,000,000.00
           CA
5/15/2009                                                $3,022,879.60                                                        $0.00
4/26/2013    Brogan                                                                 $60,000.00                                           60,000           $1.05                           $3,000.60
             Bankshares, Inc.,         $2,400,000.00                                                                                                                                                                                                  $402,720.00
4/29/2013    Kaukauna, WI14,15                                                   $2,340,000.00                                         2,340,000          $1.05                         $117,023.40    $125,135.60
5/31/2013                                                                                           ($25,000.00)
7/17/2009    Brotherhood                                $12,845,586.01                                                        $0.00
             Bancshares,
                                      $11,000,000.00                                                                                                                                                                                                 $1,295,586.01
9/15/2011    Inc., Kansas City,                                                 $11,000,000.00                                           11,000       $1,000.00                                        $550,000.00
             KS8,14,44
4/24/2009                                               $18,707,708.84                                                        $0.00
5/23/2012    Business                                                            $6,000,000.00                                            6,000       $1,000.00
             Bancshares, Inc.,        $15,000,000.00                                                                                                                                                                                                 $2,957,708.84
1/9/2013     Clayton, MO8,11,14                                                  $2,500,000.00                                            2,500       $1,000.00
4/24/2013                                                                        $6,500,000.00                                            6,500       $1,000.00                                        $750,000.00
                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




3/13/2009    Butler Point, Inc.,                           $724,123.53                                                        $0.00
                                         $607,000.00                                                                                                                                                                                                    $87,123.53
11/2/2011    Catlin, IL8,11,14                                                     $607,000.00                                              607       $1,000.00                                         $30,000.00
                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                       355
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                           (CONTINUED)                                                                                                                                                                        356
                                                                                                                                           Number     Average Price                                                  Stock Price       Current
Transaction                                                                  Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividend/Interest
Date        Institution              Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    3/31/14        Warrants     Paid to Treasury
1/9/2009                                                   $22,902,777.78                                                        $0.00
              C&F Financial
7/27/2011     Corporation, West         $20,000,000.00                             $10,000,000.00                                           10,000       $1,000.00                                                     $33.14         167,504       $2,902,777.78
              Point, VA11
4/11/2012                                                                          $10,000,000.00                                           10,000       $1,000.00
12/23/2008                               $4,767,000.00     $10,674,333.80                                                        $0.00
           Cache Valley
12/18/2009 Banking Company,              $4,640,000.00                                                                                                                                                                                              $1,029,333.80
           Logan, UT8,14,18,44
7/14/2011                                                                           $9,407,000.00                                            9,407       $1,000.00                                    $238,000.00
1/9/2009      Cadence Financial                            $41,984,062.50                                                        $0.00
              Corporation,              $44,000,000.00                                                                                                                                                                                              $3,984,062.50
3/4/2011      Starkville, MS                                                       $38,000,000.00                                           44,000         $863.60     ($6,000,000.00)

2/27/2009     California Bank                               $4,755,899.67                                                        $0.00
              of Commerce,               $4,000,000.00                                                                                                                                                                                               $555,899.67
9/15/2011     Lafayette, CA8,14,44                                                  $4,000,000.00                                            4,000       $1,000.00                                    $200,000.00

1/23/2009     California Oaks                               $3,802,219.25                                                        $0.00
              State Bank,
                                         $3,300,000.00                                                                                                                                                                                               $337,219.25
12/8/2010     Thousand Oaks,                                                        $3,300,000.00                                            3,300       $1,000.00                                    $165,000.00
              CA8,11,14
              Calvert Financial
1/23/2009     Corporation,               $1,037,000.00        $215,442.61                                                $1,037,000.00                                                                                                               $215,442.61
              Ashland, MO8
                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




              CalWest Bancorp,
1/23/2009     Rancho Santa               $4,656,000.00        $396,163.67                                                $4,656,000.00                                                                                 $1.20                         $396,163.67
              Margarita, CA8
12/23/2008 Capital Bancorp,                                 $5,452,281.19                                                        $0.00
           Inc., Rockville,              $4,700,000.00                                                                                                                                                                                               $517,281.19
12/30/2010 MD8,11,14                                                                $4,700,000.00                                            4,700       $1,000.00                                    $235,000.00

12/12/2008 Capital Bank                                    $45,252,104.25                                                        $0.00
           Corporation,                 $41,279,000.00                                                                                                                                                                 $22.46         749,619       $3,973,104.25
1/28/2011 Raleigh, NC39                                                            $41,279,000.00                                           41,279       $1,000.00

              Capital Commerce
4/10/2009     Bancorp, Inc.,             $5,100,000.00        $304,973.00                                                $5,100,000.00                                                                                                               $304,973.00
              Milwaukee, WI8
11/14/2008 Capital One                                   $3,806,873,702.13                                                       $0.00
           Financial
6/17/2009                            $3,555,199,000.00                          $3,555,199,000.00                                         3,555,199      $1,000.00                                                     $77.16                    $105,174,637.58
           Corporation,
                       11
12/9/2009 McLean, VA                                                                                                                                                                               $146,500,064.55
12/23/2008                                                  $4,742,850.89                                                        $0.00
11/8/2012     Capital Pacific                                                         $247,727.04                                              264         $938.40         ($16,272.96)
              Bancorp, Portland,         $4,000,000.00                                                                                                                                                                                               $845,368.89
11/9/2012     OR8,14                                                                $3,505,712.96                                            3,736         $938.40       ($230,287.04)                $169,042.00
1/11/2013                                                                                              ($25,000.00)
10/23/2009 Cardinal Bancorp                                 $7,547,479.56                                                        $0.00
           II, Inc., Washington,         $6,251,000.00                                                                                                                                                                                               $983,479.56
9/8/2011   MO15,14,45                                                               $6,251,000.00                                         6,251,000          $1.00                                    $313,000.00

1/9/2009                                                   $19,941,788.94                                                        $0.00
2/20/2013                                                                          $14,525,843.40                                           15,534         $935.10     ($1,008,156.60)
              Carolina Bank
2/21/2013     Holdings, Inc.,           $16,000,000.00                                $435,756.60                                              466         $935.10         ($30,243.40)                                $10.25                       $3,329,804.94
              Greensboro, NC
3/26/2013                                                                                             ($149,616.00)
4/19/2013                                                                                                                                                                                            $1,800,000.00
2/6/2009                                                    $3,994,452.00                                                        $0.00
11/30/2012                                                                          $3,412,000.00                                            4,000         $853.00       ($588,000.00)
              Carolina Trust
1/11/2013     Bank, Lincolnton,          $4,000,000.00                                                 ($34,120.00)                                                                                                    $4.22                         $613,320.00
              NC
3/26/2013                                                                                              ($15,880.00)
6/11/2013                                                                                                                                                                                              $19,132.00
2/13/2009     Carrollton Bancorp,                          $11,388,958.51                                                        $0.00
                                         $9,201,000.00                                                                                                                                                                 $5.04                        $1,974,364.35
4/19/2013     Baltimore, M11                                                        $9,201,000.00                                            9,201       $1,000.00                                    $213,594.16
1/16/2009     Carver Bancorp,                              $20,511,580.55                                                        $0.00
              Inc, New York,            $18,980,000.00                                                                                                                                                                 $12.72                       $1,531,580.55
8/27/2010     NY9,11,36                                                            $18,980,000.00                                           18,980       $1,000.00

11/21/2008 Cascade Financial                               $17,678,900.00                                                        $0.00
           Corporation,                 $38,970,000.00                                                                                                                                                                                              $1,428,900.00
6/30/2011 Everett, WA                                                              $16,250,000.00                                           38,970         $417.00    ($22,720,000.00)

                                                                                                                                                                                                                                             Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                          (CONTINUED)
                                                                                                                                          Number     Average Price                                                 Stock Price       Current
Transaction                                                                 Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividend/Interest
Date        Institution              Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales    3/31/14        Warrants     Paid to Treasury
12/5/2008                                                $329,874,444.96                                                        $0.00
3/20/2013     Cathay General                                                     $129,000,000.00                                          129,000       $1,000.00
              Bancorp, Los             $258,000,000.00                                                                                                                                                               $25.19                     $58,766,666.66
9/30/2013     Angeles, CA11                                                      $129,000,000.00                                          129,000       $1,000.00
12/9/2013                                                                                                                                                                                         $13,107,778.30
2/27/2009                                $3,000,000.00     $7,448,071.47                                                        $0.00
           Catskill Hudson
12/22/2009 Bancorp, Inc, Rock            $3,500,000.00                                                                                                                                                               $17.80                        $685,071.47
           Hill, NY8,14,18,44
7/21/2011                                                                          $6,500,000.00                                            6,500       $1,000.00                                   $263,000.00
5/29/2009 CB Holding Corp.,                                  $271,579.53                                                        $0.00
                    8,57,97              $4,114,000.00                                                                                                                                                                                             $271,579.53
10/14/2011 Aledo, IL                                                                                                                                                  ($4,114,000.00)
2/20/2009                                $2,644,000.00     $4,982,141.86                                                        $0.00
12/29/2009                               $1,753,000.00
11/28/2012 CBB Bancorp,                                                            $1,268,825.60                                            1,360         $932.05         ($91,174.40)
                           8,18                                                                                                                                                                                                                    $799,528.40
11/29/2012 Cartersville, GA                                                        $2,831,259.86                                            3,037         $932.05       ($205,740.14)               $115,861.34
1/11/2013                                                                                             ($32,969.92)
3/26/2013                                                                                                ($363.42)
3/27/2009                                                 $27,432,357.95                                                        $0.00
8/7/2012                                                                                                                                                                                            $287,213.85
              CBS Banc-Corp.,
8/9/2012                                $24,300,000.00                               $923,304.00                                            1,020         $905.20         ($96,696.00)              $689,313.24                     523,076       $4,548,136.70
              Russellville, AL8,14
8/10/2012                                                                         $21,073,056.00                                           23,280         $905.20     ($2,206,944.00)               $131,297.76
9/11/2012                                                                                            ($219,963.60)
              Cecil Bancorp, Inc.,
12/23/2008                              $11,560,000.00       $516,988.89                                               $11,560,000.00                                                                                $0.50          261,538        $516,988.89
              Elkton, MD
2/6/2009   CedarStone Bank,                                $4,672,098.50                                                        $0.00
                      8                  $3,564,000.00                                                                                                                                                                                             $930,098.50
11/20/2013 Lebanon, TN                                                             $3,564,000.00                                            3,564       $1,000.00                                   $178,000.00
1/9/2009                                                  $11,586,666.67                                                        $0.00
              Center Bancorp,
9/15/2011                               $10,000,000.00                            $10,000,000.00                                           10,000       $1,000.00                                                    $19.00                       $1,341,666.67
              Inc., Union, NJ44
12/7/2011                                                                                                                                                                                           $245,000.00
12/12/2008 Center Financial                               $64,739,583.33                                                        $0.00
           Corporation/BBCN             $55,000,000.00                                                                                                                                                               $17.14         341,504     $23,237,328.30
6/27/2012 Bancorp, Inc.11,59                                                      $55,000,000.00                                           55,000       $1,000.00

5/1/2009                                                   $2,344,662.43                                                        $0.00
10/29/2012                                                                            $24,750.00                                               30         $825.00          ($5,250.00)
              CenterBank,
11/1/2012                                $2,250,000.00                             $1,831,500.00                                            2,220         $825.00       ($388,500.00)                $84,057.43                                    $429,355.00
              Milford, OH8,14
1/11/2013                                                                                             ($18,562.50)
3/26/2013                                                                                              ($6,437.50)
11/21/2008                                                $29,283,302.58                                                        $0.00
              Centerstate Banks
9/30/2009     of Florida Inc.,          $27,875,000.00                            $27,875,000.00                                           27,875       $1,000.00                                                                                 $1,196,302.58
              Davenport, FL12,16
10/28/2009                                                                                                                                                                                          $212,000.00
1/16/2009     Centra Financial                            $15,922,937.50                                                        $0.00
              Holdings, Inc.,
3/31/2009                               $15,000,000.00                            $15,000,000.00                                           15,000       $1,000.00                                                    $10.92                        $172,937.50
              Morgantown,
4/15/2009     WV8,11,14                                                                                                                                                                             $750,000.00
12/5/2008                                                 $13,886,111.11                                                        $0.00
              Central Bancorp,
8/25/2011     Inc., Somerville,         $10,000,000.00                            $10,000,000.00                                           10,000       $1,000.00                                                    $39.37                       $1,361,111.11
              MA45
10/19/2011                                                                                                                                                                                         $2,525,000.00
              Central Bancorp,
2/27/2009                               $22,500,000.00     $2,411,625.00                                               $22,500,000.00                                                                                                             $2,411,625.00
              Inc., Garland, TX8
1/30/2009     Central                                      $6,859,176.83                                                        $0.00
                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




              Bancshares, Inc.,          $5,800,000.00                                                                                                                                                                                             $769,176.83
7/6/2011      Houston, TX8,11,14                                                   $5,800,000.00                                            5,800       $1,000.00                                   $290,000.00

                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                    357
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                           (CONTINUED)                                                                                                                                                                                         358
                                                                                                                                               Number     Average Price                                                               Stock Price       Current
Transaction                                                                  Capital Repayment /                      Remaining Capital       of Shares       of Shares     (Realized Loss) /                                            as of      Outstanding   Dividend/Interest
Date        Institution            Investment Amount      Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount         Disposed        Disposed             (Write-off)               Gain4    Warrant Sales    3/31/14        Warrants     Paid to Treasury
2/20/2009                                                  $25,797,528.80                                                        $0.00
12/10/2012 Central Community                                                        $5,333,059.60                                                5,758         $926.20         ($424,940.40)
           Corporation,               $22,000,000.00                                                                                                                                                                                                                 $4,566,167.00
12/11/2012 Temple, TX8,14                                                          $15,043,340.40                                               16,242         $926.20        ($1,198,659.60)                         $1,058,725.80
1/11/2013                                                                                             ($203,764.00)
12/5/2008    Central Federal                                 $3,612,118.06                                                       $0.00
             Corporation,               $7,225,000.00                                                                                                                                                                                                                 $612,118.06
9/26/2012    Fairlawn, OH                                                           $3,000,000.00                                                7,225         $415.20        ($4,225,000.00)

12/23/2008                                                 $12,704,145.10                                                        $0.00
           Central Jersey
11/24/2010 Bancorp, Oakhurst,         $11,300,000.00                               $11,300,000.00                                               11,300       $1,000.00                                                                  $1.55                        $1,084,486.11
           NJ11
12/1/2010                                                                                                                                                                                                              $319,658.99
1/9/2009                                                   $75,036,891.42                                                        $0.00
6/22/2011    Central Pacific                                                       $36,337,500.00     ($454,218.75)                          2,850,000          $12.75      ($32,121,928.87)
             Financial Corp.,        $135,000,000.00                                                                                                                                                                                    $20.20                       $2,362,500.00
4/4/2012     Honolulu, HI40                                                        $36,427,038.55     ($387,816.38)                          2,770,117          $13.15      ($30,113,532.58)
6/11/2013                                                                                                                                                                                                              $751,888.00
1/30/2009    Central Valley                                  $8,077,516.47                                                       $0.00
             Community
8/18/2011                               $7,000,000.00                               $7,000,000.00                                                7,000       $1,000.00                                                                  $11.51                        $892,499.67
             Bancorp, Fresno,
             CA45
                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




9/28/2011                                                                                                                                                                                                              $185,016.80
1/30/2009    Central Virginia                                $3,800,656.00                                                       $0.00
             Bankshares, Inc.,        $11,385,000.00                                                                                                                                                                                    $0.31                         $450,656.00
10/1/2013    Powhatan, VA93                                                         $3,350,000.00                                               11,385         $294.20        ($8,035,000.00)

12/18/2009 Centric Financial                                 $6,739,821.89                                                       $0.00
           Corporation,                 $6,056,000.00                                                                                                                                                                                                                 $501,821.89
7/14/2011 Harrisburg, PA8,17,44                                                     $6,056,000.00                                                6,056       $1,000.00                                                 $182,000.00

2/6/2009     Centrix Bank &                                  $8,887,791.42                                                       $0.00
             Trust, Bedford,            $7,500,000.00                                                                                                                                                                                   $40.10                       $1,012,791.42
7/28/2011    NH8,14,44                                                              $7,500,000.00                                                7,500       $1,000.00                                                 $375,000.00

1/9/2009                                                   $11,203,387.14                                                        $0.00
9/25/2013                                                                           $8,211,450.00                                               25,266         $325.00      ($17,054,550.00)
10/18/2013                                                                          $1,950,000.00                                                6,000         $325.00        ($4,050,000.00)
           Centrue Financial
10/29/2013 Corporation,               $32,668,000.00                                                   ($82,114.50)                                                                                                                     $0.94          508,320        $571,690.00
           Ottawa, IL
1/6/2014                                                                                               ($19,500.00)
2/10/2014                                                                             $577,638.02                                                1,402         $412.00         ($824,361.98)
3/19/2014                                                                                               ($5,776.38)
6/19/2009                                                  $13,186,960.25                                                        $0.00
           Century Financial
12/19/2012 Services                                                                    $39,400.00                                               40,000           $0.99              ($600.00)                          $198,635.58
                                      $10,000,000.00                                                                                                                                                                                                                 $2,938,871.30
12/20/2012 Corporation, Santa                                                       $9,810,600.00                                            9,960,000           $0.99         ($149,400.00)                           $297,953.37
           Fe, NM14,15
1/11/2013                                                                                              ($98,500.00)
             Chambers
5/29/2009    Bancshares, Inc.,        $19,817,000.00         $5,754,674.98                                              $19,817,000.00                                                                                                                               $5,754,674.98
             Danville, AR15
7/31/2009                                                    $9,054,225.81                                                       $0.00
             Chicago Shore
3/14/2014    Corporation ,              $7,000,000.00                                 $257,660.00                                                  260         $991.00            ($2,340.00)                                                                        $1,766,525.81
             Chicago, IL8
3/17/2014                                                                           $6,679,340.00                                                6,740         $991.00           ($60,660.00)                          $350,700.00
12/31/2008 CIT Group Inc.,                                 $43,687,500.00                                                        $0.00
                        23          $2,330,000,000.00                                                                                                                                                                                   $49.02                     $43,687,500.00
12/10/2009 New York, NY                                                                                                                                                   ($2,330,000,000.00)
10/28/2008                                              $32,839,267,986.44                                                       $0.00
             Citigroup Inc., New
12/10/2010                         $25,000,000,000.00                          $25,000,000,000.00                                         7,692,307,692          $4.14                           $6,852,354,470.93                      $47.60                    $932,291,666.67
             York, NY19,30
1/31/2011                                                                                                                                                                                                            $54,621,848.84
1/16/2009                                                  $28,889,100.00                                                        $0.00
             Citizens & Northern
8/4/2010     Corporation,             $26,440,000.00                               $26,440,000.00                                               26,440       $1,000.00                                                                  $19.71                       $2,049,100.00
             Wellsboro, PA11
9/1/2010                                                                                                                                                                                                               $400,000.00
12/23/2008 Citizens Bancorp,                                  $223,571.11                                                        $0.00
           Nevada City,               $10,400,000.00                                                                                                                                                                                    $0.01                         $223,571.11
9/23/2011  CA8,55,97                                                                                                                                                        ($10,400,000.00)

                                                                                                                                                                                                                                                              Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                        (CONTINUED)
                                                                                                                                        Number     Average Price                                                 Stock Price       Current
Transaction                                                               Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividend/Interest
Date        Institution            Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales    3/31/14        Warrants     Paid to Treasury
5/29/2009                                               $13,952,381.45                                                        $0.00
2/7/2013     Citizens                                                            $6,657,375.00                                           12,990         $512.50     ($6,332,625.00)               $258,018.75
             Bancshares Co.,          $24,990,000.00                                                                                                                                                                                             $628,033.33
2/8/2013     Chillicothe, MO8,14                                                 $6,150,000.00                                           12,000         $512.50     ($5,850,000.00)               $387,028.12
3/26/2013                                                                                          ($128,073.75)
3/6/2009     Citizens                                    $7,997,813.22                                                        $0.00
             Bancshares
                                       $7,462,000.00                                                                                                                                                               $8.04                         $535,813.22
8/13/2010    Corporation,                                                        $7,462,000.00                                            7,462       $1,000.00
             Atlanta, GA9,11,36
             Citizens Bank &
3/20/2009    Trust Company,            $2,400,000.00       $477,783.00                                                $2,400,000.00                                                                                                              $477,783.00
             Covington, LA8
             Citizens Commerce
2/6/2009     Bancshares, Inc.,         $6,300,000.00       $180,258.50                                                $6,300,000.00                                                                                                              $180,258.50
             Versailles, KY8
12/23/2008 Citizens Community                            $3,574,645.84                                                        $0.00
           Bank, South Hill,           $3,000,000.00                                                                                                                                                               $6.07                         $424,645.84
7/28/2011  VA8,14,44                                                             $3,000,000.00                                            3,000       $1,000.00                                   $150,000.00

12/19/2008                                              $10,530,923.11                                                        $0.00
2/16/2011    Citizens First                                                      $2,212,308.00                                               63      $35,116.00
             Corporation,              $8,779,000.00                                                                                                                                                               $10.50         254,218       $1,751,923.11
2/13/2013    Bowling Green, KY11                                                 $3,300,904.00                                               94      $35,116.00
1/15/2014                                                                        $3,265,788.00                                               93      $35,116.00
12/12/2008 Citizens Republic                           $369,245,436.64                                                        $0.00
           Bancorp, Inc.             $300,000,000.00
4/12/2013 Flint, MI86                                                          $300,000,000.00                                          300,000       $1,000.00

12/12/2008 Citizens South                               $23,572,379.22                                                        $0.00
           Banking
9/22/2011                             $20,500,000.00                            $20,500,000.00                                           20,500       $1,000.00                                                    $6.65                        $2,847,222.22
           Corporation,
                        45
11/9/2011 Gastonia, NC                                                                                                                                                                            $225,157.00
             City National
             Bancshares
4/10/2009                              $9,439,000.00       $281,859.00                                                $9,439,000.00                                                                                                              $281,859.00
             Corporation,
             Newark, NJ8,9
11/21/2008                                             $442,416,666.67                                                        $0.00
12/30/2009 City National                                                       $200,000,000.00                                          200,000       $1,000.00
           Corporation,              $400,000,000.00                                                                                                                                                               $78.72                     $23,916,666.67
3/3/2010   Beverly Hills, CA11                                                 $200,000,000.00                                          200,000       $1,000.00
4/7/2010                                                                                                                                                                                        $18,500,000.00
3/27/2009                                                $3,318,585.05                                                        $0.00
11/28/2012 Clover Community                                                        $955,825.50                                            1,095         $872.90       ($139,174.50)
           Bankshares, Inc.,           $3,000,000.00                                                                                                                                                                                             $610,863.55
11/29/2012 Clover, SC8,14                                                        $1,662,874.50                                            1,905         $872.90       ($242,125.50)               $114,021.50
1/11/2013                                                                                           ($25,000.00)
12/5/2008                                               $11,166,897.79                                                        $0.00
3/8/2013                                                                         $3,772,645.00                                            3,950         $955.10       ($177,355.00)
             Coastal Banking
3/11/2013    Company, Inc.,                                                      $5,730,600.00                                            6,000         $955.10       ($269,400.00)
                                       $9,950,000.00                                                                                                                                                               $7.50                        $1,434,037.79
4/9/2013     Fernandina Beach,                                                                      ($95,032.45)
             FL82
4/10/2013                                                                                                                                                                                          $99,000.00
6/12/2013                                                                                                                                                                                         $225,647.45
8/28/2009                                               $14,257,487.71                                                        $0.00
             CoastalSouth
3/8/2013     Bancshares, Inc.,                                                     $397,550.00                                              500         $795.10       ($102,450.00)               $389,857.05
                                      $16,015,000.00                                                                                                                                                                                            $1,235,448.96
3/11/2013    Hilton Head Island,                                                $12,335,976.50                                           15,515         $795.10     ($3,179,023.50)                $25,990.47
             SC8,17
4/9/2013                                                                                           ($127,335.27)
12/19/2008                                              $73,357,086.72                                                        $0.00
             CoBiz Financial
9/8/2011                              $64,450,000.00                            $64,450,000.00                                           64,450       $1,000.00                                                    $11.52                       $8,763,409.72
             Inc., Denver, CO45
                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




11/23/2011                                                                                                                                                                                        $143,677.00
1/9/2009                                                $19,178,479.00                                                        $0.00
             Codorus Valley
8/18/2011    Bancorp, Inc.,           $16,500,000.00                            $16,500,000.00                                           16,500       $1,000.00                                                    $20.99                       $2,151,875.00
             York, PA44
9/28/2011                                                                                                                                                                                         $526,604.00
                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                  359
                                                                                                                                                                                                                                                                      360
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                          (CONTINUED)
                                                                                                                                           Number     Average Price                                                  Stock Price       Current
Transaction                                                                 Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividend/Interest
Date        Institution             Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    3/31/14        Warrants     Paid to Treasury
2/13/2009                                                 $10,670,784.03                                                        $0.00
7/19/2013    ColoEast                                                                 $46,995.00                                                52         $903.80          ($5,005.00)
             Bankshares, Inc.,         $10,000,000.00                                                                                                                                                                                               $1,229,277.78
7/22/2013    Lamar, CO8,14                                                         $8,990,505.00                                             9,948         $903.80       ($957,495.00)                $494,381.25
9/12/2013                                                                                             ($90,375.00)
3/27/2009  Colonial American                                 $668,142.53                                                        $0.00
           Bank, West
                                          $574,000.00                                                                                                                                                                                                  $65,142.53
10/26/2011 Conshohocken,                                                             $574,000.00                                               574       $1,000.00                                     $29,000.00
           PA8,11,14
1/9/2009                                                  $26,480,089.20                                                        $0.00
2/7/2013                                                                          $21,633,944.71                                            27,661         $782.10     ($6,027,055.29)
             Colony Bankcorp,
2/8/2013                               $28,000,000.00                                $265,135.29                                               339         $782.10         ($73,864.71)                                $6.13                        $3,990,000.00
             Inc., Fitzgerald, GA
3/26/2013                                                                                            ($218,990.80)
6/12/2013                                                                                                                                                                                             $810,000.00
11/21/2008                                                $86,821,419.22                                                        $0.00
             Columbia Banking
8/11/2010    System, Inc.,             $76,898,000.00                             $76,898,000.00                                            76,898       $1,000.00                                                     $28.52                       $6,621,772.22
             Tacoma, WA11,16
9/1/2010                                                                                                                                                                                             $3,301,647.00
                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




2/27/2009    Columbine Capital                             $2,689,478.64                                                        $0.00
             Corp., Buena Vista,        $2,260,000.00                                                                                                                                                                                                $316,478.64
9/22/2011    CO8,14,44                                                             $2,260,000.00                                             2,260       $1,000.00                                    $113,000.00

11/14/2008                                              $2,582,039,543.40                                                       $0.00
             Comerica Inc.,
3/17/2010                           $2,250,000,000.00                          $2,250,000,000.00                                          2,250,000      $1,000.00                                                     $51.80                    $150,937,500.00
             Dallas, TX11
5/12/2010                                                                                                                                                                                          $181,102,043.40
1/9/2009                                                   $5,602,969.61                                                        $0.00
             Commerce National
10/7/2009    Bank, Newport              $5,000,000.00                              $5,000,000.00                                             5,000       $1,000.00                                                     $14.85                          $36,111.11
             Beach, CA11
10/1/2013                                                                                                                                                                                             $566,858.50
5/22/2009                                                 $21,575,016.54                                                        $0.00
8/7/2012                                                                             $130,500.00                                           174,000           $0.75         ($43,500.00)
8/8/2012     Commonwealth                                                          $1,469,250.00                                          1,959,000          $0.75       ($489,750.00)
             Bancshares, Inc.,         $20,400,000.00                                                                                                                                                                                               $5,529,294.54
8/9/2012     Louisville, KY14,15                                                  $13,100,250.00                                         17,467,000          $0.75     ($4,366,750.00)                $792,990.00
8/10/2012                                                                            $600,000.00                                           800,000           $0.75       ($200,000.00)                $105,732.00
9/11/2012                                                                                            ($153,000.00)
1/23/2009                                                  $8,451,110.79                                                        $0.00
             Commonwealth
7/17/2013    Business Bank, Los         $7,701,000.00                              $7,323,651.00                                             7,701         $951.00       ($377,349.00)                $362,427.91      $22.45                        $838,268.39
             Angeles, CA8,14
9/12/2013                                                                                             ($73,236.51)
1/16/2009  Community 1st                                   $2,899,659.67                                                        $0.00
           Bank, Roseville,             $2,550,000.00                                                                                                                                                                                                $221,659.67
12/19/2012 CA8,11,14                                                               $2,550,000.00                                             2,550       $1,000.00                                    $128,000.00

3/6/2009     Community                                       $616,741.75                                                        $0.00
             Bancshares of
                                          $500,000.00                                                                                                                                                                                                  $91,741.75
7/18/2012    Kansas, Inc., Goff,                                                     $500,000.00                                               500       $1,000.00                                     $25,000.00
             KS8,11,14
9/11/2009    Community                                    $57,575,699.54                                                        $0.00
             Bancshares of
                                       $52,000,000.00                                                                                                                                                                                               $3,193,250.19
9/29/2010    Mississippi, Inc.,                                                   $52,000,000.00                                            52,000       $1,000.00                                   $2,600,000.00
             Brandon, MS11,8,14
             Community
7/24/2009    Bancshares, Inc.,          $3,872,000.00        $930,148.70                                                $3,872,000.00                                                                                                                $930,148.70
             Kingman, AZ8,17
1/16/2009    Community Bank of          $1,747,000.00      $1,823,188.61                                                        $0.00                                                                                                                  $76,188.61
             the Bay, Oakland,
9/29/2010    CA9,11,36                                                             $1,747,000.00                                             1,747       $1,000.00

5/29/2009  Community Bank                                 $22,802,281.62                                                        $0.00
           Shares of Indiana,
9/15/2011                              $19,468,000.00                             $19,468,000.00                                            19,468       $1,000.00                                                     $22.54                       $2,233,412.12
           Inc., New Albany,
              44
10/19/2011 IN                                                                                                                                                                                        $1,100,869.50
12/19/2008 Community                                      $11,494,319.12                                               $10,680,000.00
           Bankers Trust
7/24/2013                              $17,680,000.00                              $4,500,000.00                                             4,500       $1,000.00                                                     $4.02                        $4,494,319.12
           Corporation, Glen
                    11,101
11/20/2013 Allen, VA                                                               $2,500,000.00                                             2,500       $1,000.00
                                                                                                                                                                                                                                             Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                          (CONTINUED)
                                                                                                                                          Number     Average Price                                                      Stock Price       Current
Transaction                                                                 Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding   Dividend/Interest
Date        Institution              Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)         Gain4   Warrant Sales    3/31/14        Warrants     Paid to Treasury
2/27/2009    Community                                     $4,674,050.16                                                        $0.00
             Business Bank,
11/30/2012                               $3,976,000.00                             $3,717,560.00                                            3,976         $935.00       ($258,440.00)                    $167,035.00      $8.90                         $814,455.16
             West Sacramento,
1/11/2013    CA8,14                                                                                   ($25,000.00)
12/19/2008 Community                                      $15,206,719.94                                                        $0.00
           Financial
                                        $12,643,000.00                                                                                                                                                                    $44.86         351,194       $2,563,719.94
1/9/2013   Corporation,                                                           $12,643,000.00                                           12,643       $1,000.00
           Staunton, VA81
5/15/2009 Community                                        $4,240,743.82                                                        $0.00
           Financial Shares,
                                         $6,970,000.00                                                                                                                                                                    $1.11                         $947,193.82
12/21/2012 Inc.,  Glen Ellyn,                                                      $3,136,500.00                                            6,970         $450.00     ($3,833,500.00)                    $157,050.00
           IL74,8,14
4/3/2009                                                  $16,441,884.63                                                        $0.00
2/7/2014     Community First                                                       $3,705,037.50                                            3,750         $988.00         ($44,962.50)                    $85,157.88
             Bancshares, Inc.,          $12,725,000.00                                                                                                                                                                                                 $3,365,409.43
2/10/2014    Harrison, AR8                                                         $8,867,389.75                                            8,975         $988.00       ($107,610.25)                    $544,614.34
3/19/2014                                                                                            ($125,724.27)
3/20/2009    Community First                              $23,628,111.33                                                        $0.00
             Bancshares Inc.,           $20,000,000.00                                                                                                                                                                                                 $2,628,111.33
8/18/2011    Union City, TN8,14,44                                                $20,000,000.00                                           20,000       $1,000.00                                       $1,000,000.00

             Community First
2/27/2009                               $17,806,000.00     $1,908,453.00                                               $17,806,000.00                                                                                                                  $1,908,453.00
             Inc., Columbia, TN8
2/6/2009   Community                                       $1,220,300.65                                                        $0.00
           Holding Company
11/30/2012 of Florida, Inc./                                                       $1,002,750.00                                              105       $9,550.00         ($47,250.00)                    $25,000.00
1/11/2013 Community                      $1,050,000.00                                                ($10,027.50)
           Bancshares of
           Mississippi, Inc.,
3/26/2013                                                                                             ($14,972.50)
           Brandon, MS8,67
12/23/2008                                                 $3,115,616.28                                                        $0.00
12/19/2012 Community                                                                 $952,850.00                                            1,003         $950.00         ($50,150.00)
           Investors Bancorp,
12/20/2012                               $2,600,000.00                             $1,517,150.00                                            1,597         $950.00         ($79,850.00)                   $105,000.00                                    $565,616.28
           Inc., Bucyrus,
              8,14
1/11/2013 OH                                                                                          ($24,700.00)
3/26/2013                                                                                                ($300.00)
1/30/2009                                                 $10,598,750.00                                                        $0.00
             Community
8/11/2011    Partners Bancorp,           $9,000,000.00                             $9,000,000.00                                            9,000       $1,000.00                                                         $7.99                        $1,138,750.00
             Middletown, NJ44
10/26/2011                                                                                                                                                                                               $460,000.00
11/13/2009                                                 $5,462,045.14                                                        $0.00
             Community Pride
8/12/2013    Bank Corporation,           $4,400,000.00                             $4,400,000.00                                         4,400,000          $1.11                         $484,924.00    $177,716.96                                    $448,253.42
             Ham Lake, MN15,17
9/12/2013                                                                                             ($48,849.24)
1/9/2009     Community                                    $28,459,100.00                                                        $0.00
             Trust Financial
                                        $24,000,000.00                                                                                                                                                                                                 $3,259,100.00
7/6/2011     Corporation,                                                         $24,000,000.00                                           24,000       $1,000.00                                       $1,200,000.00
             Ruston, LA8,14,44
12/19/2008                                                $14,341,140.33                                                        $0.00
12/10/2012                                                                         $2,172,000.00                                            3,000         $724.00       ($828,000.00)
           Community West
12/11/2012 Bancshares,                  $15,600,000.00                             $9,122,400.00                                           12,600         $724.00     ($3,477,600.00)                                     $6.95                        $2,461,333.33
           Goleta, CA
1/11/2013                                                                                            ($112,944.00)
6/12/2013                                                                                                                                                                                                $698,351.00
             CommunityOne
             Bancorp/FNB
2/13/2009                               $51,500,000.00     $2,589,305.00                                               $51,500,000.00                                                                                                     22,071       $2,589,305.00
             United Corp.,
             Asheboro, NC53
1/9/2009                                                   $3,483,629.20                                                        $0.00
10/29/2012 Congaree                                                                   $23,932.54                                               29         $825.30          ($5,067.46)
           Bancshares, Inc.,             $3,285,000.00                                                                                                                                                                    $3.30                         $691,286.10
10/31/2012 Cayce, SC8,14                                                           $2,687,046.56                                            3,256         $825.30       ($568,953.44)                    $106,364.00
                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




1/11/2013                                                                                             ($25,000.00)
                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                         361
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                          (CONTINUED)                                                                                                                                                                       362
                                                                                                                                           Number     Average Price                                                Stock Price       Current
Transaction                                                                 Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution              Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    3/31/14        Warrants     Paid to Treasury
2/13/2009                                                    $659,705.04                                                        $0.00
           Corning Savings
11/30/2012 and Loan                                                                  $548,680.00                                               638         $860.00         ($89,320.00)               $3,960.00
                                           $638,000.00                                                                                                                                                                                             $132,065.04
1/11/2013 Association,8,14                                                                             ($5,486.80)
           Corning, AR
3/26/2013                                                                                             ($19,513.20)
1/30/2009                                                  $8,781,205.02                                                        $0.00
11/28/2012 Country Bank                                                              $713,208.30                                               777         $917.90         ($63,791.70)
           Shares, Inc.,                 $7,525,000.00                                                                                                                                                                                            $1,570,839.50
11/29/2012 Milford, NE8,14                                                         $6,193,989.20                                             6,748         $917.90       ($554,010.80)              $372,240.00
1/11/2013                                                                                             ($69,071.98)
             Covenant Financial
6/5/2009     Corporation,                $5,000,000.00     $1,287,864.44                                                $5,000,000.00                                                                                                             $1,287,864.44
             Clarksdale, MS8
2/20/2009    Crazy Woman                                   $1,837,264.58                                                $2,100,000.00
             Creek Bancorp,              $3,100,000.00                                                                                                                                                               $11.50                        $837,264.58
1/8/2014     Inc., Buffalo, WY8                                                    $1,000,000.00                                             1,000       $1,000.00

1/9/2009     Crescent Financial                           $31,333,741.20                                                        $0.00
             Bancshares, Inc.
             (Crescent Financial        $24,900,000.00                                                                                                                                                               $7.03          514,693     $11,011,235.28
2/19/2014    Corporation),                                                        $24,900,000.00                                            24,900       $1,000.00
             Raleigh, NC58
                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




1/23/2009                                                 $13,498,324.83                                                        $0.00
7/19/2013    Crosstown Holding                                                       $343,794.50                                               350         $982.30          ($6,205.50)
             Company, Blaine,           $10,650,000.00                                                                                                                                                                                            $2,610,550.42
7/22/2013    MN8,14                                                               $10,117,381.00                                            10,300         $982.30       ($182,619.00)              $531,210.67
9/12/2013                                                                                            ($104,611.76)
             CSRA Bank Corp.,
3/27/2009                                $2,400,000.00       $180,940.00                                                $2,400,000.00                                                                                                              $180,940.00
             Wrens, GA8
12/5/2008                                                $136,046,583.33                                                        $0.00
8/26/2009    CVB Financial Corp,                                                  $97,500,000.00                                            97,500       $1,000.00
                                       $130,000,000.00                                                                                                                                                               $15.90                       $4,739,583.33
9/2/2009     Ontario, CA11,16                                                     $32,500,000.00                                            32,500       $1,000.00
10/28/2009                                                                                                                                                                                         $1,307,000.00
2/27/2009    D.L. Evans                                   $23,686,592.33                                                        $0.00
             Bancorp, Burley,           $19,891,000.00                                                                                                                                                                                            $2,800,592.33
9/27/2011    ID8,14,44                                                            $19,891,000.00                                            19,891       $1,000.00                                  $995,000.00

5/15/2009    Deerfield Financial                           $3,283,338.96                                                        $0.00
             Corporation,                $2,639,000.00                                                                                                                                                                                             $512,338.96
9/8/2011     Deerfield, WI14,15,44                                                 $2,639,000.00                                          2,639,000          $1.00                                  $132,000.00

12/4/2009                                                  $6,598,331.15                                                        $0.00
2/7/2013     Delmar Bancorp,                                                       $5,293,527.28                                             8,648         $612.10     ($3,354,472.72)              $311,943.55
                                         $9,000,000.00                                                                                                                                                                                             $832,487.50
2/8/2013     Delmar, MD8,14                                                          $215,462.72                                               352         $612.10       ($136,537.28)
3/26/2013                                                                                             ($55,089.90)
2/13/2009                                $1,173,000.00     $2,781,331.97                                                        $0.00
12/29/2009                               $1,508,000.00
             DeSoto County
9/24/2013    Bank, Horn Lake,                                                        $301,428.58                                               366         $823.03         ($64,571.42)              $40,563.34                                    $577,205.80
             MS8,18
9/25/2013                                                                          $1,895,467.59                                             2,315         $816.45       ($419,532.41)
10/29/2013                                                                                            ($33,333.34)
5/22/2009                                                 $21,101,618.19                                                        $0.00
8/8/2012                                                                           $4,381,500.00                                          6,000,000          $0.73     ($1,618,500.00)
             Diamond Bancorp,
8/9/2012     Inc., Washington,          $20,445,000.00                            $10,197,941.25                                         13,965,000          $0.73     ($3,767,058.75)              $688,041.09                                   $5,541,380.06
             MO14,15
8/10/2012                                                                            $350,520.00                                           480,000           $0.73       ($129,480.00)               $91,535.40
9/11/2012                                                                                            ($149,299.61)
1/16/2009                                                 $87,459,858.69                                                        $0.00
2/7/2013     Dickinson Financial                                                   $8,025,555.03                                            14,523         $552.60     ($6,497,444.97)                $3,372.19
             Corporation II,           $146,053,000.00                                                                                                                                                                                            $2,631,196.78
2/8/2013     Kansas City, MO8,14                                                  $72,684,793.30                                           131,530         $552.60    ($58,845,206.70)             $4,922,044.87
3/26/2013                                                                                            ($807,103.48)
                                                                                                                                                                                                                                           Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                          (CONTINUED)
                                                                                                                                          Number     Average Price                                                          Stock Price       Current
Transaction                                                                 Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                         as of      Outstanding   Dividend/Interest
Date        Institution             Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4     Warrant Sales    3/31/14        Warrants     Paid to Treasury
3/13/2009                                               $1,464,248,844.00                                                       $0.00
             Discover Financial
4/21/2010    Services ,             $1,224,558,000.00                          $1,224,558,000.00                                         1,224,558      $1,000.00                                                             $58.19                     $67,690,844.00
             Riverwoods, IL11
7/7/2010                                                                                                                                                                                                  $172,000,000.00
1/30/2009                                                 $13,683,277.61                                                        $0.00
             DNB Financial
8/4/2011     Corporation,              $11,750,000.00                             $11,750,000.00                                           11,750       $1,000.00                                                             $19.52                       $1,475,277.61
             Downingtown, PA44
9/21/2011                                                                                                                                                                                                    $458,000.00
6/19/2009                                                 $11,763,211.93                                                $5,000,000.00
           Duke Financial
11/27/2013 Group, Inc.,                $12,000,000.00                              $5,000,000.00                                         5,000,000          $1.00                                                                                          $4,763,211.93
           Minneapolis, MN15
3/5/2014                                                                           $2,000,000.00                                         2,000,000          $1.00
12/5/2008                                                 $44,847,153.76                                                        $0.00
12/23/2009 Eagle Bancorp,                                                         $15,000,000.00                                           15,000       $1,000.00
           Inc., Bethesda,             $38,235,000.00                                                                                                                                                                         $36.10                       $3,817,731.76
7/14/2011 MD12,44                                                                 $23,235,000.00                                           23,235       $1,000.00
11/23/2011                                                                                                                                                                                                  $2,794,422.00
12/5/2008                                                $352,722,420.00                                                        $0.00
             East West Bancorp,
12/29/2010                            $306,546,000.00                            $306,546,000.00                                          306,546       $1,000.00                                                             $36.50                     $31,676,420.00
             Pasadena, CA11,16
1/26/2011                                                                                                                                                                                                  $14,500,000.00
1/9/2009                                                  $28,453,653.60                                                        $0.00
10/18/2013 Eastern Virginia                                                        $3,900,000.00                                            3,900       $1,104.10                          $406,029.00
           Bankshares, Inc.,           $24,000,000.00                                                                                                                                                                         $6.45          373,832       $2,220,000.00
10/21/2013 Tappahannock, VA                                                       $20,100,000.00                                           20,100       $1,104.10                         $2,092,611.00
1/6/2014                                                                                             ($264,986.40)
1/16/2009    ECB Bancorp, Inc.                            $22,526,494.08                                                        $0.00
             Crescent Financial
                                       $17,949,000.00
2/19/2014    Bancshares, Inc.,                                                    $17,949,000.00                                           17,949       $1,000.00
             Engelhard, NC89
12/23/2008                                                 $8,545,904.67                                                        $0.00
             Emclaire Financial
8/18/2011    Corp., Emlenton,           $7,500,000.00                              $7,500,000.00                                            7,500       $1,000.00                                                             $25.62                        $994,791.67
             PA44
12/7/2011                                                                                                                                                                                                     $51,113.00
12/5/2008                                                 $39,415,959.89                                                        $0.00
             Encore Bancshares
9/27/2011                              $34,000,000.00                             $34,000,000.00                                           34,000       $1,000.00                                                                                          $4,778,888.89
             Inc., Houston, TX45
11/23/2011                                                                                                                                                                                                   $637,071.00
12/19/2008                                                $42,801,933.33                                                        $0.00
             Enterprise Financial
11/7/2012    Services Corp.,           $35,000,000.00                             $35,000,000.00                                           35,000       $1,000.00                                                             $20.07         324,074       $6,795,833.33
             St. Louis, MO11
1/9/2013                                                                                                                                                                                                    $1,006,100.00
6/12/2009    Enterprise Financial                          $4,680,205.56                                                        $0.00
             Services Group,
                                        $4,000,000.00                                                                                                                                                                                                       $480,205.56
8/25/2011    Inc., Allison Park,                                                   $4,000,000.00                                            4,000       $1,000.00                                            $200,000.00
             PA8,14,44
1/30/2009    Equity Bancshares,                           $10,394,872.56                                                        $0.00
             Inc., Wichita,             $8,750,000.00                                                                                                                                                                         $16.36                      $5,186,000.86
8/11/2011    KS8,44,72                                                             $8,750,000.00                                            8,750       $1,000.00                                            $438,000.00

12/19/2008                                                $47,294,527.29                                                        $0.00
8/3/2012                                                                             $481,387.50                                              550         $875.20         ($68,612.50)
8/8/2012                                                                          $17,505,000.00                                           20,000         $875.20     ($2,495,000.00)                       $1,910,898.00
             Exchange Bank,
8/9/2012                               $43,000,000.00                              $8,725,367.25                                            9,969         $875.20     ($1,243,632.75)                        $120,386.57                                   $7,980,919.44
             Santa Rosa, CA8,14
8/10/2012                                                                            $420,995.25                                              481         $875.20         ($60,004.75)                        $22,930.78
8/13/2012                                                                         $10,503,000.00                                           12,000         $875.20     ($1,497,000.00)
9/11/2012                                                                                            ($376,357.50)
                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                             363
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                         (CONTINUED)                                                                                                                                                                       364
                                                                                                                                          Number     Average Price                                                Stock Price       Current
Transaction                                                                Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution             Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    3/31/14        Warrants     Paid to Treasury
1/30/2009                               $4,609,000.00     $9,405,391.28                                                        $0.00
11/6/2009                               $3,535,000.00
2/6/2013      F & M Bancshares,                                                   $4,797,325.00                                             5,090         $942.50       ($292,675.00)
              Inc., Trezevant,                                                                                                                                                                                                                   $1,584,420.99
2/7/2013      TN8,14,18                                                           $2,734,192.50                                             2,901         $942.50       ($166,807.50)              $222,007.50
2/8/2013                                                                            $144,202.50                                               153         $942.50          ($8,797.50)
3/26/2013                                                                                            ($76,757.21)
2/6/2009                                                 $20,119,744.45                                                        $0.00
9/18/2012                                                                                                                                                                                          $136,813.05
              F & M Financial
9/19/2012     Corporation,             $17,000,000.00                             $2,664,750.00                                              2,805        $950.00       ($140,250.00)                                                            $3,355,970.50
              Salisbury, NC8,14
9/20/2012                                                                        $13,485,250.00                                            14,195         $950.00       ($709,750.00)              $638,460.90
11/16/2012                                                                                          ($161,500.00)
5/22/2009                                                 $3,842,376.65                                                        $0.00
11/8/2012  F&C Bancorp Inc.,                                                      $1,590,599.43                                          1,659,000          $0.96         ($68,400.57)
                     14,15              $2,993,000.00                                                                                                                                                                                             $872,778.04
11/13/2012 Holden, MO                                                             $1,278,999.18                                          1,334,000          $0.96         ($55,000.82)             $125,000.00
1/11/2013                                                                                            ($25,000.00)
2/13/2009                                                $17,573,762.97                                                        $0.00
                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




9/19/2012                                                                                                                                                                                           $96,465.60
              F&M Financial
9/20/2012     Corporation,             $17,243,000.00                               $157,500.00                                               200         $787.50         ($42,500.00)                                                           $3,388,248.50
              Clarksville, TN8,14
9/21/2012                                                                        $13,421,362.50                                            17,043         $787.50     ($3,621,637.50)              $645,975.00
11/16/2012                                                                                          ($135,788.63)
1/9/2009                                                $104,023,433.33                                                        $0.00
              F.N.B. Corporation,
9/9/2009                              $100,000,000.00                           $100,000,000.00                                           100,000       $1,000.00                                                   $13.40         819,640       $9,632,883.55
              Hermitage, PA11
11/23/2011                                                                                                                                                                                         $690,100.00
              Farmers &
              Merchants
3/6/2009                               $11,000,000.00     $2,063,280.00                                               $11,000,000.00                                                                                                             $2,063,280.00
              Bancshares, Inc.,
              Houston, TX8
3/20/2009     Farmers &                                     $500,199.14                                                        $0.00
              Merchants Financial
6/24/2013                                 $442,000.00                               $425,425.00                                               442         $962.50         ($16,575.00)              ($2,835.00)                                   $102,609.14
              Corporation,
7/26/2013     Argonia, KS8,14                                                                        ($25,000.00)
1/23/2009                                                $11,396,202.11                                                        $0.00
              Farmers Bank ,
1/9/2013                                $8,752,000.00                             $3,063,000.00                                             3,063       $1,000.00                                                                                $2,206,202.11
              Windsor, VA8,11
12/31/2013                                                                        $5,689,000.00                                             5,689       $1,000.00                                  $438,000.00
1/9/2009                                                 $27,105,349.50                                                        $0.00
              Farmers Capital
6/19/2012     Bank Corporation,        $30,000,000.00                            $22,196,700.00     ($332,950.50)                          30,000         $739.90     ($7,803,300.00)                               $22.46                       $5,166,600.00
              Frankfort, KY
7/18/2012                                                                                                                                                                                           $75,000.00
6/19/2009                                                $15,452,669.34                                                        $0.00
11/8/2012                                                                            $96,290.00                                           100,000           $0.96          ($3,710.00)
              Farmers
11/9/2012     Enterprises, Inc.,       $12,000,000.00                                                                                                                                               $37,387.14                                   $3,423,094.20
              Great Bend, KS14,15
11/13/2012                                                                       $11,458,510.00                                         11,900,000          $0.96       ($441,490.00)              $552,936.00
1/11/2013                                                                                           ($115,548.00)
3/20/2009     Farmers State                                 $830,173.67                                                        $0.00
              Bankshares, Inc.,           $700,000.00                                                                                                                                                                                               $90,173.67
7/21/2011     Holton, KS8,14,45                                                     $700,000.00                                               700       $1,000.00                                   $40,000.00

12/29/2009 FBHC Holding                                     $804,592.16                                                        $0.00
           Company, Boulder,            $3,035,000.00                                                                                                                                                                                             $154,592.16
3/9/2011   CO15,17                                                                  $650,000.00                                          3,035,000          $0.21     ($2,385,000.00)

6/26/2009                                                $19,836,630.66                                                        $0.00
              FC Holdings, Inc.,
2/20/2013                              $21,042,000.00                            $18,874,674.00                                            21,042         $897.00     ($2,167,326.00)              $994,613.40                                    $156,090.00
              Houston, TX8,14
3/26/2013                                                                                           ($188,746.74)
12/19/2008 FCB Bancorp, Inc.,                            $11,156,234.25                                                        $0.00
                                        $9,294,000.00                                                                                                                                                                                            $1,397,234.25
9/22/2011  Louisville, KY8,14,45                                                  $9,294,000.00                                             9,294       $1,000.00                                  $465,000.00
                                                                                                                                                                                                                                          Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                          (CONTINUED)
                                                                                                                                           Number     Average Price                                                        Stock Price       Current
Transaction                                                                 Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                       as of      Outstanding   Dividend/Interest
Date        Institution             Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)         Gain4     Warrant Sales    3/31/14        Warrants     Paid to Treasury
12/19/2008                                                 $8,441,836.26                                                        $0.00
11/28/2012 FFW Corporation,                                                          $879,424.60                                               974         $902.90         ($94,575.40)
                      8,14              $7,289,000.00                                                                                                                                                                                                     $1,567,852.34
11/30/2012 Wabash, IN                                                              $5,701,813.50                                             6,315         $902.90       ($613,186.50)                      $358,558.20
1/11/2013                                                                                             ($65,812.38)
5/29/2009    Fidelity Bancorp,                             $5,404,924.35                                                        $0.00
             Inc, Baton Rouge,          $3,942,000.00                                                                                                                                                                                                     $1,265,924.35
3/27/2013    LA11,14,15                                                            $3,942,000.00                                          3,942,000          $1.00                                          $197,000.00

12/12/2008 Fidelity Bancorp,                               $8,388,333.33                                                        $0.00
           Inc., Pittsburgh,            $7,000,000.00
11/30/2012 PA77                                                                    $7,000,000.00                                             7,000       $1,000.00

11/13/2009                                                 $7,220,908.83                                                        $0.00
7/19/2013    Fidelity Federal                                                        $439,000.00                                               439       $1,058.90                          $25,857.10
             Bancorp,                   $6,657,000.00
7/22/2013    Evansville, IN8,17                                                    $6,218,000.00                                             6,218       $1,058.90                         $366,240.20      $242,302.50
9/12/2013                                                                                             ($70,490.97)
12/19/2008                                                $40,966,780.82                                                        $0.00
8/1/2012                                                                             $120,320.10                                               135         $891.30         ($14,679.90)
8/2/2012                                                                              $26,737.80                                                30         $891.30          ($3,262.20)
8/3/2012                                                                             $298,572.10                                               335         $891.30         ($36,427.90)
             Fidelity Financial
8/7/2012     Corporation,              $36,282,000.00                              $3,200,514.66                                              3,591        $891.30       ($390,485.34)                      $170,227.93                                   $7,228,349.33
             Wichita, KS8,14
8/8/2012                                                                           $2,348,470.10                                             2,635         $891.30       ($286,529.90)                      $167,374.94
8/9/2012                                                                          $26,056,877.36                                            29,236         $891.30     ($3,179,122.64)                     $1,210,615.36
8/10/2012                                                                            $285,203.20                                               320         $891.30         ($34,796.80)                     $176,884.89
9/11/2012                                                                                            ($323,366.95)
12/19/2008 Fidelity Southern                              $51,286,669.09                                                        $0.00
           Corporation,                $48,200,000.00                                                                                                                                                                        $13.97       2,624,351       $8,528,882.89
7/3/2012   Atlanta, GA                                                            $43,408,920.00     ($651,133.80)                          48,200         $900.60     ($4,791,080.00)

12/31/2008                                              $4,043,972,602.67                                                       $0.00
             Fifth Third Bancorp,
2/2/2011                            $3,408,000,000.00                          $3,408,000,000.00                                           136,320      $25,000.00                                                           $22.96                    $355,946,666.67
             Cincinnati, OH11
3/16/2011                                                                                                                                                                                                $280,025,936.00
12/23/2008                                                $43,787,611.61                                                        $0.00
2/23/2011    Financial                                                            $12,505,000.00                                              2,501      $5,000.00
             Institutions, Inc.,       $37,515,000.00                                                                                                                                                                        $23.02                       $4,192,649.11
3/30/2011    Warsaw, NY11                                                         $25,010,000.00                                              5,002      $5,000.00
5/11/2011                                                                                                                                                                                                  $2,079,962.50
2/13/2009    Financial Security                            $5,914,597.33                                                        $0.00
             Corporation, Basin,        $5,000,000.00                                                                                                                                                                                                      $664,597.33
7/21/2011    WY8,14,45                                                             $5,000,000.00                                             5,000       $1,000.00                                          $250,000.00

7/31/2009    Financial Services                            $4,487,322.46                                                        $0.00
             of Winger, Inc.,           $3,742,000.00                                                                                                                                                                                                      $633,322.46
9/1/2011     Winger, MN15,17,44                                                    $3,742,000.00                                          3,742,000          $1.00                                          $112,000.00

5/22/2009                                                  $1,289,436.37                                                        $0.00
12/10/2012 First Advantage                                                           $690,723.49                                               769         $898.20         ($78,276.51)                        $2,979.49
           Bancshares Inc.,
12/11/2012                              $1,177,000.00                                $366,469.68                                               408         $898.20         ($41,530.32)                      $26,318.80                                    $227,944.91
           Coon Rapids,
               8,14
1/11/2013 MN                                                                                          ($10,571.93)
3/26/2013                                                                                             ($14,428.07)
6/26/2009                                                  $3,003,674.75                                                        $0.00
12/20/2012 First Alliance                                                          $2,395,742.20                                             3,422         $700.10     ($1,026,257.80)                       $94,701.71
           Bancshares, Inc.,            $3,422,000.00                                                                                                                                                                                                      $538,230.84
1/11/2013 Cordova, TN8,14                                                                             ($23,957.42)
3/26/2013                                                                                              ($1,042.58)
7/24/2009  First American                                 $65,558,530.56                                                        $0.00
           Bank Corporation,
                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




12/21/2011                             $50,000,000.00                             $15,000,000.00                                         15,000,000          $1.00                                                                                      $13,058,530.56
           Elk Grove Village,
             11,14,15
12/11/2012 IL                                                                     $35,000,000.00                                         35,000,000          $1.00                                         $2,500,000.00
3/13/2009    First American                               $18,204,166.78                                                        $0.00
             International Corp.,      $17,000,000.00                                                                                                                                                                                                     $1,204,166.78
8/13/2010    Brooklyn, NY9,11,36                                                  $17,000,000.00                                            17,000       $1,000.00

                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                            365
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                              (CONTINUED)                                                                                                                                                                       366
                                                                                                                                               Number     Average Price                                                Stock Price       Current
Transaction                                                                     Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution                  Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    3/31/14        Warrants     Paid to Treasury
1/9/2009                                                      $74,518,906.44                                                        $0.00
             First Bancorp, Troy,
9/1/2011                                    $65,000,000.00                            $65,000,000.00                                            65,000       $1,000.00                                                   $19.00         616,308       $8,594,444.44
             NC45
11/23/2011                                                                                                                                                                                              $924,462.00
1/16/2009                                                    $122,513,539.32                                              $238,972,281.88
             First BanCorp,
8/16/2013                                  $400,000,000.00                            $81,000,000.00                                         12,000,000          $6.75     ($64,711,540.92)                              $16.30         389,484     $32,999,386.32
             San Juan, PR34
9/13/2013                                                                              $8,514,153.00                                          1,261,356          $6.75      ($6,802,024.20)
2/20/2009                                                      $9,050,516.50                                                        $0.00
             First BancTrust
1/18/2012    Corporation, Paris,             $7,350,000.00                             $3,675,000.00                                             3,675       $1,000.00                                                   $14.70                       $1,332,516.50
             IL8,11,14
10/24/2012                                                                             $3,675,000.00                                             3,675       $1,000.00                                  $368,000.00
2/6/2009     First Bank of                                     $3,960,105.00                                                        $0.00
             Charleston, Inc.,               $3,345,000.00                                                                                                                                                                                             $448,105.00
7/21/2011    Charleston, WV8,14,45                                                     $3,345,000.00                                             3,345       $1,000.00                                  $167,000.00

1/16/2009    First Bankers                                    $11,941,222.22                                                        $0.00
             Trustshares, Inc.,             $10,000,000.00                                                                                                                                                               $19.50                       $1,441,222.22
9/8/2011     Quincy, IL8,14,45                                                        $10,000,000.00                                            10,000       $1,000.00                                  $500,000.00

12/31/2008                                                   $119,071,500.97                                                        $0.00
8/8/2013                                                                                 $105,000.00                                               300         $350.00        ($195,000.00)
                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




8/9/2013                                                                              $12,171,950.00                                            34,777         $350.00     ($22,605,050.00)            $2,430,181.71
8/12/2013    First Banks, Inc.,                                                       $87,028,900.00                                           248,654         $350.00    ($161,625,100.00)            $5,919,151.59
                                           $295,400,000.00                                                                                                                                                                                            $6,037,237.50
9/12/2013    Clayton, MO8                                                                                ($993,058.50)
9/24/2013                                                                              $3,209,702.21                                             5,819         $551.60      ($2,609,297.79)
9/25/2013                                                                              $3,226,801.50                                             5,850         $551.60      ($2,623,198.50)
10/29/2013                                                                                                ($64,365.04)
3/6/2009                                                     $112,410,898.89                                                        $0.00
             First Busey
8/25/2011    Corporation,                  $100,000,000.00                           $100,000,000.00                                           100,000       $1,000.00                                                   $5.80                      $12,347,221.89
             Urbana, IL45
11/23/2011                                                                                                                                                                                               $63,677.00
4/10/2009                                    $2,211,000.00     $4,693,275.61                                                        $0.00
           First Business
12/11/2009 Bank, National                    $2,032,000.00
           Association/
12/19/2012                                                                             $1,373,084.00                                             1,500         $916.70        ($126,916.00)              $90,461.65                                    $752,663.45
           Bank of Southern
12/20/2012 California, N.A.                                                            $2,510,399.84                                             2,743         $915.60        ($232,600.16)
           San Diego, CA8,14,18
1/11/2013                                                                                                 ($33,333.33)
12/19/2008 First California                                   $28,810,847.55                                                        $0.00
           Financial Group,
7/14/2011                                   $25,000,000.00                            $25,000,000.00                                            25,000       $1,000.00                                                   $8.50                        $3,211,805.55
           Inc, Westlake
                       45
8/24/2011 Village, CA                                                                                                                                                                                   $599,042.00
4/3/2009                                                      $11,956,712.44                                                        $0.00
             First Capital
6/19/2012    Bancorp, Inc., Glen            $10,958,000.00                            $10,082,565.38     ($151,238.48)                          10,958         $920.10        ($875,434.62)                              $4.20          250,947       $1,759,343.76
             Allen, VA
2/6/2013                                                                                                                                                                                                $266,041.78
2/13/2009                                    $2,200,000.00     $5,446,642.94                                                        $0.00
             First Choice Bank,
12/22/2009                                   $2,836,000.00                                                                                                                                                                                             $300,642.94
             Cerritos, CA8,11,14,18,36
9/24/2010                                                                              $5,036,000.00                                             5,036       $1,000.00                                  $110,000.00
1/23/2009                                                     $25,245,684.71                                                        $0.00
             First Citizens Banc
7/3/2012                                    $23,184,000.00                            $21,004,704.00     ($315,070.56)                          23,184         $906.00      ($2,179,296.00)                              $10.50         469,312       $3,992,877.27
             Corp, Sandusky, OH
9/5/2012                                                                                                                                                                                                $563,174.00
3/20/2009    First Colebrook                                   $5,339,487.75                                                        $0.00
             Bancorp, Inc.,                  $4,500,000.00                                                                                                                                                                                             $614,487.75
9/22/2011    Colebrook, NH8,14,44                                                      $4,500,000.00                                             4,500       $1,000.00                                  $225,000.00

11/21/2008                                                    $42,839,002.78                                                        $0.00
             First Community
7/8/2009     Bancshares Inc.,               $41,500,000.00                            $41,500,000.00                                            41,500       $1,000.00                                                   $16.36                       $1,308,402.78
             Bluefield, VA12
11/22/2011                                                                                                                                                                                               $30,600.00
             First Commuity
             Bancshares, Inc./
5/15/2009                                   $14,800,000.00     $3,979,128.30                                               $14,800,000.00
             Equity Bancshares,
             Inc., Wichita, KS8,72
                                                                                                                                                                                                                                               Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                          (CONTINUED)
                                                                                                                                          Number     Average Price                                                 Stock Price       Current
Transaction                                                                 Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividend/Interest
Date        Institution             Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales    3/31/14        Warrants     Paid to Treasury
12/23/2008 First Community                                 $8,499,249.92                                                        $0.00
           Bank Corporation
                                       $10,685,000.00                                                                                                                                                                                              $744,982.44
5/31/2011 of America, Pinellas                                                     $7,754,267.48                                           10,685         $725.70     ($2,930,732.52)
           Park, FL
11/21/2008                                                $13,425,979.36                                                        $0.00
             First Community
8/29/2012    Corporation,              $11,350,000.00                             $11,155,120.50     ($167,326.81)                         11,350         $982.80       ($194,879.50)                                $11.18                       $2,140,685.67
             Lexington, SC
11/1/2012                                                                                                                                                                                           $297,500.00
12/11/2009                                                $18,252,479.06                                                        $0.00
8/8/2012                                                                                                                                                                                             $70,727.58
8/9/2012                                                                                                                                                                                            $440,082.72
8/10/2012    First Community                                                                                                                                                                        $209,563.20
             Financial Partners,       $22,000,000.00                                                                                                                                                                                             $3,320,655.56
9/19/2012    Inc., Joliet, IL8                                                       $326,250.00                                              500         $652.50       ($173,750.00)
9/20/2012                                                                          $3,051,090.00                                            4,676         $652.50     ($1,624,910.00)
9/21/2012                                                                         $10,977,660.00                                           16,824         $652.50     ($5,846,340.00)
11/16/2012                                                                                           ($143,550.00)
12/5/2008    First Defiance                               $41,631,005.92                                                        $0.00
             Financial Corp.,          $37,000,000.00                                                                                                                                                                $27.12         550,595       $6,546,862.22
6/19/2012    Defiance, OH                                                         $35,618,420.00     ($534,276.30)                         37,000         $962.70     ($1,381,580.00)

9/11/2009    First Eagle                                   $8,514,738.21                                                        $0.00
             Bancshares, Inc.,
                                        $7,500,000.00                                                                                                                                                                                              $639,738.21
9/17/2010    Hanover Park,                                                         $7,500,000.00                                         7,500,000          $1.00                                   $375,000.00
             IL11,15,36
2/6/2009     First Express of                              $6,074,313.00                                                        $0.00
             Nebraska, Inc.,            $5,000,000.00                                                                                                                                                                                              $824,313.00
2/15/2012    Gering, NE8,11,14                                                     $5,000,000.00                                            5,000       $1,000.00                                   $250,000.00

3/6/2009     First Federal                                 $6,570,625.00                                                        $0.00
             Bancshares of
                                       $16,500,000.00                                                                                                                                                                $9.17                         $570,625.00
5/3/2011     Arkansas, Inc.,                                                       $6,000,000.00                                           16,500         $363.60    ($10,500,000.00)
             Harrison, AR
12/23/2008                                                $87,644,066.10                                                        $0.00
             First Financial
2/24/2010    Bancorp,                  $80,000,000.00                             $80,000,000.00                                           80,000       $1,000.00                                                    $17.98                       $4,677,777.78
             Cincinnati, OH12,16
6/8/2010                                                                                                                                                                                           $2,966,288.32
6/12/2009    First Financial                               $4,563,280.34                                                        $0.00
             Bancshares, Inc.,          $3,756,000.00                                                                                                                                                                                              $694,280.34
9/22/2011    Lawrence, KS15,17,44                                                  $3,756,000.00                                         3,756,000          $1.00                                   $113,000.00

12/5/2008                                                 $68,141,972.19                                                        $0.00
             First Financial
4/3/2012     Holdings Inc.,            $65,000,000.00                             $56,778,150.00     ($851,672.25)                         65,000         $873.50     ($8,221,850.00)                                $22.87                     $10,815,494.44
             Charleston, SC
5/22/2013                                                                                                                                                                                          $1,400,000.00
1/9/2009     First Financial                              $12,333,778.00                                                        $0.00
             Service
4/29/2013                              $20,000,000.00                             $10,842,200.00                                           20,000         $542.10     ($9,157,800.00)                                $3.61          215,983       $1,600,000.00
             Corporation,
5/31/2013    Elizabethtown, KY                                                                       ($108,422.00)
12/22/2009                                                 $9,522,346.17                                                        $0.00
             First Freedom
11/9/2012    Bancshares, Inc.,          $8,700,000.00                              $8,025,750.00                                            8,700         $922.50       ($674,250.00)               $256,118.75                                   $1,320,734.92
             Lebanon, TN9,17
1/11/2013                                                                                             ($80,257.50)
2/27/2009                                                  $8,702,021.25                                                        $0.00
10/29/2012 First Gothenburg                                                           $26,398.99                                               29         $910.30          ($2,601.01)
           Bancshares, Inc.,            $7,570,000.00                                                                                                                                                                                             $1,517,766.09
10/31/2012 Gothenburg, NE8,14                                                      $6,864,647.71                                            7,541         $910.30       ($676,352.29)               $362,118.92
1/11/2013                                                                                             ($68,910.46)
8/28/2009    First Guaranty                               $24,059,476.66                                                        $0.00
             Bancshares, Inc.,         $20,699,000.00                                                                                                                                                                                             $2,330,476.66
9/22/2011    Hammond, LA8,14,44                                                   $20,699,000.00                                            2,070      $10,000.00                                  $1,030,000.00

11/14/2008 First Horizon                                $1,037,467,405.56                                                       $0.00
                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




           National
12/22/2010                            $866,540,000.00                            $866,540,000.00                                          866,540       $1,000.00                                                    $12.34                     $91,227,405.56
           Corporation,
3/9/2011   Memphis, TN11                                                                                                                                                                          $79,700,000.00
                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                    367
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                         (CONTINUED)                                                                                                                                                                              368
                                                                                                                                         Number     Average Price                                                        Stock Price       Current
Transaction                                                                Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                       as of      Outstanding   Dividend/Interest
Date        Institution             Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4   Warrant Sales    3/31/14        Warrants     Paid to Treasury
8/28/2009                                                 $2,820,256.96                                                        $0.00
12/20/2012 First Independence                                                     $2,336,675.00                                            3,223         $725.00       ($886,325.00)
           Corporation,                 $3,223,000.00                                                                                                                                                                                                    $533,581.96
1/11/2013 Detroit, MI8,9                                                                             ($23,366.75)
3/26/2013                                                                                            ($26,633.25)
3/13/2009                                                 $4,118,886.85                                                        $0.00
             First
8/12/2013    Intercontinental           $6,398,000.00                             $3,247,112.96                                            6,398         $507.50     ($3,150,887.04)                      $139,320.00                                    $757,453.89
             Bank, Doraville, GA8
9/12/2013                                                                                            ($25,000.00)
12/12/2008 First Litchfield                              $12,147,768.63                                                        $0.00
           Financial
                                       $10,000,000.00                                                                                                                                                                                                    $659,722.22
4/7/2010   Corporation,                                                          $10,000,000.00                                           10,000       $1,000.00                                         $1,488,046.41
           Litchfield, CT11
2/27/2009                                                $36,472,843.94                                                        $0.00
             First M&F
9/29/2010    Corporation,              $30,000,000.00                            $30,000,000.00                                           30,000       $1,000.00                                                           $16.19                       $2,383,333.33
             Kosciusko, MS11,36
8/30/2013                                                                                                                                                                                                $4,089,510.61
1/16/2009    First Manitowoc                             $12,837,983.33                                                        $0.00
             Bancorp, Inc.,            $12,000,000.00                                                                                                                                                                      $19.40                        $237,983.33
5/27/2009    Manitowoc, WI8,11,14                                                $12,000,000.00                                           12,000       $1,000.00                                          $600,000.00

2/6/2009     First Market Bank,                          $40,834,859.35                                                        $0.00
                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




             FSB/Union First
             Market Banksahres         $33,900,000.00                                                                                                                                                                                                   $2,695,972.22
12/7/2011    Corporation,                                                        $33,900,000.00                                           35,595       $1,000.00                         $1,695,000.00
             Richmond, VA11,25
2/13/2009    First Menasha                                $5,713,865.00                                                        $0.00
             Bancshares, Inc.,          $4,797,000.00                                                                                                                                                                                                    $676,865.00
9/15/2011    Neenah, WI8,14,44                                                    $4,797,000.00                                            4,797       $1,000.00                                          $240,000.00

2/20/2009                                               $131,383,055.11                                                        $0.00
             First Merchants
9/22/2011    Corporation,             $116,000,000.00                           $116,000,000.00                                          116,000       $1,000.00                                                           $21.64                     $15,015,555.11
             Muncie, IN33,44,45
11/23/2011                                                                                                                                                                                                $367,500.00
12/5/2008                                               $222,528,333.33                                                        $0.00
           First Midwest
11/23/2011 Bancorp, Inc.,             $193,000,000.00                           $193,000,000.00                                          193,000       $1,000.00                                                           $17.08                     $28,628,333.33
           Itasca, IL11
12/21/2011                                                                                                                                                                                                $900,000.00
3/13/2009    First National                              $15,329,326.44                                                        $0.00
             Corporation,              $13,900,000.00                                                                                                                                                                      $7.80                        $2,621,903.00
8/29/2012    Strasburg, VA8,14                                                   $12,266,750.00     ($184,001.25)                         13,900         $882.50     ($1,633,250.00)                      $624,674.69

3/20/2009    First NBC Bank                              $21,033,989.56                                                        $0.00
             Holding Company,
                                       $17,836,000.00                                                                                                                                                                                                   $2,305,989.56
8/4/2011     New Orleans,                                                        $17,836,000.00                                           17,836       $1,000.00                                          $892,000.00
             LA8,14,44
11/21/2008                                              $191,464,618.00                                                        $0.00
             First Niagara
5/27/2009    Financial Group,         $184,011,000.00                           $184,011,000.00                                          184,011       $1,000.00                                                           $9.45                        $4,753,618.00
             Lockport, NY12,16
6/24/2009                                                                                                                                                                                                $2,700,000.00
3/13/2009  First Northern                                $19,943,580.33                                                        $0.00
           Community
9/15/2011                              $17,390,000.00                            $17,390,000.00                                           17,390       $1,000.00                                                           $7.18                        $2,178,580.33
           Bancorp, Dixon,
              44
11/16/2011 CA                                                                                                                                                                                             $375,000.00
11/21/2008                                               $22,297,560.34                                                        $0.00
           First PacTrust
12/15/2010 Bancorp, Inc.,              $19,300,000.00                            $19,300,000.00                                           19,300       $1,000.00                                                           $12.27       3,670,822       $1,994,333.34
           Chula Vista, CA11
1/5/2011                                                                                                                                                                                                 $1,003,227.00
3/13/2009 First Place Financial                           $7,009,094.50                                                        $0.00
           Corp., Warren,              $72,927,000.00                                                                                                                                                                      $0.00                        $7,009,094.50
10/29/2012 OH73,97                                                                                                                                                  ($72,927,000.00)

2/20/2009                               $4,579,000.00     $9,948,069.58                                                        $0.00
12/18/2009                              $4,596,000.00
             First Priority
2/7/2013     Financial Corp.,                                                     $6,682,192.50                                            7,575         $882.23       ($892,807.50)                       $48,083.60                                   $1,711,258.50
             Malvern, PA8,14,18
2/8/2013                                                                          $1,410,831.60                                            1,600         $882.05       ($189,168.40)                      $176,633.62
3/26/2013                                                                                            ($80,930.24)
                                                                                                                                                                                                                                                 Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                          (CONTINUED)
                                                                                                                                           Number     Average Price                                                Stock Price       Current
Transaction                                                                 Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution              Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    3/31/14        Warrants     Paid to Treasury
3/6/2009                                                  $12,994,059.00                                                        $0.00
             First Reliance
3/11/2013    Bancshares, Inc.,          $15,349,000.00                            $10,431,333.89                                            15,349         $679.60     ($4,917,666.11)              $624,632.45      $1.88                        $2,042,406.00
             Florence, SC8,14
4/9/2013                                                                                             ($104,313.34)
1/30/2009                                $2,600,000.00     $5,731,793.60                                                        $0.00
           First Resource
12/11/2009 Bank, Exton,                  $2,417,000.00                                                                                                                                                                                             $584,793.60
           PA8,14,18,44,45
9/15/2011                                                                          $5,017,000.00                                             5,017       $1,000.00                                  $130,000.00
1/9/2009     First Security                               $16,315,362.00                                                        $0.00
             Group, Inc.,               $33,000,000.00                                                                                                                                                               $2.08                        $1,402,500.00
4/11/2013    Chattanooga, TN87                                                    $14,912,862.00                                          9,941,908          $1.50    ($18,087,138.00)

12/23/2008 First Sound Bank,                               $4,030,944.44                                                        $0.00
                                         $7,400,000.00                                                                                                                                                               $0.13          114,080        $330,944.44
2/20/2013  Seattle, WA79                                                           $3,700,000.00                                             7,400         $500.00     ($3,700,000.00)
7/17/2009                                                 $65,432,450.94                                                        $0.00
             First South
9/28/2011    Bancorp, Inc.,             $50,000,000.00                            $13,125,000.00                                         13,125,000          $1.00                                                                              $12,932,450.94
             Lexington, TN11,14,15
11/28/2012                                                                        $36,875,000.00                                         36,875,000          $1.00                                 $2,500,000.00
1/30/2009    First Southern                               $12,263,468.31                                                        $0.00
             Bancorp, Inc., Boca        $10,900,000.00                                                                                                                                                                                             $818,468.31
6/16/2010    Raton, FL11,8,14                                                     $10,900,000.00                                            10,900       $1,000.00                                  $545,000.00

3/6/2009                                                   $5,359,772.59                                                        $0.00
3/26/2013    First Southwest                                                         $315,007.00                                               350         $900.00         ($34,993.00)
             Bancorporation,
3/27/2013                                $5,500,000.00                             $2,835,063.00                                             3,150         $900.00       ($314,937.00)              $206,048.21                                    $207,327.00
             Inc., Alamosa,
3/28/2013    CO8,14                                                                $1,800,040.00                                             2,000         $900.00       ($199,960.00)               $45,788.48
4/9/2013                                                                                              ($49,501.10)
3/6/2009     First Texas BHC,                             $16,072,389.00                                                        $0.00
             Inc., Fort Worth,          $13,533,000.00                                                                                                                                                                                            $1,862,389.00
9/15/2011    TX8,14,44                                                            $13,533,000.00                                            13,533       $1,000.00                                  $677,000.00

6/5/2009                                                  $15,304,180.50                                                        $0.00
             First Trust
2/20/2013    Corporation, New           $17,969,000.00                            $13,750,058.49                                         17,969,000          $0.77     ($4,218,941.51)              $644,726.19                                   $1,046,896.40
             Orleans, LA14,15
3/26/2013                                                                                            ($137,500.58)
1/23/2009    First ULB Corp.,                              $5,211,020.69                                                        $0.00
                                         $4,900,000.00                                                                                                                                                                                               $66,020.69
4/22/2009    Oakland, CA8,11,14                                                    $4,900,000.00                                             4,900       $1,000.00                                  $245,000.00
             First United
1/30/2009    Corporation,               $30,000,000.00     $2,312,500.00                                               $30,000,000.00                                                                                $7.60          326,323       $2,312,500.00
             Oakland, MD
6/12/2009    First Vernon                                  $6,662,770.42                                                        $0.00
             Bancshares, Inc.,           $6,000,000.00                                                                                                                                                                                             $417,770.42
9/29/2010    Vernon, AL8,11,14,36                                                  $6,000,000.00                                             6,000       $1,000.00                                  $245,000.00

2/6/2009                                 $8,559,000.00    $21,142,314.80                                                        $0.00
12/11/2009                              $11,881,000.00
8/9/2012                                                                           $6,138,000.00                                             7,920         $775.00     ($1,782,000.00)              $311,681.70
             First Western
8/10/2012    Financial, Inc.,                                                         $62,000.00                                                80         $775.00         ($18,000.00)              $39,370.32                                   $3,768,965.19
             Denver, CO8,14,18
9/11/2012                                                                                             ($62,000.00)
6/24/2013                                                                         $10,994,240.00                                            12,440         $874.81     ($1,445,760.00)
7/26/2013                                                                                            ($109,942.41)
1/30/2009                                                 $38,185,560.05                                                        $0.00
             Firstbank
7/3/2012     Corporation,               $33,000,000.00                            $31,053,330.00     ($465,799.95)                          33,000         $941.00     ($1,946,670.00)                               $18.67                       $5,651,360.00
             Alma, MI
7/18/2012                                                                                                                                                                                          $1,946,670.00
1/9/2009                                                 $131,813,194.44                                                        $0.00
             FirstMerit
4/22/2009    Corporation, Akron,       $125,000,000.00                           $125,000,000.00                                           125,000       $1,000.00                                                   $20.83       2,408,203     $71,033,631.08
             OH11
5/27/2009                                                                                                                                                                                          $5,025,000.00
                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                    369
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                         (CONTINUED)                                                                                                                                                                          370
                                                                                                                                            Number     Average Price                                                 Stock Price       Current
Transaction                                                                Capital Repayment /                        Remaining Capital    of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividend/Interest
Date        Institution             Investment Amount   Total Cash Back2 Disposition / Auction2,4     Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4    Warrant Sales    3/31/14        Warrants     Paid to Treasury
1/30/2009                                               $277,861,053.94                                                          $0.00
3/26/2013                                                                         $1,439,258.50                                               1,579         $911.50       ($139,741.50)
3/27/2013    Flagstar Bancorp,                                                  $228,401,847.00                                             250,578         $911.50    ($22,176,153.00)
                                      $266,657,000.00                                                                                                                                                                  $22.22                     $37,220,872.00
3/28/2013    Inc., Troy, MI                                                      $13,216,750.00                                              14,500         $911.50     ($1,283,250.00)
4/9/2013                                                                                            ($2,430,578.56)
6/12/2013                                                                                                                                                                                              $12,905.00
7/24/2009    Florida Bank Group,                          $9,180,793.08                                                          $0.00
                                       $20,471,000.00                                                                                                                                                                                               $1,180,793.08
8/14/2013    Inc., Tampa, FL8,84                                                  $8,000,000.00                                              20,471         $390.80    ($12,471,000.00)
2/20/2009    Florida Business                            $11,309,750.50                                                          $0.00
             BancGroup, Inc.,           $9,495,000.00                                                                                                                                                                                               $1,339,750.50
9/22/2011    Tampa, FL8,14,44                                                     $9,495,000.00                                               9,495       $1,000.00                                   $475,000.00

12/19/2008                                               $73,904,166.66                                                          $0.00
           Flushing Financial
10/28/2009 Corporation, Lake           $70,000,000.00                            $70,000,000.00                                              70,000       $1,000.00                                                    $21.07                       $3,004,166.66
           Success, NY12,16
12/30/2009                                                                                                                                                                                            $900,000.00
2/27/2009    FNB Bancorp,                                $14,267,700.00                                                          $0.00
             South San                 $12,000,000.00                                                                                                                                                                  $26.60                       $1,667,700.00
9/15/2011    Francisco, CA45,8,14                                                $12,000,000.00                                              12,000       $1,000.00                                   $600,000.00
                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




5/15/2009 Foresight Financial                            $18,670,291.67                                                          $0.00
           Group, Inc.,                $15,000,000.00                                                                                                                                                                  $19.09                       $2,920,291.67
12/11/2012 Rockford, IL8,11,14                                                   $15,000,000.00                                              15,000       $1,000.00                                   $750,000.00

5/22/2009    Fort Lee Federal                                $87,184.85                                                          $0.00
             Savings Bank, Fort         $1,300,000.00                                                                                                                                                                                                  $87,184.85
4/20/2012    Lee, NJ8,66,97                                                                                                                                             ($1,300,000.00)

4/3/2009     Fortune Financial                            $3,668,927.67                                                          $0.00
             Corporation ,              $3,100,000.00                                                                                                                                                                                                $413,927.67
9/15/2011    Arnold, MO8,14,45                                                    $3,100,000.00                                               3,100       $1,000.00                                   $155,000.00

12/5/2008    FPB Bancorp, Inc.,                             $273,888.89                                                          $0.00
             Port St. Lucie,            $5,800,000.00                                                                                                                                                                  $0.01          183,158        $273,888.89
7/15/2011    FL50,97                                                                                                                                                    ($5,800,000.00)

1/23/2009                                                 $3,623,721.50                                                          $0.00
           FPB Financial
12/16/2009 Corp., Hammond,              $3,240,000.00                             $1,000,000.00                                               1,000       $1,000.00                                                                                  $221,721.50
           LA8,11,14
6/16/2010                                                                         $2,240,000.00                                               2,240       $1,000.00                                   $162,000.00
5/22/2009                                                 $4,336,183.67                                                          $0.00
11/9/2012  Franklin Bancorp,                                                        $594,550.00                                                 940         $632.50       ($345,450.00)               $126,798.62
           Inc., Washington,            $5,097,000.00                                                                                                                                                                                                $965,343.67
11/13/2012 MO8,14                                                                 $2,629,302.50                                               4,157         $632.50     ($1,527,697.50)                $45,188.88
1/11/2013                                                                                              ($25,000.00)
             Freeport
5/8/2009     Bancshares, Inc.,          $3,000,000.00     $1,200,468.45                                                  $3,000,000.00                                                                                                              $1,200,468.45
             Freeport, IL15
6/26/2009    Fremont                                     $45,796,066.36                                                          $0.00
             Bancorporation,           $35,000,000.00                                                                                                                                                                                               $9,046,066.36
7/25/2012    Fremont, CA11,14,15                                                 $35,000,000.00                                           35,000,000          $1.00                                  $1,750,000.00

1/23/2009    Fresno First Bank,                           $2,437,100.33                                                          $0.00
                                        $1,968,000.00                                                                                                                                                                                                $371,100.33
11/1/2012    Fresno, CA8,14,44                                                    $1,968,000.00                                               1,968       $1,000.00                                    $98,000.00
4/24/2009                                                 $3,408,191.65                                                          $0.00
           Frontier
11/24/2009 Bancshares, Inc.,            $3,000,000.00                             $1,600,000.00                                            1,600,000          $1.00                                                                                  $258,191.65
           Austin, TX11,14,15
10/6/2010                                                                         $1,400,000.00                                            1,400,000          $1.00                                   $150,000.00
12/23/2008                                              $416,635,625.00                                                          $0.00
             Fulton Financial
7/14/2010    Corporation,             $376,500,000.00                           $376,500,000.00                                             376,500       $1,000.00                                                    $12.58                     $29,335,625.00
             Lancaster, PA11
9/8/2010                                                                                                                                                                                            $10,800,000.00
5/8/2009     Gateway                                      $7,260,794.87                                                          $0.00
             Bancshares, Inc.,          $6,000,000.00                                                                                                                                                                                                $960,794.87
4/13/2012    Ringgold, GA8,14                                                     $6,000,000.00                                               6,000       $1,000.00                                   $300,000.00

2/6/2009     Georgia Commerce                            $10,096,470.83                                                          $0.00
             Bancshares, Inc.,          $8,700,000.00                                                                                                                                                                                                $961,470.83
2/16/2011    Atlanta, GA8,11,14                                                   $8,700,000.00                                               8,700       $1,000.00                                   $435,000.00

                                                                                                                                                                                                                                             Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                             (CONTINUED)
                                                                                                                                             Number     Average Price                                                    Stock Price       Current
Transaction                                                                    Capital Repayment /                     Remaining Capital    of Shares       of Shares   (Realized Loss) /                                   as of      Outstanding   Dividend/Interest
Date        Institution              Investment Amount      Total Cash Back2 Disposition / Auction2,4   Auction Fee3            Amount      Disposed        Disposed           (Write-off)   Gain4       Warrant Sales    3/31/14        Warrants     Paid to Treasury
5/1/2009                                                       $1,576,457.50                                                      $0.00
             Georgia Primary
2/10/2014                                 $4,500,000.00                               $1,556,145.00                                            4,500         $345.80     ($2,943,855.00)                   $45,312.50
             Bank, Atlanta, GA8
3/19/2014                                                                                               ($25,000.00)
3/6/2009                                                       $5,699,100.75                                                      $0.00
10/29/2012 Germantown Capital                                                            $26,393.77                                               29         $910.10          ($2,606.23)
           Corporation, Inc.,             $4,967,000.00                                                                                                                                                                                                  $988,889.76
10/31/2012 Germantown, TN8,14                                                         $4,494,221.94                                            4,938         $910.10       ($443,778.06)                  $214,595.28
1/11/2013                                                                                               ($25,000.00)
6/26/2009    Gold Canyon Bank,                                   $53,859.52                                                       $0.00
             Gold Canyon,                 $1,607,000.00                                                                                                                                                                                                    $53,859.52
4/5/2013     AZ8,17,91,97                                                                                                                                                ($1,607,000.00)

10/28/2008                                                $11,418,055,555.44                                                      $0.00
             Goldmans Sachs
6/17/2009    Group, Inc.             $10,000,000,000.00                          $10,000,000,000.00                                        10,000,000      $1,000.00                                                                                 $318,055,555.44
             New York, NY11
7/22/2009                                                                                                                                                                                            $1,100,000,000.00
             Goldwater Bank,
1/30/2009                                 $2,568,000.00         $145,750.00                                               $2,568,000.00                                                                                                                  $145,750.00
             N.A., Scottsdale, AZ8
4/24/2009    Grand Capital                                     $4,717,144.78                                                      $0.00
             Corporation, Tulsa,          $4,000,000.00                                                                                                                                                                                                  $517,144.78
9/8/2011     OK8,14,44                                                                $4,000,000.00                                            4,000       $1,000.00                                      $200,000.00

             Grand Financial
9/25/2009    Corporation,                 $2,443,320.00         $899,596.70                                               $2,443,320.00                                                                                                                  $899,596.70
             Hattiesburg, MS15
             Grand Mountain
5/29/2009    Bancshares, Inc.,            $3,076,000.00                $0.00                                              $3,076,000.00
             Granby, CO8
1/9/2009     GrandSouth                   $9,000,000.00      $17,625,917.08                                                       $0.00
             Bancorporation,
12/11/2009                                $6,319,000.00                                                                                                                                                                    $6.01                        $1,856,917.08
             Greenville,
9/8/2011     SC8,14,18,44                                                            $15,319,000.00                                           15,319       $1,000.00                                      $450,000.00
             Great River Holding
7/17/2009    Company, Baxter,             $8,400,000.00         $759,575.46                                               $8,400,000.00                                                                                                                  $759,575.46
             MN15
12/5/2008                                                    $72,274,419.56                                                       $0.00
             Great Southern
8/18/2011    Bancorp,                   $58,000,000.00                               $58,000,000.00                                           58,000       $1,000.00                                                       $30.03                       $7,838,055.56
             Springfield, MO45
9/21/2011                                                                                                                                                                                               $6,436,364.00
12/23/2008 Green Bankshares,                                 $74,642,857.78                                                       $0.00
           Inc., Greeneville,           $72,278,000.00                                                                                                                                                                                                  $5,942,857.78
9/7/2011   TN                                                                        $68,700,000.00                                           72,278         $950.50     ($3,578,000.00)

2/27/2009                                                      $3,036,021.12                                                      $0.00
11/14/2012 Green Circle                                                                 $800,000.00                                              800       $1,000.00
           Investments, Inc.,             $2,400,000.00                                                                                                                                                                                                  $516,021.12
1/23/2013 Clive, IA8,11,14                                                              $800,000.00                                              800       $1,000.00
4/24/2013                                                                               $800,000.00                                              800       $1,000.00                                      $120,000.00
2/27/2009    Green City                                         $733,037.33                                                       $0.00
             Bancshares, Inc.,             $651,000.00                                                                                                                                                                                                     $49,037.33
7/14/2010    Green City, MO8,11,14                                                      $651,000.00                                              651       $1,000.00                                       $33,000.00

1/30/2009    Greer Bancshares                                  $6,080,852.57                                              $6,843,000.00
             Incorporated,                $9,993,000.00                                                                                                                                                                    $4.90                        $2,930,852.57
3/19/2014    Greer, SC8                                                               $3,150,000.00                                            3,150       $1,000.00

2/13/2009    Gregg Bancshares,                                   $45,190.00                                                       $0.00
             Inc., Ozark,                  $825,000.00                                                                                                                                                                                                     $45,190.00
7/13/2012    MO8,68,97                                                                                                                                                     ($825,000.00)

2/20/2009    Guaranty Bancorp,                                 $8,235,040.33                                                      $0.00
             Inc., Woodsville,            $6,920,000.00                                                                                                                                                                                                  $969,040.33
9/15/2011    NH8,14,45                                                                $6,920,000.00                                            6,920       $1,000.00                                      $346,000.00

9/25/2009    Guaranty Capital           $14,000,000.00       $14,913,299.33                                                       $0.00                                                                                                                  $913,299.33
             Corporation,
                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




7/30/2010    Belzoni, MS9,15,36                                                      $14,000,000.00                                        14,000,000          $1.00

                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                          371
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                          (CONTINUED)                                                                                                                                                                      372
                                                                                                                                          Number     Average Price                                                Stock Price       Current
Transaction                                                                 Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution              Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    3/31/14        Warrants     Paid to Treasury
1/30/2009                                                 $21,887,871.44                                                        $0.00
6/13/2012                                                                          $5,000,000.00                                            5,000       $1,000.00
4/26/2013     Guaranty Federal                                                        $96,750.00                                              100         $967.50          ($3,250.00)
              Bancshares, Inc.,         $17,000,000.00                                                                                                                                                              $12.82                       $3,390,721.44
4/29/2013     Springfield, MO11                                                   $11,513,250.00                                           11,900         $967.50       ($386,750.00)
5/15/2013                                                                                                                                                                                         $2,003,250.00
5/31/2013                                                                                            ($116,100.00)
9/25/2009  GulfSouth Private                                 $757,380.08                                                        $0.00
           Bank, Destin,                 $7,500,000.00                                                                                                                                                                                            $757,380.08
10/19/2012 FL17,28,70,97                                                                                                                                              ($7,500,000.00)

6/26/2009     Gulfstream                                   $8,751,541.63                                                        $0.00
              Bancshares, Inc.,          $7,500,000.00                                                                                                                                                                                            $876,541.63
8/18/2011     Stuart, FL8,14,45                                                    $7,500,000.00                                            7,500       $1,000.00                                  $375,000.00

2/20/2009     Hamilton State                               $8,169,165.89                                                        $0.00
              Bancshares,                $7,000,000.00                                                                                                                                                                                            $819,165.89
4/13/2011     Hoschton, GA8,11,14                                                  $7,000,000.00                                              280      $25,000.00                                  $350,000.00

           Hampton Roads
12/31/2008 Bankshares, Inc.,            $80,347,000.00     $2,510,844.25                                               $80,347,000.00                                                                               $1.59          757,633       $2,510,844.25
           Norfolk, VA38
              Harbor Bankshares
                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




7/17/2009     Corporation,               $6,800,000.00       $282,744.47                                                $6,800,000.00                                                                                                             $282,744.47
              Baltimore, MD8,9
3/13/2009  Haviland                                          $487,524.22                                                        $0.00
           Bancshares, Inc.,               $425,000.00                                                                                                                                                                                              $41,524.22
12/29/2010 Haviland, KS8,11,14                                                       $425,000.00                                              425       $1,000.00                                   $21,000.00

12/19/2008                                                $36,849,504.67                                                        $0.00
5/9/2012      Hawthorne                                                           $12,000,000.00                                           12,000       $1,000.00
              Bancshares, Inc.,         $30,255,000.00                                                                                                                                                              $13.23                       $6,054,504.67
5/15/2013     Lee’s Summit, MO11                                                  $18,255,000.00                                           18,255       $1,000.00
6/12/2013                                                                                                                                                                                          $540,000.00
              HCSB Financial
3/6/2009      Corporation,              $12,895,000.00     $1,090,702.00                                               $12,895,000.00                                                                               $0.20           91,714       $1,090,702.00
              Loris, SC
9/11/2009     Heartland                                    $8,321,471.08                                                        $0.00
              Bancshares, Inc.,          $7,000,000.00                                                                                                                                                              $26.99                       $1,073,471.08
7/17/2012     Franklin, IN8,17                                                     $7,000,000.00                                            7,000       $1,000.00                                  $248,000.00

12/19/2008                                                $94,686,087.22                                                        $0.00
              Heartland Financial
9/15/2011     USA, Inc.,                $81,698,000.00                            $81,698,000.00                                           81,698       $1,000.00                                                   $26.99                     $11,188,087.22
              Dubuque, IA45
9/28/2011                                                                                                                                                                                         $1,800,000.00
9/25/2009                                                 $11,353,284.46                                                        $0.00
              Heritage
3/16/2011     Bankshares, Inc.,         $10,103,000.00                             $2,606,000.00                                            2,606       $1,000.00                                                   $14.75                        $947,284.46
              Norfolk, VA8,17,45
8/11/2011                                                                          $7,497,000.00                                            7,497       $1,000.00                                  $303,000.00
11/21/2008                                                $46,901,266.80                                                        $0.00
              Heritage
3/7/2012      Commerce Corp.,           $40,000,000.00                            $40,000,000.00                                           40,000       $1,000.00                                                   $8.06                        $6,761,266.80
              San Jose, CA11
6/10/2013                                                                                                                                                                                          $140,000.00
11/21/2008                                                $26,953,333.33                                                        $0.00
           Heritage Financial
12/22/2010 Corporation,                 $24,000,000.00                            $24,000,000.00                                           24,000       $1,000.00                                                   $16.92                       $2,503,333.33
           Olympia, WA11,16
8/17/2011                                                                                                                                                                                          $450,000.00
3/20/2009                                                 $27,241,335.26                                                        $0.00
              Heritage Oaks
7/17/2013     Bancorp, Paso             $21,000,000.00                            $21,000,000.00                                           21,000       $1,000.00                                                   $8.08                        $4,666,335.26
              Robles, CA11
8/7/2013                                                                                                                                                                                          $1,575,000.00
11/21/2008                                                $26,316,666.67                                                        $0.00
              HF Financial Corp.,
6/3/2009                                $25,000,000.00                            $25,000,000.00                                           25,000       $1,000.00                                                   $20.25                        $666,666.67
              Sioux Falls, SD11
6/30/2009                                                                                                                                                                                          $650,000.00
5/8/2009      Highlands Bancorp,         $3,091,000.00     $6,211,926.79                                                        $0.00
              Inc. (Highlands
12/22/2009                               $2,359,000.00                                                                                                                                                              $6.19                         $606,926.79
              State Bank),
9/22/2011     Vernon, NJ8,18,21,44                                                 $5,450,000.00                                            5,450       $1,000.00                                  $155,000.00
                                                                                                                                                                                                                                          Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                           (CONTINUED)
                                                                                                                                           Number     Average Price                                                 Stock Price       Current
Transaction                                                                  Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividend/Interest
Date        Institution              Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales    3/31/14        Warrants     Paid to Treasury
              Highlands
              Independent
3/6/2009                                 $6,700,000.00        $617,712.00                                                $6,700,000.00                                                                                                              $617,712.00
              Bancshares, Inc.,
              Sebring, FL8
1/30/2009     Hilltop Community                             $4,467,049.67                                                        $0.00
              Bancorp, Inc.,             $4,000,000.00                                                                                                                                                                $9.36                         $267,049.67
4/21/2010     Summit, NJ8,11,14                                                     $4,000,000.00                                            4,000       $1,000.00                                   $200,000.00

12/23/2008                                                 $21,034,187.78                                                        $0.00
2/7/2013      HMN Financial, Inc.,                                                  $2,561,325.00                                            3,550         $721.50       ($988,675.00)
                                        $26,000,000.00                                                                                                                                                                $9.85          833,333       $2,462,777.78
2/8/2013      Rochester, MN                                                        $16,197,675.00                                           22,450         $721.50     ($6,252,325.00)
3/26/2013                                                                                             ($187,590.00)
1/16/2009                                                  $57,480,555.56                                                        $0.00
              Home Bancshares,
7/6/2011                                $50,000,000.00                             $50,000,000.00                                           50,000       $1,000.00                                                    $34.42                       $6,180,555.56
              Inc., Conway, AR11
7/27/2011                                                                                                                                                                                           $1,300,000.00
2/20/2009     Hometown Bancorp                              $4,214,202.31                                                        $0.00
              of Alabama, Inc.,          $3,250,000.00                                                                                                                                                                                              $801,202.31
8/28/2013     Oneonta, AL8                                                          $3,250,000.00                                            3,250       $1,000.00                                   $163,000.00

2/13/2009                                                   $2,229,801.03                                                        $0.00
11/28/2012                                                                            $608,170.50                                              645         $942.90         ($36,829.50)
           Hometown
11/30/2012 Bancshares, Inc.,             $1,900,000.00                              $1,183,339.50                                            1,255         $942.90         ($71,660.50)               $70,095.00                                    $393,196.03
           Corbin, KY8,14
1/11/2013                                                                                              ($17,915.11)
3/26/2013                                                                                               ($7,084.89)
9/18/2009  HomeTown                                        $11,111,011.94                                                        $0.00
           Bankshares
10/31/2012                              $10,000,000.00                              $9,185,000.00                                           10,000         $918.50       ($815,000.00)               $315,461.52      $6.33                        $1,702,400.42
           Corporation,
                        8,17
1/11/2013 Roanoke, VA                                                                                  ($91,850.00)
12/12/2008                                                 $22,354,145.89                                                        $0.00
              HopFed Bancorp,
12/19/2012                              $18,400,000.00                             $18,400,000.00                                           18,400       $1,000.00                                                    $11.67         253,666       $3,697,888.89
              Hopkinsville, KY11
1/16/2013                                                                                                                                                                                            $256,257.00
12/19/2008                                                 $29,857,321.83                                                        $0.00
11/10/2010 Horizon Bancorp,                                                         $6,250,000.00                                            6,250       $1,000.00
           Michigan City,               $25,000,000.00                                                                                                                                                                $22.28       3,106,771       $3,106,770.83
8/25/2011 IN11,45                                                                  $18,750,000.00                                           18,750       $1,000.00
11/23/2011                                                                                                                                                                                          $1,750,551.00
2/27/2009     Howard Bancorp,                               $7,119,793.05                                                        $0.00
              Inc., Ellicott City,       $5,983,000.00                                                                                                                                                                $11.30                        $837,793.05
9/22/2011     MD8,14,44                                                             $5,983,000.00                                            5,983       $1,000.00                                   $299,000.00

5/1/2009                                 $4,000,000.00     $10,940,554.65                                                        $0.00
           HPK Financial
11/13/2009 Corporation,                  $5,000,000.00                                                                                                                                                                                             $1,596,554.65
           Chicago, IL8,11,14,18
12/11/2012                                                                          $9,000,000.00                                            9,000       $1,000.00                                   $344,000.00
11/14/2008                                               $1,594,356,808.56                                                       $0.00
           Huntington
12/22/2010 Bancshares,               $1,398,071,000.00                          $1,398,071,000.00                                         1,398,071      $1,000.00                                                    $9.97                     $147,185,808.56
           Columbus, OH11
1/19/2011                                                                                                                                                                                          $49,100,000.00
2/6/2009                                                    $1,337,166.22                                                        $0.00
12/20/2012 Hyperion Bank,                                                           $1,008,800.00                                            1,552         $650.00       ($543,200.00)                $25,700.00
                          8,14           $1,552,000.00                                                                                                                                                                                              $327,666.22
1/11/2013 Philadelphia, PA                                                                             ($10,088.00)
3/26/2013                                                                                              ($14,912.00)
9/18/2009                                                   $6,967,738.33                                                        $0.00
              IA Bancorp, Inc.,
3/14/2014                                $5,976,000.00                              $2,717,674.70                                            2,770         $981.10         ($52,325.30)                                                             $916,227.47
              Iselin, NJ8,17
3/17/2014                                                                           $3,145,438.66                                            3,206         $981.10         ($60,561.34)              $188,397.50
5/15/2009     IBC Bancorp, Inc.,                            $4,632,216.32                                                        $0.00
                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                         $4,205,000.00                                                                                                                                                                                              $427,216.32
9/10/2010     Chicago, IL9,15,36                                                    $4,205,000.00                                         4,205,000          $1.00
12/5/2008                                                  $92,650,000.00                                                        $0.00
              Iberiabank
3/31/2009     Corporation,              $90,000,000.00                             $90,000,000.00                                           90,000       $1,000.00                                                    $70.15                       $1,450,000.00
              Lafayette, LA12,16
5/20/2009                                                                                                                                                                                           $1,200,000.00
                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                     373
                                                                                                                                                                                                                                                                                  374
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                               (CONTINUED)
                                                                                                                                               Number     Average Price                                                          Stock Price       Current
Transaction                                                                      Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                         as of      Outstanding   Dividend/Interest
Date        Institution                Investment Amount      Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4     Warrant Sales    3/31/14        Warrants     Paid to Treasury
3/27/2009     IBT Bancorp, Inc.,                                 $2,936,462.50                                                       $0.00
                                            $2,295,000.00                                                                                                                                                                                                        $526,462.50
6/12/2013     Irving, TX8,14                                                            $2,295,000.00                                            2,295       $1,000.00                                            $115,000.00
3/13/2009     IBW Financial                                      $6,453,067.00                                                       $0.00
              Corporation,                  $6,000,000.00                                                                                                                                                                          $11.25                        $453,067.00
9/3/2010      Washington, DC8,10,11                                                     $6,000,000.00                                            6,000       $1,000.00

3/6/2009      ICB Financial,                                     $7,494,458.33                                                       $0.00
                                            $6,000,000.00                                                                                                                                                                          $0.03                        $1,194,458.33
11/1/2012     Ontario, CA8,14,44                                                        $6,000,000.00                                            6,000       $1,000.00                                            $300,000.00
              Idaho Bancorp,
1/16/2009                                   $6,900,000.00         $124,305.92                                                $6,900,000.00                                                                                         $0.30                         $124,305.92
              Boise, ID8
5/22/2009                                   $6,272,000.00      $11,836,113.40                                                        $0.00
           Illinois State
12/29/2009 Bancorp, Inc.,                   $4,000,000.00                                                                                                                                                                                                       $1,158,113.40
           Chicago, IL8,14,18,44
9/22/2011                                                                              $10,272,000.00                                           10,272       $1,000.00                                            $406,000.00
1/9/2009   Independence                                          $1,394,723.17                                                       $0.00
           Bank, East                       $1,065,000.00                                                                                                                                                                                                        $276,723.17
10/16/2013 Greenwich, RI8                                                               $1,065,000.00                                            1,065       $1,000.00                                             $53,000.00

1/9/2009                                                       $81,476,093.61                                                        $0.00
              Independent Bank
4/22/2009     Corp., Rockland,            $78,158,000.00                               $78,158,000.00                                           78,158       $1,000.00                                                             $39.37                       $1,118,093.61
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




              MA11
5/27/2009                                                                                                                                                                                                        $2,200,000.00
12/12/2008 Independent Bank                                    $83,430,000.00                                                        $0.00
           Corporation, Ionia,            $72,000,000.00                                                                                                                                                                           $12.98                       $9,004,000.00
8/30/2013 MI29                                                                         $72,000,000.00                                           72,000       $1,000.00                         $2,426,000.00

4/24/2009     Indiana Bank Corp.,                                 $165,139.00                                                        $0.00
                                            $1,312,000.00                                                                                                                                                                                                        $165,139.00
4/9/2013      Dana, IN8,22,92,97                                                                                                                                           ($1,312,000.00)
12/12/2008 Indiana Community                                   $27,331,250.00                                                        $0.00
           Bancorp,                       $21,500,000.00                                                                                                                                                                           $14.91                       $4,031,250.00
9/12/2012 Columbus, IN11                                                               $21,500,000.00                                           21,500       $1,000.00                                           $1,800,000.00

2/27/2009     Integra Bank                                       $1,950,340.00                                                       $0.00
              Corporation,                $83,586,000.00                                                                                                                                                                                        7,418,876       $1,950,340.00
7/29/2011     Evansville, IN22,52,97                                                                                                                                      ($83,586,000.00)

12/19/2008 Intermountain                                       $33,944,884.23                                                        $0.00
           Community
                                          $27,000,000.00                                                                                                                                                                           $16.95          65,323       $6,944,884.23
11/20/2013 Bancorp,                                                                    $27,000,000.00                                           27,000       $1,000.00
           Sandpoint, ID
12/23/2008                                                    $261,538,649.89                                                        $0.00
7/11/2012  International                                                               $40,000,000.00                                           40,000       $1,000.00
           Bancshares
11/1/2012                                $216,000,000.00                               $45,000,000.00                                           45,000       $1,000.00                                                             $25.08                     $41,520,138.89
           Corporation,
                      11
11/28/2012 Laredo, TX                                                                 $131,000,000.00                                          131,000       $1,000.00
6/11/2013                                                                                                                                                                                                        $4,018,511.00
12/23/2008 Intervest                                           $30,035,555.56                                                        $0.00
           Bancshares
6/24/2013                                 $25,000,000.00                               $24,250,000.00                                           25,000         $970.00       ($750,000.00)                                         $7.45          691,882       $6,028,055.56
           Corporation, New
7/26/2013 York, NY                                                                                        ($242,500.00)
5/8/2009   Investors Financial                                    $174,324.60                                                        $0.00
           Corporation of
                                            $4,000,000.00                                                                                                                                                                                                        $174,324.60
10/19/2012 Pettis County, Inc.,                                                                                                                                            ($4,000,000.00)
           Sedalia, MO15,71,97
10/28/2008                                                  $26,731,202,358.00                                                       $0.00
              JPMorgan Chase
6/17/2009     & Co., New York,         $25,000,000,000.00                          $25,000,000,000.00                                         2,500,000     $10,000.00                                                             $60.71                    $795,138,888.89
              NY11
12/16/2009                                                                                                                                                                                                     $936,063,469.11
1/30/2009     Katahdin                                         $12,423,046.75                                                        $0.00
              Bankshares Corp.,           $10,449,000.00                                                                                                                                                                           $12.25                       $1,452,046.75
8/18/2011     Houlton, ME8,14,44                                                       $10,449,000.00                                           10,449       $1,000.00                                            $522,000.00

11/14/2008                                                   $2,867,222,222.22                                                       $0.00
              KeyCorp,
3/30/2011                               $2,500,000,000.00                           $2,500,000,000.00                                           25,000     $100,000.00                                                             $14.24                    $297,222,222.22
              Cleveland, OH11
4/20/2011                                                                                                                                                                                                       $70,000,000.00
3/20/2009     Kirksville Bancorp,                                 $622,228.44                                                        $0.00
                                             $470,000.00                                                                                                                                                                                                         $128,228.44
3/19/2014     Inc., Kirksville, MO8                                                       $470,000.00                                              470       $1,000.00                                             $24,000.00
8/21/2009                                                        $4,137,336.64                                                       $0.00
              KS Bancorp, Inc.,
11/30/2012                                  $4,000,000.00                               $3,308,000.00                                            4,000         $827.00       ($692,000.00)                        $140,400.00      $10.50                        $713,936.64
              Smithfield, NC8,14
1/11/2013                                                                                                  ($25,000.00)
                                                                                                                                                                                                                                                         Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                           (CONTINUED)
                                                                                                                                           Number     Average Price                                                  Stock Price       Current
Transaction                                                                  Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividend/Interest
Date        Institution              Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    3/31/14        Warrants     Paid to Treasury
2/20/2009                                $1,998,000.00      $4,818,134.50                                                        $0.00
           Lafayette Bancorp,
12/29/2009 Inc., Oxford,                 $2,453,000.00                                                                                                                                                                                               $267,134.50
           MS8,11,14,18,36
9/29/2010                                                                           $4,451,000.00                                            4,451       $1,000.00                                    $100,000.00
2/6/2009                                                   $68,260,833.33                                                        $0.00
8/4/2010                                                                           $20,000,000.00                                           20,000       $1,000.00
             Lakeland Bancorp,
3/16/2011    Inc., Oak Ridge,           $59,000,000.00                             $20,000,000.00                                           20,000       $1,000.00                                                     $11.25                       $6,460,833.33
             NJ11
2/8/2012                                                                           $19,000,000.00                                           19,000       $1,000.00
2/29/2012                                                                                                                                                                                            $2,800,000.00
2/27/2009                                                  $60,517,713.33                                                        $0.00
             Lakeland Financial
6/9/2010     Corporation,               $56,044,000.00                             $56,044,000.00                                           56,044       $1,000.00                                                     $40.22                       $3,596,156.33
             Warsaw, IN12
11/22/2011                                                                                                                                                                                            $877,557.00
12/18/2009                                                  $2,932,162.50                                                        $0.00
11/29/2012 Layton Park                                                              $2,370,930.00                                            3,000         $790.30       ($629,070.00)                $104,375.00
           Financial Group,              $3,000,000.00                                                                                                                                                                                               $481,857.50
1/11/2013 Milwaukee, WI8,14                                                                            ($23,709.29)
3/26/2013                                                                                               ($1,290.71)
1/9/2009                                                   $14,527,390.33                                                        $0.00
             LCNB Corp.,
10/21/2009                              $13,400,000.00                             $13,400,000.00                                           13,400       $1,000.00                                                     $17.30                        $524,833.33
             Lebanon, OH11
11/22/2011                                                                                                                                                                                            $602,557.00
12/23/2008 Leader Bancorp,                                  $6,731,961.06                                                        $0.00
           Inc., Arlington,              $5,830,000.00                                                                                                                                                                                               $609,961.06
11/24/2010 MA8,11,14                                                                $5,830,000.00                                            5,830       $1,000.00                                    $292,000.00

1/30/2009    Legacy Bancorp,                                  $355,079.00                                                        $0.00
             Inc., Milwaukee,            $5,498,000.00                                                                                                                                                                                               $355,079.00
3/11/2011    WI9,48,97                                                                                                                                                 ($5,498,000.00)

1/23/2009    Liberty Bancshares,                           $68,191,965.77                                                        $0.00
             Inc., Jonesboro,           $57,500,000.00                                                                                                                                                                                              $7,816,965.77
7/21/2011    AR8,14,45                                                             $57,500,000.00                                           57,500       $1,000.00                                   $2,875,000.00

2/13/2009    Liberty Bancshares,                           $25,995,452.08                                                        $0.00
             Inc., Springfield,         $21,900,000.00                                                                                                                                                                                              $3,000,452.08
8/18/2011    MO8,14,45                                                             $21,900,000.00                                           21,900       $1,000.00                                   $1,095,000.00

             Liberty Bancshares,
12/4/2009    Inc., Fort Worth,           $6,500,000.00      $1,438,136.22                                                $6,500,000.00                                                                                                              $1,438,136.22
             TX8,17
2/6/2009     Liberty Financial                              $6,106,008.58                                                        $0.00
             Services, Inc., New         $5,645,000.00                                                                                                                                                                                               $461,008.58
9/24/2010    Orleans, LA9,11,36                                                     $5,645,000.00                                            5,645       $1,000.00

             Liberty Shares,
2/20/2009                               $17,280,000.00      $1,399,560.00                                               $17,280,000.00                                                                                                              $1,399,560.00
             Inc., Hinesville, GA8
7/10/2009                                                $1,209,851,873.70                                                       $0.00
             Lincoln National
6/30/2010    Corporation,              $950,000,000.00                            $950,000,000.00                                          950,000       $1,000.00                                                     $50.67                     $46,180,554.50
             Radnor, PA11
9/22/2010                                                                                                                                                                                          $213,671,319.20
12/12/2008                                                 $26,893,046.60                                                        $0.00
             LNB Bancorp Inc.,
6/19/2012                               $25,223,000.00                             $21,923,074.91     ($328,846.12)                         25,223         $869.20     ($3,299,925.09)                                 $11.42                       $4,438,491.81
             Lorain, OH
7/18/2012                                                                                                                                                                                             $860,326.00
             Lone Star Bank,
2/6/2009                                 $3,072,000.00               $0.00                                               $3,072,000.00                                                                                                                      $0.00
             Houston, TX8
12/12/2008                                                 $16,260,000.00                                                        $0.00
           LSB Corporation,
11/18/2009 North Andover,               $15,000,000.00                             $15,000,000.00                                           15,000       $1,000.00                                                                    407,542        $700,000.00
           MA11
12/16/2009                                                                                                                                                                                            $560,000.00
6/26/2009    M&F Bancorp, Inc.,                            $12,409,762.50                                                        $0.00
                                        $11,735,000.00                                                                                                                                                                                               $674,762.50
8/20/2010    Durham, NC8,9,17                                                      $11,735,000.00                                           11,735       $1,000.00
                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




12/23/2008                                                $718,392,161.34                                                        $0.00
5/18/2011    M&T Bank                                                             $370,000,000.00                                          370,000       $1,000.00
             Corporation,              $600,000,000.00                                                                                                                                                                $121.30                    $155,027,270.00
8/21/2012    Buffalo, NY11                                                        $230,000,000.00                                          230,000       $1,000.00
12/17/2012                                                                                                                                                                                          $31,838,761.34
                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                      375
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                          (CONTINUED)                                                                                                                                                                            376
                                                                                                                                           Number     Average Price                                                     Stock Price       Current
Transaction                                                                 Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                    as of      Outstanding   Dividend/Interest
Date        Institution             Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)        Gain4   Warrant Sales    3/31/14        Warrants     Paid to Treasury
4/24/2009                                                 $13,521,828.15                                                        $0.00
             Mackinac Financial
8/29/2012    Corporation,              $11,000,000.00                             $10,538,990.00     ($158,084.85)                          11,000         $958.10       ($461,010.00)                                    $12.54                       $1,840,923.00
             Manistique, MI
12/19/2012                                                                                                                                                                                              $1,300,000.00
3/13/2009                                                  $3,773,495.65                                                        $0.00
           Madison Financial
11/19/2013 Corporation,                 $3,370,000.00                              $3,370,000.00                                             3,370       $1,022.60                         $76,195.70    $182,878.45                                    $169,421.50
           Richmond, KY8
1/6/2014                                                                                              ($25,000.00)
12/23/2008                                                $16,146,467.87                                                        $0.00
11/24/2009 Magna Bank,                                                             $3,455,000.00                                              3,455      $1,000.00
                                       $13,795,000.00                                                                                                                                                                                                  $1,661,467.87
6/8/2011   Memphis, TN8,11,44                                                      $3,455,000.00                                              3,455      $1,000.00
8/18/2011                                                                          $6,885,000.00                                             6,885       $1,000.00                                       $690,000.00
12/29/2009 Mainline Bancorp,                               $5,263,187.50                                                        $0.00
           Inc., Ebensburg,             $4,500,000.00                                                                                                                                                                     $23.70                        $538,187.50
3/9/2012   PA8,14                                                                  $4,500,000.00                                             4,500       $1,000.00                                       $225,000.00

1/16/2009                                                 $62,949,121.28                                                        $0.00
             MainSource
4/3/2012     Financial Group,          $57,000,000.00                             $53,073,270.00     ($796,099.05)                          57,000         $931.10     ($3,926,730.00)                                    $17.10                       $9,159,773.33
             Inc., Greensburg, IN
6/11/2013                                                                                                                                                                                               $1,512,177.00
12/5/2008                                                  $1,829,711.12                                                        $0.00
                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




             Manhattan Bancorp,
9/16/2009                               $1,700,000.00                              $1,700,000.00                                             1,700       $1,000.00                                                        $4.00                           $66,347.22
             El Segundo, CA11
10/14/2009                                                                                                                                                                                                $63,363.90
6/19/2009                                                  $3,438,793.11                                                        $0.00
12/10/2012 Manhattan                                                                                                                                                                                      $11,385.02
           Bancshares, Inc.,            $2,639,000.00                                                                                                                                                                                                   $770,043.86
12/11/2012 Manhattan, IL14,15                                                      $2,586,404.73                                          2,639,000          $0.98         ($52,595.27)                   $95,959.50
1/11/2013                                                                                             ($25,000.00)
             Marine Bank &
3/6/2009     Trust Company,             $3,000,000.00        $235,713.00                                                $3,000,000.00                                                                                                                   $235,713.00
             Vero Beach, FL8
             Market
             Bancorporation,
2/20/2009                               $2,060,000.00        $138,778.00                                                $2,060,000.00                                                                                                                   $138,778.00
             Inc., New Market,
             MN8
5/15/2009                                                 $24,429,245.84                                                        $0.00
8/9/2012     Market Street                                                        $17,919,962.10                                         19,931,000          $0.90     ($2,011,037.90)                   $727,225.54
             Bancshares, Inc.,         $20,300,000.00                                                                                                                                                                                                  $5,535,302.50
8/10/2012    Mt. Vernon, IL14,15                                                     $331,767.90                                           369,000           $0.90         ($37,232.10)                   $97,505.10
9/11/2012                                                                                            ($182,517.30)
12/19/2008                                                $33,835,943.42                                                        $0.00
8/7/2012                                                                           $2,530,958.50                                              3,514        $720.20       ($983,041.50)                   $142,974.56
             Marquette National
8/9/2012     Corporation,              $35,500,000.00                              $5,904,609.50                                              8,198        $720.20     ($2,293,390.50)                  $1,054,743.77    $315.00                       $7,072,586.61
             Chicago, IL8,14
8/10/2012                                                                         $17,133,307.00                                            23,788         $720.20     ($6,654,693.00)                   $252,452.23
9/11/2012                                                                                            ($255,688.75)
11/14/2008 Marshall & Ilsley                            $1,944,772,916.66                                                       $0.00
           Corporation,             $1,715,000,000.00                                                                                                                                                                                               $226,522,916.66
7/5/2011   Milwaukee, WI43                                                     $1,715,000,000.00                                          1,715,000      $1,000.00                                      $3,250,000.00

             Maryland Financial
3/27/2009                               $1,700,000.00        $313,465.50                                                $1,700,000.00                                                                                                                   $313,465.50
             Bank, Towson, MD8
12/5/2008                                                $229,613,072.00                                                        $0.00
             MB Financial Inc.,
3/14/2012                             $196,000,000.00                            $196,000,000.00                                           196,000       $1,000.00                                                        $30.96                     $32,095,000.00
             Chicago, IL11
5/2/2012                                                                                                                                                                                                $1,518,072.00
11/20/2009 McLeod                                          $6,870,433.33                                                        $0.00
           Bancshares,
                                        $6,000,000.00                                                                                                                                                                                                   $570,433.33
                  Shorewood,
8/18/2011 Inc.,8,14,45                                                             $6,000,000.00                                               600      $10,000.00                                       $300,000.00
           MN
2/27/2009                              $11,800,000.00     $24,460,674.81                                                        $0.00
           Medallion Bank,
12/22/2009 Salt Lake City,              $9,698,000.00                                                                                                                                                                                                  $2,317,674.81
           UT8,14,18,44
7/21/2011                                                                         $21,498,000.00                                            21,498       $1,000.00                                       $645,000.00
                                                                                                                                                                                                                                                Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                            (CONTINUED)
                                                                                                                                            Number     Average Price                                                Stock Price       Current
Transaction                                                                   Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution                Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    3/31/14        Warrants     Paid to Treasury
5/15/2009                                                   $31,631,120.56                                                        $0.00
4/4/2012      Mercantile Bank                                                       $10,500,000.00                                           10,500       $1,000.00
              Corporation, Grand          $21,000,000.00                                                                                                                                                              $20.62       3,166,021       $3,166,020.56
6/6/2012      Rapids, MI11                                                          $10,500,000.00                                           10,500       $1,000.00
7/3/2012                                                                                                                                                                                            $7,465,100.00
2/6/2009      Mercantile Capital                             $4,150,815.03                                                        $0.00
              Corp., Boston,               $3,500,000.00                                                                                                                                                                                            $475,815.03
8/4/2011      MA8,14,44                                                              $3,500,000.00                                            3,500       $1,000.00                                  $175,000.00

3/6/2009      Merchants and                                  $2,231,560.00                                                        $0.00
              Planters Bancshares,         $1,881,000.00                                                                                                                                                                                            $256,560.00
9/7/2011      Inc., Toone, TN8,14,56                                                 $1,881,000.00                                            1,881       $1,000.00                                   $94,000.00

6/19/2009     Merchants and                                  $4,110,668.47                                                        $0.00
              Manufacturers Bank
                                           $3,510,000.00                                                                                                                                                                                            $424,668.47
9/8/2011      Corporation, Joliet,                                                   $3,510,000.00                                            3,510       $1,000.00                                  $176,000.00
              IL8,14,44
2/13/2009                                  $6,200,000.00    $13,688,097.86                                                        $0.00
              Meridian Bank,
12/11/2009                                 $6,335,000.00                                                                                                                                                                                           $3,094,895.11
              Devon, PA8,18
3/17/2014                                                                           $10,328,152.35                                           12,535         $824.15     ($2,206,847.65)              $265,050.00
1/30/2009                                                    $8,806,297.80                                                        $0.00
10/29/2012 Metro City Bank,                                                             $26,102.90                                               29         $900.10          ($2,897.10)
                       8,14                $7,700,000.00                                                                                                                                                                                           $1,574,887.50
11/1/2012 Doraville, GA                                                              $6,904,667.10                                            7,671         $900.10       ($766,332.90)              $369,948.00
1/11/2013                                                                                               ($69,307.70)
1/16/2009                                                   $53,406,628.25                                                        $0.00
              MetroCorp
7/3/2012      Bancshares, Inc.,           $45,000,000.00                            $44,152,650.00     ($662,289.75)                         45,000         $981.20       ($847,350.00)                               $15.06                       $7,828,900.00
              Houston, TX
6/11/2013                                                                                                                                                                                           $2,087,368.00
6/26/2009     Metropolitan                                  $27,172,726.72                                                        $0.00
              Bank Group, Inc.,           $71,526,000.00                                                                                                                                                                                           $3,786,440.95
6/28/2013     Chicago, IL8,42                                                       $23,718,541.95                                           71,526         $331.60    ($47,807,458.05)

4/10/2009 Metropolitan Capital             $2,040,000.00     $1,036,234.44                                                $4,388,000.00
           Bancorp, Inc.,                                                                                                                                                                                                                          $1,036,234.44
11/20/2009 Chicago, IL8,18                 $2,348,000.00

12/19/2008                                                  $12,070,979.20                                                        $0.00
           Mid Penn Bancorp,
12/28/2012 Inc., Millersburg,             $10,000,000.00                            $10,000,000.00                                           10,000       $1,000.00                                                   $14.50          73,099       $2,012,500.00
           PA11
1/23/2013                                                                                                                                                                                             $58,479.20
1/30/2009  Middleburg                                       $23,287,945.11                                                        $0.00
           Financial
12/23/2009                                $22,000,000.00                            $22,000,000.00                                           22,000       $1,000.00                                                                                 $986,944.11
           Corporation,
                         12
11/18/2011 Middleburg, VA                                                                                                                                                                            $301,001.00
1/23/2009  Midland States                 $10,189,000.00    $11,206,989.34                                                        $0.00                                                                                                             $508,989.34
           Bancorp, Inc.,
12/23/2009 Effingham, IL8,11,14                                                     $10,189,000.00                                           10,189       $1,000.00                                  $509,000.00

1/9/2009                                                    $22,834,334.78                                                        $0.00
              MidSouth Bancorp,
8/25/2011                                 $20,000,000.00                            $20,000,000.00                                           20,000       $1,000.00                                                                                $2,627,777.78
              Inc., Lafayette, LA44
11/22/2011                                                                                                                                                                                           $206,557.00
2/27/2009                                                    $3,520,137.55                                                        $0.00
           Midtown Bank &
11/19/2013 Trust Company,                  $5,222,000.00                             $3,133,200.00                                            5,222         $600.00     ($2,088,800.00)              $136,833.05                                    $275,104.50
           Atlanta, GA8
1/6/2014                                                                                                ($25,000.00)
12/5/2008     Midwest Banc                                     $824,288.89                                                        $0.00
              Holdings, Inc.,
                                          $84,784,000.00                                                                                                                                                                           4,282,020        $824,288.89
5/14/2010     Melrose Park,                                                                                                                                            ($84,784,000.00)
              IL22,27,97
2/13/2009 Midwest Regional                                     $763,294.14                                                        $0.00
           Bancorp, Inc.,                    $700,000.00                                                                                                                                                                                              $28,294.14
11/10/2009 Festus, MO8,11,14                                                           $700,000.00                                              700       $1,000.00                                   $35,000.00
                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




2/6/2009                                                    $18,933,333.33                                                        $0.00
              MidWestOne
7/6/2011      Financial Group,            $16,000,000.00                            $16,000,000.00                                           16,000       $1,000.00                                                   $25.24                       $1,933,333.33
              Inc., Iowa City, IA11
7/27/2011                                                                                                                                                                                           $1,000,000.00
                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                     377
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                             (CONTINUED)                                                                                                                                                                         378
                                                                                                                                              Number     Average Price                                                  Stock Price       Current
Transaction                                                                    Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividend/Interest
Date        Institution              Investment Amount      Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    3/31/14        Warrants     Paid to Treasury
2/20/2009     Mid-Wisconsin                                  $12,844,226.31                                                        $0.00
              Financial Services,
                                        $10,000,000.00                                                                                                                                                                    $5.60                        $2,344,226.31
4/26/2013     Inc., Medford,                                                         $10,000,000.00                                            10,000       $1,000.00                                    $500,000.00
              WI8,11,14
4/3/2009      Millennium                                       $4,296,561.73                                                       $0.00
              Bancorp, Inc.,              $7,260,000.00                                                                                                                                                                                                $1,392,561.73
8/14/2012     Edwards, CO8                                                            $2,904,000.00                                             7,260         $400.00     ($4,356,000.00)

1/9/2009   Mission Community                                   $5,875,583.89                                                       $0.00
           Bancorp, San Luis              $5,116,000.00                                                                                                                                                                   $6.95                         $759,583.89
12/28/2011 Obispo, CA9,11                                                             $5,116,000.00                                             5,116       $1,000.00

12/23/2008 Mission Valley                                      $5,956,041.66                                                       $0.00
           Bancorp, Sun                   $5,500,000.00                                                                                                                                                                                                 $456,041.66
8/20/2010 Valley, CA9,11,36                                                           $5,500,000.00                                             5,500       $1,000.00

12/19/2008 Monadnock                                           $2,339,348.60                                                       $0.00
           Bancorp, Inc.,
                                          $1,834,000.00                                                                                                                                                                   $5.25                         $413,348.60
12/28/2012 Peterborough,                                                              $1,834,000.00                                             1,834       $1,000.00                                     $92,000.00
           NH11,8,14
2/6/2009   Monarch Community                                   $4,808,121.00                                                       $0.00
           Bancorp, Inc.,                 $6,785,000.00                                                                                                                                                                   $3.75                         $262,919.00
11/15/2013 Coldwater, MI98                                                            $4,545,202.00                                          2,272,601          $2.00     ($2,239,798.00)

12/19/2008                                                   $15,703,166.66                                                        $0.00
           Monarch Financial
                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




12/23/2009 Holdings, Inc.,              $14,700,000.00                               $14,700,000.00                                            14,700       $1,000.00                                                     $12.26                        $743,166.66
           Chesapeake, VA12,16
2/10/2010                                                                                                                                                                                                $260,000.00
3/13/2009     Moneytree                                      $11,291,481.00                                                        $0.00
              Corporation, Lenoir         $9,516,000.00                                                                                                                                                                                                $1,299,481.00
9/15/2011     City, TN8,14,45                                                         $9,516,000.00                                             9,516       $1,000.00                                    $476,000.00

1/30/2009     Monument Bank,                                   $5,623,958.50                                                       $0.00
                                          $4,734,000.00                                                                                                                                                                                                 $652,958.50
8/11/2011     Bethesda, MD8,14,44                                                     $4,734,000.00                                             4,734       $1,000.00                                    $237,000.00
10/28/2008                                                $11,268,055,555.11                                                       $0.00
              Morgan Stanley,
6/17/2009                            $10,000,000,000.00                          $10,000,000,000.00                                         10,000,000      $1,000.00                                                     $31.17                    $318,055,555.11
              New York, NY11
8/12/2009                                                                                                                                                                                             $950,000,000.00
1/16/2009     Morrill Bancshares,                            $15,429,122.22                                                        $0.00
              Inc., Merriam,            $13,000,000.00                                                                                                                                                                                                 $1,779,122.22
7/20/2011     KS8,11,14                                                              $13,000,000.00                                            13,000       $1,000.00                                    $650,000.00

1/23/2009                                                      $7,803,377.38                                                       $0.00
              Moscow
4/25/2012     Bancshares, Inc.,           $6,216,000.00                               $1,100,000.00                                             1,100       $1,000.00                                                                                  $1,276,377.38
              Moscow, TN8,11,14
12/5/2012                                                                             $5,116,000.00                                             5,116       $1,000.00                                    $311,000.00
9/25/2009                                                      $4,069,975.55                                                       $0.00
              Mountain Valley
7/22/2013     Bancshares, Inc.,           $3,300,000.00                               $3,267,000.00                                             3,300         $990.00         ($33,000.00)               $140,034.65                                    $687,940.90
              Cleveland, GA8,14
9/12/2013                                                                                                ($25,000.00)
3/27/2009  MS Financial, Inc.,                                 $9,206,289.90                                                       $0.00
                         8,11,14          $7,723,000.00                                                                                                                                                                                                $1,097,289.90
10/19/2011 Kingwood, TX                                                               $7,723,000.00                                             7,723       $1,000.00                                    $386,000.00
12/23/2008                                                   $37,608,789.00                                                        $0.00
              MutualFirst
8/25/2011     Financial, Inc.,          $32,382,000.00                               $32,382,000.00                                            32,382       $1,000.00                                                     $19.00                       $4,326,595.00
              Muncie, IN45
9/28/2011                                                                                                                                                                                                $900,194.00
3/27/2009     Naples Bancorp,                                   $956,066.67                                                        $0.00
                                          $4,000,000.00                                                                                                                                                                                                 $356,066.67
7/12/2012     Inc., Naples, FL8                                                         $600,000.00                                             4,000         $150.00     ($3,400,000.00)
11/21/2008                                                   $81,249,317.20                                                        $0.00
              Nara Bancorp, Inc.
6/27/2012                               $67,000,000.00                               $67,000,000.00                                            67,000       $1,000.00                                                                 $342,609.88
              Los Angeles, CA11,59
8/8/2012                                                                                                                                                                                                $2,189,317.20
2/27/2009                                                    $21,471,087.90                                                        $0.00
2/19/2013     National                                                                $2,438,182.50                                             3,250         $750.20       ($811,817.50)                $342,841.95
              Bancshares, Inc.,         $24,664,000.00                                                                                                                                                                                                 $2,307,492.00
2/20/2013     Bettendorf, IA8,14                                                     $16,064,996.94                                            21,414         $750.20     ($5,349,003.06)                $502,606.30
3/26/2013                                                                                               ($185,031.79)
12/12/2008                                                  $167,958,333.33                                                        $0.00
              National Penn
3/16/2011     Bancshares, Inc.,        $150,000,000.00                              $150,000,000.00                                           150,000       $1,000.00                                                     $10.45                     $16,958,333.33
              Boyertown, PA11,16
4/13/2011                                                                                                                                                                                               $1,000,000.00
                                                                                                                                                                                                                                                Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                              (CONTINUED)
                                                                                                                                              Number     Average Price                                                       Stock Price       Current
Transaction                                                                     Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                      as of      Outstanding   Dividend/Interest
Date        Institution                 Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)         Gain4    Warrant Sales    3/31/14        Warrants     Paid to Treasury
12/11/2009 Nationwide                                          $2,276,190.00                                                        $0.00
           Bankshares, Inc.,                $2,000,000.00                                                                                                                                                                                                    $176,190.00
12/29/2010 West Point, NE11,14,15                                                      $2,000,000.00                                         2,000,000          $1.00                                         $100,000.00

6/26/2009     NC Bancorp, Inc/                                 $2,613,714.23                                                        $0.00
              Metropolitan
                                            $6,880,000.00
6/28/2013     Bank Group, Inc.,                                                        $2,281,458.05                                            6,880         $331.60     ($4,598,541.95)
              Chicago, IL8,42
              NCAL Bancorp,
12/19/2008                                 $10,000,000.00      $1,311,027.78                                               $10,000,000.00                                                                                      $0.60                        $1,311,027.78
              Los Angeles, CA8
6/19/2009     NEMO Bancshares                                  $3,199,347.39                                                        $0.00
              Inc., Madison,                $2,330,000.00                                                                                                                                                                                                    $752,347.39
4/24/2013     MO11,14,15                                                               $2,330,000.00                                         2,330,000          $1.00                                         $117,000.00

1/16/2009                                                     $12,041,266.67                                                        $0.00
              New Hampshire
8/25/2011     Thrift Bancshares,           $10,000,000.00                             $10,000,000.00                                           10,000       $1,000.00                                                          $14.77                       $1,304,166.67
              Inc., Newport, NH44
2/15/2012                                                                                                                                                                                                     $737,100.00
1/9/2009      New York Private                               $346,794,005.83                                                        $0.00
              Bank & Trust
                                          $267,274,000.00                                                                                                                                                                                                 $66,156,005.83
7/24/2013     Corporation,                                                           $267,274,000.00                                          267,274       $1,000.00                                       $13,364,000.00
              New York, NY8,11,14
12/12/2008                                                    $70,087,060.35                                                        $0.00
4/26/2013                                                                              $2,709,121.50                                            2,763         $980.50         ($53,878.50)
              NewBridge
4/29/2013     Bancorp,                     $52,372,000.00                             $48,641,624.50                                           49,609         $980.50       ($967,375.50)                                      $7.14                      $11,471,039.16
              Greensboro, NC
5/15/2013                                                                                                                                                                                                    $7,778,782.65
5/31/2013                                                                                                ($513,507.46)
12/23/2008 Nicolet Bankshares,                                $17,904,842.66                                                        $0.00
           Inc., Green Bay,                $14,964,000.00                                                                                                                                                                                                   $2,192,842.66
9/1/2011   WI8,14,44                                                                  $14,964,000.00                                           14,964       $1,000.00                                         $748,000.00

1/9/2009                                                      $12,294,583.33                                                        $0.00
           North Central
12/14/2011 Bancshares, Inc.,               $10,200,000.00                             $10,200,000.00                                           10,200       $1,000.00                                                          $0.00                        $1,494,583.33
           Fort Dodge, IA11
1/11/2012                                                                                                                                                                                                     $600,000.00
12/12/2008                                                     $5,159,181.33                                                        $0.00
              Northeast Bancorp,
11/28/2012                                  $4,227,000.00                              $4,227,000.00                                            4,227       $1,000.00                                                          $9.36                         $837,181.33
              Lewiston, ME11
12/28/2012                                                                                                                                                                                                     $95,000.00
5/15/2009                                   $1,341,000.00      $2,987,782.33                                                        $0.00
           Northern State
12/18/2009 Bank, Closter,                   $1,230,000.00                                                                                                                                                                                                    $349,782.33
           NJ8,11,14,18
3/28/2012                                                                              $2,571,000.00                                            2,571       $1,000.00                                          $67,000.00
              Northern
              States Financial
2/20/2009                                  $17,211,000.00        $418,322.50                                               $17,211,000.00                                                                                      $0.36          584,084        $418,322.50
              Corporation,
              Waukegan, IL
11/14/2008                                                  $1,709,623,333.35                                                       $0.00
              Northern Trust
6/17/2009     Corporation,              $1,576,000,000.00                          $1,576,000,000.00                                         1,576,000      $1,000.00                                                          $65.56                     $46,623,333.35
              Chicago, IL11
8/26/2009                                                                                                                                                                                                   $87,000,000.00
1/30/2009     Northway Financial,                             $11,930,624.67                                                        $0.00
                                           $10,000,000.00                                                                                                                                                                      $18.50                       $1,430,624.67
9/15/2011     Inc., Berlin, NH8,14,44                                                 $10,000,000.00                                           10,000       $1,000.00                                         $500,000.00
2/13/2009                                                     $11,891,847.50                                                        $0.00
              Northwest
3/8/2013      Bancorporation,                                                          $2,000,000.00                                            2,000       $1,032.10                          $64,220.00
                                           $10,500,000.00                                                                                                                                                                                                    $575,429.50
3/11/2013     Inc., Spokane,                                                           $8,500,000.00                                            8,500       $1,032.10                         $272,935.00     $587,634.55
              WA8,14
4/9/2013                                                                                                 ($108,371.55)
2/13/2009     Northwest                                        $2,380,393.00                                                        $0.00
              Commercial Bank,              $1,992,000.00                                                                                                                                                                                                    $288,393.00
1/9/2013      Lakewood, WA11,8,14                                                      $1,992,000.00                                            1,992       $1,000.00                                         $100,000.00
                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




1/30/2009                                                      $8,592,336.00                                                        $0.00
10/31/2012 Oak Ridge Financial                                                         $7,095,550.00                                            7,700         $921.50       ($604,450.00)
           Services, Inc., Oak              $7,700,000.00                                                                                                                                                                      $6.92          163,830       $1,444,854.00
1/11/2013 Ridge, NC                                                                                       ($70,955.50)
2/6/2013                                                                                                                                                                                                      $122,887.50
                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                              379
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                         (CONTINUED)                                                                                                                                                                              380
                                                                                                                                         Number     Average Price                                                        Stock Price       Current
Transaction                                                                Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                       as of      Outstanding   Dividend/Interest
Date        Institution             Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4   Warrant Sales    3/31/14        Warrants     Paid to Treasury
12/5/2008                                                $15,871,250.00                                                        $0.00
              Oak Valley Bancorp,
8/11/2011                              $13,500,000.00                            $13,500,000.00                                           13,500       $1,000.00                                                           $9.41                        $1,811,250.00
              Oakdale, CA45
9/28/2011                                                                                                                                                                                                 $560,000.00
1/16/2009                                                $40,521,918.61                                                        $0.00
           OceanFirst
12/30/2009 Financial Corp.,            $38,263,000.00                            $38,263,000.00                                           38,263       $1,000.00                                                           $17.69                       $1,828,121.61
           Toms River, NJ12,16
2/3/2010                                                                                                                                                                                                  $430,797.00
1/30/2009     Ojai Community                              $2,654,758.89                                                        $0.00
                                        $2,080,000.00                                                                                                                                                                      $6.10                         $470,758.89
9/25/2013     Bank, Ojai, CA8                                                     $2,080,000.00                                            2,080       $1,000.00                                          $104,000.00
12/5/2008                                                 $7,438,888.89                                                        $0.00
              Old Line
7/15/2009     Bancshares, Inc.,         $7,000,000.00                             $7,000,000.00                                            7,000       $1,000.00                                                           $17.25                        $213,888.89
              Bowie, MD11
9/2/2009                                                                                                                                                                                                  $225,000.00
12/12/2008                                              $102,713,888.89                                                        $0.00
              Old National
3/31/2009     Bancorp,                $100,000,000.00                           $100,000,000.00                                          100,000       $1,000.00                                                           $14.91                       $1,513,888.89
              Evansville, IN11
5/8/2009                                                                                                                                                                                                 $1,200,000.00
1/16/2009                                                $31,423,238.49                                                        $0.00
3/11/2013                                                                        $24,684,870.00                                           70,028         $352.50    ($45,343,130.00)
                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




3/26/2013     Old Second                                                            $452,424.00                                            1,200         $377.00       ($747,576.00)
              Bancorp, Inc.,           $73,000,000.00                                                                                                                                                                      $4.60                        $5,769,027.78
3/27/2013     Aurora, IL                                                            $668,079.44                                            1,772         $377.00     ($1,103,920.56)
4/9/2013                                                                                            ($258,053.73)
6/11/2013                                                                                                                                                                                                 $106,891.00
4/17/2009                                                 $3,403,603.15                                                        $0.00
7/19/2013     Omega Capital                                                       $1,239,000.00                                            1,239       $1,142.90                          $177,053.10
              Corp., Lakewood,          $2,816,000.00                                                                                                                                                                                                      $50,310.50
7/22/2013     CO8,14                                                              $1,577,000.00                                            1,577       $1,142.90                          $225,353.30     $159,886.25
9/12/2013                                                                                            ($25,000.00)
5/8/2009      One Georgia Bank,                                    $0.00                                                       $0.00
                                        $5,500,000.00
7/15/2011     Atlanta, GA8,51,97                                                                                                                                     ($5,500,000.00)
              OneUnited Bank,
12/19/2008                             $12,063,000.00        $93,823.33                                               $12,063,000.00                                                                                                                       $93,823.33
              Boston, MA8,9
              OneFinancial
6/5/2009      Corporation, Little      $17,300,000.00     $3,782,990.59                                               $17,300,000.00                                                                                                                    $3,782,990.59
              Rock, AR15,17
4/24/2009                                                 $4,116,801.92                                                        $0.00
10/18/2013 Oregon Bancorp,                                                          $100,000.00                                              100       $1,000.00                                            $9,459.13
                          8             $3,216,000.00                                                                                                                                                                      $11.10                        $787,354.72
10/21/2013 Inc., Salem, OR                                                        $3,116,000.00                                            3,116       $1,000.00                                          $128,988.07
1/6/2014                                                                                             ($25,000.00)
5/1/2009      OSB Financial                               $7,662,314.53                                                        $0.00
              Services, Inc.,           $6,100,000.00                                                                                                                                                                                                   $1,257,314.53
10/5/2011     Orange, TX11,14,15                                                  $6,100,000.00                                         6,100,000          $1.00                                          $305,000.00

11/21/2008                                              $168,483,804.20                                                        $0.00
              Pacific Capital
2/23/2011     Bancorp, Santa          $180,634,000.00                                     $14.75                                               1          $29.50             ($10.28)                                      $45.98                       $2,107,396.67
              Barbara, CA11,35
11/30/2012                                                                      $165,983,272.00                                         3,608,332         $46.00    ($14,650,702.97)                      $393,120.78
12/19/2008                                               $21,003,597.96                                                        $0.00
           Pacific City Financial
11/19/2013 Corporation, Los            $16,200,000.00                            $16,200,000.00                                           16,200       $1,215.20                         $3,485,754.00   $1,156,636.50                                   $358,065.00
           Angeles, CA8
1/6/2014                                                                                            ($196,857.54)
12/23/2008 Pacific Coast                                 $13,821,963.89                                                        $0.00
           Bankers’
                                       $11,600,000.00                                                                                                                                                                                                   $1,641,963.89
7/28/2011 Bancshares, San                                                        $11,600,000.00                                           11,600       $1,000.00                                          $580,000.00
           Francisco, CA8,14,45
1/16/2009     Pacific Coast                                  $18,087.94                                                        $0.00
              National Bancorp,
                                        $4,120,000.00                                                                                                                                                                      $0.00                           $18,087.94
2/11/2010     San Clemente,                                                                                                                                          ($4,120,000.00)
              CA8,26
12/23/2008                                                $2,991,670.80                                                        $0.00
              Pacific Commerce
2/10/2014     Bank, Los Angeles,        $4,060,000.00                             $2,519,960.80                                            4,060         $620.70     ($1,540,039.20)                      $109,487.50      $4.53                         $387,222.50
              CA8
3/19/2014                                                                                            ($25,000.00)
                                                                                                                                                                                                                                                 Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                           (CONTINUED)
                                                                                                                                           Number     Average Price                                                      Stock Price       Current
Transaction                                                                  Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                     as of      Outstanding   Dividend/Interest
Date        Institution               Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)         Gain4   Warrant Sales    3/31/14        Warrants     Paid to Treasury
12/12/2008 Pacific International                            $7,937,744.97                                                        $0.00
           Bancorp, Seattle,              $6,500,000.00                                                                                                                                                                    $17.14          18,393
2/15/2013 WA85                                                                      $6,500,000.00                                            6,500       $1,000.00

3/6/2009                                                   $22,020,064.10                                                        $0.00
8/7/2012                                                                            $1,676,654.00                                            2,296         $730.20       ($619,346.00)                     $88,059.01
              Park
8/9/2012      Bancorporation,            $23,200,000.00                             $4,048,506.00                                            5,544         $730.20     ($1,495,494.00)                    $482,779.69                                   $4,351,643.00
              Inc., Madison, WI8,14
8/10/2012                                                                          $11,216,640.00                                           15,360         $730.20     ($4,143,360.00)                    $325,200.40
9/11/2012                                                                                             ($169,418.00)
12/23/2008                                                $119,536,844.44                                                        $0.00
              Park National
4/25/2012     Corporation,              $100,000,000.00                           $100,000,000.00                                          100,000       $1,000.00                                                         $76.89                     $16,694,444.44
              Newark, OH11
5/2/2012                                                                                                                                                                                                 $2,842,400.00
1/30/2009                                                  $16,365,554.76                                                        $0.00
11/28/2012                                                                            $394,072.28                                              548         $719.10       ($153,927.72)
              Parke Bancorp,
11/29/2012                               $16,288,000.00                            $11,318,791.40                                           15,740         $719.10     ($4,421,208.60)                                     $11.10         438,906       $3,119,531.72
              Inc., Sewell, NJ
1/11/2013                                                                                             ($117,128.64)
6/12/2013                                                                                                                                                                                                $1,650,288.00
12/23/2008 Parkvale Financial                              $36,570,413.89                                                        $0.00
           Corpoation/F.N.B.
                                         $31,762,000.00                                                                                                                                                                                   342,564
1/3/2012   Corporation,                                                            $31,762,000.00                                           31,762       $1,000.00
           Monroeville, PA60
2/6/2009   Pascack Bancorp,                                 $4,497,312.67                                                        $0.00
           Inc. (Pascack
                                          $3,756,000.00                                                                                                                                                                                                  $553,312.67
10/19/2011 Community Bank),                                                         $3,756,000.00                                            3,756       $1,000.00                                        $188,000.00
           Westwood, NJ8,11,21
              Patapsco Bancorp,
12/19/2008                                $6,000,000.00       $377,866.67                                                $6,000,000.00                                                                                     $2.40                         $377,866.67
              Inc., Dundalk, MD8
9/11/2009                                                   $7,976,328.84                                                        $0.00
              Pathfinder Bancorp,
9/1/2011                                  $6,771,000.00                             $6,771,000.00                                            6,771       $1,000.00                                                         $14.41                        $667,695.84
              Inc., Oswego, NY44
2/1/2012                                                                                                                                                                                                  $537,633.00
3/27/2009                                                   $4,628,862.77                                                        $0.00
              Pathway Bancorp,
6/24/2013                                 $3,727,000.00                             $3,727,000.00                                            3,727       $1,167.00                         $622,446.27    $226,565.00                                      $77,851.50
              Cairo, NE8,14
7/26/2013                                                                                              ($25,000.00)
              Patriot Bancshares,
12/19/2008                               $26,038,000.00     $2,704,135.78                                               $26,038,000.00                                                                                                                  $2,704,135.78
              Inc., Houston, TX8
4/17/2009                                                   $4,692,022.77                                                        $0.00
3/7/2012                                                                              $250,000.00                                              250       $1,000.00
8/22/2012     Patterson                                                               $250,000.00                                              250       $1,000.00
              Bancshares, Inc,            $3,690,000.00                                                                                                                                                                                                  $817,022.77
12/5/2012     Patterson, LA8,11,14                                                    $250,000.00                                              250       $1,000.00
5/8/2013                                                                              $500,000.00                                              500       $1,000.00
6/5/2013                                                                            $2,440,000.00                                            2,440       $1,000.00                                        $185,000.00
1/9/2009                                                   $32,075,739.67                                                        $0.00
1/6/2010      Peapack-Gladstone                                                     $7,172,000.00                                            7,172       $1,000.00
              Financial
3/2/2011                                 $28,685,000.00                             $7,172,000.00                                            7,172       $1,000.00                                                         $22.00                       $3,280,739.67
              Corporation,
1/11/2012     Gladstone, NJ11                                                      $14,341,000.00                                           14,341       $1,000.00
4/4/2012                                                                                                                                                                                                  $110,000.00
4/17/2009     Penn Liberty                                 $11,745,689.33                                                        $0.00
              Financial Corp.,            $9,960,000.00                                                                                                                                                                                                 $1,287,689.33
9/1/2011      Wayne, PA8,14,44                                                      $9,960,000.00                                            9,960       $1,000.00                                        $498,000.00

1/30/2009                                                  $44,926,557.48                                                        $0.00
2/2/2011   Peoples Bancorp                                                         $21,000,000.00                                           21,000       $1,000.00
                             11          $39,000,000.00                                                                                                                                                                    $24.73                       $4,725,833.33
                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




12/28/2011 Inc., Marietta, OH                                                      $18,000,000.00                                           18,000       $1,000.00
2/15/2012                                                                                                                                                                                                $1,200,724.15
2/13/2009     Peoples Bancorp                              $21,325,250.00                                                        $0.00
              (WA), Lynden,              $18,000,000.00                                                                                                                                                                                                 $2,425,250.00
8/3/2011      WA8,14,56                                                            $18,000,000.00                                           18,000       $1,000.00                                        $900,000.00

                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                          381
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                            (CONTINUED)                                                                                                                                                                              382
                                                                                                                                            Number     Average Price                                                        Stock Price       Current
Transaction                                                                   Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                       as of      Outstanding   Dividend/Interest
Date        Institution                Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)           Gain4   Warrant Sales    3/31/14        Warrants     Paid to Treasury
12/23/2008                                                  $27,877,966.16                                                        $0.00
              Peoples Bancorp
7/3/2012      of North Carolina,          $25,054,000.00                            $23,384,401.44     ($350,766.02)                         25,054         $933.40     ($1,669,598.56)                                       $15.60                       $4,419,330.74
              Inc., Newton, NC
8/8/2012                                                                                                                                                                                                     $425,000.00
4/24/2009     Peoples                                       $15,362,909.75                                                        $0.00
              Bancorporation,             $12,660,000.00                                                                                                                                                                                                   $2,069,909.75
4/24/2012     Inc., Easley, SC8,14                                                  $12,660,000.00                                           12,660       $1,000.00                                          $633,000.00

3/20/2009     Peoples                                        $3,809,874.42                                                        $0.00
              Bancshares of TN,
10/31/2012                                 $3,900,000.00                             $2,944,500.00                                            3,900         $755.00       ($955,500.00)                      $122,225.00                                    $768,149.42
              Inc, Madisonville,
1/11/2013     TN8,14                                                                                    ($25,000.00)
3/6/2009      PeoplesSouth                                  $15,985,994.66                                                        $0.00
              Bancshares, Inc.,           $12,325,000.00                                                                                                                                                                                                   $3,044,994.66
9/18/2013     Colquitt, GA8                                                         $12,325,000.00                                           12,325       $1,000.00                                          $616,000.00

9/11/2009     PFSB                                           $1,730,162.66                                                        $0.00
              Bancorporation,
                                           $1,500,000.00                                                                                                                                                                                                    $159,162.66
8/25/2011     Inc., Pigeon Falls,                                                    $1,500,000.00                                            1,500       $1,000.00                                           $71,000.00
              WI8,17,45
2/6/2009      PGB Holdings, Inc.,                            $3,227,916.67                                                        $0.00
                                           $3,000,000.00                                                                                                                                                                                                    $227,916.67
8/13/2010     Chicago, IL9,11,36                                                     $3,000,000.00                                            3,000       $1,000.00
                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




1/23/2009     Pierce County                                    $207,947.78                                                        $0.00
              Bancorp, Tacoma,             $6,800,000.00                                                                                                                                                                                                    $207,947.78
11/5/2010     WA8,46,97                                                                                                                                                 ($6,800,000.00)

              Pinnacle Bank
              Holding Company,
3/6/2009                                   $4,389,000.00       $284,999.00                                                $4,389,000.00                                                                                                      267,455        $284,999.00
              Inc., Orange City,
              FL8,69
12/12/2008                                                 $111,918,194.45                                                        $0.00
12/28/2011 Pinnacle Financial                                                       $23,750,000.00                                           23,750       $1,000.00
           Partners, Inc.,                $95,000,000.00                                                                                                                                                                      $37.49                     $16,163,194.45
6/20/2012 Nashville, TN11                                                           $71,250,000.00                                           71,250       $1,000.00
7/18/2012                                                                                                                                                                                                    $755,000.00
12/19/2008 Plains Capital                                  $105,252,939.77                                                        $0.00
           Corporation, Dallas,           $87,631,000.00                                                                                                                                                                                                 $13,239,939.77
9/27/2011 TX8,14,44                                                                 $87,631,000.00                                           87,631       $1,000.00                                         $4,382,000.00

7/17/2009                                                    $3,103,618.40                                                        $0.00
4/26/2013     Plato Holdings Inc.,                                                     $120,000.00                                          120,000           $1.00                              $180.00
                                           $2,500,000.00                                                                                                                                                                                                    $534,285.93
4/29/2013     Saint Paul, MN15,17                                                    $2,380,000.00                                         2,380,000          $1.00                            $3,570.00      $90,582.47
5/31/2013                                                                                               ($25,000.00)
1/30/2009                                                   $13,764,140.41                                                        $0.00
4/29/2013     Plumas Bancorp,                                                       $11,949,000.00                                           11,949       $1,091.10                         $1,088,673.39
                                          $11,949,000.00                                                                                                                                                                      $6.22                         $622,343.75
5/22/2013     Quincy, CA                                                                                                                                                                                     $234,500.00
5/31/2013                                                                                              ($130,376.73)
              Popular, Inc., San
12/5/2008                                $935,000,000.00   $250,256,250.00                                              $935,000,000.00                                                                                       $30.99       2,093,284    $237,256,250.00
              Juan, PR20
           Porter Bancorp
11/21/2008                                $35,000,000.00     $4,783,333.33                                               $35,000,000.00                                                                                       $1.17          330,561       $4,783,333.33
           Inc., Louisville, KY
              Prairie Star
4/3/2009      Bancshares, Inc.,            $2,800,000.00       $132,253.00                                                $2,800,000.00                                                                                                                     $132,253.00
              Olathe, KS8
5/8/2009      Premier Bancorp,                               $7,444,215.12                                                        $0.00
              Inc., Wilmette,              $6,784,000.00                                                                                                                                                                                                    $660,215.12
8/13/2010     IL9,15,36                                                              $6,784,000.00                                         6,784,000          $1.00

3/20/2009     Premier Bank                                     $467,412.50                                                        $0.00
              Holding Company,             $9,500,000.00                                                                                                                                                                                                    $467,412.50
8/14/2012     Tallahassee, FL8,22,97                                                                                                                                    ($9,500,000.00)

10/2/2009                                                   $23,052,240.29                                                        $0.00
8/8/2012                                                                             $1,678,618.89                                            1,863         $901.00       ($184,381.11)
              Premier Financial
8/9/2012      Bancorp, Inc.,              $22,252,000.00                             $8,575,102.51                                            9,517         $901.00       ($941,897.49)                                       $14.34         628,588       $3,203,017.93
              Huntington, WV
8/10/2012                                                                            $9,795,998.16                                           10,872         $901.00     ($1,076,001.84)
9/11/2012                                                                                              ($200,497.20)
                                                                                                                                                                                                                                                    Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                         (CONTINUED)
                                                                                                                                         Number     Average Price                                                         Stock Price       Current
Transaction                                                                Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                        as of      Outstanding   Dividend/Interest
Date        Institution             Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)            Gain4   Warrant Sales    3/31/14        Warrants     Paid to Treasury
5/22/2009                                                 $8,778,669.11                                                        $0.00
              Premier Financial
7/22/2013     Corp, Dubuque,            $6,349,000.00                             $6,349,000.00                                         6,349,000          $1.24                          $1,507,379.58    $478,590.75                                    $522,262.58
              IA14,15
9/12/2013                                                                                            ($78,563.80)
2/20/2009     Premier Service                             $4,300,522.22                                                        $0.00
              Bank, Riverside,          $4,000,000.00                                                                                                                                                                       $6.30                         $100,522.22
1/31/2014     CA8                                                                 $4,000,000.00                                            4,000       $1,000.00                                           $200,000.00

2/13/2009     PremierWest                                $42,446,500.00                                                        $0.00
              Bancorp, Medford,        $41,400,000.00                                                                                                                                                                       $0.03                        $1,046,500.00
4/9/2013      OR80                                                               $41,400,000.00                                           41,400       $1,000.00

11/20/2009                                               $11,077,694.89                                                        $0.00
12/10/2012 Presidio Bank, San                                                       $262,635.10                                              310         $847.20         ($47,364.90)                       $83,086.12
                        8,17           $10,800,000.00                                                                                                                                                                       $11.05                       $1,740,944.25
12/11/2012 Francisco, CA                                                          $8,887,232.90                                           10,490         $847.20     ($1,602,767.10)                       $195,295.20
1/11/2013                                                                                            ($91,498.68)
1/23/2009     Princeton National                          $2,271,405.00                                                        $0.00
              Bancorp, Inc.,           $25,083,000.00                                                                                                                                                                       $0.01          155,025       $2,271,405.00
11/2/2012     Princeton, IL75,97                                                                                                                                    ($25,083,000.00)

2/27/2009 Private                       $4,960,000.00       $498,859.56                                                $8,222,000.00
           Bancorporation,
                                                                                                                                                                                                                                                          $498,859.56
12/29/2009 Inc.,8,18Minneapolis,        $3,262,000.00
           MN
1/30/2009                                               $290,552,132.92                                                        $0.00
              PrivateBancorp,
10/24/2012                            $243,815,000.00                           $243,815,000.00                                          243,815       $1,000.00                                                            $30.51                     $45,512,132.92
              Inc., Chicago, IL12
11/14/2012                                                                                                                                                                                                $1,225,000.00
10/2/2009     Providence Bank,                            $4,596,311.80                                                        $0.00
              Rocky Mount,              $4,000,000.00                                                                                                                                                                                                     $421,311.80
9/15/2011     NC8,17,44                                                           $4,000,000.00                                            4,000       $1,000.00                                           $175,000.00

11/14/2008                                              $199,100,113.41                                                        $0.00
              Provident
8/21/2012     Banshares                                                         $151,500,000.00                                          151,500       $1,000.00
              Corp./M&T Bank          $151,500,000.00
3/20/2013     Corporation,                                                                                                                                                                      $71.62
              Baltimore, MD88
3/25/2013                                                                                                                                                                                $19,047,005.12
              Provident
              Community
3/13/2009                               $9,266,000.00       $543,091.00                                                $9,266,000.00                                                                                        $0.74          178,880        $543,091.00
              Bancshares, Inc.,
              Rock Hill, SC
2/27/2009     PSB Financial                              $10,536,802.00                                                        $0.00
              Corporation, Many,        $9,270,000.00                                                                                                                                                                                                     $802,802.00
9/29/2010     LA8,11,14                                                           $9,270,000.00                                            9,270       $1,000.00                                           $464,000.00

1/16/2009     Puget Sound Bank,                           $5,355,156.75                                                        $0.00
                                        $4,500,000.00                                                                                                                                                                       $13.50                        $630,156.75
8/11/2011     Bellevue, WA8,14,44                                                 $4,500,000.00                                            4,500       $1,000.00                                           $225,000.00
1/16/2009                                                $35,195,847.13                                                        $0.00
              Pulaski Financial
7/3/2012      Corp, Creve              $32,538,000.00                            $28,893,744.00     ($433,406.16)                         32,538         $888.00     ($3,644,256.00)                                        $10.55                       $5,635,509.29
              Coeur, MO
8/8/2012                                                                                                                                                                                                  $1,100,000.00
2/13/2009                                                $44,286,567.33                                                        $0.00
              QCR Holdings, Inc.,
9/15/2011                              $38,237,000.00                            $38,237,000.00                                           38,237       $1,000.00                                                            $17.16                       $4,949,567.33
              Moline, IL44
11/16/2011                                                                                                                                                                                                $1,100,000.00
10/30/2009 Randolph Bank &                                $7,190,593.33                                                        $0.00
           Trust Company,               $6,229,000.00                                                                                                                                                                                                     $650,593.33
9/30/2013  Asheboro, NC8                                                          $6,229,000.00                                            6,229       $1,000.00                                           $311,000.00

6/19/2009                                                 $9,139,863.61                                                        $0.00
              RCB Financial
9/25/2013     Corporation, Rome,        $8,900,000.00                             $8,073,279.00                                            8,900         $907.10       ($826,721.00)                       $253,383.25                                    $893,934.15
              GA8,17
10/29/2013                                                                                           ($80,732.79)
1/16/2009     Redwood Capital                             $4,510,626.39                                                        $0.00
              Bancorp, Eureka,          $3,800,000.00                                                                                                                                                                       $9.90                         $520,626.39
                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




7/21/2011     CA8,14,44                                                           $3,800,000.00                                            3,800       $1,000.00                                           $190,000.00

1/9/2009      Redwood Financial                           $3,570,810.92                                                        $0.00
              Inc., Redwood             $2,995,000.00                                                                                                                                                                       $28.00                        $425,810.92
8/18/2011     Falls, MN8,14,44                                                    $2,995,000.00                                            2,995       $1,000.00                                           $150,000.00

              Regent Bancorp,
3/6/2009                                $9,982,000.00       $784,281.50                                                $9,982,000.00                                                                                                                      $784,281.50
              Inc., Davie, FL8
                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                           383
                                                                                                                                                                                                                                                                             384
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                            (CONTINUED)
                                                                                                                                             Number     Average Price                                                       Stock Price       Current
Transaction                                                                   Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                      as of      Outstanding   Dividend/Interest
Date        Institution               Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)         Gain4    Warrant Sales    3/31/14        Warrants     Paid to Treasury
2/27/2009    Regent Capital                                  $3,135,328.00                                                        $0.00
             Corporation,                 $2,655,000.00                                                                                                                                                                                                     $347,328.00
7/21/2011    Nowata, OK8,14,44                                                       $2,655,000.00                                             2,655       $1,000.00                                         $133,000.00

10/23/2009 Regents                                          $14,594,338.99                                                        $0.00
           Bancshares, Inc.,             $12,700,000.00                                                                                                                                                                                                    $1,513,338.99
1/26/2012 Vancouver, WA8,17,62                                                      $12,700,000.00                                            12,700       $1,000.00                                         $381,000.00

2/13/2009                                                    $1,718,159.50                                                        $0.00
11/8/2012                                                                              $246,975.00                                               267         $925.00         ($20,025.00)
             Regional
11/9/2012    Bankshares, Inc.,            $1,500,000.00                              $1,140,525.00                                             1,233         $925.00         ($92,475.00)                     $50,000.00                                    $305,659.50
             Hartsville, SC8,14
1/11/2013                                                                                               ($13,875.00)
3/26/2013                                                                                               ($11,125.00)
11/14/2008                                                $4,138,055,555.55                                                       $0.00
             Regions Financial
4/4/2012     Corporation,             $3,500,000,000.00                          $3,500,000,000.00                                          3,500,000      $1,000.00                                                          $11.11                    $593,055,555.55
             Birmingham, AL11
5/2/2012                                                                                                                                                                                                   $45,000,000.00
2/13/2009                                                   $45,820,950.80                                                        $0.00
             Reliance
9/25/2013    Bancshares, Inc.,           $40,000,000.00                             $40,000,000.00                                            40,000       $1,004.90                         $196,000.00    $2,199,799.80     $2.00                        $3,827,111.00
             Frontenac, MO8
                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




10/29/2013                                                                                             ($401,960.00)
2/27/2009    Ridgestone                                      $9,630,106.93                                                        $0.00
             Financial Services,
2/20/2013                                $10,900,000.00                              $8,966,340.00                                            10,900         $822.60     ($1,933,660.00)                     $476,206.83                                    $277,223.50
             Inc., Brookfield,
3/26/2013    WI8,14                                                                                     ($89,663.40)
             Rising Sun
1/9/2009     Bancorp, Rising              $5,983,000.00        $195,637.00                                                $5,983,000.00                                                                                                                     $195,637.00
             Sun, MD8
6/12/2009    River Valley                                   $19,928,275.00                                                        $0.00
             Bancorporation,
6/6/2012                                 $15,000,000.00                             $10,500,000.00                                         10,500,000          $1.00                                                          $26.99                       $4,178,275.00
             Inc., Wausau,
5/15/2013    WI11,14,15                                                              $4,500,000.00                                          4,500,000          $1.00                                         $750,000.00
             Riverside
5/15/2009    Bancshares, Inc.,            $1,100,000.00        $392,232.50                                                $1,100,000.00                                                                                                                     $392,232.50
             Little Rock, AR15
1/30/2009    Rogers                                            $738,021.00                                                        $0.00
             Bancshares, Inc.,           $25,000,000.00                                                                                                                                                                                                     $738,021.00
7/5/2013     Little Rock, AR8,95,97                                                                                                                                     ($25,000,000.00)

             Royal Bancshares
2/20/2009    of Pennsylvania,            $30,407,000.00        $358,971.00                                               $30,407,000.00                                                                                       $3.30        1,104,370        $358,971.00
             Inc., Narberth, PA
1/16/2009                                                  $124,916,099.34                                                        $0.00
             S&T Bancorp,
12/7/2011                               $108,676,000.00                            $108,676,000.00                                           108,676       $1,000.00                                                          $23.70                     $15,712,738.34
             Indiana, PA11
6/11/2013                                                                                                                                                                                                    $527,361.00
           Saigon National
12/23/2008 Bank, Westminster,             $1,549,000.00               $0.00                                               $1,549,000.00                                                                                       $0.18                                $0.00
           CA8
3/13/2009                                                   $10,100,960.44                                                        $0.00
             Salisbury Bancorp,
8/25/2011                                 $8,816,000.00                              $8,816,000.00                                             8,816       $1,000.00                                                          $26.86                       $1,079,960.44
             Inc., Lakeville, CT44
11/2/2011                                                                                                                                                                                                    $205,000.00
12/5/2008                                                   $95,137,868.33                                                        $0.00
7/21/2010  Sandy Spring                                                             $41,547,000.00                                            41,547       $1,000.00
           Bancorp, Inc.,                $83,094,000.00                                                                                                                                                                       $24.98                       $7,593,868.33
12/15/2010 Olney, MD11,44                                                           $41,547,000.00                                            41,547       $1,000.00
2/23/2011                                                                                                                                                                                                   $4,450,000.00
2/13/2009                                                    $2,697,208.51                                                        $0.00
             Santa Clara Valley
3/8/2013     Bank, N.A., Santa            $2,900,000.00                              $2,465,029.00                                             2,900         $850.00       ($434,971.00)                      $98,251.45      $5.65                         $158,928.06
             Paula, CA8,14
4/9/2013                                                                                                ($25,000.00)
12/19/2008 Santa Lucia                                       $3,131,111.11                                                        $0.00
           Bancorp,                       $4,000,000.00                                                                                                                                                                       $6.95                         $331,111.11
10/21/2011 Atascadero, CA                                                            $2,800,000.00                                             4,000         $700.00     ($1,200,000.00)

3/27/2009    SBT Bancorp, Inc.,                              $4,717,144.78                                                        $0.00
                                          $4,000,000.00                                                                                                                                                                                                     $517,144.78
8/11/2011    Simsbury, CT8,14,44                                                     $4,000,000.00                                             4,000       $1,000.00                                         $200,000.00
                                                                                                                                                                                                                                                    Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                             (CONTINUED)
                                                                                                                                              Number     Average Price                                                         Stock Price       Current
Transaction                                                                    Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                        as of      Outstanding   Dividend/Interest
Date        Institution                 Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)           Gain4    Warrant Sales    3/31/14        Warrants     Paid to Treasury
1/16/2009                                                    $67,294,638.84                                                        $0.00
             SCBT Financial
5/20/2009    Corporation,                  $64,779,000.00                            $64,779,000.00                                            64,779       $1,000.00                                                            $62.62                       $1,115,638.84
             Columbia, SC11
6/24/2009                                                                                                                                                                                                      $1,400,000.00
12/19/2008                                                   $49,045,470.38                                                        $0.00
             Seacoast Banking
4/3/2012     Corporation of                $50,000,000.00                            $41,020,000.00     ($615,300.00)                            2,000     $20,510.00     ($8,980,000.00)                                        $11.00                       $8,585,770.38
             Florida, Stuart, FL
5/30/2012                                                                                                                                                                                                        $55,000.00
12/23/2008 Seacoast                                           $2,153,780.00                                                        $0.00
           Commerce Bank,
                                            $1,800,000.00                                                                                                                                                                        $9.00                         $263,780.00
9/1/2011   Chula Vista,                                                               $1,800,000.00                                             1,800       $1,000.00                                            $90,000.00
           CA8,14,44
2/13/2009                                                     $1,983,756.24                                                        $0.00
12/10/2012 Security                                                                     $174,537.72                                               252         $692.60         ($77,462.28)
           Bancshares of
12/11/2012 Pulaski County,                  $2,152,000.00                             $1,315,959.00                                             1,900         $692.60       ($584,041.00)                        $69,186.80                                    $449,072.72
           Inc., Waynesville,
1/11/2013 MO8,14                                                                                         ($14,904.97)
3/26/2013                                                                                                ($10,095.03)
1/9/2009     Security Business                                $6,888,017.86                                                        $0.00
             Bancorp, San                   $5,803,000.00                                                                                                                                                                                                      $795,017.86
7/14/2011    Diego, CA8,14,44                                                         $5,803,000.00                                             5,803       $1,000.00                                           $290,000.00

1/9/2009     Security California                              $8,152,698.33                                                        $0.00
             Bancorp, Riverside,            $6,815,000.00                                                                                                                                                                        $10.15                        $996,698.33
9/15/2011    CA8,14,44                                                                $6,815,000.00                                             6,815       $1,000.00                                           $341,000.00

6/26/2009    Security Capital                                $19,063,111.00                                                        $0.00
             Corporation,                  $17,388,000.00                                                                                                                                                                                                     $1,153,111.00
9/29/2010    Batesville, MS8,11,14,36                                                $17,388,000.00                                            17,388       $1,000.00                                           $522,000.00

12/19/2008                                                   $19,650,000.00                                                        $0.00
             Security Federal
9/29/2010    Corporation, Aiken,           $18,000,000.00                            $18,000,000.00                                            18,000       $1,000.00                                                            $12.93                       $1,600,000.00
             SC11,36
7/31/2013                                                                                                                                                                                                        $50,000.00
2/20/2009    Security State                                  $14,888,679.86                                                        $0.00
             Bancshares,
                                           $12,500,000.00                                                                                                                                                                                                     $1,763,679.86
9/22/2011    Inc., Charleston,                                                       $12,500,000.00                                            12,500       $1,000.00                                           $625,000.00
             MO8,14,44
5/1/2009                                                     $14,543,635.13                                                        $0.00
             Security State Bank
6/24/2013    Holding-Company,              $10,750,000.00                            $10,750,000.00                                         10,750,000          $1.17                         $1,784,607.50     $720,368.55                                   $1,414,005.16
             Jamestown, ND14,15
7/26/2013                                                                                               ($125,346.08)
11/21/2008                                                   $26,915,463.85                                                        $0.00
             Severn Bancorp,
9/25/2013                                  $23,393,000.00                            $23,367,267.70                                            23,393         $998.90         ($25,732.30)                                       $4.55          556,976       $3,781,868.83
             Inc., Annapolis, MD
10/29/2013                                                                                              ($233,672.68)
1/9/2009                                                     $25,358,333.33                                                        $0.00
             Shore Bancshares,
4/15/2009                                  $25,000,000.00                            $25,000,000.00                                            25,000       $1,000.00                                                            $9.51          172,970        $333,333.33
             Inc., Easton, MD11
11/16/2011                                                                                                                                                                                                       $25,000.00
6/26/2009 Signature                                           $1,994,587.59                                                        $0.00
           Bancshares, Inc.,                $1,700,000.00                                                                                                                                                                                                      $209,587.59
12/15/2010 Dallas, TX11,14,15                                                         $1,700,000.00                                          1,700,000          $1.00                                            $85,000.00

12/12/2008                                                  $132,967,606.41                                                        $0.00
             Signature Bank,
3/31/2009                                 $120,000,000.00                           $120,000,000.00                                           120,000       $1,000.00                                                           $125.59                       $1,816,666.67
             New York, NY11
3/16/2010                                                                                                                                                                                                     $11,150,939.74
1/16/2009                                                     $7,816,685.55                                                        $0.00
             Somerset
5/20/2009    Hills Bancorp,                 $7,414,000.00                             $7,414,000.00                                             7,414       $1,000.00                                                            $12.07                        $127,685.55
             Bernardsville, NJ11
6/24/2009                                                                                                                                                                                                       $275,000.00
2/20/2009    Sonoma Valley                                      $347,164.00                                                        $0.00
             Bancorp, Sonoma,               $8,653,000.00                                                                                                                                                                                                      $347,164.00
8/20/2010    CA8,32,97                                                                                                                                                    ($8,653,000.00)
                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




1/9/2009     Sound Banking                                    $3,575,224.44                                                        $0.00
             Company,
11/13/2012                                  $3,070,000.00                             $2,832,412.70                                             3,070         $922.60       ($237,587.30)                       $124,412.34      $7.55                         $643,399.40
             Morehead City,
1/11/2013    NC8,14                                                                                      ($25,000.00)
                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                385
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                              (CONTINUED)                                                                                                                                                                                386
                                                                                                                                               Number     Average Price                                                         Stock Price       Current
Transaction                                                                     Capital Repayment /                      Remaining Capital    of Shares       of Shares   (Realized Loss) /                                        as of      Outstanding   Dividend/Interest
Date        Institution                 Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount      Disposed        Disposed           (Write-off)           Gain4    Warrant Sales    3/31/14        Warrants     Paid to Treasury
12/5/2008    South Financial                                 $146,965,329.86                                                        $0.00
             Group, Inc.,                 $347,000,000.00                                                                                                                                                                                                    $16,386,111.11
9/30/2010    Greenville, SC                                                          $130,179,218.75                                           130,179       $1,000.00    ($216,820,781.25)                      $400,000.00

7/17/2009                                                     $13,109,014.25                                                        $0.00
             SouthCrest
3/8/2013     Financial Group,                                                          $1,814,620.00                                              2,000        $907.30        ($185,380.00)
                                           $12,900,000.00                                                                                                                                                                         $5.38                         $933,494.05
3/11/2013    Inc., Fayetteville,                                                       $9,889,679.00                                            10,900         $907.30      ($1,010,321.00)                      $588,264.19
             GA8,14
4/9/2013                                                                                                 ($117,042.99)
1/16/2009    Southern Bancorp,                                $11,855,555.56                                                        $0.00
             Inc., Arkadelphia,            $11,000,000.00                                                                                                                                                                                                       $855,555.56
8/6/2010     AR9,11,36                                                                $11,000,000.00                                            11,000       $1,000.00

12/5/2008    Southern                                         $51,088,046.14                                                        $0.00
             Community
                                           $42,750,000.00                                                                                                                                                                         $25.11                       $8,338,046.14
10/1/2012    Financial Corp.,                                                         $42,750,000.00                                            42,750       $1,000.00
             Winston-Salem, NC
2/27/2009                                                     $19,401,361.89                                                        $0.00
             Southern First
7/3/2012     Bancshares, Inc.,             $17,299,000.00                             $15,638,296.00     ($234,574.44)                          17,299         $904.00      ($1,660,704.00)                                       $13.87                       $2,897,640.33
             Greenville, SC
7/25/2012                                                                                                                                                                                                       $1,100,000.00
5/15/2009    Southern Heritage                                 $5,718,111.14                                                        $0.00
             Bancshares, Inc.,              $4,862,000.00                                                                                                                                                                                                       $613,111.14
                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




9/8/2011     Cleveland, TN8,14,45                                                      $4,862,000.00                                             4,862       $1,000.00                                           $243,000.00

1/23/2009    Southern Illinois                                 $5,955,472.22                                                        $0.00
             Bancorp, Inc.,                 $5,000,000.00                                                                                                                                                                                                       $705,472.22
8/25/2011    Carmi, IL8,14,44                                                          $5,000,000.00                                             5,000       $1,000.00                                           $250,000.00

12/5/2008    Southern Missouri                                $10,804,763.89                                                        $0.00
             Bancorp, Inc.,                 $9,550,000.00                                                                                                                                                                         $35.80         114,326       $1,254,763.89
7/21/2011    Poplar Bluff, MO44                                                        $9,550,000.00                                             9,550       $1,000.00

             SouthFirst
6/12/2009    Bancshares, Inc.,              $2,760,000.00        $364,796.34                                                $2,760,000.00                                                                                         $2.65                         $364,796.34
             Sylacauga, AL8
12/5/2008                                                     $85,247,569.91                                                        $0.00
             Southwest
8/8/2012     Bancorp, Inc.,                $70,000,000.00                             $70,000,000.00                                            70,000       $1,000.00                                                            $17.66                     $12,960,372.91
             Stillwater, OK11
5/29/2013                                                                                                                                                                                                       $2,287,197.00
3/13/2009    Sovereign                                        $21,632,668.61                                                        $0.00
             Bancshares, Inc.,             $18,215,000.00                                                                                                                                                                                                      $2,506,668.61
9/22/2011    Dallas, TX8,14,44                                                        $18,215,000.00                                            18,215       $1,000.00                                           $911,000.00

3/27/2009                                                     $11,803,691.75                                                        $0.00
             Spirit BankCorp,
10/21/2013                                 $30,000,000.00                              $9,000,000.00                                            30,000         $300.00     ($21,000,000.00)                      $631,941.75                                   $2,261,750.00
             Inc., Bristow, OK8
1/6/2014                                                                                                  ($90,000.00)
             St. Johns
3/13/2009    Bancshares, Inc.,              $3,000,000.00        $804,783.00                                                $3,000,000.00                                                                                                                       $804,783.00
             St. Louis, MO8
4/24/2009    Standard                                         $75,757,163.03                                                        $0.00
             Bancshares, Inc.,             $60,000,000.00                                                                                                                                                                                                    $12,757,163.03
2/22/2013    Hickory Hills, IL8,14,74                                                 $60,000,000.00                                         12,903,226      $1,432.56                         $3,000,000.00

12/5/2008  State Bancorp,                                     $42,414,352.50                                                        $0.00
           Inc./Valley National
                                           $36,842,000.00
12/14/2011 Bancorp,   Jericho,                                                        $36,842,000.00                                            36,842       $1,000.00
           NY11,61
9/4/2009     State Bank of                                     $2,030,299.18                                                        $0.00
             Bartley,Bartley,               $1,697,000.00                                                                                                                                                                                                       $282,299.18
9/22/2011    NE15,17,44                                                                $1,697,000.00                                          1,697,000          $1.00                                            $51,000.00

1/16/2009                                                     $58,008,472.23                                                        $0.00
             State Bankshares,
8/12/2009                                  $50,000,000.00                             $12,500,000.00                                            12,500       $1,000.00                                                                                         $5,508,472.23
             Inc., Fargo, ND8,11
6/29/2011                                                                             $37,500,000.00                                            37,500       $1,000.00                                          $2,500,000.00
2/13/2009    State Capital                                    $17,080,708.67                                                        $0.00
             Corporation,
                                           $15,000,000.00                                                                                                                                                                                                      $1,330,708.67
9/29/2010    Greenwood,                                                               $15,000,000.00                                            15,000       $1,000.00                                           $750,000.00
             MS8,11,36
10/28/2008                                                  $2,123,611,111.12                                                       $0.00
             State Street
6/17/2009    Corporation,               $2,000,000,000.00                          $2,000,000,000.00                                            20,000     $100,000.00                                                            $69.55                     $63,611,111.12
             Boston, MA12,16
7/8/2009                                                                                                                                                                                                       $60,000,000.00
                                                                                                                                                                                                                                                        Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                           (CONTINUED)
                                                                                                                                              Number     Average Price                                                 Stock Price       Current
Transaction                                                                  Capital Repayment /                        Remaining Capital    of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividend/Interest
Date        Institution              Investment Amount    Total Cash Back2 Disposition / Auction2,4     Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4    Warrant Sales    3/31/14        Warrants     Paid to Treasury
6/26/2009     Stearns Financial                            $31,495,442.29                                                          $0.00
              Services, Inc., St.       $24,900,000.00                                                                                                                                                                                                $5,350,442.29
1/18/2012     Cloud, MN11,14,15                                                    $24,900,000.00                                           24,900,000          $1.00                                  $1,245,000.00

9/25/2009     Steele Street                                $13,078,672.60                                                          $0.00
              Bank Corporation,         $11,019,000.00                                                                                                                                                                                                $1,728,672.60
9/1/2011      Denver, CO15,17,45                                                   $11,019,000.00                                           11,019,000          $1.00                                   $331,000.00

12/19/2008                                                 $37,191,875.00                                                          $0.00
4/13/2011  StellarOne                                                               $7,500,000.00                                                7,500      $1,000.00
           Corporation,                 $30,000,000.00                                                                                                                                                                   $24.07                       $4,271,875.00
12/28/2011 Charlottesville, VA11                                                   $22,500,000.00                                              22,500       $1,000.00
12/18/2013                                                                                                                                                                                             $2,920,000.00
12/23/2008                                                 $47,869,108.33                                                          $0.00
              Sterling Bancorp,
4/27/2011                               $42,000,000.00                             $42,000,000.00                                              42,000       $1,000.00                                                    $12.66                       $4,923,333.33
              New York, NY11
5/18/2011                                                                                                                                                                                               $945,775.00
12/12/2008                                                $130,542,485.91                                                          $0.00
              Sterling
5/5/2009      Bancshares, Inc.,        $125,198,000.00                            $125,198,000.00                                             125,198       $1,000.00                                                                                 $2,486,571.39
              Houston, TX11
6/15/2010                                                                                                                                                                                              $2,857,914.52
12/5/2008                                                 $121,757,209.63                                                          $0.00
              Sterling Financial
8/20/2012     Corporation,             $303,000,000.00                            $114,772,740.00     ($1,434,659.25)                        5,738,637         $20.00    ($188,227,260.00)                               $33.33                       $7,594,128.88
              Spokane, WA31
9/19/2012                                                                                                                                                                                               $825,000.00
1/30/2009  Stewardship                                     $11,400,453.22                                                          $0.00
           Financial
9/1/2011                                $10,000,000.00                             $10,000,000.00                                              10,000       $1,000.00                                                    $5.18                        $1,293,055.22
           Corporation,
                           44
10/26/2011 Midland Park, NJ                                                                                                                                                                             $107,398.00
2/6/2009                                                   $18,101,553.84                                                          $0.00
              Stockmens Financial
1/12/2011     Corporation, Rapid        $15,568,000.00                              $4,000,000.00                                                4,000      $1,000.00                                                                                 $1,755,553.84
              City, SD8,11,14
3/16/2011                                                                          $11,568,000.00                                              11,568       $1,000.00                                   $778,000.00
1/23/2009                                                   $2,652,816.96                                                          $0.00
3/26/2013     Stonebridge                                                           $1,796,209.03                                              10,351         $173.50      ($8,554,790.97)              $130,704.17
              Financial Corp.,          $10,973,000.00                                                                                                                                                                                                 $634,609.11
3/27/2013     West Chester, PA8,14                                                    $107,935.66                                                 622         $173.50        ($514,064.34)                 $8,358.99
4/9/2013                                                                                                 ($25,000.00)
              Suburban Illinois
6/19/2009     Bancorp, Inc.,            $15,000,000.00      $2,083,520.25                                                 $15,000,000.00                                                                                                              $2,083,520.25
              Elmhurst, IL15
12/19/2008                                                  $9,930,625.00                                                          $0.00
              Summit State Bank,
8/4/2011                                 $8,500,000.00                              $8,500,000.00                                               8,500       $1,000.00                                                    $10.94                       $1,115,625.00
              Santa Rosa, CA44
9/14/2011                                                                                                                                                                                               $315,000.00
1/9/2009                                                   $92,513,970.83                                                          $0.00
              Sun Bancorp, Inc.,
4/8/2009                                $89,310,000.00                             $89,310,000.00                                              89,310       $1,000.00                                                    $3.36                        $1,103,970.83
              Vineland, NJ11
5/27/2009                                                                                                                                                                                              $2,100,000.00
11/14/2008                           $3,500,000,000.00   $5,448,052,772.51                                                         $0.00
12/31/2008 SunTrust Banks,           $1,350,000,000.00
                           11                                                                                                                                                                                            $39.79                    $567,986,111.11
3/30/2011 Inc., Atlanta, GA                                                     $4,850,000,000.00                                              48,500     $100,000.00
9/28/2011                                                                                                                                                                                             $30,066,661.40
12/5/2008     Superior Bancorp                              $4,983,333.33                                                          $0.00
              Inc., Birmingham,         $69,000,000.00                                                                                                                                                                                1,923,792       $4,983,333.33
4/15/2011     AL24,49,97                                                                                                                                                  ($69,000,000.00)

1/9/2009   Surrey Bancorp,                                  $2,314,972.22                                                          $0.00
                         11,8,14         $2,000,000.00                                                                                                                                                                   $12.75                        $214,972.22
12/29/2010 Mount Airy, NC                                                           $2,000,000.00                                               2,000       $1,000.00                                   $100,000.00
12/12/2008                                                $328,991,401.58                                                          $0.00
4/21/2010  Susquehanna                                                            $200,000,000.00                                             200,000       $1,000.00
                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




           Bancshares, Inc,            $300,000,000.00                                                                                                                                                                   $11.37                     $23,722,222.22
12/22/2010 Lititz, PA11                                                           $100,000,000.00                                             100,000       $1,000.00
1/19/2011                                                                                                                                                                                              $5,269,179.36
4/10/2009     SV Financial, Inc.,                           $4,721,382.89                                                          $0.00
                                         $4,000,000.00                                                                                                                                                                                                 $521,382.89
8/31/2011     Sterling, IL8,11,14                                                   $4,000,000.00                                               4,000       $1,000.00                                   $200,000.00
                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                        387
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                              (CONTINUED)                                                                                                                                                                              388
                                                                                                                                                 Number     Average Price                                                     Stock Price       Current
Transaction                                                                     Capital Repayment /                        Remaining Capital    of Shares       of Shares   (Realized Loss) /                                    as of      Outstanding   Dividend/Interest
Date        Institution                 Investment Amount    Total Cash Back2 Disposition / Auction2,4     Auction Fee3             Amount      Disposed        Disposed           (Write-off)        Gain4   Warrant Sales    3/31/14        Warrants     Paid to Treasury
12/12/2008                                                   $253,929,027.78                                                          $0.00
              SVB Financial Group,
12/23/2009                                $235,000,000.00                            $235,000,000.00                                             235,000       $1,000.00                                                       $128.78                     $12,109,027.78
              Santa Clara, CA12,16
6/16/2010                                                                                                                                                                                                     $6,820,000.00
5/8/2009      Sword Financial                                 $17,019,233.91                                                          $0.00
              Corporation ,                $13,644,000.00                                                                                                                                                                                                    $2,693,233.91
9/15/2011     Horicon, WI14,15,44                                                     $13,644,000.00                                           13,644,000          $1.00                                       $682,000.00

12/19/2008 Synovus Financial                                $1,190,614,526.39                                                         $0.00
           Corp., Columbus,               $967,870,000.00                                                                                                                                                                       $3.39       15,510,737    $222,744,526.39
7/26/2013 GA11                                                                       $967,870,000.00                                             967,870       $1,000.00

1/16/2009     Syringa Bancorp,                                   $253,122.22                                                          $0.00
                                            $8,000,000.00                                                                                                                                                                       $46.16                        $253,122.22
1/31/2014     Boise, ID8,103                                                                                                                                                 ($8,000,000.00)
11/21/2008                                                   $120,845,170.80                                                          $0.00
              Taylor Capital Group,
6/19/2012                                 $104,823,000.00                             $93,659,350.50     ($1,404,890.26)                         104,823         $893.50    ($11,163,649.50)                                    $23.92                     $18,751,437.56
              Rosemont, IL
7/18/2012                                                                                                                                                                                                     $9,839,273.00
8/28/2009     TCB Corporation,                                $11,611,381.34                                                          $0.00
              Greenwood,                    $9,720,000.00                                                                                                                                                                                                    $1,599,381.34
9/8/2011      SC15,17,45                                                               $9,720,000.00                                            9,720,000          $1.00                                       $292,000.00

1/16/2009  TCB Holding                                           $690,832.08                                                          $0.00
                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




           Company, Texas
           Community Bank,                 $11,730,000.00                                                                                                                                                                                                     $690,832.08
12/13/2013 The Woodlands,                                                                                                                                                   ($11,730,000.00)
           TX8,97,100
11/14/2008                                                   $378,547,699.45                                                          $0.00
              TCF Financial
4/22/2009     Corporation,                $361,172,000.00                            $361,172,000.00                                             361,172       $1,000.00                                                        $16.66                       $7,925,718.89
              Wayzata, MN11
12/21/2009                                                                                                                                                                                                    $9,449,980.56
12/23/2008 TCNB Financial                                      $2,384,611.11                                                          $0.00
           Corp., Dayton,                   $2,000,000.00                                                                                                                                                                                                     $284,611.11
8/3/2011   OH8,11,14                                                                   $2,000,000.00                                               2,000       $1,000.00                                       $100,000.00

12/19/2008 Tennessee                                           $3,233,333.33                                                          $0.00
           Commerce Bancorp,               $30,000,000.00                                                                                                                                                                                      461,538       $3,233,333.33
1/27/2012 Inc., Franklin, TN63,97                                                                                                                                           ($30,000,000.00)

12/23/2008                                                     $3,331,713.17                                                          $0.00
              Tennessee Valley
4/26/2013     Financial Holdings,                                                        $298,000.00                                                 298       $1,022.10                          $6,588.78     $19,218.87
                                            $3,000,000.00                                                                                                                                                                                                     $146,241.67
4/29/2013     Inc., Oak Ridge,                                                         $2,702,000.00                                               2,702       $1,022.10                         $59,741.22    $124,922.63
              TN8,14
5/31/2013                                                                                                   ($25,000.00)
1/16/2009                                                     $82,777,816.21                                                          $0.00
              Texas Capital
5/13/2009     Bancshares, Inc.,            $75,000,000.00                             $75,000,000.00                                              75,000       $1,000.00                                                        $64.94                       $1,218,750.00
              Dallas, TX11
3/17/2010                                                                                                                                                                                                     $6,559,066.21
1/9/2009      Texas National                                   $4,475,307.67                                                          $0.00
              Bancorporation,               $3,981,000.00                                                                                                                                                                                                     $295,307.67
5/19/2010     Jacksonville, TX8,11,14                                                  $3,981,000.00                                               3,981       $1,000.00                                       $199,000.00

8/7/2009      The ANB                                         $23,234,499.98                                                          $0.00
              Corporation,                 $20,000,000.00                                                                                                                                                                                                    $2,234,499.98
8/25/2011     Terrell, TX8,14,44                                                      $20,000,000.00                                              20,000       $1,000.00                                      $1,000,000.00

12/12/2008                                                    $52,787,673.44                                                          $0.00
              The Bancorp, Inc.,
3/10/2010                                  $45,220,000.00                             $45,220,000.00                                              45,220       $1,000.00                                                        $18.81                       $2,813,688.89
              Wilmington, DE12,16
9/8/2010                                                                                                                                                                                                      $4,753,984.55
2/6/2009      The Bank of                                      $1,912,684.00                                                          $0.00
              Currituck, Moyock,            $4,021,000.00                                                                                                                                                                                                     $169,834.00
12/3/2010     NC8                                                                      $1,742,850.00                                               4,021         $433.40     ($2,278,150.00)

2/13/2009                                                     $40,091,342.55                                                          $0.00
           The Bank of
12/22/2010 Kentucky Financial                                                         $17,000,000.00                                              17,000       $1,000.00
                                           $34,000,000.00                                                                                                                                                                       $37.54         276,078       $3,940,694.00
11/23/2011 Corporation,                                                               $17,000,000.00                                              17,000       $1,000.00
           Crestview Hills, KY11
5/29/2013                                                                                                                                                                                                     $2,150,648.55
1/16/2009                                                     $18,023,831.85                                                          $0.00
12/10/2012 The Baraboo                                                                 $1,956,900.00                                                3,000        $652.30     ($1,043,100.00)                   $403,161.92
           Bancorporation,                 $20,749,000.00                                                                                                                                                                       $1.85                        $3,766,126.61
12/11/2012 Baraboo, WI8,14                                                            $11,577,672.70                                              17,749         $652.30     ($6,171,327.30)                   $455,316.35
1/11/2013                                                                                                 ($135,345.73)
                                                                                                                                                                                                                                                      Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                           (CONTINUED)
                                                                                                                                           Number     Average Price                                                  Stock Price       Current
Transaction                                                                  Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividend/Interest
Date        Institution              Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    3/31/14        Warrants     Paid to Treasury
12/19/2008 The Connecticut                                  $6,902,866.33                                                        $0.00
           Bank and Trust
                                         $5,448,000.00                                                                                                                                                                 $25.88                        $662,083.33
4/19/2012 Company, Hartford,                                                        $5,448,000.00                                            5,448       $1,000.00                                    $792,783.00
           CT
12/19/2008 The Elmira Savings                              $10,309,575.00                                                        $0.00
           Bank, FSB, Elmira,            $9,090,000.00                                                                                                                                                                 $24.49         116,538       $1,219,575.00
8/25/2011 NY44                                                                      $9,090,000.00                                            9,090       $1,000.00

1/9/2009                                                   $29,332,986.11                                                        $0.00
8/24/2011     The First Bancorp,                                                   $12,500,000.00                                           12,500       $1,000.00
              Inc., Damariscotta,       $25,000,000.00                                                                                                                                                                 $16.30         225,904       $4,332,986.11
3/27/2013     ME11                                                                  $2,500,000.00                                            2,500       $1,000.00
5/8/2013                                                                           $10,000,000.00                                           10,000       $1,000.00
2/6/2009      The First                                     $5,411,805.56                                                        $0.00
              Bancshares, Inc.,          $5,000,000.00                                                                                                                                                                                 54,705        $411,805.56
9/29/2010     Hattiesburg, MS11,36                                                  $5,000,000.00                                            5,000       $1,000.00

2/27/2009     The First State                                 $813,086.56                                                        $0.00
              Bank of Mobeetie,            $731,000.00                                                                                                                                                                                                 $45,086.56
4/14/2010     Mobeetie, TX8,11,14                                                     $731,000.00                                              731       $1,000.00                                     $37,000.00

2/6/2009   The Freeport State                                 $379,458.89                                                        $0.00
           Bank, Harper,                   $301,000.00                                                                                                                                                                                                 $63,458.89
12/19/2012 KS8,11,14                                                                  $301,000.00                                              301       $1,000.00                                     $15,000.00

6/26/2009     The Hartford                               $4,236,125,671.00                                                       $0.00
              Financial Services
3/31/2010                            $3,400,000,000.00                          $3,400,000,000.00                                         3,400,000      $1,000.00                                                                               $129,861,111.11
              Group, Inc.
9/27/2010     Hartford CT11                                                                                                                                                                        $706,264,559.89
5/22/2009     The Landrum                                  $17,580,291.55                                                        $0.00
              Company,                  $15,000,000.00                                                                                                                                                                                              $1,830,291.55
8/18/2011     Columbia, MO8,14,44                                                  $15,000,000.00                                           15,000       $1,000.00                                    $750,000.00

12/23/2008                                                  $9,232,652.17                                                        $0.00
           The Little Bank,
10/31/2012 Incorporated,                 $7,500,000.00                              $7,359,000.00                                            7,500         $981.20       ($141,000.00)                $371,250.00                                   $1,575,992.17
           Kinston, NC8,14
1/11/2013                                                                                              ($73,590.00)
12/31/2008 The PNC Financial                             $8,320,638,950.83                                                       $0.00
           Services Group
2/10/2010                            $7,579,200,000.00                          $7,579,200,000.00                                           75,792     $100,000.00                                                     $87.00                    $421,066,666.67
           Inc., Pittsburgh,
5/5/2010   PA11                                                                                                                                                                                    $320,372,284.16
2/20/2009     The Private Bank                              $6,474,752.14                                                        $0.00
              of California, Los         $5,450,000.00                                                                                                                                                                                               $751,752.14
9/1/2011      Angeles, CA8,14,44                                                    $5,450,000.00                                            5,450       $1,000.00                                    $273,000.00

1/9/2009                                                   $13,065,246.00                                                        $0.00
              The
3/8/2013      Queensborough                                                           $244,225.00                                              250         $976.90          ($5,775.00)                  $4,806.45
                                        $12,000,000.00                                                                                                                                                                                               $882,900.00
3/11/2013     Company,                                                             $11,478,575.00                                           11,750         $976.90       ($271,425.00)                $571,967.55
              Louisville, GA8,14
4/9/2013                                                                                              ($117,228.00)
2/27/2009                                  $541,000.00      $2,322,183.20                                                        $0.00
           The Victory
12/11/2009 Bancorp, Inc.,                $1,505,000.00                                                                                                                                                                                               $215,183.20
           Limerick, PA8,18,21,44
9/22/2011                                                                           $2,046,000.00                                            2,046       $1,000.00                                     $61,000.00
1/23/2009     Three Shores                                  $6,449,130.64                                                        $0.00
              Bancorporation,
11/8/2012     Inc. (Seaside                                                         $1,165,528.32                                            1,312         $888.40       ($146,471.68)
                                         $5,677,000.00                                                                                                                                                                                              $1,174,058.48
11/9/2012     National Bank &                                                       $3,877,691.40                                            4,365         $888.40       ($487,308.60)                $282,284.64
              Trust), Orlando,
1/11/2013     FL8,21                                                                                   ($50,432.20)

12/5/2008     TIB Financial Corp,                          $13,444,359.59                                                        $0.00
                                        $37,000,000.00                                                                                                                                                                 $25.11                       $1,284,722.22
9/30/2010     Naples, FL                                                           $12,119,637.37                                           12,120       $1,000.00    ($24,880,362.63)                  $40,000.00
           Tidelands
12/19/2008 Bancshares, Inc,             $14,448,000.00      $1,195,973.33                                               $14,448,000.00                                                                                                571,821       $1,195,973.33
           Mount Pleasant, SC
4/17/2009 Tifton Banking                                      $223,208.00                                                        $0.00
                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




           Company, Tifton,              $3,800,000.00                                                                                                                                                                                               $223,208.00
11/12/2010 GA8,47,97                                                                                                                                                   ($3,800,000.00)

                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                      389
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                           (CONTINUED)                                                                                                                                                                        390
                                                                                                                                           Number     Average Price                                                  Stock Price       Current
Transaction                                                                  Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding   Dividend/Interest
Date        Institution              Investment Amount    Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    3/31/14        Warrants     Paid to Treasury
12/23/2008                                                 $18,857,818.52                                                        $0.00
11/8/2012                                                                           $3,290,437.50                                            3,815         $862.50        ($524,562.50)
11/9/2012  Timberland                                                               $1,580,962.50                                            1,833         $862.50        ($252,037.50)
           Bancorp, Inc.,               $16,641,000.00                                                                                                                                                                 $10.70                       $3,346,628.65
11/13/2012 Hoquiam, WA                                                              $9,481,462.50                                           10,993         $862.50      ($1,511,537.50)
1/11/2013                                                                                             ($143,528.63)
6/11/2013                                                                                                                                                                                            $1,301,856.00
4/3/2009     Titonka                                        $2,569,490.36                                                        $0.00
             Bancshares, Inc,            $2,117,000.00                                                                                                                                                                                               $346,490.36
4/4/2012     Titonka, IA8,11,14                                                     $2,117,000.00                                            2,117       $1,000.00                                    $106,000.00

2/6/2009     Todd Bancshares,                               $5,210,672.22                                                        $0.00
             Inc., Hopkinsville,         $4,000,000.00                                                                                                                                                                                              $1,010,672.22
9/25/2013    KY8                                                                    $4,000,000.00                                            4,000       $1,000.00                                    $200,000.00

12/12/2008                                                 $88,577,166.67                                                        $0.00
             TowneBank,
9/22/2011                               $76,458,000.00                             $76,458,000.00                                           76,458       $1,000.00                                                     $15.51                     $10,619,166.67
             Portsmouth, VA45
5/15/2013                                                                                                                                                                                            $1,500,000.00
1/16/2009                                                     $842,415.03                                                        $0.00
             Treaty Oak
2/15/2011    Bancorp, Inc.,              $3,268,000.00                                $500,000.00                                            3,118         $155.47      ($2,618,000.00)                                $0.21        3,098,341        $192,415.03
             Austin, TX8
                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




12/21/2012                                                                            $150,000.00                                          150,000           $1.00
3/27/2009    Triad Bancorp,                                 $4,386,324.64                                                        $0.00
             Inc., Frontenac,            $3,700,000.00                                                                                                                                                                                               $501,324.64
9/22/2011    MO8,14,44                                                              $3,700,000.00                                            3,700       $1,000.00                                    $185,000.00

12/19/2008 Tri-County Financial                            $18,653,115.75                                                        $0.00
           Corporation,                 $15,540,000.00                                                                                                                                                                                              $2,336,115.75
9/22/2011 Waldorf, MD8,14,44                                                       $15,540,000.00                                           15,540       $1,000.00                                    $777,000.00

3/27/2009                                                  $34,644,476.74                                                        $0.00
8/7/2012                                                                            $2,639,379.50                                            3,518         $750.20        ($878,620.50)               $163,062.90
             Trinity Capital
8/9/2012     Corporation, Los           $35,539,000.00                              $7,038,845.50                                            9,382         $750.20      ($2,343,154.50)              $1,300,776.05                                  $6,592,186.06
             Alamos, NM8,14
8/10/2012                                                                          $16,984,909.75                                           22,639         $750.20      ($5,654,090.25)               $191,948.33
9/11/2012                                                                                             ($266,631.35)
4/3/2009     Tri-State Bank                                 $2,985,215.11                                                        $0.00
             of Memphis,                 $2,795,000.00                                                                                                                                                                                               $190,215.11
8/13/2010    Memphis, TN8,9,11                                                      $2,795,000.00                                            2,795       $1,000.00

2/27/2009    TriState Capital                              $28,642,402.33                                                        $0.00
             Holdings, Inc.,            $23,000,000.00                                                                                                                                                                                              $4,492,402.33
9/26/2012    Pittsburgh, PA11,8                                                    $23,000,000.00                                           23,000       $1,000.00                                   $1,150,000.00

4/3/2009                                 $2,765,000.00      $6,496,417.16                                                        $0.00
12/22/2009 TriSummit Bank,               $4,237,000.00
                        8,14,18                                                                                                                                                                                                                     $1,172,766.41
11/29/2012 Kingsport, TN                                                            $5,251,500.00                                            7,002         $750.00      ($1,750,500.00)               $124,665.75
1/11/2013                                                                                              ($52,515.00)
11/21/2008                                                $236,287,500.00                                                        $0.00
             Trustmark
12/9/2009    Corporation,              $215,000,000.00                            $215,000,000.00                                          215,000       $1,000.00                                                     $25.35                     $11,287,500.00
             Jackson, MS11
12/30/2009                                                                                                                                                                                          $10,000,000.00
5/29/2009    Two Rivers                                    $14,075,133.27                                                        $0.00
             Financial Group,           $12,000,000.00                                                                                                                                                                 $20.05                       $1,475,133.27
9/1/2011     Burlington, IA8,14,44                                                 $12,000,000.00                                           12,000       $1,000.00                                    $600,000.00

11/14/2008                                               $6,933,220,416.67                                                       $0.00
             U.S. Bancorp,
6/17/2009                            $6,599,000,000.00                          $6,599,000,000.00                                         6,599,000      $1,000.00                                                     $42.86                    $195,220,416.67
             Minneapolis, MN11
7/15/2009                                                                                                                                                                                          $139,000,000.00
             U.S. Century Bank,
8/7/2009                                $50,236,000.00        $745,311.72                                               $50,236,000.00                                                                                                               $745,311.72
             Miami, FL8
1/30/2009    UBT Bancshares,                               $10,634,911.78                                                        $0.00
             Inc., Marysville,           $8,950,000.00                                                                                                                                                                                              $1,234,911.78
8/11/2011    KS8,14,44                                                              $8,950,000.00                                            8,950       $1,000.00                                    $450,000.00

11/14/2008 UCBH Holdings,                                   $7,509,920.07                                                        $0.00
           Inc., San Francisco,        $298,737,000.00                                                                                                                                                                              7,847,732       $7,509,920.07
11/6/2009 CA22,97                                                                                                                                                     ($298,737,000.00)

                                                                                                                                                                                                                                             Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                            (CONTINUED)
                                                                                                                                               Number     Average Price                                                Stock Price       Current
Transaction                                                                   Capital Repayment /                        Remaining Capital    of Shares       of Shares   (Realized Loss) /                               as of      Outstanding   Dividend/Interest
Date        Institution                Investment Amount   Total Cash Back2 Disposition / Auction2,4     Auction Fee3             Amount      Disposed        Disposed           (Write-off)   Gain4   Warrant Sales    3/31/14        Warrants     Paid to Treasury
11/14/2008                                                 $232,156,554.58                                                          $0.00
             Umpqua Holdings
2/17/2010    Corp., Portland,            $214,181,000.00                           $214,181,000.00                                             214,181       $1,000.00                                                   $18.64                     $13,475,554.58
             OR12,16
3/31/2010                                                                                                                                                                                              $4,500,000.00
5/1/2009                                   $3,194,000.00     $7,031,291.65                                                          $0.00
           Union Bank & Trust
12/18/2009 Company, Oxford,                $2,997,000.00                                                                                                                                                                                               $680,291.65
           NC8,14,18,44,45
9/22/2011                                                                            $6,191,000.00                                               6,191       $1,000.00                                  $160,000.00
12/29/2009 Union Financial                                   $2,639,873.33                                                          $0.00
           Corporation,
7/25/2012                                  $2,179,000.00                               $600,000.00                                                 600       $1,000.00                                                                                 $395,873.33
           Albuquerque,
              8,11,17
10/2/2013 NM                                                                         $1,579,000.00                                               1,579       $1,000.00                                   $65,000.00
12/19/2008 Union First Market                               $62,145,972.22                                                          $0.00
           Bankshares
11/18/2009 Corporation,                   $59,000,000.00                            $59,000,000.00                                              59,000       $1,000.00                                                   $25.42                       $5,239,859.35
           Bowling Green,
12/23/2009 VA12,16,25                                                                                                                                                                                   $450,000.00

             United American
2/20/2009    Bank, San Mateo,              $8,700,000.00              $0.00                                                 $8,700,000.00                                                                                                                     $0.00
             CA8
1/16/2009                                                   $20,315,924.72                                                          $0.00
             United Bancorp,
6/19/2012                                 $20,600,000.00                            $17,005,300.00      ($255,079.50)                           20,600         $825.50     ($3,594,700.00)                               $8.50                        $3,527,704.22
             Inc., Tecumseh, MI
7/18/2012                                                                                                                                                                                                $38,000.00
12/23/2008 United                                           $11,172,638.89                                                          $0.00
           Bancorporation
                                          $10,300,000.00                                                                                                                                                                                108,264        $872,638.89
9/3/2010   of Alabama, Inc.,                                                        $10,300,000.00                                              10,300       $1,000.00
           Atmore, AL11,36
5/22/2009    United Bank                                    $18,882,079.62                                                          $0.00
             Corporation,                 $14,400,000.00                                                                                                                                                                                              $3,762,079.62
7/3/2012     Barnesville, GA11,14,15                                                $14,400,000.00                                           14,400,000          $1.00                                  $720,000.00

12/5/2008                                                  $210,367,527.00                                                          $0.00
3/26/2013                                                                            $1,516,900.00                                               1,576         $962.50         ($59,100.00)
3/27/2013    United Community                                                       $12,587,575.00                                              13,078         $962.50       ($490,425.00)
             Banks, Inc.,                $180,000,000.00                                                                                                                                                                 $19.41                     $38,843,350.00
3/28/2013    Blairsville, GA                                                       $159,145,525.00                                             165,346         $962.50     ($6,200,475.00)
4/9/2013                                                                                               ($1,732,500.00)
6/10/2013                                                                                                                                                                                                 $6,677.00
1/16/2009  United Financial                                  $6,649,963.92                                                          $0.00
           Banking
12/15/2010                                 $5,658,000.00                             $3,000,000.00                                               3,000       $1,000.00                                                   $38.50                        $708,963.92
           Companies, Inc.,
                      8,11,44
9/15/2011 Vienna, VA                                                                 $2,658,000.00                                               2,658       $1,000.00                                  $283,000.00
12/5/2008                                                   $28,013,814.50                                                          $0.00
5/15/2013    Unity Bancorp, Inc.,                                                   $10,324,000.00                                              10,324       $1,000.00
                                          $20,649,000.00                                                                                                                                                                 $7.95                        $4,657,500.50
7/3/2013     Clinton, NJ11                                                          $10,325,000.00                                              10,325       $1,000.00
8/28/2013                                                                                                                                                                                              $2,707,314.00
5/22/2009                                                   $12,066,668.65                                                          $0.00
8/8/2013     Universal Bancorp,                                                        $237,527.50                                                 250         $950.10         ($12,472.50)
                                           $9,900,000.00                                                                                                                                                                                              $2,278,066.92
8/12/2013    Bloomfield, IN8                                                         $9,168,561.50                                               9,650         $950.10       ($481,438.50)              $476,573.62
9/12/2013                                                                                                 ($94,060.89)
6/19/2009    University Financial                           $12,948,886.40                                                          $0.00
             Corp, Inc., St. Paul,        $11,926,000.00                                                                                                                                                                                              $1,022,886.40
7/30/2010    MN9,11,15                                                              $11,926,000.00                                           11,926,000          $1.00

             US Metro Bank,
2/6/2009                                   $2,861,000.00       $432,678.00                                                  $2,861,000.00                                                                                $1.08                         $432,678.00
             Garden Grove, CA8
12/23/2008                                                  $12,916,040.83                                                          $0.00
             Uwharrie Capital
4/3/2013     Corp, Albemarle,             $10,000,000.00                             $7,742,000.00                                                7,742      $1,000.00                                                   $2.50                        $2,416,040.83
                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




             NC8,11
10/16/2013                                                                           $2,258,000.00                                                2,258      $1,000.00                                  $500,000.00
1/30/2009    Valley Commerce                                 $9,403,400.50                                                          $0.00
             Bancorp, Visalia,             $7,700,000.00                                                                                                                                                                 $69.05                       $1,318,400.50
3/21/2012    CA8,11,14                                                               $7,700,000.00                                               7,700       $1,000.00                                  $385,000.00

                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                        391
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                           (CONTINUED)                                                                                                                                                                      392
                                                                                                                                          Number     Average Price                                                 Stock Price       Current
Transaction                                                                  Capital Repayment /                     Remaining Capital   of Shares       of Shares   (Realized Loss) /                                as of      Outstanding   Dividend/Interest
Date        Institution               Investment Amount   Total Cash Back2 Disposition / Auction2,4   Auction Fee3            Amount     Disposed        Disposed           (Write-off)   Gain4    Warrant Sales    3/31/14        Warrants     Paid to Treasury
1/9/2009                                                    $2,947,090.75                                                       $0.00
           Valley Community
10/21/2013 Bank, Pleasanton,              $5,500,000.00                             $2,296,800.00                                           5,500         $417.60     ($3,203,200.00)                $45,815.25      $2.25                         $629,475.50
           CA8
1/6/2014                                                                                              ($25,000.00)
12/12/2008                                                 $21,311,670.48                                                       $0.00
11/14/2012                                                                          $1,600,000.00                                           1,600       $1,000.00
2/20/2013                                                                           $1,600,000.00                                           1,600       $1,000.00
             Valley Financial
5/15/2013    Corporation,                $16,019,000.00                             $1,600,000.00                                           1,600       $1,000.00                                                                                 $3,744,778.90
             Roanoke, VA11
8/14/2013                                                                           $1,600,000.00                                           1,600       $1,000.00
10/16/2013                                                                          $9,619,000.00                                           9,619       $1,000.00
11/13/2013                                                                                                                                                                                         $1,547,891.58
12/18/2009 Valley Financial                                 $1,489,774.73                                                       $0.00
           Group, Ltd.,
                                          $1,300,000.00                                                                                                                                                                             488,847        $124,774.73
9/22/2011 1st State Bank,                                                           $1,300,000.00                                           1,300       $1,000.00                                    $65,000.00
           Saginaw, MI8,14,44
11/14/2008                                                $318,400,781.94                                                       $0.00
6/3/2009                                                                           $75,000,000.00                                          75,000       $1,000.00
             Valley National
9/23/2009    Bancorp, Wayne,            $300,000,000.00                           $125,000,000.00                                         125,000       $1,000.00                                                    $10.41                     $18,551,519.17
                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




             NJ11
12/23/2009                                                                        $100,000,000.00                                         100,000       $1,000.00
5/24/2010                                                                                                                                                                                          $5,421,615.27
6/26/2009    Veritex Holdings, Inc.                         $3,503,795.81                                                       $0.00
             (Fidelity Resources
                                          $3,000,000.00                                                                                                                                                                                            $353,795.81
8/25/2011    Company), Dallas,                                                      $3,000,000.00                                           3,000       $1,000.00                                   $150,000.00
             TX8,41,44
5/1/2009     Village Bank and                               $6,933,870.05                                                       $0.00
             Trust Financial
11/19/2013                               $14,738,000.00                             $5,672,361.44                                          14,738         $384.90     ($9,065,638.56)                                $1.45          499,029       $1,318,232.22
             Corp, Midlothian,
1/6/2014     VA                                                                                       ($56,723.61)
12/12/2008                                                $118,453,138.89                                                       $0.00
           Virginia Commerce
12/11/2012 Bancorp, Arlington,           $71,000,000.00                            $71,000,000.00                                          71,000       $1,000.00                                                    $16.26                     $14,190,138.89
           VA11
1/31/2014                                                                                                                                                                                         $33,263,000.00
6/12/2009                                                   $3,694,442.50                                                       $0.00
8/8/2013     Virginia Company                                                         $325,353.86                                             533         $610.40       ($207,646.14)
             Bank, Newport                $4,700,000.00                                                                                                                                                                                            $786,987.25
8/12/2013    News, VA8,17                                                           $2,543,620.14                                           4,167         $610.40     ($1,623,379.86)                $63,481.25
9/12/2013                                                                                             ($25,000.00)
4/24/2009                                                   $1,898,258.59                                                       $0.00
             Vision Bank - Texas,
12/28/2012                                $1,500,000.00                               $787,500.00                                             788       $1,000.00                                                                                  $323,258.59
             Richardson, TX8,11,14
7/10/2013                                                                             $712,500.00                                             713       $1,000.00                                    $75,000.00
12/19/2008 VIST Financial                                  $30,710,646.33                                                       $0.00
           Corp., Wyomissing,            $25,000,000.00                                                                                                                                                              $48.96                       $4,520,833.33
8/1/2012   PA                                                                      $25,000,000.00                                          25,000       $1,000.00                                  $1,189,813.00

1/30/2009    W.T.B. Financial                             $131,236,874.33                                                       $0.00
             Corporation,               $110,000,000.00                                                                                                                                                                                         $15,736,874.33
9/15/2011    Spokane, WA8,14,45                                                   $110,000,000.00                                         110,000       $1,000.00                                  $5,500,000.00

12/11/2009                                                  $9,198,478.01                                               $5,000,000.00
             Wachusett Financial
4/4/2012     Services, Inc.,             $12,000,000.00                             $3,000,000.00                                           3,000       $1,000.00                                                                                 $2,198,478.01
             Clinton, MA8,11,17
1/30/2013                                                                           $4,000,000.00                                           4,000       $1,000.00
12/19/2008                                                 $23,592,311.11                                                       $0.00
           Wainwright Bank
11/24/2009 & Trust Company,              $22,000,000.00                            $22,000,000.00                                          22,000       $1,000.00                                                                                 $1,023,611.11
           Boston, MA11
12/16/2009                                                                                                                                                                                          $568,700.00
1/16/2009                                                  $30,628,344.45                                                       $0.00
             Washington
1/12/2011    Banking Company,            $26,380,000.00                            $26,380,000.00                                          26,380       $1,000.00                                                    $17.78                       $2,623,344.45
             Oak Harbor, WA11,16
3/2/2011                                                                                                                                                                                           $1,625,000.00
11/14/2008                                                $220,749,985.18                                                       $0.00
             Washington
5/27/2009    Federal, Inc.,             $200,000,000.00                           $200,000,000.00                                         200,000       $1,000.00                                                    $23.30                       $5,361,111.11
             Seattle, WA11
3/15/2010                                                                                                                                                                                         $15,388,874.07
                                                                                                                                                                                                                                           Continued on next page
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                            (CONTINUED)
                                                                                                                                            Number     Average Price                                                  Stock Price       Current
Transaction                                                                   Capital Repayment /                      Remaining Capital   of Shares       of Shares   (Realized Loss) /                                 as of      Outstanding    Dividend/Interest
Date        Institution             Investment Amount      Total Cash Back2 Disposition / Auction2,4   Auction Fee3             Amount     Disposed        Disposed           (Write-off)   Gain4     Warrant Sales    3/31/14        Warrants      Paid to Treasury
1/30/2009                                $6,633,000.00      $15,317,317.86                                                        $0.00
           WashingtonFirst
10/30/2009 Bankshares, Inc.,             $6,842,000.00                                                                                                                                                                                                $1,510,317.86
           Reston, VA8,18,21,44
8/4/2011                                                                            $13,475,000.00                                           13,475       $1,000.00                                    $332,000.00
6/26/2009                                                     $6,398,893.44                                                       $0.00
2/6/2013                                                                             $4,831,002.80                                            5,212         $926.90       ($380,997.20)                 $18,644.66
              Waukesha
2/7/2013      Bankshares, Inc.,          $5,625,000.00                                  $92,690.00                                              100         $926.90          ($7,310.00)               $147,194.69                                    $1,071,379.72
              Waukesha, WI8,17
2/8/2013                                                                               $290,119.70                                              313         $926.90         ($22,880.30)
3/26/2013                                                                                               ($52,138.13)
11/21/2008                                                 $457,333,286.51                                                        $0.00
3/3/2010                                                                           $100,000,000.00                                          100,000       $1,000.00
           Webster Financial
10/13/2010 Corporation,               $400,000,000.00                              $100,000,000.00                                          100,000       $1,000.00                                                     $31.06                      $36,944,444.45
           Waterbury, CT11
12/29/2010                                                                         $200,000,000.00                                          200,000       $1,000.00
6/8/2011                                                                                                                                                                                             $20,388,842.06
10/28/2008                                               $27,281,347,113.95                                                       $0.00
              Wells Fargo & Co.
12/23/2009                          $25,000,000,000.00                          $25,000,000,000.00                                           25,000    $1,000,000.00                                                    $49.74                    $1,440,972,222.22
              Minneapolis, MN11
5/26/2010                                                                                                                                                                                           $840,374,891.73
12/5/2008                                                   $78,804,166.67                                                        $0.00
              WesBanco, Inc.,
9/9/2009                               $75,000,000.00                               $75,000,000.00                                           75,000       $1,000.00                                                     $31.83         100,448        $4,242,500.00
              Wheeling, WV11
12/23/2009                                                                                                                                                                                             $950,000.00
12/31/2008 West                                             $41,195,000.00                                                        $0.00
           Bancorporation,
6/29/2011                              $36,000,000.00                               $36,000,000.00                                           36,000       $1,000.00                                                     $15.19                        $4,495,000.00
           Inc., West Des
                      11
8/31/2011 Moines, IA                                                                                                                                                                                   $700,000.00
2/13/2009                                                   $87,360,236.61                                                        $0.00
9/2/2009   Westamerica                                                              $41,863,000.00                                           41,863       $1,000.00
           Bancorporation,             $83,726,000.00                                                                                                                                                                   $54.08         246,698        $2,755,980.61
11/18/2009 San Rafael, CA11                                                         $41,863,000.00                                           41,863       $1,000.00
11/21/2011                                                                                                                                                                                             $878,256.00
11/21/2008                                                 $160,365,000.00                                                        $0.00
              Western Alliance
9/27/2011     Bancorporation,         $140,000,000.00                              $140,000,000.00                                          140,000       $1,000.00                                                     $24.60                      $19,950,000.00
              Las Vegas, NV44
11/23/2011                                                                                                                                                                                             $415,000.00
              Western
              Community
12/23/2008                               $7,290,000.00         $554,083.00                                                $7,290,000.00                                                                                                                $554,083.00
              Bancshares, Inc.,
              Palm Desert, CA8
12/23/2008                               $6,855,000.00      $13,053,910.87                                                        $0.00
12/29/2009                               $4,567,000.00
              Western Illinois
11/8/2012     Bancshares Inc.,                                                       $1,050,524.72                                            1,117         $940.38         ($66,475.28)                                                              $2,102,189.13
              Monmouth, IL8,14,18
11/9/2012                                                                            $9,673,015.37                                           10,305         $939.53       ($631,984.63)                $335,417.06
1/11/2013                                                                                              ($107,235.41)
5/15/2009  Western Reserve                                    $5,842,197.92                                                       $0.00
           Bancorp, Inc,                 $4,700,000.00                                                                                                                                                                  $7.45                          $907,197.92
11/30/2012 Medina, OH8,11,78                                                         $4,700,000.00                                            4,700       $1,000.00                                    $235,000.00

              White River
              Bancshares
2/20/2009                              $16,800,000.00         $1,589,583.00                                              $16,800,000.00                                                                                                               $1,589,583.00
              Company,
              Fayetteville, AR8
12/19/2008 Whitney Holding                                 $343,733,333.33                                                        $0.00
           Corporation, New           $300,000,000.00                                                                                                                                                                                               $36,833,333.33
6/3/2011   Orleans, LA                                                             $300,000,000.00                                          300,000       $1,000.00                                   $6,900,000.00

12/12/2008 Wilmington Trust                                $369,920,833.33                                                        $0.00
           Corporation,               $330,000,000.00                                                                                                                                                                                   95,383
                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




5/13/2011 Wilmington, DE11                                                         $330,000,000.00                                          330,000       $1,000.00

12/12/2008                                                  $68,809,170.52                                                        $0.00
              Wilshire Bancorp,
4/3/2012      Inc., Los Angeles,       $62,158,000.00                               $58,646,694.58     ($879,700.42)                         62,158         $943.50     ($3,511,305.42)                                 $11.10                      $10,282,176.36
              CA
6/20/2012                                                                                                                                                                                              $760,000.00
                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                       393
CPP TRANSACTIONS DETAIL, AS OF 3/31/2014                                                        (CONTINUED)                                                                                                                                                                                                                         394
                                                                                                                                                                      Number       Average Price                                                                            Stock Price           Current
Transaction                                                                            Capital Repayment /                                Remaining Capital          of Shares         of Shares        (Realized Loss) /                                                      as of          Outstanding     Dividend/Interest
Date        Institution                  Investment Amount          Total Cash Back2 Disposition / Auction2,4           Auction Fee3               Amount            Disposed          Disposed                (Write-off)                  Gain4          Warrant Sales     3/31/14            Warrants       Paid to Treasury
12/19/2008                                                          $300,704,730.81                                                                     $0.00
           Wintrust Financial
12/22/2010 Corporation, Lake                $250,000,000.00                                    $250,000,000.00                                                         250,000          $1,000.00                                                                              $48.66                           $25,104,166.66
           Forest, IL11
2/14/2011                                                                                                                                                                                                                                                 $25,600,564.15
5/15/2009       Worthington                                            $2,780,391.21                                                                    $0.00
                Financial Holdings,
6/24/2013                                     $2,720,000.00                                      $2,343,851.20                                                            2,720           $861.70           ($376,148.80)                                     $90,940.00                                            $370,600.00
                Inc., Huntsville,
7/26/2013       AL8,14                                                                                                   ($24,999.99)
1/23/2009                                                            $57,640,856.64                                                                     $0.00
                WSFS Financial
4/3/2012                                     $52,625,000.00                                     $48,157,663.75         ($722,364.96)                                    52,625            $915.10         ($4,467,336.25)                                                      $71.43                             $8,405,557.85
                Corporation
9/12/2012                                                                                                                                                                                                                                                  $1,800,000.00
1/16/2009                                    $36,000,000.00          $52,383,419.85                                                                     $0.00                                                                                                                                  128,663.33
7/24/2009       Yadkin Valley                $13,312,000.00                                                                                                                                                                                                                                         91,178
                Financial
9/18/2012                                                                                       $44,149,056.00         ($662,235.84)                                    49,312            $893.00         ($5,162,944.00)                                                      $21.41                             $8,820,922.69
                Corporation,
6/10/2013       Elkin, NC                                                                                                                                                                                                                                     $55,677.00
6/11/2013                                                                                                                                                                                                                                                     $20,000.00
4/24/2009       York Traditions                                        $5,705,022.14             $4,871,000.00                                          $0.00
                Bank , York,                  $4,871,000.00                                                                                                                                                                                                                                                         $590,022.14
7/14/2011                                                                                                                                                                 4,871         $1,000.00                                                            $244,000.00
                                                                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                PA8,14,45
11/14/2008                                                        $1,661,027,529.62                                                                     $0.00
3/28/2012       Zions                                                                          $700,000,000.00                                                         700,000          $1,000.00
                Bancorporation,           $1,400,000,000.00                                                                                                                                                                                                                    $30.98        253,361,111       $253,361,111.11
9/26/2012       Salt Lake City, UT11                                                           $700,000,000.00                                                         700,000          $1,000.00
12/5/2012                                                                                                                                                                                                                                                  $7,666,418.51
       Totals                          $204,894,726,320.00 $225,088,350,540.87 $198,205,432,766.42 ($35,805,135.09) $1,958,492,601.88                                                               ($4,730,800,951.70) $6,892,503,361.70 $7,948,821,854.07

Notes: Numbers may not total due to rounding. Data as of 3/31/2014. Numeric notes were taken verbatim from Treasury’s 3/31/2014 Transactions Report. All amounts and totals reflect cumulative receipts from inception through 3/31/2014.

Sources: Treasury, Transactions Report, 3/31/2014; Treasury, Dividends and Interest Report, 4/10/2014.
*Investment Status Definition Key
Full investment outstanding: Treasury’s full investment is still outstanding
Redeemed – institution has repaid Treasury’s investment
Sold – by auction, an offering, or through a restructuring
Exited bankruptcy/receivership - Treasury has no outstanding investment
Currently not collectible - investment is currently not collectible; therefore there is no outstanding investment and a corresponding (Realized Loss) / (Write-off)
In full – all of Treasury’s investment amount
In part – part of the investment is no longer held by Treasury, but some remains
Warrants outstanding – Treasury’s warrant to purchase additional stock is still outstanding, including any exercised warrants
Warrants not outstanding – Treasury has disposed of its warrant to purchase additional stock through various means as described in the Warrant Report (such as sale back to company and auctions) or Treasury did not receive a warrant to purchase additional stock

1
 	All pricing is at par.
2
 	Total Cash Back includes net capital repayments, interest and dividends, warrant proceeds, and other income (less expenses).
3
 	Capital Repayments includes gross capital repayments, gross auction proceeds, exchanges into CDCI, and SBLF fundings.
4
 	Includes: (i) placement fees in private auctions of a CPP issuer’s securities where Treasury pays placement fees to the placement agents in an amount equal to a minimum of $50,000 (per issuer) or 1.00% of gross aggregate proceeds for each security and (ii) unreimbursed underwriting fees in public offerings. Placement
    fees in private auctions are paid approximately one month after settlement.
5
 	Net proceeds from sales and auctions can be calculated by adding the “Amount” and “(Fee)” columns under the “Capital Repayment / Disposition / Auction” plus any amount in the “Gain” column. Note that “(Fee)” is a negative number.
6
 	This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on 1/1/2009, and this
    transaction under the CPP was funded on 1/9/2009.
7
 	The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total net disposition proceeds from CPP warrants on 3/3/2010 was $305,913,040, consisting of $183,547,824 and $122,365,216.
    Proceeds from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
8
 	Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
9
 	To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
10
  	Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
11
  	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
12
  	Redemption pursuant to a qualified equity offering.
13
  	This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
14
  	The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
15
  	Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
16
  	In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
17
  	This institution participated in the expansion of CPP for small banks.
18
  	This institution received an additional investment through the expansion of CPP for small banks.
19
  	Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in Fixed Rate
    Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to purchase shares of Series
    M. On 9/11/2009, Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
20
  	On 8/24/2009, Treasury exchanged its series C preferred stock issued by Popular, Inc. for a like amount of non tax-deductible trust preferred securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
21
  	This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
22
  	As of the date of this report, this institution is in bankruptcy proceedings.
23
  	On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by contingent value rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of common shares to
    holders of CVRs were not met.
24
  	On 12/11/2009, Treasury exchanged its series A preferred stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
25
  	On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended dividend rate
    equivalent to those of Treasury’s original investment.
26
  	On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
27
  	On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.
    Subject to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
28
  	On 3/30/2010, Treasury exchanged its $7,500,000 of subordinated debentures in GulfSouth Private Bank for an equivalent amount of preferred stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial institutions.
29
  	On 4/16/2010, Treasury exchanged its $72,000,000 of preferred stock in Independent Bank Corporation (Independent) for $74,426,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously accrued and unpaid
    dividends. On 7/26/13, Treasury entered into a securities purchase agreement with Independent pursuant to which Treasury agreed to sell to Independent the MCP and the warrant issued by Independent, subject to the conditions specified in such agreement. On 8/30/13, Treasury completed the sale of the MCP and
    warrant to Independent pursuant to the terms of such agreement.
30
  	Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program (see note 11). On
    April 26, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on completion of the sale). Completion
    of the sale under this authority occurred on May 26, 2010. On May 26, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on
    completion of the sale). Completion of the sale under this authority occurred on June 30, 2010. On July 23, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period
    ending on September 30, 2010 (or on completion of the sale). Completion of the sale under this authority occurred on September 30, 2010. On October 19, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain parameters up to
    1,500,000,000 shares of common stock from time to time during the period ending on December 31, 2010 (or upon completion of the sale), which plan was terminated on December 6, 2010. All such sales were generally made at the market price. On December 6, 2010, Treasury commenced an underwritten public
    offering of its remaining 2,417,407,607 shares. See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted average price per share and the total proceeds to Treasury from all such sales during those periods.
31
  	On 8/26/2010, Treasury completed the exchange of its $303,000,000 of preferred stock in Sterling Financial Corporation (Sterling) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on 4/29/2010. Since
    Sterling also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently, as of 8/26/2010, converted into 378,750,000 shares of common stock.
32	
    On 8/20/2010, Sonoma Valley Bank, Sonoma, CA, the banking subsidiary of Sonoma Valley Bancorp, was closed by the California Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
33	
    On 6/30/2010, Treasury exchanged $46,400,000 of its series A preferred stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.
34	
    On 7/20/2010, Treasury completed the exchange of its $400,000,000 of preferred stock in First BanCorp for $424,174,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and unpaid dividends.
    On 10/07/2011, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 32,941,797 shares of common stock of First BanCorp. Treasury received all accrued and previously unpaid dividends on the MCP at the time of the
    conversion. First BanCorp has agreed to have a Treasury observer attend board of directors meetings.
35	
    On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of preferred stock in Pacific Capital for $195,045,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount
    of $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of common stock of Pacific Capital.
    Following a reverse stock split effective 12/28/10, Treasury held 3,608,332 shares of Pacific Capital common stock. Effective 11/30/12, Pacific Capital merged with and into UnionBanCal Corporation and each outstanding share of common stock of the Company was converted into the right to receive $46.00 per share
    in cash, and Treasury received $165,983,272 in respect of its common stock and $393,121 in respect of its warrant.
36
  	This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below.
37
  	At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.
38
  	On 9/30/2010, Treasury completed the exchange of its $80,347,000 of preferred stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on 8/12/2010. Since
    Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock.
39
  	Treasury entered into an agreement on 1/28/2011 with North American Financial Holdings, Inc. for the sale of all preferred stock and warrants issued by Capital Bank Corporation to Treasury for an aggregate purchase price of $41,279,000. Since the conditions to closing of the sale were satisfied, the closing of the sale
    also occurred on 1/28/2011.
40
  	On 2/18/11, Treasury completed the exchange of its $135,000,000 of preferred stock (including accrued and unpaid dividends thereon) in Central Pacific Financial Corp. for not less than 5,620,117 shares of common stock, pursuant to an exchange agreement dated 2/17/2011.
41
  	As a result of the acquisition of Fidelity Resources Company (the acquired company) by Veritex Holdings, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/26/2009 were exchanged for a like amount of securities of the acquiror, pursuant to the terms of an agreement
    among Treasury, the acquired company and the acquiror entered into on 3/23/2011.
42
  	As a result of the acquisition of NC Bancorp, Inc. (the acquired company) by Metropolitan Bank Group, Inc. (the acquiror), Treasury exchanged $6,880,000 of its preferred stock in NC Bancorp, Inc. and $71,526,000 of its preferred stock in Metropolitan Bank Group, Inc. for $81,892,000 of a new series of preferred stock
    in Metropolitan Bank Group, Inc., which is equivalent to the combined initial investment amount of $78,406,000 plus $3,486,000 of capitalized previously accrued and unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 3/30/2011. Exercised
    warrants were also exchanged at the time of the agreement.
43
  	On 7/5/2011, Treasury completed a transaction with Harris Financial Corp., a wholly-owned subsidiary of Bank of Montreal (“BMO”), for the sale of (i) all Marshall & Ilsley Corporation (“M&I”) Preferred Stock held by Treasury for a purchase price of $1,715,000,000 plus accrued dividends and (ii) the Treasury-held M&I
    Warrant for an amount equal to $3,250,000, pursuant to the terms of the agreement between Treasury and BMO entered into on 05/16/2011.
44
  	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 using proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
45
  	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 - part of the repayment amount obtained from proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
46
  	On 11/5/2010, Pierce Commercial Bank, Tacoma, WA, the banking subsidiary of Pierce County Bancorp, was closed by the Washington Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
47
  	On 11/12/2010, Tifton Banking Company, Tifton, GA, was closed by the Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
48
  	On 3/11/2011, Legacy Bank, Milwaukee, WI, the banking subsidiary of Legacy Bancorp, Inc., was closed by the State of Wisconsin Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
49
  	On 4/15/2011, Superior Bank, Birmingham, AL, the banking subsidiary of Superior Bancorp Inc., was closed by the Office of Thrift Supervision, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
50
  	On 7/15/2011, First Peoples Bank, Port Saint Lucie, Florida, the banking subsidiary of FPB Bancorp, Inc., was closed by the Florida Office of Financial Regulation, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
51
  	On 7/15/2011, One Georgia Bank, Atlanta, GA was closed by the State of Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
52
  	On 7/29/2011, Integra Bank, National Association, Evansville, Indiana, the banking subsidiary of Integra Bank Corporation, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
53
  	On 10/21/2011, Treasury completed the exchange of all FNB United Corp. (“FNB United”) preferred stock and warrants held by Treasury for 108,555,303 shares of FNB United common stock and an amended and restated warrant, pursuant to the terms of the agreement between Treasury and FNB United entered into on
    08/12/2011.
54
  	As a result of the acquisition of Berkshire Bancorp, Inc. (the acquired company) by Customers Bancorp, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/12/2009 were exchanged for a like amount of securities of the acquiror plus accrued and previously unpaid
    dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 9/16/2011.
55
  	On 9/23/2011, Citizens Bank of Northern California, Nevada City, California, the banking subsidiary of Citizens Bancorp, was closed by the California Department of Financial Institutions, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
56
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 in connection with the institution’s participation in the Small Business Lending Fund, which occurred at a later date.
57
  	 On 10/14/2011, Country Bank, Aledo, Illinois, the banking subsidiary of CB Holding Corp., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
58
  	As a result of a reincorporation transaction whereby Crescent Financial Corporation (CFC) was merged into Crescent Financial Bancshares, Inc. (CFB), the preferred stock and warrant issued by CFC on 1/9/2009 were exchanged for a like amount of securities of CFB, pursuant to the terms of an agreement among
    Treasury, CFC and CFB entered into on 11/15/2011.
59
  	As a result of the acquisition of Center Financial Corporation by BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.), the preferred stock and warrant issued by Center Financial Corporation were exchanged for a like amount of securities of BBCN Bancorp, Inc., pursuant to the terms of an agreement among Treasury, Center
    Financial Corporation, and BBCN Bancorp, Inc. entered into on 11/30/2011.
60
  	On 1/3/2012, Treasury completed (i) the sale to F.N.B. Corporation (“F.N.B.”) of all of the preferred stock that had been issued to Treasury by Parkvale Financial Corporation (“Parkvale”) for a purchase price of $31,762,000 plus accrued dividends and (ii) the exchange of the Parkvale warrant held by Treasury for a like
    F.N.B. warrant, pursuant to the terms of the agreement between Treasury and F.N.B. entered into on 12/29/2011 in connection with the merger of Parkvale and F.N.B. effective 01/01/2012.
61
  	As a result of the acquisition of State Bancorp, Inc. (the acquired company) by Valley National Bancorp (the acquiror), the warrant issued by the acquired company on 12/5/2008 was exchanged for a like security of the acquiror, pursuant to the terms of an agreement among Treasury, the acquired company and the
    acquiror entered into on 1/1/2012.
62
  	On 1/27/2012, pursuant to the terms of the merger of Regents Bancshares, Inc. (“Regents”) with Grandpoint Capital, Inc., Treasury received $13,214,858.00 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock (including that received from the exercise of
    warrants) that had been issued to Treasury by Regents.
63
  	On 1/27/2012, Tennessee Commerce Bank, Franklin, TN, the banking subsidiary of Tennessee Commerce Bancorp, Inc., was closed by the Tennessee Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
64
  	On 2/10/2012, SCB Bank, Shelbyville, Indiana, the banking subsidiary of Blue River Bancshares, Inc., was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
65
  	On 2/10/2012, Treasury entered into an agreement with Broadway Financial Corporation to exchange Treasury’s $15,000,000 of preferred stock for common stock. The exchange is subject to the fulfillment by Broadway Financial Corporation of certain conditions, including the satisfactory completion of a capital plan.
66
  	On 4/20/2012, Fort Lee Federal Savings Bank, FSB, Fort Lee, New Jersey, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
67
  	As a result of the acquisition of Community Holding Company of Florida, Inc. (the acquired company) by Community Bancshares of Mississippi, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 2/6/2009 were exchanged for a like amount of securities of the acquiror,
    pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 7/19/2012.
68
  	On 7/13/2012, Glasgow Savings Bank, Glasgow, MO, the banking subsidiary of Gregg Bancshares, Inc. , was closed by the Missouri Division of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
69
  	On 7/27/2012, Treasury entered into an agreement with Pinnacle Bank Holding Company, Inc. (“Pinnacle”) pursuant to which Treasury agreed to sell its CPP preferred stock back to Pinnacle at a discount subject to the satisfaction of the conditions specified in the agreement.
70
  	On 10/19/2012, GulfSouth Private Bank, Destin, Florida, was closed by the Florida Office of Financial Regulation, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
71
  	On 10/19/2012, Excel Bank, Sedalia, Missouri, the banking subsidiary of Investors Financial Corporation of Pettis County, Inc., was closed by the Missouri Division of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
72
  	On 10/25/2012, pursuant to the terms of the merger of First Community Bancshares, Inc. (“First Community”) and Equity Bancshares, Inc. (“Equity”), Treasury received a like amount of preferred stock and exercised warrants from Equity in exchange for Treasury’s original investment in First Community, plus accrued and
    unpaid dividends, pursuant to a placement agency agreement executed on 10/23/2012.
73
  	On 10/29/2012, First Place Financial Corp. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the District of Delaware.
74
  	On 2/22/2013, Treasury completed the exchange of its Standard Bancshares, Inc. preferred stock for common stock, pursuant to an exchange agreement, dated as of 11/5/2012, with Standard Bancshares, Inc., and immediately sold the resulting Standard Bancshares, Inc. common stock, pursuant to securities
    purchase agreements, each dated as of 11/5/2012, with W Capital Partners II, L.P., Trident SBI Holdings, LLC, PEPI Capital, LP, LCB Investment, LLC, Cohesive Capital Partners, L.P., and Athena Select Private Investment Fund LLC.
75
  	On 11/2/2012, Citizens First National Bank, Princeton, IL, the banking subsidiary of Princeton National Bancorp, was closed by the Office of the Comptroller of the Currency, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
                                                                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




76
  	On 11/13/2012, Treasury entered into an agreement with Community Financial Shares, Inc. (“CFS”) pursuant to which Treasury agreed to sell its CPP preferred stock back to CFS at a discount subject to the satisfaction of the conditions specified in the agreement.
77
  	In connection with the merger of Fidelity Bancorp, Inc. (“Fidelity”) and WesBanco, Inc. (“WesBanco”) effective 01/01/2012, Treasury (i) sold to WesBanco all of the preferred stock that had been issued by Fidelity to Treasury for a purchase price of $7,000,000 plus accrued dividends and (ii) exchanged the Fidelity warrant
    held by Treasury for a like WesBanco warrant, pursuant to the terms of an agreement among Treasury and WesBanco entered into on 11/28/2012.
78
  	On 11/30/12, Western Reserve Bancorp, Inc. was acquired by an affiliate of Westfield Bancorp, Inc. Pursuant to the terms of the merger, each outstanding share of Series A and Series B preferred stock issued to Treasury was redeemed for the respective principal amount together with accrued and unpaid dividends
    thereon.
79
  	On 2/20/2013, Treasury sold its CPP preferred stock and warrant issued by First Sound Bank (“First Sound”) back to First Sound for an aggregate purchase price of $3,700,000, pursuant to the terms of the agreement between Treasury and First Sound entered into on 11/30/2012.
                                                                                                                                                                                                                                                                                                                                         395
                                                                                                                                                                                                                                                                                                                                             396
80
  	On 4/9/2013, Treasury sold its CPP preferred stock and warrant issued by PremierWest Bancorp (“PremierWest”) pursuant to an agreement with PremierWest and Starbuck Bancshares, Inc. (“Starbuck”) entered into on 12/11/2012.
81
  	In connection with the merger of Community Financial Corporation (“Community Financial”) and City Holding Company (“City Holding”) effective 1/09/13, Treasury (i) sold to City Holding all of the preferred stock that had been issued by Community Financial to Treasury for a purchase price of $12,643,000 plus accrued
     dividends and (ii) exchanged the Community Financial warrant held by Treasury for a like City Holding warrant, pursuant to the terms of an agreement among Treasury and City Holding entered into on 1/09/13.
82
  	On 1/29/2013, Treasury executed a placement agency agreement pursuant to which Treasury agreed to sell 9,950 shares of Coastal Banking Company, Inc. Preferred stock at $815.00 per share (less a placement agent fee) for net proceeds of $8,028,157.50. On 2/6/2013, the placement agent notified Coastal
     Banking Company, Inc. that, pursuant to the placement agency agreement, it was terminating the transaction and, therefore, Treasury did not receive any proceeds or pay any fees in connection with the transaction.
83
  	On 2/15/2013, Treasury sold its CPP preferred stock and warrant issued by BancTrust Financial Group, Inc. (“BancTrust”) pursuant to an agreement with BancTrust and Trustmark Corporation (“Trustmark”) entered into on 02/11/2013.
84
  	On 8/14/2013, Treasury sold its CPP preferred stock issued by Florida Bank Group, Inc. (“FBG”) back to FBG for an aggregate purchase price of $8,000,000, pursuant to the terms of the agreement between Treasury and FBG entered into on 2/12/13.
85
  	On 2/15/2013, pursuant to the terms of the merger of Pacific International Bancorp, Inc. (“Pacific International”) with BBCN Bancorp, Inc. (“BBCN”), Treasury received $7,474,619.97 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock that had been issued to
     Treasury by Pacific International. Treasury exchanged its Pacific International warrant for an equivalent warrant issued by BBCN.
86
  	On 4/12/2013, Treasury completed (i) the sale of its CPP preferred in Citizens Republic Bancorp, Inc. (Citizens Republic) to FirstMerit Corporation (FirstMerit) and (ii) the exchange of its warrant in Citizens Republic for a warrant issued by FirstMerit, pursuant to a securities purchase agreement, dated as of 2/19/13, among
     Treasury, FirstMerit and Citizens Republic.
87
  	On 4/11/2013, Treasury completed the exchange of its First Security Group, Inc. (FSGI) preferred stock for common stock, pursuant to an exchange agreement, dated as of 2/25/2013, between Treasury and FSGI, and sold the resulting FSGI common stock, pursuant to securities purchase agreements, each dated as of
     4/9/2013, between Treasury and the purchasers party thereto.
88
  	On 3/19/2013, Treasury exercised its warrant on a cashless basis and received (i) 186,589 shares of common stock and (ii) $71.62 in cash in lieu of fractional shares. Treasury sold such shares of common stock on 3/19/2013.
89
  	As a result of the acquisition of ECB Bancorp, Inc. by Crescent Financial Bancshares, Inc., the preferred stock and warrant issued by ECB Bancorp, Inc. were exchanged for a like amount of securities of Crescent Financial Bancshares, Inc., pursuant to the terms of an agreement among Treasury, ECB Bancorp, Inc., and
     Crescent Financial Bancshares, Inc. entered into on 4/1/2013.
90
  	As a result of the merger of Annapolis Bancorp, Inc. into F.N.B. Corporation, the warrant issued by Annapolis Bancorp, Inc. was exchanged for a like warrant issued by F.N.B. Corporation, pursuant to the terms of an agreement among Treasury, Annapolis Bancorp, Inc., and F.N.B. Corporation entered into on 4/6/2013.
91
  	On 04/05/2013, Gold Canyon Bank, Gold Canyon, Arizona was closed by the Arizona Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
92
  	On 04/09/2013, Indiana Bank Corp. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the Southern District of Indiana.
93
  	On 7/17/13, Treasury entered into a securities purchase agreement with Central Virginia Bankshares, Inc. (CVB) and C&F Financial Corporation (C&F) pursuant to which Treasury agreed to sell to C&F the CPP preferred stock and warrant issued by CVB, subject to the conditions specified in such agreement. The sale was
     completed on 10/1/2013.
94
  	On 8/12/2013, Anchor BanCorp Wisconsin Inc. ( “Anchor”) filed a voluntary petition for Chapter 11 protection in the U.S. Bankruptcy Court for the Western District of Wisconsin to implement a “pre-packaged” Plan of Reorganization in order to facilitate the restructuring of Anchor. On 9/27/ 2013, the Plan of Reorganization
     became effective in accordance with its terms, pursuant to which (i) Treasury’s preferred stock was exchanged for 60,000,000 shares of common stock (the “Common Stock”) and (ii) Treasury’s warrant was cancelled. On 9/27/2013, Treasury sold the Common Stock to purchasers pursuant to securities purchase
     agreements entered into on 9/19/2013.
95
  	On 7/5/2013, Rogers Bancshares, Inc. filed for Chapter 11 protection in the U.S. Bankruptcy Court for the Eastern District of Arkansas.
96
  	On 8/22/2013, Treasury exchanged its preferred stock in Broadway Financial Corporation for 10,146 shares of common stock equivalent representing (i) 50% of the liquidation preference of the preferred stock, plus (ii) 100% of previously accrued and unpaid dividends on the preferred stock ($2,646,000). The common
     stock equivalent will be converted to common stock upon the receipt of certain shareholder approvals.
97
  	This institution has entered into bankruptcy or receivership. For a full list of institutions that have entered bankruptcy or receivership and Treasury’s remaining investments, reference appendices B and C in the section titled “Capital Purchase Program Institutions” in the most recent report to congress found on Treasury’s
     website: www.treasury.gov/initiatives/financial-stability/reports/Pages/Monthly-Report-to-Congress.aspx.
98
  	On 10/30/2013, Treasury entered into an agreement with Monarch Community Bancorp, Inc. (Monarch) to exchange Treasury’s CPP warrant and $6,785,000 of preferred stock for common stock. The exchange was subject to the fulfillment by Monarch of certain conditions, including the satisfactory completion of a
     capital plan. On 11/15/2013, the exchange of the CPP warrant and preferred stock for common stock was completed and Treasury sold such common stock to purchasers pursuant to securities purchase agreements dated as of 11/15/2013.
99
  	On 12/5/2013, Treasury’s 10,146 shares of common stock equivalent in Broadway Financial converted to 10,146,000 shares of common stock.
                                                                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




100
   	On 12/13/2013, Texas Community Bank, National Association, The Woodlands, Texas, the banking subsidiary of TCB Holding Company, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
101
   	As a result of a reincorporation merger of Community Bankers Trust Corporation, a Delaware corporation (CBTC Delaware) into Community Bankers Trust Corporation, a Virginia corporation (CBTC Virginia), the outstanding preferred stock and warrant issued by CBTC Delaware were exchanged for a like amount of securities
     issued by CBTC Virginia, pursuant to the terms of an agreement among Treasury, CBTC Delaware and CBTC Virginia entered into on 1/1/14.
102
   	On 10/15/13, Treasury entered into a securities purchase agreement with First-Citizens Bank & Trust Company (FCBTC) and 1st Financial Services Corporation (FFSC) pursuant to which Treasury agreed to sell to FCBTC the CPP preferred stock and warrant issued by FFSC, subject to the conditions specified in such
     agreement. The sale was completed on 12/31/2013.
103
   	On 1/31/2014, Syringa Bank, Boise, Idaho, the banking subsidiary of Syringa Bancorp, was closed by the Idaho Department of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.

Sources: Treasury, Transactions Report, 3/31/2014; Dividends and Interest Report, 4/10/2014; Treasury, response SIGTARP data call, 4/10/2014; Bloomberg, LP, accessed 4/1/2014.




 TABLE D.2
 CPP - CITIGROUP, INC. COMMON STOCK DISPOSITION, AS OF 3/31/2014

     Note    Date                                     Pricing Mechanism6                       Number of Shares                                   Proceeds7
      1      4/26/2010 - 5/26/2010                                    $4.12                         1,500,000,000                           $6,182,493,158
      2      5/26/2010 - 6/30/2010                                    $3.90                         1,108,971,857                           $4,322,726,825
      3      7/23/2010 - 9/30/2010                                    $3.91                         1,500,000,000                           $5,863,489,587
      4      10/19/2010 - 12/6/2010                                   $4.26                         1,165,928,228                           $4,967,921,811
      5      12/6/2010                                                $4.35                         2,417,407,607                          $10,515,723,090
                                                                                                  Total Proceeds:                        $31,852,354,471


 Notes: Numbers may not total due to rounding. Data as of 3/31/2014. Numbered notes taken verbatim from 3/19/2014 Transactions Report.

 1	On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
    certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of
    the sale). Completion of the sale under this authority occurred on 5/26/2010.
 2	On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
    certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of
    the sale). Completion of the sale under this authority occurred on 6/30/2010.
 3	On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
    parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of the sale).
    Completion of the sale under this authority occured on 9/30/2010.
 4	On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to
    certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of
    the sale), which plan was terminated on 12/6/2010.
 5	On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the
    fulfillment of certain closing conditions.
 6	The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding
    period.
 7	Amount represents the gross proceeds to Treasury.

 Source: Treasury, Transactions Report, 3/19/2014.
TABLE D.3
CDCI PROGRAM TRANSACTION DETAIL, AS OF 3/31/2014
                                                     Seller                                                                           Purchase Details                                                                 Disposition Details
       Purchase                                                                                                             Amount                                                    Pricing                                        Remaining     Dividend/Interest Paid
Note   Date        Name of Institution                                                State   Investment Description      from CPP    Additional Investment    Investment Amount   Mechanism          Date        Amount     Investment Amount                to Treasury
       9/24/2010   Alternatives Federal Credit Union, Ithaca, NY                       NY     Subordinated Debentures          $­—                       $­—          $2,234,000          Par                                                                   $151,540
       9/17/2010   American Bancorp of Illinois, Inc., Oak Brook, IL                   IL     Subordinated Debentures          $­—                       $­—          $5,457,000          Par                                                                   $577,047
 6     9/24/2010   Atlantic City Federal Credit Union, Lander, WY                      WY     Subordinated Debentures          $­—                       $­—          $2,500,000          Par    9/26/20126    $2,500,000                    $­—                $100,278
       9/24/2010   Bainbridge Bancshares, Inc., Bainbridge, GA                         GA     Preferred Stock                  $­—                       $­—          $3,372,000          Par                                                                   $228,734
 8     9/29/2010   Bancorp of Okolona, Inc., Okolona, MS                               MS     Subordinated Debentures          $­—                       $­—          $3,297,000          Par    3/13/20136    $3,297,000                    $­—                $250,975
1, 2   9/29/2010   BancPlus Corporation, Ridgeland, MS                                 MS     Preferred Stock           $50,400,000           $30,514,000            $80,914,000          Par                                                                 $5,466,190
       9/29/2010   BankAsiana, Palisades Park, NJ                                      NJ     Preferred Stock                  $­—                       $­—          $5,250,000          Par    10/1/20136    $5,250,000                    $­—                $315,583
       9/29/2010   Bethex Federal Credit Union, Bronx, NY                              NY     Subordinated Debentures          $­—                       $­—           $502,000           Par                                                                    $33,913
       9/29/2010   Border Federal Credit Union, Del Rio, TX                            TX     Subordinated Debentures          $­—                       $­—          $3,260,000          Par                                                                   $220,231
 6     9/24/2010   Brewery Credit Union, Milwaukee, WI                                 WI     Subordinated Debentures          $­—                       $­—          $1,096,000          Par    10/3/20126    $1,096,000                    $­—                 $44,388
       9/30/2010   Brooklyn Cooperative Federal Credit Union, Brooklyn, NY             NY     Subordinated Debentures          $­—                       $­—           $300,000           Par                                                                    $20,250
       9/24/2010   Buffalo Cooperative Federal Credit Union, Buffalo, NY               NY     Subordinated Debentures          $­—                       $­—           $145,000           Par                                                                     $9,836
       9/24/2010   Butte Federal Credit Union, Biggs, CA                               CA     Subordinated Debentures          $­—                       $­—          $1,000,000          Par                                                                    $67,833
 6     9/29/2010   Carter Federal Credit Union, Springhill, LA                         LA     Subordinated Debentures          $­—                       $­—          $6,300,000          Par     2/6/20136    $2,500,000            $3,800,000                 $374,350
1, 3   8/27/2010   Carver Bancorp, Inc, New York, NY                                   NY     Common Stock              $18,980,000                      $­—         $18,980,000          Par                                                                   $446,507
       9/17/2010   CFBanc Corporation, Washington, DC                                  DC     Preferred Stock                  $­—                       $­—          $5,781,000          Par                                                                   $394,393
 1     8/13/2010                                                                              Preferred Stock            $7,462,000                      $­—                 $­—          Par
                   Citizens Bancshares Corporation, Atlanta, GA                        GA                                                                                                                                                                       $821,914
 2a    9/17/2010                                                                              Preferred Stock                  $­—              $4,379,000           $11,841,000          Par
 1     9/29/2010   Community Bancshares of Mississippi, Inc., Brandon, MS              MS     Preferred Stock           $54,600,000                      $­—         $54,600,000          Par                                                                 $3,688,533
1, 2   9/29/2010   Community Bank of the Bay, Oakland, CA                              CA     Preferred Stock            $1,747,000             $2,313,000            $4,060,000          Par                                                                   $253,976
       9/24/2010   Community First Guam Federal Credit Union, Hagatna, GU              GU     Subordinated Debentures          $­—                       $­—          $2,650,000          Par                                                                   $179,758
       9/29/2010   Community Plus Federal Credit Union, Rantoul, IL                    IL     Subordinated Debentures          $­—                       $­—           $450,000           Par                                                                    $30,400
       9/24/2010   Cooperative Center Federal Credit Union, Berkeley, CA               CA     Subordinated Debentures          $­—                       $­—          $2,799,000          Par                                                                   $189,866
       9/29/2010   D.C. Federal Credit Union, Washington, DC                           DC     Subordinated Debentures          $­—                       $­—          $1,522,000          Par                                                                   $102,820
       9/29/2010   East End Baptist Tabernacle Federal Credit Union, Bridgeport, CT    CT     Subordinated Debentures          $­—                       $­—             $7,000           Par                                                                       $473
       9/29/2010   Episcopal Community Federal Credit Union, Los Angeles, CA           CA     Subordinated Debentures          $­—                       $­—           $100,000           Par                                                                     $6,756
       9/24/2010   Fairfax County Federal Credit Union, Fairfax, VA                    VA     Subordinated Debentures          $­—                       $­—          $8,044,000          Par                                                                   $545,651
       9/29/2010   Faith Based Federal Credit Union, Oceanside, CA                     CA     Subordinated Debentures          $­—                       $­—            $30,000           Par                                                                     $2,027
       9/29/2010   Fidelis Federal Credit Union, New York, NY                          NY     Subordinated Debentures          $­—                       $­—            $14,000           Par                                                                       $946
 1     8/13/2010   First American International Corp., Brooklyn, NY                    NY     Preferred Stock           $17,000,000                      $­—         $17,000,000          Par                                                                 $1,207,976
1, 7   9/24/2010   First Choice Bank, Cerritos, CA                                     CA     Preferred Stock            $5,146,000                      $­—          $5,146,000          Par     5/1/20137    $5,146,000                    $­—                $267,878
 1     9/17/2010   First Eagle Bancshares, Inc., Hanover Park, IL                      IL     Subordinated Debentures    $7,875,000                      $­—          $7,875,000          Par                                                                   $832,738
       9/29/2010   First Legacy Community Credit Union, Charlotte, NC                  NC     Subordinated Debentures          $­—                       $­—          $1,000,000          Par                                                                    $67,556
 1     9/29/2010   First M&F Corporation, Kosciusko, MS                                MS     Preferred Stock           $30,000,000                      $­—         $30,000,000          Par    8/30/20137   $30,000,000                    $­—              $1,751,667
 1     9/29/2010   First Vernon Bancshares, Inc., Vernon, AL                           AL     Preferred Stock            $6,245,000                      $­—          $6,245,000          Par                                                                   $432,114
 6     9/29/2010   Freedom First Federal Credit Union, Roanoke, VA                     VA     Subordinated Debentures          $­—                       $­—          $9,278,000          Par    6/12/20136    $9,278,000                    $­—                $501,527
 6     9/24/2010   Gateway Community Federal Credit Union, Missoula, MT                MT     Subordinated Debentures          $­—                       $­—          $1,657,000          Par   10/17/20126    $1,657,000                    $­—                 $68,397
       9/17/2010   Genesee Co-op Federal Credit Union, Rochester, NY                   NY     Subordinated Debentures          $­—                       $­—           $300,000           Par                                                                    $20,467
 6     9/29/2010   Greater Kinston Credit Union, Kinston, NC                           NC     Subordinated Debentures          $­—                       $­—           $350,000           Par    4/10/20126     $350,000                     $­—                 $10,714
 1     7/30/2010   Guaranty Capital Corporation, Belzoni, MS                           MS     Subordinated Debentures   $14,000,000                      $­—         $14,000,000          Par                                                                 $1,537,083
       9/29/2010   Hill District Federal Credit Union, Pittsburgh, PA                  PA     Subordinated Debentures          $­—                       $­—           $100,000           Par                                                                     $6,756
       9/17/2010   Hope Federal Credit Union, Jackson, MS                              MS     Subordinated Debentures          $­—                       $­—          $4,520,000          Par                                                                   $308,364
1, 2   9/10/2010   IBC Bancorp, Inc., Chicago, IL                                      IL     Subordinated Debentures    $4,205,000             $3,881,000            $8,086,000          Par                                                                   $859,924
 1     9/3/2010    IBW Financial Corporation, Washington, DC                           DC     Preferred Stock            $6,000,000                      $­—          $6,000,000          Par                                                                   $414,000
                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




       9/29/2010   Independent Employers Group Federal Credit Union, Hilo, HI          HI     Subordinated Debentures          $­—                       $­—           $698,000           Par                                                                    $47,154
       9/3/2010    Kilmichael Bancorp, Inc., Kilmichael, MS                            MS     Subordinated Debentures          $­—                       $­—          $3,154,000          Par                                                                   $337,320
 1     9/29/2010   Lafayette Bancorp, Inc., Oxford, MS                                 MS     Preferred Stock            $4,551,000                      $­—          $4,551,000          Par                                                                   $307,445
       9/24/2010   Liberty County Teachers Federal Credit Union, Liberty, TX           TX     Subordinated Debentures          $­—                       $­—           $435,000           Par                                                                    $29,508
                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                             397
CDCI PROGRAM TRANSACTION DETAIL, AS OF 3/31/2014                                                                  (CONTINUED)                                                                                                                                                                                     398
                                                        Seller                                                                                     Purchase Details                                                                                      Disposition Details
        Purchase                                                                                                                       Amount                                                            Pricing                                                       Remaining        Dividend/Interest Paid
Note    Date          Name of Institution                                                     State   Investment Description         from CPP      Additional Investment      Investment Amount       Mechanism               Date                Amount       Investment Amount                   to Treasury
1, 2    9/24/2010     Liberty Financial Services, Inc., New Orleans, LA                         LA    Preferred Stock               $5,645,000                $5,689,000             $11,334,000               Par                                                                                    $768,823
        9/24/2010     Lower East Side People’s Federal Credit Union, New York, NY              NY     Subordinated Debentures               $­—                       $­—                $898,000              Par                                                                                     $60,914
  1     8/20/2010     M&F Bancorp, Inc., Durham, NC                                            NC     Preferred Stock             $11,735,000                         $­—            $11,735,000               Par                                                                                    $818,190
  1     8/20/2010                                                                                     Preferred Stock               $5,500,000                        $­—                      $­—             Par
                      Mission Valley Bancorp, Sun Valley, CA                                   CA                                                                                                                                                                                                     $711,514
 2a     9/24/2010                                                                                     Preferred Stock                       $­—               $4,836,000             $10,336,000               Par
        9/24/2010     Neighborhood Trust Federal Credit Union, New York, NY                    NY     Subordinated Debentures               $­—                       $­—                $283,000              Par                                                                                     $19,198
        9/29/2010     North Side Community Federal Credit Union, Chicago, IL                    IL    Subordinated Debentures               $­—                       $­—                $325,000              Par                                                                                     $21,956
        9/24/2010     Northeast Community Federal Credit Union, San Francisco, CA              CA     Subordinated Debentures               $­—                       $­—                $350,000              Par                                                                                     $23,742
        9/29/2010     Opportunities Credit Union, Burlington, VT                                VT    Subordinated Debentures               $­—                       $­—              $1,091,000              Par                                                                                     $73,703
  1     8/13/2010     PGB Holdings, Inc., Chicago, IL                                           IL    Preferred Stock               $3,000,000                        $­—              $3,000,000              Par                                                                                     $30,333
        9/24/2010     Phenix Pride Federal Credit Union, Phenix City, AL                        AL    Subordinated Debentures               $­—                       $­—                $153,000              Par                                                                                     $10,379
1, 4    8/13/2010     Premier Bancorp, Inc., Wilmette, IL                                       IL    Subordinated Debentures       $6,784,000                        $­—              $6,784,000              Par     1/29/20134                 $79,900                       $­—                         $­—
        9/24/2010     Prince Kuhio Federal Credit Union, Honolulu, HI                           HI    Subordinated Debentures               $­—                       $­—                $273,000              Par                                                                                     $18,519
1, 7    9/29/2010     PSB Financial Corporation, Many, LA                                       LA    Preferred Stock               $9,734,000                        $­—              $9,734,000              Par    12/28/20127             $9,734,000                        $­—                   $437,489
        9/24/2010     Pyramid Federal Credit Union, Tucson, AZ                                  AZ    Subordinated Debentures               $­—                       $­—              $2,500,000              Par                                                                                    $169,583
                                                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




        9/29/2010     Renaissance Community Development Credit Union, Somerset, NJ              NJ    Subordinated Debentures               $­—                       $­—                 $31,000              Par                                                                                       $2,094
        9/24/2010     Santa Cruz Community Credit Union, Santa Cruz, CA                        CA     Subordinated Debentures               $­—                       $­—              $2,828,000              Par                                                                                    $191,833
  1     9/29/2010     Security Capital Corporation, Batesville, MS                             MS     Preferred Stock             $17,910,000                         $­—            $17,910,000               Par                                                                                  $1,209,920
1, 2    9/29/2010     Security Federal Corporation, Aiken, SC                                  SC     Preferred Stock             $18,000,000                 $4,000,000             $22,000,000               Par                                                                                  $1,486,222
        9/29/2010     Shreveport Federal Credit Union, Shreveport, LA                           LA    Subordinated Debentures               $­—                       $­—              $2,646,000              Par                                                                                    $178,752
1, 2    8/6/2010      Southern Bancorp, Inc., Arkadelphia, AR                                   AR    Preferred Stock             $11,000,000               $22,800,000              $33,800,000               Par                                                                                  $2,382,900
        9/29/2010     Southern Chautauqua Federal Credit Union, Lakewood, NY                   NY     Subordinated Debentures               $­—                       $­—              $1,709,000              Par                                                                                    $115,452
        9/29/2010     Southside Credit Union, San Antonio, TX                                   TX    Subordinated Debentures               $­—                       $­—              $1,100,000              Par    10/30/20136             $1,100,000                        $­—                    $67,894
  1     9/29/2010     State Capital Corporation, Greenwood, MS                                 MS     Preferred Stock             $15,750,000                         $­—            $15,750,000               Par                                                                                  $1,064,000
1, 2    9/29/2010     The First Bancshares, Inc., Hattiesburg, MS                              MS     Preferred Stock               $5,000,000              $12,123,000              $17,123,000               Par                                                                                  $1,156,754
        9/29/2010     The Magnolia State Corporation, Bay Springs, MS                          MS     Subordinated Debentures               $­—                       $­—              $7,922,000              Par                                                                                    $829,521
                      Thurston Union of Low-Income People (TULIP) Cooperative Credit Union,
        9/24/2010                                                                              WA     Subordinated Debentures               $­—                       $­—                 $75,000              Par                                                                                       $5,088
                      Olympia, WA
        9/24/2010     Tongass Federal Credit Union, Ketchikan, AK                               AK    Subordinated Debentures               $­—                       $­—              $1,600,000              Par                                                                                    $108,533
  1     8/13/2010     Tri-State Bank of Memphis, Memphis, TN                                   TN     Preferred Stock               $2,795,000                        $­—              $2,795,000              Par                                                                                    $195,961
        9/24/2010     Tulane-Loyola Federal Credit Union, New Orleans, LA                       LA    Subordinated Debentures               $­—                       $­—                $424,000              Par                                                                                     $28,761
        9/24/2010     Union Baptist Church Federal Credit Union, Fort Wayne, IN                 IN    Subordinated Debentures               $­—                       $­—                 $10,000              Par                                                                                         $678
        9/29/2010     Union Settlement Federal Credit Union, New York, NY                      NY     Subordinated Debentures               $­—                       $­—                $295,000              Par                                                                                     $19,929
  1     9/3/2010      United Bancorporation of Alabama, Inc., Atmore, AL                        AL    Preferred Stock             $10,300,000                         $­—            $10,300,000               Par                                                                                    $710,700
                      UNITEHERE Federal Credit Union, (Workers United Federal Credit
  6     9/29/2010                                                                              NY     Subordinated Debentures               $­—                       $­—                 $57,000              Par     3/20/20136                 $57,000                       $­—                      $2,822
                      Union), New York, NY
1, 2    7/30/2010     University Financial Corp, Inc., St. Paul, MN                            MN     Subordinated Debentures     $11,926,000               $10,189,000              $22,115,000               Par    11/28/20126            $22,115,000                        $­—                 $1,595,843
  6     9/24/2010     UNO Federal Credit Union, New Orleans, LA                                 LA    Subordinated Debentures               $­—                       $­—                $743,000              Par      9/4/20136               $743,000                        $­—                    $43,754
        9/29/2010     Vigo County Federal Credit Union, Terre Haute, IN                         IN    Subordinated Debentures               $­—                       $­—              $1,229,000              Par                                                                                     $83,026
        9/24/2010     Virginia Community Capital, Inc., Christiansburg, VA                      VA    Subordinated Debentures               $­—                       $­—              $1,915,000              Par                                                                                    $129,901
                                                                                                                                                  Total Purchase Amount            $570,073,000                        Total Capital Repayment Amount                $94,902,900
                                                                                                                                                           TOTAL TREASURY COMMUNITY DEVELOPMENT INITIATIVE (CDCI) INVESTMENT AMOUNT                                 $468,466,000
Notes: Numbers may not total due to rounding. Data as of 3/31/2014. Numbered notes are taken verbatim from Treasury’s 3/19/2014 Transactions Report.

1	This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2	Treasury made an additional investment in this institution at the time it entered the CDCI program.
2a	Treasury made an additional investment in this institution after the time it entered the CDCI program.
3	On 10/28/2011, Treasury completed the exchange of all Carver Bancorp, Inc. (“Carver”) preferred stock held by Treasury for 2,321,286 shares of Carver common stock, pursuant to the terms of the agreement between Treasury and Carver entered into on 6/29/2011. Accrued and previously unpaid dividends
    were paid on the date of the exchange.
4	On 3/23/2012, Premier Bank, Wilmette, IL, the banking subsidiary of Premier Bancorp, Inc., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver. On 1/29/2013, UST received $79,900
    representing the total amount of distributions paid to creditors as a result of the liquidation of Premier Bancorp, Inc.
5	Repayment pursuant to Section 5 of the CDCI Certificate of Designation.
6	Repayment pursuant to Section 6.10 of the CDCI Securities Purchase Agreement.
7	Repayment pursuant to Section 5 of the CDCI Exchange Agreement.
8	Repayment pursuant to Section 6.11 of the CDCI Securities Purchase Agreement.
9	Repayment pursuant to Section 5.11 of the CDCI Exchange Agreement.

Sources: Treasury, Transactions Report, 3/19/2014; Treasury, Dividends and Interest Report, 4/10/2014.
TABLE D.4
AIFP TRANSACTION DETAIL, AS OF 3/31/2014
                                                                                                                                                   Treasury Investment After Exchange/Transfer/
                                          Initial Investment                                           Exchange/Transfer/Other Details             Other                                                                                Payment or Disposition1
                                                                                                                                                                                                                                                                       Remaining
                                                                                                                                                                                                                                                  Remaining           Investment         Dividend/
                          Transaction                                                                                                                                                      Amount/                                      Amount/ Investment              Amount/    Interest Paid to
              Date        Type        Seller        Description             Amount Note     Date           Type                     Amount Note Obligor          Note Description          Equity %         Date          Type          Proceeds Description            Equity %         Treasurya
                                                    Preferred                                              Exchange for
                                                    Stock w/                                               convertible                                                 Convertible
              12/29/2008 Purchase     GMAC                           $5,000,000,000         12/30/2009                       $5,000,000,000                      21,
                                                    Exercised                                              preferred                               GMAC (Ally)          Preferred    $5,937,500,000 11/20/2013 Disposition38       $5,925,000,000         N/A               $—
                                                                                                                                                                 22
                                                    Warrants                                               stock                                                           Stock

                                                                                                           Partial
                                                    Convertible
                                                                                                           conversion
                                                    Preferred
                                                                                                           of preferred
              5/21/2009   Purchase    GMAC          Stock w/         $7,500,000,000   22    12/30/2009                       $3,000,000,000
                                                                                                           stock for
                                                    Exercised
                                                                                                           common
                                                    Warrants                                                                                                      3,
GMAC                                                                                                       stock
                                                                                                                                                                 26,     Common                                          Partial                     Common
(Ally),                                                                                                                                            GMAC (Ally)                               63.5%     1/23/2014                   $3,023,750,000                           37%    $3,679,893,757
                                                                                                           Partial                                               32,       Stock                                   Disposition40                       Stock
Detroit, MI                                         Convertible
                                                                                                           conversion                                            38
                                                    Preferred
                                                                                      22,                  of preferred
              12/30/2009 Purchase     GMAC          Stock w/         $1,250,000,000         12/30/2010                       $5,500,000,000   26
                                                                                      26                   stock for
                                                    Exercised
                                                                                                           common
                                                    Warrants
                                                                                                           stock
                                                    Trust                                                  Exchange for
                                                    Preferred                                              amended and                                                      Trust
              12/30/2009 Purchase     GMAC          Securities       $2,540,000,000         3/1/2011       restated Trust    $2,667,000,000   27   GMAC (Ally)    27    Preferred    $2,667,000,000     3/2/2011 Disposition28     $2,667,000,000         N/A               $—
                                                    w/ Exercised                                           Preferred                                                    Securities
                                                    Warrants                                               Securities
                                                                                                           Exchange
                                      General
                                                    Debt                                                   for equity
              12/29/2008 Purchase     Motors                          $884,024,131    2     5/29/2009                         $884,024,131    3
                                                    Obligation                                             interest in
                                      Corporation
                                                                                                           GMAC
                                                                                                           Exchange
                                                    Debt
                                      General                                                              for preferred
                                                    Obligation
              12/31/2008 Purchase     Motors                        $13,400,000,000         7/10/2009      and common       $13,400,000,000   7
                                                    w/ Additional
                                      Corporation                                                          stock in New
                                                    Note
                                                                                                           GM
                                                                                                           Exchange
                                                    Debt
                                      General                                                              for preferred                           General       10,
                                                    Obligation                                                                                                           Preferred
              4/22/2009   Purchase    Motors                         $2,000,000,000   4     7/10/2009      and common        $2,000,000,000   7    Motors        11,                 $2,100,000,000 12/15/2010      Repayment      $2,139,406,778         N/A                $0
                                                    w/ Additional                                                                                                           Stock
                                      Corporation                                                          stock in New                            Company       24
                                                    Note
                                                                                                           GM
                                                                                                                                                                                                                         Partial                     Common
                                                                                                                                                                                                      11/18/2010                 $11,743,303,903                          36.9%
                                                                                                                                                                                                                   Disposition25                       Stock
                                                                                                                                                                                                                       Partial                       Common
                                                                                                                                                                                                      11/26/2010                   $1,761,495,577                        32.04%
                                                                                                                                                                                                                 Disposition25                         Stock
                                                                                                                                                                                                                       Partial                       Common
                                                                                                                                                                                                      12/21/2012                   $5,500,000,000                        21.97%
                                                                                                                                                                                                                 Disposition33                         Stock
General
Motorsb,c                                                                                                  Exchange                                                                                                    Partial                       Common                         $756,714,508
                                                    Debt                                                                                                                                               4/11/2013                   $1,637,839,844                        17.69%
Detroit, MI                           General                                                              for preferred                           General       10,                                             Disposition34                         Stock
                                                    Obligation                                                                                                           Common
              5/20/2009   Purchase    Motors                         $4,000,000,000   5     7/10/2009      and common        $4,000,000,000   7    Motors        11,                         60.8%
                                                    w/ Additional                                                                                                          Stock                                         Partial                     Common
                                      Corporation                                                          stock in New                            Company       25                                    6/12/2013                   $1,031,700,000                        13.80%
                                                    Note                                                                                                                                                           Disposition35                       Stock
                                                                                                           GM
                                                                                                                                                                                                                       Partial                       Common
                                                                                                                                                                                                       9/13/2013                   $3,822,724,832                         7.32%
                                                                                                                                                                                                                 Disposition36                         Stock
                                                                                                                                                                                                                       Partial                       Common
                                                                                                                                                                                                      11/20/2013                   $2,563,441,956                         2.24%
                                                                                                                                                                                                                 Disposition37                         Stock
                                                                                                                                                                                                                       Partial                       Common
                                                                                                                                                                                                       12/9/2013                   $1,208,249,982                         0.00%
                                                                                                                                                                                                                 Disposition39                         Stock
                                                                                                                                                                                                                        Partial                          Debt
                                                                                                                                                                                                       7/10/2009                    $360,624,198                  $6,711,864,407
                                                                                                                                                                                                                    Repayment                       Obligation
                                                                                                                                                                                                                        Partial                          Debt
                                                                                                           Exchange                                                                                   12/18/2009                   $1,000,000,000                 $5,711,864,407
                                                    Debt                                                                                           General                                                          Repayment                       Obligation
                                      General                                                              for preferred
                                                    Obligation                                                                                     Motors        11,         Debt
              5/27/2009   Purchase    Motors                          $360,624,198    6     7/10/2009      and common         $360,624,198    7                                      $7,072,488,605                     Partial                          Debt
                                                    w/ Additional                                                                                  Holdings      12     Obligation                     1/21/2010                     $35,084,421                  $5,676,779,986
                                      Corporation                                                          stock in New                                                                                             Repayment                       Obligation
                                                    Note                                                                                           LLC
                                                                                                           GM
                                                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                                                                                                                                                                                                        Partial                          Debt
                                                                                                                                                                                                       3/31/2010                   $1,000,000,000                 $4,676,779,986
                                                                                                                                                                                                                    Repayment                       Obligation
                                                                                                                                                                                                       4/20/2010    Repayment      $4,676,779,986         N/A                $0
                                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                                      399
AIFP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)                                                                                                                                                                                             400
                                                                                                                                            Treasury Investment After Exchange/Transfer/
                                         Initial Investment                                       Exchange/Transfer/Other Details           Other                                                                            Payment or Disposition1
                                                                                                                                                                                                                                                              Remaining
                                                                                                                                                                                                                                       Remaining             Investment         Dividend/
                         Transaction                                                                                                                                              Amount/                                    Amount/ Investment                Amount/    Interest Paid to
             Date        Type        Seller        Description             Amount Note    Date        Type                    Amount Note Obligor         Note Description        Equity %         Date        Type          Proceeds Description              Equity %         Treasurya
                                                                                                      Exchange
                                                   Debt
                                     General                                                          for preferred
                                                   Obligation
             6/3/2009    Purchase    Motors                        $30,100,000,000   8    7/10/2009   and common      $22,041,706,310   9
                                                   w/ Additional
                                     Corporation                                                      stock in New
                                                   Note
                                                                                                      GM
                                                                                                      Transfer of
                                                                                          7/10/2009   debt to New      $7,072,488,605   9
                                                                                                      GM
                                                                                                                                            Motors                                                                                           Right to
                                                                                                      Debt left at                                                    Debt                                    Partial
                                                                                          7/10/2009                     $985,805,085    9   Liquidation    29                 $985,805,085    3/31/2011                   $50,000,000         recover              N/A
                                                                                                      Old GM                                                     Obligation                               Repayment
                                                                                                                                            Company                                                                                         proceeds
                                                                                                                                                                                                                                             Right to
                                                                                                                                                                                                              Partial
                                                                                                                                                                                               4/5/2011                   $45,000,000         recover              N/A
                                                                                                                                                                                                          Repayment
                                                                                                                                                                                                                                            proceeds
                                                                                                                                                                                                                                             Right to
                                                                                                                                                                                                              Partial
                                                                                                                                                                                               5/3/2011                   $15,887,795         recover              N/A
                                                                                                                                                                                                          Repayment
                                                                                                                                                                                                                                            proceeds
                                                                                                                                                                                                                                             Right to
                                                                                                                                                                                                              Partial
                                                                                                                                                                                             12/16/2011                      $144,444         recover              N/A
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                                                                                                          Repayment
                                                                                                                                                                                                                                            proceeds
                                                                                                                                                                                                                                             Right to
                                                                                                                                                                                                              Partial
                                                                                                                                                                                             12/23/2011                   $18,890,294         recover              N/A
                                                                                                                                                                                                          Repayment
                                                                                                                                                                                                                                            proceeds
                                                                                                                                                                                                                                             Right to
                                                                                                                                                                                                              Partial
                                                                                                                                                                                              1/11/2012                    $6,713,489         recover              N/A
                                                                                                                                                                                                          Repayment
                                                                                                                                                                                                                                            proceeds
                                                                                                                                                                                                                                             Right to
                                                                                                                                                                                                              Partial
                                                                                                                                                                                             10/23/2012                      $435,097         recover              N/A
                                                                                                                                                                                                          Repayment
                                                                                                                                                                                                                                            proceeds
                                                                                                                                                                                                                                             Right to
                                                                                                                                                                                                              Partial
                                                                                                                                                                                              5/22/2013                   $10,048,968         recover              N/A
                                                                                                                                                                                                          Repayment
                                                                                                                                                                                                                                            proceeds
                                                                                                                                                                                                                                             Right to
                                                                                                                                                                                                              Partial
                                                                                                                                                                                              9/20/2013                   $11,832,877         recover              N/A
                                                                                                                                                                                                          Repayment
                                                                                                                                                                                                                                            proceeds
                                                                                                                                                                                                                                             Right to
                                                                                                                                                                                                              Partial
                                                                                                                                                                                             12/27/2013                      $410,705         recover              N/A
                                                                                                                                                                                                          Repayment
                                                                                                                                                                                                                                            proceeds
                                                                                                                                                                                                                                             Right to
                                                                                                                                                                                                              Partial
                                                                                                                                                                                               1/9/2014                      $470,269         recover              N/A
                                                                                                                                                                                                          Repayment
                                                                                                                                                                                                                                            proceeds
                                                   Debt                                                                                                                                                                                          Debt
                                     Chrysler      Obligation                                                                                                                                                 Partial                       Obligation
             1/16/2009   Purchase                                   $1,500,000,000   13                                                                                                       3/17/2009                    $3,499,055                    $1,496,500,945
                                     FinCo         w/ Additional                                                                                                                                          Repayment                      w/ Additional
                                                   Note                                                                                                                                                                                          Note
                                                                                                                                                                                                                                                 Debt
                                                                                                                                                                                                              Partial                       Obligation
                                                                                                                                                                                              4/17/2009                   $31,810,122                    $1,464,690,823
                                                                                                                                                                                                          Repayment                      w/ Additional
                                                                                                                                                                                                                                                 Note
Chrysler                                                                                                                                                                                                                                         Debt
FinCo,                                                                                                                                                                                                        Partial                       Obligation
                                                                                                                                                                                              5/18/2009                   $51,136,084                    $1,413,554,739       $7,405,894
Farmington                                                                                                                                                                                                Repayment                      w/ Additional
Hills, MI                                                                                                                                                                                                                                        Note
                                                                                                                                                                                                                                                 Debt
                                                                                                                                                                                                              Partial                       Obligation
                                                                                                                                                                                              6/17/2009                   $44,357,710                    $1,369,197,029
                                                                                                                                                                                                          Repayment                      w/ Additional
                                                                                                                                                                                                                                                 Note
                                                                                                                                                                                                                                            Additional
                                                                                                                                                                                              7/14/2009   Repayment     $1,369,197,029                              $0
                                                                                                                                                                                                                                                 Note
                                                                                                                                                                                              7/14/2009 Repayment*        $15,000,000             N/A               $0
                                                                                                                                                                                                                                                                   Continued on next page
AIFP TRANSACTION DETAIL, AS OF 3/31/2014                                                    (CONTINUED)
                                                                                                                                                          Treasury Investment After Exchange/Transfer/
                                             Initial Investment                                           Exchange/Transfer/Other Details                 Other                                                                                    Payment or Disposition1
                                                                                                                                                                                                                                                                                   Remaining
                                                                                                                                                                                                                                                             Remaining            Investment          Dividend/
                          Transaction                                                                                                                                                               Amount/                                        Amount/ Investment               Amount/     Interest Paid to
            Date          Type        Seller           Description             Amount Note       Date          Type                      Amount Note Obligor            Note Description            Equity %          Date           Type          Proceeds Description             Equity %          Treasurya
                                                       Debt                                                                                                                           Debt
                                                                                                               Transfer of
                                        Chrysler       Obligation                                                                                         Chrysler               obligation
            1/2/2009      Purchase                                      $4,000,000,000          6/10/2009      debt to New         $500,000,000     19                   20                   $3,500,000,000    5/14/2010                     $1,900,000,000           N/A                 $0
                                        Holding        w/ Additional                                                                                      Holding             w/ additional                                   Termination
                                                                                                               Chrysler
                                                       Note                                                                                                                           note                                            and
                                                       Debt                                                                                                                                                                    settlement
                                        Chrysler       Obligation                                                                                                                                                              payment20
            4/29/2009     Purchase                                                   $0    14
                                        Holding        w/ Additional
                                                       Note
                                                       Debt
                                        Chrysler       Obligation
            4/29/2009     Purchase                                       $280,130,642      15                                                                                                                   7/10/2009     Repayment        $280,130,642            N/A                 $0
                                        Holding        w/ Additional
                                                       Note
                                                       Debt                                                    Completion                                 Old Carco               Right to                                       Proceeds                         Right to
                                                       Obligation                                              of bankruptcy
            5/1/2009      Purchase      Old Chrysler                    $1,888,153,580     16   4/30/2010                       ($1,888,153,580)    23    Liquidation    23        recover               N/A    5/10/2010     from sale of      $30,544,528        recover                N/A
                                                       w/ Additional                                           proceeding;                                Trust                  proceeds                                        collateral                      proceeds
                                                       Note                                                    transfer of
                                                       Debt                                                    collateral
                                                                                                               security to                                                                                                       Proceeds                         Right to
                                                       Obligation
            5/20/2009     Purchase      Old Chrysler                                 $0    17                  liquidation                                                                                       9/9/2010     from sale of       $9,666,784        recover                N/A
                                                       w/ Additional
                                                                                                               trust                                                                                                             collateral                      proceeds
                                                       Note
                                                                                                                                                                                                                                 Proceeds                         Right to
Chrysler,                                                                                                                                                                                                      12/29/2010     from sale of       $7,844,409        recover                N/A
Auburn                                                                                                                                                                                                                           collateral                      proceeds                       $1,171,263,942
Hills, MI
                                                                                                                                                                                                                                 Proceeds                         Right to
                                                                                                                                                                                                                4/30/2012     from sale of       $9,302,185        recover                N/A
                                                                                                                                                                                                                                 collateral                      proceeds
                                                       Debt                                                                                                                           Debt
                                                       Obligation                                                                                                                obligation
                                                                                                               Issuance of                                Chrysler
                                        New            w/ Additional                                                                                                    19,   w/ additional                                  Repayment -
            5/27/2009     Purchase                                      $6,642,000,000     18   6/10/2009      equity in New                   $0         Group                               $7,142,000,000    5/24/2011                     $5,076,460,000
                                        Chrysler       Note, Zero                                                                                                       31     note & zero                                      Principal
                                                                                                               Chrysler                                   LLC
                                                       Coupon Note,                                                                                                                coupon
                                                       Equity                                                                                                                         note
                                                                                                                                                                                                                              Termination
                                                                                                                                                                                                                5/24/2011     of undrawn      $2,065,540,000           N/A                 $0
                                                                                                                                                                                                                                 facility31
                                                                                                                                                                                                                             Repayment*
                                                                                                                                                                                                                5/24/2011     - Additional     $288,000,000
                                                                                                                                                                                                                                     Note
                                                                                                                                                                                                                          Repayment* -
                                                                                                                                                                                                                5/24/2011 Zero Coupon          $100,000,000
                                                                                                                                                                                                                                 Note
                                                                                                                                                          Chrysler
                                                                                                                                                                                 Common
                                                                                                                                                          Group          30                             6.6%    7/21/2011      Disposition     $560,000,000            N/A                 $0
                                                                                                                                                                                   equity
                                                                                                                                                          LLC
                                                                                                                                                                                                                                        Additional Proceeds*                   $403,000,000
                     Total Initial Investment Amount                   $81,344,932,551                                                                                                                                                        Total Payments                 $59,630,183,962
                                                                                                                                                                                                                          Total Treasury Investment Amount                   $16,161,055,009

Notes: Numbers may not total due to rounding. Data as of 3/31/2014. Numbered notes were taken verbatim from Treasury’s 3/19/2014, Transactions Report.

GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC”.
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.

1
 	 Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2
 	 Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3
 	Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009. (See
   transactions marked by orange line in the table above and footnote 22.)
                                                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




4
 	This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5
 	This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6
 	This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by Old GM. On 7/10/2009, the principal amount was included in the $7.07 billion of debt
   assumed by the new GM, as explained in footnote 10.
7
 	On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued there under were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
                                                                                                                                                                                                                                                                                                                   401
                                                                                                                                                                                                                                                                                                                                     402
8
  	Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/9/2009, $30.1 billion of funds had
      been disbursed by Treasury.
9
  	On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued there under were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under the
      terms of a separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10
   	In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11
   	Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General Motors
      Company” on an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12
   	Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13
   	The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14
   	This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15
   	The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16
   	This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”). As of
      6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrysler DIP Loan.
17
   	This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP Loan had
      terminated.
18
   	This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up to $6.642
      billion. The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New Chrysler. When the
      sale to new Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19
   	Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler. 20 Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the
      equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept a settlement payment of $1.9 billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such
      payment to terminate all such obligations.
21
   	Amount of the Treasury investment exchange includes the exercised warrants from Treasury’s initial investments.
22
   	Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23
   	On 4/30/2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were
      transferred to a liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
24
   	On 10/27/2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s common stock.
      The repurchase was completed on 12/15/2010.
25
   	On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.7525 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were $11,743,303,903. On
      11/26/2010, the underwriters exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common stock pursuant to the underwriting
      agreement total $13,504,799,480.
26
   	On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500,000 of convertible preferred stock.
27
   	On 3/1/2011, Treasury entered into an agreement with Ally Financial, Inc. (Ally) and certain other parties to amend and restate the $2,667,000,000 in aggregate liquidation preference of its Ally trust preferred securities so to facilitate a public underwritten offering. At the time of amendment and restatement,
                                                                                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




      Treasury received all outstanding accrued and unpaid dividends and a distribution fee of $28,170,000.
28
   	On 3/2/2011, Treasury entered into an underwritten offering for all of its Ally trust preferred securities, the proceeds of which were $2,638,830,000, which together with the distribution fee referred to in footnote 27, provided total disposition proceeds to Treasury of $2,667,000,000. This amount does not
      include the accumulated and unpaid dividends on the trust preferred securities from the date of the amendment and restatement through but excluding the closing date that Treasury will receive separately at settlement.
29
   	On 3/31/2011, the Plan of Liquidation for Motors Liquidation Company (Old GM) became effective, Treasury’s $986 million loan to Old GM was converted to an administrative claim and the assets remaining with Old GM, including Treasury’s liens on certain collateral and other rights attached to the loan, were
      transferred to liquidation trusts. On 12/15/2011, Old GM was dissolved, as required by the Plan of Liquidation. Treasury retained the right to recover additional proceeds; however, any additional recovery is dependent on actual liquidation proceeds and pending litigation.
30
    	n June 2009, Treasury provided a $6.6 billion loan commitment to Chrysler Group LLC and received a 9.9 percent equity ownership in Chrysler Group LLC (Chrysler). In January and April 2011, Chrysler met the first and second of three performance related milestones. As a result, Fiat’s ownership automatically
      increased from 20% to 30%, and Treasury’s ownership was reduced to 8.6%. On 5/24/2011, Fiat, through the exercise of an equity call option, purchased an incremental 16% fully diluted ownership interest in Chrysler for $1.268 billion, reducing Treasury’s ownership to 6.6% (or 6.0% on a fully diluted basis). On
      7/21/2011, Fiat, through the exercise of an equity call option, purchased Treasury’s ownership interest for $500 million. In addition, Fiat paid $60 million to Treasury for its rights under an agreement with the UAW retirement trust pertaining to the trust’s shares in Chrysler.
31
   	On 5/24/2011, Chrysler Group LLC terminated its ability to draw on the remaining $2.066 billion outstanding under this loan facility.
32
   	On 11/1/2011, Treasury received a $201,345.42 pro-rata tax distribution on its common stock from Ally Financial, Inc. pursuant to the terms of the Sixth Amended and Restated Limited Liability Company Operating Agreement of GMAC LLC dated 5/22/2009.
33
   	On 12/21/2012, Treasury sold 200,000,000 shares of common stock at $27.50 per share pursuant to a letter agreement. Following settlement, the net proceeds to Treasury were $5,500,000,000.
      34 On January 18, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to 58,392,078 shares of common stock from time to time during the period ending on April 17, 2013 (or upon completion of
      the sale).Completion of the sale under this authority occurred on April 11, 2013.
35
   	On 6/12/2013, Treasury sold 30,000,000 shares of GM common stock in a registered public offering at $34.41 per share for net proceeds to Treasury of $ 1,031,700,000.
36
   	Pursuant to pre-arranged written trading plans dated May 6, 2013, as amended, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to 142,814,136 shares of common stock from time to time during the
      period ending on September 13, 2013 (or upon completion of the sale). Completion of the sale under this authority occurred on September 13, 2013.
37
   	On September 26, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to 70,214,460 shares of common stock from time to time during the period ending on December 20, 2013 (or upon completion
      of the sale). Completion of the sale under this authority occurred on November 20, 2013.
38
   	On November 20, 2013, Ally completed a private placement of an aggregate of 216,667 shares of its common stock for an aggregate price of approximately $1.3 billion and the repurchase of all outstanding shares of its Fixed Rate Cumulative Mandatorily Convertible Preferred Stock, Series F-2, held by Treasury,
      including payment for the elimination or relinquishment of any right to receive additional shares of common stock to be issued (the “Share Adjustment Right”). Ally paid to Treasury a total of approximately $5.93 billion for the repurchase of the Series F-2 Preferred Stock and the elimination of the Share Adjustment
      Right. As a result of the private placement, Treasury’s common stock ownership stake was diluted from 73.8 percent to 63.45 percent. Treasury continues to own 981,971 shares of common stock in Ally
39
   	On November 21, 2013, Treasury gave J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell, subject to certain parameters, the remaining shares of common stock, from time to time during the period ending on February 15, 2014 (or upon completion of the sale). Completion of the sale
      under this authority occurred on December 9, 2013.
40
   	On January 23, 2014, Treasury sold 410,000 shares of Ally common stock in a private offering at $7,375 per share for gross proceeds of $3,023,750,000.
a
  	For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b
  	According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c
  	This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 3/19/2014; Treasury, Dividends and Interest Report, 4/10/2014.
TABLE D.5
ASSP TRANSACTION DETAIL, AS OF 3/31/2014
                       Seller                                                                                                                            Adjustment Details                                                            Repayment4
                                                                                                                                                                                                                                                Remaining
                                                     Transaction Investment                           Investment       Pricing       Adjustment            Adjustment     Adjusted Investment                                                  Investment                                 Dividend/Interest Paid
Note   Date            Institution Name              Type        Description                             Amount     Mechanism              Date               Amount      Amount                      Date                   Type              Description                    Amount                 to Treasury
                                                                                                                                                                                                                            Partial     Debt Obligation w/
                                                                                                                                                                                                      11/20/2009                                                       $140,000,000
                                                                                                                                                                                                                        repayment          Additional Note

                       GM Supplier Receivables LLC                  Debt Obligation w/                                                7/8/20093      ($1,000,000,000)     $2,500,000,000                                    Partial     Debt Obligation w/
 1     4/9/2009                                      Purchase                                   $3,500,000,000               N/A                                                                      2/11/2010                                                        $100,000,000                   $9,087,808
                       Wilmington, DE                               Additional Note                                                                                                                                     repayment          Additional Note
                                                                                                                                                                                                                                  5
                                                                                                                                                                                                      3/4/2010        Repayment             Additional Note              $50,000,000
                                                                                                                                                                          $290,000,000                4/5/2010           Payment6                     None               $56,541,893

                       Chrysler Receivables SPV LLC                 Debt Obligation w/                                                7/8/20093        ($500,000,000)     $1,000,000,000              3/9/2010        Repayment5            Additional Note            $123,076,735
 2     4/9/2009                                     Purchase                                    $1,500,000,000               N/A                                                                                                                                                                      $5,787,176
                       Wilmington, DE                               Additional Note                                                                                       $123,076,735                4/7/2010           Payment7                     None               $44,533,054
       Initial Total              $5,000,000,000                                                                                   Adjusted Total      $413,076,735                                                                    Total Repayments               $413,076,735
                                                                                                         Total Proceeds from Additional Notes          $101,074,947
Notes: Numbers may not total due to rounding. Data as of 3/31/2014. Numbered notes were taken verbatim from Treasury’s 3/19/2014, Transactions Report.

1	
  
  The    loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was
  made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2	
  The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was made effective as
  of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3	
  Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4	
  Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5	
  All outstanding principal drawn under the credit agreement was repaid.
6	
  Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all
  of which have been repaid.
7	
  Treasury’s commitment was $1 billion (see note 3). As of 4/7/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all of
  which have been repaid.

Sources: Treasury, Transactions Report, 3/19/2014; Treasury, Dividends and Interest Report, 4/10/2014.




TABLE D.6
AIFP GENERAL MOTORS COMPANY COMMON STOCK DISPOSITION DETAIL, AS OF 3/31/2014
Date                                           Pricing Mechanism1                        Number of Shares                           Proceeds2
1/18/2013 – 4/17/20133                         $28.049                                   58,392,078                                 $1,637,839,844
5/6/2013 – 9/13/20134                          $34.646                                   110,336,510                                $3,822,724,832
9/26/2013 – 11/20/20135                        $36.509                                   70,214,460                                 $2,563,441,956
11/21/2013 – 12/9/20136                        $38.823                                   31,122,206                                 $1,208,249,982
                                                                                                               Total Proceeds:                                              $9,232,256,614
Notes: Numbers may not total due to rounding. Data as of 3/31/2014. Numbered notes were taken verbatim from Treasury’s 3/19/2014, Transactions Report.

1	
  
  The   price set forth is the weighted average price for all sales of General Motors Company common stock made by Treasury over the course of the corresponding period.
2	
  Amount represents the gross proceeds to Treasury.
3	
  On January 18, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up to
  58,392,078 shares of common stock from time to time during the period ending on April 17, 2013 (or upon completion of the sale). Completion of the sale under this authority occurred
  on April 11, 2013.
4	
  Pursuant to pre-arranged written trading plans dated May 6, 2013, as amended, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its
  sales agent, to sell subject to certain parameters up to 142,814,136 shares of common stock from time to time during the period ending on September 13, 2013 (or upon completion of
  the sale). Completion of the sale under this authority occurred on September 13, 2013.
5	
  On September 26, 2013, Treasury gave Citigroup Global Markets, Inc. and J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell subject to certain parameters up
  to 70,214,460 shares of common stock from time to time during the period ending on December 20, 2013 (or upon completion of the sale). Completion of the sale under this authority
  occurred on November 20, 2013.
6	
  On November 21, 2013, Treasury gave J.P. Morgan Securities, LLC discretionary authority, as its sales agent, to sell, subject to certain parameters, the remaining shares of common
  stock, from time to time during the period ending on February 15, 2014 (or upon completion of the sale). Completion of the sale under this authority occurred on December 9, 2013.

Source: Treasury, Transactions Report, 3/19/2014.
                                                                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                                                      403
TABLE D.7                                                                                                                                                                                                                                                                                                                404
TIP TRANSACTION DETAIL, AS OF 3/31/2014
                                                                                                                                                                                 Treasury Investment
                                                                                                                                                                                 Remaining After Capital
                        Seller                                                                                                           Capital Repayment Details               Repayment                 Final Disposition                                        Market and Warrant Data
                                                                                                                                             Capital                  Capital Remaining      Remaining           Final          Final                      Final                  Outstanding             Dividends/
                        Institution            Transaction                                            Investment         Pricing          Repayment                Repayment Capital         Capital       Disposition          Disposition          Disposition      Stock           Warrant        Interest Paid to
Note    Date            Name                   Type           Investment Description                     Amount       Mechanism                Date2                  Amount Amount          Description        Date3           Description           Proceeds        Price            Shares               Treasury
                        Citigroup Inc.,                       Trust Preferred Securities w/
    1   12/31/2008                             Purchase                                        $20,000,000,000                 Par        12/23/2009        $20,000,000,000      $0          Warrants       1/25/2011       A   Warrants          $190,386,428       $47.60                         $1,568,888,889
                        New York, NY                          Warrants
                        Bank of America
        1/16/2009       Corporation,           Purchase       Preferred Stock w/ Warrants      $20,000,000,000                 Par         12/9/2009        $20,000,000,000      $0          Warrants        3/3/2010       A   Warrants        $1,236,804,513       $17.20                         $1,435,555,556
                        Charlotte, NC
                                                              Total Investment                $40,000,000,000        TOTAL CAPITAL REPAYMENT $40,000,000,000                                                       Total Warrant Proceeds $1,427,190,941
Notes: Numbers may not total due to rounding. Data as of 3/31/2014. Numbered notes were taken verbatim from Treasury’s 3/19/2014 Transactions Report.

1
 	 Treasury
              made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
    Perpetual Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2
 	 Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
3
 	 For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, after underwriting fees, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.

Sources: Treasury, Transactions Report, 3/19/2014; Treasury, Dividends and Interest Report, 4/10/2014; Bloomberg LP, accessed 4/8/2014.
                                                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




TABLE D.8
AGP TRANSACTION DETAIL, AS OF 3/31/2014
                       Initial Investment                                                         Premium                                       Exchange/Transfer/Other Details                                                  Payment or Disposition                         Market and Warrant Data
                                                                                                                                                                                                                                      Remaining                    Remaining Outstanding                    Dividends/
                        Institution       Transaction                                                                                                                                                         Payment                  Premium                      Premium Warrant      Stock           Interest Paid
Note            Date    Name              Type        Description     Guarantee Limit Description             Amount            Date               Type Description                Amount           Date         Type Payment Amount Description                     Amount Shares       Price             to Treasury
                                                                                                                                        Exchange                                                                  Partial
                                                                                                                                                             Trust                                                                                      Trust
                                                                                                                                         preferred                                                          cancellation
                                                                                                                                                       Preferred                                                                                  Preferred
                                                                                                                          6/9/20092 stock for trust                         $4,034,000,000   12/23/20093        for early   ($1,800,000,000)                  $2,234,000,000                  $47.60    $642,832,268
                                                                                                                                                    Securities w/                                                                              Securities w/
                                                                                                                                         preferred                                                           termination
                                                                                                                                                       Warrants                                                                                   Warrants
                                                                                                                                        securities                                                         of guarantee
                        Citigroup                                                     Preferred
                                                        Master                                                                               Exchange                                         9/30/20105     Disposition     $2,246,000,000       Warrants                 $—
1        1/16/2009      Inc., New         Guarantee                    $5,000,000,000 Stock w/       $4,034,000,000
                                                        Agreement                                                                                 trust
                        York, NY                                                      Warrants                                                                      Trust
                                                                                                                                             preferred
                                                                                                                                                              Preferred
                                                                                                                        9/29/20104           securities                     $2,246,000,000                      Warrant
                                                                                                                                                           Securities w/                      1/25/2011                          $67,197,045          None                 $—
                                                                                                                                              for trust                                                         Auction
                                                                                                                                                              Warrants
                                                                                                                                             preferred
                                                                                                                                             securities
                        Citigroup
                                                        Termination
3       12/23/2009      Inc., New         Termination                 ($5,000,000,000)
                                                        Agreement
                        York, NY
                                                                                                                                                 Trust
                                                                                                                                             preferred
                                                                                                                                                                  Trust
                                                                                                                                             securities
                                                                                                                       12/28/20126                            Preferred      $800,000,000
                                                                                                                                              received
                                                                                                                                                              Securities
                                                                                                                                              from the
                                                                                                                                                  FDIC
                                                                                                                                             Exchange
                                                                                                                                                   Trust
                                                                                                                                     7       preferred     Subordinated
                                                                                                                          2/4/2013                                           $894,000,000      2/8/20138     Disposition        $894,000,000          None                 $—
                                                                                                                                          securities for           Note
                                                                                                                                          subordinated
                                                                                                                                                    note
                                                                                                                                                                                                        Total Proceeds $3,207,197,045
Notes: Numbers may not total due to rounding. Data as of 3/31/2014. Numbered notes were taken verbatim from Treasury’s 3/19/2014 Transactions Report.

1
 	 In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
 	Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
   Perpetual Preferred Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3
 	On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion
   of the AGP Trust Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the
   FDIC’s Temporary Liquidity Guarantee Program.
4
 	On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of
   exchange, Citigroup Inc. paid the outstanding accrued and unpaid dividends.
5
 	On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date of the exchange through the closing date.
6
 	12/28/2012, as contemplated by the Termination Agreement and the Letter Agreement dated 12/23/2009, between Treasury and the Federal Deposit Insurance Corporation (FDIC), Treasury received from the FDIC, Citigroup Inc. trust preferred securities in aggregate liquidation preference equal to $800
   million and approximately $183 million in dividend and interest payments from those securities.
7
 	On 2/4/2013, Treasury exchanged $800 million in Citigroup Capital XXXII Trust Preferred Securities (TRuPS) for $894 million in Citigroup subordinated notes pursuant to an agreement between Citigroup and Treasury executed on 2/4/2013. Accrued interest on the TRuPS was received at the time of the
   exchange.
8
 	On 2/8/2013, Treasury completed the sale of its Citigroup subordinated notes for $894 million plus accrued interest, pursuant to an underwriting agreement executed on 2/8/2012.

Sources: Treasury, Transactions Report, 3/19/2014; Treasury, Dividends and Interest Report, 4/10/2014; Bloomberg LP, accessed 4/8/2014.
TABLE D.9
TALF TRANSACTION DETAIL, AS OF 3/31/2014
                       Seller                                                                                                  Adjusted Investment                                                Repayment5
                                                    Transaction      Investment                 Investment     Pricing                                                     Final Investment                                                                                        Dividends/Interest Paid
Note    Date           Institution                  Type             Description                   Amount      Mechanism       Date                             Amount     Amount                 Date              Description                                        Amount                  to Treasury
                                                                                                                               7/19/20102              $4,300,000,000                             2/6/2013          Principal Repayment                          $100,000,000
                                                                                                                               6/28/20123              $1,400,000,000                             2/6/2013          Contingent Interest Proceeds                 $212,829,610
                                                                                                                                                                                                  3/6/2013          Contingent Interest Proceeds                  $97,594,053
                                                                                                                                                                                                  4/4/2013          Contingent Interest Proceeds                   $6,069,968
                                                                                                                                                                                                  5/6/2013          Contingent Interest Proceeds                   $4,419,259
                                                                                                                                                                                                  6/6/2013          Contingent Interest Proceeds                  $96,496,772
                                                                                                                                                                                                  7/5/2013          Contingent Interest Proceeds                  $11,799,670
                                                                     Debt Obligation
1       3/3/2009       TALF LLC, Wilmington, DE     Purchase         w/ Additional        $20,000,000,000      N/A                                                         $100,000,000           8/6/2013          Contingent Interest Proceeds                  $66,072,965                  $13,407,761
                                                                     Note
                                                                                                                               1/15/20134                $100,000,000                             9/6/2013          Contingent Interest Proceeds                  $74,797,684
                                                                                                                                                                                                  10/4/2013         Contingent Interest Proceeds                   $1,114,074
                                                                                                                                                                                                  11/6/2013         Contingent Interest Proceeds                     $933,181
                                                                                                                                                                                                  12/5/2013         Contingent Interest Proceeds                   $1,102,424
                                                                                                                                                                                                  1/7/2014          Contingent Interest Proceeds                   $1,026,569
                                                                                                                                                                                                  2/6/2014          Contingent Interest Proceeds                   $1,107,574
                                                                                                                                                                                                  3/6/2014          Contingent Interest Proceeds                   $1,225,983
                                                                                                                                              Total Investment Amount          $100,000,000                             Total Repayment Amount5                $676,589,786
Notes: Numbers may not total due to rounding. Data as of 3/31/2014. Numbered notes were taken verbatim from Treasury’s 3/19/2014, Transactions Report, and Treasury’s 4/10/2014, Dividends and Interest Report.

1
 	The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York (“FRBNY”). The amount of $20,000,000,000 represents the maximum loan amount. The loan will be incrementally funded.
2
 	On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan amount to $4,300,000,000.
3
 	On 6/28/2012, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously amended 7/19/2010, which reduced Treasury’s maximum loan amount to $1,400,000,000.
4
 	On 1/15/2013, Treasury, the FRBNY and TALF LLC entered into an amendment that stated that, due to the fact that the accumulated fees collected through TALF exceed the total principal amount of TALF loans outstanding, Treasury’s commitment of TARP funds to provide credit protection is no longer
   necessary.
5
 	Repayment amounts do not include accrued interest proceeds received on 2/6/2013, which are reflected on the Dividends & Interest Report.

Sources: Treasury, Transactions Report, 3/19/2014; Treasury, Dividends and Interest Report, 4/10/2014.
                                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                                             405
TABLE D.10                                                                                                                                                                                                                                                                                              406
SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 3/31/2014
                    Seller              Purchase Details                                                         Exchange/Transfer Details
                                                                                                                                                                                                                                                                                          Dividends/
                    Name of             Transaction      Investment                 Investment   Pricing                                                                                                                        Pricing                        Outstanding Warrant   Interest Paid to
Note Date           Institution         Type             Description                   Amount    Mechanism       Date                                       Transaction Type    Investment Description                Amount    Mechanism       Stock Price                 Shares          Treasury
                                                         Preferred Stock
                                                                                                                                                                                Preferred Stock w/ Warrants
1      11/25/2008   AIG, New York, NY   Purchase         w/ Warrants           $40,000,000,000   Par             4/17/2009                                  Exchange                                          $40,000,000,000   Par                   $50.01                    —                $—
                                                                                                                                                                                (Series E)1
                                                         (Series D)
                                                         Preferred Stock                                         See table below for exchange/
2, 3   4/17/2009    AIG, New York, NY   Purchase         w/ Warrants           $29,835,000,000   Par2            transfer details in connection with the                                                                                              $50.01                    —     $641,275,676
                                                         (Series F)                                              recapitalization conducted on 1/14/2011.
                                                             Initial Total    $69,835,000,000
                                                                                                                                                            Final Disposition
                                                                                                                                                                                               Transaction
                                                                                                                                                            Date                Investment     Type                 Proceeds
                                                                                                                                                                                Warrants
                                                                                                                                                            3/1/2013                           Repurchase        $25,150,923
                                                                                                                                                                                (Series D)
                                                                                                                                                                                Warrants
                                                                                                                                                            3/1/2013                           Repurchase             $5,768
                                                                                                                                                                                (Series F)
                                                                                                                                                                                    Total Warrant Proceeds       $25,156,691
                                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                      Recapitalization                                                                 Treasury Holdings Post-Recapitalization                                                                    Final Disposition
                                                                                                                                                                                                                                                                 Remaining Recap
                    Investment          Transaction                          Pricing                                                                                                           Transaction                                         Pricing     Investment Amount,
Note Date           Description         Type                                 Mechanism           Investment Description                                     Amount / Shares     Date           Type                                Proceeds8    Mechanism      Shares, or Equity %
                                        Exchange                             Par                 Preferred Stock (Series G)                                 $2,000,000,000      5/27/2011      Cancellation                              $—             N/A                  $—10
                                                                                                                                                                                2/14/2011      Payment                          $185,726,192             Par
                                                                                                                                                                                3/8/2011       Payment                      $5,511,067,614               Par
                                                                                                                                                                                3/15/2011      Payment                           $55,833,333             Par
                                                                                                                                                                                8/17/2011      Payment                           $97,008,351             Par
                                                                                                                                                                                8/18/2011      Payment                      $2,153,520,000               Par
                                                                                                 AIA Preferred Units                                        $16,916,603,5687                                                                                                  $—8
                                                                                                                                                                                9/2/2011       Payment                           $55,885,302             Par

                    Preferred Stock     Exchange                             N/A                                                                                                11/1/2011      Payment                          $971,506,765             Par
4      1/14/2011
                    (Series F)                                                                                                                                                  3/8/2012       Payment                      $5,576,121,382               Par
                                                                                                                                                                                3/15/2012      Payment                      $1,521,632,096               Par
                                                                                                                                                                                3/22/2012      Payment                      $1,493,250,339               Par
                                                                                                                                                                                2/14/2011      Payment                      $2,009,932,072               Par
                                                                                                 ALICO Junior Preferred Interests                           $3,375,328,4327     3/8/2011       Payment                      $1,383,888,037               Par                  $—8
                                                                                                                                                                                3/15/2012      Payment                           $44,941,843             Par

                                                                                                                                                                                               Partial                                                              1,455,037,9629
                                        Exchange                                                                                                            167,623,733         5/24/2011                                   $5,800,000,000              N/A
                                                                                                                                                                                               Disposition                                                                    77%

                                                                                                                                                                                               Partial                                                             1,248,141,41011
                                                                                                                                                                                3/8/2012                                    $6,000,000,008              N/A
                                                                                                                                                                                               Disposition                                                                    70%

                                                                                                                                                                                               Partial                                                             1,084,206,98412
                    Preferred Stock                                                                                                                                             5/6/2012                                    $4,999,999,993              N/A
5      1/14/2011                        Exchange                                                                                                            924,546,133                        Disposition                                                                    63%
                    (Series E)
                                                                                                                                                                                               Partial                                                             1,059,616,82112
                                                                                                                                                                                5/7/2012                                        $749,999,972            N/A
                                                                                                                                                                                               Disposition                                                                    61%

                                                                                                                                                                                               Partial                                                               895,682,39513
                                                                                                                                                                                8/3/2012                                    $4,999,999,993              N/A
                                                                                                                                                                                               Disposition                                                                    55%
                                                                             N/A                 Common Stock
                                                                                                                                                                                               Partial                                                               871,092,23113
                                                                                                                                                                                8/6/2012                                        $750,000,002            N/A
                                                                                                                                                                                               Disposition                                                                    53%

                                                                                                                                                                                               Partial                                                               317,246,07814
                    Common Stock                                                                                                                                                9/10/2012                                  $17,999,999,973              N/A
6      1/14/2011                        Transfer                                                                                                            562,868,096                        Disposition                                                                    22%
                    (non-TARP)
                                                                                                                                                                                               Partial                                                               234,169,15614
                                                                                                                                                                                9/11/2012                                   $2,699,999,965              N/A
                                                                                                                                                                                               Disposition                                                                    16%

                                                                                                                                                                                               Final                                                                 234,169,15615
                                                                                                                                                                                12/14/2012                                  $7,610,497,570              N/A
                                                                                                                                                                                               Disposition                                                                     0%
                                                                                                                                                                                                      Total               $72,670,810,802
Notes: Numbers may not total due to rounding. Data as of 3/31/2014. Numbered notes were taken verbatim from the Treasury’s 3/19/2014, Transactions Report, and Treasury’s 4/10/2014, Dividends and Interest Report.

1
 	On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it had an additional obligation to
    Treasury of $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2
 	The investment amount reflected Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3
 	This transaction does not include AIG’s commitment fee of an additional $165 million paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on 12/17/2010. The remaining $110 million payment was received by Treasury on 5/27/2011.
4
 	On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred
    interests and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2,000,000,000 of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG has the right to draw up to
    $2,000,000,000.
5
 	On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
6
 	On 1/14/2011, Treasury received 562,868,096 shares of AIG Common Stock from the AIG Credit Facility Trust, which trust was established in connection with the credit facility between AIG and the Federal Reserve Bank of New York. This credit facility was repaid and terminated pursuant to this recapitalization
    transaction. The trust had received 562,868,096 shares of AIG common stock in exchange for AIG’s Series C Perpetual, Convertible Participating Preferred Stock, which was previously held by the trust for the benefit of the U.S. Treasury.
7
 	The amount of Treasury’s AIA Preferred Units and ALICO Junior Preferred Interests holdings do not reflect preferred returns on the securities that accrue quarterly.
8
 	Proceeds include amounts applied to pay (i) accrued preferred returns and (ii) redeem the outstanding liquidation amount.
9
 	On 5/27/2011, Treasury completed the sale of 200,000,000 shares of common stock at $29.00 per share for total proceeds of $5,800,000,000, pursuant to an underwriting agreement executed on 5/24/2011.
10
  	On 5/27/2011, pursuant to the terms of the agreements governing the Preferred Stock (Series G), the available amount of the Preferred Stock (Series G) was reduced to $0 as a result of AIG’s primary offering of its common stock and the Preferred Stock (Series G) was cancelled.
11
  	On 3/13/2012, Treasury completed the sale of 206,896,552 shares of common stock at $29.00 per share for total proceeds of $6,000,000,008, pursuant to an underwriting agreement executed on 3/8/2012.
12
  	On 5/10/2012, Treasury completed the sale of 188,524,589 shares of common stock at $30.50 per share for total proceeds of $5,749,999,965, pursuant to an underwriting agreement executed on 5/6/2012.
13
  	On 8/8/2012, Treasury completed the sale of 188,524,590 shares of common stock at $30.50 per share for total proceeds of $5,749,999,995, pursuant to an underwriting agreement executed on 8/3/2012.
14
  	On 9/14/2012, Treasury completed the sale of 636,923,075 shares of common stock at $32.50 per share for total proceeds of $20,699,999,938, pursuant to an underwriting agreement executed on 9/10/2012.
15
  	On 12/14/2012, Treasury completed the sale of 234,169,156 shares of common stock at $32.50 per share for total proceeds of $7,610,497,570, pursuant to an underwriting agreement executed on 12/10/2012.

Sources: Treasury, Transactions Report, 3/19/2014; Treasury, Dividends and Interest Report, 4/10/2014; Bloomberg LP, accessed 4/7/2014.




TABLE D.11
UCSB TRANSACTION DETAIL, AS OF 3/31/2014
Purchase Details1                                                                                                                          Settlement Details                                                         Final Disposition
                                                                                                                                  TBA                                                                      Senior                            Life-to-date
Purchase                                                                                       Purchase Face          Pricing      or      Settlement           Investment                                Security                              Principal     Current Face           Disposition         Interest Paid to
Date          Investment Description                       Institution Name     CUSIP               Amount3        Mechanism      PMF3     Date                   Amount2,3        TBA or PMF3          Proceeds4      Trade Date            Received1,8         Amount6,8            Amount5,6                 Treasury
3/19/2010     Floating Rate SBA 7a security due 2025       Coastal Securities   83164KYN7          $4,070,000           107.75      —-     3/24/2010            $4,377,249                    —-            $2,184      6/21/2011              $902,633         $3,151,186           $3,457,746                $169,441
3/19/2010     Floating Rate SBA 7a security due 2022       Coastal Securities   83165ADC5          $7,617,617              109      —-     3/24/2010            $8,279,156                    —-            $4,130    10/19/2011             $1,685,710         $5,891,602           $6,462,972                $449,518
3/19/2010     Floating Rate SBA 7a security due 2022       Coastal Securities   83165ADE1          $8,030,000         108.875       —-     3/24/2010            $8,716,265                    —-            $4,348      6/21/2011            $2,022,652         $5,964,013           $6,555,383                $371,355
4/8/2010      Floating Rate SBA 7a security due 2034       Coastal Securities   83165AD84         $23,500,000         110.502       —-     5/28/2010           $26,041,643                    —-           $12,983       6/7/2011            $1,149,633       $22,350,367          $25,039,989               $1,089,741
4/8/2010      Floating Rate SBA 7a security due 2016       Coastal Securities   83164KZH9          $8,900,014            107.5      —-     4/30/2010            $9,598,523                    —-            $4,783       6/7/2011            $2,357,796         $6,542,218           $7,045,774                $414,561
5/11/2010     Floating Rate SBA 7a security due 2020       Coastal Securities   83165AEE0         $10,751,382         106.806       —-     6/30/2010           $11,511,052                    —-            $5,741       6/7/2011              $932,112         $9,819,270         $10,550,917                 $348,599
5/11/2010     Floating Rate SBA 7a security due 2035       Coastal Securities   83164K2Q5         $12,898,996           109.42      —-     6/30/2010           $14,151,229                    —-            $7,057       6/7/2011              $328,604       $12,570,392          $13,886,504                 $479,508
5/11/2010     Floating Rate SBA 7a security due 2033       Coastal Securities   83165AED2          $8,744,333         110.798       —-     6/30/2010            $9,717,173                    —-            $4,844       6/7/2011              $261,145         $8,483,188           $9,482,247                $368,608
5/25/2010     Floating Rate SBA 7a security due 2029       Coastal Securities   83164K3B7          $8,417,817         110.125       —-     7/30/2010            $9,294,363                    —-            $4,635       6/7/2011              $246,658         $8,171,159           $8,985,818                $287,624
5/25/2010     Floating Rate SBA 7a security due 2033       Coastal Securities   83165AEK6         $17,119,972         109.553       —-     7/30/2010           $18,801,712                    —-            $9,377      9/20/2011            $2,089,260       $15,030,712          $16,658,561                 $657,863
6/17/2010     Floating Rate SBA 7a security due 2020       Coastal Securities   83165AEQ3         $34,441,059         110.785       —-     8/30/2010           $38,273,995                    —-           $19,077      6/21/2011            $1,784,934       $32,656,125          $36,072,056               $1,286,450
6/17/2010     Floating Rate SBA 7a security due 2034       Coastal Securities   83165AEP5         $28,209,085         112.028       —-     8/30/2010           $31,693,810                    —-           $15,801      9/20/2011            $2,278,652       $25,930,433          $29,142,474               $1,254,222
7/14/2010     Floating Rate SBA 7a security due 2020       Coastal Securities   83164K3Y7          $6,004,156         106.625      —-      9/30/2010            $6,416,804                    —-            $3,200      6/21/2011              $348,107         $5,656,049           $6,051,772                $146,030
7/14/2010     Floating Rate SBA 7a security due 2025       Shay Financial       83164K4J9          $6,860,835         108.505      —-      9/30/2010            $7,462,726                    —-            $3,722    10/19/2011               $339,960         $6,520,875           $7,105,304                $255,370
7/14/2010     Floating Rate SBA 7a security due 2034       Shay Financial       83165AE42         $13,183,361           111.86      —-     9/30/2010           $14,789,302                    —-            $7,373      6/21/2011              $478,520       $12,704,841          $14,182,379                 $423,725
7/29/2010     Floating Rate SBA 7a security due 2017       Coastal Securities   83164K4E0          $2,598,386         108.438       —-     9/30/2010            $2,826,678                    —-            $1,408      1/24/2012              $694,979         $1,903,407           $2,052,702                $140,130
7/29/2010     Floating Rate SBA 7a security due 2034       Shay Financial       83164K4M2          $9,719,455           106.75      —-     10/29/2010          $10,394,984                    —-            $5,187      6/21/2011              $188,009         $9,531,446         $10,223,264                 $181,124
8/17/2010     Floating Rate SBA 7a security due 2020       Shay Financial       83165AEZ3          $8,279,048         110.198       —-     9/30/2010            $9,150,989                    —-            $4,561      9/20/2011            $1,853,831         $6,425,217           $7,078,089                $335,082
8/17/2010     Floating Rate SBA 7a security due 2019       Coastal Securities   83165AFB5          $5,000,000         110.088       —-     10/29/2010           $5,520,652                    —-            $2,752    10/19/2011               $419,457         $4,580,543           $5,029,356                $213,319
8/17/2010     Floating Rate SBA 7a security due 2020       Coastal Securities   83165AE91         $10,000,000         110.821       —-     10/29/2010          $11,115,031                    —-            $5,541    10/19/2011               $969,461         $9,030,539           $9,994,806                $433,852
8/31/2010     Floating Rate SBA 7a security due 2020       Shay Financial       83165AEW0          $9,272,482         110.515      —-      9/29/2010           $10,277,319                    —-            $5,123      9/20/2011              $868,636         $8,403,846           $9,230,008                $386,326
8/31/2010     Floating Rate SBA 7a security due 2024       Shay Financial       83165AFA7         $10,350,000         112.476      —-      10/29/2010          $11,672,766                    —-            $5,820    10/19/2011               $250,445       $10,099,555          $11,314,651                 $425,545
8/31/2010     Floating Rate SBA 7a security due 2020       Coastal Securities   83164K5H2          $6,900,000         105.875       —-     11/30/2010           $7,319,688                    —-            $3,652      1/24/2012              $663,200         $6,236,800           $6,556,341                $209,956
9/14/2010     Floating Rate SBA 7a security due 2020       Shay Financial       83165AFC3          $8,902,230         111.584       —-     10/29/2010           $9,962,039                    —-            $4,966      1/24/2012            $1,398,549         $7,503,681           $8,269,277                $447,356
9/14/2010     Floating Rate SBA 7a security due 2021       Shay Financial       83165AFK5          $8,050,000         110.759       —-     11/30/2010           $8,940,780                    —-            $4,458      1/24/2012              $996,133         $7,053,867           $7,703,610                $354,302
9/14/2010     Floating Rate SBA 7a security due 2029       Coastal Securities   83164K5F6          $5,750,000            106.5      —-     11/30/2010           $6,134,172                    —-            $3,061      1/24/2012              $276,276         $5,473,724           $5,764,858                $156,481
9/14/2010     Floating Rate SBA 7a security due 2026       Coastal Securities   83164K5L3          $5,741,753            110.5      —-     11/30/2010           $6,361,173                    —-            $3,172      1/24/2012            $1,433,872         $4,307,881           $4,693,918                $239,527
                                                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




9/28/2010     Floating Rate SBA 7a security due 2035       Coastal Securities   83164K5M1          $3,450,000         110.875       —-     11/30/2010           $3,834,428                    —-            $1,912    10/19/2011                $82,832         $3,367,168           $3,698,411                $111,165
9/28/2010     Floating Rate SBA 7a security due 2034       Coastal Securities   83165AFT6         $11,482,421         113.838       —-     12/30/2010          $13,109,070                    —-            $6,535      1/24/2012              $889,646       $10,592,775          $11,818,944                 $512,131
                                                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                                                            407
UCSB TRANSACTION DETAIL, AS OF 3/31/2014                                                           (CONTINUED)                                                                                                                                                                                                                    408
Purchase Details1                                                                                                                             Settlement Details                                                           Final Disposition
                                                                                                                                     TBA                                                                       Senior                             Life-to-date
Purchase                                                                                         Purchase Face          Pricing       or      Settlement            Investment                                Security                               Principal     Current Face            Disposition         Interest Paid to
Date           Investment Description                       Institution Name     CUSIP                Amount3        Mechanism       PMF3     Date                    Amount2,3       TBA or PMF3           Proceeds4       Trade Date            Received1,8         Amount6,8             Amount5,6                 Treasury
9/28/2010      Floating Rate SBA 7a security due 2034       Shay Financial       83165AFM1          $13,402,491             113.9     —-      11/30/2010          $15,308,612                     —-            $7,632     10/19/2011               $438,754        $12,963,737          $14,433,039                 $516,624
9/28/2010      Floating Rate SBA 7a security due 2035       Shay Financial       83165AFQ2          $14,950,000          114.006      —-      12/30/2010          $17,092,069                     —-            $8,521      1/24/2012               $387,839        $14,562,161          $16,383,544                 $681,819
                                                                                                                                                                                       Total Senior
                                                              Total Purchase Face Amount         $332,596,893                  Total Investment Amount*        $368,145,452                Security          $183,555                               Total Disposition Proceeds        $334,924,711               $13,347,352
                                                                                                                                                                                         Proceeds
Notes: Numbers affected by rounding. Data as of 3/31/2014. Numbered notes were taken verbatim from Treasury’s 3/19/2014 Transactions Report.

*Subject to adjustment
1
 	The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
2
 	Investment Amount is stated after applying the appropriate month’s factor and includes accrued interest paid at settlement, if applicable.
3
 	If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is
   listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable
   month’s factor (on or about the 11th business day of each month).
4
 	In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to the
   product of (A) 0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the
   Master Purchase Agreement.
5
 	Disposition Amount is stated after applying the appropriate month’s factor and includes accrued interest received at settlement, if applicable. If the disposition is listed as PMF, the disposition amount will be adjusted after publication of the applicable month’s factor.
6
 	If a disposition is listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security is priced according to the prior-month’s factor. The PMF disposition amount will be adjusted after publication of the applicable month’s factor (on or about the
   11th business day of each month).
7
 	Total Program Proceeds To Date includes life-to-date disposition proceeds, life-to-date principal received, life-to-date interest received, and senior security proceeds (excluding accruals).
8
 	The sum of Current Face Amount and Life-to-date Principal Received will equal Purchase Face Amount for CUSIPs that were originally purchased as TBAs only after the applicable month’s factor has been published and trailing principal & interest payments have been received.
                                                                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




Sources: Treasury, Transactions Report, 3/19/2014, Treasury, Dividends and Interest Report, 4/10/2014.
TABLE D.12
PPIP TRANSACTION DETAIL, AS OF 3/31/2014
                                                                                                                                                                        Final
                                                                                                            Preliminary Adjusted                                  Investment                                  Investment After Capital
                                                    Seller                                                     Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                           Interest/
                                                                                                                                                                                                                                                                                       Distributions
                                                       Transaction Investment       Commitment   Pricing                                                                    Repayment           Repayment                                                                                    Paid to
Note Date         Institution      City          State Type        Description         Amount Mechanism        Date         Amount Date               Amount         Amount      Date              Amount         Amount Description        Date        Description           Proceeds     Treasury
                  UST/TCW                                         Debt
                                                                                                                                                                                                                          Debt Obligation
2,4,              Senior Mortgage                                 Obligation w/
     9/30/2009                     Wilmington     DE Purchase                     $2,222,222,222     Par   1/4/2010    $200,000,000 1/4/2010     $200,000,000   $200,000,000 1/11/2010         $34,000,000   $166,000,000 w/ Contingent
5                 Securities Fund,                                Contingent
                                                                                                                                                                                                                          Proceeds
                  L.P.                                            Proceeds
                                                                                                                                                                                                                                            1/29/2010 Distribution5           $502,302
                                                                                                                                                                                                                            Contingent
                                                                                                                                                                                 1/12/2010    $166,000,000             $—                               Final
                                                                                                                                                                                                                            Proceeds        2/24/2010                              $1,223
                                                                                                                                                                                                                                                        Distribution5                          $342,176
                  UST/TCW
1,4,              Senior Mortgage                                 Membership
     9/30/2009                     Wilmington     DE Purchase                     $1,111,111,111     Par   1/4/2010    $156,250,000 1/4/2010     $156,250,000   $156,250,000                                                                1/29/2010 Distribution5       $20,091,872
5                 Securities Fund,                                Interest                                                                                                                                                  Membership
                  L.P.                                                                                                                                                           1/15/2010    $156,250,000             $—
                                                                                                                                                                                                                            Interest
                                                                                                                                                                                                                                                        Final
                                                                                                                                                                                                                                            2/24/2010                             $48,922
                                                                                                                                                                                                                                                        Distribution5
                  Invesco Legacy
                                                                  Membership                                                                                                                                                Membership
1,6   9/30/2009   Securities Master Wilmington    DE Purchase                     $1,111,111,111     Par 3/22/2010    $1,244,437,500 7/16/2010   $856,000,000   $580,960,000 2/18/2010          $2,444,347   $578,515,653
                                                                  Interest                                                                                                                                                  Interest10
                  Fund, L.P.
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 4/15/2010      $3,533,199   $574,982,454
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 9/15/2010     $30,011,187   $544,971,267
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                11/15/2010     $66,463,982   $478,507,285
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                12/14/2010     $15,844,536   $462,662,749
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 1/14/2011     $13,677,726   $448,985,023
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 2/14/2011     $48,523,845   $400,461,178
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 3/14/2011     $68,765,544   $331,695,634
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 4/14/2011     $77,704,254   $253,991,380
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 5/20/2011     $28,883,733   $225,107,647
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 6/14/2011      $9,129,709   $215,977,938
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 7/15/2011     $31,061,747   $184,916,192
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 8/12/2011     $10,381,214   $174,534,977
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                10/17/2011      $6,230,731   $168,304,246
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                12/14/2011      $1,183,959   $167,120,288
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 1/17/2012      $1,096,185   $166,024,103
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 2/14/2012      $1,601,688   $164,422,415
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                 3/14/2012      $3,035,546   $161,386,870
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                                           409
PPIP TRANSACTION DETAIL, AS OF 3/31/2014                                               (CONTINUED)                                                                                                                                                                                                       410
                                                                                                                                                                      Final
                                                                                                           Preliminary Adjusted                                 Investment                                  Investment After Capital
                                                   Seller                                                     Commitment3          Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                         Interest/
                                                                                                                                                                                                                                                                                     Distributions
                                                      Transaction Investment       Commitment   Pricing                                                                   Repayment           Repayment                                                                                    Paid to
Note Date        Institution      City          State Type        Description         Amount Mechanism       Date          Amount Date              Amount         Amount      Date              Amount          Amount Description       Date        Description           Proceeds     Treasury
                                                                                                                                                                                                                                          3/29/2012 Distribution5        $56,390,209
                                                                                                                                                                                                                                          8/9/2012    Distribution5       $1,056,751
                                                                                                                                                                                                                                                      Final
                                                                                                                                                                                                                        Membership        9/28/2012                             $18,772
                                                                                                                                                                               3/29/2012    $161,386,870             $—                               Distribution5
                                                                                                                                                                                                                        Interest10
                                                                                                                                                                                                                                                      Adjusted
                                                                                                                                                                                                                                          6/4/2013                              $69,399
                                                                                                                                                                                                                                                      Distribution5,13
                                                                                                                                                                                                                                          7/8/2013    Distribution5,14          $64,444
                                                                 Debt
                 Invesco Legacy                                                                                                                                                                                         Debt Obligation
2,6,                                                             Obligation w/
     9/30/2009   Securities Master Wilmington    DE Purchase                     $2,222,222,222      Par 3/22/2010   $2,488,875,000 9/26/2011 $1,161,920,000 $1,161,920,000 2/18/2010         $4,888,718 $1,157,031,282 w/ Contingent
8                                                                Contingent
                 Fund, L.P.                                                                                                                                                                                             Proceeds
                                                                 Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               4/15/2010      $7,066,434 $1,149,964,848 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               9/15/2010     $60,022,674 $1,089,942,174 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              11/15/2010    $132,928,628   $957,013,546 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              12/14/2010     $31,689,230   $925,324,316 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               1/14/2010     $27,355,590   $897,968,726 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               2/14/2011     $92,300,138   $805,668,588 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                                                                          $99,764,742
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               3/14/2011    $128,027,536   $677,641,052 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               4/14/2011    $155,409,286   $522,231,766 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               5/20/2011     $75,085,485   $447,146,281 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               6/14/2011     $18,259,513   $428,886,768 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               7/15/2011     $62,979,809   $365,906,960 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               8/12/2011     $20,762,532   $345,144,428 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              10/17/2011     $37,384,574   $307,759,854 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              12/14/2011      $7,103,787   $300,656,067 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               1/17/2012      $6,577,144   $294,078,924 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               2/14/2012      $9,610,173   $284,468,750 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                                                                Continued on next page
PPIP TRANSACTION DETAIL, AS OF 3/31/2014                                              (CONTINUED)
                                                                                                                                                                     Final
                                                                                                          Preliminary Adjusted                                 Investment                                  Investment After Capital
                                                  Seller                                                     Commitment3          Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                        Interest/
                                                                                                                                                                                                                                                                                    Distributions
                                                     Transaction Investment       Commitment   Pricing                                                                   Repayment           Repayment                                                                                    Paid to
Note Date         Institution     City         State Type        Description         Amount Mechanism       Date          Amount Date              Amount         Amount      Date              Amount          Amount Description       Date        Description           Proceeds     Treasury
                                                                                                                                                                                                                                         3/29/2012 Distribution5          $3,434,460
                                                                                                                                                                                                                                         8/9/2012    Distribution5             $40,556
                                                                                                                                                                                                                                                     Final
                                                                                                                                                                                                                       Contingent        9/28/2012                                $469
                                                                                                                                                                              3/14/2012    $284,468,750             $—                               Distribution5
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                                                     Adjusted
                                                                                                                                                                                                                                         6/4/2013                               $1,735
                                                                                                                                                                                                                                                     Distribution5,13
                                                                                                                                                                                                                                         7/8/2013    Distribution5,14           $1,611
                  Wellington
                                                                Debt
                  Management                                                                                                                                                                                           Debt Obligation
                                                                Obligation w/
2,6   10/1/2009   Legacy          Wilmington    DE Purchase                     $2,222,222,222      Par 3/22/2010   $2,524,075,000 7/16/2010 $2,298,974,000 $2,298,974,000 6/26/2012       $125,000,000 $2,173,974,000 w/ Contingent
                                                                Contingent
                  Securities PPIF                                                                                                                                                                                      Proceeds
                                                                Proceeds
                  Master Fund, LP
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                              9/17/2012    $305,000,000 $1,868,974,000 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                              12/6/2012    $800,000,000 $1,068,974,000 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                             12/21/2012    $630,000,000   $438,974,000 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                              1/15/2013     $97,494,310   $341,479,690 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                                                                                         $229,105,784
                                                                                                                                                                                                                         Contingent      4/17/2013 Distribution5,11      $16,195,771
                                                                                                                                                                              1/24/2013    $341,479,690             $—
                                                                                                                                                                                                                         Proceeds        7/11/2013 Distribution5,11            $69,932
                  Wellington
                  Management
                                                                Membership                                                                                                                                               Membership
1,6   10/1/2009   Legacy          Wilmington    DE Purchase                     $1,111,111,111      Par 3/22/2010   $1,262,037,500 7/16/2010 $1,149,487,000 $1,149,487,000 7/16/2012        $62,499,688 $1,086,987,313
                                                                Interest                                                                                                                                                 Interest10
                  Securities PPIF
                  Master Fund, LP
                                                                                                                                                                                                                         Membership
                                                                                                                                                                              9/17/2012    $152,499,238   $934,488,075
                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                         Membership
                                                                                                                                                                              1/15/2013    $254,581,112   $679,906,963
                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                         Membership
                                                                                                                                                                              2/13/2013    $436,447,818   $243,459,145
                                                                                                                                                                                                                         Interest10

                                                                                                                                                                                                                         Membership      3/13/2013 Distribution5        $479,509,240
                                                                                                                                                                              3/13/2013    $243,459,145             $—
                                                                                                                                                                                                                         Interest10      7/11/2013 Distribution5,11       $2,802,754
                                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                                        411
PPIP TRANSACTION DETAIL, AS OF 3/31/2014                                                (CONTINUED)                                                                                                                                                                                                        412
                                                                                                                                                                       Final
                                                                                                            Preliminary Adjusted                                 Investment                                 Investment After Capital
                                                    Seller                                                     Commitment3          Final Commitment Amount7        Amount9    Capital Repayment Details          Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                          Interest/
                                                                                                                                                                                                                                                                                      Distributions
                                                       Transaction Investment       Commitment   Pricing                                                                   Repayment          Repayment                                                                                     Paid to
Note Date         Institution      City          State Type        Description         Amount Mechanism       Date          Amount Date              Amount         Amount      Date             Amount          Amount Description       Date         Description           Proceeds     Treasury
                  AllianceBernstein                               Debt
                                                                                                                                                                                                                        Debt Obligation
2,6,              Legacy                                          Obligation w/
     10/2/2009                      Wilmington    DE Purchase                     $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010 $2,300,847,000 $2,128,000,000 5/16/2011       $30,244,575 $2,097,755,425 w/ Contingent
12                Securities Master                               Contingent
                                                                                                                                                                                                                        Proceeds
                  Fund, L.P.                                      Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               6/14/2011         $88,087 $2,097,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                                5/3/2012     $80,000,000 $2,017,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               5/14/2012     $30,000,000 $1,987,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               5/23/2012    $500,000,000 $1,487,667,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               6/14/2012     $44,200,000 $1,443,467,339 w/ Contingent
                                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               6/25/2012    $120,000,000 $1,323,467,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               7/16/2012     $17,500,000 $1,305,967,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               7/27/2012    $450,000,000   $855,967,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               8/14/2012    $272,500,000   $583,467,339 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                          10/3/2012 Distribution5,11     $12,012,957
                                                                                                                                                                                                                                                                                            $252,376,156
                                                                                                                                                                                                                          Contingent      12/21/2012 Distribution5,11            $16,967
                                                                                                                                                                               8/22/2012    $583,467,339             $—
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                                                       Distribution
                                                                                                                                                                                                                                          8/13/2013                                ($460)
                                                                                                                                                                                                                                                       Refund
                  AllianceBernstein
                  Legacy                                          Membership                                                                                                                                              Membership
1,6   10/2/2009                     Wilmington    DE Purchase                     $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010 $1,150,423,500 $1,064,141,738 1/15/2010           $44,043 $1,064,097,694
                  Securities Master                               Interest                                                                                                                                                Interest10
                  Fund, L.P.
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               2/14/2011        $712,284 $1,063,385,410
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               3/14/2011      $6,716,327 $1,056,669,083
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               4/14/2011      $7,118,388 $1,049,550,694
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               5/14/2012     $39,999,800 $1,009,550,894
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               6/14/2012    $287,098,565   $722,452,330
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               7/16/2012     $68,749,656   $653,702,674
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               8/14/2012    $361,248,194   $292,454,480
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                                          8/30/2012 Distribution5,11     $75,278,664
                                                                                                                                                                                                                                          9/12/2012 Distribution5,11     $79,071,633
                                                                                                                                                                                                                                          9/19/2012 Distribution5,11    $106,300,357
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               8/30/2012    $292,454,480             $—                   10/1/2012 Distribution5,11     $25,909,972
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                                          12/21/2012 Distribution5,11        $678,683
                                                                                                                                                                                                                                                       Distribution
                                                                                                                                                                                                                                          8/13/2013                          ($18,405)
                                                                                                                                                                                                                                                       Refund
                                                                                                                                                                                                                                                                                 Continued on next page
PPIP TRANSACTION DETAIL, AS OF 3/31/2014                                                 (CONTINUED)
                                                                                                                                                                         Final
                                                                                                             Preliminary Adjusted                                  Investment                                  Investment After Capital
                                                     Seller                                                     Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                            Interest/
                                                                                                                                                                                                                                                                                        Distributions
                                                        Transaction Investment       Commitment   Pricing                                                                    Repayment           Repayment                                                                                    Paid to
Note Date          Institution       City         State Type        Description         Amount Mechanism       Date          Amount Date               Amount         Amount      Date              Amount          Amount Description       Date        Description           Proceeds     Treasury
                                                                   Debt
                                                                                                                                                                                                                           Debt Obligation
                   Blackrock PPIF,                                 Obligation w/
2,6   10/2/2009                      Wilmington    DE Purchase                     $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010 $1,389,960,000 $1,053,000,000 7/31/2012        $175,000,000   $878,000,000 w/ Contingent
                   L.P.                                            Contingent
                                                                                                                                                                                                                           Proceeds
                                                                   Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  8/14/2012      $5,539,055   $872,460,945 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  8/31/2012     $16,000,000   $856,460,945 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  9/17/2012      $1,667,352   $854,793,592 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  9/28/2012     $35,000,000   $819,793,592 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation                                                   $72,443,278
                                                                                                                                                                                 10/15/2012     $25,334,218   $794,459,374 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                             11/5/2012 Distribution5,11      $8,289,431
                                                                                                                                                                                                                             Contingent
                                                                                                                                                                                 10/18/2012    $794,459,374             $—                   12/5/2012 Distribution5,11      $1,433,088
                                                                                                                                                                                                                             Proceeds
                                                                                                                                                                                                                                             12/6/2013 Distribution5,11        $141,894
                   Blackrock PPIF,                                 Membership                                                                                                                                                Membership
1,6   10/2/2009                      Wilmington    DE Purchase                     $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010   $694,980,000   $528,184,800 8/14/2012         $90,269,076   $437,915,724
                   L.P.                                            Interest                                                                                                                                                  Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  9/17/2012      $8,833,632   $429,082,092
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                 10/15/2012     $10,055,653   $419,026,439
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                                             11/5/2012 Distribution5,11   $297,511,708
                                                                                                                                                                                                                             Membership
                                                                                                                                                                                  11/5/2012    $419,026,439             $—                   12/5/2012 Distribution5,11    $57,378,964
                                                                                                                                                                                                                             Interest10
                                                                                                                                                                                                                                             12/6/2013 Distribution5,11      $1,609,739
                                                                   Debt
                                                                                                                                                                                                                           Debt Obligation
                   AG GECC PPIF                                    Obligation w/
2,6   10/30/2009                     Wilmington    DE Purchase                     $2,222,222,222      Par 3/22/2010   $2,542,675,000 7/16/2010 $2,486,550,000 $2,234,798,340 2/14/2012        $174,200,000 $2,060,598,340 w/ Contingent
                   Master Fund, L.P.                               Contingent
                                                                                                                                                                                                                           Proceeds
                                                                   Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  3/14/2012    $198,925,000 $1,861,673,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  5/14/2012    $150,000,000 $1,711,673,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  7/16/2012     $37,500,000 $1,674,173,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                                                                                                                            $283,096,130
                                                                                                                                                                                  8/14/2012    $136,800,000 $1,537,373,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                  9/17/2012    $250,000,000 $1,287,373,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 10/15/2012    $481,350,000   $806,023,340 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 11/15/2012    $274,590,324   $531,433,016 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                 12/14/2012    $147,534,295   $383,898,721 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                                            413
PPIP TRANSACTION DETAIL, AS OF 3/31/2014                                                            (CONTINUED)                                                                                                                                                                                                       414
                                                                                                                                                                                   Final
                                                                                                                        Preliminary Adjusted                                 Investment                                  Investment After Capital
                                                            Seller                                                         Commitment3          Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                                      Interest/
                                                                                                                                                                                                                                                                                                  Distributions
                                                             Transaction Investment             Commitment   Pricing                                                                   Repayment           Repayment                                                                                    Paid to
Note Date             Institution         City         State Type        Description               Amount Mechanism       Date          Amount Date              Amount         Amount      Date              Amount         Amount Description        Date        Description           Proceeds     Treasury
                                                                                                                                                                                                                                     Debt Obligation
                                                                                                                                                                                            1/15/2013    $182,823,491   $201,075,230 w/ Contingent
                                                                                                                                                                                                                                     Proceeds
                                                                                                                                                                                                                                                       4/19/2013 Distribution5,11    $17,118,005
                                                                                                                                                                                                                                       Contingent
                                                                                                                                                                                            2/14/2013    $201,075,230             $—                   4/25/2013 Distribution5,11      $1,052,497
                                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                                                       5/29/2013 Distribution5,11      $1,230,643
                 AG GECC PPIF                                                    Membership                                                                                                                                          Membership
1,6   10/30/2009                    Wilmington DE Purchase                                    $1,111,111,111      Par 3/22/2010   $1,271,337,500 7/16/2010 $1,243,275,000 $1,117,399,170 2/14/2012        $87,099,565 $1,030,299,606
                 Master Fund, L.P.                                               Interest                                                                                                                                            Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                            3/14/2012     $99,462,003   $930,837,603
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                            5/14/2012     $74,999,625   $855,837,978
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                            7/16/2012     $18,749,906   $837,088,072
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                            8/14/2012     $68,399,658   $768,688,414
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                            9/17/2012    $124,999,375   $643,689,039
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                           10/15/2012    $240,673,797   $403,015,242
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                           11/15/2012     $45,764,825   $357,250,417
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                           12/14/2012     $24,588,926   $332,661,491
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                            1/15/2013     $30,470,429   $302,191,061
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                       Membership
                                                                                                                                                                                            2/14/2013    $295,328,636     $6,862,425
                                                                                                                                                                                                                                       Interest10
                                                                                                                                                                                                                                                       2/21/2013 Distribution5,11   $184,431,858
                                                                                                                                                                                                                                                       2/27/2013 Distribution5,11    $20,999,895

                                                                                                                                                                                                                                     Membership        3/14/2013 Distribution5,11   $156,174,219
                                                                                                                                                                                            2/21/2013      $6,862,425             $—
                                                                                                                                                                                                                                     Interest10        4/19/2013 Distribution5,11   $105,620,441
                                                                                                                                                                                                                                                       4/25/2013 Distribution5,11    $42,099,442
                                                                                                                                                                                                                                                       5/29/2013 Distribution5,11    $49,225,244
                                                                                                                                                                                                                                                                                             Continued on next page
PPIP TRANSACTION DETAIL, AS OF 3/31/2014                                               (CONTINUED)
                                                                                                                                                                       Final
                                                                                                           Preliminary Adjusted                                  Investment                                  Investment After Capital
                                                   Seller                                                     Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                           Interest/
                                                                                                                                                                                                                                                                                       Distributions
                                                      Transaction Investment       Commitment   Pricing                                                                    Repayment           Repayment                                                                                     Paid to
Note Date         Institution      City         State Type        Description         Amount Mechanism       Date          Amount Date               Amount         Amount      Date              Amount          Amount Description       Date         Description           Proceeds     Treasury
                  RLJ Western                                    Debt
                                                                                                                                                                                                                         Debt Obligation
                  Asset Public/                                  Obligation w/
2,6   11/4/2009                    Wilmington    DE Purchase                     $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010 $1,241,156,516 $1,241,000,000 5/13/2011         $13,531,530 $1,227,468,470 w/ Contingent
                  Private Master                                 Contingent
                                                                                                                                                                                                                         Proceeds
                  Fund, L.P.                                     Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                7/31/2012    $618,750,000   $608,718,470 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                 8/9/2012    $151,006,173   $457,712,297 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                8/14/2012     $11,008,652   $446,703,645 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                8/23/2012    $160,493,230   $286,210,415 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                8/29/2012    $103,706,836   $182,503,579 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                9/17/2012     $20,637,410   $161,866,170 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                                           10/19/2012 Distribution5,11       $6,789,287
                                                                                                                                                                                                                                           11/2/2012 Distribution5,11        $3,718,769 $161,505,775
                                                                                                                                                                                                                           Contingent
                                                                                                                                                                                9/21/2012    $161,866,170             $—                   12/21/2012 Distribution5,11            $13,750
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                                        Final
                                                                                                                                                                                                                                           12/11/2013                              $1,884
                                                                                                                                                                                                                                                        Distribution5,11
                  RLJ Western
                  Asset Public/                                  Membership                                                                                                                                                Membership
1,6   11/4/2009                    Wilmington    DE Purchase                     $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010   $620,578,258   $620,578,258 3/14/2011          $1,202,957   $619,375,301
                  Private Master                                 Interest                                                                                                                                                  Interest10
                  Fund, L.P.
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                4/14/2011      $3,521,835   $615,853,465
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                8/14/2012    $104,959,251   $510,894,215
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                9/17/2012     $72,640,245   $438,253,970
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                9/28/2012    $180,999,095   $257,254,875
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               10/15/2012    $134,999,325   $122,255,550
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                                           10/19/2012 Distribution5,11     $147,464,888

                                                                                                                                                                                                                         Membership        11/2/2012 Distribution5,11      $148,749,256
                                                                                                                                                                               10/19/2012    $122,255,550             $—
                                                                                                                                                                                                                         Interest10        12/21/2012 Distribution5,11        $549,997
                                                                                                                                                                                                                                           12/11/2013 Distribution5,11            $75,372
                                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                                           415
PPIP TRANSACTION DETAIL, AS OF 3/31/2014                                               (CONTINUED)                                                                                                                                                                                                         416
                                                                                                                                                                       Final
                                                                                                           Preliminary Adjusted                                  Investment                                  Investment After Capital
                                                   Seller                                                     Commitment3          Final Commitment Amount7         Amount9     Capital Repayment Details          Repayment                        Distribution or Disposition
                                                                                                                                                                                                                                                                                           Interest/
                                                                                                                                                                                                                                                                                       Distributions
                                                      Transaction Investment       Commitment   Pricing                                                                    Repayment           Repayment                                                                                     Paid to
Note Date          Institution     City         State Type        Description         Amount Mechanism       Date          Amount Date               Amount         Amount      Date              Amount          Amount Description       Date         Description           Proceeds     Treasury
                 Marathon Legacy
                                                                 Debt
                 Securities                                                                                                                                                                                              Debt Obligation
                                                                 Obligation w/
2,6   11/25/2009 Public-Private    Wilmington    DE Purchase                     $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010   $949,100,000   $949,000,000 9/17/2012        $149,000,000   $800,000,000 w/ Contingent
                                                                 Contingent
                 Investment                                                                                                                                                                                              Proceeds
                                                                 Proceeds
                 Partnership, L.P.
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               11/15/2012    $119,575,516   $680,424,484 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               11/20/2012    $195,000,000   $485,424,484 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               12/14/2012     $47,755,767   $437,668,717 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                1/15/2013     $62,456,214   $375,212,503 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                                           4/16/2013 Distribution5,11        $7,143,340
                                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                                                                                                                                           5/16/2013 Distribution5,11         $963,411
                                                                                                                                                                                                                           Contingent
                                                                                                                                                                                1/24/2013    $375,212,503             $—                   7/11/2013 Distribution5,11         $750,004
                                                                                                                                                                                                                           Proceeds
                                                                                                                                                                                                                                           9/5/2013     Distribution5,11      $100,001
                                                                                                                                                                                                                                           12/27/2013 Distribution5,11        $142,168
                                                                                                                                                                                                                                                                                            $77,496,170
                 Marathon Legacy
                 Securities
                                                                 Membership                                                                                                                                              Membership
1,6   11/25/2009 Public-Private    Wilmington    DE Purchase                     $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010   $474,550,000   $474,550,000 9/17/2012         $74,499,628   $400,050,373
                                                                 Interest                                                                                                                                                Interest10
                 Investment
                 Partnership, L.P.
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               11/15/2012     $59,787,459   $340,262,914
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                               12/14/2012     $40,459,092   $299,803,821
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                1/15/2013     $10,409,317   $289,394,504
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                1/30/2013    $219,998,900    $69,395,604
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                           Membership
                                                                                                                                                                                2/25/2013     $39,026,406    $30,369,198
                                                                                                                                                                                                                           Interest10
                                                                                                                                                                                                                                           3/25/2013 Distribution5,11      $164,629,827
                                                                                                                                                                                                                                           4/16/2013 Distribution5,11       $71,462,104

                                                                                                                                                                                                                           Membership      5/16/2013 Distribution5,11       $38,536,072
                                                                                                                                                                                3/25/2013     $30,369,198             $—
                                                                                                                                                                                                                           Interest10      7/11/2013 Distribution5,11       $29,999,850
                                                                                                                                                                                                                                           9/5/2013     Distribution5,11     $3,999,980
                                                                                                                                                                                                                                           12/27/2013 Distribution5,11       $5,707,723
                                                                 Debt
                                                                                                                                                                                                                         Debt Obligation
                   Oaktree PPIP                                  Obligation w/
2,6   12/18/2009                   Wilmington    DE Purchase                     $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010 $2,321,568,200 $1,111,000,000 7/15/2011         $79,000,000 $1,032,000,000 w/ Contingent
                   Fund, L.P.                                    Contingent
                                                                                                                                                                                                                         Proceeds
                                                                 Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                3/14/2012     $78,775,901   $953,224,099 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                9/17/2012     $44,224,144   $908,999,956 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               10/15/2012     $64,994,269   $844,005,687 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                               11/15/2012    $223,080,187   $620,925,500 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                                                                                  Continued on next page
PPIP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)
                                                                                                                                                                      Final
                                                                                                        Preliminary Adjusted                                    Investment                                  Investment After Capital
                                                Seller                                                     Commitment3             Final Commitment Amount7        Amount9     Capital Repayment Details          Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                         Interest/
                                                                                                                                                                                                                                                                                     Distributions
                                                   Transaction Investment       Commitment   Pricing                                                                      Repayment           Repayment                                                                                    Paid to
Note Date         Institution   City         State Type        Description         Amount Mechanism       Date          Amount Date                 Amount         Amount      Date              Amount         Amount Description        Date         Description          Proceeds     Treasury
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              12/14/2012    $111,080,608   $509,844,892 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               1/15/2013     $89,099,906   $420,744,985 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               4/12/2013    $109,610,516   $311,134,469 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                          5/28/2013 Distribution5,11        $444,393
                                                                                                                                                                                                                                          6/3/2013     Distribution5,11    $1,960,289
                                                                                                                                                                                                                                          6/14/2013 Distribution5,11       $1,375,007
                                                                                                                                                                                                                        Contingent        6/24/2013 Distribution5,11        $700,004
                                                                                                                                                                               5/14/2013    $311,134,469             $—
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                          6/26/2013 Distribution5,11        $293,751
                                                                                                                                                                                                                                          7/9/2013     Distribution5,11    $1,024,380
                                                                                                                                                                                                                                                       Final
                                                                                                                                                                                                                                          12/12/2013                            $13,475
                                                                                                                                                                                                                                                       Distribution5,11
                 Oaktree PPIP                                  Membership                                                                                                                                               Membership
1,6   12/18/2009                Wilmington    DE Purchase                     $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010 $1,160,784,100     $555,904,633 7/15/2011         $39,499,803   $516,404,830
                 Fund, L.P.                                    Interest                                                                                                                                                 Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               3/14/2012     $39,387,753   $477,017,077
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               9/17/2012     $22,111,961   $454,905,116                                                                   $66,648,417
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                              10/15/2012     $32,496,972   $422,408,144
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                              11/15/2012    $111,539,536   $310,868,608
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                              12/14/2012     $55,540,026   $255,328,581
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               1/15/2013     $14,849,910   $240,478,671
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               4/12/2013     $18,268,328   $222,210,343
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               5/14/2013     $70,605,973   $151,604,370
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                               5/28/2013    $119,769,362    $31,835,008
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                                          6/3/2013     Distribution5,11   $46,575,750
                                                                                                                                                                                                                                          6/14/2013 Distribution5,11      $54,999,725
                                                                                                                                                                                                                                          6/24/2013 Distribution5,11      $27,999,860
                                                                                                                                                                                                                        Membership
                                                                                                                                                                                6/3/2013     $31,835,008             $—                   6/26/2013 Distribution5,11      $11,749,941
                                                                                                                                                                                                                        Interest10
                                                                                                                                                                                                                                          7/9/2013     Distribution5,11   $40,974,795
                                                                                                                                                                                                                                                       Final
                                                                                                                                                                                                                                          12/12/2013                        $539,009
                                                                                                                                                                                                                                                       Distribution5,11
                                                                                                                                                                                                                                                                     5
                                   Initial Investment Amount                 $30,000,000,000             Final Investment Amount           $21,856,403,574    Total Capital Repayment $18,625,147,938                                              Total Proceeds $2,643,315,922
                                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                                        417
       Notes: Numbers may not total due to rounding. Data as of 3/31/2014. Numbered notes were taken verbatim from Treasury’s 3/19/2014, Transactions Report.
                                                                                                                                                                                                                                                                                                                                                          418
       1
        	The equity amount may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
       2
        	The loan may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
       3
        	Adjusted to show Treasury’s maximum obligations to a fund.
       4
        	On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
       5
        	Distributions after capital repayments will be considered profit and are paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in proportion to their membership interests. These figures exclude pro-rata distributions to Treasury of gross investment proceeds
           (reported on the Dividends & Interest report), which may be made from time to time in accordance with the terms of the fund’s Limited Partnership Agreement.
       6
        	Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after
           adjustment for the $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
       7
        	Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.
       8
        	On 9/26/2011, the General Partner notified Treasury that the Investment Period was terminated in accordance with the Limited Partnership Agreement. As a result, the Final Investment Amount, representing Treasury’s debt obligation, has been reduced to the cumulative amount of debt funded.
       9
        	Cumulative capital drawn at end of the Investment Period.
       10
         	The Amount is adjusted to reflect pro-rata equity distributions that have been deemed to be capital repayments to Treasury.
       11
         	Distribution represents a gain on funded capital and is subject to revision pending any additional fundings of the outstanding commitment.
       12
         	On 8/23/2012, AllianceBernstein agreed to de-obligate its unused debt commitment. The Final Investment Amount represents the cumulative capital drawn as of the de-obligation.
       13
         	On, 6/5/2013, Invesco Mortgage Recovery Master Fund L.P. made a distribution to Treasury that is the result of adjustments made to positions previously held by the Invesco Legacy Securities Master Fund, L.P. “Partnership”, of which The U.S. Department of the Treasury is a Limited Partner. The adjusted distribution
           was made 18 months after the Final Distribution on 9/28/2012.
       14
         	On 7/8/2013, Invesco Mortgage Recovery Master Fund L.P. made a distribution to Treasury arising from the Settlement Agreement between Jefferies LLC and Invesco Advisers, Inc. dated as of 3/20/2013.

       Sources: Treasury, Transactions Report, 3/19/2014; Treasury, Dividends and Interest Report, 4/10/2014.




TABLE D.13
HAMP TRANSACTION DETAIL, AS OF 3/31/2014
                                                                                                                                      Adjustment
                                                                                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                  Servicer Modifying Borrowers’ Loans                                                                                     Details                                                                                                                                         TARP Incentive Payments
                                                                                      Cap of Incentive
                                                                                  Payments on Behalf
                                                                                  of Borrowers and to                                                                                                                                                                                     Lenders/                                        Total TARP
                                              Transaction     Investment         Servicers & Lenders/       Pricing                   Adjustment        Cap Adjustment                                                                                             Borrower’s             Investors               Servicers                 Incentive
Date              Name of Institution         Type            Description             Investors (Cap)*      Mechanism        Note           Date               Amount          Adjusted Cap      Reason for Adjustment                                             Incentives            Incentives              Incentives                Payments
                                                                                                                                       3/14/2013               $130,000             $130,000     Transfer of cap due to servicing transfer
                                                                                                                                       3/25/2013                     ($1)           $129,999     Updated due to quarterly assessment and reallocation
                                                              Financial
                  21st Mortgage                                                                                                      12/16/2013                 $30,000             $159,999     Transfer of cap due to servicing transfer
                                                              Instrument for
3/14/2013         Corporation,                Purchase                                                $0    N/A                3                                                                                                                                       $2,708               $23,632                $15,750                  $42,091
                                                              Home Loan                                                              12/23/2013                     ($96)           $159,903     Updated due to quarterly assessment and reallocation
                  Knoxville, TN
                                                              Modifications
                                                                                                                                       1/16/2014               $180,000             $339,903     Transfer of cap due to servicing transfer
                                                                                                                                       3/26/2014                    ($20)           $339,883     Updated due to quarterly assessment and reallocation
                                                              Financial                                                                9/30/2010                $45,056             $145,056     Updated portfolio data from servicer
                  AgFirst Farm Credit                         Instrument for
9/30/2010                                     Purchase                                         $100,000     N/A                                                                                                                                                             $0                    $0                      $0                         $0
                  Bank, Columbia, SC                          Home Loan                                                                3/23/2011              ($145,056)                   $0    Termination of SPA
                                                              Modifications
                                                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                                       10/2/2009                $60,000             $310,000
                                                                                                                                                                                                 program initial cap
                                                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                                     12/30/2009                ($80,000)            $230,000
                                                                                                                                                                                                 program initial cap
                                                                                                                                       3/26/2010               $280,000             $510,000     Updated portfolio data from servicer
                                                                                                                                       7/14/2010              ($410,000)            $100,000     Updated portfolio data from servicer
                                                              Financial
                  Allstate Mortgage Loans                                                                                              9/30/2010                $45,056             $145,056     Updated portfolio data from servicer
                                                              Instrument for
9/11/2009         & Investments, Inc.,        Purchase                                         $250,000     N/A                                                                                                                                                        $6,742               $10,544                  $8,036                 $25,322
                                                              Home Loan
                  Ocala, FL                                                                                                            6/29/2011                     ($1)           $145,055     Updated due to quarterly assessment and reallocation
                                                              Modifications
                                                                                                                                       6/28/2012                     ($1)           $145,054     Updated due to quarterly assessment and reallocation
                                                                                                                                       9/27/2012                     ($2)           $145,052     Updated due to quarterly assessment and reallocation
                                                                                                                                       3/25/2013                     ($1)           $145,051     Updated due to quarterly assessment and reallocation
                                                                                                                                     12/23/2013                    ($232)           $144,819     Updated due to quarterly assessment and reallocation
                                                                                                                                       3/26/2014                     ($8)           $144,811     Updated due to quarterly assessment and reallocation
                                                                                                                                       9/30/2010                $45,056             $145,056     Updated portfolio data from servicer
                                                                                                                                       6/29/2011                     ($1)           $145,055     Updated due to quarterly assessment and reallocation

                                                              Financial                                                                6/28/2012                     ($1)           $145,054     Updated due to quarterly assessment and reallocation
                  Amarillo National Bank,                     Instrument for
9/30/2010                                     Purchase                                         $100,000     N/A                        9/27/2012                     ($2)           $145,052     Updated due to quarterly assessment and reallocation                       $0                    $0                      $0                         $0
                  Amarillo, TX                                Home Loan
                                                              Modifications                                                            3/25/2013                     ($1)           $145,051     Updated due to quarterly assessment and reallocation
                                                                                                                                     12/23/2013                    ($232)           $144,819     Updated due to quarterly assessment and reallocation
                                                                                                                                       3/26/2014                     ($8)           $144,811     Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                                               Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                       TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                          Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                         Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount    Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                                1/22/2010          $70,000     $1,660,000
                                                                                                                                                             program initial cap
                                                                                                                3/26/2010        ($290,000)    $1,370,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        ($570,000)      $800,000    Updated portfolio data from servicer
                                                   Financial
            American Eagle Federal
                                                   Instrument for                                               9/30/2010          $70,334       $870,334    Updated portfolio data from servicer
12/9/2009   Credit Union,            Purchase                                 $1,590,000    N/A                                                                                                                            $0           $0                 $0                      $0
                                                   Home Loan
            East Hartford, CT                                                                                    1/6/2011              ($1)      $870,333    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                3/30/2011              ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011             ($13)      $870,319    Updated due to quarterly assessment and reallocation
                                                                                                                1/25/2012        ($870,319)            $0    Termination of SPA
                                                   Financial                                                    9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
            American Finance
                                                   Instrument for
9/24/2010   House LARIBA,            Purchase                                  $100,000     N/A                                                                                                                            $0           $0                 $0                      $0
                                                   Home Loan                                                     2/2/2011        ($145,056)            $0    Termination of SPA
            Pasadena, CA
                                                   Modifications
                                                                                                                9/30/2010          $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                6/29/2011              ($1)      $145,055    Updated due to quarterly assessment and reallocation

                                                   Financial                                                    6/28/2012              ($1)      $145,054    Updated due to quarterly assessment and reallocation
            American Financial
                                                   Instrument for
9/30/2010   Resources Inc.,          Purchase                                  $100,000     N/A                 9/27/2012              ($2)      $145,052    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
                                                   Home Loan
            Parsippany, NJ
                                                   Modifications                                                3/25/2013              ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013            ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014              ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                         419
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)                                                                                                                                                                                          420
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               10/2/2009         $960,000      $5,350,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       ($3,090,000)    $2,260,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010         $230,000      $2,490,000    Updated portfolio data from servicer
                                                                                                               7/14/2010        $5,310,000     $7,800,000    Updated portfolio data from servicer
                                                                                                               9/30/2010         $323,114      $8,123,114    Updated portfolio data from servicer
                                                                                                                1/6/2011              ($12)    $8,123,102    Updated due to quarterly assessment and reallocation
                                                                                                               3/16/2011         $600,000      $8,723,102    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011              ($16)    $8,723,086    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011         $200,000      $8,923,086    Transfer of cap due to servicing transfer
                                                                                                               5/13/2011         $100,000      $9,023,086    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011             ($153)    $9,022,933    Updated due to quarterly assessment and reallocation
                                                                                                               9/15/2011         $100,000      $9,122,933    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                              11/16/2011         $100,000      $9,222,933    Transfer of cap due to servicing transfer
                                                                                                               4/16/2012        $1,100,000    $10,322,933    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012         $650,000     $10,972,933    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012             ($136)   $10,972,797    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012             ($347)   $10,972,450    Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012         $250,000     $11,222,450    Transfer of cap due to servicing transfer
                                                  Financial
            AMS Servicing, LLC,                   Instrument for                                              11/15/2012           $30,000    $11,252,450    Transfer of cap due to servicing transfer
9/23/2009                          Purchase                                  $4,390,000    N/A                                                                                                                        $36,866    $174,536           $103,775                $315,177
            Buffalo, NY                           Home Loan
                                                                                                              12/14/2012          ($10,000)   $11,242,450    Transfer of cap due to servicing transfer
                                                  Modifications
                                                                                                              12/27/2012              ($59)   $11,242,391    Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013           $20,000    $11,262,391    Transfer of cap due to servicing transfer
                                                                                                               2/14/2013         $290,000     $11,552,391    Transfer of cap due to servicing transfer
                                                                                                               3/14/2013           $10,000    $11,562,391    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013             ($220)   $11,562,171    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013          ($60,000)   $11,502,171    Transfer of cap due to servicing transfer
                                                                                                               5/16/2013           $50,000    $11,552,171    Transfer of cap due to servicing transfer
                                                                                                               6/14/2013           $10,000    $11,562,171    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013              ($79)   $11,562,092    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013          ($90,000)   $11,472,092    Transfer of cap due to servicing transfer
                                                                                                               9/16/2013         $310,000     $11,782,092    Transfer of cap due to servicing transfer
                                                                                                               9/27/2013              ($28)   $11,782,064    Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013         $230,000     $12,012,064    Transfer of cap due to servicing transfer
                                                                                                              11/14/2013         $120,000     $12,132,064    Transfer of cap due to servicing transfer
                                                                                                              12/16/2013         $460,000     $12,592,064    Transfer of cap due to servicing transfer
                                                                                                              12/23/2013          ($49,413)   $12,542,651    Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014           $40,000    $12,582,651    Transfer of cap due to servicing transfer
                                                                                                               3/14/2014        ($260,000)    $12,322,651    Transfer of cap due to servicing transfer
                                                                                                               3/26/2014           ($1,697)   $12,320,954    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                              (CONTINUED)
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                           TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                           Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 5/26/2010           $30,000        $40,000
                                                                                                                                                               program initial cap
                                                                                                                 9/30/2010          $250,111       $290,111    Updated portfolio data from servicer
                                                                                                                 6/29/2011           $59,889       $350,000    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012               ($2)      $349,998    Updated due to quarterly assessment and reallocation
                                                    Financial
            Aurora Financial Group,                 Instrument for                                               9/27/2012               ($5)      $349,993    Updated due to quarterly assessment and reallocation
5/21/2010                             Purchase                                    $10,000    N/A                                                                                                                         $24,689             $0           $27,844                 $52,533
            Inc., Marlton, NJ                       Home Loan
                                                    Modifications                                               12/27/2012               ($1)      $349,992    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013               ($3)      $349,989    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013               ($1)      $349,988    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013             ($759)      $349,229    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014              ($27)      $349,202    Updated due to quarterly assessment and reallocation
                                                                                                                 6/17/2009    ($338,450,000)    $459,550,000   Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2009      ($11,860,000)   $447,690,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009       $21,330,000    $469,020,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010        $9,150,000    $478,170,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010      ($76,870,000)   $401,300,000   Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                  9/1/2010          $400,000    $401,700,000
                                                                                                                                                               program initial cap
                                                                                                                 9/30/2010       ($8,454,269)   $393,245,731   Updated portfolio data from servicer
                                                                                                                  1/6/2011             ($342)   $393,245,389   Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011             ($374)   $393,245,015   Updated due to quarterly assessment and reallocation
                                                                                                                 5/13/2011       $18,000,000    $411,245,015   Transfer of cap due to servicing transfer

                                                    Financial                                                    6/29/2011           ($3,273)   $411,241,742   Updated due to quarterly assessment and reallocation
            Aurora Loan Services,                   Instrument for                                              10/14/2011        ($200,000)    $411,041,742   Transfer of cap due to servicing transfer
5/1/2009                              Purchase                              $798,000,000     N/A         11                                                                                                           $15,997,418   $41,236,850       $28,629,251             $85,863,519
            LLC, Littleton, CO                      Home Loan
                                                    Modifications                                                3/15/2012          $100,000    $411,141,742   Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012        ($500,000)    $410,641,742   Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012           ($1,768)   $410,639,974   Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2012          ($90,000)   $410,549,974   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2012    ($134,230,000)    $276,319,974   Transfer of cap due to servicing transfer
                                                                                                                 8/23/2012    ($166,976,849)    $109,343,125   Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012                $1    $109,343,126   Updated due to quarterly assessment and reallocation
                                                                                                                11/15/2012        ($230,000)    $109,113,126   Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013               ($1)   $109,113,125   Updated due to quarterly assessment and reallocation
                                                                                                                 5/16/2013          ($20,000)   $109,093,125   Transfer of cap due to servicing transfer
                                                                                                                 6/14/2013          ($50,000)   $109,043,125   Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013              ($15)   $109,043,110   Updated due to quarterly assessment and reallocation
                                                                                                                  7/9/2013      ($23,179,591)    $85,863,519   Termination of SPA
                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                              421
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                              (CONTINUED)                                                                                                                                                                                               422
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                             TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s      Investors         Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount       Adjusted Cap    Reason for Adjustment                                  Incentives     Incentives        Incentives               Payments
                                                                                                                 9/30/2010           $765,945       $2,465,945    Updated portfolio data from servicer
                                                                                                                  1/6/2011                ($3)      $2,465,942    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011                ($4)      $2,465,938    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011               ($36)      $2,465,902    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012               ($30)      $2,465,872    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012               ($83)      $2,465,789    Updated due to quarterly assessment and reallocation
                                                    Financial
             Banco Popular de                                                                                   12/27/2012               ($14)      $2,465,775    Updated due to quarterly assessment and reallocation
                                                    Instrument for
9/30/2010    Puerto Rico,             Purchase                                 $1,700,000    N/A                                                                                                                           $43,487       $47,241            $23,560                $114,288
                                                    Home Loan                                                    3/25/2013               ($53)      $2,465,722    Updated due to quarterly assessment and reallocation
             San Juan, PR
                                                    Modifications
                                                                                                                 6/27/2013               ($20)      $2,465,702    Updated due to quarterly assessment and reallocation
                                                                                                                 9/16/2013           $460,000       $2,925,702    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013                ($7)      $2,925,695    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013           ($12,339)      $2,913,356    Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2014            $50,000       $2,963,356    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                 3/26/2014              ($449)      $2,962,907    Updated due to quarterly assessment and reallocation
                                                    Financial
             Bangor Savings Bank,                   Instrument for
9/15/2011                             Purchase                                         $0    N/A          3      9/15/2011           $100,000         $100,000    Transfer of cap due to servicing transfer                     $0             $0                 $0                      $0
             Bangor, ME                             Home Loan
                                                    Modifications
                                                                                                                 6/12/2009         $5,540,000     $804,440,000    Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                 9/30/2009      $162,680,000      $967,120,000
                                                                                                                                                                  program initial cap
                                                                                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                12/30/2009      $665,510,000     $1,632,630,000
                                                                                                                                                                  program initial cap
                                                                                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                 1/26/2010      $800,390,000     $2,433,020,000
                                                                                                                                                                  program initial cap
                                                                                                                 3/26/2010     ($829,370,000)    $1,603,650,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010     ($366,750,000)    $1,236,900,000   Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                 9/30/2010        $95,300,000    $1,332,200,000
                                                                                                                                                                  program initial cap
4/17/2009                                           Financial
as amended   Bank of America, N.A.,                 Instrument for                                               9/30/2010      $222,941,084     $1,555,141,084   Updated portfolio data from servicer
                                      Purchase                              $798,900,000     N/A          7                                                                                                              $4,099,062   $17,843,110        $9,075,439             $31,017,611
on           Simi Valley, CA                        Home Loan
1/26/2010                                           Modifications                                                 1/6/2011            ($2,199)   $1,555,138,885   Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011            ($2,548)   $1,555,136,337   Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011           ($23,337)   $1,555,113,000   Updated due to quarterly assessment and reallocation
                                                                                                                 8/16/2011         ($300,000)    $1,554,813,000   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011     ($120,700,000)    $1,434,113,000   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011         ($900,000)    $1,433,213,000   Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012         ($200,000)    $1,433,013,000   Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012           ($17,893)   $1,432,995,107   Updated due to quarterly assessment and reallocation
                                                                                                                 8/10/2012    ($1,401,716,594)     $31,278,513    Termination of SPA
                                                                                                                10/16/2013         ($260,902)      $31,017,611    Termination of SPA
                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                                TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                   Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                               Borrower’s       Investors         Servicers                Incentive
Date         Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount       Adjusted Cap    Reason for Adjustment                                    Incentives      Incentives        Incentives               Payments
                                                                                                                6/12/2009     $3,318,840,000    $5,182,840,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                9/30/2009     ($717,420,000)    $4,465,420,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                               12/30/2009     $2,290,780,000    $6,756,200,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                1/26/2010      $450,100,000     $7,206,300,000
                                                                                                                                                                 program initial cap
                                                                                                                3/26/2010      $905,010,000     $8,111,310,000   Updated portfolio data from servicer
                                                                                                                4/19/2010        $10,280,000    $8,121,590,000   Transfer of cap due to servicing transfer
                                                                                                                6/16/2010      $286,510,000     $8,408,100,000   Transfer of cap due to servicing transfer
                                                                                                                7/14/2010    ($1,787,300,000)   $6,620,800,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                9/30/2010      $105,500,000     $6,726,300,000
                                                                                                                                                                 program initial cap
                                                                                                                9/30/2010     ($614,527,362)    $6,111,772,638   Updated portfolio data from servicer
                                                                                                               12/15/2010      $236,000,000     $6,347,772,638   Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011            ($8,012)   $6,347,764,626   Updated due to quarterly assessment and reallocation
                                                                                                                2/16/2011         $1,800,000    $6,349,564,626   Transfer of cap due to servicing transfer
                                                                                                                3/16/2011           $100,000    $6,349,664,626   Transfer of cap due to servicing transfer
                                                                                                                3/30/2011            ($9,190)   $6,349,655,436   Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011           $200,000    $6,349,855,436   Transfer of cap due to servicing transfer
                                                                                                                5/13/2011           $300,000    $6,350,155,436   Transfer of cap due to servicing transfer
                                                                                                                6/16/2011        ($1,000,000)   $6,349,155,436   Transfer of cap due to servicing transfer
4/17/2009    Bank of America, N.A.                 Financial
                                                                                                                6/29/2011           ($82,347)   $6,349,073,089   Updated due to quarterly assessment and reallocation
as amended   (BAC Home Loans                       Instrument for
                                     Purchase                            $1,864,000,000     N/A                                                                                                                         $314,668,848   $643,164,071      $382,069,402          $1,339,902,320
on           Servicing, LP),                       Home Loan                                                    7/14/2011         ($200,000)    $6,348,873,089   Transfer of cap due to servicing transfer
1/26/2010    Simi Valley, CA                       Modifications
                                                                                                                8/16/2011        ($3,400,000)   $6,345,473,089   Transfer of cap due to servicing transfer
                                                                                                                9/15/2011        ($1,400,000)   $6,344,073,089   Transfer of cap due to servicing transfer
                                                                                                               10/14/2011      $120,600,000     $6,464,673,089   Transfer of cap due to servicing transfer
                                                                                                                                                                 Transfer of cap due to merger/acquisition
                                                                                                               10/19/2011      $317,956,289     $6,782,629,378

                                                                                                               11/16/2011           $800,000    $6,783,429,378   Transfer of cap due to servicing transfer
                                                                                                               12/15/2011      ($17,600,000)    $6,765,829,378   Transfer of cap due to servicing transfer
                                                                                                                2/16/2012        ($2,100,000)   $6,763,729,378   Transfer of cap due to servicing transfer
                                                                                                                3/15/2012      ($23,900,000)    $6,739,829,378   Transfer of cap due to servicing transfer
                                                                                                                4/16/2012      ($63,800,000)    $6,676,029,378   Transfer of cap due to servicing transfer
                                                                                                                5/16/2012            $20,000    $6,676,049,378   Transfer of cap due to servicing transfer
                                                                                                                6/14/2012        ($8,860,000)   $6,667,189,378   Transfer of cap due to servicing transfer
                                                                                                                6/28/2012           ($58,550)   $6,667,130,828   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012        ($6,840,000)   $6,660,290,828   Transfer of cap due to servicing transfer
                                                                                                                8/10/2012     $1,401,716,594    $8,062,007,423   Transfer of cap due to merger/acquisition
                                                                                                                8/16/2012        ($4,780,000)   $8,057,227,423   Transfer of cap due to servicing transfer
                                                                                                                9/27/2012         ($205,946)    $8,057,021,476   Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012     ($153,220,000)    $7,903,801,476   Transfer of cap due to servicing transfer
                                                                                                               11/15/2012      ($27,300,000)    $7,876,501,476   Transfer of cap due to servicing transfer
                                                                                                               12/14/2012      ($50,350,000)    $7,826,151,476   Transfer of cap due to servicing transfer
                                                                                                               12/27/2012           ($33,515)   $7,826,117,961   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                                  423
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)                                                                                                                                                                                              424
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                            TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s      Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives     Incentives        Incentives               Payments
                                                                                                                1/16/2013      ($27,000,000)   $7,799,117,961   Transfer of cap due to servicing transfer
                                                                                                                2/14/2013      ($41,830,000)   $7,757,287,961   Transfer of cap due to servicing transfer
                                                                                                                3/14/2013       ($5,900,000)   $7,751,387,961   Transfer of cap due to servicing transfer
                                                                                                                3/25/2013        ($122,604)    $7,751,265,357   Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013       ($1,410,000)   $7,749,855,357   Transfer of cap due to servicing transfer
                                                                                                                5/16/2013        ($940,000)    $7,748,915,357   Transfer of cap due to servicing transfer
                                                                                                                6/14/2013      ($16,950,000)   $7,731,965,357   Transfer of cap due to servicing transfer
                                                                                                                6/27/2013          ($45,103)   $7,731,920,254   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013      ($25,580,000)   $7,706,340,254   Transfer of cap due to servicing transfer
                                                                                                                8/15/2013       ($6,730,000)   $7,699,610,254   Transfer of cap due to servicing transfer
                                                                                                                9/16/2013    ($290,640,000)    $7,408,970,254   Transfer of cap due to servicing transfer
                                                                                                                9/27/2013          ($15,411)   $7,408,954,843   Updated due to quarterly assessment and reallocation
                                                                                                               10/15/2013      ($79,200,000)   $7,329,754,843   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                               10/16/2013          $260,902    $7,330,015,745   Transfer of cap due to merger/acquisition
                                                                                                               11/14/2013      ($14,600,000)   $7,315,415,745   Transfer of cap due to servicing transfer
                                                                                                               12/16/2013      ($23,220,000)   $7,292,195,745   Transfer of cap due to servicing transfer
                                                                                                               12/23/2013      ($25,226,860)   $7,266,968,885   Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014      ($27,070,000)   $7,239,898,885   Transfer of cap due to servicing transfer
                                                                                                                2/13/2014    ($110,110,000)    $7,129,788,885   Transfer of cap due to servicing transfer
                                                                                                                3/14/2014      ($27,640,000)   $7,102,148,885   Transfer of cap due to servicing transfer
                                                                                                                3/26/2014        ($868,425)    $7,101,280,460   Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                1/22/2010        $4,370,000      $98,030,000
                                                                                                                                                                program initial cap
                                                                                                                3/26/2010       $23,880,000     $121,910,000    Updated portfolio data from servicer
                                                                                                                7/14/2010      ($16,610,000)    $105,300,000    Updated portfolio data from servicer
                                                                                                                9/30/2010        $1,751,033     $107,051,033    Updated portfolio data from servicer
                                                                                                                 1/6/2011              ($77)    $107,050,956    Updated due to quarterly assessment and reallocation
                                                                                                                3/16/2011       ($9,900,000)     $97,150,956    Transfer of cap due to servicing transfer
                                                                                                                3/30/2011              ($88)     $97,150,868    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011             ($773)     $97,150,095    Updated due to quarterly assessment and reallocation
                                                                                                                3/15/2012       ($1,400,000)     $95,750,095    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012             ($277)     $95,749,818    Updated due to quarterly assessment and reallocation
                                                   Financial                                                    9/27/2012             ($549)     $95,749,269    Updated due to quarterly assessment and reallocation
             Bank United,                          Instrument for
10/23/2009                          Purchase                                $93,660,000     N/A                                                                                                                        $8,377,361   $24,381,874       $12,162,169             $44,921,404
             Miami Lakes, FL                       Home Loan                                                   12/27/2012              ($65)     $95,749,204    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                2/14/2013       ($2,670,000)     $93,079,204    Transfer of cap due to servicing transfer
                                                                                                                3/25/2013             ($142)     $93,079,062    Updated due to quarterly assessment and reallocation
                                                                                                                5/16/2013        ($610,000)      $92,469,062    Transfer of cap due to servicing transfer
                                                                                                                6/27/2013              ($48)     $92,469,014    Updated due to quarterly assessment and reallocation
                                                                                                                9/16/2013          ($40,000)     $92,429,014    Transfer of cap due to servicing transfer
                                                                                                                9/27/2013              ($14)     $92,429,000    Updated due to quarterly assessment and reallocation
                                                                                                               11/14/2013          ($30,000)     $92,399,000    Transfer of cap due to servicing transfer
                                                                                                               12/16/2013       ($1,190,000)     $91,209,000    Transfer of cap due to servicing transfer
                                                                                                               12/23/2013          ($14,953)     $91,194,047    Updated due to quarterly assessment and reallocation
                                                                                                                2/13/2014        ($170,000)      $91,024,047    Transfer of cap due to servicing transfer
                                                                                                                3/26/2014             ($721)     $91,023,326    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                10/2/2009           $90,000       $500,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        $1,460,000     $1,960,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010         $160,000      $2,120,000    Updated portfolio data from servicer
                                                   Financial
            Bay Federal Credit                     Instrument for                                               7/14/2010        ($120,000)     $2,000,000    Updated portfolio data from servicer
9/16/2009                            Purchase                                  $410,000     N/A                                                                                                                             $0           $0                 $0                      $0
            Union, Capitola, CA                    Home Loan
                                                                                                                9/30/2010       ($1,419,778)      $580,222    Updated portfolio data from servicer
                                                   Modifications
                                                                                                                 1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011               ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                1/25/2012        ($580,212)             $0    Termination of SPA
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010           $10,000       $240,000
                                                                                                                                                              program initial cap
                                                   Financial                                                    3/26/2010         $440,000        $680,000    Updated portfolio data from servicer
            Bay Gulf Credit Union,                 Instrument for
12/9/2009                            Purchase                                  $230,000     N/A                                                                                                                             $0           $0                 $0                      $0
            Tampa, FL                              Home Loan                                                    7/14/2010          ($80,000)      $600,000    Updated portfolio data from servicer
                                                   Modifications
                                                                                                                9/30/2010          ($19,778)      $580,222    Updated portfolio data from servicer
                                                                                                               10/15/2010        ($580,222)             $0    Termination of SPA
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                          425
                                                                                                                                                                                                                                                                                             426
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)
                                                                                                               Adjustment
           Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                           TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                           Borrower’s      Investors         Servicers                Incentive
Date       Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009       $23,850,000     $68,110,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009       $43,590,000    $111,700,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010       $34,540,000    $146,240,000   Updated portfolio data from servicer
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                 5/7/2010        $1,010,000    $147,250,000
                                                                                                                                                              program initial cap
                                                                                                                7/14/2010      ($34,250,000)   $113,000,000   Updated portfolio data from servicer
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2010          $600,000    $113,600,000
                                                                                                                                                              program initial cap
                                                                                                                9/30/2010      ($15,252,303)    $98,347,697   Updated portfolio data from servicer
                                                                                                                 1/6/2011              ($70)    $98,347,627   Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011              ($86)    $98,347,541   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                4/13/2011          $400,000     $98,747,541   Transfer of cap due to servicing transfer
                                                                                                                5/13/2011          $100,000     $98,847,541   Transfer of cap due to servicing transfer
                                                                                                                6/29/2011             ($771)    $98,846,770   Updated due to quarterly assessment and reallocation
                                                                                                                9/15/2011          $600,000     $99,446,770   Transfer of cap due to servicing transfer
                                                                                                               10/14/2011      ($18,900,000)    $80,546,770   Transfer of cap due to servicing transfer
                                                                                                                1/13/2012          $900,000     $81,446,770   Transfer of cap due to servicing transfer
                                                                                                                2/16/2012        $2,400,000     $83,846,770   Transfer of cap due to servicing transfer
                                                                                                                3/15/2012        ($100,000)     $83,746,770   Transfer of cap due to servicing transfer
                                                                                                                4/16/2012          $200,000     $83,946,770   Transfer of cap due to servicing transfer
                                                                                                                5/16/2012           $30,000     $83,976,770   Transfer of cap due to servicing transfer
                                                                                                                6/14/2012        $1,810,000     $85,786,770   Transfer of cap due to servicing transfer
                                                                                                                6/28/2012             ($508)    $85,786,262   Updated due to quarterly assessment and reallocation
                                                   Financial
           Bayview Loan Servicing,                 Instrument for                                               7/16/2012        $2,660,000     $88,446,262   Transfer of cap due to servicing transfer
7/1/2009                             Purchase                               $44,260,000     N/A                                                                                                                      $13,029,902   $24,791,742       $16,080,119             $53,901,763
           LLC, Coral Gables, FL                   Home Loan
                                                   Modifications                                                9/27/2012           ($1,249)    $88,445,013   Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012          $160,000     $88,605,013   Transfer of cap due to servicing transfer
                                                                                                               11/15/2012        $6,970,000     $95,575,013   Transfer of cap due to servicing transfer
                                                                                                               12/14/2012       $13,590,000    $109,165,013   Transfer of cap due to servicing transfer
                                                                                                               12/27/2012             ($298)   $109,164,715   Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013           $90,000    $109,254,715   Transfer of cap due to servicing transfer
                                                                                                                2/14/2013        $3,250,000    $112,504,715   Transfer of cap due to servicing transfer
                                                                                                                3/14/2013          $830,000    $113,334,715   Transfer of cap due to servicing transfer
                                                                                                                3/25/2013           ($1,023)   $113,333,692   Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013        $1,490,000    $114,823,692   Transfer of cap due to servicing transfer
                                                                                                                5/16/2013          $660,000    $115,483,692   Transfer of cap due to servicing transfer
                                                                                                                6/14/2013        $7,470,000    $122,953,692   Transfer of cap due to servicing transfer
                                                                                                                6/27/2013             ($308)   $122,953,384   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013       $21,430,000    $144,383,384   Transfer of cap due to servicing transfer
                                                                                                                9/16/2013       $11,730,000    $156,113,384   Transfer of cap due to servicing transfer
                                                                                                                9/27/2013              ($91)   $156,113,293   Updated due to quarterly assessment and reallocation
                                                                                                               10/15/2013        $5,430,000    $161,543,293   Transfer of cap due to servicing transfer
                                                                                                               11/14/2013       $20,900,000    $182,443,293   Transfer of cap due to servicing transfer
                                                                                                               12/16/2013          $260,000    $182,703,293   Transfer of cap due to servicing transfer
                                                                                                               12/23/2013        ($131,553)    $182,571,740   Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014        $1,070,000    $183,641,740   Transfer of cap due to servicing transfer
                                                                                                                2/13/2014        $2,570,000    $186,211,740   Transfer of cap due to servicing transfer
                                                                                                                3/14/2014        $1,530,000    $187,741,740   Transfer of cap due to servicing transfer
                                                                                                                3/26/2014           ($1,050)   $187,740,690   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                                (CONTINUED)
                                                                                                                  Adjustment
            Servicer Modifying Borrowers’ Loans                                                                       Details                                                                                                         TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution         Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                   9/30/2010        $1,040,667     $1,740,667    Updated portfolio data from servicer

                                                      Financial                                                     1/6/2011               ($2)    $1,740,665    Updated due to quarterly assessment and reallocation
            Bramble Savings Bank,                     Instrument for
8/20/2010                               Purchase                                  $700,000     N/A                 3/30/2011               ($3)    $1,740,662    Updated due to quarterly assessment and reallocation          $0           $0                  $0                      $0
            Cincinnati, OH                            Home Loan
                                                      Modifications                                                6/29/2011              ($28)    $1,740,634    Updated due to quarterly assessment and reallocation
                                                                                                                   8/10/2011       ($1,740,634)            $0    Termination of SPA
                                                      Financial
            Bridgelock Capital dba                                                                                 7/16/2013           $10,000        $10,000    Transfer of cap due to servicing transfer
                                                      Instrument for
7/16/2013   Peak Loan Servicing,        Purchase                                         $0    N/A          3                                                                                                                  $0           $0                  $0                      $0
                                                      Home Loan
            Woodland Hills, CA
                                                      Modifications                                               12/16/2013           $30,000        $40,000    Transfer of cap due to servicing transfer
                                                                                                                   9/15/2010        $1,000,000     $1,000,000    Transfer of cap due to servicing transfer
                                                                                                                   9/30/2010         $450,556      $1,450,556    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($2)    $1,450,554    Updated due to quarterly assessment and reallocation
                                                                                                                   2/16/2011        $3,000,000     $4,450,554    Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011       $10,200,000    $14,650,554    Transfer of cap due to servicing transfer
                                                                                                                   3/30/2011              ($24)   $14,650,530    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011             ($227)   $14,650,303    Updated due to quarterly assessment and reallocation
                                                                                                                   7/14/2011       $12,000,000    $26,650,303    Transfer of cap due to servicing transfer
                                                                                                                  12/15/2011        $4,100,000    $30,750,303    Transfer of cap due to servicing transfer
                                                                                                                   1/13/2012         $900,000     $31,650,303    Transfer of cap due to servicing transfer
                                                                                                                   4/16/2012         $300,000     $31,950,303    Transfer of cap due to servicing transfer

                                                      Financial                                                    6/28/2012             ($266)   $31,950,037    Updated due to quarterly assessment and reallocation
            Caliber Home Loans,
                                                      Instrument for
9/15/2010   Inc (Vericrest Financial,   Purchase                                         $0    N/A          3      9/27/2012             ($689)   $31,949,348    Updated due to quarterly assessment and reallocation    $932,968    $2,488,743        $1,925,679              $5,347,390
                                                      Home Loan
            Inc.), Oklahoma City, OK
                                                      Modifications                                               11/15/2012         $720,000     $32,669,348    Transfer of cap due to servicing transfer
                                                                                                                  12/27/2012             ($114)   $32,669,234    Updated due to quarterly assessment and reallocation
                                                                                                                   1/16/2013        $8,020,000    $40,689,234    Transfer of cap due to servicing transfer
                                                                                                                   3/25/2013             ($591)   $40,688,643    Updated due to quarterly assessment and reallocation
                                                                                                                   5/16/2013          ($40,000)   $40,648,643    Transfer of cap due to servicing transfer
                                                                                                                   6/27/2013             ($223)   $40,648,420    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013              ($80)   $40,648,340    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013        ($135,776)    $40,512,564    Updated due to quarterly assessment and reallocation
                                                                                                                   1/16/2014       ($1,130,000)   $39,382,564    Transfer of cap due to servicing transfer
                                                                                                                   2/13/2014       ($2,500,000)   $36,882,564    Transfer of cap due to servicing transfer
                                                                                                                   3/14/2014           $90,000    $36,972,564    Transfer of cap due to servicing transfer
                                                                                                                   3/26/2014           ($4,697)   $36,967,867    Updated due to quarterly assessment and reallocation
                                                      Financial                                                    3/14/2014         $210,000        $210,000    Transfer of cap due to servicing transfer
            California Housing
                                                      Instrument for
3/14/2014   Finance Agency,             Purchase                                         $0    N/A          3                                                                                                                  $0           $0                  $0                      $0
                                                      Home Loan                                                    3/26/2014              ($20)      $209,980    Updated due to quarterly assessment and reallocation
            Sacramento, CA
                                                      Modifications
                                                                                                                   9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                   6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation

                                                      Financial                                                    6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
            Capital International
                                                      Instrument for
9/30/2010   Financial, Inc.,            Purchase                                  $100,000     N/A                 9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation          $0           $0                  $0                      $0
                                                      Home Loan
            Coral Gables, FL
                                                      Modifications                                                3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              427
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)                                                                                                                                                                                             428
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                           TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                           Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                               6/17/2009      ($63,980,000)   $131,020,000   Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009       $90,990,000    $222,010,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       $57,980,000    $279,990,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010       $74,520,000    $354,510,000   Updated portfolio data from servicer
                                                                                                               7/14/2010      ($75,610,000)   $278,900,000   Updated portfolio data from servicer
                                                                                                               8/13/2010        $1,100,000    $280,000,000   Transfer of cap due to servicing transfer
                                                                                                               9/30/2010        $3,763,685    $283,763,685   Updated portfolio data from servicer
                                                                                                              12/15/2010          $300,000    $284,063,685   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011             ($325)   $284,063,360   Updated due to quarterly assessment and reallocation
                                                                                                               1/13/2011        $2,400,000    $286,463,360   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011             ($384)   $286,462,976   Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011           ($3,592)   $286,459,384   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                               8/16/2011        $1,800,000    $288,259,384   Transfer of cap due to servicing transfer
                                                                                                               9/15/2011          $100,000    $288,359,384   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011        $1,000,000    $289,359,384   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012        $1,100,000    $290,459,384   Transfer of cap due to servicing transfer
                                                                                                               4/16/2012          $100,000    $290,559,384   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012          $850,000    $291,409,384   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        $2,240,000    $293,649,384   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($2,520)   $293,646,864   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012        $1,690,000    $295,336,864   Transfer of cap due to servicing transfer
                                                  Financial                                                    8/16/2012          ($30,000)   $295,306,864   Transfer of cap due to servicing transfer
            Carrington Mortgage
                                                  Instrument for
4/27/2009   Services, LLC,         Purchase                               $195,000,000     N/A                 9/27/2012           ($6,632)   $295,300,232   Updated due to quarterly assessment and reallocation   $10,924,749   $28,571,889       $19,382,354             $58,878,991
                                                  Home Loan
            Santa Ana, CA
                                                  Modifications                                               10/16/2012        $2,880,000    $298,180,232   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012        $1,500,000    $299,680,232   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012        $2,040,000    $301,720,232   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012           ($1,103)   $301,719,129   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013          ($10,000)   $301,709,129   Transfer of cap due to servicing transfer
                                                                                                               2/14/2013        $4,960,000    $306,669,129   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013          ($30,000)   $306,639,129   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013           ($4,179)   $306,634,950   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013          ($70,000)   $306,564,950   Transfer of cap due to servicing transfer
                                                                                                               5/16/2013        $1,570,000    $308,134,950   Transfer of cap due to servicing transfer
                                                                                                               6/14/2013       ($1,880,000)   $306,254,950   Transfer of cap due to servicing transfer
                                                                                                               6/27/2013           ($1,522)   $306,253,428   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013          $270,000    $306,523,428   Transfer of cap due to servicing transfer
                                                                                                               9/16/2013        $5,370,000    $311,893,428   Transfer of cap due to servicing transfer
                                                                                                               9/27/2013             ($525)   $311,892,903   Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013        ($240,000)    $311,652,903   Transfer of cap due to servicing transfer
                                                                                                              11/14/2013        $2,000,000    $313,652,903   Transfer of cap due to servicing transfer
                                                                                                              12/16/2013        $1,370,000    $315,022,903   Transfer of cap due to servicing transfer
                                                                                                              12/23/2013        ($873,891)    $314,149,012   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014          $120,000    $314,269,012   Transfer of cap due to servicing transfer
                                                                                                               2/13/2014          $280,000    $314,549,012   Transfer of cap due to servicing transfer
                                                                                                               3/14/2014           $50,000    $314,599,012   Transfer of cap due to servicing transfer
                                                                                                               3/26/2014          ($30,084)   $314,568,928   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                               (CONTINUED)
                                                                                                                 Adjustment
            Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                         TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  9/30/2009       $13,070,000     $29,590,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009     $145,510,000     $175,100,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010    ($116,950,000)     $58,150,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010      ($23,350,000)    $34,800,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010        $7,846,346     $42,646,346   Updated portfolio data from servicer
                                                                                                                   1/6/2011              ($46)    $42,646,300   Updated due to quarterly assessment and reallocation
            CCO Mortgage, a                          Financial                                                    3/30/2011              ($55)    $42,646,245   Updated due to quarterly assessment and reallocation
            division of RBS Citizens                 Instrument for
6/17/2009                              Purchase                               $16,520,000     N/A                 6/29/2011             ($452)    $42,645,793   Updated due to quarterly assessment and reallocation   $2,369,192   $5,426,259        $3,766,966             $11,562,416
            NA,                                      Home Loan
            Glen Allen, VA                           Modifications                                                6/28/2012             ($309)    $42,645,484   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012             ($807)    $42,644,677   Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012             ($131)    $42,644,546   Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013             ($475)    $42,644,071   Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013             ($175)    $42,643,896   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013              ($62)    $42,643,834   Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013          ($97,446)    $42,546,388   Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014           ($3,201)    $42,543,187   Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  10/2/2009          $280,000      $1,530,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009        ($750,000)       $780,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010          $120,000       $900,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010        ($300,000)       $600,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010          $270,334       $870,334    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($1)      $870,333    Updated due to quarterly assessment and reallocation
            Central Florida                          Financial                                                    3/30/2011               ($1)      $870,332    Updated due to quarterly assessment and reallocation
            Educators Federal                        Instrument for
9/9/2009                               Purchase                                 $1,250,000    N/A                 6/29/2011               ($5)      $870,327    Updated due to quarterly assessment and reallocation    $125,405     $204,649           $245,080                $575,134
            Credit Union,                            Home Loan
            Lake Mary, FL                            Modifications                                                6/28/2012           $21,717       $892,044    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012          $190,077      $1,082,121   Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012           $35,966      $1,118,087   Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013           $59,464      $1,177,551   Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013           $35,438      $1,212,989   Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013           $26,926      $1,239,915   Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013           $87,045      $1,326,960   Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014           $31,204      $1,358,164   Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  10/2/2009           $10,000        $40,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009          $120,000       $160,000
                                                     Financial                                                                                                  program initial cap
            Central Jersey Federal
                                                     Instrument for
9/23/2009   Credit Union,              Purchase                                     30,000    N/A                 3/26/2010           $10,000       $170,000    Updated portfolio data from servicer                          $0           $0                  $0                      $0
                                                     Home Loan
            Woodbridge, NJ
                                                     Modifications                                                7/14/2010          ($70,000)      $100,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                 10/29/2010        ($145,056)             $0    Termination of SPA

                                                     Financial                                                    9/30/2010          $856,056      $2,756,056   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




            Centrue Bank,                            Instrument for
9/24/2010                              Purchase                                 $1,900,000    N/A                  1/6/2011               ($4)     $2,756,052   Updated due to quarterly assessment and reallocation          $0           $0                  $0                      $0
            Ottawa, IL                               Home Loan
                                                     Modifications                                                 3/9/2011       ($2,756,052)            $0    Termination of SPA
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             429
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)                                                                                                                                                                                                 430
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                               TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                  Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                              Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount       Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives        Incentives               Payments
                                                  Financial
            Chase Home Finance,                   Instrument for
4/13/2009                           Purchase                            $3,552,000,000     N/A          1      7/31/2009    ($3,552,000,000)              $0    Termination of SPA                                             $0              $0                 $0                      $0
            LLC, Iselin, NJ                       Home Loan
                                                  Modifications
                                                  Financial                                                    6/14/2013            $10,000          $10,000    Transfer of cap due to servicing transfer
            Cheviot Savings Bank,                 Instrument for
6/14/2013                           Purchase                                         $0    N/A          3                                                                                                                  $1,000          $1,143            $1,000                  $3,143
            Cincinnati, OH                        Home Loan                                                    6/27/2013             $1,344          $11,344    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                               6/12/2009     ($991,580,000)    $1,079,420,000   Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               9/30/2009     $1,010,180,000    $2,089,600,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                              12/30/2009     ($105,410,000)    $1,984,190,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               3/26/2010     ($199,300,000)    $1,784,890,000
                                                                                                                                                                program initial cap
                                                                                                               4/19/2010         ($230,000)    $1,784,660,000   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                               5/14/2010        ($3,000,000)   $1,781,660,000   Transfer of cap due to servicing transfer
                                                                                                               6/16/2010      ($12,280,000)    $1,769,380,000   Transfer of cap due to servicing transfer
                                                                                                               7/14/2010     ($757,680,000)    $1,011,700,000   Updated portfolio data from servicer
                                                                                                               7/16/2010        ($7,110,000)   $1,004,590,000   Transfer of cap due to servicing transfer
                                                                                                               8/13/2010        ($6,300,000)    $998,290,000    Transfer of cap due to servicing transfer
                                                                                                               9/15/2010        ($8,300,000)    $989,990,000    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               9/30/2010        $32,400,000    $1,022,390,000
                                                                                                                                                                program initial cap
                                                                                                               9/30/2010      $101,287,484     $1,123,677,484   Updated portfolio data from servicer
                                                                                                              10/15/2010        ($1,400,000)   $1,122,277,484   Transfer of cap due to servicing transfer
                                                                                                              11/16/2010        ($3,200,000)   $1,119,077,484   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011              ($981)   $1,119,076,503   Updated due to quarterly assessment and reallocation
                                                  Financial
            CitiMortgage, Inc.,                   Instrument for                                               1/13/2011      ($10,500,000)    $1,108,576,503   Transfer of cap due to servicing transfer
4/13/2009                           Purchase                            $2,071,000,000     N/A                                                                                                                         $74,572,399   $233,795,003      $113,694,151           $422,061,552
            O’Fallon, MO                          Home Loan
                                                  Modifications                                                2/16/2011        ($4,600,000)   $1,103,976,503   Transfer of cap due to servicing transfer
                                                                                                               3/16/2011      ($30,500,000)    $1,073,476,503   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011            ($1,031)   $1,073,475,472   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011           $100,000    $1,073,575,472   Transfer of cap due to servicing transfer
                                                                                                               5/13/2011        ($7,200,000)   $1,066,375,472   Transfer of cap due to servicing transfer
                                                                                                               6/16/2011         ($400,000)    $1,065,975,472   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011            ($9,131)   $1,065,966,341   Updated due to quarterly assessment and reallocation
                                                                                                               7/14/2011      ($14,500,000)    $1,051,466,341   Transfer of cap due to servicing transfer
                                                                                                               8/16/2011        ($1,600,000)   $1,049,866,341   Transfer of cap due to servicing transfer
                                                                                                               9/15/2011           $700,000    $1,050,566,341   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011        $15,200,000    $1,065,766,341   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011        ($2,900,000)   $1,062,866,341   Transfer of cap due to servicing transfer
                                                                                                              12/15/2011        ($5,000,000)   $1,057,866,341   Transfer of cap due to servicing transfer
                                                                                                               1/13/2012         ($900,000)    $1,056,966,341   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012        ($1,100,000)   $1,055,866,341   Transfer of cap due to servicing transfer
                                                                                                               3/15/2012        ($1,700,000)   $1,054,166,341   Transfer of cap due to servicing transfer
                                                                                                               4/16/2012         ($600,000)    $1,053,566,341   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012         ($340,000)    $1,053,226,341   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        ($2,880,000)   $1,050,346,341   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                               (CONTINUED)
                                                                                                                 Adjustment
             Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                          TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                  6/28/2012           ($5,498)   $1,050,340,843   Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2012    ($298,960,000)     $751,380,843    Transfer of cap due to servicing transfer
                                                                                                                  7/27/2012     $263,550,000     $1,014,930,843   Transfer of cap due to servicing transfer
                                                                                                                  8/16/2012           $30,000    $1,014,960,843   Transfer of cap due to servicing transfer
                                                                                                                  9/27/2012          ($12,722)   $1,014,948,121   Updated due to quarterly assessment and reallocation
                                                                                                                 10/16/2012       ($4,020,000)   $1,010,928,121   Transfer of cap due to servicing transfer
                                                                                                                 11/15/2012       ($1,460,000)   $1,009,468,121   Transfer of cap due to servicing transfer
                                                                                                                 12/14/2012       ($6,000,000)   $1,003,468,121   Transfer of cap due to servicing transfer
                                                                                                                 12/27/2012           ($1,916)   $1,003,466,205   Updated due to quarterly assessment and reallocation
                                                                                                                  2/14/2013       ($8,450,000)    $995,016,205    Transfer of cap due to servicing transfer
                                                                                                                  3/14/2013       ($1,890,000)    $993,126,205    Transfer of cap due to servicing transfer
                                                                                                                  3/25/2013           ($6,606)    $993,119,599    Updated due to quarterly assessment and reallocation
                                                                                                                  4/16/2013       ($3,490,000)    $989,629,599    Transfer of cap due to servicing transfer
                                                                                                                  6/14/2013       ($3,630,000)    $985,999,599    Transfer of cap due to servicing transfer
                                                                                                                  6/27/2013           ($2,161)    $985,997,438    Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2013      ($26,880,000)    $959,117,438    Transfer of cap due to servicing transfer
                                                                                                                  9/16/2013      ($12,160,000)    $946,957,438    Transfer of cap due to servicing transfer
                                                                                                                  9/27/2013             ($610)    $946,956,828    Updated due to quarterly assessment and reallocation
                                                                                                                 11/14/2013      ($38,950,000)    $908,006,828    Transfer of cap due to servicing transfer
                                                                                                                 12/16/2013       ($8,600,000)    $899,406,828    Transfer of cap due to servicing transfer
                                                                                                                 12/23/2013        ($769,699)     $898,637,129    Updated due to quarterly assessment and reallocation
                                                                                                                  1/16/2014       ($5,360,000)    $893,277,129    Transfer of cap due to servicing transfer
                                                                                                                  2/13/2014       ($7,680,000)    $885,597,129    Transfer of cap due to servicing transfer
                                                                                                                  3/14/2014       ($2,950,000)    $882,647,129    Transfer of cap due to servicing transfer
                                                                                                                  3/26/2014          ($21,827)    $882,625,302    Updated due to quarterly assessment and reallocation

                                                     Financial                                                    9/30/2010          $360,445       $1,160,445    Updated portfolio data from servicer
             Citizens Community                      Instrument for
9/24/2010                              Purchase                                  $800,000     N/A                  1/6/2011               ($2)      $1,160,443    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
             Bank, Freeburg, IL                      Home Loan
                                                     Modifications                                                3/23/2011       ($1,160,443)              $0    Termination of SPA
                                                                                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                  1/22/2010           $30,000         $650,000
                                                                                                                                                                  program initial cap
                                                                                                                  3/26/2010        ($580,000)          $70,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010        $1,430,000       $1,500,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010           $95,612       $1,595,612    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($2)      $1,595,610    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011               ($3)      $1,595,607    Updated due to quarterly assessment and reallocation
                                                     Financial                                                    6/29/2011              ($24)      $1,595,583    Updated due to quarterly assessment and reallocation
             Citizens First National                 Instrument for
12/16/2009                             Purchase                                  $620,000     N/A                                                                                                                          $26,230     $66,146            $45,730                $138,105
             Bank, Spring Valley, IL                 Home Loan                                                    6/28/2012              ($16)      $1,595,567    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  9/27/2012              ($45)      $1,595,522    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012               ($8)      $1,595,514    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013              ($30)      $1,595,484    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013              ($11)      $1,595,473    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013               ($4)      $1,595,469    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013           ($6,733)      $1,588,736    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                                                                                                  3/26/2014             ($237)      $1,588,499    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
                                                                                                                                                                                                                                                                                              431
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                               (CONTINUED)                                                                                                                                                                                          432
                                                                                                                 Adjustment
            Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  9/30/2009          ($10,000)       $20,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009         $590,000        $610,000
                                                     Financial                                                                                                  program initial cap
            Citizens First Wholesale
                                                     Instrument for
6/26/2009   Mortgage Company,          Purchase                                    $30,000    N/A                 3/26/2010        ($580,000)        $30,000    Updated portfolio data from servicer                          $0           $0                 $0                      $0
                                                     Home Loan
            The Villages, FL
                                                     Modifications                                                7/14/2010           $70,000       $100,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                  2/17/2011        ($145,056)             $0    Termination of SPA
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  1/22/2010           $10,000       $390,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010         $520,000        $910,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010        ($810,000)       $100,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                     Financial
            Community Bank &
                                                     Instrument for                                               6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
12/4/2009   Trust Company,             Purchase                                  $380,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                     Home Loan
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




            Clarks Summit, PA                                                                                     6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010         $901,112      $2,901,112    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($4)    $2,901,108    Updated due to quarterly assessment and reallocation
                                                     Financial
            Community Credit Union                                                                                3/30/2011               ($5)    $2,901,103    Updated due to quarterly assessment and reallocation
                                                     Instrument for
9/30/2010   of Florida,                Purchase                                 $2,000,000    N/A          6                                                                                                              $3,000       $4,632            $5,000                 $12,632
                                                     Home Loan                                                    6/29/2011              ($48)    $2,901,055    Updated due to quarterly assessment and reallocation
            Rockledge, FL
                                                     Modifications
                                                                                                                  6/28/2012              ($36)    $2,901,019    Updated due to quarterly assessment and reallocation
                                                                                                                  9/14/2012       ($2,888,387)       $12,632    Termination of SPA
                                                                                                                  9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                  6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation

                                                     Financial                                                    6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
            CU Mortgage Services,                    Instrument for
9/30/2010                              Purchase                                  $100,000     N/A                 9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Inc., New Brighton, MN                   Home Loan
                                                     Modifications                                                3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                              (CONTINUED)
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 10/2/2009          $950,000     $5,300,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009        $5,700,000    $11,000,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010          $740,000    $11,740,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($1,440,000)   $10,300,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010       ($6,673,610)    $3,626,390    Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($5)    $3,626,385    Updated due to quarterly assessment and reallocation
                                                    Financial                                                    3/30/2011               ($6)    $3,626,379    Updated due to quarterly assessment and reallocation
             CUC Mortgage
                                                    Instrument for
9/9/2009     Corporation,             Purchase                                 $4,350,000    N/A                 6/29/2011              ($52)    $3,626,327    Updated due to quarterly assessment and reallocation     $61,313    $156,140           $102,417                $319,870
                                                    Home Loan
             Albany, NY
                                                    Modifications                                                6/28/2012              ($38)    $3,626,289    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012             ($107)    $3,626,182    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012              ($18)    $3,626,164    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013              ($69)    $3,626,095    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013              ($26)    $3,626,069    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013               ($9)    $3,626,060    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013          ($15,739)    $3,610,321    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014             ($554)    $3,609,767    Updated due to quarterly assessment and reallocation
                                                    Financial
             Desjardins Bank N.A.,                  Instrument for
12/16/2013                            Purchase                                         $0    N/A          3     12/16/2013           $30,000        $30,000    Transfer of cap due to servicing transfer                 $1,000       $1,578            $1,000                  $3,578
             Hallandale Beach, FL                   Home Loan
                                                    Modifications
                                                    Financial                                                    3/26/2010       $12,190,000    $15,240,000    Updated portfolio data from servicer
             Digital Federal Credit                 Instrument for
1/15/2010                             Purchase                                 $3,050,000    N/A                                                                                                                             $0           $0                 $0                      $0
             Union, Marlborough, MA                 Home Loan                                                    5/14/2010      ($15,240,000)            $0    Termination of SPA
                                                    Modifications
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010           $10,000        $80,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010           $10,000        $90,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010           $10,000       $100,000    Updated portfolio data from servicer
                                                    Financial                                                    9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
             DuPage Credit Union,                   Instrument for
10/30/2009                            Purchase                                    $70,000    N/A                                                                                                                         $7,542     $30,049            $12,842                 $50,433
             Naperville, IL                         Home Loan                                                    6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 9/27/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013               ($1)      $145,053    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013             ($145)      $144,908    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014               ($5)      $144,903    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2010           $90,000       $150,000    Updated portfolio data from servicer
                                                    Financial
             Eaton National Bank &                                                                               7/14/2010           $50,000       $200,000    Updated portfolio data from servicer
                                                    Instrument for
12/23/2009   Trust Company,           Purchase                                    $60,000    N/A                                                                                                                             $0           $0                 $0                      $0
                                                    Home Loan                                                    9/30/2010          ($54,944)      $145,056    Updated portfolio data from servicer
             Eaton, OH
                                                    Modifications
                                                                                                                 5/20/2011        ($145,056)             $0    Termination of SPA
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                           433
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                              (CONTINUED)                                                                                                                                                                                              434
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                            TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                               Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives     Incentives        Incentives               Payments
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                 9/30/2009          ($10,000)    $707,370,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                12/30/2009     $502,430,000     $1,209,800,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                 3/26/2010    ($134,560,000)    $1,075,240,000
                                                                                                                                                                 program initial cap
                                                                                                                 7/14/2010    ($392,140,000)     $683,100,000    Updated portfolio data from servicer
                                                                                                                 7/16/2010        ($630,000)     $682,470,000    Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                 9/30/2010       $13,100,000     $695,570,000
                                                                                                                                                                 program initial cap
                                                    Financial                                                    9/30/2010       ($8,006,457)    $687,563,543    Updated portfolio data from servicer
            EMC Mortgage
                                                    Instrument for
7/31/2009   Corporation,              Purchase                              $707,380,000     N/A          8     10/15/2010        ($100,000)     $687,463,543    Transfer of cap due to servicing transfer              $7,569,459   $11,592,937       $16,279,383             $35,441,779
                                                    Home Loan
            Lewisville, TX
                                                    Modifications
                                                                                                                12/15/2010       ($4,400,000)    $683,063,543    Transfer of cap due to servicing transfer
                                                                                                                  1/6/2011             ($802)    $683,062,741    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                 2/16/2011        ($900,000)     $682,162,741    Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011       ($4,000,000)    $678,162,741    Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011             ($925)    $678,161,816    Updated due to quarterly assessment and reallocation
                                                                                                                 5/13/2011    ($122,900,000)     $555,261,816    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011           ($8,728)    $555,253,088    Updated due to quarterly assessment and reallocation
                                                                                                                 7/14/2011        ($600,000)     $554,653,088    Transfer of cap due to servicing transfer
                                                                                                                10/19/2011    ($519,211,309)      $35,441,779    Termination of SPA
                                                    Financial
            Everbank, Jacksonville,                 Instrument for
7/16/2013                             Purchase                                         $0    N/A          3      7/16/2013           $60,000          $60,000    Transfer of cap due to servicing transfer                     $0             $0                 $0                      $0
            FL                                      Home Loan
                                                    Modifications
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                 9/30/2009          ($90,000)         $80,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                12/30/2009           $50,000         $130,000
                                                    Financial                                                                                                    program initial cap
            Farmers State Bank,                     Instrument for
7/17/2009                             Purchase                                  $170,000     N/A                 3/26/2010         $100,000          $230,000    Updated portfolio data from servicer                          $0             $0                 $0                      $0
            West Salem, OH                          Home Loan
                                                    Modifications                                                7/14/2010        ($130,000)         $100,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010           $45,056         $145,056    Updated portfolio data from servicer
                                                                                                                 5/20/2011        ($145,056)               $0    Termination of SPA
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                           (CONTINUED)
                                                                                                             Adjustment
           Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                       Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                  Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date       Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                              9/30/2010        $5,168,169     $8,268,169    Updated portfolio data from servicer
                                                                                                               1/6/2011              ($12)    $8,268,157    Updated due to quarterly assessment and reallocation
                                                                                                              3/30/2011              ($15)    $8,268,142    Updated due to quarterly assessment and reallocation
                                                                                                              4/13/2011         $400,000      $8,668,142    Transfer of cap due to servicing transfer
                                                                                                              6/29/2011            ($143)     $8,667,999    Updated due to quarterly assessment and reallocation
                                                                                                              9/15/2011         $700,000      $9,367,999    Transfer of cap due to servicing transfer
                                                                                                             10/14/2011         $100,000      $9,467,999    Transfer of cap due to servicing transfer
                                                                                                             11/16/2011         $200,000      $9,667,999    Transfer of cap due to servicing transfer
                                                                                                             12/15/2011        $1,700,000    $11,367,999    Transfer of cap due to servicing transfer
                                                                                                              4/16/2012        $1,600,000    $12,967,999    Transfer of cap due to servicing transfer
                                                                                                              5/16/2012          $40,000     $13,007,999    Transfer of cap due to servicing transfer
                                                                                                              6/14/2012        ($210,000)    $12,797,999    Transfer of cap due to servicing transfer
                                                                                                              6/28/2012            ($105)    $12,797,894    Updated due to quarterly assessment and reallocation
                                                                                                              7/16/2012          $50,000     $12,847,894    Transfer of cap due to servicing transfer
                                                                                                              8/16/2012          $90,000     $12,937,894    Transfer of cap due to servicing transfer
                                                                                                              9/27/2012            ($294)    $12,937,600    Updated due to quarterly assessment and reallocation
                                                                                                             10/16/2012        $1,810,000    $14,747,600    Transfer of cap due to servicing transfer
                                                                                                             12/27/2012              ($61)   $14,747,539    Updated due to quarterly assessment and reallocation
                                                 Financial
           Fay Servicing, LLC,                   Instrument for                                               1/16/2013          $30,000     $14,777,539    Transfer of cap due to servicing transfer
9/3/2010                          Purchase                                  $3,100,000    N/A                                                                                                                      $1,431,927   $2,730,575        $1,402,175              $5,564,676
           Chicago, IL                           Home Loan                                                    2/14/2013        ($590,000)    $14,187,539    Transfer of cap due to servicing transfer
                                                 Modifications
                                                                                                              3/14/2013         ($80,000)    $14,107,539    Transfer of cap due to servicing transfer
                                                                                                              3/25/2013            ($214)    $14,107,325    Updated due to quarterly assessment and reallocation
                                                                                                              4/16/2013         $200,000     $14,307,325    Transfer of cap due to servicing transfer
                                                                                                              5/16/2013        $3,710,000    $18,017,325    Transfer of cap due to servicing transfer
                                                                                                              6/14/2013        $1,760,000    $19,777,325    Transfer of cap due to servicing transfer
                                                                                                              6/27/2013              ($86)   $19,777,239    Updated due to quarterly assessment and reallocation
                                                                                                              7/16/2013        $6,650,000    $26,427,239    Transfer of cap due to servicing transfer
                                                                                                              8/15/2013          $20,000     $26,447,239    Transfer of cap due to servicing transfer
                                                                                                              9/16/2013        $4,840,000    $31,287,239    Transfer of cap due to servicing transfer
                                                                                                              9/27/2013              ($54)   $31,287,185    Updated due to quarterly assessment and reallocation
                                                                                                             10/15/2013         $720,000     $32,007,185    Transfer of cap due to servicing transfer
                                                                                                             11/14/2013        $1,040,000    $33,047,185    Transfer of cap due to servicing transfer
                                                                                                             12/16/2013         $140,000     $33,187,185    Transfer of cap due to servicing transfer
                                                                                                             12/23/2013         ($84,376)    $33,102,809    Updated due to quarterly assessment and reallocation
                                                                                                              1/16/2014        $8,350,000    $41,452,809    Transfer of cap due to servicing transfer
                                                                                                              2/13/2014        $5,890,000    $47,342,809    Transfer of cap due to servicing transfer
                                                                                                              3/14/2014        $5,720,000    $53,062,809    Transfer of cap due to servicing transfer
                                                                                                              3/26/2014           ($4,045)   $53,058,764    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                         435
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                              (CONTINUED)                                                                                                                                                                                          436
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                 5/13/2011         $500,000        $500,000    Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011         $100,000        $600,000    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011               ($9)      $599,991    Updated due to quarterly assessment and reallocation
                                                                                                                 7/14/2011         $200,000        $799,991    Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011         $100,000        $899,991    Transfer of cap due to servicing transfer
                                                                                                                11/16/2011        $2,500,000     $3,399,991    Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012        $1,510,000     $4,909,991    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012         $450,000      $5,359,991    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012              ($66)    $5,359,925    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2012         $250,000      $5,609,925    Transfer of cap due to servicing transfer
                                                                                                                 8/16/2012          $90,000      $5,699,925    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012            ($191)     $5,699,734    Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012         $140,000      $5,839,734    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                11/15/2012          $70,000      $5,909,734    Transfer of cap due to servicing transfer
                                                                                                                12/14/2012          $40,000      $5,949,734    Transfer of cap due to servicing transfer
                                                    Financial
            FCI Lender Services,                    Instrument for                                              12/27/2012              ($34)    $5,949,700    Updated due to quarterly assessment and reallocation
5/13/2011                             Purchase                                         $0    N/A          3                                                                                                             $26,908     $56,780            $30,612                $114,300
            Inc., Anaheim Hills, CA                 Home Loan                                                    1/16/2013          $40,000      $5,989,700    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                 2/14/2013          $50,000      $6,039,700    Transfer of cap due to servicing transfer
                                                                                                                 3/14/2013         $360,000      $6,399,700    Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013            ($135)     $6,399,565    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013         ($10,000)     $6,389,565    Transfer of cap due to servicing transfer
                                                                                                                 5/16/2013          $40,000      $6,429,565    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2013         $200,000      $6,629,565    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013              ($53)    $6,629,512    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2013          $20,000      $6,649,512    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013              ($19)    $6,649,493    Updated due to quarterly assessment and reallocation
                                                                                                                10/15/2013         $260,000      $6,909,493    Transfer of cap due to servicing transfer
                                                                                                                11/14/2013          $30,000      $6,939,493    Transfer of cap due to servicing transfer
                                                                                                                12/23/2013         ($33,755)     $6,905,738    Updated due to quarterly assessment and reallocation
                                                                                                                 2/13/2014         $110,000      $7,015,738    Transfer of cap due to servicing transfer
                                                                                                                 3/14/2014         $640,000      $7,655,738    Transfer of cap due to servicing transfer
                                                                                                                 3/26/2014           ($1,305)    $7,654,433    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                               (CONTINUED)
                                                                                                                 Adjustment
             Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                         TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date         Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  1/22/2010          $140,000     $3,080,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010        $6,300,000     $9,380,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($1,980,000)    $7,400,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010       ($6,384,611)    $1,015,389    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($1)    $1,015,388    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011               ($2)    $1,015,386    Updated due to quarterly assessment and reallocation
                                                     Financial                                                    6/29/2011              ($16)    $1,015,370    Updated due to quarterly assessment and reallocation
             Fidelity Homestead
                                                     Instrument for
12/9/2009    Savings Bank,             Purchase                                 $2,940,000    N/A                                                                                                                             $0           $0             $5,600                  $5,600
                                                     Home Loan                                                    6/28/2012              ($12)    $1,015,358    Updated due to quarterly assessment and reallocation
             New Orleans, LA
                                                     Modifications
                                                                                                                  9/27/2012              ($32)    $1,015,326    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012               ($5)    $1,015,321    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013              ($21)    $1,015,300    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013               ($8)    $1,015,292    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013               ($3)    $1,015,289    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013           ($4,716)    $1,010,573    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014             ($165)    $1,010,408    Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  9/30/2009       ($1,530,000)    $4,930,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009          $680,000     $5,610,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010        $2,460,000     $8,070,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($2,470,000)    $5,600,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010        $2,523,114     $8,123,114    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($2)    $8,123,112    Updated due to quarterly assessment and reallocation
                                                     Financial
             FIRST BANK,                             Instrument for                                               3/30/2011               ($2)    $8,123,110    Updated due to quarterly assessment and reallocation
7/29/2009                              Purchase                                 $6,460,000    N/A                                                                                                                       $986,356    $2,069,583        $1,515,484              $4,571,422
             St. Louis, MO                           Home Loan
                                                                                                                  6/29/2011              ($15)    $8,123,095    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  6/28/2012               ($3)    $8,123,092    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012               ($5)    $8,123,087    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012               ($1)    $8,123,086    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013               ($5)    $8,123,081    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013               ($1)    $8,123,080    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013             ($474)    $8,122,606    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014              ($18)    $8,122,588    Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                  6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation

                                                     Financial                                                    6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
             First Federal Bank of                   Instrument for
9/30/2010                              Purchase                                  $100,000     N/A                 9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation          $0           $0                  $0                      $0
             Florida, Lake City, FL                  Home Loan
                                                     Modifications                                                3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                     Financial                                                   12/30/2009        $2,020,000     $2,790,000
             First Federal Savings                                                                                                                              program initial cap
                                                     Instrument for
6/19/2009    and Loan,                 Purchase                                  $770,000     N/A                                                                                                                             $0           $0                  $0                      $0
                                                     Home Loan                                                    3/26/2010       $11,370,000    $14,160,000    Updated portfolio data from servicer
             Port Angeles, WA
                                                     Modifications
                                                                                                                  5/26/2010      ($14,160,000)            $0    Termination of SPA
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




             First Federal Savings                   Financial                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                  1/22/2010          $160,000     $3,620,000
             and Loan Association of                 Instrument for                                                                                             program initial cap
12/16/2009                             Purchase                                 $3,460,000    N/A                                                                                                                             $0           $0                  $0                      $0
             Lakewood,                               Home Loan
             Lakewood, OH                            Modifications                                                4/21/2010       ($3,620,000)            $0    Termination of SPA

                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             437
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                              (CONTINUED)                                                                                                                                                                                          438
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                 9/30/2010        $7,014,337    $11,314,337    Updated portfolio data from servicer
                                                                                                                  1/6/2011              ($17)   $11,314,320    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011              ($20)   $11,314,300    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011             ($192)   $11,314,108    Updated due to quarterly assessment and reallocation
                                                                                                                 6/28/2012             ($144)   $11,313,964    Updated due to quarterly assessment and reallocation
                                                    Financial
             First Financial Bank,                  Instrument for                                               9/27/2012             ($396)   $11,313,568    Updated due to quarterly assessment and reallocation
8/27/2010                             Purchase                                 $4,300,000    N/A                                                                                                                             $0           $0                 $0                      $0
             N.A., Terre Haute, ID                  Home Loan                                                   12/27/2012              ($67)   $11,313,501    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 3/25/2013             ($253)   $11,313,248    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013              ($95)   $11,313,153    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013              ($34)   $11,313,119    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013          ($57,776)   $11,255,343    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014           ($2,031)   $11,253,312    Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010           $50,000     $1,330,000
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010        $1,020,000     $2,350,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010        ($950,000)     $1,400,000    Updated portfolio data from servicer
                                                    Financial                                                    9/30/2010           $50,556     $1,450,556    Updated portfolio data from servicer
             First Keystone Bank,                   Instrument for
11/25/2009                            Purchase                                 $1,280,000    N/A          6                                                                                                              $2,776       $3,423            $8,718                 $14,917
             Media, PA                              Home Loan                                                     1/6/2011               ($2)    $1,450,554    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 3/30/2011               ($2)    $1,450,552    Updated due to quarterly assessment and reallocation
                                                                                                                 6/16/2011        ($100,000)     $1,350,552    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011              ($21)    $1,350,531    Updated due to quarterly assessment and reallocation
                                                                                                                 7/22/2011       ($1,335,614)       $14,917    Termination of SPA
                                                                                                                 9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                 6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation

                                                    Financial                                                    6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
             First Mortgage
                                                    Instrument for
9/30/2010    Corporation,             Purchase                                  $100,000     N/A                 9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation      $2,000           $0            $2,000                  $4,000
                                                    Home Loan
             Diamond Bar, CA
                                                    Modifications                                                3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2010         $150,000        $290,000    Updated portfolio data from servicer
                                                    Financial
             First National Bank of                                                                              7/14/2010           $10,000       $300,000    Updated portfolio data from servicer
                                                    Instrument for
1/13/2010    Grant Park,              Purchase                                  $140,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                    Home Loan                                                    9/30/2010           ($9,889)      $290,111    Updated portfolio data from servicer
             Grant Park, IL
                                                    Modifications
                                                                                                                 1/26/2011        ($290,111)             $0    Termination of SPA

                                                    Financial                                                    9/30/2010         $180,222        $580,222    Updated portfolio data from servicer
             First Safety Bank,                     Instrument for
9/30/2010                             Purchase                                  $400,000     N/A                  1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
             Cincinnati, OH                         Home Loan
                                                    Modifications                                                3/23/2011        ($580,221)             $0    Termination of SPA
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                               (CONTINUED)
                                                                                                                 Adjustment
            Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                  9/30/2010          $360,445     $1,160,445    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($2)    $1,160,443    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011               ($2)    $1,160,441    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011              ($18)    $1,160,423    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012              ($14)    $1,160,409    Updated due to quarterly assessment and reallocation
                                                     Financial
            Flagstar Capital Markets                                                                              9/27/2012              ($37)    $1,160,372    Updated due to quarterly assessment and reallocation
                                                     Instrument for
9/30/2010   Corporation,               Purchase                                  $800,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                     Home Loan                                                   12/27/2012               ($6)    $1,160,366    Updated due to quarterly assessment and reallocation
            Troy, MI
                                                     Modifications
                                                                                                                  3/25/2013              ($24)    $1,160,342    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013               ($9)    $1,160,333    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013               ($3)    $1,160,330    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013           ($5,463)    $1,154,867    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014             ($192)    $1,154,675    Updated due to quarterly assessment and reallocation
                                                     Financial                                                    2/13/2014          $150,000       $150,000    Transfer of cap due to servicing transfer
            Florida Community                        Instrument for
2/13/2014                              Purchase                                           -   N/A          3                                                                                                              $1,750       $1,800            $2,000                  $5,550
            Bank, NA, Weston, FL                     Home Loan                                                    3/26/2014               ($2)      $149,998    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  10/2/2009        $6,010,000    $33,520,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009      ($19,750,000)   $13,770,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010       ($4,780,000)    $8,990,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($2,390,000)    $6,600,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010        $2,973,670     $9,573,670    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($3)    $9,573,667    Updated due to quarterly assessment and reallocation
                                                                                                                  2/16/2011       ($1,800,000)    $7,773,667    Transfer of cap due to servicing transfer
                                                                                                                  3/30/2011               ($6)    $7,773,661    Updated due to quarterly assessment and reallocation
            Franklin Credit                          Financial
            Management                               Instrument for                                               6/29/2011              ($61)    $7,773,600    Updated due to quarterly assessment and reallocation
9/11/2009                              Purchase                               $27,510,000     N/A                                                                                                                       $341,388    $655,521           $743,024              $1,739,933
            Corporation,                             Home Loan
                                                                                                                 10/14/2011        ($100,000)     $7,673,600    Transfer of cap due to servicing transfer
            Jersey City, NJ                          Modifications
                                                                                                                  6/28/2012              ($58)    $7,673,542    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2012             ($164)    $7,673,378    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012              ($29)    $7,673,349    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013             ($110)    $7,673,239    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013              ($42)    $7,673,197    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013              ($15)    $7,673,182    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013          ($25,724)    $7,647,458    Updated due to quarterly assessment and reallocation
                                                                                                                  3/14/2014           $40,000     $7,687,458    Transfer of cap due to servicing transfer
                                                                                                                  3/26/2014             ($913)    $7,686,545    Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010          $765,945     $2,465,945    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($4)    $2,465,941    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011               ($4)    $2,465,937    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011              ($40)    $2,465,897    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012              ($30)    $2,465,867    Updated due to quarterly assessment and reallocation
                                                     Financial
            Franklin Savings,                        Instrument for                                               9/27/2012              ($83)    $2,465,784    Updated due to quarterly assessment and reallocation
9/30/2010                              Purchase                                 $1,700,000    N/A          6                                                                                                              $1,750       $3,865            $4,000                  $9,615
            Cincinnati, OH                           Home Loan                                                   12/27/2012              ($14)    $2,465,770    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  3/25/2013              ($53)    $2,465,717    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                                                                                                  6/14/2013          ($10,000)    $2,455,717    Transfer of cap due to servicing transfer
                                                                                                                  6/27/2013              ($20)    $2,455,697    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013               ($7)    $2,455,690    Updated due to quarterly assessment and reallocation
                                                                                                                 10/24/2013       ($2,446,075)        $9,615    Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            439
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)                                                                                                                                                                                          440
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                3/26/2010         $480,000        $740,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        ($140,000)       $600,000    Updated portfolio data from servicer
                                                                                                                9/30/2010          ($19,778)      $580,222    Updated portfolio data from servicer
                                                   Financial
             Fresno County Federal                                                                               1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
                                                   Instrument for
1/13/2010    Credit Union,           Purchase                                  $260,000     N/A          6                                                                                                              $3,833     $13,204             $7,917                 $24,954
                                                   Home Loan                                                    3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
             Fresno, CA
                                                   Modifications
                                                                                                                6/29/2011               ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012               ($6)      $580,206    Updated due to quarterly assessment and reallocation
                                                                                                                 7/6/2012        ($555,252)        $24,954    Termination of SPA
                                                                                                                9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation

                                                   Financial                                                    6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
             Gateway Mortgage                      Instrument for
9/30/2010                            Purchase                                  $100,000     N/A                 9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
             Group, LLC, Tulsa, OK                 Home Loan
                                                   Modifications                                                3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                               12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                   Financial                                                    9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
             GFA Federal Credit                    Instrument for
9/30/2010                            Purchase                                  $100,000     N/A                                                                                                                             $0           $0                 $0                      $0
             Union, Gardner, MA                    Home Loan                                                    3/23/2011        ($145,056)             $0    Termination of SPA
                                                   Modifications
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                10/2/2009           $60,000       $290,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009          ($10,000)      $280,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010         $130,000        $410,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        ($110,000)       $300,000    Updated portfolio data from servicer
                                                                                                                9/30/2010           ($9,889)      $290,111    Updated portfolio data from servicer
                                                   Financial                                                    6/29/2011               ($3)      $290,108    Updated due to quarterly assessment and reallocation
             Glass City Federal
                                                   Instrument for
9/23/2009    Credit Union,           Purchase                                  $230,000     N/A                 6/28/2012               ($2)      $290,106    Updated due to quarterly assessment and reallocation      $4,000       $2,474            $6,000                 $12,474
                                                   Home Loan
             Maumee, OH
                                                   Modifications                                                9/27/2012               ($7)      $290,099    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012               ($1)      $290,098    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013               ($4)      $290,094    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013               ($2)      $290,092    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013               ($1)      $290,091    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013             ($979)      $289,112    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014              ($34)      $289,078    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                   Financial                                                    1/22/2010           $20,000       $390,000
                                                                                                                                                              program initial cap
             Glenview State Bank,                  Instrument for
12/11/2009                           Purchase                                  $370,000     N/A                                                                                                                             $0           $0                 $0                      $0
             Glenview, IL                          Home Loan                                                    3/26/2010        $1,250,000     $1,640,000    Updated portfolio data from servicer
                                                   Modifications
                                                                                                                5/26/2010       ($1,640,000)            $0    Termination of SPA
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                               TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                  Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                              Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount       Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives        Incentives               Payments
                                                                                                               6/12/2009      $384,650,000     $1,017,650,000   Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               9/30/2009     $2,537,240,000    $3,554,890,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                              12/30/2009    ($1,679,520,000)   $1,875,370,000
                                                                                                                                                                program initial cap
                                                                                                               3/26/2010      $190,180,000     $2,065,550,000   Updated portfolio data from servicer
                                                                                                               5/14/2010         $1,880,000    $2,067,430,000   Transfer of cap due to servicing transfer
                                                                                                               7/14/2010     ($881,530,000)    $1,185,900,000   Updated portfolio data from servicer
                                                                                                               8/13/2010        ($3,700,000)   $1,182,200,000   Transfer of cap due to servicing transfer
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               9/30/2010      $119,200,000     $1,301,400,000
                                                                                                                                                                program initial cap
                                                                                                               9/30/2010      $216,998,139     $1,518,398,139   Updated portfolio data from servicer
                                                                                                              12/15/2010         ($500,000)    $1,517,898,139   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011            ($1,734)   $1,517,896,405   Updated due to quarterly assessment and reallocation
                                                                                                               3/16/2011         ($100,000)    $1,517,796,405   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011            ($2,024)   $1,517,794,381   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011         ($800,000)    $1,516,994,381   Transfer of cap due to servicing transfer
                                                                                                               5/13/2011      ($17,900,000)    $1,499,094,381   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011           ($18,457)   $1,499,075,924   Updated due to quarterly assessment and reallocation
                                                                                                               7/14/2011         ($200,000)    $1,498,875,924   Transfer of cap due to servicing transfer
                                                                                                               8/16/2011         $3,400,000    $1,502,275,924   Transfer of cap due to servicing transfer
                                                                                                               9/15/2011           $200,000    $1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011         ($800,000)    $1,501,675,924   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011         ($200,000)    $1,501,475,924   Transfer of cap due to servicing transfer
                                                                                                              12/15/2011         $2,600,000    $1,504,075,924   Transfer of cap due to servicing transfer

                                                  Financial                                                    1/13/2012        ($1,600,000)   $1,502,475,924   Transfer of cap due to servicing transfer
            GMAC Mortgage, Inc.,                  Instrument for                                               3/15/2012         ($400,000)    $1,502,075,924   Transfer of cap due to servicing transfer
4/13/2009                          Purchase                               $633,000,000     N/A                                                                                                                         $60,277,331   $147,814,369       $94,143,229           $302,234,929
            Ft. Washington, PA                    Home Loan
                                                  Modifications                                                4/16/2012         ($100,000)    $1,501,975,924   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012         ($800,000)    $1,501,175,924   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012         ($990,000)    $1,500,185,924   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($12,463)   $1,500,173,461   Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2012            $10,000    $1,500,183,461   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012           ($33,210)   $1,500,150,251   Updated due to quarterly assessment and reallocation
                                                                                                              11/15/2012        ($1,200,000)   $1,498,950,251   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012            $40,000    $1,498,990,251   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012            ($5,432)   $1,498,984,819   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013            $60,000    $1,499,044,819   Transfer of cap due to servicing transfer
                                                                                                               2/14/2013           ($30,000)   $1,499,014,819   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013           ($80,000)   $1,498,934,819   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013           ($19,838)   $1,498,914,981   Updated due to quarterly assessment and reallocation
                                                                                                               6/14/2013            $30,000    $1,498,944,981   Transfer of cap due to servicing transfer
                                                                                                               6/27/2013            ($7,105)   $1,498,937,876   Updated due to quarterly assessment and reallocation
                                                                                                               9/16/2013      ($66,500,000)    $1,432,437,876   Transfer of cap due to servicing transfer
                                                                                                               9/27/2013            ($2,430)   $1,432,435,446   Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013     ($197,220,000)    $1,235,215,446   Transfer of cap due to servicing transfer
                                                                                                              11/14/2013           ($30,000)   $1,235,185,446   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                                                                                              12/16/2013        ($2,230,000)   $1,232,955,446   Transfer of cap due to servicing transfer
                                                                                                              12/23/2013        ($3,902,818)   $1,229,052,628   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014        ($9,350,000)   $1,219,702,628   Transfer of cap due to servicing transfer
                                                                                                               2/13/2014      ($36,560,000)    $1,183,142,628   Transfer of cap due to servicing transfer
                                                                                                               3/14/2014      ($17,170,000)    $1,165,972,628   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                441




                                                                                                               3/26/2014         ($136,207)    $1,165,836,421   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                                (CONTINUED)                                                                                                                                                                                          442
                                                                                                                  Adjustment
             Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   1/22/2010           $10,000       $180,000
                                                                                                                                                                 program initial cap
                                                      Financial                                                    3/26/2010           $30,000       $210,000    Updated portfolio data from servicer
             Golden Plains Credit                     Instrument for
12/16/2009                              Purchase                                  $170,000     N/A                                                                                                                             $0           $0                 $0                      $0
             Union, Garden City, KS                   Home Loan                                                    7/14/2010          ($10,000)      $200,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                   9/30/2010           $90,111       $290,111    Updated portfolio data from servicer
                                                                                                                   2/17/2011        ($290,111)             $0    Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   1/22/2010           $20,000       $360,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010        ($320,000)        $40,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010         $760,000        $800,000    Updated portfolio data from servicer
                                                      Financial
             Grafton Suburban Credit
                                                      Instrument for                                               9/30/2010          ($74,722)      $725,278    Updated portfolio data from servicer
12/23/2009   Union,                     Purchase                                  $340,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                      Home Loan
             North Grafton, MA                                                                                      1/6/2011               ($1)      $725,277    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   3/30/2011               ($1)      $725,276    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011              ($11)      $725,265    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                   1/25/2012        ($725,265)             $0    Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                  12/30/2009        $1,030,000     $1,600,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010        ($880,000)       $720,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($320,000)       $400,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010         $180,222        $580,222    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                      Financial                                                    6/29/2011               ($8)      $580,212    Updated due to quarterly assessment and reallocation
             Great Lakes Credit                       Instrument for
10/14/2009                              Purchase                                  $570,000     N/A                                                                                                                         $9,833     $18,654            $13,100                 $41,588
             Union, North Chicago, IL                 Home Loan                                                    6/28/2012               ($6)      $580,206    Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                   9/27/2012              ($17)      $580,189    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012               ($3)      $580,186    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013              ($11)      $580,175    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013               ($4)      $580,171    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($1)      $580,170    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($2,438)      $577,732    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014              ($86)      $577,646    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2010        $8,680,000     $9,450,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($8,750,000)      $700,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010         $170,334        $870,334    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($1)      $870,333    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011               ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011               ($8)      $870,324    Updated due to quarterly assessment and reallocation
                                                      Financial
             Greater Nevada                                                                                        6/28/2012               ($4)      $870,320    Updated due to quarterly assessment and reallocation
                                                      Instrument for
1/13/2010    Mortgage Services,         Purchase                                  $770,000     N/A                                                                                                                        $79,678    $166,337           $107,819                $353,835
                                                      Home Loan                                                    9/27/2012              ($10)      $870,310    Updated due to quarterly assessment and reallocation
             Carson City, NV
                                                      Modifications
                                                                                                                  12/27/2012               ($2)      $870,308    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013               ($7)      $870,301    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013               ($2)      $870,299    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($1)      $870,298    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($1,504)      $868,794    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014              ($43)      $868,751    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                          TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives               Payments
                                                                                                               6/17/2009      ($64,990,000)    $91,010,000   Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009     $130,780,000     $221,790,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009    ($116,750,000)    $105,040,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010       $13,080,000    $118,120,000   Updated portfolio data from servicer
                                                                                                               7/14/2010      ($24,220,000)    $93,900,000   Updated portfolio data from servicer
                                                                                                               7/16/2010          $210,000     $94,110,000   Transfer of cap due to servicing transfer
                                                                                                               8/13/2010        $2,200,000     $96,310,000   Transfer of cap due to servicing transfer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/10/2010       $34,600,000    $130,910,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2010        $5,600,000    $136,510,000
                                                                                                                                                             program initial cap
                                                                                                               9/30/2010       $10,185,090    $146,695,090   Updated portfolio data from servicer
                                                                                                              10/15/2010          $400,000    $147,095,090   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011             ($213)   $147,094,877   Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011             ($250)   $147,094,627   Updated due to quarterly assessment and reallocation
                                                                                                               5/13/2011        $1,200,000    $148,294,627   Transfer of cap due to servicing transfer
                                                                                                               6/16/2011          $100,000    $148,394,627   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011           ($2,302)   $148,392,325   Updated due to quarterly assessment and reallocation
                                                                                                               7/14/2011        $1,900,000    $150,292,325   Transfer of cap due to servicing transfer
                                                                                                               9/15/2011          $200,000    $150,492,325   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011          $200,000    $150,692,325   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011          $400,000    $151,092,325   Transfer of cap due to servicing transfer
                                                  Financial
            Green Tree Servicing                  Instrument for                                               2/16/2012          $900,000    $151,992,325   Transfer of cap due to servicing transfer
4/24/2009                          Purchase                               $156,000,000     N/A                                                                                                                      $3,652,680   $24,017,047        $8,266,120             $35,935,847
            LLC, Saint Paul, MN                   Home Loan
                                                  Modifications                                                3/15/2012          $100,000    $152,092,325   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012        $3,260,000    $155,352,325   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012          $920,000    $156,272,325   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($1,622)   $156,270,703   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012          $110,000    $156,380,703   Transfer of cap due to servicing transfer
                                                                                                               8/16/2012        $5,120,000    $161,500,703   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012           ($4,509)   $161,496,194   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012        $8,810,000    $170,306,194   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012        $2,910,000    $173,216,194   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012             ($802)   $173,215,392   Updated due to quarterly assessment and reallocation
                                                                                                               2/14/2013       $10,210,000    $183,425,392   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013           ($3,023)   $183,422,369   Updated due to quarterly assessment and reallocation
                                                                                                               5/16/2013          $140,000    $183,562,369   Transfer of cap due to servicing transfer
                                                                                                               6/27/2013           ($1,077)   $183,561,292   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013        $7,210,000    $190,771,292   Transfer of cap due to servicing transfer
                                                                                                               8/15/2013        $6,730,000    $197,501,292   Transfer of cap due to servicing transfer
                                                                                                               9/27/2013             ($388)   $197,500,904   Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013        $3,610,000    $201,110,904   Transfer of cap due to servicing transfer
                                                                                                              11/14/2013        ($320,000)    $200,790,904   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                                                                                              12/16/2013       $21,280,000    $222,070,904   Transfer of cap due to servicing transfer
                                                                                                              12/23/2013        ($710,351)    $221,360,553   Updated due to quarterly assessment and reallocation
                                                                                                               2/13/2014        $1,700,000    $223,060,553   Transfer of cap due to servicing transfer
                                                                                                               3/26/2014          ($22,400)   $223,038,153   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           443
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                              (CONTINUED)                                                                                                                                                                                          444
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                 7/14/2011         $200,000        $200,000    Transfer of cap due to servicing transfer
                                                                                                                11/16/2011         $900,000      $1,100,000    Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012         $100,000      $1,200,000    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012               ($9)    $1,199,991    Updated due to quarterly assessment and reallocation
                                                                                                                 8/16/2012           $20,000     $1,219,991    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2012              ($26)    $1,219,965    Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012           $50,000     $1,269,965    Transfer of cap due to servicing transfer
                                                                                                                12/14/2012           $10,000     $1,279,965    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012               ($5)    $1,279,960    Updated due to quarterly assessment and reallocation
                                                    Financial
             Gregory Funding, LLC,                  Instrument for                                               1/16/2013         $130,000      $1,409,960    Transfer of cap due to servicing transfer
7/14/2011                             Purchase                                         $0    N/A          3                                                                                                             $77,643    $179,113            $82,552                $339,309
             Beaverton, OR                          Home Loan                                                    2/14/2013         $120,000      $1,529,960    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                 3/25/2013              ($20)    $1,529,940    Updated due to quarterly assessment and reallocation
                                                                                                                 5/16/2013           $80,000     $1,609,940    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                 6/14/2013         $420,000      $2,029,940    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013              ($10)    $2,029,930    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013               ($4)    $2,029,926    Updated due to quarterly assessment and reallocation
                                                                                                                11/14/2013         $120,000      $2,149,926    Transfer of cap due to servicing transfer
                                                                                                                12/23/2013           ($7,685)    $2,142,241    Updated due to quarterly assessment and reallocation
                                                                                                                 3/14/2014           $10,000     $2,152,241    Transfer of cap due to servicing transfer
                                                                                                                 3/26/2014             ($274)    $2,151,967    Updated due to quarterly assessment and reallocation
                                                                                                                 9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                 6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation

                                                    Financial                                                    6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
             Guaranty Bank,                         Instrument for
9/30/2010                             Purchase                                  $100,000     N/A                 9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation        $917           $0            $1,000                  $1,917
             Saint Paul, MN                         Home Loan
                                                    Modifications                                                3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                    Financial
             Harleysville National
                                                    Instrument for
10/28/2009   Bank & Trust Company,    Purchase                                 $1,070,000    N/A                 4/21/2010       ($1,070,000)            $0    Termination of SPA                                            $0           $0                 $0                      $0
                                                    Home Loan
             Harleysville, PA
                                                    Modifications
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010           $30,000       $660,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010         $800,000      $1,460,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010        ($360,000)     $1,100,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010           $60,445     $1,160,445    Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($2)    $1,160,443    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011               ($2)    $1,160,441    Updated due to quarterly assessment and reallocation
                                                    Financial                                                    6/29/2011              ($18)    $1,160,423    Updated due to quarterly assessment and reallocation
             Hartford Savings Bank,                 Instrument for
12/11/2009                            Purchase                                  $630,000     N/A                                                                                                                             $0           $0                 $0                      $0
             Hartford, WI                           Home Loan                                                    6/28/2012              ($14)    $1,160,409    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 9/27/2012              ($37)    $1,160,372    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012               ($6)    $1,160,366    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013              ($24)    $1,160,342    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013               ($9)    $1,160,333    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013               ($3)    $1,160,330    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013           ($5,463)    $1,154,867    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014             ($192)    $1,154,675    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                              (CONTINUED)
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                         TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010           $80,000      $1,750,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010          $330,000      $2,080,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($1,080,000)     $1,000,000   Updated portfolio data from servicer
                                                                                                                 9/30/2010          $160,445      $1,160,445   Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($1)     $1,160,444   Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011               ($2)     $1,160,442   Updated due to quarterly assessment and reallocation
                                                    Financial                                                    6/29/2011              ($16)     $1,160,426   Updated due to quarterly assessment and reallocation
             Hillsdale County
                                                    Instrument for
11/18/2009   National Bank,           Purchase                                 $1,670,000    N/A                                                                                                                        $34,719      $42,994            $56,400                $134,113
                                                    Home Loan                                                    6/28/2012              ($12)     $1,160,414   Updated due to quarterly assessment and reallocation
             Hillsdale, MI
                                                    Modifications
                                                                                                                 9/27/2012              ($33)     $1,160,381   Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012               ($6)     $1,160,375   Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013              ($21)     $1,160,354   Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013               ($8)     $1,160,346   Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013               ($3)     $1,160,343   Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013           ($4,797)     $1,155,546   Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014             ($169)     $1,155,377   Updated due to quarterly assessment and reallocation
                                                    Financial
             Home Financing Center,                 Instrument for
11/25/2009                            Purchase                                  $230,000     N/A                 4/21/2010        ($230,000)             $0    Termination of SPA                                            $0           $0                  $0                      $0
             Inc, Coral Gables, FL                  Home Loan
                                                    Modifications
                                                                                                                 6/12/2009     $128,300,000     $447,300,000   Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2009       $46,730,000    $494,030,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009     $145,820,000     $639,850,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010      ($17,440,000)   $622,410,000   Updated portfolio data from servicer
                                                                                                                 7/14/2010      ($73,010,000)   $549,400,000   Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2010        $6,700,000    $556,100,000
                                                    Financial                                                                                                  program initial cap
             Home Loan Services,                    Instrument for                                               9/30/2010      ($77,126,410)   $478,973,590   Updated portfolio data from servicer
4/20/2009                             Purchase                              $319,000,000     N/A          7                                                                                                            $169,858    $2,440,768        $3,698,607              $6,309,233
             Inc., Pittsburgh, PA                   Home Loan
                                                    Modifications                                               12/15/2010    ($314,900,000)    $164,073,590   Transfer of cap due to servicing transfer
                                                                                                                  1/6/2011             ($233)   $164,073,357   Updated due to quarterly assessment and reallocation
                                                                                                                 2/16/2011       ($1,900,000)   $162,173,357   Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011        ($400,000)    $161,773,357   Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011             ($278)   $161,773,079   Updated due to quarterly assessment and reallocation
                                                                                                                 5/13/2011        ($400,000)    $161,373,079   Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011           ($2,625)   $161,370,454   Updated due to quarterly assessment and reallocation
                                                                                                                10/19/2011    ($155,061,221)      $6,309,233   Termination of SPA
                                                                                                                 2/14/2013          $510,000       $510,000    Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013               ($9)      $509,991    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013          $200,000       $709,991    Transfer of cap due to servicing transfer

                                                    Financial                                                    5/16/2013           $40,000       $749,991    Transfer of cap due to servicing transfer
             Home Servicing, LLC,                   Instrument for
2/14/2013                             Purchase                                         $0    N/A          3      6/27/2013               ($4)      $749,987    Updated due to quarterly assessment and reallocation      $7,867      $18,014             $8,784                 $34,665
             Baton Rouge, LA                        Home Loan
                                                    Modifications                                                7/16/2013        ($120,000)       $629,987    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013               ($2)      $629,985    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                                                                                                12/23/2013           ($2,620)      $627,365    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014              ($92)      $627,273    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            445
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)                                                                                                                                                                                           446
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009    ($121,190,000)    $552,810,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009      ($36,290,000)   $516,520,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010     $199,320,000     $715,840,000   Updated portfolio data from servicer
                                                                                                                7/14/2010    ($189,040,000)    $526,800,000   Updated portfolio data from servicer
                                                                                                                9/30/2010       $38,626,728    $565,426,728   Updated portfolio data from servicer
                                                                                                               10/15/2010    ($170,800,000)    $394,626,728   Transfer of cap due to servicing transfer
                                                                                                               12/15/2010      ($22,200,000)   $372,426,728   Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011             ($549)   $372,426,179   Updated due to quarterly assessment and reallocation
                                                                                                                2/16/2011        ($900,000)    $371,526,179   Transfer of cap due to servicing transfer
                                                   Financial                                                    3/30/2011             ($653)   $371,525,526   Updated due to quarterly assessment and reallocation
             HomEq Servicing,                      Instrument for
8/5/2009                            Purchase                               $674,000,000     N/A         13      6/29/2011           ($6,168)   $371,519,358   Updated due to quarterly assessment and reallocation          $0    $3,036,319        $5,272,500              $8,308,819
             North Highlands, CA                   Home Loan
                                                   Modifications                                                6/28/2012           ($4,634)   $371,514,724   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                8/16/2012        ($430,000)    $371,084,724   Transfer of cap due to servicing transfer
                                                                                                                9/27/2012          ($12,728)   $371,071,996   Updated due to quarterly assessment and reallocation
                                                                                                               12/14/2012          ($20,000)   $371,051,996   Transfer of cap due to servicing transfer
                                                                                                               12/27/2012           ($2,148)   $371,049,848   Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013           ($8,137)   $371,041,711   Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013           ($3,071)   $371,038,640   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013           ($1,101)   $371,037,539   Updated due to quarterly assessment and reallocation
                                                                                                               11/14/2013          ($10,000)   $371,027,539   Transfer of cap due to servicing transfer
                                                                                                               12/23/2013       ($1,858,220)   $369,169,319   Updated due to quarterly assessment and reallocation
                                                                                                                2/27/2014    ($360,860,500)      $8,308,819   Termination of SPA
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010           $20,000       $330,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010          $820,000      $1,150,000   Updated portfolio data from servicer
                                                                                                                7/14/2010        ($350,000)       $800,000    Updated portfolio data from servicer
                                                   Financial                                                    9/30/2010           $70,334       $870,334    Updated portfolio data from servicer
             HomeStar Bank &
                                                   Instrument for
12/11/2009   Financial Services,    Purchase                                   $310,000     N/A          6                                                                                                              $1,917       $5,573             $5,833                 $13,323
                                                   Home Loan                                                     1/6/2011               ($1)      $870,333    Updated due to quarterly assessment and reallocation
             Manteno, IL
                                                   Modifications
                                                                                                                3/30/2011               ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($13)      $870,319    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012              ($10)      $870,309    Updated due to quarterly assessment and reallocation
                                                                                                                 7/6/2012        ($856,986)        $13,323    Termination of SPA
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                              TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                 Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2009      ($53,670,000)   $1,218,820,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                              12/30/2009     $250,450,000     $1,469,270,000
                                                                                                                                                               program initial cap
                                                                                                               3/26/2010     $124,820,000     $1,594,090,000   Updated portfolio data from servicer
                                                                                                               7/14/2010    ($289,990,000)    $1,304,100,000   Updated portfolio data from servicer
                                                                                                               9/30/2010        $1,690,508    $1,305,790,508   Updated portfolio data from servicer
                                                                                                              10/15/2010          $300,000    $1,306,090,508   Transfer of cap due to servicing transfer
                                                                                                              11/16/2010        ($100,000)    $1,305,990,508   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011           ($1,173)   $1,305,989,335   Updated due to quarterly assessment and reallocation
                                                                                                               2/16/2011        ($500,000)    $1,305,489,335   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011           ($1,400)   $1,305,487,935   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        $3,100,000    $1,308,587,935   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011          ($12,883)   $1,308,575,052   Updated due to quarterly assessment and reallocation
                                                                                                               9/15/2011       ($1,000,000)   $1,307,575,052   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011        ($100,000)    $1,307,475,052   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011       ($1,100,000)   $1,306,375,052   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012          ($10,000)   $1,306,365,052   Transfer of cap due to servicing transfer
            Homeward Residential,                 Financial                                                    6/28/2012           ($8,378)   $1,306,356,674   Updated due to quarterly assessment and reallocation
            Inc. (American Home                   Instrument for
7/22/2009                           Purchase                            $1,272,490,000     N/A                 7/16/2012        ($470,000)    $1,305,886,674   Transfer of cap due to servicing transfer              $51,757,482   $133,880,540       $94,835,607           $280,473,629
            Mortgage Servicing,                   Home Loan
            Inc), Coppell, TX                     Modifications                                                8/16/2012          ($80,000)   $1,305,806,674   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012          ($22,494)   $1,305,784,180   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012        ($260,000)    $1,305,524,180   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012          ($30,000)   $1,305,494,180   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012          ($50,000)   $1,305,444,180   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012           ($3,676)   $1,305,440,504   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013          ($80,000)   $1,305,360,504   Transfer of cap due to servicing transfer
                                                                                                               2/14/2013           $20,000    $1,305,380,504   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013      ($84,160,000)   $1,221,220,504   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013          ($12,821)   $1,221,207,683   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013    ($621,110,000)     $600,097,683    Transfer of cap due to servicing transfer
                                                                                                               5/16/2013      ($19,120,000)    $580,977,683    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013           ($1,947)    $580,975,736    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013      ($14,870,000)    $566,105,736    Transfer of cap due to servicing transfer
                                                                                                               9/27/2013             ($655)    $566,105,081    Updated due to quarterly assessment and reallocation
                                                                                                              12/16/2013           $20,000     $566,125,081    Transfer of cap due to servicing transfer
                                                                                                              12/23/2013       ($1,110,189)    $565,014,892    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014          ($39,031)    $564,975,861    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                               447
                                                                                                                                                                                                                                                                                          448
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                10/2/2009         $130,000        $690,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        $1,040,000     $1,730,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010       ($1,680,000)       $50,000    Updated portfolio data from servicer
                                                                                                                5/12/2010        $1,260,000     $1,310,000    Updated portfolio data from servicer
                                                                                                                7/14/2010       ($1,110,000)      $200,000    Updated portfolio data from servicer
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2010         $100,000        $300,000
                                                                                                                                                              program initial cap
                                                   Financial
                                                                                                                9/30/2010           ($9,889)      $290,111    Updated portfolio data from servicer
             Horicon Bank,                         Instrument for
9/2/2009                            Purchase                                   $560,000     N/A                                                                                                                         $8,265     $19,544            $12,170                 $39,979
             Horicon, WI                           Home Loan                                                    6/29/2011               ($3)      $290,108    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                6/28/2012               ($2)      $290,106    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012               ($7)      $290,099    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012               ($1)      $290,098    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013               ($4)      $290,094    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                6/27/2013               ($2)      $290,092    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013               ($1)      $290,091    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013             ($979)      $289,112    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014              ($34)      $289,078    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010           $30,000       $730,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010        $1,740,000     $2,470,000    Updated portfolio data from servicer
                                                                                                                7/14/2010       ($1,870,000)      $600,000    Updated portfolio data from servicer
                                                   Financial                                                    9/30/2010         $850,556      $1,450,556    Updated portfolio data from servicer
             Horizon Bank, NA,                     Instrument for
12/16/2009                          Purchase                                   $700,000     N/A                                                                                                                             $0           $0                 $0                      $0
             Michigan City, IN                     Home Loan                                                     1/6/2011               ($2)    $1,450,554    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                3/30/2011               ($2)    $1,450,552    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($23)    $1,450,529    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012              ($17)    $1,450,512    Updated due to quarterly assessment and reallocation
                                                                                                                9/21/2012       ($1,450,512)            $0    Termination of SPA
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010         $200,000      $4,430,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010       ($1,470,000)    $2,960,000    Updated portfolio data from servicer
                                                                                                                7/14/2010       ($1,560,000)    $1,400,000    Updated portfolio data from servicer
                                                   Financial
             Iberiabank,                           Instrument for                                               9/30/2010        $5,852,780     $7,252,780    Updated portfolio data from servicer
12/23/2009                          Purchase                                  $4,230,000    N/A          6                                                                                                                  $0     $10,502            $15,000                 $25,502
             Sarasota, FL                          Home Loan
                                                   Modifications                                                 1/6/2011              ($11)    $7,252,769    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011              ($13)    $7,252,756    Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011        ($300,000)     $6,952,756    Transfer of cap due to servicing transfer
                                                                                                                 6/3/2011       ($6,927,254)       $25,502    Termination of SPA
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009          ($10,000)      $860,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009         $250,000      $1,110,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010          ($10,000)    $1,100,000    Updated portfolio data from servicer
             IBM Southeast                         Financial                                                    7/14/2010        ($400,000)       $700,000    Updated portfolio data from servicer
             Employees’ Federal                    Instrument for
7/10/2009                           Purchase                                   $870,000     N/A          6      9/30/2010         $170,334        $870,334    Updated portfolio data from servicer                      $9,000     $23,589            $16,000                 $48,589
             Credit Union,                         Home Loan
             Delray Beach, FL                      Modifications                                                 1/6/2011               ($1)      $870,333    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($12)      $870,320    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012               ($9)      $870,311    Updated due to quarterly assessment and reallocation
                                                                                                                9/14/2012        ($821,722)        $48,589    Termination of SPA
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                                (CONTINUED)
                                                                                                                  Adjustment
             Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   1/22/2010           $40,000       $800,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010        ($760,000)        $40,000    Updated portfolio data from servicer
                                                                                                                   5/12/2010        $2,630,000     $2,670,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($770,000)     $1,900,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010          $565,945     $2,465,945    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($4)    $2,465,941    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011               ($4)    $2,465,937    Updated due to quarterly assessment and reallocation
                                                      Financial
             IC Federal Credit Union,                 Instrument for                                               6/29/2011              ($40)    $2,465,897    Updated due to quarterly assessment and reallocation
10/23/2009                              Purchase                                  $760,000     N/A                                                                                                                        $22,333     $45,409            $37,200                $104,942
             Fitchburg, MA                            Home Loan
                                                      Modifications                                                6/28/2012              ($29)    $2,465,868    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012              ($80)    $2,465,788    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012              ($14)    $2,465,774    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013              ($52)    $2,465,722    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013              ($19)    $2,465,703    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($7)    $2,465,696    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013          ($11,558)    $2,454,138    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014             ($410)    $2,453,728    Updated due to quarterly assessment and reallocation
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   1/22/2010          $440,000     $9,870,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010       $14,480,000    $24,350,000    Updated portfolio data from servicer
                                                                                                                   5/26/2010      ($24,200,000)      $150,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010          $150,000       $300,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010           ($9,889)      $290,111    Updated portfolio data from servicer
                                                      Financial                                                    6/29/2011               ($3)      $290,108    Updated due to quarterly assessment and reallocation
             Idaho Housing and
                                                      Instrument for
12/4/2009    Finance Association,       Purchase                                 $9,430,000    N/A                                                                                                                        $22,495     $26,619            $31,025                 $80,138
                                                      Home Loan                                                    6/28/2012               ($2)      $290,106    Updated due to quarterly assessment and reallocation
             Boise, ID
                                                      Modifications
                                                                                                                   9/27/2012               ($6)      $290,100    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012               ($1)      $290,099    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013               ($3)      $290,096    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013               ($1)      $290,095    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013             ($747)      $289,348    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014              ($26)      $289,322    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                             449
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                              (CONTINUED)                                                                                                                                                                                          450
                                                                                                                Adjustment
            Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                 3/26/2010        ($730,000)       $230,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010          $370,000       $600,000    Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2010          $200,000       $800,000
                                                                                                                                                               program initial cap
                                                                                                                 9/30/2010        ($364,833)       $435,167    Updated portfolio data from servicer
                                                                                                                11/16/2010          $100,000       $535,167    Transfer of cap due to servicing transfer
                                                                                                                  1/6/2011               ($1)      $535,166    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011               ($1)      $535,165    Updated due to quarterly assessment and reallocation
                                                    Financial
            iServe Residential
                                                    Instrument for                                               6/29/2011               ($7)      $535,158    Updated due to quarterly assessment and reallocation
1/29/2010   Lending, LLC,             Purchase                                  $960,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                    Home Loan
            San Diego, CA                                                                                        6/28/2012               ($6)      $535,152    Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                 9/27/2012              ($15)      $535,137    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012               ($3)      $535,134    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013              ($10)      $535,124    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                 6/27/2013               ($4)      $535,120    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013               ($1)      $535,119    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013           ($2,242)      $532,877    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014              ($79)      $532,798    Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 5/26/2010          $120,000    $28,160,000
                                                                                                                                                               program initial cap
                                                                                                                 7/14/2010      ($12,660,000)   $15,500,000    Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2010          $100,000    $15,600,000
                                                                                                                                                               program initial cap
                                                                                                                 9/30/2010       ($3,125,218)   $12,474,782    Updated portfolio data from servicer
                                                                                                                11/16/2010          $800,000    $13,274,782    Transfer of cap due to servicing transfer
                                                                                                                  1/6/2011              ($20)   $13,274,762    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011              ($24)   $13,274,738    Updated due to quarterly assessment and reallocation
                                                    Financial                                                    6/29/2011             ($221)   $13,274,517    Updated due to quarterly assessment and reallocation
            iServe Servicing, Inc.,                 Instrument for
3/5/2010                              Purchase                               $28,040,000     N/A                 6/28/2012             ($169)   $13,274,348    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Irving, TX                              Home Loan
                                                    Modifications                                                9/27/2012             ($465)   $13,273,883    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012              ($78)   $13,273,805    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013             ($297)   $13,273,508    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013             ($112)   $13,273,396    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2013          ($10,000)   $13,263,396    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013              ($40)   $13,263,356    Updated due to quarterly assessment and reallocation
                                                                                                                11/14/2013          ($60,000)   $13,203,356    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013          ($67,516)   $13,135,840    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014           ($2,373)   $13,133,467    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                               (CONTINUED)
                                                                                                                 Adjustment
            Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                                TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                   Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                               Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount       Adjusted Cap    Reason for Adjustment                                    Incentives      Incentives        Incentives               Payments
                                                                                                                  9/30/2010           $135,167         $435,167    Updated portfolio data from servicer
                                                                                                                   1/6/2011                ($1)        $435,166    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011                ($1)        $435,165    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011                ($6)        $435,159    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012                ($4)        $435,155    Updated due to quarterly assessment and reallocation
                                                     Financial
            James B. Nutter &                                                                                     9/27/2012               ($12)        $435,143    Updated due to quarterly assessment and reallocation
                                                     Instrument for
9/24/2010   Company,                   Purchase                                  $300,000     N/A                                                                                                                             $10,047              $0           $11,323                 $21,370
                                                     Home Loan                                                   12/27/2012                ($2)        $435,141    Updated due to quarterly assessment and reallocation
            Kansas City, MO
                                                     Modifications
                                                                                                                  3/25/2013                ($8)        $435,133    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013                ($3)        $435,130    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013                ($1)        $435,129    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013            ($1,727)        $433,402    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014               ($61)        $433,341    Updated due to quarterly assessment and reallocation
                                                                                                                                                                   Updated portfolio data from servicer/additional
                                                                                                                  9/30/2009      ($14,850,000)    $2,684,870,000
                                                                                                                                                                   program initial cap
                                                                                                                                                                   Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009     $1,178,180,000    $3,863,050,000
                                                                                                                                                                   program initial cap
                                                                                                                                                                   Updated portfolio data from servicer/additional
                                                                                                                  3/26/2010     $1,006,580,000    $4,869,630,000
                                                                                                                                                                   program initial cap
                                                                                                                  7/14/2010    ($1,934,230,000)   $2,935,400,000   Updated portfolio data from servicer
                                                                                                                                                                   Updated portfolio data from servicer/additional
                                                                                                                  9/30/2010        $72,400,000    $3,007,800,000
                                                                                                                                                                   program initial cap
                                                                                                                  9/30/2010      $215,625,536     $3,223,425,536   Updated portfolio data from servicer
                                                                                                                   1/6/2011            ($3,636)   $3,223,421,900   Updated due to quarterly assessment and reallocation
                                                                                                                  3/16/2011         ($100,000)    $3,223,321,900   Transfer of cap due to servicing transfer
                                                                                                                  3/30/2011            ($3,999)   $3,223,317,901   Updated due to quarterly assessment and reallocation
                                                                                                                  4/13/2011         ($200,000)    $3,223,117,901   Transfer of cap due to servicing transfer
                                                                                                                  5/13/2011      $122,700,000     $3,345,817,901   Transfer of cap due to servicing transfer
                                                                                                                  6/29/2011           ($34,606)   $3,345,783,295   Updated due to quarterly assessment and reallocation
                                                                                                                  7/14/2011           $600,000    $3,346,383,295   Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011         ($400,000)    $3,345,983,295   Transfer of cap due to servicing transfer
                                                     Financial
            J.P. Morgan Chase                        Instrument for                                               9/15/2011         ($100,000)    $3,345,883,295   Transfer of cap due to servicing transfer
7/31/2009                              Purchase                            $2,699,720,000     N/A                                                                                                                         $300,587,642   $796,822,308      $399,303,342          $1,496,713,292
            Bank, NA, Lewisville, TX                 Home Loan
                                                     Modifications                                               10/14/2011           $200,000    $3,346,083,295   Transfer of cap due to servicing transfer
                                                                                                                 10/19/2011      $519,211,309     $3,865,294,604   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011        ($2,800,000)   $3,862,494,604   Transfer of cap due to servicing transfer
                                                                                                                  1/13/2012         ($100,000)    $3,862,394,604   Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012         ($100,000)    $3,862,294,604   Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012     ($126,080,000)    $3,736,214,604   Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012        ($1,620,000)   $3,734,594,604   Transfer of cap due to servicing transfer
                                                                                                                  6/28/2012           ($16,192)   $3,734,578,412   Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2012        ($2,300,000)   $3,732,278,412   Transfer of cap due to servicing transfer
                                                                                                                  8/16/2012           ($20,000)   $3,732,258,412   Transfer of cap due to servicing transfer
                                                                                                                  9/27/2012           ($37,341)   $3,732,221,071   Updated due to quarterly assessment and reallocation
                                                                                                                 10/16/2012        ($1,130,000)   $3,731,091,071   Transfer of cap due to servicing transfer
                                                                                                                 11/15/2012        ($3,770,000)   $3,727,321,071   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                                                                                                 12/14/2012         ($180,000)    $3,727,141,071   Transfer of cap due to servicing transfer
                                                                                                                 12/27/2012            ($4,535)   $3,727,136,536   Updated due to quarterly assessment and reallocation
                                                                                                                  1/16/2013           ($60,000)   $3,727,076,536   Transfer of cap due to servicing transfer
                                                                                                                  2/14/2013         ($520,000)    $3,726,556,536   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                                    451
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)                                                                                                                                                                                              452
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                          TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                             Lenders/                                   Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s    Investors         Servicers                  Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives                 Payments
                                                                                                                3/14/2013          ($90,000)   $3,726,466,536   Transfer of cap due to servicing transfer
                                                                                                                3/25/2013          ($14,310)   $3,726,452,226   Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013        ($110,000)    $3,726,342,226   Transfer of cap due to servicing transfer
                                                                                                                5/16/2013        ($120,000)    $3,726,222,226   Transfer of cap due to servicing transfer
                                                                                                                6/14/2013          ($50,000)   $3,726,172,226   Transfer of cap due to servicing transfer
                                                                                                                6/27/2013           ($3,778)   $3,726,168,448   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013    ($103,240,000)    $3,622,928,448   Transfer of cap due to servicing transfer
                                                                                                                8/15/2013          ($20,000)   $3,622,908,448   Transfer of cap due to servicing transfer
                                                                                                                9/16/2013      ($99,960,000)   $3,522,948,448   Transfer of cap due to servicing transfer
                                                                                                                9/27/2013             ($724)   $3,522,947,724   Updated due to quarterly assessment and reallocation
                                                                                                               10/15/2013      ($77,990,000)   $3,444,957,724   Transfer of cap due to servicing transfer
                                                                                                               11/14/2013      ($15,610,000)   $3,429,347,724   Transfer of cap due to servicing transfer
                                                                                                               12/16/2013          ($50,000)   $3,429,297,724   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                               12/23/2013        ($840,396)    $3,428,457,328   Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014       ($5,790,000)   $3,422,667,328   Transfer of cap due to servicing transfer
                                                                                                                2/13/2014      ($52,670,000)   $3,369,997,328   Transfer of cap due to servicing transfer
                                                                                                                3/14/2014       ($3,730,000)   $3,366,267,328   Transfer of cap due to servicing transfer
                                                                                                                3/26/2014          ($21,412)   $3,366,245,916   Updated due to quarterly assessment and reallocation
                                                                                                               11/15/2012           $30,000          $30,000    Transfer of cap due to servicing transfer
                                                                                                               12/14/2012           $70,000         $100,000    Transfer of cap due to servicing transfer
                                                                                                                1/16/2013          ($10,000)         $90,000    Transfer of cap due to servicing transfer
                                                                                                                2/14/2013          ($10,000)         $80,000    Transfer of cap due to servicing transfer

                                                   Financial                                                    4/16/2013          ($10,000)         $70,000    Transfer of cap due to servicing transfer
             Kondaur Capital
                                                   Instrument for
11/15/2012   Corporation,           Purchase                                          $0    N/A          3      5/16/2013          $130,000         $200,000    Transfer of cap due to servicing transfer                     $0           $0                 $400                   $400
                                                   Home Loan
             Orange, CA
                                                   Modifications                                                6/14/2013          ($50,000)        $150,000    Transfer of cap due to servicing transfer
                                                                                                                7/16/2013          ($20,000)        $130,000    Transfer of cap due to servicing transfer
                                                                                                               12/23/2013             ($155)        $129,845    Updated due to quarterly assessment and reallocation
                                                                                                                3/14/2014        $2,240,000       $2,369,845    Transfer of cap due to servicing transfer
                                                                                                                3/26/2014             ($373)      $2,369,472    Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                9/30/2009          $180,000         $600,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        ($350,000)         $250,000
                                                                                                                                                                program initial cap
                                                                                                                3/26/2010           $20,000         $270,000    Updated portfolio data from servicer
                                                                                                                7/14/2010          ($70,000)        $200,000    Updated portfolio data from servicer
                                                                                                                9/30/2010           $90,111         $290,111    Updated portfolio data from servicer
                                                   Financial                                                    6/29/2011               ($3)        $290,108    Updated due to quarterly assessment and reallocation
             Lake City Bank,                       Instrument for
8/5/2009                            Purchase                                   $420,000     N/A                 6/28/2012               ($2)        $290,106    Updated due to quarterly assessment and reallocation      $8,879       $9,256           $21,196                   $39,331
             Warsaw, IN                            Home Loan
                                                   Modifications                                                9/27/2012               ($7)        $290,099    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012               ($1)        $290,098    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013               ($4)        $290,094    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013               ($2)        $290,092    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013               ($1)        $290,091    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013             ($979)        $289,112    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014              ($34)        $289,078    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009         $150,000        $250,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009         $130,000        $380,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010          $50,000        $430,000    Updated portfolio data from servicer
                                                   Financial                                                    7/14/2010         ($30,000)       $400,000    Updated portfolio data from servicer
            Lake National Bank,                    Instrument for
7/10/2009                            Purchase                                  $100,000     N/A          6      9/30/2010          $35,167        $435,167    Updated portfolio data from servicer                      $3,000       $3,651            $4,000                 $10,651
            Mentor, OH                             Home Loan
                                                   Modifications                                                 1/6/2011               ($1)      $435,166    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($1)      $435,165    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011               ($6)      $435,159    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012               ($4)      $435,155    Updated due to quarterly assessment and reallocation
                                                                                                                8/23/2012        ($424,504)        $10,651    Termination of SPA
                                                                                                                                                              Transfer of cap due to servicing transfer
                                                   Financial                                                    1/16/2014         $100,000        $100,000
            LenderLive Network,                    Instrument for
1/16/2014                            Purchase                                           -   N/A          3                                                                                                                  $0           $0                 $0                      $0
            Inc, Glendale, CO                      Home Loan                                                    3/14/2014          $10,000        $110,000    Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                                3/26/2014               ($2)      $109,998    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2010         $450,556      $1,450,556    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($2)    $1,450,554    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($2)    $1,450,552    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($23)    $1,450,529    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012              ($17)    $1,450,512    Updated due to quarterly assessment and reallocation
                                                   Financial
            Liberty Bank and Trust                 Instrument for                                               9/27/2012              ($48)    $1,450,464    Updated due to quarterly assessment and reallocation
9/30/2010                            Purchase                                 $1,000,000    N/A                                                                                                                             $0           $0                 $0                      $0
            Co, New Orleans, LA                    Home Loan                                                   12/27/2012               ($8)    $1,450,456    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                3/25/2013              ($30)    $1,450,426    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013              ($11)    $1,450,415    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013               ($4)    $1,450,411    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013           ($6,958)    $1,443,453    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014            ($245)     $1,443,208    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                          453
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)                                                                                                                                                                                               454
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                             TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2009     $313,050,000     $1,087,950,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                              12/30/2009     $275,370,000     $1,363,320,000
                                                                                                                                                               program initial cap
                                                                                                               3/26/2010     $278,910,000     $1,642,230,000   Updated portfolio data from servicer
                                                                                                               7/14/2010    ($474,730,000)    $1,167,500,000   Updated portfolio data from servicer
                                                                                                               8/13/2010        ($700,000)    $1,166,800,000   Transfer of cap due to servicing transfer
                                                                                                               9/15/2010       ($1,000,000)   $1,165,800,000   Transfer of cap to due to servicing transfer
                                                                                                               9/30/2010    ($115,017,236)    $1,050,782,764   Updated portfolio data from servicer
                                                                                                              10/15/2010        ($800,000)    $1,049,982,764   Transfer of cap due to servicing transfer
                                                                                                              12/15/2010         $800,000     $1,050,782,764   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011           ($1,286)   $1,050,781,478   Updated due to quarterly assessment and reallocation
                                                                                                               3/16/2011        $8,800,000    $1,059,581,478   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011           ($1,470)   $1,059,580,008   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                               4/13/2011       ($3,300,000)   $1,056,280,008   Transfer of cap due to servicing transfer
                                                                                                               5/13/2011        ($300,000)    $1,055,980,008   Transfer of cap due to servicing transfer
                                                                                                               6/16/2011        ($700,000)    $1,055,280,008   Transfer of cap due to servicing transfer
                                                  Financial                                                    6/29/2011          ($13,097)   $1,055,266,911   Updated due to quarterly assessment and reallocation
            Litton Loan Servicing                 Instrument for
8/12/2009                           Purchase                              $774,900,000     N/A         12      7/14/2011        ($200,000)    $1,055,066,911   Transfer of cap due to servicing transfer              $13,441,220   $35,353,126       $27,530,414             $76,324,760
            LP, Houston, TX                       Home Loan
                                                  Modifications                                                9/15/2011       ($2,900,000)   $1,052,166,911   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011        ($300,000)    $1,051,866,911   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011        ($500,000)    $1,051,366,911   Transfer of cap due to servicing transfer
                                                                                                              12/15/2011       ($2,600,000)   $1,048,766,911   Transfer of cap due to servicing transfer
                                                                                                               1/13/2012    ($194,800,000)     $853,966,911    Transfer of cap due to servicing transfer
                                                                                                               2/16/2012        ($400,000)     $853,566,911    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($9,728)    $853,557,183    Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2012       ($7,990,000)    $845,567,183    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012          ($26,467)    $845,540,716    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012           ($4,466)    $845,536,250    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013          ($16,922)    $845,519,328    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013           ($6,386)    $845,512,942    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013           ($2,289)    $845,510,653    Updated due to quarterly assessment and reallocation
                                                                                                              12/16/2013          ($60,000)    $845,450,653    Transfer of cap due to servicing transfer
                                                                                                              12/23/2013       ($3,864,503)    $841,586,150    Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014          ($30,000)    $841,556,150    Transfer of cap due to servicing transfer
                                                                                                               1/31/2014    ($765,231,390)      $76,324,760    Termination of SPA
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                               (CONTINUED)
                                                                                                                 Adjustment
            Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  1/22/2010          $40,000        $740,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010          $50,000        $790,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010        $1,310,000     $2,100,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010          $75,834      $2,175,834    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($3)    $2,175,831    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011               ($4)    $2,175,827    Updated due to quarterly assessment and reallocation
                                                     Financial                                                    6/29/2011              ($35)    $2,175,792    Updated due to quarterly assessment and reallocation
            Los Alamos National                      Instrument for
11/6/2009                              Purchase                                  $700,000     N/A                                                                                                                        $33,864     $40,152            $53,678                $127,694
            Bank, Los Alamos, NM                     Home Loan                                                    6/28/2012              ($26)    $2,175,766    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  9/27/2012              ($70)    $2,175,696    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012              ($12)    $2,175,684    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013              ($45)    $2,175,639    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013              ($17)    $2,175,622    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013               ($6)    $2,175,616    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013           ($9,932)    $2,165,684    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014            ($346)     $2,165,338    Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010         $315,389      $1,015,389    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($1)    $1,015,388    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011               ($1)    $1,015,387    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011              ($11)    $1,015,376    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012              ($11)    $1,015,365    Updated due to quarterly assessment and reallocation

                                                     Financial                                                    9/27/2012              ($30)    $1,015,335    Updated due to quarterly assessment and reallocation
            M&T Bank,                                Instrument for
9/30/2010                              Purchase                                  $700,000     N/A                12/27/2012               ($5)    $1,015,330    Updated due to quarterly assessment and reallocation     $53,687           $0           $55,294                $108,981
            Buffalo, NY                              Home Loan
                                                     Modifications                                                3/25/2013              ($20)    $1,015,310    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013               ($7)    $1,015,303    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013               ($3)    $1,015,300    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013           ($4,381)    $1,010,919    Updated due to quarterly assessment and reallocation
                                                                                                                  2/13/2014        $1,280,000     $2,290,919    Transfer of cap due to servicing transfer
                                                                                                                  3/26/2014         $125,146      $2,416,065    Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010         $630,778      $2,030,778    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($3)    $2,030,775    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011               ($3)    $2,030,772    Updated due to quarterly assessment and reallocation
                                                                                                                  6/29/2011              ($33)    $2,030,739    Updated due to quarterly assessment and reallocation
                                                                                                                  6/28/2012              ($25)    $2,030,714    Updated due to quarterly assessment and reallocation
                                                     Financial
            Magna Bank,                              Instrument for                                               9/27/2012              ($68)    $2,030,646    Updated due to quarterly assessment and reallocation
9/30/2010                              Purchase                                 $1,400,000    N/A                                                                                                                             $0           $0                 $0                      $0
            Germantown, TN                           Home Loan                                                   12/27/2012              ($11)    $2,030,635    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  3/25/2013              ($44)    $2,030,591    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013              ($16)    $2,030,575    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013               ($6)    $2,030,569    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013           ($9,947)    $2,020,622    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014            ($350)     $2,020,272    Updated due to quarterly assessment and reallocation

                                                     Financial                                                    9/30/2010         $225,278        $725,278    Updated portfolio data from servicer
            Mainstreet Credit Union,                 Instrument for
9/30/2010                              Purchase                                  $500,000     N/A                  1/6/2011               ($1)      $725,277    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Lexena, KS                               Home Loan
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                                     Modifications                                                 3/9/2011        ($725,277)             $0    Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            455
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                               (CONTINUED)                                                                                                                                                                                          456
                                                                                                                 Adjustment
             Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  1/22/2010          $950,000    $21,310,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010      ($17,880,000)    $3,430,000    Updated portfolio data from servicer
                                                                                                                  6/16/2010        $1,030,000     $4,460,000    Transfer of cap due to servicing transfer
                                                                                                                  7/14/2010       ($1,160,000)    $3,300,000    Updated portfolio data from servicer
                                                                                                                  8/13/2010          $800,000     $4,100,000    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  9/30/2010          $200,000     $4,300,000
                                                                                                                                                                program initial cap
                                                                                                                  9/30/2010        $1,357,168     $5,657,168    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($1)    $5,657,167    Updated due to quarterly assessment and reallocation
                                                                                                                  3/16/2011        $5,700,000    $11,357,167    Transfer of cap due to servicing transfer
                                                                                                                  3/30/2011               ($6)   $11,357,161    Updated due to quarterly assessment and reallocation
                                                                                                                  4/13/2011        $7,300,000    $18,657,161    Transfer of cap due to servicing transfer
                                                                                                                  5/13/2011          $300,000    $18,957,161    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                  6/16/2011          $900,000    $19,857,161    Transfer of cap due to servicing transfer
                                                                                                                  6/29/2011             ($154)   $19,857,007    Updated due to quarterly assessment and reallocation
                                                                                                                  7/14/2011          $100,000    $19,957,007    Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011          $300,000    $20,257,007    Transfer of cap due to servicing transfer
                                                                                                                  1/13/2012       ($1,500,000)   $18,757,007    Transfer of cap due to servicing transfer
                                                     Financial
             Marix Servicing, LLC,                   Instrument for                                               2/16/2012       ($2,100,000)   $16,657,007    Transfer of cap due to servicing transfer
11/25/2009                             Purchase                               $20,360,000     N/A                                                                                                                       $352,196    $970,197           $839,633              $2,162,025
             Phoenix, AZ                             Home Loan
                                                                                                                  4/16/2012       ($1,300,000)   $15,357,007    Transfer of cap due to servicing transfer
                                                     Modifications
                                                                                                                  6/14/2012       ($8,350,000)    $7,007,007    Transfer of cap due to servicing transfer
                                                                                                                  6/28/2012              ($38)    $7,006,969    Updated due to quarterly assessment and reallocation
                                                                                                                  8/16/2012          ($90,000)    $6,916,969    Transfer of cap due to servicing transfer
                                                                                                                  9/27/2012             ($103)    $6,916,866    Updated due to quarterly assessment and reallocation
                                                                                                                 10/16/2012       ($1,020,000)    $5,896,866    Transfer of cap due to servicing transfer
                                                                                                                 11/15/2012          $170,000     $6,066,866    Transfer of cap due to servicing transfer
                                                                                                                 12/27/2012              ($15)    $6,066,851    Updated due to quarterly assessment and reallocation
                                                                                                                  2/14/2013        ($100,000)     $5,966,851    Transfer of cap due to servicing transfer
                                                                                                                  3/14/2013        ($490,000)     $5,476,851    Transfer of cap due to servicing transfer
                                                                                                                  3/25/2013              ($61)    $5,476,790    Updated due to quarterly assessment and reallocation
                                                                                                                  4/16/2013          ($10,000)    $5,466,790    Transfer of cap due to servicing transfer
                                                                                                                  5/16/2013          ($30,000)    $5,436,790    Transfer of cap due to servicing transfer
                                                                                                                  6/14/2013          ($10,000)    $5,426,790    Transfer of cap due to servicing transfer
                                                                                                                  6/27/2013              ($23)    $5,426,767    Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2013          ($20,000)    $5,406,767    Transfer of cap due to servicing transfer
                                                                                                                  9/27/2013               ($8)    $5,406,759    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013          ($13,934)    $5,392,825    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014             ($490)    $5,392,335    Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                  6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                     Financial
             Marsh Associates, Inc.,                 Instrument for                                               6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
9/30/2010                              Purchase                                  $100,000     N/A                                                                                                                         $9,688           $0           $10,649                 $20,337
             Charlotte, NC                           Home Loan                                                    9/27/2012               ($1)      $145,053    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  3/25/2013               ($1)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                 10/15/2013          ($60,000)       $85,052    Transfer of cap due to servicing transfer
                                                     Financial
             Members Mortgage
                                                     Instrument for
10/28/2009   Company, Inc,             Purchase                                  $510,000     N/A                 4/21/2010        ($510,000)             $0    Termination of SPA                                            $0           $0                 $0                      $0
                                                     Home Loan
             Woburn, MA
                                                     Modifications
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                         TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                10/2/2009          $70,000        $350,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009         $620,000        $970,000
                                                                                                                                                              program initial cap
                                                   Financial
            Metropolitan National                  Instrument for                                               3/26/2010         $100,000       $1,070,000   Updated portfolio data from servicer
9/11/2009                            Purchase                                  $280,000     N/A                                                                                                                             $0           $0                  $0                      $0
            Bank, Little Rock, AR                  Home Loan
                                                                                                                7/14/2010        ($670,000)       $400,000    Updated portfolio data from servicer
                                                   Modifications
                                                                                                                9/30/2010          $35,167        $435,167    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($1)      $435,166    Updated due to quarterly assessment and reallocation
                                                                                                                1/26/2011        ($435,166)             $0    Termination of SPA
                                                                                                                9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation

            Mid America Mortgage,                  Financial                                                    6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
            Inc. (Schmidt Mortgage                 Instrument for
9/30/2010                            Purchase                                  $100,000     N/A                 9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation          $0           $0                  $0                      $0
            Company),                              Home Loan
            Rocky River, OH                        Modifications                                                3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013            ($232)       $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2010       $49,915,806     $93,415,806   Updated portfolio data from servicer
                                                                                                                 1/6/2011            ($125)     $93,415,681   Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011            ($139)     $93,415,542   Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011           ($1,223)    $93,414,319   Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012            ($797)     $93,413,522   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012     $294,540,000     $387,953,522   Transfer of cap due to servicing transfer
                                                   Financial
            Midland Mortgage                                                                                    7/27/2012    ($263,550,000)    $124,403,522   Transfer of cap due to servicing transfer
                                                   Instrument for
9/30/2010   Company,                 Purchase                               $43,500,000     N/A                                                                                                                      $6,653,059   $1,498,115        $7,791,471             $15,942,646
                                                   Home Loan                                                    9/27/2012           ($3,170)   $124,400,352   Updated due to quarterly assessment and reallocation
            Oklahoma City, OK
                                                   Modifications
                                                                                                               12/27/2012            ($507)    $124,399,845   Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013           ($1,729)   $124,398,116   Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013            ($593)    $124,397,523   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013            ($199)    $124,397,324   Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013        ($280,061)    $124,117,263   Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014           ($8,934)   $124,108,329   Updated due to quarterly assessment and reallocation
                                                                                                                7/14/2010         $300,000        $600,000    Updated portfolio data from servicer
                                                                                                                9/30/2010         ($19,778)       $580,222    Updated portfolio data from servicer
                                                   Financial
            Midwest Bank and Trust                 Instrument for                                                1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
4/14/2010                            Purchase                                  $300,000     N/A                                                                                                                             $0           $0                  $0                      $0
            Co., Elmwood Park, IL                  Home Loan                                                    3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                6/29/2011               ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                7/14/2011        ($580,212)             $0    Termination of SPA
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                           457
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)                                                                                                                                                                                           458
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                         TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                                9/30/2010          $180,222       $580,222    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011               ($8)      $580,212    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012               ($6)      $580,206    Updated due to quarterly assessment and reallocation
                                                   Financial
            Midwest Community                      Instrument for                                               9/27/2012              ($17)      $580,189    Updated due to quarterly assessment and reallocation
9/15/2010                            Purchase                                  $400,000     N/A                                                                                                                         $1,000       $1,818             $2,000                  $4,818
            Bank, Freeport, IL                     Home Loan                                                   12/27/2012               ($3)      $580,186    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                3/25/2013              ($11)      $580,175    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013               ($4)      $580,171    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013               ($1)      $580,170    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013           ($2,474)      $577,696    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014              ($87)      $577,609    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009        ($490,000)       $370,000
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        $6,750,000     $7,120,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010       ($6,340,000)      $780,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        ($180,000)       $600,000    Updated portfolio data from servicer
                                                   Financial                                                    9/30/2010          $125,278       $725,278    Updated portfolio data from servicer
            Mission Federal Credit                 Instrument for
7/22/2009                            Purchase                                  $860,000     N/A                 3/30/2011               ($1)      $725,277    Updated due to quarterly assessment and reallocation     $76,510     $192,269           $113,026                $381,806
            Union, San Diego, CA                   Home Loan
                                                   Modifications                                                6/29/2011               ($4)      $725,273    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012               ($1)      $725,272    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012               ($1)      $725,271    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013           $47,663       $772,934    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013             ($149)      $772,785    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014               ($5)      $772,780    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009       $18,530,000    $42,010,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009       $24,510,000    $66,520,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010       $18,360,000    $84,880,000    Updated portfolio data from servicer
                                                   Financial                                                    7/14/2010      ($22,580,000)   $62,300,000    Updated portfolio data from servicer
            MorEquity, Inc.,                       Instrument for
7/17/2009                            Purchase                               $23,480,000     N/A          5                                                                                                            $345,841    $2,305,003        $1,977,321              $4,628,165
            Evansville, IN                         Home Loan                                                    9/30/2010       ($8,194,261)   $54,105,739    Updated portfolio data from servicer
                                                   Modifications
                                                                                                                 1/6/2011              ($37)   $54,105,702    Updated due to quarterly assessment and reallocation
                                                                                                                3/16/2011      ($29,400,000)   $24,705,702    Transfer of cap due to servicing transfer
                                                                                                                3/30/2011              ($34)   $24,705,668    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Termination of SPA
                                                                                                                5/26/2011      ($20,077,503)    $4,628,165
                                                                                                                                                              (remaining cap equals distribution amount)
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                              (CONTINUED)
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 9/30/2009        $1,780,000     $5,990,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009        $2,840,000     $8,830,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010        $2,800,000    $11,630,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($5,730,000)    $5,900,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010        $2,658,280     $8,558,280    Updated portfolio data from servicer
                                                                                                                  1/6/2011              ($12)    $8,558,268    Updated due to quarterly assessment and reallocation
                                                    Financial                                                    3/30/2011              ($14)    $8,558,254    Updated due to quarterly assessment and reallocation
             Mortgage Center, LLC,                  Instrument for
7/22/2009                             Purchase                                 $4,210,000    N/A                 6/29/2011             ($129)    $8,558,125    Updated due to quarterly assessment and reallocation    $173,714    $283,667           $305,306                $762,687
             Southfield, MI                         Home Loan
                                                    Modifications                                                6/28/2012              ($94)    $8,558,031    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012             ($256)    $8,557,775    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012              ($43)    $8,557,732    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013             ($162)    $8,557,570    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013              ($60)    $8,557,510    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013              ($21)    $8,557,489    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013          ($35,751)    $8,521,738    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014           ($1,246)    $8,520,492    Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                12/30/2009       ($2,900,000)    $1,960,000
                                                                                                                                                               program initial cap
                                                    Financial                                                    3/26/2010       ($1,600,000)      $360,000    Updated portfolio data from servicer
             Mortgage Clearing                      Instrument for
10/14/2009                            Purchase                                 $4,860,000    N/A                                                                                                                             $0           $0                 $0                      $0
             Corporation, Tulsa, OK                 Home Loan                                                    7/14/2010        ($260,000)       $100,000    Updated portfolio data from servicer
                                                    Modifications
                                                                                                                 9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                  3/9/2011        ($145,056)             $0    Termination of SPA
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                           459
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)                                                                                                                                                                                            460
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                          TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009     $315,170,000     $610,150,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       $90,280,000    $700,430,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010      ($18,690,000)   $681,740,000   Updated portfolio data from servicer
                                                                                                               7/14/2010    ($272,640,000)    $409,100,000   Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2010       $80,600,000    $489,700,000
                                                                                                                                                             program initial cap
                                                                                                               9/30/2010       $71,230,004    $560,930,004   Updated portfolio data from servicer
                                                                                                                1/6/2011             ($828)   $560,929,176   Updated due to quarterly assessment and reallocation
                                                                                                               2/16/2011          $200,000    $561,129,176   Transfer of cap due to servicing transfer
                                                                                                               3/16/2011        ($100,000)    $561,029,176   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011             ($981)   $561,028,195   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011       ($2,300,000)   $558,728,195   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                               5/13/2011        ($200,000)    $558,528,195   Transfer of cap due to servicing transfer

                                                  Financial                                                    6/16/2011        ($200,000)    $558,328,195   Transfer of cap due to servicing transfer
            National City Bank,                   Instrument for                                               6/29/2011           ($9,197)   $558,318,998   Updated due to quarterly assessment and reallocation
6/26/2009                          Purchase                               $294,980,000     N/A                                                                                                                      $3,659,399   $10,517,589        $5,933,512             $20,110,500
            Miamisburg, OH                        Home Loan
                                                  Modifications                                               10/14/2011          $300,000    $558,618,998   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011        ($300,000)    $558,318,998   Transfer of cap due to servicing transfer
                                                                                                               1/13/2012          $200,000    $558,518,998   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012        ($100,000)    $558,418,998   Transfer of cap due to servicing transfer
                                                                                                               3/15/2012          $200,000    $558,618,998   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012          ($10,000)   $558,608,998   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($6,771)   $558,602,227   Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012          ($18,467)   $558,583,760   Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012           ($3,105)   $558,580,655   Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013          ($11,713)   $558,568,942   Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013           ($4,393)   $558,564,549   Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013           ($1,565)   $558,562,984   Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013       ($2,622,925)   $555,940,059   Updated due to quarterly assessment and reallocation
                                                                                                               3/14/2014        $7,680,000    $563,620,059   Transfer of cap due to servicing transfer
                                                                                                               3/26/2014          ($92,836)   $563,527,223   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                              TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                 Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives        Incentives               Payments
                                                                                                               6/12/2009       $16,140,000     $117,140,000    Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2009     $134,560,000      $251,700,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       $80,250,000     $331,950,000
                                                                                                                                                               program initial cap
                                                                                                               3/26/2010       $67,250,000     $399,200,000    Updated portfolio data from servicer
                                                                                                               7/14/2010      ($85,900,000)    $313,300,000    Updated portfolio data from servicer
                                                                                                               8/13/2010          $100,000     $313,400,000    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2010        $2,900,000     $316,300,000
                                                                                                                                                               program initial cap
                                                                                                               9/30/2010       $33,801,486     $350,101,486    Updated portfolio data from servicer
                                                                                                              11/16/2010          $700,000     $350,801,486    Transfer of cap due to servicing transfer
                                                                                                              12/15/2010        $1,700,000     $352,501,486    Transfer of cap due to servicing transfer
                                                                                                                1/6/2011             ($363)    $352,501,123    Updated due to quarterly assessment and reallocation
                                                                                                               2/16/2011          $900,000     $353,401,123    Transfer of cap due to servicing transfer
                                                                                                               3/16/2011       $29,800,000     $383,201,123    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011             ($428)    $383,200,695    Updated due to quarterly assessment and reallocation
                                                                                                               5/26/2011       $20,077,503     $403,278,198    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011           ($4,248)    $403,273,950    Updated due to quarterly assessment and reallocation
                                                                                                              11/16/2011          $100,000     $403,373,950    Transfer of cap due to servicing transfer
                                                                                                               3/15/2012        ($100,000)     $403,273,950    Transfer of cap due to servicing transfer
                                                                                                               5/16/2012           $90,000     $403,363,950    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012       ($2,380,000)    $400,983,950    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($2,957)    $400,980,993    Updated due to quarterly assessment and reallocation

                                                  Financial                                                    7/16/2012       ($2,580,000)    $398,400,993    Transfer of cap due to servicing transfer
            Nationstar Mortgage                   Instrument for                                               8/16/2012     $131,450,000      $529,850,993    Transfer of cap due to servicing transfer
5/28/2009                          Purchase                               $101,000,000     N/A                                                                                                                        $50,893,540   $125,266,148       $68,092,512           $244,252,200
            LLC, Lewisville, TX                   Home Loan
                                                  Modifications                                                8/23/2012     $166,976,849      $696,827,842    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012          ($12,806)    $696,815,036    Updated due to quarterly assessment and reallocation
                                                                                                              11/15/2012          $160,000     $696,975,036    Transfer of cap due to servicing transfer
                                                                                                              12/14/2012           $50,000     $697,025,036    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012           ($1,882)    $697,023,154    Updated due to quarterly assessment and reallocation
                                                                                                               2/14/2013          ($10,000)    $697,013,154    Transfer of cap due to servicing transfer
                                                                                                               3/14/2013        ($280,000)     $696,733,154    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013           ($6,437)    $696,726,717    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013           $30,000     $696,756,717    Transfer of cap due to servicing transfer
                                                                                                               5/16/2013       ($1,510,000)    $695,246,717    Transfer of cap due to servicing transfer
                                                                                                               6/14/2013       ($1,070,000)    $694,176,717    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013           ($2,099)    $694,174,618    Updated due to quarterly assessment and reallocation
                                                                                                                7/9/2013       $23,179,591     $717,354,209    Transfer of cap due to servicing transfer
                                                                                                               7/16/2013          $490,000     $717,844,209    Transfer of cap due to servicing transfer
                                                                                                               9/16/2013     $289,070,000     $1,006,914,209   Transfer of cap due to servicing transfer
                                                                                                               9/27/2013           ($1,118)   $1,006,913,091   Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013       $63,440,000    $1,070,353,091   Transfer of cap due to servicing transfer
                                                                                                              11/14/2013        $5,060,000    $1,075,413,091   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                                                                                              12/16/2013        $3,210,000    $1,078,623,091   Transfer of cap due to servicing transfer
                                                                                                              12/23/2013       ($1,697,251)   $1,076,925,840   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014        ($100,000)    $1,076,825,840   Transfer of cap due to servicing transfer
                                                                                                               2/13/2014       $32,370,000    $1,109,195,840   Transfer of cap due to servicing transfer
                                                                                                               3/14/2014          ($20,000)   $1,109,175,840   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                               461




                                                                                                               3/26/2014          ($47,177)   $1,109,128,663   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)                                                                                                                                                                                           462
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                   Financial
             Nationwide Advantage
                                                   Instrument for
12/16/2013   Mortgage Company,      Purchase                                          $0    N/A          3     12/16/2013           $10,000        $10,000    Transfer of cap due to servicing transfer
                                                   Home Loan
             Des Moines, IA
                                                   Modifications
                                                                                                                7/14/2010      ($44,880,000)   $15,900,000    Updated portfolio data from servicer
                                                                                                                9/30/2010        $1,071,505    $16,971,505    Updated portfolio data from servicer
                                                                                                                 1/6/2011              ($23)   $16,971,482    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011              ($26)   $16,971,456    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011             ($238)   $16,971,218    Updated due to quarterly assessment and reallocation

                                                   Financial                                                    6/28/2012             ($145)   $16,971,073    Updated due to quarterly assessment and reallocation
             Navy Federal Credit                   Instrument for
3/10/2010                           Purchase                                $60,780,000     N/A                 9/27/2012             ($374)   $16,970,699    Updated due to quarterly assessment and reallocation    $679,111    $1,656,253        $1,266,834              $3,602,198
             Union, Vienna, VA                     Home Loan
                                                   Modifications                                               12/27/2012              ($58)   $16,970,641    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013             ($199)   $16,970,442    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013              ($68)   $16,970,374    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                9/27/2013              ($22)   $16,970,352    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013          ($36,317)   $16,934,035    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014           ($1,230)   $16,932,805    Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011          $200,000       $200,000    Transfer of cap due to servicing transfer
                                                                                                                5/13/2011          $100,000       $300,000    Transfer of cap due to servicing transfer
                                                                                                                6/16/2011          $300,000       $600,000    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011               ($9)      $599,991    Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2011          $200,000       $799,991    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012               ($7)      $799,984    Updated due to quarterly assessment and reallocation
                                                   Financial
             New York Community                                                                                 9/27/2012              ($19)      $799,965    Updated due to quarterly assessment and reallocation
                                                   Instrument for
4/13/2011    Bank (AmTrust Bank),   Purchase                                          $0    N/A          3                                                                                                             $13,344      $34,310            $22,004                 $69,658
                                                   Home Loan                                                   12/27/2012               ($3)      $799,962    Updated due to quarterly assessment and reallocation
             Cleveland, OH
                                                   Modifications
                                                                                                                3/25/2013              ($12)      $799,950    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013               ($5)      $799,945    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013          $150,000       $949,945    Transfer of cap due to servicing transfer
                                                                                                                9/27/2013               ($2)      $949,943    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013           ($3,454)      $946,489    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014             ($121)      $946,368    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                           (CONTINUED)
                                                                                                             Adjustment
           Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                       Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                            Lenders/                                 Total TARP
                                  Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                           Borrower’s    Investors         Servicers                Incentive
Date       Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              9/30/2009         $290,000         $430,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                             12/30/2009         $210,000         $640,000
                                                                                                                                                             program initial cap
                                                                                                              3/26/2010         $170,000         $810,000    Updated portfolio data from servicer
                                                                                                              7/14/2010         ($10,000)        $800,000    Updated portfolio data from servicer
                                                                                                              9/30/2010         ($74,722)        $725,278    Updated portfolio data from servicer
                                                                                                               1/6/2011              ($1)        $725,277    Updated due to quarterly assessment and reallocation
                                                                                                              3/30/2011              ($1)        $725,276    Updated due to quarterly assessment and reallocation
                                                 Financial
           Oakland Municipal                                                                                  4/13/2011        ($200,000)        $525,276    Transfer of cap due to servicing transfer
                                                 Instrument for
8/5/2009   Credit Union,          Purchase                                   $140,000     N/A          6                                                                                                                   $0       $3,568            $6,500                 $10,068
                                                 Home Loan                                                    6/29/2011              ($7)        $525,269    Updated due to quarterly assessment and reallocation
           Oakland, CA
                                                 Modifications
                                                                                                              7/22/2011        ($515,201)         $10,068    Termination of SPA
                                                                                                              6/12/2009    ($105,620,000)    $553,380,000    Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              9/30/2009     $102,580,000     $655,960,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                             12/30/2009     $277,640,000     $933,600,000
                                                                                                                                                             program initial cap
                                                                                                              3/26/2010       $46,860,000    $980,460,000    Updated portfolio data from servicer
                                                                                                              6/16/2010     $156,050,000    $1,136,510,000   Transfer of cap due to servicing transfer
                                                                                                              7/14/2010    ($191,610,000)    $944,900,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                         463
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)                                                                                                                                                                                                 464
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                               TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                  Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                              Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                    Incentives      Incentives        Incentives               Payments
                                                                                                               7/16/2010       $23,710,000     $968,610,000    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/15/2010         $100,000      $968,710,000
                                                                                                                                                               program initial cap
                                                                                                               9/30/2010        $3,742,740     $972,452,740    Updated portfolio data from servicer
                                                                                                              10/15/2010     $170,800,000     $1,143,252,740   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011           ($1,020)   $1,143,251,720   Updated due to quarterly assessment and reallocation
                                                                                                               2/16/2011         $900,000     $1,144,151,720   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011           ($1,114)   $1,144,150,606   Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011         ($10,044)    $1,144,140,562   Updated due to quarterly assessment and reallocation
                                                                                                              10/14/2011        ($100,000)    $1,144,040,562   Transfer of cap due to servicing transfer
                                                                                                               1/13/2012     $194,800,000     $1,338,840,562   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012         $400,000     $1,339,240,562   Transfer of cap due to servicing transfer
                                                                                                               3/15/2012         $100,000     $1,339,340,562   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                               5/16/2012     $123,530,000     $1,462,870,562   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012     $354,290,000     $1,817,160,562   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($6,308)   $1,817,154,254   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012       $10,080,000    $1,827,234,254   Transfer of cap due to servicing transfer
                                                                                                               8/16/2012        $8,390,000    $1,835,624,254   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012         ($10,733)    $1,835,613,521   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012       $14,560,000    $1,850,173,521   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012       $13,240,000    $1,863,413,521   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012        $2,080,000    $1,865,493,521   Transfer of cap due to servicing transfer
                                                  Financial
            Ocwen Loan Servicing
                                                  Instrument for                                              12/27/2012           ($1,015)   $1,865,492,506   Updated due to quarterly assessment and reallocation
4/16/2009   LLC,                   Purchase                               $659,000,000     N/A                                                                                                                        $172,504,645   $558,427,494      $244,538,381           $975,470,521
                                                  Home Loan
            West Palm Beach, FL                                                                                1/16/2013         $410,000     $1,865,902,506   Transfer of cap due to servicing transfer
                                                  Modifications
                                                                                                               2/14/2013         $960,000     $1,866,862,506   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013       $83,880,000    $1,950,742,506   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013           ($1,877)   $1,950,740,629   Updated due to quarterly assessment and reallocation
                                                                                                                4/9/2013     $157,237,929     $2,107,978,558   Transfer of cap due to servicing transfer
                                                                                                               4/16/2013     $620,860,000     $2,728,838,558   Transfer of cap due to servicing transfer
                                                                                                               5/16/2013       $18,970,000    $2,747,808,558   Transfer of cap due to servicing transfer
                                                                                                               6/14/2013        ($190,000)    $2,747,618,558   Transfer of cap due to servicing transfer
                                                                                                               6/27/2013           ($2,817)   $2,747,615,741   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013       $14,710,000    $2,762,325,741   Transfer of cap due to servicing transfer
                                                                                                               9/16/2013       $66,170,000    $2,828,495,741   Transfer of cap due to servicing transfer
                                                                                                               9/27/2013            ($276)    $2,828,495,465   Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013     $267,580,000     $3,096,075,465   Transfer of cap due to servicing transfer
                                                                                                              11/14/2013        $4,290,000    $3,100,365,465   Transfer of cap due to servicing transfer
                                                                                                              12/16/2013     $280,370,000     $3,380,735,465   Transfer of cap due to servicing transfer
                                                                                                              12/23/2013       $49,286,732    $3,430,022,197   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014       $51,180,000    $3,481,202,197   Transfer of cap due to servicing transfer
                                                                                                               1/31/2014     $765,231,390     $4,246,433,587   Transfer of cap due to merger/acquisition
                                                                                                               2/13/2014       $38,900,000    $4,285,333,587   Transfer of cap due to servicing transfer
                                                                                                               2/27/2014     $360,860,500     $4,646,194,086   Transfer of cap due to merger/acquisition
                                                                                                               3/14/2014       $25,080,000    $4,671,274,086   Transfer of cap due to servicing transfer
                                                                                                               3/26/2014        ($167,651)    $4,671,106,435   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                       Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                              TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                 Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives        Incentives               Payments
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               10/2/2009     $145,800,000      $814,240,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                              12/30/2009    $1,355,930,000    $2,170,170,000
                                                                                                                                                               program initial cap
                                                                                                               3/26/2010     $121,180,000     $2,291,350,000   Updated portfolio data from servicer
                                                                                                               7/14/2010    ($408,850,000)    $1,882,500,000   Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2010        $5,500,000    $1,888,000,000
                                                                                                                                                               program initial cap
                                                                                                               9/30/2010      ($51,741,163)   $1,836,258,837   Updated portfolio data from servicer
                                                                                                                1/6/2011           ($2,282)   $1,836,256,555   Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011           ($2,674)   $1,836,253,881   Updated due to quarterly assessment and reallocation
                                                                                                               6/29/2011          ($24,616)   $1,836,229,265   Updated due to quarterly assessment and reallocation

                                                  Financial                                                    6/28/2012          ($15,481)   $1,836,213,784   Updated due to quarterly assessment and reallocation
            OneWest Bank,                         Instrument for                                               9/27/2012          ($40,606)   $1,836,173,178   Updated due to quarterly assessment and reallocation
8/28/2009                          Purchase                               $668,440,000     N/A                                                                                                                        $61,349,149   $205,703,540       $85,769,864           $352,822,553
            Pasadena, CA                          Home Loan
                                                  Modifications                                               12/27/2012           ($6,688)   $1,836,166,490   Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013          ($24,811)   $1,836,141,679   Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013           ($9,058)   $1,836,132,621   Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013           ($3,154)   $1,836,129,467   Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013        ($500,000)    $1,835,629,467   Transfer of cap due to servicing transfer
                                                                                                              11/14/2013       ($4,440,000)   $1,831,189,467   Transfer of cap due to servicing transfer
                                                                                                              12/16/2013    ($277,680,000)    $1,553,509,467   Transfer of cap due to servicing transfer
                                                                                                              12/23/2013       ($5,188,787)   $1,548,320,680   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014      ($25,750,000)   $1,522,570,680   Transfer of cap due to servicing transfer
                                                                                                               2/13/2014          ($10,000)   $1,522,560,680   Transfer of cap due to servicing transfer
                                                                                                               3/14/2014       ($6,240,000)   $1,516,320,680   Transfer of cap due to servicing transfer
                                                                                                               3/26/2014        ($181,765)    $1,516,138,915   Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               10/2/2009          $460,000       $2,530,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                              12/30/2009        $2,730,000       $5,260,000
                                                                                                                                                               program initial cap
                                                                                                               3/26/2010       $13,280,000      $18,540,000    Updated portfolio data from servicer
                                                                                                               7/14/2010      ($13,540,000)      $5,000,000    Updated portfolio data from servicer
                                                                                                               9/30/2010        $1,817,613       $6,817,613    Updated portfolio data from servicer
                                                                                                                1/6/2011              ($10)      $6,817,603    Updated due to quarterly assessment and reallocation
                                                  Financial                                                    3/30/2011              ($12)      $6,817,591    Updated due to quarterly assessment and reallocation
            ORNL Federal Credit                   Instrument for
9/11/2009                          Purchase                                  $2,070,000    N/A                 6/29/2011             ($115)      $6,817,476    Updated due to quarterly assessment and reallocation      $17,941        $32,826            $42,073                 $92,840
            Union, Oak Ridge, TN                  Home Loan
                                                  Modifications                                                6/28/2012              ($86)      $6,817,390    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012             ($236)      $6,817,154    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012              ($40)      $6,817,114    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013             ($149)      $6,816,965    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013              ($56)      $6,816,909    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013              ($20)      $6,816,889    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013          ($33,979)      $6,782,910    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014           ($1,192)      $6,781,718    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                               465
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)                                                                                                                                                                                            466
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                          TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s      Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010           $40,000       $800,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010          $140,000       $940,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        ($140,000)       $800,000    Updated portfolio data from servicer
                                                   Financial                                                    9/30/2010           $70,334       $870,334    Updated portfolio data from servicer
             Park View Federal
                                                   Instrument for
12/16/2009   Savings Bank,          Purchase                                   $760,000     N/A          6                                                                                                             $11,000       $23,937            $19,000                 $53,937
                                                   Home Loan                                                     1/6/2011               ($1)      $870,333    Updated due to quarterly assessment and reallocation
             Solon, OH
                                                   Modifications
                                                                                                                3/30/2011               ($1)      $870,332    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011              ($12)      $870,320    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012              ($10)      $870,310    Updated due to quarterly assessment and reallocation
                                                                                                                9/14/2012        ($816,373)        $53,937    Termination of SPA
                                                                                                                9/30/2010        $2,181,334     $3,481,334    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($5)    $3,481,329    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($6)    $3,481,323    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                6/29/2011              ($58)    $3,481,265    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012              ($43)    $3,481,222    Updated due to quarterly assessment and reallocation
                                                   Financial
             Pathfinder Bank,                      Instrument for                                               9/27/2012             ($119)    $3,481,103    Updated due to quarterly assessment and reallocation
8/25/2010                           Purchase                                  $1,300,000    N/A                                                                                                                         $5,717         $8,664           $13,806                 $28,187
             Oswego, NY                            Home Loan                                                   12/27/2012              ($20)    $3,481,083    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                3/25/2013              ($76)    $3,481,007    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013              ($29)    $3,480,978    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013              ($10)    $3,480,968    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013          ($17,421)    $3,463,547    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014             ($612)    $3,462,935    Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009       ($1,200,000)    $5,010,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009       $30,800,000    $35,810,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010       $23,200,000    $59,010,000    Updated portfolio data from servicer
                                                                                                                6/16/2010        $2,710,000    $61,720,000    Transfer of cap due to servicing transfer
                                                                                                                7/14/2010      ($18,020,000)   $43,700,000    Updated portfolio data from servicer
                                                                                                                7/16/2010        $6,680,000    $50,380,000    Transfer of cap due to servicing transfer
                                                                                                                8/13/2010        $2,600,000    $52,980,000    Transfer of cap due to servicing transfer
                                                                                                                9/15/2010        ($100,000)    $52,880,000    Transfer of cap due to servicing transfer
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2010          $200,000    $53,080,000
                                                                                                                                                              program initial cap

                                                   Financial                                                    9/30/2010       ($1,423,197)   $51,656,803    Updated portfolio data from servicer
             PennyMac Loan
                                                   Instrument for                                              11/16/2010        $1,400,000    $53,056,803    Transfer of cap due to servicing transfer
8/12/2009    Services, LLC,         Purchase                                  $6,210,000    N/A                                                                                                                      $6,828,698   $17,976,004        $8,726,241             $33,530,943
                                                   Home Loan
             Calasbasa, CA
                                                   Modifications                                               12/15/2010        ($100,000)    $52,956,803    Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011              ($72)   $52,956,731    Updated due to quarterly assessment and reallocation
                                                                                                                1/13/2011        $4,100,000    $57,056,731    Transfer of cap due to servicing transfer
                                                                                                                2/16/2011        ($100,000)    $56,956,731    Transfer of cap due to servicing transfer
                                                                                                                3/16/2011        $4,000,000    $60,956,731    Transfer of cap due to servicing transfer
                                                                                                                3/30/2011              ($94)   $60,956,637    Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011        ($100,000)    $60,856,637    Transfer of cap due to servicing transfer
                                                                                                                5/13/2011        $5,800,000    $66,656,637    Transfer of cap due to servicing transfer
                                                                                                                6/16/2011          $600,000    $67,256,637    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011             ($812)   $67,255,825    Updated due to quarterly assessment and reallocation
                                                                                                                7/14/2011        $2,500,000    $69,755,825    Transfer of cap due to servicing transfer
                                                                                                                9/15/2011        $2,800,000    $72,555,825    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                               10/14/2011         $300,000      $72,855,825   Transfer of cap due to servicing transfer
                                                                                                               11/16/2011         $900,000      $73,755,825   Transfer of cap due to servicing transfer
                                                                                                               12/15/2011         $800,000      $74,555,825   Transfer of cap due to servicing transfer
                                                                                                                1/13/2012         $200,000      $74,755,825   Transfer of cap due to servicing transfer
                                                                                                                3/15/2012        $1,900,000     $76,655,825   Transfer of cap due to servicing transfer
                                                                                                                4/16/2012         $200,000      $76,855,825   Transfer of cap due to servicing transfer
                                                                                                                6/14/2012        $1,340,000     $78,195,825   Transfer of cap due to servicing transfer
                                                                                                                6/28/2012             ($340)    $78,195,485   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2012        $2,930,000     $81,125,485   Transfer of cap due to servicing transfer
                                                                                                                8/16/2012         $890,000      $82,015,485   Transfer of cap due to servicing transfer
                                                                                                                9/27/2012             ($974)    $82,014,511   Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012        $1,800,000     $83,814,511   Transfer of cap due to servicing transfer
                                                                                                               12/14/2012        $3,860,000     $87,674,511   Transfer of cap due to servicing transfer
                                                                                                               12/27/2012             ($154)    $87,674,357   Updated due to quarterly assessment and reallocation
                                                                                                                2/14/2013        $2,980,000     $90,654,357   Transfer of cap due to servicing transfer
                                                                                                                3/25/2013             ($506)    $90,653,851   Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013        $2,160,000     $92,813,851   Transfer of cap due to servicing transfer
                                                                                                                6/14/2013        $2,440,000     $95,253,851   Transfer of cap due to servicing transfer
                                                                                                                6/27/2013             ($128)    $95,253,723   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013               ($7)    $95,253,716   Updated due to quarterly assessment and reallocation
                                                                                                               10/15/2013        $4,450,000     $99,703,716   Transfer of cap due to servicing transfer
                                                                                                               12/23/2013       $15,826,215    $115,529,931   Updated due to quarterly assessment and reallocation
                                                                                                                2/13/2014        $5,130,000    $120,659,931   Transfer of cap due to servicing transfer
                                                                                                                3/14/2014       ($2,390,000)   $118,269,931   Transfer of cap due to servicing transfer
                                                                                                                3/26/2014        $2,017,426    $120,287,357   Updated due to quarterly assessment and reallocation
                                                                                                                9/15/2011        $1,300,000      $1,300,000   Transfer of cap due to servicing transfer
                                                                                                                6/28/2012              ($15)     $1,299,985   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012              ($42)     $1,299,943   Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012         $140,000       $1,439,943   Transfer of cap due to servicing transfer

                                                   Financial                                                   12/27/2012               ($8)     $1,439,935   Updated due to quarterly assessment and reallocation
             PHH Mortgage
                                                   Instrument for
9/15/2011    Corporation,           Purchase                                          $0    N/A          3      3/25/2013              ($30)     $1,439,905   Updated due to quarterly assessment and reallocation     $36,729     $53,822            $41,792                $132,343
                                                   Home Loan
             Mt. Laurel, NJ
                                                   Modifications                                                6/27/2013              ($11)     $1,439,894   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013        $5,850,000      $7,289,894   Transfer of cap due to servicing transfer
                                                                                                                9/27/2013              ($20)     $7,289,874   Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013          ($34,545)     $7,255,329   Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014           ($1,216)     $7,254,113   Updated due to quarterly assessment and reallocation
                                                   Financial
             Plaza Home Mortgage,                  Instrument for
11/14/2013                          Purchase                                          $0    N/A          3     11/14/2013           $10,000        $10,000    Transfer of cap due to servicing transfer
             Inc, San Diego, CA                    Home Loan
                                                   Modifications
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                          467
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)                                                                                                                                                                                          468
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009      ($36,240,000)   $18,230,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       $19,280,000    $37,510,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010        $2,470,000    $39,980,000    Updated portfolio data from servicer
                                                                                                               7/14/2010      ($17,180,000)   $22,800,000    Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2010       $35,500,000    $58,300,000
                                                                                                                                                             program initial cap
                                                                                                               9/30/2010       $23,076,191    $81,376,191    Updated portfolio data from servicer
                                                                                                                1/6/2011             ($123)   $81,376,068    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011             ($147)   $81,375,921    Updated due to quarterly assessment and reallocation
                                                  Financial
            PNC Bank, National                                                                                 5/13/2011        ($100,000)    $81,275,921    Transfer of cap due to servicing transfer
                                                  Instrument for
7/17/2009   Association,            Purchase                               $54,470,000     N/A                                                                                                                       $158,042    $978,506           $494,750              $1,631,298
                                                  Home Loan                                                    6/29/2011           ($1,382)   $81,274,539    Updated due to quarterly assessment and reallocation
            Pittsburgh, PA
                                                  Modifications
                                                                                                              10/14/2011        ($300,000)    $80,974,539    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                               6/28/2012           ($1,003)   $80,973,536    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012           ($2,745)   $80,970,791    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012             ($460)   $80,970,331    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013           ($1,740)   $80,968,591    Updated due to quarterly assessment and reallocation
                                                                                                                4/9/2013           $60,000    $81,028,591    Transfer of cap due to merger/acquisition
                                                                                                               6/27/2013             ($656)   $81,027,935    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013             ($234)   $81,027,701    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013        ($394,926)    $80,632,775    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014          ($13,845)   $80,618,930    Updated due to quarterly assessment and reallocation
                                                  Financial
            PrimeWest Mortgage
                                                  Instrument for
3/15/2012   Corporation,            Purchase                                         $0    N/A          3      3/15/2012          $100,000       $100,000    Transfer of cap due to servicing transfer                     $0           $0                 $0                      $0
                                                  Home Loan
            Lubbock, TX
                                                  Modifications
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009          ($60,000)    $1,030,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009        $1,260,000     $2,290,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010        $2,070,000     $4,360,000    Updated portfolio data from servicer
                                                                                                               7/14/2010       ($3,960,000)      $400,000    Updated portfolio data from servicer
                                                                                                               9/30/2010          $180,222       $580,222    Updated portfolio data from servicer
                                                                                                                1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
                                                  Financial                                                    3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
            Purdue Employees
                                                  Instrument for
7/29/2009   Federal Credit Union,   Purchase                                 $1,090,000    N/A                 6/29/2011               ($8)      $580,212    Updated due to quarterly assessment and reallocation      $3,000       $2,253            $4,000                  $9,253
                                                  Home Loan
            West Lafayette, IN
                                                  Modifications                                                6/28/2012               ($6)      $580,206    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012              ($17)      $580,189    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012               ($3)      $580,186    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013              ($11)      $580,175    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013               ($4)      $580,171    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013               ($1)      $580,170    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013           ($2,474)      $577,696    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014              ($87)      $577,609    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                              (CONTINUED)
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                 3/26/2010          ($10,000)       $10,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010           $90,000       $100,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010           $45,056       $145,056    Updated portfolio data from servicer

                                                    Financial                                                    6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
             QLending, Inc.,                        Instrument for
11/18/2009                            Purchase                                    $20,000    N/A                 6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
             Coral Gables, FL                       Home Loan
                                                    Modifications                                                9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010          $890,000    $19,850,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010        $3,840,000    $23,690,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($2,890,000)   $20,800,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010        $9,661,676    $30,461,676    Updated portfolio data from servicer
                                                                                                                  1/6/2011              ($46)   $30,461,630    Updated due to quarterly assessment and reallocation
                                                                                                                 1/13/2011        $1,600,000    $32,061,630    Transfer of cap due to servicing transfer
                                                                                                                 2/16/2011        $1,400,000    $33,461,630    Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011              ($58)   $33,461,572    Updated due to quarterly assessment and reallocation
                                                                                                                 4/13/2011          $100,000    $33,561,572    Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011          $100,000    $33,661,572    Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011          $800,000    $34,461,572    Transfer of cap due to servicing transfer
                                                                                                                 6/29/2011             ($559)   $34,461,013    Updated due to quarterly assessment and reallocation
                                                                                                                 7/14/2011          $300,000    $34,761,013    Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011          $200,000    $34,961,013    Transfer of cap due to servicing transfer
                                                    Financial
             Quantum Servicing                      Instrument for                                               9/15/2011          $100,000    $35,061,013    Transfer of cap due to servicing transfer
11/18/2009                            Purchase                               $18,960,000     N/A          6                                                                                                            $133,393    $332,061           $179,984                $645,439
             Corporation, Tampa, FL                 Home Loan
                                                    Modifications                                                1/13/2012          $100,000    $35,161,013    Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012          $330,000    $35,491,013    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012             ($428)   $35,490,585    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012           ($1,184)   $35,489,401    Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012       ($1,910,000)   $33,579,401    Transfer of cap due to servicing transfer
                                                                                                                11/15/2012        ($980,000)    $32,599,401    Transfer of cap due to servicing transfer
                                                                                                                12/27/2012             ($187)   $32,599,214    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013             ($707)   $32,598,507    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013        ($240,000)    $32,358,507    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013             ($268)   $32,358,239    Updated due to quarterly assessment and reallocation
                                                                                                                 7/16/2013           $10,000    $32,368,239    Transfer of cap due to servicing transfer
                                                                                                                 9/27/2013              ($96)   $32,368,143    Updated due to quarterly assessment and reallocation
                                                                                                                11/14/2013          ($20,000)   $32,348,143    Transfer of cap due to servicing transfer
                                                                                                                12/23/2013        ($162,518)    $32,185,625    Updated due to quarterly assessment and reallocation
                                                                                                                 2/27/2014      ($31,540,186)      $645,439    Termination of SPA

                                                    Financial                                                   12/14/2012           $10,000        $10,000    Transfer of cap due to servicing transfer
             Quicken Loans Inc,                     Instrument for
12/14/2012                            Purchase                                         $0    N/A          3      8/15/2013           $10,000        $20,000    Transfer of cap due to servicing transfer                     $0           $0                 $0                      $0
             Detroit, MI                            Home Loan
                                                    Modifications                                                3/14/2014           $30,000        $50,000    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           469
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)                                                                                                                                                                                           470
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                               9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                1/6/2011           $34,944       $180,000    Updated due to quarterly assessment and reallocation

                                                  Financial                                                    3/30/2011           $40,000       $220,000    Updated due to quarterly assessment and reallocation
            RBC Bank (USA),                       Instrument for
9/1/2010                           Purchase                                   $100,000     N/A          9      6/29/2011           $50,000       $270,000    Updated due to quarterly assessment and reallocation          $0           $0                  $0                      $0
            Raleigh, NC                           Home Loan
                                                  Modifications                                                3/15/2012        ($200,000)        $70,000    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012          ($10,000)       $60,000    Transfer of cap due to servicing transfer
                                                                                                                4/9/2013          ($60,000)             $-   Termination of SPA
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009       ($1,860,000)   $17,540,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009       $27,920,000    $45,460,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010       ($1,390,000)   $44,070,000    Updated portfolio data from servicer
                                                                                                               7/14/2010      ($13,870,000)   $30,200,000    Updated portfolio data from servicer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                               9/30/2010          $400,000    $30,600,000
                                                                                                                                                             program initial cap
                                                                                                               9/30/2010          $586,954    $31,186,954    Updated portfolio data from servicer
                                                                                                                1/6/2011              ($34)   $31,186,920    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011              ($37)   $31,186,883    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011          $100,000    $31,286,883    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011             ($329)   $31,286,554    Updated due to quarterly assessment and reallocation
                                                                                                               9/15/2011       ($1,900,000)   $29,386,554    Transfer of cap due to servicing transfer
                                                                                                              11/16/2011        $2,800,000    $32,186,554    Transfer of cap due to servicing transfer
                                                                                                               5/16/2012          $420,000    $32,606,554    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        $8,060,000    $40,666,554    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012             ($313)   $40,666,241    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012        $2,160,000    $42,826,241    Transfer of cap due to servicing transfer

                                                  Financial                                                    9/27/2012             ($911)   $42,825,330    Updated due to quarterly assessment and reallocation
            Residential Credit
                                                  Instrument for                                              10/16/2012        $5,690,000    $48,515,330    Transfer of cap due to servicing transfer
6/12/2009   Solutions,             Purchase                                $19,400,000     N/A                                                                                                                      $2,161,567   $5,911,245        $3,011,136             $11,083,949
                                                  Home Loan
            Fort Worth, TX
                                                  Modifications                                               11/15/2012           $20,000    $48,535,330    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012             ($178)   $48,535,152    Updated due to quarterly assessment and reallocation
                                                                                                               2/14/2013        $3,190,000    $51,725,152    Transfer of cap due to servicing transfer
                                                                                                               3/14/2013        ($260,000)    $51,465,152    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013             ($713)   $51,464,439    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013        $1,330,000    $52,794,439    Transfer of cap due to servicing transfer
                                                                                                               5/16/2013          $100,000    $52,894,439    Transfer of cap due to servicing transfer
                                                                                                               6/14/2013           $20,000    $52,914,439    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013             ($264)   $52,914,175    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013        $6,080,000    $58,994,175    Transfer of cap due to servicing transfer
                                                                                                               9/16/2013       ($2,130,000)   $56,864,175    Transfer of cap due to servicing transfer
                                                                                                               9/27/2013             ($101)   $56,864,074    Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013        $6,910,000    $63,774,074    Transfer of cap due to servicing transfer
                                                                                                              12/16/2013       ($1,050,000)   $62,724,074    Transfer of cap due to servicing transfer
                                                                                                              12/23/2013        ($173,584)    $62,550,490    Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014        $1,310,000    $63,860,490    Transfer of cap due to servicing transfer
                                                                                                               2/13/2014       ($2,210,000)   $61,650,490    Transfer of cap due to servicing transfer
                                                                                                               3/14/2014       ($1,390,000)   $60,260,490    Transfer of cap due to servicing transfer
                                                                                                               3/26/2014           ($5,632)   $60,254,858    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                               6/14/2012          $940,000       $940,000    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012          $205,242     $1,145,242    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012               ($3)    $1,145,239    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012               ($1)    $1,145,238    Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013           $10,000     $1,155,238    Transfer of cap due to servicing transfer
                                                                                                               2/14/2013        $8,690,000     $9,845,238    Transfer of cap due to servicing transfer
                                                                                                               3/14/2013        $1,390,000    $11,235,238    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013             ($219)   $11,235,019    Updated due to quarterly assessment and reallocation
                                                                                                               5/16/2013          $620,000    $11,855,019    Transfer of cap due to servicing transfer

                                                  Financial                                                    6/14/2013          $990,000    $12,845,019    Transfer of cap due to servicing transfer
            Resurgent Capital
                                                  Instrument for
6/14/2012   Solutions, LP,         Purchase                                          $0    N/A          3      6/27/2013              ($96)   $12,844,923    Updated due to quarterly assessment and reallocation    $350,903    $843,824           $443,693              $1,638,420
                                                  Home Loan
            Greenville, SC
                                                  Modifications                                                7/16/2013        $5,780,000    $18,624,923    Transfer of cap due to servicing transfer
                                                                                                               9/27/2013              ($50)   $18,624,873    Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013          $880,000    $19,504,873    Transfer of cap due to servicing transfer
                                                                                                              11/14/2013        $6,610,000    $26,114,873    Transfer of cap due to servicing transfer
                                                                                                              12/16/2013           $20,000    $26,134,873    Transfer of cap due to servicing transfer
                                                                                                              12/23/2013        ($118,329)    $26,016,544    Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014        $1,770,000    $27,786,544    Transfer of cap due to servicing transfer
                                                                                                               2/13/2014       $23,920,000    $51,706,544    Transfer of cap due to servicing transfer
                                                                                                               3/14/2014        $1,460,000    $53,166,544    Transfer of cap due to servicing transfer
                                                                                                               3/26/2014           ($7,186)   $53,159,358    Updated due to quarterly assessment and reallocation
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009      ($11,300,000)   $45,700,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009      ($42,210,000)    $3,490,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010       $65,640,000    $69,130,000    Updated portfolio data from servicer
                                                                                                                4/9/2010      ($14,470,000)   $54,660,000    Updated portfolio data from servicer
                                                                                                               7/14/2010       ($8,860,000)   $45,800,000    Updated portfolio data from servicer
                                                                                                               9/30/2010       ($4,459,154)   $41,340,846    Updated portfolio data from servicer
                                                                                                              12/15/2010       ($4,300,000)   $37,040,846    Transfer of cap due to servicing transfer
                                                  Financial                                                     1/6/2011              ($51)   $37,040,795    Updated due to quarterly assessment and reallocation
            RG Mortgage
                                                  Instrument for
6/17/2009   Corporation,           Purchase                                $57,000,000     N/A                 3/30/2011              ($65)   $37,040,730    Updated due to quarterly assessment and reallocation    $164,853    $227,582           $401,334                $793,769
                                                  Home Loan
            San Juan, PR
                                                  Modifications                                                6/29/2011             ($616)   $37,040,114    Updated due to quarterly assessment and reallocation
                                                                                                               6/28/2012             ($462)   $37,039,652    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2012           ($1,270)   $37,038,382    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012             ($214)   $37,038,168    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013             ($812)   $37,037,356    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013             ($306)   $37,037,050    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013             ($110)   $37,036,940    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013        ($185,423)    $36,851,517    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2014           ($6,518)   $36,844,999    Updated due to quarterly assessment and reallocation
                                                                                                               3/26/2010          $610,000       $850,000    Updated portfolio data from servicer

                                                  Financial                                                    7/14/2010           $50,000       $900,000    Updated portfolio data from servicer
            Roebling Bank,                        Instrument for
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




1/13/2010                          Purchase                                   $240,000     N/A                 9/30/2010          ($29,666)      $870,334    Updated portfolio data from servicer                          $0           $0                 $0                      $0
            Roebling, NJ                          Home Loan
                                                  Modifications                                                 1/6/2011               ($1)      $870,333    Updated due to quarterly assessment and reallocation
                                                                                                               3/23/2011        ($870,333)             $0    Termination of SPA
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         471
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)                                                                                                                                                                                          472
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                10/2/2009         $130,000        $700,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        ($310,000)       $390,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010        $2,110,000     $2,500,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        $8,300,000    $10,800,000    Updated portfolio data from servicer
                                                                                                                9/30/2010        $5,301,172    $16,101,172    Updated portfolio data from servicer
                                                                                                                 1/6/2011              ($22)   $16,101,150    Updated due to quarterly assessment and reallocation
                                                                                                                3/16/2011        ($400,000)    $15,701,150    Transfer of cap due to servicing transfer
                                                                                                                3/30/2011              ($25)   $15,701,125    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011            ($232)    $15,700,893    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012            ($174)    $15,700,719    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012            ($479)    $15,700,240    Updated due to quarterly assessment and reallocation
                                                   Financial                                                   11/15/2012        ($350,000)    $15,350,240    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




            RoundPoint Mortgage
                                                   Instrument for
8/28/2009   Servicing Corporation,   Purchase                                  $570,000     N/A                12/27/2012              ($82)   $15,350,158    Updated due to quarterly assessment and reallocation    $265,868    $650,525           $495,684              $1,412,077
                                                   Home Loan
            Charlotte, NC
                                                   Modifications                                                3/25/2013            ($308)    $15,349,850    Updated due to quarterly assessment and reallocation
                                                                                                                4/16/2013          $80,000     $15,429,850    Transfer of cap due to servicing transfer
                                                                                                                6/14/2013          $20,000     $15,449,850    Transfer of cap due to servicing transfer
                                                                                                                6/27/2013            ($108)    $15,449,742    Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013          $30,000     $15,479,742    Transfer of cap due to servicing transfer
                                                                                                                9/16/2013         $640,000     $16,119,742    Transfer of cap due to servicing transfer
                                                                                                                9/27/2013              ($40)   $16,119,702    Updated due to quarterly assessment and reallocation
                                                                                                               12/16/2013         $190,000     $16,309,702    Transfer of cap due to servicing transfer
                                                                                                               12/23/2013         ($67,286)    $16,242,416    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014         $520,000     $16,762,416    Transfer of cap due to servicing transfer
                                                                                                                2/13/2014          $10,000     $16,772,416    Transfer of cap due to servicing transfer
                                                                                                                3/14/2014         ($30,000)    $16,742,416    Transfer of cap due to servicing transfer
                                                                                                                3/26/2014           ($2,463)   $16,739,953    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                               12/15/2011         $200,000        $200,000    Transfer of cap due to servicing transfer
                                                                                                                4/16/2012         $600,000        $800,000    Transfer of cap due to servicing transfer
                                                                                                                6/28/2012               ($3)      $799,997    Updated due to quarterly assessment and reallocation
                                                                                                                8/16/2012         $110,000        $909,997    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012              ($13)      $909,984    Updated due to quarterly assessment and reallocation
                                                                                                               10/16/2012        $1,270,000     $2,179,984    Transfer of cap due to servicing transfer
                                                                                                               11/15/2012         $230,000      $2,409,984    Transfer of cap due to servicing transfer
                                                                                                               12/27/2012               ($5)    $2,409,979    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2013         $990,000      $3,399,979    Transfer of cap due to servicing transfer
                                                                                                                2/14/2013         $600,000      $3,999,979    Transfer of cap due to servicing transfer
                                                                                                                3/14/2013        $1,980,000     $5,979,979    Transfer of cap due to servicing transfer

                                                   Financial                                                    3/25/2013              ($77)    $5,979,902    Updated due to quarterly assessment and reallocation
             Rushmore Loan
                                                   Instrument for
12/15/2011   Management Services    Purchase                                          $0    N/A          3      4/16/2013         $340,000      $6,319,902    Transfer of cap due to servicing transfer              $1,219,631   $2,633,712          $672,003              $4,525,345
                                                   Home Loan
             LLC, Irvine, CA
                                                   Modifications                                                5/16/2013        $1,520,000     $7,839,902    Transfer of cap due to servicing transfer
                                                                                                                6/14/2013        $2,740,000    $10,579,902    Transfer of cap due to servicing transfer
                                                                                                                6/27/2013              ($53)   $10,579,849    Updated due to quarterly assessment and reallocation
                                                                                                                9/16/2013        $2,570,000    $13,149,849    Transfer of cap due to servicing transfer
                                                                                                                9/27/2013              ($26)   $13,149,823    Updated due to quarterly assessment and reallocation
                                                                                                               10/15/2013          $10,000     $13,159,823    Transfer of cap due to servicing transfer
                                                                                                               11/14/2013       $19,140,000    $32,299,823    Transfer of cap due to servicing transfer
                                                                                                               12/16/2013        $1,330,000    $33,629,823    Transfer of cap due to servicing transfer
                                                                                                               12/23/2013         ($60,644)    $33,569,179    Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014          $10,000     $33,579,179    Transfer of cap due to servicing transfer
                                                                                                                3/14/2014          $50,000     $33,629,179    Transfer of cap due to servicing transfer
                                                                                                                3/26/2014           ($2,090)   $33,627,089    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                           473
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)                                                                                                                                                                                               474
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                             TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                                                                               6/17/2009     $225,040,000      $632,040,000    Updated portfolio data from servicer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2009     $254,380,000      $886,420,000
                                                                                                                                                               program initial cap
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                              12/30/2009     $355,710,000     $1,242,130,000
                                                                                                                                                               program initial cap
                                                                                                               3/26/2010      ($57,720,000)   $1,184,410,000   Updated portfolio data from servicer
                                                                                                               6/16/2010    ($156,050,000)    $1,028,360,000   Transfer of cap due to servicing transfer
                                                                                                               7/14/2010    ($513,660,000)     $514,700,000    Updated portfolio data from servicer
                                                                                                               7/16/2010      ($22,980,000)    $491,720,000    Transfer of cap due to servicing transfer
                                                                                                               9/15/2010        $1,800,000     $493,520,000    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                               9/30/2010        $9,800,000     $503,320,000
                                                                                                                                                               program initial cap
                                                                                                               9/30/2010     $116,222,668      $619,542,668    Updated portfolio data from servicer
                                                                                                              10/15/2010          $100,000     $619,642,668    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                              12/15/2010        $8,900,000     $628,542,668    Transfer of cap due to servicing transfer
                                                                                                                1/6/2011             ($556)    $628,542,112    Updated due to quarterly assessment and reallocation
                                                                                                               1/13/2011        $2,300,000     $630,842,112    Transfer of cap due to servicing transfer
                                                                                                               3/16/2011          $700,000     $631,542,112    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011             ($654)    $631,541,458    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        $2,100,000     $633,641,458    Transfer of cap due to servicing transfer
                                                  Financial
            Saxon Mortgage                                                                                     6/29/2011           ($6,144)    $633,635,314    Updated due to quarterly assessment and reallocation
                                                  Instrument for
4/13/2009   Services, Inc.,        Purchase                               $407,000,000     N/A         10                                                                                                             $19,655,075   $41,738,413       $39,413,598           $100,807,086
                                                  Home Loan                                                    7/14/2011          $200,000     $633,835,314    Transfer of cap due to servicing transfer
            Irving, TX
                                                  Modifications
                                                                                                               8/16/2011        ($100,000)     $633,735,314    Transfer of cap due to servicing transfer
                                                                                                               9/15/2011        ($700,000)     $633,035,314    Transfer of cap due to servicing transfer
                                                                                                              12/15/2011       $17,500,000     $650,535,314    Transfer of cap due to servicing transfer
                                                                                                               2/16/2012        ($100,000)     $650,435,314    Transfer of cap due to servicing transfer
                                                                                                               3/15/2012          $100,000     $650,535,314    Transfer of cap due to servicing transfer
                                                                                                               4/16/2012      ($17,500,000)    $633,035,314    Transfer of cap due to servicing transfer
                                                                                                               5/16/2012        ($760,000)     $632,275,314    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012    ($354,290,000)     $277,985,314    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($1,831)    $277,983,483    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012      ($10,120,000)    $267,863,483    Transfer of cap due to servicing transfer
                                                                                                               8/16/2012          ($10,000)    $267,853,483    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012           ($4,701)    $267,848,782    Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012       ($9,220,000)    $258,628,782    Transfer of cap due to servicing transfer
                                                                                                              11/15/2012          ($30,000)    $258,598,782    Transfer of cap due to servicing transfer
                                                                                                              12/14/2012           $60,000     $258,658,782    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012             ($788)    $258,657,994    Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013        ($610,000)     $258,047,994    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013           ($2,979)    $258,045,015    Updated due to quarterly assessment and reallocation
                                                                                                                4/9/2013    ($157,237,929)     $100,807,086    Termination of SPA
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                                (CONTINUED)
                                                                                                                  Adjustment
             Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   10/2/2009          $90,000        $480,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                  12/30/2009         $940,000       $1,420,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010        ($980,000)       $440,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($140,000)       $300,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010        $1,150,556      $1,450,556   Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($2)     $1,450,554   Updated due to quarterly assessment and reallocation
                                                      Financial                                                    3/30/2011               ($2)     $1,450,552   Updated due to quarterly assessment and reallocation
             Schools Financial Credit                 Instrument for
9/23/2009                               Purchase                                  $390,000     N/A                 6/29/2011              ($22)     $1,450,530   Updated due to quarterly assessment and reallocation     $25,667     $60,099            $38,500                $124,266
             Union, Sacramento, CA                    Home Loan
                                                      Modifications                                                6/28/2012              ($16)     $1,450,514   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2012              ($44)     $1,450,470   Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012               ($7)     $1,450,463   Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013              ($28)     $1,450,435   Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013              ($11)     $1,450,424   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($4)     $1,450,420   Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($6,411)     $1,444,009   Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014            ($225)      $1,443,784   Updated due to quarterly assessment and reallocation
                                                                                                                  12/15/2010        $4,300,000      $4,300,000   Transfer of cap due to servicing transfer
                                                                                                                    1/6/2011               ($4)     $4,299,996   Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011               ($5)     $4,299,991   Updated due to quarterly assessment and reallocation
                                                                                                                   6/28/2012              ($23)     $4,299,968   Updated due to quarterly assessment and reallocation

                                                      Financial                                                    9/27/2012              ($63)     $4,299,905   Updated due to quarterly assessment and reallocation
             Scotiabank de Puerto                     Instrument for
12/15/2010                              Purchase                                         $0    N/A          3     12/27/2012              ($11)     $4,299,894   Updated due to quarterly assessment and reallocation    $514,949    $681,959           $418,009              $1,614,916
             Rico, San Juan, PR                       Home Loan
                                                      Modifications                                                3/25/2013              ($41)     $4,299,853   Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013              ($16)     $4,299,837   Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($6)     $4,299,831   Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($9,679)     $4,290,152   Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014            ($344)      $4,289,808   Updated due to quarterly assessment and reallocation
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   10/2/2009         $100,000        $540,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                  12/30/2009          $20,000        $560,000
                                                                                                                                                                 program initial cap
                                                      Financial
                                                      Instrument for                                               3/26/2010        ($290,000)       $270,000    Updated portfolio data from servicer
9/25/2009    SEFCU, Albany, NY          Purchase                                  $440,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                      Home Loan
                                                                                                                   7/14/2010         ($70,000)       $200,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                   9/30/2010         ($54,944)       $145,056    Updated portfolio data from servicer
                                                                                                                   6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation
                                                                                                                   4/11/2012        ($145,055)             $0    Termination of SPA
                                                                                                                   6/12/2009     $284,590,000     $660,590,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   9/30/2009     $121,910,000     $782,500,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                  12/30/2009     $131,340,000     $913,840,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010    ($355,530,000)    $558,310,000   Updated portfolio data from servicer
                                                                                                                   7/14/2010     $128,690,000     $687,000,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   9/30/2010        $4,000,000    $691,000,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                                                                                                   9/30/2010       $59,807,784    $750,807,784   Updated portfolio data from servicer
                                                                                                                  11/16/2010        ($700,000)    $750,107,784   Transfer of cap due to servicing transfer
                                                                                                                  12/15/2010       $64,400,000    $814,507,784   Transfer of cap due to servicing transfer
                                                                                                                    1/6/2011            ($639)    $814,507,145   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             475
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)                                                                                                                                                                                                476
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                              TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                 Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                   Incentives      Incentives        Incentives               Payments
                                                                                                               1/13/2011       ($2,300,000)    $812,207,145    Transfer of cap due to servicing transfer
                                                                                                               2/16/2011         $100,000      $812,307,145    Transfer of cap due to servicing transfer
                                                                                                               3/16/2011        $3,600,000     $815,907,145    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011             ($735)    $815,906,410    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        ($100,000)     $815,806,410    Transfer of cap due to servicing transfer
                                                                                                               5/13/2011         $400,000      $816,206,410    Transfer of cap due to servicing transfer
                                                                                                               6/16/2011        ($100,000)     $816,106,410    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011           ($6,805)    $816,099,605    Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2011        ($100,000)     $815,999,605    Transfer of cap due to servicing transfer
                                                                                                               9/15/2011        ($200,000)     $815,799,605    Transfer of cap due to servicing transfer
                                                                                                              10/14/2011        ($100,000)     $815,699,605    Transfer of cap due to servicing transfer
                                                                                                              11/16/2011        ($100,000)     $815,599,605    Transfer of cap due to servicing transfer
                                                                                                               1/13/2012         $200,000      $815,799,605    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                               3/15/2012       $24,800,000     $840,599,605    Transfer of cap due to servicing transfer
                                                                                                               4/16/2012        $1,900,000     $842,499,605    Transfer of cap due to servicing transfer
                                                                                                               5/16/2012           $80,000     $842,579,605    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        $8,710,000     $851,289,605    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($5,176)    $851,284,429    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012        $2,430,000     $853,714,429    Transfer of cap due to servicing transfer
                                                                                                               8/16/2012        $2,310,000     $856,024,429    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012          ($13,961)    $856,010,468    Updated due to quarterly assessment and reallocation

                                                  Financial                                                   10/16/2012     $126,940,000      $982,950,468    Transfer of cap due to servicing transfer
            Select Portfolio
                                                  Instrument for
4/13/2009   Servicing,             Purchase                               $376,000,000     N/A                11/15/2012        $9,990,000     $992,940,468    Transfer of cap due to servicing transfer              $85,370,773   $167,072,969      $113,345,115           $365,788,858
                                                  Home Loan
            Salt Lake City, UT
                                                  Modifications                                               12/14/2012       $10,650,000    $1,003,590,468   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012           ($2,663)   $1,003,587,805   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013       $18,650,000    $1,022,237,805   Transfer of cap due to servicing transfer
                                                                                                               2/14/2013       $10,290,000    $1,032,527,805   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013        $4,320,000    $1,036,847,805   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013          ($10,116)   $1,036,837,689   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013         $840,000     $1,037,677,689   Transfer of cap due to servicing transfer
                                                                                                               5/16/2013        $1,330,000    $1,039,007,689   Transfer of cap due to servicing transfer
                                                                                                               6/14/2013        $3,620,000    $1,042,627,689   Transfer of cap due to servicing transfer
                                                                                                               6/27/2013           ($3,564)   $1,042,624,125   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013     $105,080,000     $1,147,704,125   Transfer of cap due to servicing transfer
                                                                                                               8/15/2013           $10,000    $1,147,714,125   Transfer of cap due to servicing transfer
                                                                                                               9/16/2013       $98,610,000    $1,246,324,125   Transfer of cap due to servicing transfer
                                                                                                               9/27/2013           ($1,541)   $1,246,322,584   Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013        $1,280,000    $1,247,602,584   Transfer of cap due to servicing transfer
                                                                                                              11/14/2013       $15,130,000    $1,262,732,584   Transfer of cap due to servicing transfer
                                                                                                              12/16/2013        $6,290,000    $1,269,022,584   Transfer of cap due to servicing transfer
                                                                                                              12/23/2013       ($2,481,777)   $1,266,540,807   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014        $1,580,000    $1,268,120,807   Transfer of cap due to servicing transfer
                                                                                                               2/13/2014       $75,350,000    $1,343,470,807   Transfer of cap due to servicing transfer
                                                                                                               3/14/2014       $16,900,000    $1,360,370,807   Transfer of cap due to servicing transfer
                                                                                                               3/26/2014          ($85,696)   $1,360,285,111   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                      Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                               6/16/2010        $3,680,000     $3,680,000    Transfer of cap due to servicing transfer
                                                                                                               8/13/2010        $3,300,000     $6,980,000    Transfer of cap due to servicing transfer
                                                                                                               9/30/2010        $3,043,831    $10,023,831    Updated portfolio data from servicer
                                                                                                              10/15/2010        $1,400,000    $11,423,831    Transfer of cap due to servicing transfer
                                                                                                                1/6/2011              ($17)   $11,423,814    Updated due to quarterly assessment and reallocation
                                                                                                               3/16/2011        $2,100,000    $13,523,814    Transfer of cap due to servicing transfer
                                                                                                               3/30/2011              ($24)   $13,523,790    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        $2,900,000    $16,423,790    Transfer of cap due to servicing transfer
                                                                                                               6/16/2011        ($200,000)    $16,223,790    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011             ($273)   $16,223,517    Updated due to quarterly assessment and reallocation
                                                                                                              10/14/2011          $100,000    $16,323,517    Transfer of cap due to servicing transfer
                                                                                                              11/16/2011        $1,100,000    $17,423,517    Transfer of cap due to servicing transfer
                                                                                                               4/16/2012          $200,000    $17,623,517    Transfer of cap due to servicing transfer
                                                                                                               5/16/2012           $10,000    $17,633,517    Transfer of cap due to servicing transfer
                                                  Financial
            Selene Finance LP,                    Instrument for                                               6/14/2012        ($300,000)    $17,333,517    Transfer of cap due to servicing transfer
6/16/2010                          Purchase                                          $0    N/A          3                                                                                                             $86,398    $224,872           $104,160                $415,430
            Houston, TX                           Home Loan                                                    6/28/2012             ($218)   $17,333,299    Updated due to quarterly assessment and reallocation
                                                  Modifications
                                                                                                               7/16/2012           $40,000    $17,373,299    Transfer of cap due to servicing transfer
                                                                                                               8/16/2012          $480,000    $17,853,299    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012             ($600)   $17,852,699    Updated due to quarterly assessment and reallocation
                                                                                                              11/15/2012           $70,000    $17,922,699    Transfer of cap due to servicing transfer
                                                                                                              12/27/2012             ($102)   $17,922,597    Updated due to quarterly assessment and reallocation
                                                                                                               3/14/2013           $90,000    $18,012,597    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013             ($384)   $18,012,213    Updated due to quarterly assessment and reallocation
                                                                                                               5/16/2013          ($30,000)   $17,982,213    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013             ($146)   $17,982,067    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013          $170,000    $18,152,067    Transfer of cap due to servicing transfer
                                                                                                               9/27/2013              ($52)   $18,152,015    Updated due to quarterly assessment and reallocation
                                                                                                              12/23/2013          ($88,613)   $18,063,402    Updated due to quarterly assessment and reallocation
                                                                                                               3/14/2014           $10,000    $18,073,402    Transfer of cap due to servicing transfer
                                                                                                               3/26/2014           ($3,125)   $18,070,277    Updated due to quarterly assessment and reallocation
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2009      ($25,510,000)    $4,220,000
                                                                                                                                                             program initial cap
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                              12/30/2009          $520,000     $4,740,000
                                                                                                                                                             program initial cap
                                                                                                               3/26/2010        $4,330,000     $9,070,000    Updated portfolio data from servicer
                                                                                                               4/19/2010          $230,000     $9,300,000    Transfer of cap due to servicing transfer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               5/19/2010          $850,000    $10,150,000
                                                                                                                                                             program initial cap
                                                                                                               7/14/2010        ($850,000)     $9,300,000    Updated portfolio data from servicer
                                                                                                               9/15/2010          $100,000     $9,400,000    Transfer of cap due to servicing transfer
                                                                                                                                                             Updated portfolio data from servicer/additional
                                                                                                               9/30/2010          $100,000     $9,500,000
                                                                                                                                                             program initial cap
                                                                                                               9/30/2010       $16,755,064    $26,255,064    Updated portfolio data from servicer
                                                                                                              10/15/2010          $100,000    $26,355,064    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                                                                                              12/15/2010          $100,000    $26,455,064    Transfer of cap due to servicing transfer
                                                                                                                1/6/2011              ($40)   $26,455,024    Updated due to quarterly assessment and reallocation
                                                                                                               1/13/2011          $300,000    $26,755,024    Transfer of cap due to servicing transfer
                                                                                                               2/16/2011          $100,000    $26,855,024    Transfer of cap due to servicing transfer
                                                                                                               3/16/2011        $2,200,000    $29,055,024    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                         477




                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                          478
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                         TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                  Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors          Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives         Incentives               Payments
                                                                                                               3/30/2011              ($52)   $29,054,972    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        $1,500,000    $30,554,972    Transfer of cap due to servicing transfer
                                                                                                               5/13/2011        $1,000,000    $31,554,972    Transfer of cap due to servicing transfer
                                                                                                               6/16/2011         $100,000     $31,654,972    Transfer of cap due to servicing transfer
                                                                                                               6/29/2011             ($534)   $31,654,438    Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2011         $700,000     $32,354,438    Transfer of cap due to servicing transfer
                                                                                                               9/15/2011        ($600,000)    $31,754,438    Transfer of cap due to servicing transfer
                                                                                                              10/14/2011        $4,000,000    $35,754,438    Transfer of cap due to servicing transfer
                                                                                                              11/16/2011         $600,000     $36,354,438    Transfer of cap due to servicing transfer
                                                                                                              12/15/2011         $200,000     $36,554,438    Transfer of cap due to servicing transfer
                                                                                                               1/13/2012         $100,000     $36,654,438    Transfer of cap due to servicing transfer
                                                                                                               2/16/2012        $1,300,000    $37,954,438    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                               3/15/2012        $1,100,000    $39,054,438    Transfer of cap due to servicing transfer
                                                                                                               4/16/2012         $800,000     $39,854,438    Transfer of cap due to servicing transfer
                                                                                                               5/16/2012       ($1,080,000)   $38,774,438    Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        $1,560,000    $40,334,438    Transfer of cap due to servicing transfer
                                                                                                               6/28/2012             ($465)   $40,333,973    Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2012           $70,000    $40,403,973    Transfer of cap due to servicing transfer
                                                                                                               9/27/2012           ($1,272)   $40,402,701    Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012        $2,100,000    $42,502,701    Transfer of cap due to servicing transfer

            Servis One, Inc.,                     Financial                                                   11/15/2012        $1,340,000    $43,842,701    Transfer of cap due to servicing transfer
            dba BSI Financial                     Instrument for
8/12/2009                          Purchase                                $29,730,000     N/A                12/14/2012        $1,160,000    $45,002,701    Transfer of cap due to servicing transfer              $1,496,401   $3,458,213        $1,306,417              $6,261,032
            Services, Inc.,                       Home Loan
            Titusville, PA                        Modifications                                               12/27/2012             ($239)   $45,002,462    Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013         $210,000     $45,212,462    Transfer of cap due to servicing transfer
                                                                                                               2/14/2013        $1,790,000    $47,002,462    Transfer of cap due to servicing transfer
                                                                                                               3/14/2013        $1,920,000    $48,922,462    Transfer of cap due to servicing transfer
                                                                                                               3/25/2013             ($960)   $48,921,502    Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013         $410,000     $49,331,502    Transfer of cap due to servicing transfer
                                                                                                               5/16/2013          ($60,000)   $49,271,502    Transfer of cap due to servicing transfer
                                                                                                               6/14/2013        $1,620,000    $50,891,502    Transfer of cap due to servicing transfer
                                                                                                               6/27/2013             ($359)   $50,891,143    Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2013        $2,030,000    $52,921,143    Transfer of cap due to servicing transfer
                                                                                                               8/15/2013           $10,000    $52,931,143    Transfer of cap due to servicing transfer
                                                                                                               9/16/2013        $2,600,000    $55,531,143    Transfer of cap due to servicing transfer
                                                                                                               9/27/2013             ($135)   $55,531,008    Updated due to quarterly assessment and reallocation
                                                                                                              10/15/2013         $270,000     $55,801,008    Transfer of cap due to servicing transfer
                                                                                                              11/14/2013           $30,000    $55,831,008    Transfer of cap due to servicing transfer
                                                                                                              12/16/2013        $9,960,000    $65,791,008    Transfer of cap due to servicing transfer
                                                                                                              12/23/2013        ($239,727)    $65,551,281    Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2014        $2,090,000    $67,641,281    Transfer of cap due to servicing transfer
                                                                                                               2/13/2014        $2,450,000    $70,091,281    Transfer of cap due to servicing transfer
                                                                                                               3/14/2014        ($130,000)    $69,961,281    Transfer of cap due to servicing transfer
                                                                                                               3/26/2014           ($8,837)   $69,952,444    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                9/30/2009         $890,000      $2,300,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        $1,260,000     $3,560,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010          ($20,000)    $3,540,000    Updated portfolio data from servicer
                                                                                                                7/14/2010        ($240,000)     $3,300,000    Updated portfolio data from servicer
                                                                                                                9/30/2010         $471,446      $3,771,446    Updated portfolio data from servicer
                                                   Financial                                                     1/6/2011               ($3)    $3,771,443    Updated due to quarterly assessment and reallocation
             ShoreBank,                            Instrument for
7/17/2009                           Purchase                                  $1,410,000    N/A          6      3/30/2011               ($4)    $3,771,439    Updated due to quarterly assessment and reallocation     $49,915    $153,906           $143,165                $346,986
             Chicago, IL                           Home Loan
                                                   Modifications                                                4/13/2011       ($1,100,000)    $2,671,439    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011              ($38)    $2,671,401    Updated due to quarterly assessment and reallocation
                                                                                                                6/28/2012              ($29)    $2,671,372    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012              ($79)    $2,671,293    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012              ($13)    $2,671,280    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013              ($50)    $2,671,230    Updated due to quarterly assessment and reallocation
                                                                                                                 4/9/2013       ($2,324,244)      $346,986    Termination of SPA
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010           $90,000     $1,970,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010        $1,110,000     $3,080,000    Updated portfolio data from servicer
                                                                                                                7/14/2010       ($1,180,000)    $1,900,000    Updated portfolio data from servicer
                                                                                                                9/30/2010         $275,834      $2,175,834    Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($2)    $2,175,832    Updated due to quarterly assessment and reallocation
                                                   Financial                                                    3/30/2011               ($3)    $2,175,829    Updated due to quarterly assessment and reallocation
             Silver State Schools
                                                   Instrument for
12/9/2009    Credit Union,          Purchase                                  $1,880,000    N/A          6                                                                                                             $40,356    $176,299            $69,189                $285,844
                                                   Home Loan                                                    6/29/2011              ($26)    $2,175,803    Updated due to quarterly assessment and reallocation
             Las Vegas, NV
                                                   Modifications
                                                                                                                6/28/2012              ($21)    $2,175,782    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012              ($57)    $2,175,725    Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012              ($10)    $2,175,715    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013              ($37)    $2,175,678    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013              ($15)    $2,175,663    Updated due to quarterly assessment and reallocation
                                                                                                                 7/9/2013       ($1,889,819)      $285,844    Termination of SPA
                                                   Financial                                                   10/15/2013           $60,000        $60,000    Transfer of cap due to servicing transfer
             SN Servicing
                                                   Instrument for
10/15/2013   Corporation, Baton     Purchase                                          $0    N/A          3                                                                                                              $1,341           $0            $1,341                  $2,681
                                                   Home Loan                                                   12/16/2013           $10,000        $70,000    Transfer of cap due to servicing transfer
             Rouge, LA
                                                   Modifications
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010           $20,000       $460,000
                                                                                                                                                              program initial cap
                                                   Financial
             Sound Community                       Instrument for                                               3/26/2010        $1,430,000     $1,890,000    Updated portfolio data from servicer
12/16/2009                          Purchase                                   $440,000     N/A                                                                                                                             $0           $0                 $0                      $0
             Bank, Seattle, WA                     Home Loan
                                                   Modifications                                                7/14/2010        ($390,000)     $1,500,000    Updated portfolio data from servicer
                                                                                                                 9/8/2010       ($1,500,000)            $0    Termination of SPA
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                          479
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)                                                                                                                                                                                            480
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                          TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                   Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s      Investors         Servicers                Incentive
Date        Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives     Incentives        Incentives               Payments
                                                                                                               3/26/2010      ($51,240,000)    $12,910,000   Updated portfolio data from servicer
                                                                                                               5/14/2010        $3,000,000     $15,910,000   Transfer of cap due to servicing transfer
                                                                                                               6/16/2010        $4,860,000     $20,770,000   Transfer of cap due to servicing transfer
                                                                                                               7/14/2010        $3,630,000     $24,400,000   Updated portfolio data from servicer
                                                                                                               7/16/2010          $330,000     $24,730,000   Transfer of cap due to servicing transfer
                                                                                                               8/13/2010          $700,000     $25,430,000   Transfer of cap due to servicing transfer
                                                                                                               9/15/2010          $200,000     $25,630,000   Transfer of cap due to servicing transfer
                                                                                                               9/30/2010       ($1,695,826)    $23,934,174   Updated portfolio data from servicer
                                                                                                              11/16/2010          $200,000     $24,134,174   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011              ($32)    $24,134,142   Updated due to quarterly assessment and reallocation
                                                                                                               1/13/2011        $1,500,000     $25,634,142   Transfer of cap due to servicing transfer
                                                                                                               3/16/2011        $7,100,000     $32,734,142   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011              ($36)    $32,734,106   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                               4/13/2011        $1,000,000     $33,734,106   Transfer of cap due to servicing transfer
                                                                                                               5/13/2011          $100,000     $33,834,106   Transfer of cap due to servicing transfer
                                                                                                               6/16/2011          $300,000     $34,134,106   Transfer of cap due to servicing transfer
                                                                                                               6/29/2011             ($332)    $34,133,774   Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2011          $100,000     $34,233,774   Transfer of cap due to servicing transfer
                                                                                                               9/15/2011          $300,000     $34,533,774   Transfer of cap due to servicing transfer

                                                  Financial                                                   10/14/2011          $300,000     $34,833,774   Transfer of cap due to servicing transfer
            Specialized Loan
                                                  Instrument for
1/13/2010   Servicing, LLC,        Purchase                                $64,150,000     N/A                12/15/2011       ($1,700,000)    $33,133,774   Transfer of cap due to servicing transfer              $9,178,566   $14,399,503       $12,366,419             $35,944,488
                                                  Home Loan
            Highlands Ranch, CO
                                                  Modifications                                                1/13/2012        $1,600,000     $34,733,774   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012          $100,000     $34,833,774   Transfer of cap due to servicing transfer
                                                                                                               3/15/2012          $100,000     $34,933,774   Transfer of cap due to servicing transfer
                                                                                                               4/16/2012       $77,600,000    $112,533,774   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012           $40,000    $112,573,774   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        ($350,000)    $112,223,774   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($1,058)   $112,222,716   Updated due to quarterly assessment and reallocation
                                                                                                               7/16/2012        $4,430,000    $116,652,716   Transfer of cap due to servicing transfer
                                                                                                               8/16/2012       ($1,280,000)   $115,372,716   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012           ($3,061)   $115,369,655   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012        $5,600,000    $120,969,655   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012          $880,000    $121,849,655   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012       $24,180,000    $146,029,655   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012             ($663)   $146,028,992   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013        $2,410,000    $148,438,992   Transfer of cap due to servicing transfer
                                                                                                               2/14/2013        $6,650,000    $155,088,992   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013       ($1,450,000)   $153,638,992   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013           ($2,584)   $153,636,408   Updated due to quarterly assessment and reallocation
                                                                                                               4/16/2013        ($750,000)    $152,886,408   Transfer of cap due to servicing transfer
                                                                                                               5/16/2013       ($1,250,000)   $151,636,408   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                               (CONTINUED)
                                                                                                                 Adjustment
            Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                  6/14/2013        $3,670,000    $155,306,408   Transfer of cap due to servicing transfer
                                                                                                                  6/27/2013             ($985)   $155,305,423   Updated due to quarterly assessment and reallocation
                                                                                                                  7/16/2013       ($3,720,000)   $151,585,423   Transfer of cap due to servicing transfer
                                                                                                                  9/16/2013        ($180,000)    $151,405,423   Transfer of cap due to servicing transfer
                                                                                                                  9/27/2013             ($346)   $151,405,077   Updated due to quarterly assessment and reallocation
                                                                                                                 10/15/2013          $860,000    $152,265,077   Transfer of cap due to servicing transfer
                                                                                                                 11/14/2013        ($410,000)    $151,855,077   Transfer of cap due to servicing transfer
                                                                                                                 12/16/2013      ($10,160,000)   $141,695,077   Transfer of cap due to servicing transfer
                                                                                                                 12/23/2013        ($381,129)    $141,313,948   Updated due to quarterly assessment and reallocation
                                                                                                                  1/16/2014        $8,200,000    $149,513,948   Transfer of cap due to servicing transfer
                                                                                                                  2/13/2014       $21,910,000    $171,423,948   Transfer of cap due to servicing transfer
                                                                                                                  3/14/2014          $300,000    $171,723,948   Transfer of cap due to servicing transfer
                                                                                                                  3/26/2014          ($10,851)   $171,713,097   Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  1/22/2010           $10,000       $370,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010          $850,000      $1,220,000   Updated portfolio data from servicer

                                                     Financial                                                    7/14/2010        ($120,000)      $1,100,000   Updated portfolio data from servicer
            Spirit of Alaska Federal
                                                     Instrument for
12/9/2009   Credit Union,              Purchase                                  $360,000     N/A                                                               Updated portfolio data from servicer/additional               $0           $0                 $0                      $0
                                                     Home Loan                                                    9/30/2010          $100,000      $1,200,000
            Fairbanks, AK                                                                                                                                       program initial cap
                                                     Modifications
                                                                                                                  9/30/2010          $105,500      $1,305,500   Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($2)     $1,305,498   Updated due to quarterly assessment and reallocation
                                                                                                                  2/17/2011       ($1,305,498)            $0    Termination of SPA
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                  10/2/2009           $70,000       $370,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009        $2,680,000      $3,050,000
                                                     Financial                                                                                                  program initial cap
            Stanford Federal Credit                  Instrument for
8/28/2009                              Purchase                                  $300,000     N/A                 3/26/2010          $350,000      $3,400,000   Updated portfolio data from servicer                          $0           $0                 $0                      $0
            Union, Palo Alto, CA                     Home Loan
                                                     Modifications                                                7/14/2010       ($1,900,000)     $1,500,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010       ($1,209,889)      $290,111    Updated portfolio data from servicer
                                                                                                                  3/23/2011        ($290,111)             $0    Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                            481
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                              (CONTINUED)                                                                                                                                                                                          482
                                                                                                                Adjustment
             Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                        TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                12/15/2010        $5,000,000     $5,000,000    Transfer of cap due to servicing transfer
                                                                                                                  1/6/2011               ($7)    $4,999,993    Updated due to quarterly assessment and reallocation
                                                                                                                 2/16/2011         $500,000      $5,499,993    Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011         $100,000      $5,599,993    Transfer of cap due to servicing transfer
                                                                                                                 3/30/2011               ($9)    $5,599,984    Updated due to quarterly assessment and reallocation
                                                                                                                 6/29/2011              ($85)    $5,599,899    Updated due to quarterly assessment and reallocation
                                                                                                                11/16/2011       ($2,500,000)    $3,099,899    Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012         $200,000      $3,299,899    Transfer of cap due to servicing transfer
                                                                                                                 6/28/2012              ($40)    $3,299,859    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2012             ($100)    $3,299,759    Updated due to quarterly assessment and reallocation
                                                                                                                10/16/2012         $170,000      $3,469,759    Transfer of cap due to servicing transfer
                                                                                                                11/15/2012          ($30,000)    $3,439,759    Transfer of cap due to servicing transfer

                                                    Financial                                                   12/14/2012          ($80,000)    $3,359,759    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




             Statebridge Company,                   Instrument for
12/15/2010                            Purchase                                         $0    N/A          3     12/27/2012              ($17)    $3,359,742    Updated due to quarterly assessment and reallocation     $22,903     $90,197            $27,283                $140,383
             LLC, Denver, CO                        Home Loan
                                                    Modifications                                                1/16/2013           $50,000     $3,409,742    Transfer of cap due to servicing transfer
                                                                                                                 2/14/2013        $1,240,000     $4,649,742    Transfer of cap due to servicing transfer
                                                                                                                 3/14/2013           $90,000     $4,739,742    Transfer of cap due to servicing transfer
                                                                                                                 3/25/2013              ($90)    $4,739,652    Updated due to quarterly assessment and reallocation
                                                                                                                 4/16/2013          ($10,000)    $4,729,652    Transfer of cap due to servicing transfer
                                                                                                                 6/27/2013              ($34)    $4,729,618    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013              ($13)    $4,729,605    Updated due to quarterly assessment and reallocation
                                                                                                                11/14/2013           $60,000     $4,789,605    Transfer of cap due to servicing transfer
                                                                                                                12/23/2013          ($21,773)    $4,767,832    Updated due to quarterly assessment and reallocation
                                                                                                                 1/16/2014          ($20,000)    $4,747,832    Transfer of cap due to servicing transfer
                                                                                                                 2/13/2014           $60,000     $4,807,832    Transfer of cap due to servicing transfer
                                                                                                                 3/14/2014          ($30,000)    $4,777,832    Transfer of cap due to servicing transfer
                                                                                                                 3/26/2014             ($770)    $4,777,062    Updated due to quarterly assessment and reallocation
                                                                                                                                                               Updated portfolio data from servicer/additional
                                                                                                                 1/22/2010         $100,000      $2,350,000
                                                                                                                                                               program initial cap
                                                                                                                 3/26/2010        ($740,000)     $1,610,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010        ($710,000)       $900,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010         $550,556      $1,450,556    Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($1)    $1,450,555    Updated due to quarterly assessment and reallocation
                                                                                                                 3/30/2011               ($1)    $1,450,554    Updated due to quarterly assessment and reallocation
                                                    Financial
             Sterling Savings Bank,                 Instrument for                                               6/29/2011              ($11)    $1,450,543    Updated due to quarterly assessment and reallocation
12/9/2009                             Purchase                                 $2,250,000    N/A                                                                                                                       $188,361    $409,694           $311,728                $909,783
             Spokane, WA                            Home Loan
                                                    Modifications                                                9/27/2012           $30,907     $1,481,450    Updated due to quarterly assessment and reallocation
                                                                                                                12/27/2012           $58,688     $1,540,138    Updated due to quarterly assessment and reallocation
                                                                                                                 3/25/2013         $235,175      $1,775,313    Updated due to quarterly assessment and reallocation
                                                                                                                 6/27/2013           $84,191     $1,859,504    Updated due to quarterly assessment and reallocation
                                                                                                                 9/27/2013           $13,786     $1,873,290    Updated due to quarterly assessment and reallocation
                                                                                                                12/23/2013              ($35)    $1,873,255    Updated due to quarterly assessment and reallocation
                                                                                                                 3/26/2014           $12,095     $1,885,350    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                               (CONTINUED)
                                                                                                                 Adjustment
             Servicer Modifying Borrowers’ Loans                                                                     Details                                                                                                        TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution       Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                  9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                                                                                  6/29/2011               ($1)      $145,055    Updated due to quarterly assessment and reallocation

                                                     Financial                                                    6/28/2012               ($1)      $145,054    Updated due to quarterly assessment and reallocation
             Stockman Bank of                        Instrument for
9/30/2010                              Purchase                                  $100,000     N/A                 9/27/2012               ($2)      $145,052    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
             Montana, Miles City, MT                 Home Loan
                                                     Modifications                                                3/25/2013               ($1)      $145,051    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013             ($232)      $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014               ($8)      $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                  9/30/2010        $1,585,945     $2,465,945    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($4)    $2,465,941    Updated due to quarterly assessment and reallocation
             Suburban Mortgage                       Financial
             Company of New                          Instrument for                                               3/30/2011               ($4)    $2,465,937    Updated due to quarterly assessment and reallocation
8/4/2010                               Purchase                                  $880,000     N/A                                                                                                                             $0           $0                 $0                      $0
             Mexico,                                 Home Loan                                                    6/29/2011              ($40)    $2,465,897    Updated due to quarterly assessment and reallocation
             Albuquerque, NM                         Modifications
                                                                                                                  6/28/2012              ($30)    $2,465,867    Updated due to quarterly assessment and reallocation
                                                                                                                  8/10/2012       ($2,465,867)            $0    Termination of SPA
                                                     Financial
             Sun West Mortgage
                                                     Instrument for
1/13/2012    Company, Inc,             Purchase                                         $0    N/A          3      1/13/2012         $100,000        $100,000    Transfer of cap due to servicing transfer                     $0           $0                 $0                      $0
                                                     Home Loan
             Cerritos, CA
                                                     Modifications
                                                                                                                  4/13/2011         $100,000        $100,000    Transfer of cap due to servicing transfer
                                                                                                                  6/14/2013         $120,000        $220,000    Transfer of cap due to servicing transfer
                                                                                                                  6/27/2013               ($1)      $219,999    Updated due to quarterly assessment and reallocation

                                                     Financial                                                    7/16/2013           $10,000       $229,999    Transfer of cap due to servicing transfer
             SunTrust Mortgage,                      Instrument for
4/13/2011                              Purchase                                         $0    N/A          3     12/23/2013             ($670)      $229,329    Updated due to quarterly assessment and reallocation     $21,167      -$1,519           $10,517                 $30,165
             Inc., Richmond, VA                      Home Loan
                                                     Modifications                                                1/16/2014           $20,000       $249,329    Transfer of cap due to servicing transfer
                                                                                                                  2/13/2014           $90,000       $339,329    Transfer of cap due to servicing transfer
                                                                                                                  3/14/2014           $50,000       $389,329    Transfer of cap due to servicing transfer
                                                                                                                  3/26/2014              ($38)      $389,291    Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                 12/30/2009        $2,180,000     $2,250,000
                                                                                                                                                                program initial cap
                                                                                                                  3/26/2010        ($720,000)     $1,530,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010        ($430,000)     $1,100,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010           $60,445     $1,160,445    Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($1)    $1,160,444    Updated due to quarterly assessment and reallocation
                                                                                                                  3/30/2011               ($1)    $1,160,443    Updated due to quarterly assessment and reallocation
                                                     Financial                                                    6/29/2011              ($12)    $1,160,431    Updated due to quarterly assessment and reallocation
             Technology Credit                       Instrument for
6/26/2009                              Purchase                                    $70,000    N/A                                                                                                                        $56,000    $194,271            $75,817                $326,087
             Union, San Jose, CA                     Home Loan                                                    6/28/2012               ($9)    $1,160,422    Updated due to quarterly assessment and reallocation
                                                     Modifications
                                                                                                                  9/27/2012              ($23)    $1,160,399    Updated due to quarterly assessment and reallocation
                                                                                                                 12/27/2012               ($4)    $1,160,395    Updated due to quarterly assessment and reallocation
                                                                                                                  3/25/2013              ($13)    $1,160,382    Updated due to quarterly assessment and reallocation
                                                                                                                  6/27/2013               ($5)    $1,160,377    Updated due to quarterly assessment and reallocation
                                                                                                                  9/27/2013               ($2)    $1,160,375    Updated due to quarterly assessment and reallocation
                                                                                                                 12/23/2013           ($2,729)    $1,157,646    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2014             ($101)    $1,157,545    Updated due to quarterly assessment and reallocation
                                                                                                                  3/26/2010          ($20,000)       $90,000    Updated portfolio data from servicer
                                                     Financial
             Tempe Schools Credit                    Instrument for                                               7/14/2010           $10,000       $100,000    Updated portfolio data from servicer
12/23/2009                             Purchase                                  $110,000     N/A                                                                                                                             $0           $0                 $0                      $0
                                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




             Union, Tempe, AZ                        Home Loan                                                    9/30/2010           $45,056       $145,056    Updated portfolio data from servicer
                                                     Modifications
                                                                                                                  12/8/2010        ($145,056)             $0    Termination of SPA
                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                            483
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)                                                                                                                                                                                             484
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                           TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                           Borrower’s      Investors         Servicers                Incentive
Date         Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                   Incentives     Incentives        Incentives               Payments
                                                   Financial                                                    4/21/2010        ($150,000)             $0    Termination of SPA
             The Bryn Mawr Trust                   Instrument for
12/11/2009                           Purchase                                  $150,000     N/A          3                                                                                                              $11,197       $14,699             $8,436                 $34,331
             Co., Bryn Mawr, PA                    Home Loan                                                    6/16/2011          $100,000       $100,000    Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                1/22/2010          $290,000      $6,450,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010           $40,000      $6,490,000   Updated portfolio data from servicer
                                                                                                                7/14/2010       ($2,890,000)     $3,600,000   Updated portfolio data from servicer
                                                                                                                9/30/2010          $606,612      $4,206,612   Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($4)     $4,206,608   Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011               ($4)     $4,206,604   Updated due to quarterly assessment and reallocation
                                                   Financial                                                    6/29/2011              ($35)     $4,206,569   Updated due to quarterly assessment and reallocation
             The Golden 1 Credit                   Instrument for
12/9/2009                            Purchase                                 $6,160,000    N/A                                                                                                                        $325,202     $1,013,567          $561,345              $1,900,113
             Union, Sacramento, CA                 Home Loan                                                    6/28/2012               ($9)     $4,206,560   Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                9/27/2012              ($14)     $4,206,546   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                               12/27/2012               ($2)     $4,206,544   Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013               ($8)     $4,206,536   Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013               ($4)     $4,206,532   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013                        $4,206,531   Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013           ($2,412)     $4,204,119   Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014              ($84)     $4,204,035   Updated due to quarterly assessment and reallocation
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                                10/2/2009       $24,920,000    $139,140,000
                                                                                                                                                              program initial cap
                                                                                                                                                              Updated portfolio data from servicer/additional
                                                                                                               12/30/2009       $49,410,000    $188,550,000
                                                                                                                                                              program initial cap
                                                                                                                3/26/2010       $41,830,000    $230,380,000   Updated portfolio data from servicer
                                                                                                                7/14/2010      ($85,780,000)   $144,600,000   Updated portfolio data from servicer
                                                                                                                9/30/2010       $36,574,444    $181,174,444   Updated portfolio data from servicer
                                                                                                                 1/6/2011             ($160)   $181,174,284   Updated due to quarterly assessment and reallocation
                                                   Financial                                                    3/30/2011             ($172)   $181,174,112   Updated due to quarterly assessment and reallocation
             U.S. Bank National
                                                   Instrument for
9/9/2009     Association,            Purchase                              $114,220,000     N/A                 6/29/2011           ($1,431)   $181,172,681   Updated due to quarterly assessment and reallocation   $13,970,946   $32,187,129       $22,645,413             $68,803,488
                                                   Home Loan
             Owensboro, KY
                                                   Modifications                                                6/28/2012             ($746)   $181,171,935   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2012           ($1,926)   $181,170,009   Updated due to quarterly assessment and reallocation
                                                                                                               12/27/2012             ($308)   $181,169,701   Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013           ($1,135)   $181,168,566   Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013             ($418)   $181,168,148   Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013             ($139)   $181,168,009   Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013        ($212,077)    $180,955,932   Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014           ($6,391)   $180,949,541   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                    Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                                (CONTINUED)
                                                                                                                  Adjustment
             Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                   3/26/2010         $160,000        $700,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010           $25,278       $725,278    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($1)      $725,277    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011               ($1)      $725,276    Updated due to quarterly assessment and reallocation
                                                                                                                   6/29/2011              ($11)      $725,265    Updated due to quarterly assessment and reallocation

                                                      Financial                                                    6/28/2012               ($8)      $725,257    Updated due to quarterly assessment and reallocation
                                                      Instrument for
1/29/2010    United Bank, Griffin, GA   Purchase                                  $540,000     N/A                 9/27/2012              ($22)      $725,235    Updated due to quarterly assessment and reallocation      $2,917       $2,652            $6,600                 $12,169
                                                      Home Loan
                                                      Modifications                                               12/27/2012               ($4)      $725,231    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013              ($14)      $725,217    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013               ($5)      $725,212    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($2)      $725,210    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($3,221)      $721,989    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014             ($113)      $721,876    Updated due to quarterly assessment and reallocation
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                   1/22/2010           $20,000       $430,000
                                                                                                                                                                 program initial cap
                                                                                                                   3/26/2010         $400,000        $830,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($430,000)       $400,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010         $180,222        $580,222    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($1)      $580,221    Updated due to quarterly assessment and reallocation
                                                                                                                   3/30/2011               ($1)      $580,220    Updated due to quarterly assessment and reallocation
                                                      Financial                                                    6/29/2011               ($5)      $580,215    Updated due to quarterly assessment and reallocation
             United Bank Mortgage
                                                      Instrument for
10/21/2009   Corporation,               Purchase                                  $410,000     N/A                                                                                                                        $41,920     $77,944            $60,707                $180,571
                                                      Home Loan                                                    6/28/2012               ($4)      $580,211    Updated due to quarterly assessment and reallocation
             Grand Rapids, MI
                                                      Modifications
                                                                                                                   9/27/2012              ($11)      $580,200    Updated due to quarterly assessment and reallocation
                                                                                                                  12/27/2012               ($2)      $580,198    Updated due to quarterly assessment and reallocation
                                                                                                                   3/25/2013               ($7)      $580,191    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013               ($2)      $580,189    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($1)      $580,188    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($1,471)      $578,717    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014              ($52)      $578,665    Updated due to quarterly assessment and reallocation

                                                      Financial                                                    9/30/2010         $270,334        $870,334    Updated portfolio data from servicer
             University First Federal
                                                      Instrument for
9/30/2010    Credit Union,              Purchase                                  $600,000     N/A                  1/6/2011               ($1)      $870,333    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
                                                      Home Loan
             Salt Lake City, UT
                                                      Modifications                                                2/17/2011        ($870,333)             $0    Termination of SPA
                                                                                                                   4/13/2011        $1,000,000     $1,000,000    Transfer of cap due to servicing transfer
                                                                                                                   6/29/2011         $233,268      $1,233,268    Updated due to quarterly assessment and reallocation
                                                                                                                  11/16/2011         $100,000      $1,333,268    Transfer of cap due to servicing transfer
                                                                                                                   6/28/2012               ($3)    $1,333,265    Updated due to quarterly assessment and reallocation

                                                      Financial                                                    9/27/2012              ($10)    $1,333,255    Updated due to quarterly assessment and reallocation
             Urban Partnership Bank,                  Instrument for
4/13/2011                               Purchase                                         $0    N/A          3     12/27/2012               ($2)    $1,333,253    Updated due to quarterly assessment and reallocation    $154,498    $315,013           $135,919                $605,429
             Chicago, IL                              Home Loan
                                                      Modifications                                                3/25/2013               ($7)    $1,333,246    Updated due to quarterly assessment and reallocation
                                                                                                                   6/27/2013               ($3)    $1,333,243    Updated due to quarterly assessment and reallocation
                                                                                                                   9/27/2013               ($1)    $1,333,242    Updated due to quarterly assessment and reallocation
                                                                                                                  12/23/2013           ($1,744)    $1,331,498    Updated due to quarterly assessment and reallocation
                                                                                                                   3/26/2014              ($62)    $1,331,436    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                                      Financial                                                    7/14/2010        $4,440,000     $5,500,000    Updated portfolio data from servicer
             Urban Trust Bank,                        Instrument for
3/3/2010                                Purchase                                 $1,060,000    N/A          3      9/24/2010       ($5,500,000)            $0    Termination of SPA                                        $2,000       $3,109            $1,000                  $6,109
             Lake Mary, FL                            Home Loan
                                                      Modifications                                               12/16/2013           $40,000        $40,000    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             485
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                                 (CONTINUED)                                                                                                                                                                                          486
                                                                                                                   Adjustment
              Servicer Modifying Borrowers’ Loans                                                                      Details                                                                                                        TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date          Name of Institution        Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                    10/2/2009        $1,310,000     $7,310,000
                                                                                                                                                                  program initial cap
                                                                                                                                                                  Updated portfolio data from servicer/additional
                                                                                                                   12/30/2009       ($3,390,000)    $3,920,000
                                                                                                                                                                  program initial cap
                                                                                                                    3/26/2010         $410,000      $4,330,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010        ($730,000)     $3,600,000    Updated portfolio data from servicer
                                                                                                                    9/15/2010        $4,700,000     $8,300,000    Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010         $117,764      $8,417,764    Updated portfolio data from servicer
                                                                                                                   11/16/2010         $800,000      $9,217,764    Transfer of cap due to servicing transfer
                                                                                                                   12/15/2010        $2,700,000    $11,917,764    Transfer of cap due to servicing transfer
                                                                                                                     1/6/2011              ($17)   $11,917,747    Updated due to quarterly assessment and reallocation
                                                                                                                    1/13/2011         $700,000     $12,617,747    Transfer of cap due to servicing transfer
                                                                                                                    2/16/2011        $1,800,000    $14,417,747    Transfer of cap due to servicing transfer
                                                                                                                    3/30/2011              ($19)   $14,417,728    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                    4/13/2011         $300,000     $14,717,728    Transfer of cap due to servicing transfer
                                                                                                                    6/29/2011             ($189)   $14,717,539    Updated due to quarterly assessment and reallocation
                                                                                                                    8/16/2011         $300,000     $15,017,539    Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011         $100,000     $15,117,539    Transfer of cap due to servicing transfer
                                                       Financial                                                   10/14/2011         $100,000     $15,217,539    Transfer of cap due to servicing transfer
9/2/2009 as   Vantium Capital, Inc.dba
                                                       Instrument for
amended on    Acqura Loan Services,      Purchase                                 $6,000,000    N/A          4      6/28/2012             ($147)   $15,217,392    Updated due to quarterly assessment and reallocation    $240,972    $489,046           $392,136              $1,122,153
                                                       Home Loan
8/27/2010     Plano, TX
                                                       Modifications                                                7/16/2012          ($10,000)   $15,207,392    Transfer of cap due to servicing transfer
                                                                                                                    9/27/2012             ($413)   $15,206,979    Updated due to quarterly assessment and reallocation
                                                                                                                   11/15/2012          ($40,000)   $15,166,979    Transfer of cap due to servicing transfer
                                                                                                                   12/27/2012              ($71)   $15,166,908    Updated due to quarterly assessment and reallocation
                                                                                                                    2/14/2013        ($770,000)    $14,396,908    Transfer of cap due to servicing transfer
                                                                                                                    3/14/2013          ($20,000)   $14,376,908    Transfer of cap due to servicing transfer
                                                                                                                    3/25/2013             ($256)   $14,376,652    Updated due to quarterly assessment and reallocation
                                                                                                                    4/16/2013        ($620,000)    $13,756,652    Transfer of cap due to servicing transfer
                                                                                                                    5/16/2013           $40,000    $13,796,652    Transfer of cap due to servicing transfer
                                                                                                                    6/14/2013           $10,000    $13,806,652    Transfer of cap due to servicing transfer
                                                                                                                    6/27/2013              ($95)   $13,806,557    Updated due to quarterly assessment and reallocation
                                                                                                                    7/16/2013        ($290,000)    $13,516,557    Transfer of cap due to servicing transfer
                                                                                                                    9/27/2013              ($34)   $13,516,523    Updated due to quarterly assessment and reallocation
                                                                                                                   12/16/2013           $40,000    $13,556,523    Transfer of cap due to servicing transfer
                                                                                                                   12/23/2013          ($57,271)   $13,499,252    Updated due to quarterly assessment and reallocation
                                                                                                                    2/13/2014          ($90,000)   $13,409,252    Transfer of cap due to servicing transfer
                                                                                                                    3/14/2014          ($40,000)   $13,369,252    Transfer of cap due to servicing transfer
                                                                                                                    3/26/2014           ($1,989)   $13,367,263    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                     Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)
                                                                                                               Adjustment
             Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                           TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                              Lenders/                                 Total TARP
                                    Transaction    Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                             Borrower’s    Investors         Servicers                Incentive
Date         Name of Institution    Type           Description           Investors (Cap)*   Mechanism   Note         Date           Amount       Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                1/22/2010            $30,000         $630,000
                                                                                                                                                                 program initial cap
                                                                                                                3/26/2010           $400,000       $1,030,000    Updated portfolio data from servicer
                                                   Financial
             Verity Credit Union,                  Instrument for                                               7/14/2010         ($330,000)         $700,000    Updated portfolio data from servicer
12/11/2009                          Purchase                                   $600,000     N/A                                                                                                                                $0           $0                 $0                      $0
             Seattle, WA                           Home Loan
                                                   Modifications                                                9/30/2010            $25,278         $725,278    Updated portfolio data from servicer
                                                                                                                 1/6/2011                ($1)        $725,277    Updated due to quarterly assessment and reallocation
                                                                                                                2/17/2011         ($725,277)               $0    Termination of SPA
                                                   Financial                                                    5/16/2013            $50,000          $50,000    Transfer of cap due to servicing transfer
             ViewPoint Bank,                       Instrument for
5/16/2013                           Purchase                                          $0    N/A          3                                                                                                                     $0         $891                 $0                   $891
             Plano, TX                             Home Loan                                                   12/16/2013            $10,000          $60,000    Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                                7/14/2010           $400,000         $700,000    Updated portfolio data from servicer
                                                                                                                9/30/2010            $25,278         $725,278    Updated portfolio data from servicer
                                                                                                                 1/6/2011                ($1)        $725,277    Updated due to quarterly assessment and reallocation
                                                                                                                3/30/2011                ($1)        $725,276    Updated due to quarterly assessment and reallocation
                                                                                                                6/29/2011               ($11)        $725,265    Updated due to quarterly assessment and reallocation

                                                   Financial                                                    6/28/2012                ($8)        $725,257    Updated due to quarterly assessment and reallocation
             VIST Financial Corp,                  Instrument for
3/10/2010                           Purchase                                   $300,000     N/A                 9/27/2012               ($22)        $725,235    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
             Wyomissing, PA                        Home Loan
                                                   Modifications                                               12/27/2012                ($4)        $725,231    Updated due to quarterly assessment and reallocation
                                                                                                                3/25/2013               ($14)        $725,217    Updated due to quarterly assessment and reallocation
                                                                                                                6/27/2013                ($5)        $725,212    Updated due to quarterly assessment and reallocation
                                                                                                                9/27/2013                ($2)        $725,210    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013            ($3,221)        $721,989    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014              ($113)        $721,876    Updated due to quarterly assessment and reallocation
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                9/30/2009      ($37,700,000)      $47,320,000
                                                                                                                                                                 program initial cap
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                               12/30/2009        $26,160,000      $73,480,000
                                                   Financial                                                                                                     program initial cap
             Wachovia Bank, N.A.,                  Instrument for
7/29/2009                           Purchase                                $85,020,000     N/A                 3/26/2010         $9,820,000      $83,300,000    Updated portfolio data from servicer                          $0           $0                 $0                      $0
             Charlotte, NC                         Home Loan
                                                   Modifications                                                7/14/2010      ($46,200,000)      $37,100,000    Updated portfolio data from servicer
                                                                                                                9/30/2010      ($28,686,775)       $8,413,225    Updated portfolio data from servicer
                                                                                                                12/3/2010        ($8,413,225)              $0    Termination of SPA
                                                                                                                                                                 Updated portfolio data from servicer/additional
                                                                                                                9/30/2009      $723,880,000     $1,357,890,000
                                                                                                                                                                 program initial cap
                                                   Financial
             Wachovia Mortgage,                    Instrument for                                                                                                Updated portfolio data from servicer/additional
7/1/2009                            Purchase                               $634,010,000     N/A          2     12/30/2009      $692,640,000     $2,050,530,000                                                                 $0     $76,890           $162,000                $238,890
             FSB, Des Moines, IA                   Home Loan                                                                                                     program initial cap
                                                   Modifications                                                2/17/2010    ($2,050,236,344)        $293,656    Transfer of cap due to merger/acquisition
                                                                                                                3/12/2010           ($54,767)        $238,890    Termination of SPA
                                                                                                                                                                                                                                                                    Continued on next page
                                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                             487
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)                                                                                                                                                                                          488
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                        TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                           Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                          Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount     Adjusted Cap   Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                               7/14/2010        ($150,000)     $6,400,000    Updated portfolio data from servicer
                                                                                                               9/15/2010        $1,600,000     $8,000,000    Transfer of cap due to servicing transfer
                                                                                                               9/30/2010       ($4,352,173)    $3,647,827    Updated portfolio data from servicer
                                                                                                                1/6/2011               ($5)    $3,647,822    Updated due to quarterly assessment and reallocation
                                                                                                               3/30/2011               ($6)    $3,647,816    Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011       ($3,000,000)      $647,816    Transfer of cap due to servicing transfer

                                                  Financial                                                    6/29/2011               ($9)      $647,807    Updated due to quarterly assessment and reallocation
            Wealthbridge Mortgage                 Instrument for
4/14/2010                           Purchase                                 $6,550,000    N/A                 6/28/2012               ($7)      $647,800    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Corp, Beaverton, OR                   Home Loan
                                                  Modifications                                                9/27/2012              ($19)      $647,781    Updated due to quarterly assessment and reallocation
                                                                                                              12/27/2012               ($3)      $647,778    Updated due to quarterly assessment and reallocation
                                                                                                               3/25/2013              ($12)      $647,766    Updated due to quarterly assessment and reallocation
                                                                                                               6/27/2013               ($5)      $647,761    Updated due to quarterly assessment and reallocation
                                                                                                               9/27/2013               ($2)      $647,759    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                              12/23/2013           ($2,822)      $644,937    Updated due to quarterly assessment and reallocation
                                                                                                               2/27/2014        ($644,937)             $0    Termination of SPA
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                            (CONTINUED)
                                                                                                              Adjustment
            Servicer Modifying Borrowers’ Loans                                                                   Details                                                                                                                TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                   Lenders/                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                               Borrower’s       Investors         Servicers                Incentive
Date        Name of Institution     Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount       Adjusted Cap    Reason for Adjustment                                    Incentives      Incentives        Incentives               Payments
                                                                                                               6/17/2009     ($462,990,000)    $2,410,010,000   Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               9/30/2009        $65,070,000    $2,475,080,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                              12/30/2009     $1,213,310,000    $3,688,390,000
                                                                                                                                                                program initial cap
                                                                                                               2/17/2010     $2,050,236,344    $5,738,626,344   Transfer of cap due to merger/acquisition
                                                                                                               3/12/2010            $54,767    $5,738,681,110   Transfer of cap due to merger/acquisition
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               3/19/2010      $668,108,890     $6,406,790,000
                                                                                                                                                                program initial cap
                                                                                                               3/26/2010      $683,130,000     $7,089,920,000   Updated portfolio data from servicer
                                                                                                               7/14/2010    ($2,038,220,000)   $5,051,700,000   Updated portfolio data from servicer
                                                                                                               9/30/2010     ($287,348,828)    $4,764,351,172   Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               9/30/2010      $344,000,000     $5,108,351,172
                                                                                                                                                                program initial cap
                                                                                                               12/3/2010         $8,413,225    $5,116,764,397   Transfer of cap due to merger/acquisition
                                                                                                              12/15/2010        $22,200,000    $5,138,964,397   Transfer of cap due to servicing transfer
                                                                                                                1/6/2011            ($6,312)   $5,138,958,085   Updated due to quarterly assessment and reallocation
                                                                                                               1/13/2011         ($100,000)    $5,138,858,085   Transfer of cap due to servicing transfer
                                                                                                               3/16/2011         ($100,000)    $5,138,758,085   Transfer of cap due to servicing transfer
                                                                                                               3/30/2011            ($7,171)   $5,138,750,914   Updated due to quarterly assessment and reallocation
                                                                                                               4/13/2011        ($9,800,000)   $5,128,950,914   Transfer of cap due to servicing transfer
                                                                                                               5/13/2011           $100,000    $5,129,050,914   Transfer of cap due to servicing transfer
                                                                                                               6/16/2011         ($600,000)    $5,128,450,914   Transfer of cap due to servicing transfer
                                                  Financial                                                    6/29/2011           ($63,856)   $5,128,387,058   Updated due to quarterly assessment and reallocation
            Wells Fargo Bank, NA,                 Instrument for
4/13/2009                           Purchase                            $2,873,000,000     N/A                 7/14/2011        ($2,300,000)   $5,126,087,058   Transfer of cap due to servicing transfer              $248,100,607   $632,248,710      $356,169,204          $1,236,518,521
            Des Moines, IA                        Home Loan
                                                  Modifications
                                                                                                               8/16/2011        ($1,100,000)   $5,124,987,058   Transfer of cap due to servicing transfer
                                                                                                               9/15/2011         $1,400,000    $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                              10/14/2011           $200,000    $5,126,587,058   Transfer of cap due to servicing transfer
                                                                                                              11/16/2011         ($200,000)    $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                              12/15/2011         ($200,000)    $5,126,187,058   Transfer of cap due to servicing transfer
                                                                                                               1/13/2012         ($300,000)    $5,125,887,058   Transfer of cap due to servicing transfer
                                                                                                               2/16/2012         ($200,000)    $5,125,687,058   Transfer of cap due to servicing transfer
                                                                                                               3/15/2012        ($1,000,000)   $5,124,687,058   Transfer of cap due to servicing transfer
                                                                                                               4/16/2012         ($800,000)    $5,123,887,058   Transfer of cap due to servicing transfer
                                                                                                               5/16/2012         ($610,000)    $5,123,277,058   Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        ($2,040,000)   $5,121,237,058   Transfer of cap due to servicing transfer
                                                                                                               6/28/2012           ($39,923)   $5,121,197,135   Updated due to quarterly assessment and reallocation
                                                                                                               8/16/2012         ($120,000)    $5,121,077,135   Transfer of cap due to servicing transfer
                                                                                                               9/27/2012         ($104,111)    $5,120,973,024   Updated due to quarterly assessment and reallocation
                                                                                                              10/16/2012        ($1,590,000)   $5,119,383,024   Transfer of cap due to servicing transfer
                                                                                                              11/15/2012        ($2,910,000)   $5,116,473,024   Transfer of cap due to servicing transfer
                                                                                                              12/14/2012        ($1,150,000)   $5,115,323,024   Transfer of cap due to servicing transfer
                                                                                                              12/27/2012           ($16,392)   $5,115,306,632   Updated due to quarterly assessment and reallocation
                                                                                                               1/16/2013        ($3,350,000)   $5,111,956,632   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




                                                                                                               2/14/2013         ($820,000)    $5,111,136,632   Transfer of cap due to servicing transfer
                                                                                                               3/14/2013         ($270,000)    $5,110,866,632   Transfer of cap due to servicing transfer
                                                                                                               3/25/2013           ($58,709)   $5,110,807,923   Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                                 489
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                             (CONTINUED)                                                                                                                                                                                            490
                                                                                                               Adjustment
            Servicer Modifying Borrowers’ Loans                                                                    Details                                                                                                          TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                             Lenders/                                 Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment    Cap Adjustment                                                                            Borrower’s    Investors         Servicers                Incentive
Date        Name of Institution      Type          Description           Investors (Cap)*   Mechanism   Note         Date           Amount      Adjusted Cap    Reason for Adjustment                                  Incentives   Incentives        Incentives               Payments
                                                                                                                4/16/2013          ($40,000)   $5,110,767,923   Transfer of cap due to servicing transfer
                                                                                                                5/16/2013       ($5,320,000)   $5,105,447,923   Transfer of cap due to servicing transfer
                                                                                                                6/14/2013       ($1,260,000)   $5,104,187,923   Transfer of cap due to servicing transfer
                                                                                                                6/27/2013          ($20,596)   $5,104,167,327   Updated due to quarterly assessment and reallocation
                                                                                                                7/16/2013       ($1,200,000)   $5,102,967,327   Transfer of cap due to servicing transfer
                                                                                                                8/15/2013          ($30,000)   $5,102,937,327   Transfer of cap due to servicing transfer
                                                                                                                9/16/2013      ($10,760,000)   $5,092,177,327   Transfer of cap due to servicing transfer
                                                                                                                9/27/2013           ($6,701)   $5,092,170,626   Updated due to quarterly assessment and reallocation
                                                                                                               10/15/2013        ($780,000)    $5,091,390,626   Transfer of cap due to servicing transfer
                                                                                                               11/14/2013          ($60,000)   $5,091,330,626   Transfer of cap due to servicing transfer
                                                                                                               12/16/2013        ($860,000)    $5,090,470,626   Transfer of cap due to servicing transfer
                                                                                                               12/23/2013      ($10,569,304)   $5,079,901,322   Updated due to quarterly assessment and reallocation
                                                                                                                1/16/2014       ($1,990,000)   $5,077,911,322   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




                                                                                                                2/13/2014        ($170,000)    $5,077,741,322   Transfer of cap due to servicing transfer
                                                                                                                3/14/2014          ($80,000)   $5,077,661,322   Transfer of cap due to servicing transfer
                                                                                                                3/26/2014        ($358,566)    $5,077,302,756   Updated due to quarterly assessment and reallocation
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                                9/30/2009          $330,000         $870,000
                                                                                                                                                                program initial cap
                                                                                                                                                                Updated portfolio data from servicer/additional
                                                                                                               12/30/2009       $16,490,000      $17,360,000
                                                                                                                                                                program initial cap
                                                                                                                3/26/2010      ($14,260,000)      $3,100,000    Updated portfolio data from servicer
                                                                                                                7/14/2010       ($1,800,000)      $1,300,000    Updated portfolio data from servicer
                                                                                                                7/30/2010        $1,500,000       $2,800,000    Updated portfolio data from servicer
                                                   Financial                                                    9/30/2010        $1,551,668       $4,351,668    Updated portfolio data from servicer
            Wescom Central Credit                  Instrument for
6/19/2009                            Purchase                                  $540,000     N/A         3, 6     1/6/2011               ($2)      $4,351,666    Updated due to quarterly assessment and reallocation    $248,700    $745,910           $312,225              $1,306,835
            Union, Anaheim, CA                     Home Loan
                                                   Modifications                                                3/30/2011               ($2)      $4,351,664    Updated due to quarterly assessment and reallocation
                                                                                                                5/13/2011       ($1,800,000)      $2,551,664    Transfer of cap due to servicing transfer
                                                                                                                 6/3/2011       ($1,872,787)        $678,877    Termination of SPA
                                                                                                                6/14/2012          $990,000       $1,668,877    Transfer of cap due to servicing transfer
                                                                                                                9/27/2012          $372,177       $2,041,054    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013             ($192)      $2,040,862    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014               ($8)      $2,040,854    Updated due to quarterly assessment and reallocation
                                                                                                                4/13/2011          $200,000         $200,000    Transfer of cap due to servicing transfer
                                                                                                                6/29/2011           $17,687         $217,687    Updated due to quarterly assessment and reallocation
                                                   Financial
            Western Federal Credit                 Instrument for                                               9/27/2012               ($1)        $217,686    Updated due to quarterly assessment and reallocation
4/13/2011                            Purchase                                         $0    N/A                                                                                                                          $19,333     $49,491            $22,917                 $91,741
            Union, Hawthorne, CA                   Home Loan                                                    3/25/2013               ($1)        $217,685    Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                               12/23/2013             ($290)        $217,395    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014              ($10)        $217,385    Updated due to quarterly assessment and reallocation
                                                                                                                9/30/2010           $45,056         $145,056    Updated portfolio data from servicer
                                                                                                                6/29/2011               ($1)        $145,055    Updated due to quarterly assessment and reallocation

                                                   Financial                                                    6/28/2012               ($1)        $145,054    Updated due to quarterly assessment and reallocation
            Weststar Mortgage,                     Instrument for
9/30/2010                            Purchase                                  $100,000     N/A                 9/27/2012               ($2)        $145,052    Updated due to quarterly assessment and reallocation          $0           $0                 $0                      $0
            Inc., Woodbridge, VA                   Home Loan
                                                   Modifications                                                3/25/2013               ($1)        $145,051    Updated due to quarterly assessment and reallocation
                                                                                                               12/23/2013             ($232)        $144,819    Updated due to quarterly assessment and reallocation
                                                                                                                3/26/2014               ($8)        $144,811    Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                   Continued on next page
HAMP TRANSACTION DETAIL, AS OF 3/31/2014                                                          (CONTINUED)
                                                                                                                                 Adjustment
                 Servicer Modifying Borrowers’ Loans                                                                                 Details                                                                                                                                      TARP Incentive Payments
                                                                                   Cap of Incentive
                                                                               Payments on Behalf
                                                                               of Borrowers and to                                                                                                                                                                                Lenders/                                      Total TARP
                                            Transaction     Investment        Servicers & Lenders/      Pricing                  Adjustment        Cap Adjustment                                                                                          Borrower’s             Investors              Servicers                Incentive
Date             Name of Institution        Type            Description            Investors (Cap)*     Mechanism        Note          Date               Amount          Adjusted Cap     Reason for Adjustment                                           Incentives            Incentives             Incentives               Payments
                                                                                                                                  6/12/2009            $87,130,000       $453,130,000      Updated portfolio data from servicer
                                                                                                                                                                                           Updated portfolio data from servicer/additional
                                                                                                                                  9/30/2009         ($249,670,000)       $203,460,000
                                                                                                                                                                                           program initial cap
                                                                                                                                                                                           Updated portfolio data from servicer/additional
                                                                                                                                 12/30/2009          $119,700,000        $323,160,000
                                                                                                                                                                                           program initial cap
                                                                                                                                  3/26/2010            $52,270,000       $375,430,000      Updated portfolio data from servicer
                                                                                                                                  4/19/2010          ($10,280,000)       $365,150,000      Transfer of cap due to servicing transfer
                                                                                                                                  5/14/2010            ($1,880,000)      $363,270,000      Transfer of cap due to servicing transfer
                                                            Financial
                 Wilshire Credit                                                                                                  6/16/2010         ($286,510,000)         $76,760,000     Transfer of cap due to servicing transfer
                                                            Instrument for
4/20/2009        Corporation,               Purchase                                  $366,000,000      N/A                7                                                                                                                                        $0            $490,394             $1,167,000              $1,657,394
                                                            Home Loan
                 Beaverton, OR                                                                                                    7/14/2010            $19,540,000         $96,300,000     Updated portfolio data from servicer
                                                            Modifications
                                                                                                                                  7/16/2010              ($210,000)        $96,090,000     Transfer of cap due to servicing transfer
                                                                                                                                  8/13/2010              ($100,000)        $95,990,000     Transfer of cap due to servicing transfer
                                                                                                                                  9/30/2010            $68,565,782       $164,555,782      Updated portfolio data from servicer
                                                                                                                                   1/6/2011                  ($247)      $164,555,535      Updated due to quarterly assessment and reallocation
                                                                                                                                  3/30/2011                  ($294)      $164,555,241      Updated due to quarterly assessment and reallocation
                                                                                                                                  6/29/2011                ($2,779)      $164,552,462      Updated due to quarterly assessment and reallocation
                                                                                                                                 10/19/2011         ($162,895,068)          $1,657,394     Termination of SPA
                                                                                                                                                                                           Updated portfolio data from servicer/additional
                                                                                                                                  10/2/2009                $60,000            $300,000
                                                                                                                                                                                           program initial cap
                                                                                                                                                                                           Updated portfolio data from servicer/additional
                                                                                                                                 12/30/2009               $350,000            $650,000
                                                                                                                                                                                           program initial cap
                                                                                                                                  3/26/2010             $1,360,000          $2,010,000     Updated portfolio data from servicer
                                                                                                                                  7/14/2010            ($1,810,000)           $200,000     Updated portfolio data from servicer
                                                                                                                                  9/30/2010               $235,167            $435,167     Updated portfolio data from servicer
                                                                                                                                   1/6/2011                     ($1)          $435,166     Updated due to quarterly assessment and reallocation
                                                            Financial
                 Yadkin Valley Bank,                        Instrument for                                                        6/29/2011                     ($4)          $435,162     Updated due to quarterly assessment and reallocation
9/23/2009                                   Purchase                                       $240,000     N/A                                                                                                                                                   $29,523               $31,583                $48,373                  $109,479
                 Elkin, NC                                  Home Loan
                                                                                                                                  6/28/2012                     ($3)          $435,159     Updated due to quarterly assessment and reallocation
                                                            Modifications
                                                                                                                                  9/27/2012                     ($7)          $435,152     Updated due to quarterly assessment and reallocation
                                                                                                                                 12/27/2012                     ($1)          $435,151     Updated due to quarterly assessment and reallocation
                                                                                                                                  3/25/2013                     ($5)          $435,146     Updated due to quarterly assessment and reallocation
                                                                                                                                  6/27/2013                     ($2)          $435,144     Updated due to quarterly assessment and reallocation
                                                                                                                                  9/27/2013                     ($1)          $435,143     Updated due to quarterly assessment and reallocation
                                                                                                                                 12/23/2013                ($1,174)           $433,969     Updated due to quarterly assessment and reallocation
                                                                                                                                  3/26/2014                    ($43)          $433,926     Updated due to quarterly assessment and reallocation
                                                          Total Initial Cap      $23,831,570,000                    Total Cap Adjustments         $6,000,608,743                                                                             Totals   $1,573,878,607      $4,016,464,708         $2,221,506,111          $7,811,849,427
                                                                                                                                   Total Cap    $29,832,178,743
Notes: Numbers may be affected by rounding. Data as of 3/31/2014. Numbered notes are taken verbatim from Treasury’s 3/27/2014 Transactions Report-Housing Programs.

1
 	On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
2
 	Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.
3
 	This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
4
 	On 8/27/10, an amendment was executed to reflect a change in the legal name of the institution.
5
 	MorEquity, Inc executed a subservicing agreement with Nationstar Mortgage, LLC, that took effect 02/01/2011. All mortgage loans including all HAMP loans were transferred to Nationstar. The remaining Adjusted Cap stated above represents the amount previously paid to MorEquity, Inc. prior to such agreement.
6
 	The remaining Adjusted Cap stated above represents the amount paid to servicer prior to SPA termination.
7
 	Bank of America, N.A., Home Loan Services, Inc. and Wilshire Credit Corporation were merged into BAC Home Loans Servicing, LP. and the remaining Adjusted Cap stated above represents the amount previously paid to each servicer prior to such merger.
8
 	In April 2011, EMC Mortgage, an indirect subsidiary of JP Morgan Chase & Co, transferred the servicing of all loans to JP Morgan Chase Bank, NA. The remaining Adjusted Cap stated above represents the amount previously paid to EMC Mortgage prior to such transfer.
9
 	RBC Bank (USA) was merged with PNC Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to RBC Bank (USA) prior to such merger.  
10
  	On July 1, 2012, Saxon Mortgage Services, Inc. ceased servicing operations by selling its mortgage servicing rights and transferring the subservicing relationships to third-party servicers. The remaining Adjusted Cap stated above represents the amount previously paid to Saxon Mortgage Services, Inc. prior to ceasing
    servicing operations.
11
  	As of July,3 2012, Aurora Loan Services LLC has discontinued its servicing function and sold all remaining servicing rights to Nationstar Mortgage. The remaining Adjusted Cap stated above represents the amount previously paid to Aurora Loan Services LLC, prior to ceasing servicing operations.
12
  	Effective September 1, 2011 Litton Loan Servicing LP was acquired by Ocwen Financial Corporation. The remaining Adjusted Cap stated above represents the amount previously paid to Litton prior to such acquistion.  
                                                                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014




13
  	In May 2010, U.S. mortgage servicing business HomEq was sold to Ocwen Loan Servicing. The remaining Adjusted Cap stated above represents the amount previously paid to HomEq prior to such sale.

* The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors. The Cap is subject to adjustment based on the total amount allocated to the program and individual
servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.

Source: Treasury, Transactions Report-Housing Programs, 3/27/2014.
                                                                                                                                                                                                                                                                                                                                               491
TABLE D.14                                                                                                                                                                                                                                             492
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 3/31/2014
                   Seller
                                                                                              Transaction
Note   Date        Name of Institution                                                        Type          Investment Description                 Initial Investment Amount   Additional Investment Amount   Investment Amount1   Pricing Mechanism
       6/23/2010                                                                                            Financial Instrument for HHF Program              $102,800,000                              —                          N/A
2      9/23/2010   Nevada Affordable Housing Assistance Corporation, Reno, NV                 Purchase      Financial Instrument for HHF Program                         —                     $34,056,581          $194,026,240   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $57,169,659                         N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program              $699,600,000                              —                          N/A
2      9/23/2010   CalHFA Mortgage Assistance Corporation, Sacramento, CA                     Purchase      Financial Instrument for HHF Program                         —                    $476,257,070        $1,975,334,096   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $799,477,026                         N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program              $418,000,000                              —                          N/A
2      9/23/2010   Florida Housing Finance Corporation, Tallahassee, FL                       Purchase      Financial Instrument for HHF Program                         —                    $238,864,755        $1,057,839,136   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $400,974,381                         N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program              $125,100,000                              —                          N/A
                   Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ     Purchase                                                                                                              $267,766,006
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $142,666,006                         N/A
       6/23/2010                                                                                            Financial Instrument for HHF Program              $154,500,000                              —                          N/A
2      9/23/2010   Michigan Homeowner Assistance Nonprofit Housing Corporation, Lansing, MI   Purchase      Financial Instrument for HHF Program                         —                    $128,461,559          $498,605,738   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $215,644,179                         N/A
                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I APRIL 30, 2014




       8/3/2010                                                                                             Financial Instrument for HHF Program              $159,000,000                              —                          N/A
2      9/23/2010   North Carolina Housing Finance Agency, Raleigh, NC                         Purchase      Financial Instrument for HHF Program                         —                    $120,874,221          $482,781,786   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $202,907,565                         N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program              $172,000,000                              —                          N/A
2      9/23/2010   Ohio Homeowner Assistance LLC, Columbus, OH                                Purchase      Financial Instrument for HHF Program                         —                    $148,728,864          $570,395,099   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $249,666,235                         N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program               $88,000,000                              —                          N/A
2      9/23/2010   Oregon Affordable Housing Assistance Corporation, Salem, OR                Purchase      Financial Instrument for HHF Program                         —                     $49,294,215          $220,042,786   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $82,748,571                         N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program               $43,000,000                              —                          N/A
2      9/23/2010   Rhode Island Housing and Mortgage Finance Corporation, Providence, RI      Purchase      Financial Instrument for HHF Program                         —                     $13,570,770           $79,351,573   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $22,780,803                         N/A
       8/3/2010                                                                                             Financial Instrument for HHF Program              $138,000,000                              —                          N/A
2      9/23/2010   SC Housing Corp, Columbia, SC                                              Purchase      Financial Instrument for HHF Program                         —                     $58,772,347          $295,431,547   N/A
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $98,659,200                         N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program               $60,672,471                              —                          N/A
                   Alabama Housing Finance Authority, Montgomery, AL                          Purchase                                                                                                              $162,521,345
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $101,848,874                         N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program               $55,588,050                              —                          N/A
                   Kentucky Housing Corporation, Frankfort, KY                                Purchase                                                                                                              $148,901,875
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $93,313,825                         N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program               $38,036,950                              —                          N/A
                   Mississippi Home Corporation, Jackson, MS                                  Purchase                                                                                                              $101,888,323
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $63,851,373                         N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program              $126,650,987                              —                          N/A
                   GHFA Affordable Housing, Inc., Atlanta, GA                                 Purchase                                                                                                              $339,255,819
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $212,604,832                         N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program               $82,762,859                              —                          N/A
                   Indiana Housing and Community Development Authority, Indianapolis, IN      Purchase                                                                                                              $221,694,139
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $138,931,280                         N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program              $166,352,726                              —                          N/A
                   Illinois Housing Development Authority, Chicago, IL                        Purchase                                                                                                              $445,603,557
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $279,250,831                         N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program              $112,200,637                              —                          N/A
                   New Jersey Housing and Mortgage Finance Agency, Trenton, NJ                Purchase                                                                                                              $300,548,144
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $188,347,507                         N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program                $7,726,678                              —                          N/A
                   District of Columbia Housing Finance Agency, Washington, DC                Purchase                                                                                                               $20,697,198
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                     $12,970,520                         N/A
       9/23/2010                                                                                            Financial Instrument for HHF Program               $81,128,260                              —                          N/A
                   Tennessee Housing Development Agency, Nashville, TN                        Purchase                                                                                                              $217,315,593
3      9/29/2010                                                                                            Financial Instrument for HHF Program                         —                    $136,187,333                         N/A
                                                                                                                                                                                   Total Investment Amount       $7,600,000,000
Notes: Numbers may be affected by rounding. Data as of 3/31/2014. Numbered notes are taken verbatim from Treasury’s 3/27/2014 Transactions Report-Housing Programs.

1	The purchase will be incrementally funded up to the investment amount.
2	On 9/23/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.
3	On 9/29/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.

Source: Treasury, Transactions Report-Housing Programs, 3/27/2014.




TABLE D.15
FHA SHORT REFINANCE PROGRAM, AS OF 3/31/2014
Note              Date              Seller Name                            Transaction Type           Investment Description                 Initial Investment Amount         Investment Adjustments                              Investment Amount       Pricing Mechanism
1                 9/3/2010                                                                                                                              $8,117,000,000                                 ­—                              $1,025,000,000      N/A
2                                   Citigroup, Inc., New York, NY          Purchase                   Facility Purchase Agreement
                  3/4/2013                                                                                                                                             —               ($7,092,000,000)                                                    N/A

                                                                                                                                                                              Total Investment Amount                                 $1,025,000,000
Notes: Numbers may be affected by rounding. Data as of 3/31/2014. Numbered notes are taken verbatim from Treasury’s 3/27/2014 Transactions Report-Housing Programs.

1
 	On September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the ‘L/C Facility Agreement”), which allowed Treasury to demand from Citigroup the issuance of an up to $8 billion, 10-year letter of credit (the “L/C”). Treasury
   will increase availability under the L/C incrementally in proportion to the mortgages refinanced under the FHA Short Refinance program during the eligibility period. After that time, the amount of the L/C will be capped at the then-current level. Under the terms of the L/C Facility
   Agreement, Treasury could incur fees for the availability and usage of the L/C up to a maximum amount of $117 million.
2
 	On March 4, 2013, the U.S. Department of the Treasury and Citibank, N.A. entered into Amendment No. 1 to the L/C Facility Agreement, which reduced the maximum amount of the L/C from $8 billion to $1 billion; extends by two years the period of time Treasury has to increase the
   L/C to cover new loans that are entered into the program; and modified the fee structure paid to Citibank, N.A. Based on this new fee structure and the lower L/C, Treasury expects that the fees incurred for the availability and usage of the L/C will not exceed $25 million.

Source: Treasury, Transactions Report-Housing Programs, 3/27/2014.
                                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I APRIL 30, 2014
                                                                                                                                                                                                                                                                                                 493
494              APPENDIX E I DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APRIL 30, 2014




 DEBT AGREEMENTS, EQUITY AGREEMENTS, AND
 DIVIDEND/INTEREST PAYMENTS
 TABLE E.1
  DEBT AGREEMENTS, AS OF 3/31/2014
  TARP                              Date of               Cost                Description of                                                           Interest/                     Term of
  Program        Company            Agreement             Assigned            Investment                 Investment Information                        Dividends                     Agreement
                                                                                                         Each QFI may issue senior
                                                                              Senior                     securities with an aggregate                  7.7% for first 5
                                                                              Subordinated               principal amount of 1%–3% of its              years; 13.8%                  30 years
                                                                              Securities                 risk-weighted assets, but not to              thereafter
  CPP –          Originally                                                                              exceed $25 billion.
                                    1/14/2009a            $0.5 billion
  S-Corps        52 QFIs                                                      Senior                     Treasury will receive warrants
                                                                              Subordinated               to purchase an amount equal
                                                                              Security Warrants          to 5% of the senior securities                13.8%                         30 years
                                                                              that are exercised         purchased on the date of
                                                                              immediately                investment.
                                                                                                         Each QCU may issue CDCI
                                                                                                         Senior Securities with an
  CDCI –                                                                      Subordinated               aggregate principal amount equal
                                                                                                                                            2% for first 8 years,                    CDCI – Credit
  Credit         All                                                          Debt for Credit            to not more than 3.5% of its total
                                                                                                                                            9% thereafter                            Unions
  Unions                                                                      Unions                     assets and not more than 50%
                                                                                                         of the capital and surplus of the
                                                                                                         QCU.
                                                                                                         Each QFI may issue CDCI Senior
                                                                                                         Securities with an aggregate
                                                                                                         principal amount equal to not
                                                                                                         more than 5% of (i), if the QFI is a
                                                                                                         Certified Entity the risk-weighted
                                                                                                         assets of the QFI, or (ii), if the            3.1% for first 8
  CDCI –                                                                      Subordinated                                                                                           CDCI –
                                                                                                         QFI is not a Certified Entity, the            years, 13.8%
  S-Corps                                                                     Debt for S-Corps                                                                                       S-Corps
                                                                                                         sum of the RWAs of each of the                thereafter
                                                                                                         Certified Entities, in each case
                                                                                                         less the aggregate capital or,
                                                                                                         as the case may be, principal
                                                                                                         amount of any outstanding TARP
                                                                                                         assistance of the QFI.
                                                                                                                                                                                     The debt
                                                                                                                                                                                     obligation for
                                                                                                                                                                                     each fund
                                                                              Debt Obligation
                                                                                                         Each of the loans will be funded                                            matures at
                                    9/30/2009                                 with Contingent
  PPIP           All                                      $20 billion                                    incrementally, upon demand by                 LIBOR + 1%                    the earlier
                                    and later                                 Interest
                                                                                                         the fund manager.                                                           of the
                                                                              Promissory Note
                                                                                                                                                                                     dissolution of
                                                                                                                                                                                     the fund or
                                                                                                                                                                                     10 years.
  Notes: Numbers may be affected due to rounding.
  a
    Announcement date of CPP S-Corporation Term Sheet.

  Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,”
  12/31/2008; OFS, response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury’s “TARP Community
  Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury’s “TARP Community Development Capital
  Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury’s “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation
  Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indicative Terms and Conditions,” 7/8/2009.
                                         DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APPENDIX E I APRIL 30, 2014                 495




TABLE E.2
 EQUITY AGREEMENTS, AS OF 3/31/2014
 TARP                        Date of          Cost            Description                                                              Term of
 Program    Company          Agreement        Assigned        of Investment      Investment Information            Dividends           Agreement
                                                              Senior             1–3% of risk-weighted assets,     5% for first
                                                              Preferred          not to exceed $25 billion for     5 years, 9%         Perpetual
                                                              Equity             each QFI                          thereafter
 CPP –      Originally       10/14/2008a      $200.1
 Public     286 QFIs         and later        billion         Common
                                                              Stock              15% of senior preferred
                                                                                                                   —                   Up to 10 years
                                                              Purchase           amount
                                                              Warrants
                                                                                 1–3% of risk-weighted assets,     5% for first
                                                              Preferred
                                                                                 not to exceed $25 billion for     5 years, 9%         Perpetual
                                                              Equity
                                                                                 each QFI                          thereafter

 CPP –      Originally       11/17/2008b                      Preferred
                                              $4 billion      Stock
 Private    369 QFIs         and later
                                                              Purchase
                                                                                 5% of preferred amount            9%                  Perpetual
                                                              Warrants that
                                                              are exercised
                                                              immediately
                                                              Preferred
                                                                                 5% of risk-weighted assets        2% for first
                                              $780.2          Equity for
 CDCI       All                                                                  for banks and bank holding        eight years, 9%     Perpetual
                                              million         banks & thrift
                                                                                 companies.                        thereafter
                                                              institutions
                                                                                                                                       8 years with the
                                                              Membership         Each membership interest will
                             9/30/2009                                                                                                 possibility of
 PPIP       All                               $10 billion     interest in a      be funded upon demand from        —
                             and later                                                                                                 extension for 2
                                                              partnership        the fund manager.
                                                                                                                                       additional years
                                                              Mandatorily                                                              Converts to
                                                              Convertible                                                              common equity
                                                                                 $5 billion                        9%
                                                              Preferred                                                                interest after 7
                                                              Stock                                                                    years
            Ally Financial
 AIFP       Inc. (formerly   12/29/2008       $5 billion      Preferred
            GMAC)                                             Stock                                                                    Converts to
                                                              Purchase                                                                 common equity
                                                                                 5% of original preferred amount   9%
                                                              Warrants that                                                            interest after 7
                                                              are exercised                                                            years
                                                              immediately
                                                              Mandatorily                                                              Converts to
                                                              Convertible                                                              common equity
                                                                                 $4.5 billion                      9%
                                                              Preferred                                                                interest after 7
                                                              Stockc                                                                   years
                                                              Preferred
            Ally Financial
                                                              Stock                                                                    Converts to
 AIFP       Inc. (formerly   5/21/2009        $7.5 billion
                                                              Purchase                                                                 common equity
            GMAC)                                                                5% of original preferred amount   9%
                                                              Warrants that                                                            interest after 7
                                                              are exercised                                                            years
                                                              immediately
                                                              Common
                                                                                 $3 billion                        —                   Perpetual
                                                              Equity Interestd
                                                                                                                                  Continued on next page
496              APPENDIX E I DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APRIL 30, 2014




  EQUITY AGREEMENTS, AS OF 3/31/2014                                    (CONTINUED)

  TARP                                    Date of                  Cost                Description                                                                                   Term of
  Program           Company               Agreement                Assigned            of Investment          Investment Information                       Dividends                 Agreement
                                                                                                              This equity interest was
                                                                                                              obtained by exchanging a
                    Ally Financial
                                                                                       Common                 prior debt obligation with
  AIFP              Inc. (formerly        5/29/2009                $0.9 billion                                                                            —                         Perpetual
                                                                                       Equity Interest        General Motors. See “Debt
                    GMAC)
                                                                                                              Agreements” table for more
                                                                                                              information.
                                                                                       Trust Preferred
                                                                                                              $2.5 billion                                 8%
                                                                                       Securities
                    Ally Financial                                                     Trust Preferred                                                                               Redeemable upon
  AIFP              Inc. (formerly        12/30/2009               $2.5 billion        purchase                                                                                      the repayment of
                    GMAC)                                                              warrants that          5% of trust preferred amount                 —                         the debenture
                                                                                       are exercised
                                                                                       immediately
                                                                                       Mandatorily
                                                                                       Convertible
                                                                                                              $1.3 billion                                 9%
                                                                                       Preferred
                                                                                       Stock                                                                                         Converts to
                    Ally Financial
                                                                                       Preferred                                                                                     common equity
  AIFP              Inc. (formerly        12/30/2009               $1.3 billion
                                                                                       Stock                                                                                         interest after 7
                    GMAC)
                                                                                       Purchase                                                                                      years
                                                                                                              5% of preferred amount                       —
                                                                                       Warrants that
                                                                                       are exercised
                                                                                       immediately

                    Ally Financial
                                                                                       Common
  AIFP              Inc. (formerly        12/30/2009               $5.5 billion                               $5.5 billion                                 —                         Perpetual
                                                                                       Equity Interestd
                    GMAC)

  Notes: Numbers may be affected due to rounding.
  a
    Announcement date of CPP Public Term Sheet.
  b
     Announcement date of CPP Private Term Sheet.
  c
    On 12/31/2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatorily convertible preferred stock (“MCP”).
  d
    On 12/31/2010, Treasury converted $5.5 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of Ally Financial Inc. (formerly GMAC) increased
     from 56% to 74% due to this conversion.

  Sources: Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Program
  Agreement, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agreement dated as of January
  15, 2009 between Citigroup, Inc. and United States Department of Treasury,” 1/15/2009; Treasury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase
  Agreement dated as of January 15, 2009 between Bank of America Corporation and United States Department of Treasury,” 1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred
  Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program, Preferred Membership Interests, Summary of Preferred Terms,” 12/29/2008; Treasury, Transactions Report,
  3/31/2011; Treasury, response to SIGTARP data call, 10/7/2010; Treasury, “TARP Community Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of
  CDCI Senior Preferred Terms,” 4/26/2010; Treasury, “TARP Community Development Capital Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010;
  Treasury, “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Treasury Converts
  Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010; Ally Financial Inc. (GOM), 8−K, 12/30/2010; Treasury, Transactions Report, 9/28/2012; Treasury, “Master Transaction Agreement
  for American International Group. INC, ALICO Holdings LLC, AIA Aurora LLC, Federal Reserve Bank of New York, United States Treasury, and AIG Credit Facility Trust,” 12/8/2010; Treasury, “Legacy
  Securities Public-Private Investment Partnership Summary of Indictive Terms and Conditions,” 7/8/2009; Treasury, Transactions Report, 3/19/2014.
                                                          DEBT AGREEMENTS, EQUITY AGREEMENTS, AND DIVIDEND/INTEREST PAYMENTS I APPENDIX E I APRIL 30, 2014                                                 497




TABLE E.3
 DIVIDENDS, INTEREST, DISTRIBUTIONS, AND OTHER INCOME PAYMENTS, AS OF 3/31/2014
                                                 Dividends                             Interest                   Distributionsa                    Other Incomeb                                    Total
CPP   c
                                       $11,945,837,246                        $118,560,447                                      $—              $14,798,821,854                    $26,863,219,547
CDCI                                           26,969,717                         11,338,718                                      —                                  —                     38,308,435
SSFI   d
                                             641,275,676                                       —                                  —                   609,367,994                      1,250,643,670
TIP                                       3,004,444,444                                        —                                  —                 1,427,190,941                      4,431,635,385
AGP                                          642,429,968                              402,300                                     —                 3,483,197,045                      4,126,029,313
TALF                                                        —                     13,407,761                                      —                   576,589,786                        589,997,547
PPIP                                                        —                   319,904,451                        922,874,176                      2,643,315,922                      3,886,094,550
UCSB                                                        —                     13,347,352                                      —                     29,201,849                         42,549,201
AIFP  e
                                          3,949,941,426                      1,665,336,675                                        —                 1,443,774,157                      7,059,052,258
ASSP                                                        —                     14,874,984                                      —                   101,074,947                        115,949,931
Total                                $20,210,898,477                      $2,157,172,688                        $922,874,176                  $25,112,534,495                    $48,403,479,836
Notes: Numbers may not total due to rounding.
a
  Distributions are gross income from PPIF trading activity and do not include return of equity capital to Treasury.
b
   Other income includes Citigroup common stock gain for CPP, Citigroup payment for AGP, warrant sales, additional note proceeds from the auto programs and the Consumer and Business Lending
   Initiative/SBA 7(a) programs, principal repayments on the SBA 7(a) program, and repayments associated with capital gains and warrant proceeds in PPIP as PPIFs are liquidated.
c
  Includes $13 million fee received as part of the Popular exchange.
d
  Pursuant to the recapitalization plan on 1/14/2011, AIG had an additional obligation to Treasury of $641,275,676 to reflect the cumulative unpaid interest which further converted into AIG common stock.
   Other income from SSFI includes $165 million in fees and approximately $292.1 million representing return on securities held in the AIA and ALICO SPVs.
e
  Includes AWCP.

Sources: Treasury, Transactions Report, 3/19/2014; Treasury, Section 105(a) Report, 4/10/2014; Treasury, Dividends and Interest Report, 4/10/2014; Treasury, response to SIGTARP data call,
4/9/2014.
                                                                                                                                                                                                                                             498
HAMP MODIFICATION STATISTICS
TABLE F.1

 ANNUAL AND CUMULATIVE HAMP TIER 1 MODIFICATION ACTIVITY, AS OF 3/31/2014
                                                                                             Trials           Trials Converted to                Permanents
                        Trials Started                        Trials Cancelled                                                                                              Permanents Paid Off               Permanents Active
                                                                                             Active               Permanent                      Redefaulted
                           Annual      Cumulative            Annual      Cumulative           Annual            Annual      Cumulative        Annual     Cumulative         Annual        Cumulative         Annual         Cumulative
 TARP      2009          392,129            392,129          23,720            23,720       344,776             23,633              23,633       129               129               2                 2      23,502             23,502
           2010          275,989            668,118        302,610            326,330         74,893          243,262              266,895    29,015           29,144             233               235      214,014           237,516
           2011          170,075            838,193          16,798           343,128         42,916          185,254              452,149    59,080           88,224             659               894      125,515           363,031
           2012          114,227            952,420           6,062           349,190         36,336          114,745              566,894    58,860         147,084           1,498             2,392        54,388           417,419
           2013            90,938        1,043,358            2,209           351,399         26,642            98,423             665,317    49,413         196,497           3,521             5,913        45,488           462,907
           2014            12,875        1,056,233               219          351,618         20,770            18,528             683,845    11,287         207,784              858            6,771          6,383          469,290
            Total     1,056,233                            351,618                                            683,845                        207,784                           6,771                         469,290
 GSE       2009          510,491            510,491          24,731            24,731       442,455             43,305              43,305       339               339               3                 3      42,963             42,963
           2010          287,839            798,330        383,448            408,179         77,396          269,450              312,755    27,730           28,069             569               572      241,151           284,114
                                                                                                                                                                                                                                             APPENDIX F I HAMP MODIFICATION STATISTICS I APRIL 30, 2014




           2011          138,072            936,402          10,654           418,833         36,391          168,423              481,178    51,287           79,356          1,442             2,014       115,694           399,808
           2012            81,478        1,017,880            4,814           423,647         25,775            87,280             568,458    49,229         128,585           5,271             7,285        32,780           432,588
                                                                                                                                                                                                                        a
           2013            35,719        1,053,599            4,446           428,093         13,551            43,497             611,955    33,990         162,575          10,592            17,877        (1,085)          431,503
           2014             6,437        1,060,036               809          428,902         10,764             8,415             620,370     6,445         169,020           1,796            19,673             174         431,677
            Total     1,060,036                            428,902                                            620,370                        169,020                          19,673                         431,677
 Total     2009          902,620            902,620          48,451            48,451       787,231             66,938              66,938       468               468               5                 5      66,465             66,465
           2010          563,828         1,466,448         686,058            734,509       152,289           512,712              579,650    56,745           57,213             802               807      455,165           521,630
           2011          308,147         1,774,595           27,452           761,961         79,307          353,677              933,327   110,367         167,580           2,101             2,908       241,209           762,839
           2012          195,705         1,970,300           10,876           772,837         62,111          202,025         1,135,352      108,089         275,669           6,769             9,677        87,168           850,007
           2013          126,657         2,096,957            6,655           779,492         40,193          141,920         1,277,272       83,403         359,072          14,113            23,790        44,403           894,410
           2014            19,312        2,116,269            1,028           780,520         31,534            26,943        1,304,215       17,732         376,804           2,654            26,444          6,557          900,967
           Total     2,116,269                            780,520                                         1,304,215                          376,804                         26,444                         900,967
 Notes: Data is as of December 31, 2009; December 31, 2010; December 31, 2012; December 31, 2013; and March 31, 2014.
 a
   This number is negative due to change in status from GSE to non-GSE TARP of some mortgages with HAMP permanent modifications.

 Sources: Treasury responses to SIGTARP data calls, 1/21/2011, 1/20/2012, 1/22/2013, 2/28/2013, 7/19/2013, 10/21/2013, 10/23/2013, 1/23/2014, and 4/25/2014; Fannie Mae, responses to SIGTARP data calls 10/21/2013, 1/23/2014,
 1/24/2014, and 4/24/2014; SIGTARP Quarterly Report to Congress, 1/30/2010; SIGTARP Quarterly Report to Congress, 1/26/2011; SIGTARP Quarterly Report to Congress, 1/26/2012; SIGTARP Quarterly Report to Congress, 1/30/2013, and SIGTARP
 Quarterly Report to Congress, 1/29/2014.
APPENDIX TABLE F.2
HAMP PERMANENT MODIFICATIONS WITH SCHEDULED PAYMENT INCREASES, ANNUAL, AS OF 2/28/2014
               HAMP Permanent Modifications Started in 2009               HAMP Permanent Modifications Started in 2010               HAMP Permanent Modifications Started in 2011                HAMP Permanent Modifications Started in 2012               HAMP Permanent Modifications Started in 2013              HAMP Permanent Modifications Started in 2014

                        Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta                  Permanent Interest Ratea Monthly Paymenta
                       Modifications                                              Modifications                                              Modifications                                              Modifications                                              Modifications                                              Modifications
                                with                                                       with                                                       with                                                       with                                                       with                                                       with
          Total Active   Scheduled                                   Total Active   Scheduled                                   Total Active   Scheduled                                   Total Active   Scheduled                                   Total Active   Scheduled                                   Total Active   Scheduled
  Year of  Permanent       Payment           Median          Median   Permanent       Payment           Median          Median   Permanent       Payment           Median          Median   Permanent       Payment           Median          Median   Permanent       Payment           Median          Median   Permanent       Payment           Median          Median
Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase Modifications   Increasesa Median Increase Median Increase

  2014        34,197       29,891    3.0%    1.0%    $866      $94                         0                0       0       0                         0                0       0       0                          0       0               0       0                          0       0               0        0                         0      0                0       0

  2015        34,196       27,477    4.0%    1.0%    $957      $94      310,187      253,944    3.0%     1.0%   $886      $94                         0                0       0       0                          0       0               0       0                          0       0               0        0                         0      0                0       0

  2016        34,189       23,731    4.9%    0.8%   $1,029     $84      310,140      231,927    4.0%     1.0%   $977      $95      238,335      184,961    3.0%     1.0%   $906      $95                          0       0               0       0                          0       0               0        0                         0      0                0       0

  2017        34,180        7,024    4.9%    0.0%   $1,030      $4      310,049      200,681    5.0%     0.8% $1,040      $70      238,255      165,879    4.0%     1.0%   $997      $97      159,238      122,581    3.0%     1.0%    $839     $88                          0       0               0        0                         0      0                0       0

  2018                                                                  309,912       74,025    5.0%     0.1% $1,043       $7      238,104      132,888    4.6%     0.6% $1,042      $52      159,137      108,276    3.7%     0.7%    $898     $58       129,468      107,687    3.0%    1.0%    $801     $83

  2019                                                                                                                             237,837           15    4.6%     0.2% $1,042      $24      158,961            55   3.7%     0.5%    $899     $47       129,318       96,743    3.8%    0.8%    $863     $60        20,585       17,838   3.0%     1.0%   $792      $81

  2020                                                                                                                                                                                        158,653             1   3.7%     0.5%    $899     $31       129,112       42,777    3.8%    0.4%    $877     $29        20,541       16,219   4.0%     1.0%   $871      $84

  2021                                                                                                                                                                                                                                                    128,828           15    3.8%    0.4%    $877     $31        20,497       14,401   4.4%     0.4%   $902      $34

  2022                                                                                                                                                                                                                                                                                                                20,448            7   4.4%     0.3%   $902      $24


Notes:
a
  Analysis of HAMP permanent modifications with scheduled payment increases excludes 70,860 HAMP permanent modifications with incomplete records.

Source: SIGTARP analysis of Treasury HAMP data.
                                                                                                                                                                                                                                                                                                                                                                             HAMP MODIFICATION STATISTICS I APPENDIX F I APRIL 30, 2014
                                                                                                                                                                                                                                                                                                                                                                             499
500              APPENDIX G I CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL ACT OF 1978 | APRIL 30, 2014




      CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL ACT OF 1978
      This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978
      (P.L. 95-452), as amended, 5 U.S.C. APP.

      Section      Statute (Inspector General Act of 1978)                 SIGTARP Action                              Report Reference

      Section      “Description of significant problems, abuses, and       List problems, abuses, and deficiencies     Section 1: “The Office of the SIGTARP”
      5(a)(1)      deficiencies...”                                        from SIGTARP audits and investigations.     Section 5: “SIGTARP Recommendations”
                   “Description of recommendations for corrective                                                      Section 1: “The Office of the SIGTARP”
      Section                                                              List recommendations from SIGTARP
                   action…with respect to significant problems,
      5(a)(2)                                                              audits and investigations.                  Section 5: “SIGTARP Recommendations”
                   abuses, or deficiencies...”
                   “Identification of each significant recommendation      List all instances of incomplete
      Section
                   described in previous semiannual reports on which       corrective action from previous             Section 5: “SIGTARP Recommendations”
      5(a)(3)
                   corrective action has not been completed...”            semiannual reports.
                   “A summary of matters referred to prosecutive
      Section                                                              List status of SIGTARP investigations
                   authorities and the prosecutions and convictions                                                    Section 1: “The Office of the SIGTARP”
      5(a)(4)                                                              referred to prosecutive authorities.
                   which have resulted...”
                   “A summary of each report made to the [Treasury
      Section      Secretary] under section 6(b)(2)...” (instances         List TARP oversight reports by Treasury,    Appendix I: “Key Oversight Reports
      5(a)(5)      where information requested was refused or              GAO, and SIGTARP.                           and Testimony”
                   not provided).
                   “A listing, subdivided according to subject matter,
      Section      of each audit report issued...” showing dollar value
                                                                           List SIGTARP audits.                        Section 1: “The Office of the SIGTARP”
      5(a)(6)      of questioned costs and recommendations that
                   funds be put to better use.
      Section      “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                                       Section 1: “The Office of the SIGTARP”
      5(a)(7)      report...”                                              SIGTARP audits.
                   “Statistical tables showing the total number of         Provide statistical tables showing          Section 1: “The Office of the SIGTARP”
      Section
                   audit reports and the total dollar value of             dollar value of questioned costs from
      5(a)(8)                                                                                                          Section 5: “SIGTARP Recommendations”
                   questioned costs...”                                    SIGTARP audits.
                                                                                                                       As detailed in Section 1: “The Office of the
                   “Statistical tables showing the total number of audit   Provide statistical tables showing dollar   SIGTARP,” SIGTARP has made important
      Section
                   reports and the dollar value of recommendations         value of funds put to better use by         findings in its audit reports. However, to date
      5(a)(9)
                   that funds be put to better use by management...”       management from SIGTARP audits.             SIGTARP’s audits have not included funds put
                                                                                                                       to better use findings.
                   “A summary of each audit report issued before
                   the commencement of the reporting period for
                                                                           Provide a synopsis of significant
                   which no management decision has been made by                                                       Section 1: “The Office of the SIGTARP”
      Section                                                              SIGTARP audit reports in which
                   the end of reporting period, an explanation of the
      5(a)(10)                                                             recommendations by SIGTARP are              Section 5: “SIGTARP Recommendations”
                   reasons such management decision has not been
                                                                           still open.
                   made, and a statement concerning the desired
                   timetable for achieving a management decision...”
                                                                           Explain audit reports in which              Section 1: “The Office of the SIGTARP”
      Section      “A description and explanation of the reasons for
                                                                           significant revisions have been made to
      5(a)(11)     any significant revised management decision...”                                                     Section 5: “SIGTARP Recommendations”
                                                                           management decisions.
                   “Information concerning any significant                                                             Section 1: “The Office of the SIGTARP”
      Section                                                              Provide information where management
                   management decision with which the Inspector
      5(a)(12)                                                             disagreed with a SIGTARP audit finding.     Section 5: “SIGTARP Recommendations”
                   General is in disagreement...”
                                                                   PUBLIC ANNOUNCEMENTS OF AUDITS I APPENDIX H I APRIL 30, 2014   501




PUBLIC ANNOUNCEMENTS OF AUDITS
This appendix provides an announcement of new and              GAO3
ongoing public audits by the agencies listed below, as of      Ongoing Audits
March 31, 2014. See Appendix I: “Key Oversight Reports         •	 	We are issuing another report on CPP the week of April 7.
and Testimony” for a listing of published reports. Italic          After that we will be issuing a report on CDCI in June and
style indicates narrative taken verbatim from the agencies’        on Ally in August.
responses to SIGTARP’s data call.
•	 	U.S. Department of Treasury Office of Inspector General    FDIC OIG4
    (“Treasury OIG”)                                           Ongoing Audits
•	 Federal Reserve Board Office of Inspector General           •	 None
    (“Federal Reserve OIG”)
•	 Government Accountability Office (“GAO”)                    Endnotes
                                                               1
                                                                 Treasury OIG, response to SIGTARP data call, 4/4/2014.
•	 Federal Deposit Insurance Corporation Office of Inspector   2
                                                                 Federal Reserve OIG, response to SIGTARP data call, 4/4/2014.
    General (“FDIC OIG”)                                       3
                                                                 GAO, response to SIGTARP data call, 4/4/2014.
                                                               4
                                                                 FDIC OIG, response to SIGTARP data call 4/1/2014.

Treasury OIG1
Ongoing Audits
•	 None

Federal Reserve OIG2
Ongoing Audits
•	 None
502        APPENDIX I I KEY OVERSIGHT REPORTS AND TESTIMONY I APRIL 30, 2014




      KEY OVERSIGHT REPORTS AND TESTIMONY
      This list reflects TARP-related reports and testimony published in the quarter ended March 31, 2014.
      See previous SIGTARP quarterly reports for lists of prior oversight reports and testimony.

      U.S. DEPARTMENT OF THE TREASURY (TREASURY)
      ROLES AND MISSION

      The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. Government’s finances
      effectively; promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial
      systems. Treasury advises the President on economic and financial issues, encourages sustainable economic growth, and fosters improved
      governance in financial institutions.

      OVERSIGHT REPORTS

      Treasury, Transactions Report, 1/1/2014 – 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20
      Transactions%20Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014. (released weekly)

      Treasury, Daily TARP Update, 1/2/2014 – 4/1/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily_TARP_Update%20
      -%2004.01.2014.pdf, accessed 4/2/2014.

      Treasury, TARP Monthly 105(a) Report, 1/10/2014 – 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%20
      2014%20Dividends%20Interest%20Report.pdf, accessed 4/10/2014.

      Treasury, Dividends and Interest Report, 1/10/2014 – 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%20
      2014%20Dividends%20Interest%20Report.pdf, accessed 4/10/2014. (released monthly)

      Treasury, Making Home Affordable Program Performance Report, 1/10/2014 – 4/4/2014, www.treasury.gov/initiatives/financial-stability/reports/
      Documents/February%202014%20MHA%20Report%20final.pdf, accessed 4/14/2014. (released monthly)

      Treasury, HAMP Activity by Metropolitan Statistical Area, 1/10/2014 – 4/4/2014, www.treasury.gov/initiatives/financial-stability/reports/
      Documents/MSA%20Data%20February%202014.pdf, accessed 4/14/2014. (released monthly)


      CONGRESSIONAL BUDGET OFFICE (CBO)
      ROLES AND MISSION

      CBO’s mandate is to provide Congress with objective, nonpartisan, and timely analyses to aid in economic and budgetary decisions on the wide
      array of programs covered by the Federal budget and the information and estimates required for the Congressional budget process.

      CBO assists the House and Senate Budget Committees and Congress more generally by preparing reports and analyses. In accordance with CBO’s
      mandate to provide objective and impartial analysis, CBO’s reports contain no policy recommendations.

      OVERSIGHT REPORTS

      CBO, “Report on the Troubled Asset Relief Program — April 2014,” 4/17/2014, www.cbo.gov/sites/default/files/cbofiles/attachments/45260-
      TARP.pdf, accessed 4/18/2014.
                                                                                            KEY OVERSIGHT REPORTS AND TESTIMONY I APPENDIX I I APRIL 30, 2014                         503




GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
ROLES AND MISSION

GAO is tasked with performing ongoing oversight of TARP’s performance, including:

•	   evaluating the characteristics of asset purchases and the disposition of assets acquired
•	   assessing TARP’s efficiency in using the funds
•	   evaluating compliance with applicable laws and regulations
•	   assessing the efficiency of contracting procedures
•	   auditing TARP’s annual financial statements and internal controls
•	   submitting reports to Congress at least every 60 days.


OVERSIGHT REPORTS

GAO, “Troubled Asset Relief Program: More Efforts Needed on Fair Lending Controls and Access for Non-English Speakers in Housing Programs,”
GAO-14-117, February 6, 2014, www.gao.gov/assets/670/660712.pdf, accessed 4/4/2014.

GAO, “Troubled Asset Relief Program: Status of the Wind Down of the Capital Purchase Program,” GAO-14-388, April 7, 2014, www.gao.gov/
assets/670/662340.pdf, accessed 4/22/2014.


OFFICE OF MANAGEMENT AND BUDGET (OMB)
ROLES AND MISSION

OMB’s predominant mission is to assist the President in overseeing the preparation of the Federal budget and to supervise its administration in Executive
Branch agencies. In helping to formulate the President’s spending plans, OMB evaluates the effectiveness of agency programs, policies, and procedures,
assesses competing funding demands among agencies, and sets funding priorities. OMB ensures that agency reports, rules, testimony, and proposed
legislation are consistent with the President’s Budget and with Administration policies.

In addition, OMB oversees and coordinates the Administration’s procurement, financial management, information, and regulatory policies. In each of these
areas, OMB’s role is to help improve administrative management, to develop better performance measures and coordinating mechanisms, and to reduce
any unnecessary burdens on the public.

OVERSIGHT REPORTS

OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2015,” 3/4/2014, www.whitehouse.gov/sites/default/files/
omb/budget/fy2015/assets/spec.pdf, accessed 4/18/2014.


SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
ROLES AND MISSION

Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of
the purchase, management, and sale of assets under the Troubled Asset Relief Program (“TARP”).

SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.

OVERSIGHT REPORTS

SIGTARP, “Taxpayer Complaints to Hotline Help SIGTARP Fight Fraud and Highlight Continuing Problems with TARP Housing Programs,” 1/29/2014, www.
sigtarp.gov/Audit%20Reports/SIGTARP_Hotline_Report.pdf, accessed 4/2/2014.

SIGTARP, “Quarterly Report to Congress,” 1/29/2014, www.sigtarp.gov/Quarterly%20Reports/January_29_2014_Report_to_Congress.pdf, accessed
4/3/2014.
Notes: Italic style indicates verbatim narrative taken from source documents.

Sources: Treasury, www.treasury.gov, accessed 4/3/2014; CBO, www.cbo.gov, accessed 4/18/2014; GAO, www.gao.gov, accessed 4/3/2014; OMB, www.whitehouse.gov/omb, accessed 4/18/2014;
SIGTARP, www.sigtarp.gov, accessed 4/3/2014; GAO, response to SIGTARP data call, 4/4/2014.
504           APPENDIX J I CORRESPONDENCE I APRIL 30, 2014




      CORRESPONDENCE
      This appendix provides a copy of the following correspondence:

      CORRESPONDENCE
      Date            From                 To                Regarding
      4/7/2014        SIGTARP              Treasury          HAMP Recommendation
      4/10/2014       SIGTARP              Treasury          Fraud Alert Recommendation
CORRESPONDENCE I APPENDIX J I APRIL 30, 2014   505
506   APPENDIX J I CORRESPONDENCE I APRIL 30, 2014
CORRESPONDENCE I APPENDIX J I APRIL 30, 2014   507
508   APPENDIX J I CORRESPONDENCE I APRIL 30, 2014
                                                                               PEER REVIEW RESULTS I APPENDIX K I APRIL 30, 2014   509




PEER REVIEW RESULTS
Peer Review of SIGTARP’s Audit Division                          Peer Review of SIGTARP’s Investigations Division
In September 2012, SIGTARP’s Audit Division passed               In August 2012, SIGTARP’s Investigations Division passed
its mandated external peer review with the highest rating        its mandated external peer review with the highest rating
possible, a peer review rating of pass. Government Auditing      possible, a peer review rating of compliance with the quality
Standards requires Federal Offices of Inspector General          standards established by CIGIE and the applicable Attorney
that perform audits or attestations in accordance with           General guidelines.
generally accepted government auditing standards to have an          The Department of Education Office of Inspector
appropriate system of quality control and to undergo external    General (“DE OIG”) conducted a comprehensive peer review
peer reviews at least once every three years. The SIGTARP        of the SIGTARP Investigations Division’s system of internal
Audit Division began operating in early 2009, and this was its   safeguards and management procedures.
first peer review.                                                   On August 29, 2012, the DE OIG’s report concluded that
    The Railroad Retirement Board Office of Inspector            SIGTARP’s system of internal safeguards and management
General (“RRB OIG”) conducted a comprehensive peer               procedures for its investigative functions in effect for the
review of the SIGTARP Audit Division’s system of quality         period ending May 2012 was in compliance with the quality
control in accordance with Government Auditing Standards         standards established by CIGIE and the applicable Attorney
and guidelines established by the Council of the Inspectors      General guidelines. These safeguards and procedures provide
General on Integrity and Efficiency (“CIGIE”). On                reasonable assurance of conforming with professional
September 4, 2012, the RRB OIG issued its System Review          standards in the planning, execution, and reporting of
Report on the operations of SIGTARP’s Audit Division. The        SIGTARP’s investigations
report noted that “the system of quality control for SIGTARP         The report is available on SIGTARP’s website at www.
in effect for the year ended March 31, 2012, has been            SIGTARP.gov, under “Audit and Other Reports.”
suitably designed and complied with to provide SIGTARP
with reasonable assurance of performing and reporting in         SIGTARP’s Peer Review of the Tennessee
conformity with applicable professional standards in all         Valley Authority Office of the Inspector General
material respects.”                                              Audit Organization
    The report is available on SIGTARP’s website at www.         On March 31, 2014, SIGTARP’s Audit and Evaluation
SIGTARP.gov, under “Audit and Other Reports.”                    Division completed an external quality control review of
                                                                 the audit operations of the Tennessee Valley Authority’s
                                                                 Office of the Inspector General (“TVA OIG”) and issued a
                                                                 final report. The TVA OIG received a peer review rating of
                                                                 pass – the highest rating possible. There are no outstanding
                                                                 recommendations.
                                                                     The report is available on the TVA OIG website at www.
                                                                 oig.tva.gov/peer-review.html.
                                                                                                                                                                                                                                                                      510
   ORGANIZATIONAL CHART
                                                                                                              Special Inspector General
                                                                                                                 Christy L. Romero
                                                                                                                                                                                                             EEO Program
                                                                                                                                                                                                               Manager
                                                                                                                                                                                                        Raymond Campbell
                                                                                                                          Deputy Special
                                                                                                                        Inspector General
                                                                                                                           Peggy Ellen




                                                                    Senior Policy Advisor             Chief of Staff                                Deputy SIG – LEAD
                                                                         Brian Sano                       Vacant                                     Roderick Fillinger




                                                                                                  Deputy Chief of Staff                           Assistant Deputy SIG –
                                                                                                                                                          LEAD
                                                                                                     Charles Jones
                                                                                                                                                        Lori Wagner
                                                                                                                                                                                                                                                                      APPENDIX L I ORGANIZATIONAL CHART I APRIL 30, 2014




                                                                                                                                                                                              Director of                     Director of
                                                                                                                                                                                            Communications                 Legislative Affairs
                                                                                                                                                                                              Troy Gravitt                 Joseph Cwiklinski




                        Deputy SIG – Investigations                     Deputy SIG –                                       Deputy SIG –                                                                            Deputy SIG – Operations
                                                                         Reporting                                     Audit and Evaluations
                               Scott Rebein                                                                                                                                                                                  Cathy Alix
                                                                           Vacant                                         Bruce Gimbel




                          Assistant Deputy SIG –                      Managing Editor                              Assistant Deputy SIG –
                              Investigations                                                                        Audit and Evaluations
                                                                           Vacant
                            Charles Gregorski                                                                                 Vacant




         Chief                 Investigative          HQ Operations
     Investigative              Operations
       Counsel                                                                                                                              Director of Policy &           ADSIG – Support               ADSIG – CFO                      ADSIG – CIO   ADSIG – HR
                                                          Hotline                                                                              Administration                 Services
    Kevin Gerrity                                                                                                                                                                                       Debbie Mathis                 Sangeeta Saraf    Sally Ruble
                                                                                                                                               Judith Grady                 Lynn Perkoski

                                                      Cyber Forensics
    Assistant Chief
     Investigative
       Counsel                                                                                 Director                      Director                      Director
      Rae Oliver                                                                            Leslye Burgess                 Craig Meklir                     Vacant


     Investigative
       Counsel                                                                          Auditors & Analysts            Auditors & Analysts           Auditors & Analysts




Note: SIGTARP Organizational chart as of 4/11/2014.
SIGTARP
SIG-QR-14-02

202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
